<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-954]
[From the U.S. Government Publishing Office]



 
                                                        S. Hrg. 111-954

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________


                                                       Energy and Water

                                                            Development

                                                         Appropriations

                                                            Fiscal Year
                                                                   2011

th CONGRESS, SECOND SESSION          111 

                                                                S. 3635

DEPARTMENT OF DEFENSE--CIVIL

DEPARTMENT OF ENERGY

DEPARTMENT OF THE INTERIOR

NONDEPARTMENTAL WITNESSES
      Energy and Water Development Appropriations, 2011 (S. 3635)


For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3c5b4c537c5f494f485459504c125f535112">[email&#160;protected]</a>  

 
54-965 PDF

2011

                                                        S. Hrg. 111-954

    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2011

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3635

 AN ACT MAKING APPROPRIATIONS FOR ENERGY AND WATER DEVELOPMENT FOR THE 
     FISCAL YEAR ENDING SEPTEMBER 30, 2011, AND FOR OTHER PURPOSES

                               __________

                      Department of Defense--Civil
                          Department of Energy
                       Department of the Interior
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________
                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

              Subcommittee on Energy and Water Development

                BYRON L. DORGAN, North Dakota, Chairman
ROBERT C. BYRD, West Virginia        ROBERT F. BENNETT, Utah
PATTY MURRAY, Washington             THAD COCHRAN, Mississippi
DIANNE FEINSTEIN, California         MITCH McCONNELL, Kentucky
TIM JOHNSON, South Dakota            CHRISTOPHER S. BOND, Missouri
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              RICHARD C. SHELBY, Alabama
FRANK R. LAUTENBERG, New Jersey      LAMAR ALEXANDER, Tennessee
TOM HARKIN, Iowa                     GEORGE V. VOINOVICH, Ohio
JON TESTER, Montana
DANIEL K. INOUYE, Hawaii (ex 
    officio)

                           Professional Staff

                               Doug Clapp
                             Roger Cockrell
                         Franz Wuerfmannsdobler
                    Carolyn E. Apostolou (Minority)
                         Tyler Owens (Minority)
                       LaShawnda Smith (Minority)

                         Administrative Support

                          Molly Barackman-Eder
                            C O N T E N T S

                              ----------                              

                        Thursday, March 4, 2010

                                                                   Page

Department of Energy.............................................     1

                       Wednesday, March 10, 2010

Deparment of Energy: National Nuclear Security Administration....    83

                        Thursday, March 11, 2010

Department of Defense--Civil: Department of the Army: Corps of 
  Engineers--Civil...............................................   151
Department of the Interior: Bureau of Reclamation................   171

                       Nondepartmental Witnesses

Department of Defense--Civil: Department of the Army: Corps of 
  Engineers--Civil...............................................   239
Department of the Interior: Bureau of Reclamation................   274
Department of Energy.............................................   298

 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        WEDNESDAY, MARCH 4, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Byron L. Dorgan (chairman) 
presiding.
    Present: Senators Dorgan, Murray, Landrieu, Reed, Tester, 
Bennett, Bond, and Alexander.

                          DEPARTMENT OF ENERGY

STATEMENT OF HON. STEVEN CHU, SECRETARY


              opening statement of senator byron l. dorgan


    Senator Dorgan. We are going to call the hearing to order. 
This is a hearing of the Senate Appropriations Subcommittee on 
Energy and Water Development.
    Mr. Secretary, welcome to you.
    The hearing today is to take testimony from Secretary Chu 
on the Department of Energy's fiscal year 2011 budget request.
    We will have other colleagues who will be joining us 
momentarily.
    And I wanted to mention at the start of the hearing that I 
am necessarily going to have to leave. The President is signing 
a piece of legislation that I authored at the White House. So I 
will be leaving in about an hour, but we will have someone take 
the chair at that point. Between now and then, we will have a 
discussion about the budget request.
    I would like to note that we will have Administrator 
D'Agostino before the subcommittee on March 10 to discuss the 
NNSA fiscal year 2011 budget request. That does not mean that 
we cannot ask about that today, but because he is going to be 
here, I just want people to be aware that we will have an 
opportunity to discuss that budget in some detail in 2 weeks' 
time.
    Further, on March 11, we will have a hearing with the Corps 
of Engineers and the Bureau of Reclamation on the fiscal year 
2011 budget request for water agencies, another very important 
hearing.
    Today's hearing and next week's hearing on the NNSA budget 
represent I think the good news for the subcommittee. Next 
Thursday, when we hear from the Corps of Engineers and the 
Bureau of Reclamation, we will be discussing budget cuts that 
exceed $500 million. That is not such good news if one believes 
water projects are both important investments in our country's 
infrastructure and job-creation and necessary. We are going to 
have a challenge of reconciling the overall budget request to 
the subcommittee because we are not going to have a half-a-
billion-dollar cut for water projects when this subcommittee 
completes its work. I would hope that would be the case.
    The budget request of $28.9 billion for the Energy 
Department is a generous 6 percent increase over the enacted 
fiscal year 2010 bill. Much of that increase is within the 
National Nuclear Security Administration's budget, which is up 
about 13 percent. Excluding NNSA, the remaining DOE programs 
are collectively up about 3 percent.
    I am pleased that the administration agrees that energy 
research is the key to maintaining our competitiveness 
internationally, as well as increasing our energy security. We 
need to continue to develop the technology that will allow us 
to harvest usable energy from the wind and the sun, even as we 
pursue responsible oil and gas development and ways to reduce 
carbon emitted when we use coal.
    The research that is required to get us to a cleaner energy 
future happens in this Department, and I am excited about the 
work that is coming out of the Department, Mr. Secretary.
    I do have some concerns and questions about the budget 
request, obviously, and we will talk about that. The 
significant priority on funding within the EERE is where 
programs are up collectively about $400 million. Only two 
programs are down from last year. One is hydrogen and the other 
is water power, and I have some concern, again, about the 
hydrogen programs which I feel we should continue. I know that 
you have continued those programs in this budget at a lower 
rate.
    The Office of Science also sees a 6 percent, or $295 
million, increase in its program funding, and there are new 
initiatives in science, including a proposed battery hub and a 
new program on combustion engines.
    Energy Frontier Research Centers and a fellowship program 
are proposed for expansion. Both of those programs have only 
been up for 2 years at this point. So they are now proposed to 
be expanded.
    The ARPA-E program is proposed at $300 million, and I think 
that is an exciting program. I know that there was a 
significant national gathering, Mr. Secretary, Monday and 
Tuesday of this week. I am told it was very successful, but I 
am a big supporter of this program and think it holds real 
promise in its approach to back high-risk, but high-reward 
technology in energy.
    Nuclear energy sees a significant increase with over $150 
million in new initiatives.
    I am concerned that we have a lot of new initiatives that 
we are proposing very significant increases to. I do not know 
that we know specifically how some of these new initiatives are 
working yet before we proceed with very large increases. We 
would like to see longer-term spending plans for some of these 
initiatives. NNSA, I might say, gives us the 5-year spending 
plan. It would be nice to see that in some of the rest of the 
areas.
    One of the concerns I have in the budget is--and this will 
not be a surprise to you, Secretary Chu, is regarding fossil 
energy. Fossil energy is proposed for an $86 million decrease, 
while other accounts receive a substantial increase. Coal 
provides about 50 percent of our electricity generated today in 
our country, and I believe that the use of coal, natural gas, 
and oil will continue to be used for decades to come in this 
country. So we have to find the means to use our fossil fuels 
and develop the technologies, put a price on carbon, and do so 
in a way that helps us mitigate greenhouse gas emissions. All 
of that is critically important.
    But I am concerned because the fossil energy account does 
not show me new, substantive, elements in the budget to address 
what I think is a critical need as well. I am a big fan of all 
the renewables and this search for new technology and new 
science, but I think it is important to keep our eye on the 
ball with respect to fossil energy, which we are going to 
continue to use.
    I have said before, Secretary Chu, you are a creative and 
innovative person who has demonstrated great skill in a lot of 
areas and I think much of that creativity and innovation is 
something we can see in your budget request. I am really 
pleased that you are where you are and while we will have some 
disagreements on the broader issues, I think that this budget 
request moves us down the road in some very important areas as 
well in a constructive way.
    Let me call on Senator Bennett for an opening statement.


             opening statement of senator robert f. bennett


    Senator Bennett. Thank you very much, Mr. Chairman.
    Secretary Chu, we are delighted to have you here, along 
with your team.
    I find myself in agreement with many of things the chairman 
has highlighted. The NNSA budget is something we will discuss 
at another hearing. So I will not get into that.
    But I agree with the chairman that energy research is 
something that we clearly need to do in a wide variety of 
areas, and investments in the energy sector are some of the 
most important we can make.
    Now, I am concerned with the priorities that I see in the 
budget with respect to energy research, and let us talk about 
some of those concerns.
    Talk about unobligated balances. I am assuming the budget 
request was considered without taking into account what was 
funding from the stimulus bill, or the Recovery Act. Over a 
year ago, with a promise of creating thousands of jobs and 
increasing energy efficiency, reducing the nuclear waste 
footprint--and these goals are far from being met. The 
Department of Energy is sitting on a tremendous balance of 
unspent funds. About $34 billion of the $36.7 billion 
appropriated remains unspent, 93 percent, as well as over $1 
billion in funds from prior year balances in numerous programs. 
The money seems to be piling up down there from prior 
appropriations bills.
    As one example, with over $5 billion available in 
weatherization funds, I cannot understand why your budget would 
include a 43 percent increase in the amount provided in fiscal 
year 2010 for this program, especially when the Department's 
own estimates indicate that the stimulus funds will not be 
spent until well in 2012.
    Now, another aspect that I find troubling is the same one 
the chairman has referred to, to slash the fossil energy R&D 
program by more than 20 percent. Here you have got all of this 
money unspent in this one area and then you are saying, well, 
we are going to cut fossil energy R&D by more than 20 percent, 
and this includes eliminating the natural gas technology's 
account and the unconventional fossil energy's technology line 
that we in this subcommittee included in last year's bill.
    So I am glad the chairman raised this as an issue. Fossil 
energy and particularly natural gas is the only energy that we 
have that will bridge the gap between today and the clean 
energy future that we are hoping for in, roughly, 30 to 40 
years. And that is a significant timeframe, and to be cutting 
back on the fuel that will allow us to deal with that timeframe 
is something I think we need to discuss.
    Now, if I can be specific with respect to my State on this 
question of fossil fuel research, you are halting research on 
unconventional resources in eastern Utah, southern Wyoming, and 
western Colorado. Every energy expert says that in that pool of 
shale oil, there is more oil than there is in Saudi Arabia, but 
it needs some research to figure out how to get it out. But it 
will remain virtually untapped if this research is not 
performed.
    Another area that concerned me is the sizable reduction to 
hydropower. Solar and wind receive unsustainable increases. You 
cannot spend that much money and you want to tax utilities to 
generate $200 million. Well, that was a non-starter last year. 
I think it will be a non-starter again this year. It leaves a 
$200 million hole in your budget.
    While I am in the West, let us talk about uranium sales. I 
was very concerned that the Department unilaterally decided to 
drop some of its inventory of uranium on the market this year, 
bartering uranium in exchange for cleanup work at the 
Portsmouth, Ohio site. Now, obviously, this caused great 
consternation with uranium miners due to a potential for steep 
drops in the price of uranium, and the spots sales approach is 
a bad deal for the taxpayer in my view. The Department is 
proposing increased appropriations for decontamination and 
decommissioning work at Portsmouth in fiscal year 2011 in lieu 
of continuing the bartering arrangement.
    Now, I understand the Department has not stated with 
certainty that it will discontinue the practice of dumping 
uranium on the market, and certainty is what the uranium 
industry or any other industry needs. Uncertainty always causes 
difficulties and challenges, and I hope we can have an 
opportunity to work together on this problem as we move 
forward.
    Now, on a more positive note, I think you are on the right 
track with your 5 percent increase in nuclear energy and the 
tripling of the loan guarantee authority for nuclear plant 
construction. The demand for loan guarantees in nuclear 
technology outstrips the current loan authority. It is going to 
be critical in jump starting the nuclear industry, and I think 
that is a key part of the path to energy that does not have 
greenhouse gas emissions.
    Now, while I am glad to see the increase and the tripling 
of the loan guarantee, the loan guarantee program has been 
mired in problems. And in the 5 years since it was authorized--
and that precedes your entry into the Department--only one 
guarantee has been issued. Five conditional commitments have 
been made, and it was the Department's intention to have 21 
commitments by the end of 2009. According to GAO, the program 
has been run in an ad hoc manner without any transparency to 
the applicants and the situation where there are different 
rules applied in different instances.
    And we would like to know if you have the tools in hand to 
make the program a success or whether you need additional 
legislative fixes. If you do need additional legislative fixes, 
let us know because I am supportive of providing the additional 
guarantee and would love to see demonstrable improvements to 
the program.
    Contract administration and project management, with over 
90 percent of your budget spent on contracts, improving 
contract administration, obviously, has to be a very high level 
issue. And DOE contract management has been on the GAO high 
risk list of programs ripe for fraud, waste, and abuse since 
1990. So again, this predates you and is not something that we 
can lay at your feet, but it is something that you inherited. 
And strengthening contract management includes the development 
of high quality cost estimates early on. The surprise we 
received a year ago when we held these hearings, Mr. Chairman, 
about enormous pension liabilities seem as illustrative of the 
problem you have when contracts are not managed properly.
    And I am glad to hear that the Department is beginning to 
get its arms around this problem, but we still do not know what 
the pension liability is going to be for this year or for next 
or how the Department plans to get this under control in the 
future. And the amount to cover the shortfall is potentially in 
the hundreds of millions of dollars. So this is something that 
we are going to follow closely.
    Now, to close, I have a bittersweet example of something I 
am concerned about. The Moab tailings sites in my home State 
have met all of its milestones. It has got a million tons of 
tailings shipped and disposed of. It is coming in under budget 
and ahead of schedule. And the project is slated to be 
decreased to $8 million, or 20 percent, in this budget. And I 
say, wait a minute. Is this a good deed that is going 
unpunished as they are moving these tailings in a very 
expeditious way and get rewarded for that by having a cut in 
the budget and a suggestion that they will slow down the 
excellent progress that they have established?
    So, on that parochial note Mr. Chairman, thank you very 
much for the opportunity to comment.
    Senator Dorgan. Senator Bennett, thank you very much.
    Unless there is objection, I am going to welcome Secretary 
Chu's testimony, and then we will have robust rounds of 
questions. Senator Reed, does that work for you?
    Senator Reed. All right.
    Senator Dorgan. All right, and Senator Tester.
    Senator Tester. Okay.
    Senator Dorgan. Mr. Secretary, thank you very much and why 
do you not proceed? Your entire statement will be made a part 
of the permanent record and we would ask that you summarize. 
Thank you very much.


                      statement of hon. steven chu


    Secretary Chu. Thank you, Chairman Dorgan, Ranking Member 
Bennett. I hope to respond to your questions later, but let me 
first go through my remarks.
    Senator Dorgan. You may respond as you wish in your opening 
statement or as an adjunct to your opening statement as well.
    Secretary Chu. Well, if there is time.
    Chairman Dorgan, Ranking Member Bennett, members of the 
subcommittee, I thank you for the opportunity to be before you 
today to talk about the President's budget request.
    President Obama has stated that ``the Nation that leads the 
world in creating new sources of clean energy will be the 
Nation that leads the 21st century economy.'' And I share this 
view.
    The President's 2011 budget request for $28.4 billion for 
the Department of Energy will help position the United States 
to be a global leader in the new energy economy. The budget 
request makes much-needed investments to harness the power of 
American ingenuity. This request will create clean energy jobs, 
expand the frontiers of science, reduce nuclear dangers, and 
help curb the carbon pollution that threatens our planet.
    The President's budget request includes an investment of 
$2.4 billion in energy efficiency and renewable sources of 
energy. It also proposes innovative energy efficiency and 
renewable energy projects through $500 million in credit 
subsidy that will support $3 billion to $5 billion in lending. 
It expands the Advanced Manufacturing Tax Credit by $5 billion, 
a program that was oversubscribed by three to one, to help 
build a robust domestic manufacturing capacity for clean energy 
technologies. Through this budget, we will increase research, 
demonstration, and deployment of wind, solar, and geothermal 
energies; make buildings and homes more efficient; develop 
energy-efficient vehicles; and pursue carbon capture and 
sequestration.
    Nuclear energy must also be part of our clean energy mix. 
Our budget request includes an additional $36 billion in loan 
guarantee authority for the nuclear power sector, as well as 
$495 million for nuclear energy research and development. On 
February 16th, President Obama announced conditional 
commitments for more than $8 billion in loan guarantees for 
what will be the first nuclear powerplant to break ground in 
nearly three decades.
    We have many technologies in hand today to begin the 
transition to a low-carbon economy, but we will need 
breakthroughs and better technologies to meet our long-term 
goals. The budget request invests in basic and applied research 
and puts us on a path to doubling funding for science, a key 
presidential priority.
    The budget request supports the Department's three new 
complementary approaches to marshalling the Nation's brightest 
minds to accelerate energy breakthroughs.
    We will continue funding the three Energy Innovation Hubs 
introduced in 2010. In addition, we are proposing a new hub to 
dramatically improve batteries and energy storage.
    The Energy Frontier Research Centers program will be 
expanded to capture new and emerging opportunities.
    And the fiscal year 2011 budget request includes $300 
million to pursue potentially transformative technologies 
through the Advanced Research Projects Agency-Energy.
    We are also requesting $55 million to start RE-ENERGYSE 
initiatives to support K through 20-plus science and 
engineering education.
    In addition to the health of our economy and our planet, 
the Department of Energy is focused on the safety and security 
of our people. Last April in Prague, President Obama outlined 
an ambitious agenda to address the greatest threat to global 
security, the danger of terrorists getting their hands on 
nuclear weapons or the material to build them. The Department 
is requesting a significant increase, more than $550 million in 
new funding, for the NNSA Defense Nuclear Nonproliferation 
program to help meet the President's goals of securing all 
vulnerable nuclear materials around the world in 4 years.
    The President has also made clear that as long as nuclear 
weapons continue to exist, it is essential we ensure the 
safety, security, and effectiveness of our nuclear stockpile. 
With the $7 billion in funds we have requested, we can upgrade 
our infrastructure that has been allowed to decay in the past 
decade, support the work of our national labs, and recruit the 
skilled workforce we need.
    The budget also protects public health and safety by 
cleaning up the environmental legacy of the Nation's nuclear 
weapons program. In 2010, the Department will discontinue its 
application to the U.S. Nuclear Regulatory Commission for a 
license to construct a high-level waste geological repository 
at Yucca Mountain.
    To deal with our nuclear waste management needs, the 
administration has announced an independent, bipartisan 
commission, co-chaired by General Brent Scowcroft and 
Congressman Lee Hamilton, to conduct a comprehensive review of 
the back end of the fuel cycle and to provide recommendations 
for a safe, long-term solution.
    Building a clean energy future will not be easy, but it is 
necessary for our economy and our security. As a scientist, I 
am optimistic. I believe we can meet the challenge and lead the 
world in the 21st century.


                           prepared statement


    President Obama and I look forward to working with this 
subcommittee and this Congress to build a stronger, safer, more 
prosperous future. Thank you. I am pleased to take questions at 
this time.
    [The statement follows:]
                 Prepared Statement of Hon. Steven Chu
    Chairman Dorgan, Ranking Member Bennett, and members of the 
subcommittee, thank you for the opportunity to appear before you today 
to discuss the President's fiscal year 2011 budget request for the 
Department of Energy.
    President Obama has stated, ``The nation that leads the world in 
creating new sources of clean energy will be the nation that leads the 
21st century global economy.'' I fervently share this view. The 
President's fiscal year 2011 budget request of $28.4 billion will help 
position the United States to be the global leader in the new energy 
economy. The budget request makes much-needed investments to harness 
the power of American ingenuity. This request will create clean energy 
jobs, expand the frontiers of science, reduce nuclear dangers, and help 
curb the carbon pollution that threatens our planet. As part of this 
administration's commitment to fiscal responsibility, the Department of 
Energy is also proposing several program reductions and terminations.
                 american recovery and reinvestment act
    The fiscal year 2011 budget request builds on the investments in 
the American Recovery and Reinvestment Act. Through the $36.7 billion 
the Department received from the Recovery Act, we are putting Americans 
to work, while helping to build a clean energy economy, spur energy 
innovation, and reduce our dependence on oil. We've begun to make our 
homes and offices more energy efficient, modernize our grid, and invest 
in key renewable energy projects. Getting this money out the door 
quickly, carefully, and transparently has been and will continue to be 
a top priority for me.
         fiscal year 2011 budget supports strategic priorities
    To continue the progress we have made, the fiscal year 2011 budget 
request supports the Department's strategic priorities of:
  --Transitioning to a low-carbon economy by developing and deploying 
        clean and efficient energy technologies, increasing generation 
        capacity and improving our transmission capabilities;
  --Investing in scientific discovery and innovation to find solutions 
        to pressing energy challenges and maintain American economic 
        competitiveness; and
  --Enhancing national security by ensuring the safety, security and 
        effectiveness of the nuclear stockpile without testing. The 
        budget request also includes funds to work with our 
        international partners to secure vulnerable nuclear material 
        around the world within 4 years, and advance our nuclear legacy 
        cleanup.
    These strategic priorities will be enabled by a continued 
commitment to improving the management and fiscal performance of the 
Department.
                                 energy
    To transition to a low-carbon future, we must change the way we 
generate and use energy. The President's budget request invests in 
clean energy priorities, including an investment of $2.4 billion in 
energy efficiency and renewable sources of energy. It also promotes 
innovative energy efficiency and renewable energy projects through $500 
million in credit subsidy that will support $3 to $5 billion in 
lending. It expands the Advanced Manufacturing Tax Credit by $5 billion 
to help build a robust domestic manufacturing capacity for clean energy 
technologies. Through this budget, we will increase research, 
demonstration, and deployment of wind, solar and geothermal energies; 
make buildings and homes more efficient; develop energy efficient 
vehicles; and pursue carbon capture and sequestration.
    Nuclear energy must also be a part of our clean energy mix. During 
his State of the Union address, President Obama said, ``To create more 
of these clean energy jobs, we need more production, more efficiency, 
more incentives. And that means building a new generation of safe, 
clean nuclear power plants in this country.'' The President and I are 
committed to restarting our domestic nuclear industry. Our budget 
request includes an additional $36 billion in loan guarantee authority 
for the nuclear power sector to help construct the first new nuclear 
plants in decades, as well as $495 million for research and development 
to support the competitiveness, safety and proliferation resistance of 
nuclear energy in the United States and abroad. On February 16, 
President Obama announced conditional commitments for more than $8 
billion in loan guarantees for what will be the first U.S. nuclear 
power plant to break ground in nearly three decades.
                               innovation
    We have many technologies in hand today to begin the transition to 
a low-carbon economy, but we will need breakthroughs and better 
technologies to meet our long-term goals. The budget request invests in 
basic and applied research and puts us on the path to doubling funding 
for science, a key presidential priority. We are also requesting $55 
million to start the RE-ENERGYSE initiative to help educate the next 
generation of scientists and engineers.
    The budget request also supports the Department's three new, 
complementary approaches to marshalling the Nation's brightest minds to 
accelerate energy breakthroughs.
    The first approach is the Energy Innovation Hubs. The Hubs are 
multidisciplinary, goal-oriented, and will be managed by top teams of 
scientists and engineers with enough resources and authority to move 
quickly in response to new developments. They are to be modeled after 
laboratories such as MIT's Radiation Laboratory, which developed radar 
during World War II, and Bell Laboratories when it invented and 
developed the transistor. Ideally, this work will be conducted under 
one roof. The Department will continue funding the three Energy 
Innovation Hubs introduced in fiscal year 2010. In addition, we are 
proposing a new Hub to dramatically improve batteries and energy 
storage.
    The second approach is the Energy Frontier Research Centers. The 
EFRCs are mainly university-based, problem-oriented research. We have 
identified key scientific barriers to energy breakthroughs, and we 
believe we can clear these roadblocks faster by linking together small 
groups of researchers across departments, schools, and institutions. 
The Department proposes expanding the Energy Frontier Research Centers 
to capture emerging opportunities in new materials and basic research 
for energy needs.
    The third funding approach is the Advanced Research Projects 
Agency-Energy (ARPA-E). ARPA-E is technology-oriented. We are seeking 
the boldest and best ideas for potentially transformative energy 
technologies and funding them to see if they work. The fiscal year 2011 
budget request includes $300 million for ARPA-E. ARPA-E is also 
dedicated to the market adoption of these new technologies. This week, 
ARPA-E sponsored a very successful conference here in Washington to 
bring together our Nation's energy innovators. I want to thank Chairman 
Dorgan for attending this event.
                                security
    In addition to the health of our economy and our planet, the 
Department of Energy is focused on the safety and security of our 
people. Last April in Prague, President Obama outlined an ambitious 
agenda to address the greatest threat to global security--the danger of 
terrorists getting their hands on nuclear weapons or the material to 
build them. The Department is requesting a significant increase in the 
budget--more than $550 million in new funding--for the NNSA Defense 
Nuclear Nonproliferation program to help meet the President's goal of 
securing all vulnerable nuclear materials around the world in 4 years.
    The President has also made clear that, as long as nuclear weapons 
continue to exist, it is essential that we ensure the safety, security 
and effectiveness of our nuclear stockpile. With the $7 billion in 
funds we have requested, we can upgrade our infrastructure that has 
been allowed to decay in the past decade, support the cutting-edge work 
of our National Labs, and recruit the skilled workforce we need today 
and in the future. Over the next 5 years, we intend to boost this 
funding by more than $5 billion. Even in a time of tough budget 
decisions, we must make this investment for the sake of our security.
    The budget request also protects public health and safety by 
cleaning up the environmental legacy of the Nation's nuclear weapons 
program. In 2010 the Department will discontinue its application to the 
U.S. Nuclear Regulatory Commission for a license to construct a high-
level waste geologic repository at Yucca Mountain.
    Both the President and I have made clear that Yucca Mountain is not 
an option. To deal with our nuclear waste management needs, the 
administration has brought together a range of experts to conduct a 
comprehensive review of the back end of the fuel cycle. The Blue Ribbon 
Commission announced recently, and co-chaired by General Brent 
Scowcroft and Congressman Lee Hamilton, will provide recommendations 
for developing a safe, long-term solution to managing the Nation's used 
nuclear fuel and its nuclear waste.
    As part of our comprehensive strategy to restart the nuclear 
industry, we also propose breaking down artificial stovepipes and 
merging the Office of Civilian Radioactive Waste Management into the 
Office of Nuclear Energy.
                               management
    Finally, in order to transform the way Americans generate and use 
energy, we must transform the Department itself. As part of the Obama 
administration's reform agenda, the budget request includes $2 million 
to establish a new Management Reform initiative to provide strategic 
direction, coordination and oversight of reform initiatives. This 
initiative will report directly to me and will receive close personal 
attention. We made important reforms when we began to implement the 
Recovery Act, and now we need to institutionalize those reforms and 
apply them across the Department.
    Additionally, we are committed to being good stewards of the 
taxpayers' money. As we developed the budget, we looked to eliminate or 
reduce programs where we could. For example, we eliminated more than 
$2.7 billion in tax subsidies for oil, coal and gas industries. This 
step is estimated to generate more than $38.8 billion in revenue for 
the Federal Government over the next 10 years.
    Building a clean energy future won't be easy, but it is necessary 
for our economy and our security. As a scientist, I am an optimist, and 
I believe that we can meet this challenge and lead the world in the 
21st century.
     highlights of the fiscal year 2011 department of energy budget
    The Department's fiscal year 2011 budget request of $28.4 billion, 
a 6.8 percent or $1.8 billion increase from fiscal year 2010, supports 
the President's commitment to respond in a considered, yet expeditious 
manner to the challenges of rebuilding the economy, maintaining nuclear 
deterrence, securing nuclear materials, improving energy efficiency, 
incentivizing production of renewable energy, and curbing greenhouse 
gas emissions that contribute to climate change. Together with the 
American Recovery and Reinvestment Act of 2009 (Recovery Act) and 
fiscal year 2010 budget, the fiscal year 2011 budget request supports 
investment for a multi-year effort to address these interconnected 
challenges.
    The fiscal year 2011 budget builds on the $36.7 billion in Recovery 
Act funding. By the end of fiscal year 2010, the Department expects to 
obligate 100 percent and outlay roughly 35-40 percent of Recovery Act 
funds. In developing the fiscal year 2011 budget request, the 
Department has taken these investments into account. Recovery Act 
investments in energy conservation and renewable energy sources ($16.8 
billion), environmental management ($6 billion), funds supporting loan 
guarantees for renewable energy and electric power transmission 
projects ($4 billion), grid modernization ($4.5 billion), carbon 
capture and sequestration ($3.4 billion), basic science research ($1.6 
billion), and the establishment of the Advanced Research Projects 
Agency--Energy ($0.4 billion) will continue to strengthen the economy 
by providing much-needed investment, by saving or creating tens of 
thousands of direct jobs, cutting carbon emissions, and reducing U.S. 
dependence on oil.
    The President's fiscal year 2011 budget supports our three 
strategic priorities:
  --Innovation.--Investing in science, discovery and innovation to 
        provide solutions to pressing energy challenges
  --Energy.--Providing clean, secure energy and promoting economic 
        prosperity through energy efficiency and domestic forms of 
        energy
  --Security.--Safeguarding nuclear and radiological materials, 
        advancing responsible legacy cleanup, and maintaining nuclear 
        deterrence
    These strategic priorities will be enabled by a continued 
commitment to management excellence:
  --Management.--Transforming the culture of the Department with a 
        results-oriented approach
Innovation--Investing in Science, Discovery and Innovation to Provide 
        Solutions to Pressing Energy Challenges
    As President Obama made clear in his remarks to the National 
Academy of Sciences in April 2009, the public sector must invest in 
research and innovation not only because the private sector is 
sometimes reluctant to take large risks, but because the rewards will 
be broadly shared across the economy. Leading requires assembling a 
critical mass of the best scientists and engineers to engage in 
mission-oriented, cross-disciplinary approaches to addressing current 
and future energy challenges. To develop clean energy solutions and 
maintain nuclear security, the Department must cultivate the science, 
technology, engineering, and mathematics workforce of the next 
generation. The fiscal year 2011 budget request of $55 million for RE-
ENERGYSE (Regaining our ENERGY Science and Engineering Edge) supports 
K-20+ science and engineering education.
    With every initiative the Department undertakes, sound science must 
be at the core. In fiscal year 2011 the Department will increasingly 
emphasize cross-cutting initiatives to link science throughout the 
Department, specifically with energy and national security programs. 
These cross-cutting initiatives will enhance science capabilities to 
create knowledge and innovative technologies that can be brought to 
bear on national energy and security issues, leverage world-class 
science and engineering expertise to establish global leadership as 
clean energy innovators, and employ use-inspired research to reduce the 
cost and time to bring technologies to market at scale. The Department 
believes that it will deliver solutions more quickly and efficiently 
through our efforts to break down the traditional stovepipes and 
operate in a more integrated and coordinated manner. The fiscal year 
2011 budget continues to address the President's priorities in an 
integrated and efficient manner, and to deliver results for the 
American taxpayer.
    The Department continues its strong commitment to basic research 
and supports the President's Plan for Science and Innovation by 
requesting funding for the Office of Science at $5.1 billion, a 4.4 
percent or $218 million increase from fiscal year 2010. The fiscal year 
2011 budget request will support the training of students and 
researchers in fields critical to national competitiveness and 
innovation, and will support investments in areas of research essential 
for a clean energy future. The President's Plan commits to doubling 
Federal investment in basic research at select agencies. The Department 
supports an overarching commitment to science by investing in basic and 
applied research, creating new incentives for private innovation and 
promoting breakthroughs in energy.
    To help achieve the game-changing breakthroughs needed to continue 
leading the global economy, the fiscal year 2011 budget request 
includes $300 million for the Advanced Research Projects Agency-Energy 
(ARPA-E). Introduced in fiscal year 2009, ARPA-E is responsible for 
enabling specific high-risk and high-payoff transformational research 
and development projects. Beyond simply funding transformational 
research that creates revolutionary technologies, ARPA-E is dedicated 
to the market adoption of those new technologies to meet the Nation's 
long-term energy challenges. This funding, along with the $400 million 
made available through the Recovery Act, will provide sustained 
investment in this pioneering program.
    The Department will continue funding the three Energy Innovation 
Hubs introduced in fiscal year 2010 to focus on developing fuels that 
can be produced directly from sunlight, improving energy efficient 
building systems design, and using modeling and simulation tools to 
create a virtual model of an operating advanced nuclear reactor. In 
addition, DOE is proposing a new Hub to focus on batteries and energy 
storage. Each of these Hubs will bring together a multidisciplinary 
team of researchers in an effort to speed research and shorten the path 
from scientific discovery to technological development and commercial 
deployment of highly promising energy-related technologies.
    Complementing the Hubs, the Department proposes expanding the 
Energy Frontier Research Centers in fiscal year 2011 to capture new, 
emerging opportunities by furthering its scientific reach and potential 
technological impact by competitively soliciting in two categories: 
discovery and development of new materials critical to science 
frontiers and technology innovations, and basic research for energy 
needs.
Energy--Providing Clean, Secure Energy and Promoting Economic 
        Prosperity through Energy Efficiency and Domestic Forms of 
        Energy
    In Copenhagen, President Obama emphasized that climate change is a 
grave and growing danger. The imperative now is to develop the capacity 
to confront the challenges climate change poses and seize the 
opportunity to be the global leader in the clean energy economy. 
Meeting the administration's goal to reduce carbon emissions by more 
than 80 percent by 2050 will be achieved by addressing supply and 
demand through increased energy efficiency, renewable generation, and 
grid modernization, as well as improvements in existing technologies 
and information analysis. An important tool that will continue to be 
used to address these issues will be loan guarantees. The Department's 
fiscal year 2011 budget request, building on the fiscal year 2010 
budget and the Recovery Act, invests in the research, development, and 
deployment of technologies that will position the United States to lead 
international efforts to confront climate change now and in the future. 
The long-term economic recovery will be sustained by these continued 
investments in the new energy economy.
            Loan Guarantees
    The Loan Guarantee Program Office (LGPO) is a vital tool for 
promoting innovation in the energy sector across a broad portfolio of 
clean and efficient energy technologies. In fiscal year 2011, the 
Department is requesting funding and authority to support approximately 
$40 billion in additional loan authority for innovative energy 
technology development. During fiscal year 2010, the LGPO streamlined 
the application review process. The new authority requested will help 
the Department to encourage and accelerate the availability of loans to 
leverage private sector investment in clean energy projects that will 
save and create jobs and stimulate the economy.
            Energy Efficiency
    In August 2009, President Obama said, ``If we want to reduce our 
dependence on oil, put Americans back to work and reassert our 
manufacturing sector as one of the greatest in the world, we must 
produce the advanced, efficient vehicles of the future.'' In fiscal 
year 2011, the Department will promote energy efficiency in vehicles 
technologies, at $325 million. No less important to achieving the 
President's stated ambitions is decreasing energy consumption through 
developing and advancing building technologies ($231 million) and 
industrial technologies ($100 million). Federal assistance for State-
level programs, such as State Energy Program grants ($75 million, a 50 
percent increase from fiscal year 2010) and Weatherization Assistance 
grants ($300 million, a 43 percent increase from fiscal year 2010), 
will help States and individuals take advantage of efficiency measures 
for buildings and homes, lower energy costs and greenhouse gas 
emissions, and develop an ever-evolving, technically proficient 
workforce.
            Clean, Renewable Energy Generation
    The fiscal year 2011 budget request will modernize the Nation's 
energy infrastructure by investing in a variety of renewable sources 
such as solar ($302 million), wind ($123 million), water ($41 million), 
hydrogen ($137 million), biomass ($220 million) and geothermal ($55 
million). These sources of energy reduce the production of greenhouse 
gas emissions and continue the pursuit of a clean energy economy built 
on the next generation of domestic production. The Department is also 
continuing to promote domestic clean energy through the four Power 
Marketing Administrations, which market and deliver electricity 
primarily generated by hydroelectric dams.
            Grid Modernization
    In support of the modernization of the electricity grid, the 
President's fiscal year 2011 budget requests $144 million for research 
and development to improve reliability, efficiency, flexibility, and 
security of electricity transmission and distribution networks. The 
``Smart Grid'' will integrate new and improved technologies into the 
energy mix, ensuring reliability, integration of renewable energy 
resources, and improving security.
    While investing in energy efficiency, renewable energy generation, 
and grid modernization are fundamental steps necessary for creating a 
clean energy economy; investing in the improvement of existing sources 
of energy will provide a bridge between current and future 
technologies. These technologies are already a major segment of the 
energy mix and will play a critical role in providing a solid 
foundation that will make possible the creation of this new economy.
            Safe and Secure Nuclear Energy
    Nuclear energy currently supplies approximately 20 percent of the 
Nation's electricity and 70 percent of the Nation's clean, non-carbon 
electricity. The request for the Office of Nuclear Energy includes $495 
million for research, development, and demonstration in addition to 
investments in supportive infrastructure. Work on advanced reactor 
technologies, fuel cycle technologies, waste management, and cross-
cutting technologies and transformative concepts will help ensure that 
nuclear energy remains a safe, secure, economical source of clean 
energy. The Department will also promote nuclear energy through the 
Loan Guarantee Program, which is requesting an additional $36 billion 
in loan authority for nuclear power in fiscal year 2011 (for a total of 
$54.5 billion).
            Clean and Abundant Fossil Energy
    The world will continue to rely on coal fired electrical generation 
to meet energy demand. It is imperative that the United States develop 
the technology to ensure that base-load electricity generation is as 
clean and reliable as possible. The Office of Fossil Energy will invest 
$438 million in the research and development of advanced coal-fueled 
power systems and carbon capture and storage technologies. This will 
allow the continued use of the abundant domestic coal resources in the 
United States while reducing greenhouse gas emissions.
    Accurate energy information and analysis play a critical role in 
promoting efficient energy markets and informing policy-making and 
strategic planning. This budget requests a total of $129 million for 
the Energy Information Administration, the statutory statistical agency 
within the Department, to improve energy data and analysis programs.
Security--Safeguarding Nuclear and Radiological Materials, Advancing 
        Responsible Legacy Cleanup and Maintaining Nuclear Deterrence
            Reduces the Risk of Proliferation
    In an April 2009 speech in Prague, the President called the threat 
of nuclear proliferation ``the most immediate and extreme threat to 
global security'' and announced his support for a new international 
effort to secure all vulnerable nuclear material around the world 
within 4 years. The fiscal year 2011 budget for the NNSA Defense 
Nuclear Nonproliferation program supports this effort, recognizing the 
urgency of the threat and making the full commitment to global 
cooperation that is essential to addressing this threat. The budget 
provides $2.7 billion in fiscal year 2011, and $13.7 billion through 
fiscal year 2015 to detect, secure, and dispose of dangerous nuclear 
and radiological material worldwide. This request is an increase of 26 
percent or $550 million from fiscal year 2010. The budget supports 
cooperative nonproliferation initiatives with foreign governments and 
the effort and expertise to forge them into durable international 
partnerships, achieving the objective of a world without nuclear 
weapons. The budget continues the installation of radiation detection 
equipment at international border crossings and Megaports, 
significantly expands materials protection and control security 
upgrades at selected sites in foreign countries to address outsider and 
insider threats, and accelerates the pace of highly enriched uranium 
research reactor conversions with an urgent focus to develop the 
capability to produce the medical isotope molybdenum-99 in the United 
States using low enriched uranium. The fiscal year 2011 budget request 
provides $4.4 billion over 5 years for Fissile Materials Disposition 
including the construction of U.S. facilities for the disposition of 
U.S. weapons-grade plutonium in fulfillment of our commitment with the 
Russian Federation under the Plutonium Management and Disposition 
Agreement of September 2000, and provides the first $100 million of a 
$400 million U.S. commitment to advance the construction of plutonium 
disposition facilities in the Russian Federation. The fiscal year 2011 
budget request also supports a funding increase for Nonproliferation 
and Verification Research and Development for new technologies in 
support of treaty monitoring and verification.
            Leverages Science to Maintain Nuclear Deterrence
    The fiscal year 2011 budget request advances the Department's 
commitment to the national security interests of the United States 
through stewardship of a safe, secure and effective nuclear weapons 
stockpile without the use of underground nuclear testing. As the role 
of nuclear weapons in our Nation's defense evolves and the threats to 
national security continue to grow, the focus of this enterprise must 
also change and place its tremendous intellectual capacity and unique 
facilities in the service of addressing other challenges related to 
national defense. NNSA is taking steps to move in this direction, 
including functioning as a national science, technology, and 
engineering resource to other agencies with national security 
responsibilities. NNSA must ensure our evolving strategic posture 
places the stewardship of our nuclear stockpile, nonproliferation 
programs, counterterrorism, missile defenses, and the international 
arms control objectives into one comprehensive strategy that protects 
the American people and our allies. Through the NNSA, the Department 
requests $7.0 billion for the Weapons Activities appropriation, a 9.8 
percent or $624 million increase from the fiscal year 2010 
appropriation. This increase provides a strong basis for transitioning 
to a smaller nuclear stockpile, strengthens the science, technology and 
engineering base, modernizes key nuclear facilities, and streamlines 
the enterprise's physical and operational footprint.
    These investments will enable execution of a comprehensive nuclear 
defense strategy based on current and projected global threats that 
relies less on nuclear weapons, yet enhances national security by 
strengthening the NNSA's nuclear security programs. This improved NNSA 
capability base will mitigate the concerns regarding ratification of 
the follow-on Strategic Arms Reduction Treaty and the Comprehensive 
Test Ban Treaty. The fiscal year 2011 request for Weapons Activities 
has four major components. The request for Stockpile Support increases, 
reflecting the President's commitment to maintain the safety, security 
and effectiveness of the nuclear deterrent without underground nuclear 
testing, consistent with the principles of the Stockpile Management 
Program outlined in section 3113(a)(2) of the National Defense 
Authorization Act of fiscal year 2010 (50 U.S.C. 2524). The request for 
Science, Technology and Engineering increases by over 10 percent, and 
provides the funding necessary to protect and advance the scientific 
capabilities at the U.S. nuclear security laboratories supporting the 
stockpile and broader national security and energy issues. The budget 
request for infrastructure supports the operation and maintenance of 
the Government-owned, contractor-operated facilities in the nuclear 
security enterprise, as well as special capabilities for secure 
transportation and construction. The security and counterterrorism 
component of the budget provides for physical and cyber security in the 
NNSA enterprise, as well as emergency response assets and NNSA's 
focused research and development contribution to the Nation's 
counterterrorism efforts.
            Advances Responsible Environmental Cleanup
    The fiscal year 2011 budget includes $6 billion for the Office of 
Environmental Management to protect public health and safety by 
cleaning up hazardous, radioactive legacy waste from the Manhattan 
Project and the cold war. This funding will allow the program to 
continue to accelerate cleaning up and closing sites, focusing on 
activities with the greatest risk reduction.
    As the Department continues to make progress in completing clean-
up, the fiscal year 2011 budget request of $189 million for the Office 
of Legacy Management supports the Department's long-term stewardship 
responsibilities and payment of pensions and benefits for former 
contractor workers after site closure.
    The administration has determined that the Yucca Mountain 
repository is not a workable option and has decided to terminate the 
Office of Civilian Radioactive Waste Management. The core functions and 
staff to support efforts under the Nuclear Waste Policy Act to meet the 
obligation of the Government will transfer to the Office of Nuclear 
Energy by the end of fiscal year 2010.
Management--Transforming the Culture of the Department With a Results-
        Oriented Approach
    In order to transform the way Americans use and produce energy, we 
must transform the Department of Energy. The Department is committed to 
strengthening its management culture and increasing its focus on 
results. The implementation of the Recovery Act provided the Department 
with an opportunity to continue to refine best practices in management, 
accountability, operations, and transparency. These best practices will 
be applied in executing the fiscal year 2011 budget.
    To achieve our strategic priorities, the Department requests a net 
of $169 million for departmental administration. These funds, along 
with resources in individual program offices, will help transform key 
functional areas such as human, financial, project, and information 
technology management. The request includes $2 million for Management 
Reform within the Office of the Secretary, which will provide the 
Department with strategic direction, coordination, and oversight of 
reform initiatives.
    department of energy fiscal year 2011 program office highlights
Office of Science--Supporting Cutting-Edge Foundational Scientific 
        Research
    The Department of Energy's Office of Science (SC) delivers 
discoveries and scientific tools that transform our understanding of 
energy and matter and advance the national, economic, and energy 
security of the United States. SC is a primary sponsor of basic 
research in the United States, leading the Nation to support the 
physical sciences in a broad array of research subjects in order to 
improve energy security and address issues ancillary to energy, such as 
climate change, genomics, and life sciences. In fiscal year 2011, the 
Department requests $5.1 billion, an increase of 4.4 percent over the 
enacted fiscal year 2010 appropriation, to invest in science research. 
The fiscal year 2011 request supports the President's Plan for Science 
and Innovation, which encompasses the entire SC budget, as part of a 
strategy to double overall basic research funding at select agencies. 
As part of this plan, the budget request supports the training of 
students and researchers in fields critical to our national 
competitiveness and innovation economy, and supports investments in 
areas of research critical to our clean energy future and to making the 
United States a leader on climate change.
    SC is addressing critical societal challenges and key missions of 
the Department of Energy through significant improvements in existing 
technologies and development of new energy technologies. SC will 
accomplish this by: (1) sustained investments in exploratory and high-
risk research in traditional and emerging disciplines, including the 
development of new tools and facilities; (2) focused investments in 
high-priority research areas; and (3) investments that train new 
generations of scientists and engineers to be leaders in the 21st 
century. The fiscal year 2011 budget request supports all three of 
these investment strategies.
    Two of the four Energy Innovation Hubs being requested in fiscal 
year 2011 are through the Office of Science; these Hubs will bring 
together teams of experts from multiple disciplines to focus on two 
grand challenges in energy: (1) Fuels from Sunlight, a Hub established 
in fiscal year 2010 and (2) Batteries and Energy Storage, a new Hub in 
the fiscal year 2011 request.
    The Energy Frontier Research Centers (EFRC) program will be 
expanded in the fiscal year 2011 request to capture new, emerging 
opportunities by furthering its scientific reach and potential 
technological impact. New EFRCs will be competitively solicited in two 
categories: discovery and development of new materials that are 
critical to both science frontiers and technology innovations, and 
basic research for energy needs in a limited number of areas that are 
underrepresented in the 46 original EFRC awards.
    The fiscal year 2011 request for the U.S. ITER Project ($80 
million, a decrease of $55 million from fiscal year 2010) is a 
reflection of the pace of ITER construction as of the end of 2009. The 
administration is engaged in a range of efforts to implement management 
reforms at the ITER organization and accelerate ITER construction while 
minimizing the overall cost of the construction phase for the United 
States and the other ITER members.
    The Office of Science supports investigators from more than 300 
academic institutions and from all of the DOE laboratories. The fiscal 
year 2011 budget request will support approximately 27,000 Ph.D.s, 
graduate students, undergraduates, engineers, and technicians. Nearly 
26,000 researchers from universities, national laboratories, industry, 
and international partners are expected to use SC scientific user 
facilities in fiscal year 2011.
Advanced Research Projects Agency-Energy--Transformational Research and 
        Development
    The fiscal year 2011 budget request includes $300 million for the 
Advanced Research Projects Agency-Energy (ARPA-E), a program launched 
in fiscal year 2009 that sponsors specific high-risk and high-payoff 
transformational research and development projects that overcome the 
long-term technological barriers in the development of energy 
technologies to meet the Nation's energy challenges, but that industry 
will not support at such an early stage. An essential component of 
ARPA-E's culture is an overarching focus on accelerating science to 
market. Beyond simply funding transformational research creating 
revolutionary technologies, ARPA-E is dedicated to the market adoption 
of those new technologies that will fuel the economy, create new jobs, 
reduce energy imports, improve energy efficiency, reduce energy-related 
emissions, and ensure that the U.S. maintains a technological lead in 
developing and deploying advanced energy technologies.
Office of Energy Efficiency and Renewable Energy--Developing and 
        Deploying Clean, Reliable Energy
    The Office of Energy Efficiency and Renewable Energy (EERE) 
strengthens the energy security, environmental quality, and economic 
vitality of the United States through the research, development, 
demonstration and deployment (RDD&D) of clean energy technologies and 
generation and advances in energy efficiency. EERE's activities are 
critical to creating a low carbon economy and sustaining strong 
economic growth and job creation while dramatically reducing greenhouse 
gas emissions and energy imports. EERE programs link advances in basic 
research and the creation of commercially successful products and 
services to ensure delivery to the marketplace for general use and 
implementation.
    The fiscal year 2011 budget request of $2.4 billion, an increase of 
5 percent over fiscal year 2010, is aimed at accelerating revolutionary 
change in the Nation's energy economy. The request includes programs 
associated with meeting the President's goals of investing in the next 
generation of clean energy technologies, vehicles and fuels, and energy 
efficiency measures that reduce energy use in Federal agencies and the 
industrial and building sectors.
            Clean, Renewable Energy Generation
    The fiscal year 2011 budget request continues to work to transform 
the Nation's energy infrastructure by investing over $650 million in a 
variety of renewable sources of electrical generation such as solar 
($302 million, a 22 percent increase over fiscal year 2010), and wind 
($123 million, a 53 percent increase over fiscal year 2010), as well as 
deploy clean technologies to reduce our dependence on oil. The request 
includes expansions on Concentrating Solar Power, biopower and off-
shore wind, which will provide new, additional avenues for clean energy 
development and deployment. These technologies will reduce the 
production of greenhouse gas emissions and revitalize an economy built 
on the next generation of domestic production.
            Energy Efficiency
    The Department implements a number of efforts to increase energy 
efficiency and conservation in homes, transportation, and industry. The 
fiscal year 2011 budget requests $758 million to accelerate deployment 
of clean, cost-effective, and rapidly deployable energy conservation 
measures in order to reduce energy consumption in residential and 
commercial buildings, and the industrial and Federal sectors. The 
Department will invest $231 million in the Building Technologies 
program, a 16 percent increase over fiscal year 2010 for built 
environment R&D. Federal assistance for State-level programs such as 
State Energy Program grants ($75 million) and Weatherization Assistance 
Program ($300 million), will continue to help citizens implement energy 
conservation measures, lower energy costs and greenhouse gas emissions, 
and build a technical workforce. The fiscal year 2011 request also 
includes $545 million to accelerate research, development and 
deployment of advanced fuels and vehicles to reduce the use of 
petroleum and greenhouse gas emissions. The fiscal year 2011 budget 
complements the Recovery Act funding for these programs ($3.1 billion 
for State Energy Programs, $5 billion for Weatherization Assistance, $2 
billion for Advanced Battery Manufacturing and $400 million for 
Transportation Electrification).
Office of Electricity Delivery and Energy Reliability--Moving Toward a 
        More Intelligent Grid to Power the Digital Economy
    The fiscal year 2011 budget request for the Office of Electricity 
Delivery and Energy Reliability (OE) budget is $186 million, an 
increase of 8 percent over fiscal year 2010. These funds will build on 
the ``Smart Grid'' investments and other activities.
    The ability of the United States to meet the growing demand for 
reliable electricity is challenged by an aging power grid under 
mounting stress. Despite the increasing demand for reliable power 
brought on by the modern digital economy, the power grid in the United 
States has suffered from a long period of underinvestment. Much of the 
power delivery system was built on technology developed over 50 years 
ago and thus responds to disturbances with speed limited by the 
technology of that period. This limitation increases the vulnerability 
of the power system to outages that can spread quickly and impact whole 
regions. Breakthroughs in digital network controls, transmission, 
distribution, and energy storage will make the power grid more 
efficient, alleviating the stress on the system, as well as enable 
greater use of clean and distributed energy sources. The return on 
these investments will come from a reduction in economic losses caused 
by power outages and the delay or avoidance of costly investment in new 
generation and transmission infrastructure.
    The budget request provides $144 million for research and 
development, which supports development of technologies that will 
improve the reliability, efficiency, flexibility, functionality, and 
security of the Nation's electricity delivery system. It accelerates 
investment in energy storage capabilities and funds two new research 
initiatives: Advanced Modeling Grid Research, to develop grid-modeling 
capabilities using the large volumes of data generated by advanced 
sensors deployed on the grid; and Power Electronics, to develop new 
power control devices in collaboration with universities. The proposal 
also continues to support the development of ``Smart Grid'' 
technologies and cyber security systems for the power grid.
    The budget request continues support for Permitting, Siting, and 
Analysis ($6.4 million) to assist States, regional entities, and other 
Federal agencies in developing policies and programs aimed at 
modernizing the power grid; and for Infrastructure Security and Energy 
Restoration ($6.2 million) to enhance the reliability and resiliency of 
U.S. critical infrastructure and facilitate its recovery from energy 
supply disruptions.
Office of Environmental Management--Reducing Risks and Making Progress
    The mission of the Office of Environmental Management (EM) is to 
complete the safe cleanup of the environmental legacy brought about 
from over six decades of nuclear weapons development, production, and 
Government-sponsored nuclear energy research. This cleanup effort is 
the largest in the world, originally involving 2 million acres at 107 
sites in 35 states, dealing with some of the most dangerous materials 
known to man.
    EM continues to pursue its cleanup objectives within the overall 
framework of achieving the greatest comparative risk reduction benefit 
and overlaying regulatory compliance commitments and best business 
practices to maximize cleanup progress. To support this approach, EM 
has prioritized its cleanup activities:
  --Activities to maintain a safe and secure posture in the EM complex
  --Radioactive tank waste stabilization, treatment, and disposal
  --Used nuclear fuel storage, receipt, and disposition
  --Special nuclear material consolidation, processing, and disposition
  --High priority groundwater remediation
  --Transuranic and mixed/low-level waste disposition
  --Soil and groundwater remediation
  --Excess facilities deactivation and decommissioning
    The fiscal year 2011 budget request for $6.0 billion will fund 
activities to maintain a safe and secure posture in the EM complex and 
make progress against program goals and compliance commitments, 
including reduction of highest risks to the environment and public 
health, use of science and technology to reduce life cycle costs, and 
reduction of EM's geographic footprint by 40 percent by 2011. EM 
continues to move forward with the development of the capability for 
dispositioning tank waste, nuclear materials, and used nuclear fuel. 
The budget request includes the construction and operation of three 
unique and complex tank waste processing plants to treat approximately 
88 million gallons of radioactive tank waste for ultimate disposal. It 
will also fund the solid waste disposal infrastructure needed to 
support disposal of transuranic and low-level wastes generated by high-
risk activities and the footprint reduction activities. In addition to 
the fiscal year 2011 budget request, EM will continue to expend the $6 
billion in Recovery Act funding provided by Congress to complete lower-
risk footprint reduction and near-term completion cleanup activities.
    EM carries out its cleanup activities with the interests of 
stakeholders in mind. Most importantly, EM will continue to fulfill its 
responsibilities by conducting cleanup within a ``Safety First'' 
culture that integrates environment, safety, and health requirements 
and controls into all work activities to ensure protection to the 
workers, public, and the environment, and adheres to sound project and 
contract management principles. EM is also strengthening its project 
and planning analyses to better assess existing priorities and identify 
opportunities to accelerate cleanup work. Working collaboratively with 
the sites, EM continues to seek aggressive but achievable strategies 
for accelerating cleanup of discrete sites or segments of work. In 
addition, functional and cross-site activities such as elimination of 
specific groundwater contaminants, waste or material processing 
campaigns, or achievement of interim or final end-states are being 
evaluated.
    After the EM program completes cleanup and closure of sites that no 
longer have an ongoing DOE mission, post closure stewardship activities 
are transferred to the Office of Legacy Management (LM). LM also 
receives sites remediated by the U.S. Army Corps of Engineers (Formerly 
Utilized Sites Remedial Action Program) and private licensees (Uranium 
Mill Tailings Radiation Control Act, title II sites). Post closure 
stewardship includes long-term surveillance and maintenance activities 
such as groundwater monitoring, disposal cell maintenance, records 
management, and management of natural resources at sites where active 
remediation has been completed. At some sites the program includes 
management and administration of pension and post-retirement benefits 
for contractor retirees.
    The administration has determined that developing a repository at 
Yucca Mountain, Nevada, is not a workable option and has decided to 
terminate the Office of Civilian Radioactive Waste Management (RW). The 
Nation needs a different solution for nuclear waste disposal. As a 
result, in 2010, the Department will discontinue its application to the 
U.S. Nuclear Regulatory Commission for a license to construct a high-
level waste geologic repository at Yucca Mountain and establish a Blue 
Ribbon Commission to inform the administration as it develops a new 
strategy for nuclear waste management and disposal. All funding for 
development of the Yucca Mountain facility and RW will be eliminated by 
the end of fiscal year 2010. The administration remains committed to 
fulfilling its obligations under the Nuclear Waste Policy Act. The 
Office of Nuclear Energy will develop an integrated approach to improve 
the waste management options for the Nation and support the Blue Ribbon 
Commission. Ongoing responsibilities under the Nuclear Waste Policy 
Act, including administration of the Nuclear Waste Fund and the 
Standard Contract, will continue under the Office of Nuclear Energy, 
which will lead future waste management activities.
Innovative Technology Loan Guarantee Program and Advanced Technology 
        Vehicle Manufacturing Program--Supporting Investment in 
        Innovation and Manufacturing
    To encourage the early commercial production and use of new or 
significantly improved technologies in energy projects, the Department 
is requesting an additional $36 billion in authority to guarantee loans 
for nuclear power facilities and $500 million in appropriated credit 
subsidy for the cost of loan guarantees for renewable energy systems 
and efficient end-use energy technology projects under section 1703 of 
the Energy Policy Act of 2005. The additional loan authority for 
nuclear power projects will promote near-term deployment of new plants 
and support an increasing role for private sector financing. The 
additional credit subsidy will allow for investment in the innovative 
renewable and efficiency technologies that are critical to meeting the 
administration's goals for affordable, clean energy, technical 
leadership, and global competitiveness.
    The fiscal year 2011 budget also requests $58 million to evaluate 
applications received under the eight solicitations released to date 
and to ensure efficient and effective management of the Loan Guarantee 
Program. This request will be offset by collections authorized under 
title XVII of the Energy Policy Act of 2005 (Pub. L. 109-8).
    The Advanced Technology Vehicle Manufacturing program requests $10 
million to support ongoing loan and loan monitoring activities 
associated with the program mission of making loans to automobile and 
automobile part manufacturers for the cost of re-equipping, expanding, 
or establishing manufacturing facilities in the United States to 
produce advanced technology vehicles or qualified components, and for 
associated engineering integration costs.
Office of Nuclear Energy--Investing in Energy Security and Technical 
        Leadership
    The Department is requesting $912 million for the Office of Nuclear 
Energy (NE) in fiscal year 2011 --an increase of 5 percent over the 
fiscal year 2010 enacted level. NE's funding supports the advancement 
of nuclear power as a resource capable of meeting the Nation's energy, 
environmental, and national security needs by resolving technical, 
cost, safety, proliferation resistance, and security barriers through 
research, development, and demonstration as appropriate.
    Currently, nuclear energy supplies approximately 20 percent of the 
Nation's electricity and over 70 percent of clean, non-carbon producing 
electricity. Over 100 nuclear power plants are offering reliable and 
affordable baseload electricity in the United States, and they are 
doing so without air pollution and greenhouse gas emissions. NE is 
working to develop innovative and transformative technologies to 
improve the competitiveness, safety and proliferation resistance of 
nuclear energy to support its continued use.
    The fiscal year 2011 budget supports a reorganized and refocused 
set of research, development, and demonstration (RD&D) activities. This 
program is built around exploring, through RD&D: technology and other 
solutions that can improve the reliability, sustain the safety, and 
extend the life of current reactors; improvements in the affordability 
of new reactors to enable nuclear energy to help meet the 
administration's energy security and climate change goals; 
understanding of options for nuclear energy to contribute to reduced 
carbon emissions outside the electricity sector; development of 
sustainable nuclear fuel cycles; and minimization of risks of nuclear 
proliferation and terrorism.
    NE is requesting $195 million for Reactor Concepts Research, 
Development and Deployment. This program seeks to develop new and 
advanced reactor designs and technologies. Work will continue on 
design, licensing and R&D for the Next Generation Nuclear Plant to 
demonstrate gas-cooled reactor technology in the United States. The 
program also supports research on Generation IV and other advanced 
designs and efforts to extend the life of existing light water 
reactors. In fiscal year 2011, NE will initiate a new effort focused on 
small modular reactors, a technology the Department believes has 
promise to help meet energy security goals.
    The fiscal year 2011 request includes $201 million for Fuel Cycle 
Research and Development to perform long-term, results-oriented 
science-based R&D to improve fuel cycle and waste management 
technologies to enable a safe, secure, and economic fuel cycle. The 
budget also requests $99 million to support a new R&D program, Nuclear 
Energy Enabling Technologies, focused on the development of cross-
cutting and transformative technologies relevant to multiple reactor 
and fuel cycle concepts. The Crosscutting Technology Development 
activity provides crosscutting R&D support for nuclear energy concepts 
in areas such as reactor materials and creative approaches to further 
reduce proliferation risks. The Transformative Nuclear Concepts R&D 
activity will support, via an open, competitive solicitation process, 
investigator-initiated projects that relate to any aspect of nuclear 
energy generation including, but not limited to, reactor and power 
conversion technologies, enrichment, fuels and fuel management, waste 
disposal, and nonproliferation, to ensure that good ideas have 
sufficient outlet for exploration.
    The Energy Innovation Hub for Modeling and Simulation will apply 
existing modeling and simulation capabilities to create a ``virtual'' 
reactor user environment to simulate an operating reactor. NE will also 
continue its commitments to investing in university research, 
international cooperation, and the Nation's nuclear infrastructure--
important foundations to support continued technical advancement.
Office of Fossil Energy--Abundant and Affordable Energy for the 21st 
        Century
    The fiscal year 2011 budget request of $760 million for the Office 
of Fossil Energy (FE) will help ensure that the United States can 
continue to rely on clean, affordable energy from traditional domestic 
fuel resources. The United States has 25 percent of the world's coal 
reserves, and fossil fuels currently supply 86 percent of the Nation's 
energy.
    The Department is committed to advancing Carbon Capture and Storage 
(CCS) technologies in order to promote a cleaner and more efficient use 
of fossil fuels. In addition to significant Recovery Act funds, 
Advanced CCS with $438 million requested in fiscal year 2011 is the 
foundation of the Department's clean coal research program which seeks 
to establish the capability of producing electricity from coal with 
near-zero atmospheric emissions.
    In addition, $150 million of FE's $760 million request will be used 
to promote national energy security through the continued operations of 
both the Strategic Petroleum Reserve and Northeast Home Heating Oil 
Reserve programs. These programs protect the Nation and the public 
against economic damages from potential disruptions in foreign and 
domestic petroleum supplies.
Energy Information Administration--Providing Independent Statistics and 
        Analysis
    The fiscal year 2011 request for the Energy Information 
Administration (EIA) is $128.8 million, which is an $18.2 million 
increase over the fiscal year 2010 current appropriation. EIA conducts 
a comprehensive data collection program through more than 60 surveys 
that cover the full spectrum of energy sources, end uses, and energy 
flows; generates short- and long-term domestic and international energy 
projections; and performs informative energy analyses. EIA disseminates 
its data products, analyses, reports, and other information services to 
customers and stakeholders primarily through its Web site.
    The increased funding improves EIA's capability to close energy 
information gaps, strengthen analysis, and address significant data 
quality issues. It provides for an expanded survey of energy 
consumption in commercial buildings that will provide more baseline 
information critical to understanding energy use. That survey also is a 
basis for benchmarking and performance measurement for energy 
efficiency programs. The budget request also provides for: expanded 
analysis of energy market behavior and data to address the increasingly 
important interrelationship of energy and financial markets; continued 
implementation of improvements in data coverage, quality and 
integration; upgrades to the National Energy Model; and initiation of 
efforts to track and analyze the adoption of ``Smart Grid'' 
technologies and dynamic electricity pricing plans.
The National Nuclear Security Administration--Ensuring America's 
        Nuclear Security and Reducing the Global Threat of Nuclear 
        Proliferation
    The National Nuclear Security Administration (NNSA) continues 
significant efforts to meet administration priorities, leveraging 
science to promote U.S. national security objectives. The fiscal year 
2011 President's budget request is $11.2 billion, an increase of 13 
percent from the enacted fiscal year 2010 appropriation. The fiscal 
year 2011-2015 President's Request for the NNSA is a significant 
funding increase over fiscal year 2010 levels, reflecting the 
President's priorities on global nuclear nonproliferation and for 
strengthening the nuclear security posture of the United States to meet 
defense and homeland security-related objectives:
  --Broaden and strengthen the NNSA's science, technology and 
        engineering mission to meet national security needs
  --Work with global partners to secure all vulnerable nuclear 
        materials around the world within 4 years
  --Work toward a world with no nuclear weapons. Until that goal is 
        achieved, ensure the U.S. nuclear deterrent remains safe, 
        secure and effective
  --Transform the Nation's cold-war era weapons complex into a 21st 
        century national security enterprise
  --Provide safe and effective nuclear propulsion for U.S. navy 
        warships
    The fiscal year 2011 budget request of $7.01 billion for the 
Weapons Activities appropriation provides funding for a wide range of 
programs. Some activities provide direct support for maintaining the 
nuclear weapon stockpile, including stockpile surveillance, annual 
assessments, life extension programs, and warhead dismantlement. 
Science, Technology and Engineering programs are focused on long-term 
vitality in science and engineering, and on performing R&D to sustain 
current and future stockpile stewardship capabilities without the need 
for underground nuclear testing. These programs also provide a base 
capability to support scientific research needed by other elements of 
the Department, to the Federal Government national security community, 
and the academic and industrial communities. Infrastructure programs 
support facilities and operations at the Government-owned, contractor-
operated sites, including activities to maintain and steward the health 
of these sites for the long term. Security and counterterrorism 
activities leverage the unique nuclear security expertise and resources 
maintained by NNSA to other Departmental offices and to the Nation.
    The Weapons Activities request is an increase of 9.8 percent over 
the fiscal year 2010 enacted level. This level is sustained and 
increased in the later out-years. The multi-year increase is necessary 
to reflect the President's commitment to maintain the safety, security 
and effectiveness of the nuclear deterrent without underground nuclear 
testing, consistent with the principles of the Stockpile Management 
Program outlined in section 3113(a)(2) of the National Defense 
Authorization Act of fiscal year 2010 (50 U.S.C. 2524). Increases are 
provided which directly support of the nuclear weapon stockpile, for 
scientific, technical and engineering activities related to maintenance 
assessment and certification capabilities, and for recapitalization of 
key nuclear facilities. The President's request provides funding 
necessary to protect the human capital base at the national 
laboratories--including the ability to design and certify nuclear 
weapons--through a stockpile stewardship program that fully exercises 
these capabilities. Security and nuclear counterterrorism activities 
decrease about 3 percent from the fiscal year 2010 appropriated levels, 
leveraging the continuing efficiencies in the Defense Nuclear Security 
budget.
    The fiscal year 2011 request for Defense Nuclear Nonproliferation 
is $2.7 billion, an increase of 25.8 percent over the fiscal year 2010 
appropriation. The increase is driven by the imperative for U.S. 
leadership in nonproliferation initiatives both here and abroad. In 
addition to the programs funded solely by the NNSA, our programs 
support the Department of Energy mission to protect our national 
security by preventing the spread of nuclear weapons and nuclear 
materials to terrorist organizations and rogue states. These efforts 
are implemented in part through the Global Partnership Against the 
Spread of Weapons and Materials of Mass Destruction, formed at the G8 
Kananaskis Summit in June 2002, and the Global Initiative to Combat 
Nuclear Terrorism, launched in Rabat, Morocco, in October 2006.
    The fiscal year 2011 President's request for International Nuclear 
Materials Protection and Cooperation reflects selective new security 
upgrades to buildings and areas that were added to the cooperation 
after the Bratislava Summit, additional Second Line of Defense sites, 
and sustainability support for MPC&A upgrades. The Global Threat 
Reduction Initiative increases by 68 percent in support of the 
international effort to secure vulnerable nuclear materials around the 
world within 4 years. The Fissile Materials Disposition program 
increases by 47 percent reflecting continuing domestic construction of 
the MOX Fuel Fabrication Facility and the Waste Solidification 
Building, as well as design documentation for a related pit disassembly 
and conversion capability. A portion of the funding increase results 
from the transfer of funding associated with the latter activity from 
the Weapons Activities appropriation starting in 2011.
    The President's request of $1.1 billion for Naval Reactors is an 
increase of 13.3 percent over the fiscal year 2010 appropriated level. 
The program supports the U.S. Navy's nuclear fleet, comprised of all of 
the Navy's submarines and aircraft carriers, including 52 attack 
submarines, 14 ballistic missile submarines, 4 guided missile 
submarines, and 11 aircraft carriers. These ships are relied on every 
day, all over the world, to protect our national interests. Starting in 
fiscal year 2010, there are major new missions for the NNSA Naval 
Reactors program. A significant funding increase is requested for the 
OHIO Class submarine replacement and for the related activity which 
will demonstrate new submarine reactor plant technologies as part of 
the refueling of the land-based prototype reactor. R&D is underway now, 
and funding during this Future Years Nuclear Security Program is 
critical to support the long manufacturing spans for procurement of 
reactor plant components in 2017, and ship procurement in 2019. 
Resources are also included in fiscal year 2011 to support commencement 
of design work for the recapitalization of used nuclear fuel 
infrastructure.
    The Office of the Administrator appropriation provides for Federal 
program direction and support for NNSA's Headquarters and field 
installations. The fiscal year 2011 request is $448.3 million, a 6.5 
percent increase over the fiscal year 2010 appropriation. This provides 
for well-managed, inclusive, responsive, and accountable organization 
through the strategic management of human capital, enhanced cost-
effective utilization of information technology, and integration of 
budget and performance through transparent financial management 
practices.
Management--Transforming the Culture of the Department with a Results-
        Oriented Approach
    To transform the way Americans use and produce energy, we need to 
transform the Department of Energy. Because the mission of the 
Department is vital and urgent, it must be pursued using a results-
oriented approach that is safe, fiscally responsible, and legally and 
ethically sound. The Department has developed strong management and 
oversight capabilities during implementation of the Recovery Act, and 
these lessons will be applied to the fiscal year 2011 budget. The 
budget request of $337 million for corporate management includes $75 
million for the Office of Management, $102 million for the Office of 
the Chief Information Officer, $43 million for the Inspector General's 
office, $62.7 million for the Office of the Chief Financial Officer, 
$37 million for the Office of General Counsel, and $2 million for 
Management Reform within the Office of the Secretary. The Management 
Reform effort will provide the Department with strategic direction, 
coordination, and oversight of management initiatives. The primary 
mission of this new office is to identify operational efficiencies to 
free up resources for priority mission activities. The Department is 
also requesting $12 million for a new Acquisition Workforce Improvement 
initiative which will be utilized to increase the size and improve the 
training of our acquisition professionals.
    The Department's human capital management efforts are focused on an 
integrated approach that ensures human capital programs and policies 
are linked to the Department's missions, strategies, and strategic 
goals, while providing for continuous improvement in efficiency and 
effectiveness. To accomplish this goal, the Department will develop 
different strategies to attract, motivate and retain a highly skilled 
and diverse workforce to meet the future needs of the Nation in such 
vital areas as scientific discovery and innovation.
    To improve stewardship of taxpayer dollars, the Department will 
continue to issue audited financial statements in an accelerated 
timeframe and provide assurance that the Department's financial 
management meets the highest standards of integrity. The Department's 
fiscal year 2009 financial statements were reviewed by independent 
auditors and received an unqualified opinion. This was made possible by 
implementing an aggressive plan to mitigate and remediate a number of 
financial management challenges that were identified by the Department 
and its independent auditors. In addition, the Department continues to 
strengthen the execution of program funding dollars by having regular 
execution reviews that will ensure funding is processed, approved and 
spent quickly and responsibly. The Department in fiscal year 2011 will 
continue its effort to build and improve its integrated business 
management system.
    The Department is continuing to make progress in improving project 
management and is implementing an action plan with scheduled milestones 
and aggressive performance metrics. The focus of the action plan is to 
successfully address the root causes of the major challenges to 
planning and managing Department projects. The action plan identifies 
eight measures that, when completed, will result in significant, 
measurable, and sustainable improvements in the Department's contract 
and project management performance and culture.
    To improve financial performance in project management, the 
Department has increased the use of Earned Value Management (EVM) 
techniques within program offices. These techniques objectively track 
physical accomplishment of work and provide early warning of 
performance problems. A certification process was instituted for 
contractors' EVM systems to improve the definition of project scope, 
communicate objective progress to stakeholders and keep project teams 
focused on achieving progress. Currently, 70 percent of the 
Department's capital asset projects have certified EVM systems.
    The Department continues to strengthen information technology 
management by consistent execution of robust IT Capital Planning and 
Investment Control oversight and reporting processes designed to ensure 
successful investment performance, including the use of EVM Systems as 
appropriate, and the remediation of poorly performing investments. 
Through the establishment and use of an Enterprise Architecture that 
aligns to the Federal Enterprise Architecture, the Department has 
ensured that all IT investments follow a comprehensive Modernization 
Roadmap.
    The Department continues to take significant actions to improve its 
cyber security posture by implementing its Cyber Security 
Revitalization Plan to address long-standing, systemic weaknesses in 
the Department's information and information systems. Specifically, the 
Department seeks to ensure that 100 percent of operational information 
technology systems are certified and accredited as secure and that the 
Department's Inspector General has rated the certification and 
accreditation process as ``satisfactory.'' Additional steps will be 
taken to ensure that electronic classified and personally identifiable 
information are secure.
                               conclusion
    I appreciate the opportunity to appear before you to present the 
fiscal year 2011 budget request for the Department of Energy. I will be 
happy to take any questions that members of the subcommittee may have.

    Senator Dorgan. Mr. Secretary, thank you very much.
    I have a number of questions, and I assume I will not get 
through all of them. But let me try to see if we can determine 
what is happening here.

                               FUTUREGEN

    This subcommittee has been wrestling with the question of 
FutureGen. Is it on? Is it off? Does it need to be funded? Does 
it not? If so, how will the money be used? So where are you on 
the decisionmaking process about FutureGen?
    Secretary Chu. We are working with the alliance. We put an 
offer to the alliance and we are working with them in hopes 
that they can come up with the necessary assets needed. This is 
in progress. We have extended the deadline because we are going 
to give them more time, but I think the deadline is coming up 
in the next couple weeks and then we will have to make a 
determination at that time.
    Senator Dorgan. Do you feel that we are losing time, 
though? FutureGen was sort of the new thing. As I indicated in 
my opening statement, we have a significant need to do the 
research to try to evaluate how we build electric generating 
plants that are going to capture carbon and do certain things 
with it. We have, obviously, lost time because the previous 
administration at one point decided to discontinue it, shut it 
down, and your administration has now for a year or so been 
trying to study it.
    Secretary Chu. Not so much trying to study it, trying to 
see if the alliance can put together a proposal that would be 
acceptable.
    But let me also say that I share your sense of urgency in 
getting carbon capture and sequestration technologies going. It 
is our stated goal that perhaps within 8-10 years, this would 
be ready for deployment and something that is economically 
viable.
    We have, through the Recovery Act--and this reflects the 
comments both you and Ranking Member Bennett made--invested 
over $4 billion in several pilot plants or pilot plant 
demonstrations, experiments for carbon capture and 
sequestration. The good news is that $4 billion has been 
matched by $6 billion or $7 billion of private sector money. So 
we know that the private sector has also gotten interested and 
committed to this.
    There are a number of projects now that are becoming 
competitive with FutureGen in the sense of the amount of carbon 
sequestered and things like that. We still want FutureGen to go 
forward, but it really depends on whether this package----
    Senator Dorgan. But in a broader sense, do you feel like 
the reduction in funds in the fossil energy account reflects 
less attention to and less interest in that area of energy?
    Secretary Chu. No, we do not. There is essentially $4 
billion plus $6 billion--$10 billion total investment in 
various forms of carbon capture and sequestration. In the 
following budget you will see an increase as we work through 
those demonstrations.

                           ELECTRIC VEHICLES

    Senator Dorgan. Let me ask about electric vehicles. Senator 
Alexander and I and others are putting together an electric 
vehicles piece of legislation. We have been working on it and 
are, I think, fairly close to introducing it.
    The President set a goal of having 1 million electric 
vehicles on the road by 2015. What are the things that you are 
doing and what should we see in this budget that reflects that? 
What percent of the advanced vehicle technology budget is going 
into electric drive vehicles, for example?
    Secretary Chu. We are investing a considerable amount in 
electric vehicles. As you know, the single most important thing 
is a better battery, a battery with higher energy density, a 
battery with higher energy per unit volume, and a battery that 
lasts the life of the car, let us say, 15 years if it 
moderately discharges, and a battery that costs a lot less.
    I would see a big up-tick, a significant up-tick in the 
market when we have that battery. I am optimistic that we will 
have the battery like that, but whether it is 1 year, 2 years, 
3 years from today I do not know. We are heavily investing in 
battery research. The goal of the hub proposed for fiscal year 
2011 is to get a battery that is dramatically better than the 
ones being prototyped today.
    But in addition to that, we are also investing in advanced 
battery manufacturing. This is something where the United 
States has fallen off, even though we actually invented a lot 
of the technology that went into the lithium ion battery, it 
was perfected by Sony. If you buy a hybrid car today, 98 
percent of the high technology batteries will have been 
manufactured in Asia. With the Advanced Battery Manufacturing 
Technology grants we have been giving, we hope to recapture a 
lot of that market.
    Senator Dorgan. But that is true of almost everything we 
invent. It migrates very quickly. In the last 20 years, what we 
have seen is a mass migration of that which we invent to be 
produced elsewhere.

                             BIOFUEL BLENDS

    Can you describe what you expect to see happen with the 
testing of higher biofuel blends, particularly E15, on 
vehicles. When do you think the administration can give us an 
answer on that, and what about legacy vehicles?
    Secretary Chu. I personally looked into this several months 
ago to try to see what we could do to accelerate the testing. 
There are a number of models we wanted to test and you have to 
put on a significant number of miles to test the vehicles. So 
the testing is going 24/7. I think it is going to be sometime 
late spring, maybe early summer where we can make a 
determination whether E15 would be viable in the vehicles.
    We are also testing deployed vehicles. And so that is the 
real issue, whether this 15 percent blend would do something 
that would affect the long-term and make the cars last as long 
as they initially would have.
    So perhaps by late spring, we will be done. That is what I 
recall from the last time I looked.
    Senator Dorgan. All right.

                  HYDROGEN AND FUEL CELL TECHNOLOGIES

    Finally, for hydrogen and fuel cell technologies, as you 
know, you are proposing a cut. Last year you proposed the 
elimination of all of those accounts. I think we are going to 
shut down 190, roughly, contracts. You are proposing a cut.
    You know, the hydrogen fuel cell vehicle is run on 
electricity. As we move toward an electric-drive system, it 
seems to me the continued work in hydrogen fuel cells is very 
important work.
    Can you provide for the subcommittee a summary of existing 
programs that would be discontinued or significantly scaled 
back in order to make these cute possible?
    Secretary Chu. Yes, I will do that.
    There was a difference of opinion last year. We have 
increased the hydrogen technology request over fiscal year 
2010, but it is still a decrease from what was appropriated. We 
are minimizing the discontinuity in the existing programs.
    I might say privately among some of the technical people in 
the oil companies, they recognize that this is something that 
might be 20 years plus away from a mass adoption. And so I am 
entering discussions privately with them to say, okay, can you 
start to band together because it is something so far in the 
future it makes sense to have consortiums work on it.
    Senator Dorgan. Yes. Except as a scientist, you know that 
that which seems far into the future becomes nearer and nearer 
the more work is done, and often we discover that the future 
was much closer than we thought and I would expect that to be 
the case here as well.
    I have many questions, but again, my colleagues are here 
and I want them to have time for questions. So I will submit 
questions in writing to you, and as I indicated, I have to go 
to the White House for a signing ceremony, so when I leave, 
Senator Tester will take the chair.
    But, Senator Bennett, did you wish to inquire?
    Senator Bennett. Yes. Thank you very much, Mr. Chairman.

                         WEATHERIZATION GRANTS

    Going down the list, I outlined in my opening statement let 
us talk about weatherization grants and why is the pace so slow 
in getting these funds out, and why are there still unresolved 
tax issues for the smart grid grantees, more than a year later 
after we enacted that?
    The big question, why is the Department requesting any 
funds for weatherization grants when you have $4.5 billion from 
the Recovery Act, in addition to the fiscal year 2009 and 
fiscal year 2010 appropriations that have piled up that have 
not been spent? You have got more than $5 billion in total, and 
yet you are asking for more with all of these delays. Can you 
help us understand all that?
    Secretary Chu. Well, it is not that we wanted to put pain 
on ourselves.
    Seriously, let me tell you about the weatherization grants. 
As you noted, it was $5 billion. It is a formula block grant. 
It goes to States.
    There were beginning hiccups. The biggest hiccup was the 
Davis-Bacon wage issue. That had to be resolved with 
cooperation from the Labor Department. The Davis-Bacon issues 
took a longer time than either Departments had expected, but 
those are resolved.
    So what has happened up until the end of 2009, I will agree 
with you that initial progress was slow. Starting in September 
2009, we started urging the States and tried to help them 
accelerate their costing of the funds. We believe that apart 
from a few States, they are getting on track to up the 
spending. This is demonstrated by what we now have in January.
    We went from quarterly reporting to monthly reporting. 
There was resistance both by the States and by others, 
Paperwork Act issues. But what we found is, as we started to 
move into monthly reporting, those States that were the 
furthest behind actually started to move.
    So a number of things like that were holding us up.
    There is an IG report that perhaps you have read which I 
think gives a very balanced view of why initial progress was 
delayed. It does indicate that the Department of Energy was 
doing everything within its power over the last 6 months to 
help the States get this money out.
    Now, in answer to your question, why are we asking for more 
weatherization money--there are other programs we have now 
begun. The weatherization money is for low-income housing. It 
will weatherize within the low-income housing sector, perhaps 
500,000 to 600,000 homes. The sector in the United States--
there are 130 million homes of which probably 80 million to 90 
million homes could benefit from weatherization.
    What we are now trying to do is start programs that will be 
largely highly leveraged, ideally self-financed because energy 
efficiency really does mean energy savings. And we want to 
start programs and we are beginning to pilot some of these with 
our current weatherization money to get this going in the 
United States.
    So ultimately, we feel that energy efficiency should be a 
social norm, but fundamentally it saves money and that money 
goes in the pockets of homeowners and businesses and it goes 
back into the economy.
    Very quickly, the tax issue with the Smart Grid is being 
resolved. That is something we have to negotiate with Treasury 
and other agencies. We hope, perhaps within a few weeks, that 
will be completely resolved and we can go forward.
    Senator Bennett. Okay.
    Well, do you still think then that the appropriations you 
are asking for is necessary to reach that goal? And with all 
the money you have still got, you----
    Secretary Chu. Yes. Despite the slow start, the goal we 
have is that by 2011, mid-2011, we will have costed the money. 
It has essentially all been allocated.
    But again, it takes time to start these programs. Once 
these programs have ramped up, you have got people. You have 
got caulkers. You have got insulators. You have got energy 
auditors out there. You want to keep the momentum going. We 
have ramped up. And we need to sustain that.
    Senator Bennett. Is there a ceiling? You talk about 
primarily low-income housing. Is there an income ceiling where 
we say, well, if you earn this much, the Feds will not 
weatherize your home? That is your responsibility.
    Secretary Chu. In the current weatherization statute, there 
is. It is 200 percent above the poverty level. And most middle-
income homes cannot be touched by that. And so that is, again, 
why we think eligibility for weatherization funding essentially 
could be expanded to mid- to low-income housing.
    Senator Bennett. I have some constituents that will raise 
questions about the constitutionality of that.
    Secretary Chu. Of the Recovery Act?
    Senator Bennett. No, of saying, okay, the Federal 
Government will use Federal power and Federal dollars to do 
this for one portion of the citizenship and not the other. But 
that is a constitutional question for another time.
    Secretary Chu. Right. By the way, that is in the Recovery 
Act. The weatherization program we are proposing does not have 
that ceiling.
    Senator Bennett. Okay.

                            LOAN GUARANTEES

    Let us talk about the loan guarantees. DOE had planned to 
make a minimum of 21 condition commitments for projects 
supported under the Recovery Act by the end of 2009. Instead, 
you have made a total of four, and you made some additional 
commitments since then but still far short of the target.
    Can you tell us what the problems are there in terms of 
meeting the plan----
    Secretary Chu. Sure.
    Senator Bennett [continuing]. And what steps are being 
taken?
    Secretary Chu. If you include the Advanced Technology 
Vehicle Manufacturing loans, I believe we are up to 11 since 
the first conditional loan was announced to Solyndra. As you 
pointed out, the loan program was authorized in 2005. I believe 
it was appropriated in the beginning of 2006. And when my team 
took over in 2009, not a single loan had gone out. So we have 
made 11. There are more in the pipeline to be announced soon. 
We are spending a lot of time thinking about it--so we went 
from 0 to 11 or so.
    We are examining how to streamline the processes. There are 
issues in terms of legislative fixes. For example, the 1705 
loan program, could also allow loans to energy efficiency 
technologies and energy efficiency companies. Right now it is 
limited to renewable energies--because there are a number of 
loan applicants that we think would be well qualified.
    The issues with the loan programs are fundamentally, given 
the way it is constructed, we are obligated to protect the 
taxpayer, which means that there are negotiations to find out 
what these companies have in their assets, and assess the 
ability of the companies to repay the loans. For example, if 
one compares the first nuclear loan we gave, which these are 
solid companies with a lot of assets, minimal credit subsidies 
are required. So those loans we believe are very solid. The 
probability of payback, costing nothing to the taxpayer, is 
quite high. In fact, we have made the case to OMB that it will 
cost nothing to the taxpayer.
    Senator Bennett. Let me give you a particular example. 
AREVA in Idaho submitted an application years ago for a front-
end nuclear fuel project, was given every indication, I 
understand, back in October that due diligence had been 
completed and word would be coming any day. And now we are in 
March and they are still waiting.
    Do you have any idea why that particular one has been held 
up so much? That is in the West in the area where I am 
concerned.
    Secretary Chu. We are closing in on that. To be quite 
candid, sometimes the delays surprise me a little bit, but 
until I get into what the delays are about, the nuclear loans--
I personally thought the first nuclear loan could have been 
announced--I thought it would have been announced by November. 
So these are very big deals, hundreds of millions of dollars to 
billions of dollars, and there are complications. But we are 
closing in on the AREVA one as quickly as we can.
    Senator Bennett. Thank you, Mr. Chairman.
    Senator Dorgan. Thank you, Senator Bennett. We will come 
back to you if you have additional questions.
    Senator Reed, I want to go to you and then Senator Tester 
has indicated he will close. We will come back to Senator 
Bennett. But Senator Tester is going to close the hearing as 
well. So we will have ample time at the end of the hearing.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    And thank you, Mr. Secretary.

                          OFFSHORE WIND POWER

    As you know--and we have had a chance to talk about the 
aspects of this--my State, Rhode Island, is deeply committed to 
wind power, offshore wind power, not only for environmental 
reasons, but also for economic reasons. We have 13 percent 
unemployment and this could be a way to help us move forward in 
the future. The State, through the great help of the chairman, 
has received money to conduct an ocean special area management 
plan to assist in siting offshore wind projects. They are well 
positioned to do that. They have a selected contractor, 
Deepwater Wind, and we hope we can do this. We are working hard 
with not only DOE but also the Minerals Management Service and 
the Department of Transportation. We have got a grant for a 
shore-side facility that could be a fabrication point.
    But I was heartened to see that your budget includes $49 
million for offshore wind technology. Can you just generally 
elaborate on what you would like to do with that? And frankly, 
if you would like to help us, that would be even better.
    Secretary Chu. The reason we have asked for this budget is 
because we believe there are a lot of resources in offshore 
wind. Now, the down side of offshore wind, as you well know, is 
that the maintenance of it is much more costly. The up side is 
that the newer turbines are getting more and more reliable. But 
fundamentally, you really want those turbines to have a mean 
time of failure that pushes 20 years because once the turbine 
goes down because of the choppy seas, it becomes very expensive 
to fix, and you cannot fix it immediately. You have to wait for 
proper conditions.
    But having said all that, the United States has incredible 
resources in offshore wind, both off the Atlantic coast and in 
some of the Great Lakes areas. We do anticipate that the 
reliability of these large turbines is going to get better and 
better and better. So we think it is now time to start getting 
this piloting going to nurture it along.
    Senator Reed. Can you comment upon your coordination with 
the Minerals Management Service, with NOAA, and with the other 
agencies, the stakeholders? Are you working actively with them 
in a----
    Secretary Chu. Well, certainly the primary coordination is 
with Interior and Secretary Salazar because the Interior 
actually controls that land. But we are very keen on trying to 
get this developed in a timely manner but that makes good 
economic sense as well. But as I said, we think it is going in 
the right direction. The other thing I should add is there are 
two other things that are good about offshore wind. First, they 
are closer to population centers, and second, you actually have 
a higher what I call duty cycle. The wind is steadier in the 
oceans. So the capital investment, the nameplate, electricity 
generation of a turbine offshore--you can actually reap more 
electrical power over a period of time.
    Senator Reed. Thank you.
    I know that your Assistant Secretary, Ms. Zoi, is very much 
interested in this, and I would encourage her to contact Rhode 
Island, perhaps even visit, to see what we are doing. That 
might help sort of this whole process of coordination.

                  INTERNATIONAL WIND POWER TECHNOLOGY

    My final point--and this has been an issue that has come up 
in the context of the recovery plan. Because other nations have 
been much more aggressive in promoting wind power, the 
consequence is that they have a lot of this technology. We are 
sort of in an unfortunate position of trying to harness wind 
but having to rely upon foreign-produced and fabricated 
turbines, towers, et cetera.
    One of the questions is not only getting the wind towers up 
but how can we help jump start the industry here in the United 
States. In the longer term, we want the good, clean energy but 
we want the jobs as well. Is that consciously being considered 
by you and your colleagues?
    Secretary Chu. Very much so. Thank you for giving me this 
opportunity to explain some of this.
    Because of long-term fiscal policies in Europe in the 1980s 
and 1990s, the technology for wind migrated from our shores to 
Europe, Germany, and Denmark in particular. Right now, as we 
show that the United States is getting serious about deploying 
wind that migration is reversing. So what is happening is many 
of these companies--for example, Vestas. I toured a Vestas 
plant. They are investing hundreds of millions of dollars and 
plan up to $2 billion of investment in Colorado to serve the 
entire North American region.
    Now, it is Vestas-United States. Right now, the value of 
the turbines being produced in Vestas is over 50 percent. It is 
something like 60 percent of all the material is being produced 
in the United States with their goal of getting it over 80-90 
percent.
    There is a very sound, economical reason why they want to 
do this. You want to set up a manufacturing plant where the 
market is stable so the company is not liable to currency 
swings. It is a more predictable business model. You want to 
set up local supply chains because it actually makes good 
sense. It is less costly.
    They said the only aspect where they do not think they can 
have a U.S. supplier, but it might take a year or two, is the 
paint. They have to get the paint from Germany. This is a very 
special, long-lived, very durable paint. But they said we are 
trying to qualify some U.S. paints.
    So the idea of these companies--it just like GM makes a 
manufacturing plant in China. They have the same motivation. 
Currency swings, local suppliers, all these other things. So if 
the United States puts in fiscal policies that allow a market 
to flourish, the manufacturing will naturally migrate to the 
United States and the parts will migrate to the United States. 
So I think there is a lot of people out there who say, well, 
wait a minute. This is a foreign company. But you know--all the 
labor and the installation will be in the United States. If 80 
percent, 70 percent of the parts are in the United States, 
which is not that dissimilar from you buy a car from Chrysler 
and ask how many parts are made in the United States. It could 
be 70 percent, maybe 80 percent.
    So what happens is that is sort of the goal we are going 
to, and that is actually what these wind manufacturers want to 
do as well. So again, a market pool means they will invest in 
the United States which means jobs in the United States.
    Senator Reed. There is another aspect, I think, with the 
offshore, is that because of the large size of these towers and 
blades, et cetera, to transport them from the interior of the 
country is very expensive and impossible because of the 
constrictions of roads. So there is an opportunity again in 
Rhode Island to have the fabrication right there, not just for 
Rhode Island, but for the entire east coast.
    I agree with you in the sense that initially there might be 
some significance of overseas products, but eventually I think 
that we can find capable American vendors.
    So again, I think we should pursue this on all fronts. 
Thank you, Mr. Secretary.
    Secretary Chu. Thank you.
    Senator Tester [presiding]. Thank you, Senator Reed.
    Thank you for being here, Secretary Chu. I have a few 
questions.

                               HYDROPOWER

    First of all, as you well know, Montana covers the gamut 
for energy production from renewable to conventional sources. 
One of the areas that we produce a lot, as in all of the West, 
is in hydropower. In fact, in 2007, I believe about 40 percent 
of our electricity was from water. We have a lot of opportunity 
with water, a lot of opportunity that has not been tapped yet 
in smaller projects that will produce smaller amounts of 
energy, but if you get enough of them, it will produce a lot of 
energy in hydro whether it is irrigation ditches or low-head 
hydro, whatever it may be.
    The DOE's power budget in hydro has been cut by about 20 
percent. And correct me if I am wrong. And I was wondering why 
that is the case, if there is a lack of opportunity in hydro 
from the Department's standpoint or whatever the reason might 
be.
    Secretary Chu. Well, on this subject, I would certainly be 
willing to work with you on hydropower. I do believe hydropower 
is proven technology. It is clean. A DOE internal study said 
that we probably have 70 gigawatts additional hydropower by 
just replacing turbines with more efficient turbines, putting 
turbines on flood control dams, and under the river. So that 
means no large new reservoirs. That is a lot of power. That is 
a lot of clean power. So I will certainly work with you and 
your staff on----
    Senator Tester. Thank you. And the bottom line is you do 
not see that potential cut reducing our options when it comes 
to hydro?
    Secretary Chu. As I said, we can work with you on 
developing a compromise.
    Senator Tester. Okay, sounds good.

                          ENERGY INDEPENDENCE

    Some of the previous questioners talked about energy. The 
chairman talked about hydrogen fuel cells and other things, and 
you talked about technology being off a long ways in many 
areas.
    I am curious to get your perspective as to whether you see 
this country ever becoming energy-independent. Is that within 
our wherewithal?
    Secretary Chu. Well, completely energy-independent--it will 
take some decades, but certainly decreasing our dependency on 
foreign oil is something that I believe we can do, as everyone 
in this room well knows, oil especially, since we are now 
importing about 55 percent of the oil. So a strategy of better 
fuel economy, biofuels, electrification of vehicles, all those 
things will decrease our dependency.
    Senator Tester. What is the major roadblock in--let us just 
take transportation fuels, as you had mentioned, where we 
import 50 percent. I have actually heard higher numbers than 
that.
    Secretary Chu. Fifty-five.
    Senator Tester. What is the major roadblock with achieving 
our independence with transportation fuels in a faster way, and 
does this budget address that roadblock or those several 
roadblocks?
    Secretary Chu. Well, I think it does. I think of those 
things that I told you about--now, I think the oil and gas 
industry, in developing domestic sources of supply, and they 
are large, successful, well-funded companies. And so we believe 
that especially the oil industry has the wherewithal to do 
this.
    We feel the Department of Energy's role--and this goes to 
Ranking Member Bennett's question as well--is to look at 
research in developing unconventional sources like natural gas 
sources before the industry wants to pick it up. Shale gas is a 
prime example of that. We started investing in shale gas 
research in 1978, stopped it in 1991. In 1990, Schlumberger 
picked up research on shale gas. And so that transition over to 
commercial companies is what we want to see. If it is a very 
beginning, very researchy thing, we say, okay, let us do that, 
but as soon as the oil and gas industry begins to pick it up, 
then we say, let us invest in other things.
    Senator Tester. Okay. I have got a bunch more questions, 
but I am going to be here for a while so I can come back.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman. You look 
great in that seat.

                             YUCCA MOUNTAIN

    I want to thank Secretary Chu for coming today, and I want 
to start out by asking you a few questions about some decisions 
that the administration has made on Yucca Mountain that I have 
been very dismayed by, including the decision that was made 
just yesterday to withdraw your Department's Nuclear Regulatory 
Commission license application for Yucca Mountain.
    Now, I have read your written statement, and I have to say 
I think there is really something missing. Three times in there 
you say that Yucca Mountain is ``not a workable option for 
nuclear waste disposal.'' But what seems to be missing is the 
why, and that is really an important question and it is one the 
communities around the country, including in my home State in 
the tri-cities area, people who have really borne the burden of 
producing and cleaning up this nuclear waste, deserve to have 
answered.
    So I wanted to ask you today who was consulted in making 
the decision that Yucca Mountain is no longer a viable option.
    Secretary Chu. Well, one has to go back and look at the 
entire history of the choice of Yucca Mountain, the Nuclear 
Waste Act, all of those things. What one finds is that other 
things, other knowledge, other conditions, as they evolved, 
made it look increasingly not like an ideal choice.
    Senator Murray. Was there scientific evidence that was used 
in determining this?
    Secretary Chu. Well, it is an unfolding of issues that 
continued, and I would be happy to talk to you in detail about 
some of the issues. But the President has made it very clear 
that it is not an option.
    Senator Murray. Was there any scientific evidence that was 
used?
    Secretary Chu. Well, let me give you one example. The 
conditions in Yucca Mountain initially--and then they were 
changed--the Supreme Court ruling says that it is not 10,000 
years. It could be up to a million years. Then all of a sudden, 
that puts a new dimension on Yucca Mountain. Climate is hard to 
predict over a million years.
    Senator Murray. For any site.
    Secretary Chu. Right, for any site.
    Senator Murray. So why was Yucca Mountain different?
    Secretary Chu. Because there are other geological sites 
where we can do radioactive dating and we know they are 
inherently stable. Let me give you one example. There is a salt 
dome site--these things have been around for tens of millions 
of years. The difference with salt dome sites is you stick 
radioactive waste in there. The salt diffuses around it. Even 
though the continents are drifting all around the globe, those 
things have been stable for tens of millions of years, up to 
hundreds of millions of years. That is a very different type of 
site than Yucca Mountain which has fissures and that rock can 
be saturated with water if the climate changes.
    Senator Murray. Well, did your Department ask for input 
from communities like Hanford where waste destined for Yucca 
Mountain is currently temporarily being stored?
    Secretary Chu. No, we did not, but we take our 
responsibility for the waste problem at Hanford, Washington, 
and all the States very, very seriously. We believe that we can 
handle that.
    But again, let me just continue and go back to the Yucca 
Mountain. So all of a sudden, something changes and you say, 
well the fix is a multi-multi-billion-dollar titanium shield 
that is installed under the ground for Yucca Mountain. So then 
as these things go on, you are beginning to think are you 
beginning to pour good money after bad.
    So the whole intent of the blue ribbon panel is to step 
back and look at it. Why were the salt domes ignored in the 
past? Well, initially if you put them in the ground, the salt 
oozes around it and closes, you cannot get it back. So this 
long-term geological repository where you cannot get it back is 
actually in a certain sense an ideal place for long-term, 
forever waste disposal, geologically stable over tens of 
millions of years, cannot get it back. So that is the intent of 
the blue ribbon panel.
    Let us step back----
    Senator Murray. But I would assume that a blue ribbon panel 
would not just say we are going to take this one off the table. 
We are going to look at other ones that we have not spent a lot 
of money on, and they could have problems too.
    You know, over the last 30 years, Congress, independent 
studies, previous administrations have all pointed to and voted 
for and funded Yucca Mountain as the Nation's best option for a 
nuclear repository. In concert with those decisions, billions 
of dollars and countless work hours have been spent at Hanford 
and nuclear waste sites across the country in an effort to 
treat and package nuclear waste that will be sent there. 
Without a repository, these sites and communities that support 
them have now really been left in limbo.
    The question I want to ask you is what are you going to say 
to these communities today about why you have decided to go 
back on nearly 30 years of planning? And what can you do to 
assure them that the sites that they are now working to clean 
up will not become the final repository for this waste because 
we have taken some options off the table?
    Secretary Chu. The Department of Energy has a legal 
obligation to move that material. We take that obligation very 
seriously. So I think that is the assurance. There is more 
assurance as you well know. There are ways of dealing with it 
if we fail to live up to our responsibility.
    But going back to this issue of Yucca Mountain, we believe 
we have a path forward. We have a very distinguished bipartisan 
panel that is charged with review. They are going to be meeting 
at the end of this month, and the two chairs are very eager to 
get on with it and to give advice to me, the President, and 
Congress which could include advice on changes in the 
legislation to allow for a comprehensive, sensible approach to 
the back end of the fuel cycle.
    Again, Yucca Mountain is not the ideal site, given what we 
know today and given what we believe can be developed in the 
next 50 years.
    Senator Murray. Well, this is really disturbing to me 
because now we have pushed this down 2 more years and we have 
taken one of the sites off. You have told them do not even look 
at this in comparison to all these other ones you are going to 
look at. This leaves everybody just in complete limbo after 30 
years of working on this, and I would like to ask you to 
provide this subcommittee and my office with an impact analysis 
which includes the cost and schedule impacts to Hanford cleanup 
and the other nuclear sites in my State.
    Secretary Chu. All right.
    Senator Murray. I just think it is irresponsible for the 
Department of Energy to discontinue the Yucca program 
altogether, its funding, licensing, and design. I believe that 
this has to be a decision based on science and moral 
responsibility. We have to clean up this waste. It has to go 
somewhere and we cannot just unilaterally take one site out of 
the equation when we are looking at where this is going to go 
or we are going to find ourselves 2 years down the road in this 
same place and all the waste sitting in Hanford that is 
temporary storage is going to have no further answer. So I am 
really disturbed about this and want to get that information 
from you.
    Mr. Chairman, if I could just have one more question here.

                           LEGACY MANAGEMENT

    On the whole issue of EM, last year I wrote a press report 
that EM was going to be cut by $1 billion. Now, fortunately, 
that did not happen. But the funding still for this fiscal year 
is inadequate to meet all the needs at Hanford. Particularly I 
am worried about the $50 million shortfall for groundwater 
cleanup. This is really frustrating. I know there were 
increases in other parts of the energy budget. You know, all 
the new stuff out there is wonderful. We all want to fund it. 
But the legacy projects within DOE are absolutely critical, and 
these budgets are not put together just by wishing or magic. 
DOE works with the regulators. They work with the communities. 
They agree on the milestones and parts of those are the funding 
requirements that Congress then has to follow up with and the 
administration has to pay for. And we have got to have a 
Government that backs up its promises and commitments with real 
money.
    So I just wanted to ask you, while you were here, how a 
base budget that is inadequate to meet the work plans 
illustrates a commitment to these communities that we are going 
to clean up these sites.
    Secretary Chu. Well, Ines Triay, my Assistant Secretary for 
Environmental Management, tells me that the budget request of 
roughly $6 billion is adequate to meet our legal obligations. 
As you know, I have consistently fought to sustain these 
programs.
    Senator Murray. Well, we still have shortages in some 
areas. Truly, you were out. You visited Hanford. It is an 
enormous site. It is a legacy project from another war, and we 
cannot ignore it and we have to meet the milestones and we need 
to fund it. I appreciate that the billion-dollar cut did not go 
through, but we still have some shortfalls.
    And I am worried about next year too because everybody 
keeps thinking, well, nobody will pay attention to these EM 
projects out there. If we do not pay attention to those, if we 
do not meet the milestones and the legal obligations, the 
disaster that will hit this country is much, much larger than 
the cost that we have today. So we have got to keep those 
commitments.
    Secretary Chu. Mr. Chairman, can I have 30 seconds.
    We are maintaining the budgets, but it is much more complex 
than that. We are working very hard to make sure that the 
contractors can do better than they have done in the past. 
Senator Bennett had noted that many of the things in the 
Department of Energy have been over budget, over time. It is 
actually true of EM. It is not true of the Office of Science. 
And so when I walked in the door, since the Office of Science 
actually does big projects on budget, on time, the best 
practices in that office now are being actively transferred 
over to Environmental Management and a little bit to NNSA. So 
we are working very hard to make sure that every precious 
dollar that we are spending in EM goes as far as it can. That 
is the other way we hope to accelerate these processes.
    Senator Tester. Senator Landrieu.
    Senator Landrieu. Thank you very much.
    And Mr. Secretary, thank you for your leadership at this 
quite exciting and uplifting time in this particular area for 
our country and the world.
    I have three questions. I am going to try my best to get 
them all in.

                              NATURAL GAS

    As you are aware, Louisiana has been at the center of a 
domestic energy revolution as it pertains to the shale gas 
revolution. This technology, new technology, has unlocked shale 
gas resource space. The United States suddenly finds itself 
with four times the volume of gas than we thought we had just a 
few years ago.
    I want to ask you what you think about the implications of 
these natural gas finds both onshore, which are pretty 
extraordinary, as well as our continued exploration and 
discovery offshore.
    And as you may be aware, the Congressional Research Service 
recently released a report that said simply by utilizing 
natural gas-fired plants that are constructed today, as opposed 
to other plants, to fill the energy needs today, we could 
reduce our greenhouse gas emissions by 19 percent. I found that 
quite startling and encouraging.
    So could you comment on how this new discovery, new 
technology is informing your thinking as you move forward?
    Secretary Chu. Well, the ability to recover gas from shale 
rock is something that opens up the possibilities. I do believe 
that natural gas is a necessary transition fuel to a low-carbon 
economy. Right now, if you burn natural gas compared to 
uncaptured and sequestered coal, it is about a factor of 2 less 
carbon dioxide per unit of electricity generated. So that is 
good.
    But let me also add that in order to reach the climate 
goals we need in the world, by mid-century we are going to be 
having to capture the carbon from both natural gas plants and 
coal plants.
    The discoveries and the demonstration of recoverability is 
something which will hopefully keep the natural gas prices 
down, and for that reason--the biggest uncertainty, as you well 
know, to a power company is the volatility of the natural gas 
prices.
    So now, I heard slightly different numbers, between a 3 
percent increase to doubling of the natural gas reserves 
because of the shale gas. But no matter, let us take doubling 
as a compromise. That is a lot. It means that we probably have 
natural gas supplies that could last a century. So these are 
good things. We still want to use that more cleanly.
    I should also add that natural gas is also a transition 
fuel for a different reason that is probably not appreciated. 
If you have renewable energy, sun and wind, within a matter of 
minutes to hours, that generation can literally disappear. You 
can Google Bonneville Power Administration, and they give the 
last 7 days of wind production, and it is a running clock 
updated every minute. And it wobbles up and down.
    Now, when the wind stops blowing or tapers off, you have 
minutes to perhaps an hour to respond. And in so doing, you 
asked what sources of energy can respond; hydro and natural 
gas. One does not ramp up nuclear powerplants rapidly, nor does 
one want to ramp up coal plants. So for that reason, the rapid 
response of natural gas is something that is also part of the 
transition.
    Finally, let me add one of the technologies we are looking 
at, which is compressed air storage. You take wind or other 
renewable energy or even nuclear energy at nighttime, you use 
that. You compress air. You bring the air back and help it spin 
a turbine, but you want to use natural gas to boost it. Now, 
the wonderful thing is you can probably--70 percent of the 
electricity needed to compress the air, pump it into a cave and 
have it come out can be used to generate electricity. You only 
lose 30 percent and some people say, with newer designs, 
perhaps even less. So there again, natural gas has a role in 
actually helping generate renewable energy use. So these are 
all reasons why----
    Senator Landrieu. Well, I really appreciate that because, 
as you know, Senator Saxby Chambliss and I have formed the 
Natural Gas Caucus and it is not because we are anti-oil or 
anti-coal, which we also represent the interests of oil and 
coal and want to make sure that they have a place in the 
future, as they have had significantly in the past and the 
present.
    But we think the properties and the potential for natural 
gas are very significant, and I am very grateful for you 
basically outlining two or three, not the least of which could 
potentially be using natural gas, compressed natural gas in 
vehicles, which brings me to my next question. And I appreciate 
that.

        ADVANCED TECHNOLOGY VEHICLES MANUFACTURING LOAN PROGRAM

    Your Department is leading the effort to disburse $25 
billion in investments, which score to our budget at about $7 
billion, but it is significant for new vehicles, the program 
you recently announced. As you know, many States have an 
interest, and Louisiana has been working in conjunction with 
our Department of Economic Development on an exciting potential 
new model for a vehicle that is in the queue for support.
    Can you just give an update about that program? I 
understand you have $25 billion to allocate. You might have 
done this in your opening, and I am sorry if I am going over 
ground already covered. But kind of an update of where you are 
and what is your general view of the kind of applications you 
are seeing. Are you excited about what you are seeing? Are you 
encouraged? And then any particular comments on the Louisiana 
proposal I would appreciate hearing.
    Secretary Chu. Well, just as a point of information, are 
you asking a question about our overall advanced automobile----
    Senator Landrieu. Yes, automobile program, the ATVM 
program.
    Secretary Chu. Yes. I am seeing some very good signs.
    We, in some sectors, had fallen behind other countries in 
the most advanced fuel-efficient vehicles, but I think the 
American car manufacturers are determined to catch up and 
surpass them. There are developments across the whole gamut, 
from improvements in conventional internal combustion and 
unconventional internal combustion in the sense of direct fuel 
injection. Much more economical engines.
    Electrification, the weak point is the batteries. Both the 
major car manufacturers and little start-ups, I think, have 
made progress. I would be personally hopeful that within a few 
years the energy density in batteries could double, but we 
actually need, I believe, perhaps a quadrupling of the energy 
density before it is simply adopted mass market. So you have 
the range and the battery does not take up the space that the 
current batteries do take up.
    We are in the process of developing--again, since this is 
research and development, one cannot give a timeline--batteries 
that also last much longer. The Prius battery, the current 
metal hydride batteries in a Prius are kept within 10 percent 
of half charged. They are 55 percent to 45 percent. If you take 
that battery and drain it deeply and then recharge it, the 
lifetime goes down very quickly and you probably had that 
experience in your own laptop computer. If you drain the 
battery hundreds of times, you will find that that laptop 
battery no longer has the capacity it once did, let us say, a 
year or 2 ago. So the lifetime of the battery is an issue. You 
want the battery to last the lifetime of the car.
    Senator Landrieu. Thank you. I know my time is up, but Mr. 
Secretary, the battery technology is so interesting for all of 
us, but there are opportunities for plug-in, opportunities for 
new infrastructure for plug-in, with the current battery 
technology that we have now. Is that not correct?
    Secretary Chu. No. I think the Chevy Volt battery takes up 
a huge part of the car, and so GM started this where they went 
in with the intent of developing the technology more 
aggressively. So as the Chevy Volt and the Nissan LEAF and all 
these other--well, the Nissan LEAF is not a plug-in hybrid, but 
the Chevy Volt is. So of the plug-in hybrids, we still have 
room for improvement. Again, I think the good news is that it 
is happening. The development of batteries has accelerated.
    Senator Landrieu. Well, thank you very much and thank you 
for your focus on our program which is a little different than 
the electric vehicles but we think extremely exciting and the 
possibility. So thank you for your attention and your staff's 
attention.
    Senator Tester. Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    Dr. Chu, I want to thank you for your exceptional service 
in your job and complement the President and you on his recent 
comments on nuclear power. I completely agree with Senator 
Murray about Yucca Mountain, but the President's comments about 
a new generation of nuclear power, the quality of his nominees 
and appointees for the Nuclear Regulatory Commission and for 
the Commission on Recycling Used Fuel, the approval of the loan 
guarantees. All are an important step forward in that, and I 
know you played a major role in it and I congratulate you for 
it.

                            LOAN GUARANTEES

    Do you think it would be a good idea over the next few 
years for Congress and the administration to move toward a 
technology-neutral, low-carbon set of short-term subsidies, 
policies, loan guarantees and standards rather than picking and 
choosing individual types of clean energy?
    Secretary Chu. Yes and no. If you have a very new 
technology that you think over a period of 10 or 20 years could 
become competitive, then it does make sense to nurture that 
technology. Under no circumstances, I believe should you 
nurture a technology where you say over this time period--let 
us say 10 or 15 years--where it would need subsidy forever. But 
virtually every technology, as it begins and emerges--and it is 
also true of nuclear--wind, solar--these things needed a little 
nurturing, but then after a while you say, okay, eventually you 
have to stand on your own and you have to know that you are 
going to have to stand----
    Senator Alexander. So after a while we get to it.
    We did a little computation of--we asked the Energy 
Information Administration--wind power gets 25 times as much 
Government subsidy per megawatt hour as all other forms of 
electricity combined. You know, we put in a production tax 
credit in 1992 and it just keeps going, and we had four 
Democratic Senators yesterday point out how $2 billion in 
stimulus funding was creating jobs in China to build wind 
turbines, which they did not like.
    So that is why Senator Webb and I on our loan guarantee--I 
am very delighted with your approval of loan guarantees for 
nuclear. But in our legislation, we make it for all low-carbon 
forms of energy. So there is some subsidy, some policy, and 
some standard. The renewable fuel standard, for example, 
excludes nuclear power and some other forms of clean energy and 
in a way distorts the market, making it more difficult for 
investor-owned utilities to build nuclear plants based upon 
market-based decisions.

                             NUCLEAR WASTE

    But if I may keep going so I do not take too much time 
here. I mentioned the quality of your appointees to the 
Commission on Used Nuclear Fuel. While you decide what to do, 
you can still continue aggressive research in the recycling of 
used nuclear fuel. Can you not? And do you plan to do that?
    Secretary Chu. Yes. We have a budget of over $400 million, 
close to $500 million that we have proposed to Congress. 
Included in that budget are new reactor designs that could 
potentially burn down, harvest much more of the energy content, 
small modular reactors, beginning with conventional light water 
but going forward where these small modular reactors would be 
totally prefabricated and built in a factory and shipped 
successfully in the United States where the location of a 
powerplant could not handle a 1.5 gigawatt power line, many, 
many things like that.
    Included in that is research in reprocessing fuel, a well 
as research in advanced reactors with higher energy neutrons 
that can burn down the long-lived waste. The whole idea there 
is to greatly reduce the amount of nuclear waste to greatly 
harvest much more of the energy of the uranium, all those 
things. So we plan a very comprehensive program going forward 
in all those areas.
    Senator Alexander. Senator Bond has an interview he wants 
to get to. So I will not ask you to answer any of these, but I 
will state these questions quickly.
    I would like to ask you to respond to a question about what 
you think the risk of loss is for the loan guarantees for 
nuclear powerplants. I think it is small. Others have said it 
is large.
    Second, I hope that you will keep high on your agenda the 
uranium processing facility at Oak Ridge which this 
subcommittee approved design for, and the sooner we get it 
done, the quicker we can reduce the annual overhead costs at 
Oak Ridge.
    Third and finally, I hope you will keep in mind the 
efficiency of third-party financing for facilities at places 
like the Oak Ridge Laboratory in Y-12. We can build buildings 
cheaper and faster if we allow other people to build them and 
rent from them. Sometimes that gets hung up in the Department 
of Energy or the Office of Management and Budget. We have had 
good success with that at Oak Ridge, and I hope when that comes 
before you, that you will pay close attention to that.
    Thank you very much.
    Senator Tester. Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman, and the 
ranking member, my particular appreciation to my colleague from 
Tennessee. This is one of those days when if we were cloned, we 
would still be about two places short. I thank you very much 
for letting me discuss these issues.

                           COST OF GREEN JOBS

    I agree with Senator Alexander that we need to begin taking 
a look at the economics of wind power. I had a private sector 
contractor in my office yesterday saying wind power is very 
expensive. It is not worth the cost, but we love it because 
every time they build a wind power facility, we get to build a 
natural gas facility beside it for peaking power. So we make 
money off of it, but it is not a good investment for the 
taxpayer dollar. As I look at the $20 a megawatt subsidy plus 
some figures that we have developed, I think that we need to be 
very careful about where it is efficient and effective to use 
wind and solar power.
    Our Missouri National Guard team and others in Afghanistan 
are using solar power to power re-pump facilities to fill 
reservoirs. It makes sense. Whenever the sun shines, they can 
pump water, but trying to put it on the grid does not work.
    But when you come to the stimulus dollars, I think we are 
talking about green jobs, but when families are struggling to 
make ends meet and workers to find and keep jobs, I think it is 
important that the American people know that the so-called 
stimulus funds to stimulate jobs in America, being put on the 
credit cards of our children and grandchildren, are actually 
stimulating jobs here. And too often they are not doing it.
    I serve as the ranking member on the Green Jobs and New 
Economy Subcommittee of the Senate Environment and Public Works 
Committee. We examined this issue last month and I examined the 
issue last year and found out that most of the so-called good, 
high quality, new manufacturing jobs are going to Asia where 
labor costs are a fraction of the U.S. salaries, energy costs 
are low, environmental regulations are nonexistent. So there 
are some U.S. construction jobs to put up wind or solar plants 
and a handful of remaining operations jobs. The good paying 
manufacturing jobs are going to Asia, not the United States.
    FirstSolar, a company that manufactures solar panels and 
equipment, testified before our EPW Committee advocating for 
more Government green job spending. No wonder. What they did 
not admit was they are sending all of their new solar 
manufacturing jobs to Malaysia. And as the chart here shows, 
that is where they are going to go. That is where we are going 
to stimulate it.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    eSolar testified that they are developing solar powerplants 
in the California desert. It is another company. What they did 
not admit is that most of their manufacturing is in China. Gear 
boxes come from Shenzen, towers from Penglai. Even the panels 
come from China. This is eSolar.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    DOE just awarded a $1.4 billion loan guarantee to 
BrightSource Energy to construct a solar plant in the 
California desert. The press release talks about U.S. 
construction jobs, but says nothing about who will manufacture 
the project's solar panels and equipment. I am concerned that 
we will discover that China is the one who is getting the U.S. 
stimulus dollars for this project.
    Now, I think we ought to be dealing more with China. We 
ought to be competing in the world market. We need more trade. 
But when we are saying that we are stimulating U.S. jobs with 
these stimulus dollars, it isn't so. We need to be trading on 
an economically beneficial basis with partners like China, but 
stimulus dollars going to China and Malaysia and elsewhere 
around the world are not meeting the test of stimulating the 
U.S. economy.
    That is why I wrote to you on November 10 expressing my 
concerns over the news report that DOE was using the funds for 
3,000 turbine manufacturing jobs in China to build a Texas wind 
farm. In case you do not have it, here is a copy of the 
November 10 letter that I still have not had a response to.
    [The information follows:]
                Letter From Senator Christopher S. Bond
                                                 November 10, 2009.
The Honorable Dr. Steven Chu,
Secretary of Energy,
Washington, DC 20585.
    Dear Secretary Chu: There is bipartisan concern that the Obama 
administration is using U.S. taxpayer dollars to fund green jobs in 
China and other foreign countries. As U.S. unemployment tops 10 percent 
during this time of economic distress for America's families and 
workers, we must ensure that our Government is not using American 
taxpayer dollars to create more green jobs in China than in the United 
States.
    My colleague Senator Charles Schumer recently wrote to you 
expressing concern over the Department of Energy's (DOE) use of 
stimulus dollars on wind projects that will benefit primarily Chinese 
workers because the wind turbines are constructed in China. He noted 
recent news reports that a Texas wind project under consideration by 
DOE would create up to 3,000 green jobs in China. I applaud Senator 
Schumer's leadership in this area and want to assure you that his 
concerns are shared by me, both as a Senator from a Midwestern 
manufacturing State and as ranking member of the Senate Subcommittee on 
Green Jobs and the New Economy.
    Senator Schumer cited a report by the Investigative Reporting 
Workshop at American University that found that the Obama 
administration has awarded 84 percent of its $1 billion in clean energy 
grants to foreign wind power companies. That is an important issue, but 
of deeper concern to me is what number of jobs in foreign countries are 
funded by DOE clean energy grants. A good-paying job located in the 
United States is still a good job, even if it is supplied by one of our 
foreign friends. However, subsidizing thousands of foreign green jobs 
is a bad use of U.S. taxpayer dollars.
    Therefore, please undertake a review of all renewable energy 
projects pending or approved by this administration to determine both 
the number of U.S. workers and workers in foreign countries they will 
utilize and supply that information to the Senate Green Jobs and the 
New Economy Subcommittee. To the extent that your review for Senator 
Schumer provides information on the use of stimulus funds in this 
regard, there is no need to duplicate those efforts. However, as a 
member of the Senate Energy and Water Appropriations Subcommittee, I am 
concerned about the use of annual appropriated funds in this regard and 
ask that you ensure that your review reflects all funds appropriated by 
Congress. Thank you in advance for your attention to this matter.
            Sincerely,
                                               Christopher S. Bond.

    Senator Bond. A recent outside investigation found that 79 
percent of nearly $2 billion in DOE wind energy stimulus grants 
have gone to foreign-owned firms. Of the 28 wind farms so far 
receiving DOE stimulus grants, over 1,200 of the 1,800 wind 
turbines installed were built by foreign manufacturers.
    Personally I am much less concerned about what companies 
are getting the funding, but if they are calling it ``stimulus 
for hiring U.S. workers,'' I want to make sure they are hiring 
stimulus U.S. workers. If they are foreign companies investing 
in the United States, great if they are hiring U.S. workers, 
but do not call them stimulus jobs if the jobs are overseas.
    That is why I asked you to undertake a review of the dollar 
spending under the stimulus and to tell me the number of 
foreign workers who would be employed. I am still waiting for a 
reply. My staff checked with your Department again in December 
and January and March, and I know others have expressed 
frustration. But I have a copy of this letter that I will be 
happy to supply to your staff, and I would like to be able to 
tell my constituents that when you put money, borrowed from our 
children and grandchildren, into stimulus, they are stimulating 
jobs in the United States.
    Now, I am not here just to complain. I want to thank you, 
as Senator Alexander did, for your commitment to loan 
guarantees to bring the best clean energy, nuclear energy on 
line. You were referencing reprocessing. We have got a 
tremendous amount of first-time spent nuclear fuel which can 
continue to be used, reducing its weight. If it is in 
Tennessee, fine, but wherever you can do it. Clinch River 
breeder reactor I believe should have gone forward.
    And for clean coal, we thank you for those efforts. 
Whatever you think about coal, I think that we have got over a 
couple of hundred years of BTU's. If we can get that started, 
that will be a long way toward meeting the needs that we have 
for energy. I appreciate that.
    And I would like to have an opportunity to hear your 
comments. Rather than asking you a particular question, I would 
like to have your assurance that you will supply us information 
on the foreign jobs and what we are doing to see that if you 
are calling them stimulus jobs, they produce jobs in the United 
States. So I might ask you that and ask you for your comments 
on the many issues I raised.
    Secretary Chu. So very quickly, thank you for your support 
on the nuclear energy sector.
    The wind turbines that are being--first, this famous 
example of the China wind farm in Texas--I keep on asking my 
people, have we gotten an application for a grant on this, and 
they keep on saying no. So all I can say is although that has 
gotten a lot of press coverage, we have not gotten an 
application for a wind farm made with China parts in Texas.
    With respect to the stimulus jobs, yes, the stimulus and 
Recovery Act is all about giving jobs in America. I absolutely 
agree with that.
    The wind turbines that are constructed now in America--part 
of the parts are from abroad, part of the parts in the United 
States. The value of the parts in the United States is 50-60 
percent and climbing. And we are working toward getting that 
fraction up higher and higher.
    I mentioned before that I toured a Vestas plant where they 
are investing--I think it is a total now of maybe $600 million 
in a factory in the United States for manufacturing wind 
turbines in all of North America. They are up to 70 or 80 
percent American-made parts. And of course, when you install 
the turbine, it is American workers. Seventy to 80 percent is a 
good number because if you look at an American-made automobile, 
a Chrysler, for example, that is about the ratio of parts made 
in the United States.
    Now, you might ask why Vestas would want to have local 
suppliers. It is for the same reason why they want to have a 
manufacturing facility in a country that appears committed to 
wind. It is a lower cost to them. They are less susceptible to 
currency fluctuations between countries. They want to develop 
local supplier chains again because of cost/benefit.
    And because we were not a good wind market until recently, 
until the last 5 years, the turbines were developed and 
manufactured abroad. So this is part of the strategy of 
bringing them back to the United States, getting major U.S. 
manufacturer headquarters companies like GE--has come back into 
the game.
    And we will be glad to give you the details of what the 
fraction of money spent on, let us say, a wind farm is in the 
United States and where it is going. So we would be happy----
    Senator Bond. And we will share with you, as I said, the 
testimony from EPW on the plans for the people who have gotten 
the money to invest it solely overseas. And I hope that you 
will take a look at that. When they are saying, hey, we are 
going to build plants in Malaysia with stimulus dollars, that 
is a negative as far as I am concerned.
    Secretary Chu. We will certainly look into that.
    Senator Bond. Good. Thank you very much, Mr. Secretary.
    Senator Tester. Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman.

                      PROJECT APPLICATION PROCESS

    Mr. Secretary, we talked about the time necessary for 
application review, nuclear power, and so on. I just want to 
make the comment that it is my understanding that the review 
process differs by type of application. In other words, 
applicants with nuclear power generation projects receive a 
ranking from DOE before submitting a full application, but 
applicants with coal-based and other types of projects do not. 
Applicants with some kinds of technologies are allowed to brief 
DOE and explain their projects after submitting their 
applications; others are not, potentially denying them 
opportunity to clear up misunderstandings. I would appreciate 
it if you would look into this and see why applicants are 
treated differently in this regard.

                          CONTRACTOR PENSIONS

    Now, the last thing I would like to get back to and the 
point I would like to make--I talked about the major crisis 
regarding contractor pension funds. I understand you have 
changed the way you are budgeting for pensions and in an effort 
to see that it is less of a crisis, and I would appreciate any 
explanation you might have as to what you are doing with 
respect to that and what we can expect in fiscal year 2011.
    I would recommend that you ask the GAO to undertake a 
comprehensive review of the pension problem and solutions going 
forward. I intend to do that, and so whether you do it or not, 
the request will go in. So I am giving you a heads-up that I 
will be sending a letter to GAO fairly soon and would 
appreciate it if you could join me in that. If within the 
Department they think it is not a good thing to do, I will 
proceed anyway. But I wanted to let you know that that is the 
sort of thing I had in mind.
    So if you could talk about that whole issue, I think it 
would be helpful.
    Secretary Chu. I would be delighted to.
    As you correctly point out, there are huge liabilities in 
the DOE pension program because unlike pensions of other 
contractors, the Federal Government and the Department of 
Energy is responsible should those programs be mismanaged----
    Senator Bennett. You have the highest number of outside 
contractors of any Department in the Government except DOD.
    Secretary Chu. Correct.
    The CFO's office has done what I consider a spectacular job 
over the last 6 months in trying to get their hands around the 
problem. We are engaging now the contractors very actively to 
deal with the pension overhangs, especially when the stock 
market went down last year.
    We are taking a number of steps in order to make sure that 
the contractor's--there is a tight rope line here. The way the 
contracts are written--and we do not want to manage the funds 
of the contractors. However, what we can do is use the 
mechanisms we have, for example, award fees, whether there can 
be continuous contractors if they mismanage their funds because 
this is a liability. In 2009, we had budget shortfalls. Because 
of that, it required some top line transfers. So we are taking 
a much more active role in trying to spot early on what is the 
vulnerability of the pensions.
    We also want to share--there are certain contractors who 
have managed their pension funds quite well. In fact, without 
appearing provincial--I know I am going to appear provincial, 
but I will do it anyway. The University of California--they 
have managed their pension funds very well. So, for example, in 
the Lawrence Berkeley National Laboratory, the employees--it 
was so well managed that for 16 years they did not have to 
contribute anything to the pension fund because of the quality 
of the investments. This is a good thing.
    Senator Bennett. Yes.
    Secretary Chu. But I have to say other contractors did less 
well. So we are beginning to get our arms around spotting early 
and ask if the asset allocation classes make sense. For 
example, if 80 percent of your workforce is either retired or 
about to retire in 5 years, what is the asset allocation? Does 
it make sense to have 50 percent of them in equities? You want 
to start to transition to guaranteed income as an example 
because of the age of your base.
    So these are things that we are saying we want to develop 
mechanisms that essentially share best practices among the 
labs. You know, some contractors do well; others do not do it 
well. And to convince the laboratories and the contractors for 
those laboratories how important it is that everybody manage 
their pensions well because if one or two make a mistake, we 
are now talking about hundreds of millions of dollars of top 
line transfers to bail it out.
    So this has gotten our full attention and we are 
investigating it. We welcome the GAO investigation as well 
because we see this as an opportunity. They could have seen 
things we missed, but we are doing it ourselves and we are 
doing it very aggressively.
    Senator Bennett. Thank you. I appreciate the aggressiveness 
with which you have addressed that.
    Thank you, Mr. Chairman.
    Senator Tester. Thank you, Senator Bennett.

           FOREIGN PRODUCTION OF ENERGY GENERATION EQUIPMENT

    I have a few more questions. I want to start out by 
saying--it is no surprise to you--I was one of those four 
Democratic Senators that had that press conference yesterday on 
generation of equipment that was built outside this country.
    I will also say that I know you have come into this 
situation in a tough position. First of all, I think you came 
into the Department of Energy with energy policy that was 
antiquated and lacked diversity. I think for the last 30 years 
we have watched our manufacturing base leave this country 
because we have had poor policies in this country and we have 
had poor trade policies in this country. So I think it is 
patently unfair to come in and say that this is your fault 
because we are buying generators across the pond in one of 
those ponds.
    And I think you explained it very, very well when you said 
a lot of these parts are made here. We like that. And we want 
generation equipment made here. I read not too long ago that if 
one of the hydro plants went out or one of the coal-fired 
electrical generators went out, that we do not make those in 
this country anymore. That is somewhat distressing to me, and I 
know it is to you too.
    So as we move forward and we move our energy economy into 
the 21st century, I just want to express my appreciation for 
you standing up and doing the right thing, and I appreciate 
that. The press conference yesterday from my perspective was 
not a negative on you. It was a negative on where we have come 
in the last 30 years, and I do not think it has been positive.

                   ENERGY TRANSMISSION MODERNIZATION

    Getting back to your budget, I would just like to say DOE 
has got a $60 million study to look at transmission. You and I 
both know the transmission again is antiquated. We need to do 
something about that. The results for that study are going to 
come up in about 2011 or 2013.
    In the interim, we both know that there are problems out 
there with transmission. How are we addressing that issue in 
the interim for this study?
    Secretary Chu. Well, there are many issues. Over a several-
decade period, modernization of our transmission system that 
enhances its electrical reliability and also allows a diverse 
set of energies to be moving around the country--especially as 
the variable sources of energy come higher on line, will 
require a system that can automatically respond to, all of a 
sudden, several billion watts of energy going off line because 
the wind stopped blowing in a certain region, Montana, Wyoming, 
you name it. So the amount of money needed for that is truly in 
the hundreds of billions of dollars.
    Central to all these things are questions of line siting, 
right-of-way issues, of costing of the electrical lines. 
Typically the cost of the electrical lines is borne by the 
supplier, but as we enter in this new era--it used to be that 
the supplier--you build a coal plant, a gas plant, something 
like that. It is local. This is not an issue. But now all of a 
sudden, we are going to enter in an era where you are going to 
be moving energy over hundreds of thousands of miles.
    Senator Tester. And so I think the question is--I have got 
transmission projects in the State. I know New Mexico, Arizona, 
and Nevada. How do you prioritize them without this study being 
in?
    Secretary Chu. Well, again, it is a divided responsibility. 
There is the Department of Energy. There is FERC. There are 
also Federal lands. It turns out that many of the companies who 
want to string transmission lines tend to try to stay away from 
Federal lands because there is local resistance there, as well 
as local private land resistance.
    So what we have been trying to do--you know, I will be the 
first to admit I am not happy with the amount of progress, but 
Ag, Interior, the chairman of FERC, I, others, CEQ have been 
meeting over the last year to try to see how can we get this 
done in a better way. I am not completely happy with the 
progress, but this is an important point. It is not lost that 
this is a problem that needs to be solved.

           BIOMASS AND BIOREFINERIES RESEARCH AND DEVELOPMENT

    Senator Tester. Montana is no different than most of the 
Mountain West. A lot of our forests are red and dead. A lot of 
that material cannot be made into plywood or 2 by 4's or 
anything. It is non-merchantable but it can be used for biomass 
and so it can create power.
    The DOE is flat-lining the budget for biomass and bio-
refineries research and development as one of the two programs 
in the whole energy efficiency budget to not receive an 
increase. Is this a signal that biomass innovation is not a 
priority?
    Secretary Chu. No, it is a priority. It is a signal that we 
have tough choices. Again, I would be willing to work with you 
on this.
    But here, the biomass--actually, quite frankly, because of 
a lot of dead standing pine trees that are there in the West of 
the United States, there is an opportunity not only for those 
sources of biomass but also the biowaste, the wheat straw, the 
rice straw, the cornstalks, all those things we think have an 
opportunity to be harvested for energy, either electricity 
generation or fuels. So we do remain committed to doing that. 
Again, it was a hard decision that we have to sometimes make.

                             CARBON CAPTURE

    Senator Tester. I want to talk a little bit about research 
and development, and then I will let you go. There are two 
particular areas that I think research--and there are many more 
than this that are particularly applicable. Being from a coal 
State like Montana, how we capture carbon, whether we are 
making limestone out of it or putting it underground for 
storage, long-term storage is one way. I was wondering how you 
would assess our progress on that and if there are adequate 
dollars in the budget to take care of that. And are we holding 
the people who are doing the research accountable for results?
    Secretary Chu. There are dollars allocated for that 
purpose, and there are also private companies looking into 
that, taking carbon and turning it into whether it is cement or 
various kinds of things. It really is an R&D level thing. It is 
not ready for deployment. We are in piloting stages. We are 
looking at all of these things. What I would call the general 
rubric of beneficial and economic uses of carbon is something 
that we and other countries are examining.
    Senator Tester. Okay. I mean, coal is going to be around 
for a while. Is progress being made at an adequate rate that 
you are happy with?
    Secretary Chu. Well, we have invested----
    Senator Tester. A lot of money.
    Secretary Chu [continuing]. A lot of money. We have a 
number of pilot plans come forward. I am heartened that a 
number of utility companies and power generating companies are 
partnering with the Department of Energy in a major way to 
start to test the capture at scale, at the hundreds of megawatt 
level, which is really what matters. That is the really 
necessary step before you say, okay, we begin to deploy. So we 
have a number of projects that we are investing in and they are 
being done now.
    We are also investing all the way up the pipeline toward 
even better ways of capturing the carbon, either before you 
burn or after you burn. So we think with some of these new ways 
we have a potential for--you know, it is all about driving down 
the costs, keeping the energy bills as low as possible, and 
getting it as clean as possible. So we think these are good.
    Now, for those of you who do not know me that well but for 
those of you who know me when I do research and everything else 
and for those in the Department of Energy, I always think we 
can go faster and always want to go faster. But we are moving.
    Senator Tester. Well, my point is that as we deal with 
energy and climate change and all the things around that and a 
diversified energy portfolio, this is an important issue. I 
feel the immediacy. I think you feel the immediacy. I just want 
to make sure we are getting results. That is all.

                             NUCLEAR POWER

    Next question, same area, different energy source and that 
is nuclear power. You have answered many questions on it as far 
as nuclear reactor design. It is the same issue. As we talk 
about greenhouse gas from coal, we talk about nuclear waste 
from nuclear powerplants. Are there adequate dollars for 
research there so we can get our arms around that? I do not 
think we are talking about that near enough as we go forth with 
nuclear power, and that is how we are going to deal with the 
waste and if there is a solution to that waste.
    Secretary Chu. I think there are solutions to the waste and 
still ever better solutions I think can be found. So this is 
why we are putting together a long-term road map over 10, 20, 
30, 50 years in order to deal with this. Nothing in nuclear 
moves quickly. You do not get something up and proved and 
running in a couple years. I mean, just the approval process--
you have to proceed carefully.
    But we did ask for an increase. I think, as a scientist and 
a techie, there is a lot more we can do and there is a lot more 
where the technology can be improved.
    Senator Tester. I want to thank you for your testimony and 
your direct answers to the questions.

                     ADDITIONAL COMMITTEE QUESTIONS

    The record will remain open for 1 week for members to 
submit questions and comments.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted by Senator Byron L. Dorgan
    Question. How much funding is being dedicated to R&D on natural gas 
end use technologies in EERE? In particular, what is the DOE doing to 
help develop residential and commercial technologies that will be 
acceptable in a carbon constrained future
    Answer. The Vehicle Technologies Program has an open solicitation 
for medium- and heavy-duty engine development and vehicle platform 
integration that includes $5 million of fiscal year 2010 funds, 
leveraged with similar funds from partners California South Coast Air 
Quality Management District and the California Energy Commission (CEC). 
Work funded under the current solicitation will be complementary to 
work already underway funded by CEC. A 50 percent cost-share will be 
required of awardees.
    Furthermore, there remains a small amount of funding under the Fuel 
Processor and Distributed Energy subprograms in Hydrogen and Fuel Cell 
Technologies. The planned funding in fiscal year 2010 is $370,000. The 
fuel processor could be utilized in combined heat and power (CHP) 
systems that are more efficient than legacy combustion technologies.
    Question. I note a better budget request more last year for 
Hydrogen and Fuel Cell R&D; however, the request is significantly below 
the 2010 appropriation.
    Why is DOE not funding the Market Transformation program that helps 
bring market ready fuel cell technologies to customers?
    Why does the DOE continue to reduce funding for vehicular fuels 
cells and the supporting infrastructure when we all acknowledge a need 
to investigate multiple alternatives to traditional transportation 
technology?
    Answer. DOE requests $9 million for Market Transformation 
activities in fiscal year 2011. This funding will focus on key Safety, 
Codes and Standards activities, which are essential for market 
transformation. In addition, the Program will assess the impact of $42 
million awarded from the Recovery Act for stimulating market pull, 
increasing manufacturing volume and reducing the cost for fuel cell 
systems.
    The Department's reduction of the Hydrogen and Fuel Cell 
Technologies (HFCT) budget by $37 million allows a balanced portfolio 
of transportation solutions and continued focus on battery and advanced 
vehicle approaches for more near term impact. DOE will also maintain a 
strong effort in key areas of hydrogen and fuel cell research and 
development. DOE requests $50 million for the Sold State Energy 
Conversion Alliance (SECA) Program and expects to maintain funding 
levels at approximately $38 million through the Office of Basic Energy 
Sciences for long-term and crosscutting R&D in hydrogen and fuel cells. 
The SECA Program was initiated to bring together government, industry, 
and the scientific community to promote the development of 
environmentally friendly solid oxide fuel cells (SOFC) for a variety of 
energy needs. SECA is an alliance of industry groups who individually 
plan to commercialize SOFC systems for pre-defined markets; research 
and development institutions involved in solid-state development 
activities; and Government organizations that provide funding and 
management for the program.
    Question. I note the funding request for Residential Buildings 
Integration is less in 2011 than was appropriated in 2010; however, the 
DOE has suggested actually adding to the program by including retrofit 
research and development. How do you plan to accomplish the goal of 
Zero energy homes with this reduction in funding?
    Answer. Prior to fiscal year 2010, the DOE Building Technologies 
Program focused research efforts on new buildings with the idea that 
energy efficiency technologies and research aimed at new buildings 
would also be applicable in existing buildings. While there is some 
overlap between the two markets, particularly in space conditioning, 
hot water, appliances, and lighting, there are also a number of R&D 
needs that are specific to energy retrofits for residential buildings 
that the program will seek to address starting in fiscal year 2010.
    Energy retrofits are considered to be among the most cost effective 
ways for the Nation to reduce its energy use and carbon emissions. 
While zero energy homes remain a goal for the Department, another goal 
is to support the retrofit industry--at a national scope and scale of 
up to two million retrofits per year. This service goal will drive the 
research into immediate near term focus and deliverables, which can 
immediately go into service by contractors and other service 
professionals. The zero energy home goal remains a priority over the 
long term for this program.
    Question. Are there limitations inherent in today's lithium ion 
batteries which require a step change in the weight and power/energy 
density of these batteries to secure longer life as well as provide on 
demand power/acceleration.
    Answer. There are no limitations inherent in today's lithium-ion 
batteries that preclude them from having the ability to provide the 
power/acceleration for hybrid vehicle (HEV) and plug-in hybrid vehicle 
(PHEV) applications while meeting the vehicle size and weight targets 
for the battery. Battery life is typically driven by the capacity fade 
that is influenced by several factors including: (1) chemical 
interactions inside the battery cell that are specific to the 
electrochemistry; (2) battery operation; and (3) cumulative temperature 
profile over the life of the battery. Vehicle manufacturers currently 
install excess battery capacity in order to ensure meeting their 
battery life target. As greater confidence in battery life under real-
world driving conditions develops, the amount of excess capacity 
installed is expected to decrease, which will subsequently reduce the 
overall battery cost.
    For battery-powered electric vehicle applications, improvements in 
battery size and weight are sought in order to provide for a longer 
driving range. However, lithium-ion batteries are still far from any 
theoretical limitations on energy density. Next-generation lithium-ion 
batteries will employ metal alloy anodes (instead of graphite), and 
high-capacity cathodes, resulting in significant increases in energy 
density. Research and development efforts on these technologies are 
well underway and are progressing well.
    Question. Would you agree that one of the issues that has to be 
addressed in developing next generation lithium ion battery technology 
is to reduce or eliminate the irreversible capacity of that same cell?
    Answer. DOE agrees that, for some systems, irreversible capacity 
loss (ICL) is an important issue that must be overcome to enable next-
generation Li-ion cells. The ICL associated with alloy anodes is one of 
several barriers to commercializing that technology. Other issues 
include large volume changes upon cycling (which leads to particle 
fracture), disconnection from the rest of the electrode material 
(resulting in severe energy fade), and unstable alloy surface films 
which consume lithium during cycling (which leads to energy fade). 
However, today's commercial cells suffer 5 to 10 percent ICL, so the 
issue is one of relative size and scale.
    Question. Would the Department be interested in looking at 
technologies, such as stabilized lithium metal powder, to overcome the 
issue I described above?
    Answer. Yes. In fact, the Department of Energy (DOE) is currently 
funding a 3-year, $6.2 million total funding (including a 50 percent 
industry cost share of $3.1 million), research and development contract 
with FMC Lithium to investigate and improve the performance of 
stabilized lithium metal powders. These powders show promise both for 
addressing the irreversible capacity loss, and for enabling the use of 
Li-free cathode materials that exhibit very high capacities, such as 
sulfur or vanadium oxides. This contract was awarded through a 
competitive process.
    In addition, DOE is funding work on novel electrolytes for use in 
alloy anode electrodes that exhibit both lower irreversible capacity 
loss (which enables much higher initial energies) and more stable anode 
surface films (that enable more stable cycling).
    The Department also is preparing a new Funding Opportunity 
Announcement (FOA), expected to be released in the next several months, 
focusing on research into higher energy and lower cost batteries, 
mainly those considered to be ``next generation'' technology. The 
responses to this FOA will be competitively evaluated by subject area 
experts. DOE expects to support the proposals receiving the highest 
technical merit and overall value scores, with out year funding subject 
to annual appropriations.
    Question. Concerns have been raised about the Loan Guarantee 
programs treatment of transmission projects under 1705. The concern is 
that transmission projects, which can be challenging and complex, may 
be put at the bottom of the application pile rather than the top, 
simply because of time pressures. A loan guarantee is a ``major Federal 
action'' that requires DOE to conduct a NEPA review. With less than 18 
months before DOE's authority to issue loan guarantees under section 
1705 expires, I would like to know that DOE is prepared to move to 
conduct and complete the necessary environmental work with all 
deliberate speed, so that transmission projects move forward along with 
renewables. What specific steps has DOE taken to ensure that its NEPA 
review of transmission projects is performed in a timely manner?
    Answer. To ensure that project applications are reviewed in a 
timely manner and NEPA is initiated as soon as possible, the Loan 
Programs Office has added 5 additional Environmental Protection 
Specialists in the past 9 months. All of the new Specialists are senior 
NEPA practitioners with many years of relevant experience. This allows 
DOE to maximize the management and efficiency of the NEPA review 
process.
    The DOE Loan Programs Office assesses the level of NEPA review 
required for all projects when entering into the due diligence process. 
Prior to entering due diligence, a preliminary determination of the 
level of review required is performed using the environmental 
information provided in part I of an application. Discussions with the 
applicants are initiated early in the review process to ensure that 
environmental considerations are fully understood. This allows 
applicants to modify, if appropriate, project proposals to ensure that 
the most expeditious NEPA review process can be performed (e.g., 
performing an Environmental Assessment (EA) rather than requiring and 
Environmental Impact Statement (EIS)).
    If a NEPA review for the project or project site was performed by 
another Federal agency, DOE will adopt that review or incorporate all 
relevant analysis from it into the DOE NEPA document in order to 
expedite the DOE NEPA review process.
    Large transmission projects typically require an EIS. The Council 
on Environmental Quality (CEQ) NEPA implementing regulations must be 
followed in preparing an EIS. Those regulations require DOE to 
undertake a variety of procedural steps during the NEPA review process. 
These include the publication of notices of availability and intent to 
prepare EISs; conduct of public meetings; allowance for public comment 
periods; incorporation of public comments; and consultation with 
States, tribes, and other Federal agencies. The Loan Programs Office 
complies with all of the procedural requirements of NEPA, and has 
established a notice preparation process that significantly reduces the 
length previously found in DOE notices while still being fully 
compliant with the CEQ regulations. The new process reduces the time it 
takes to prepare these notices, and allows the review process to begin 
as expeditiously as possible.
    Question. How is the Department working with transmission 
applicants to ensure the efficiency of the NEPA review process is 
maximized?
    Answer. DOE Loan Programs Office Environmental Compliance Division 
staff talks with transmission project applicants early in the 
application process to ensure that applicants understand the level of 
NEPA review that is required, how the process will proceed, and what 
supporting environmental documentation is necessary to include in the 
application. DOE also assists applicants with an understanding of the 
NEPA process and areas of potential environmental concern through live 
and taped web broadcasts and responses to frequently asked questions 
posted on the Loan Programs Office Web site. DOE continues to update 
program solicitations and the program's Web site to include specific 
guidance that helps to educate potential applicants and expedite the 
NEPA review process.
    Question. What assurances can give you give that meritorious 
transmission projects won't be precluded from selection based on the 
internal timing of DOE's NEPA review?
    Answer. The DOE Loan Programs Office does not base its decision 
regarding project selection on the level of NEPA review required for a 
project. However, DOE generally advises applicants that a project 
requiring an EIS that is not currently being, or has not previously 
been, undertaken by another Federal agency will likely take 18 to 24 
months to complete. In cases where no NEPA work has been initiated, it 
would be difficult for DOE to complete an EIS and have a Record of 
Decision signed in time to begin construction and issue a loan 
guarantee prior to September 30, 2011, the deadline established in 
section 1705 of the Energy Policy Act of 2005, as amended by the 
American Recovery and Investment Act of 2009 for both start of 
construction and issuance of loan guarantees. We also note that, 
actions (e.g., commencing project construction) taken by the applicant 
prior to completing the NEPA review process can put at risk the NEPA 
review and thus the issuance of the loan guarantee. Knowing this, 
applicants can decide whether it is appropriate to pursue a Federal 
loan guarantee. Nevertheless, it is the Loan Programs' goal to work 
with all selected applicants to complete the required NEPA review 
process in as efficient and timely a manner as possible.
    Question. What amount of funding is needed in fiscal year 2011 to 
fully comply with all clean up agreements? Please provide the amounts 
on a site-by-site basis.
    Answer. The Office of Environmental Management's request of $6.047 
billion positions the program to meet its regulatory commitments, 
supports reducing the risk associated with our highest environmental 
risk activities (i.e., tank waste) and achieves footprint reduction 
across the complex. Page 9 of the budget request provides the amounts 
on a site-by-site basis, but the table below displays the funding 
requirements for the major sites.

                        [In thousands of dollars]
------------------------------------------------------------------------
                                                            Fiscal Year
                          Site                                 2011
------------------------------------------------------------------------
Carlsbad................................................         220,245
Idaho...................................................         412,000
Los Alamos..............................................         196,953
Oak Ridge...............................................         432,700
Richland................................................         972,588
River Protection........................................       1,158,178
Savannah River..........................................       1,217,799
------------------------------------------------------------------------

    Question. What amount of funding is needed in fiscal year 2012 to 
fiscal year 2015 to fully comply with all cleanup agreements? Please 
provide the amounts on a site-by-site basis.
    Answer. Compliance with cleanup agreements is a major factor the 
Office of Environmental Management takes into account as it formulates 
its budget requests. Because of the dynamic nature of cleanup 
agreements, including the fact that milestones are renegotiated based 
the results of ongoing characterization and the changing understanding 
of the extent of contamination, we are not able to determine at this 
time the amount of funding needed in fiscal year 2012 to fiscal year 
2015 to be in full compliance with all cleanup agreements.
    Question. What actions are being taken regarding contracts that are 
not meeting all cleanup milestones? Please provide specific examples.
    Answer. Most contracts executed by the Office of Environmental 
Management (EM) are performance based, in which the contractor is 
awarded fee based on the attainment of specific cleanup activities. 
These activities often support a specific compliance milestone. Thus, 
if a cleanup action associated with a milestone is not attained, the 
contractor may not receive as much fee as if it had completed the work 
in accordance with the milestone. In fiscal year 2009, EM met 
approximately 95 percent of its 176 scheduled major enforceable 
milestones so, for the most part, fees were not reduced for missed 
milestones. Nonetheless, the milestone for cold commissioning of the 
Waste Treatment and Immobilization Plant was missed and the contractor 
forfeited significant fee. In addition, where allowable by the contract 
and depending on the nature of the violation, the contractor may be 
responsible for the payment of any fines for violations. For example, 
the New Mexico Environment Department fined the Los Alamos National 
Laboratory for issues associated with chromium in groundwater. The site 
contractor paid the fine.
    Question. Will you make clean up milestones and funding needs to 
meet them publicly available?
    Answer. The Office of Environmental Management (EM) has its 
``Environmental Compliance Performance Scorecard'' posted on its Web 
site (http://www.em.doe.gov/Pages/CompliancePerformance.aspx). This 
scorecard is updated on a quarterly basis and provides the status of 
milestones that were due during the quarter as well as progress on 
those upcoming in the next four quarters. EM bases its funding needs on 
the scope, cost, and schedule of cleanup projects. These projects are 
complex and may have several objectives and milestones associated with 
them such that identifying funding needs for specific milestones is not 
feasible.
    Question. Over recent years, any Federal funding research and 
development activities of the Energy & Environmental Research Center 
(EERC) at the University of North Dakota have always provided a minimum 
20 percent cost share as defined under the Energy Policy Act of 2005. 
In fiscal year 2010, Congress directed that continued funding be 
provided to the EERC for additional research and development activities 
as well as funding for a new building to house research and development 
activities critical to meeting the future energy needs of the United 
States. However, the building, which will only support research and 
development projects, has been labeled as a demonstration activity and 
subject to a 50 percent minimum cost share. Is this typical, and is it 
appropriate, to place such a large minimum cost share on a building for 
which the activities occurring within will be research and development, 
which only requires a minimum 20 percent cost share?
    Answer. The cost share determination has been revised to require 
only 20 percent minimum cost share for the effort to construct the 
building. The DOE Contracting Officer notified Ms. Sheryl Landis and 
Principal Investigator at UND of this change in writing on April 1, 
2010.
    Question. The Energy Independence Security Act of 2007 set a 36 
billion gallon mandate for biofuels by 2022. The DOE loan guarantee 
program can be instrumental in seeing that this goal is reached. 
However, DOE has yet to issue a single loan for the advanced biofuel 
industry. The loan program has told the industry they need to bring 
off-take agreements to get these loans, yet the fuels market does not 
operate in this manner. What can DOE do to facilitate issuing loan 
guarantees for advanced biofuel projects in the coming year?
    Answer. While third-party supply and/or off-take agreements are not 
mandatory to satisfy the statutory requirement that the project have a 
reasonable prospect of repayment of the principle and interest of the 
guaranteed loan, they are factors which are taken into consideration. 
For projects that are not supported by third-party supply and/or off-
take agreements, the projects need to establish that a viable market 
exists for the product produced by the projects. The Loan Guarantee 
Program is working closely with the Renewable Fuels Association to 
facilitate dialogue with the biofuels companies. As a result of this 
collaboration, on April 7, 2010, The Loan Guarantee Program held a 
roundtable discussion with members of the biomass community to discuss 
issues that the industry faces in obtaining loan guarantees.
    Question. The fiscal year 2011 budget for EERE indicates that DOE 
intends to launch a new biopower initiative. Why is DOE undertaking 
this new effort now, and what does this mean for biofuels producers who 
might be looking for a new round of funding for advanced biorefinery 
facilities?
    Answer. The Large Scale Biopower Initiative will accelerate the 
development of advanced technologies to enable utilizing sustainably 
harvested biomass for electric power generation. Biomass used for 
biopower may offer a renewable base load energy option that could be 
available year round. These advanced biopower technologies may have 
positive environmental impacts for the existing utility industry and 
also benefit local communities providing the biomass feedstock. There 
are also opportunities to retrofit equipment that is currently idle, 
such as boilers found in pulp and paper plants, in older and smaller 
coal-fired power plants, or co-fired in conjunction with coal and use 
it in the biopower production process. Additionally, biopower is an 
option for meeting State-level Renewable Portfolio Standards (RPS). The 
Biopower Initiative aims to accelerate the deployment of biopower 
technologies to enable biopower deployment as soon as 2013 in support 
of potential future RPSs.
    Furthermore, a component of the proposed advanced technologies for 
the introduction of biopower is the development of densified biomass-
derived intermediaries--such as torrefied biomass and bio-oil--which 
are technologies that can be leveraged in the production of biofuels.
    The fiscal year 2010 appropriation and fiscal year 2011 request do 
not include funding for another integrated biorefinery solicitation. 
The integrated biorefinery funds requested incrementally fund projects 
previously selected in fiscal year 2007 and fiscal year 2008. 
Furthermore, the number of integrated biorefinery facilities was 
significantly expanded by Recovery Act funding.
    Question. The NNSA budget request includes a 5 year spending plan 
for each element of the budget request. A 5 year spending plan shows 
the fluctuation of spending year to year, when certain programs and 
projects reach peaks or are finished, and provides a sense that the 
requested fiscal year 2011 budget is grounded in some longer term plan. 
Outside of NNSA, the rest of DOE does not provide 5 year spending 
plans. Mr. Secretary, can you provide 5 year spending plans for all DOE 
programs and projects as NNSA does now?
    Answer. I believe that considering 5 year budget implications 
provides useful guidance for internal formulation and planning and the 
Department is making significant strides in that direction.
    A more in-depth internal consideration of multi-year budget 
implications will offer the Department many advantages including 
enhancing transparency and improving long-term planning. We are 
currently establishing a Department-wide budget formulation and 
execution system that will be better able to build and track 5 year 
budget plans.
    Question. You did not request new funding for the Clean Coal Power 
Initiative this year, Also, the Obama administration announced a multi-
agency CCS Task Force with the Office of Fossil Energy and EPA as the 
co-leads on February 3, 2010. The goal of that effort is to work to 
overcome the barriers for widespread deployment of CCS within 10 years 
and to bring 5-10 commercial scale projects on line by 2016. Can you 
tell me what you hope to achieve with CCPI Round III (from the Recovery 
Act) projects?
    Answer. The third round of Clean Coal Power Initiative (CCPI) 
demonstration projects is well underway and is focused on developing 
projects that utilize carbon capture and storage technologies and/or 
beneficial reuse of carbon dioxide. Five projects have been selected, 
two focusing on pre-combustion carbon capture in greenfield integrated 
gasification combined cycle (IGCC) plants and three post-combustion 
capture projects using slipstreams at existing pulverized coal (PC) 
power plants. Thus far, the Department has signed cooperative 
agreements on three of these projects (two IGCC and one PC). Each of 
these projects will be demonstrating a different carbon capture 
technology to provide the market a diversity of CO<INF>2</INF> capture 
approaches. These projects will be storing CO<INF>2</INF> in either 
saline aquifers or using it for enhanced oil recovery and will conduct 
extensive monitoring, verification, and accounting to ensure permanence 
of storage. Four of the five projects selected will be capturing and 
storing CO<INF>2</INF> in excess of 1 million tons per year.
    Question. When do you plan to announce, how much would you hope to 
fund, and what would be the focus of a CCPI Round IV?
    Answer. Commercial-scale demonstration of carbon capture and 
storage (CCS) technologies is a key step to generate data and expand 
our knowledge of how these systems work when integrated with an 
operating power plant. The Department is focused on successfully 
implementing the five selected CCPI Round III demonstration projects, 
as well as other CCS demonstrations currently managed by the Department 
(a CCPI Round II project, FutureGen, and the multiple Industrial CCS 
demonstration projects). These demonstrations are critical for proving 
integrated operation and safe and effective long-term storage at scale. 
The R&D focus is on developing advanced technologies to improve cost 
competitiveness of CCS technologies. These demonstration projects will 
provide important information to help guide future budgetary decisions.
    Question. How will each of these CCPI projects feed into the CCS 
task force goals?
    Answer. One of the chief goals of the Carbon Capture and Storage 
(CCS) Task Force is to develop a proposed plan to overcome the barriers 
to the widespread, cost-effective deployment of CCS within 10 years, 
with a goal of bringing 5 to 10 commercial demonstration projects 
online by 2016. All five Clean Coal Power Initiative projects selected 
in the third round and one selected in the second round are presently 
scheduled to begin plant operation and CO<INF>2</INF> sequestration 
during or before 2016.
    Question. For the last 3 years, the Energy and Water Subcommittee 
has provided funds to begin exploring expansion of a 5th SPR site in 
Richton, MS. This site plus expansions at two other existing sites were 
intended to expand the SPR to the 1 billion barrel level. This was the 
policy pushed by Vice-President Cheney. It is my understanding that a 
June 2007 DOE study found that it would cost in the range of $21 
billion to build and fill that expansion effort.
    What is the Obama administration's policy on the SPR and the costs 
and need for site expansion? Are there better ways to achieve energy 
security? Why are you proposing to us $71 million of prior year 
balances for operations and management for fiscal year 2011?
    Answer. The administration is currently reviewing Strategic 
Petroleum Reserve 1 billion barrel expansion policy. While this is 
occuring, the fiscal year 2011 budget proposes the cancellation of $71 
million in balances from prior years appropriated for expansion 
activities at the proposed Richton, Mississippi site and use of these 
balances to partially fund the SPR's requirements in fiscal year 2011. 
The SPR requires $209,861,000 for the management and operations in 
fiscal year 2011.
    Question. The administration has not requested R&D funds for the 
oil and gas programs. Both the Bush and Obama administrations have done 
that in their budget requests. At the same time, in the fiscal year 
2010 conference report, Congress required the DOE to come up with a 
research development and demonstration strategy and provide a report 
that outlines these activities. The E&W conference report provided $20 
million for that effort and requested a report. Despite not requesting 
funds, will you commit to completing that strategic plan with a multi-
year technological horizon and also engage the private sector and 
academic interests?
    Answer. As directed in the appropriation bill, a research and 
development strategy for unconventional oil, gas, and coal resources is 
being developed. The draft strategy will include the resource 
opportunities and technology applications and we will seek input from 
academia and the private sector. The provided funds will be used for 
unconventional oil, gas, and coal resources projects identified in the 
strategy. A funding opportunity announcement seeking proposals for new 
projects will be issued soon.
    Question. The ITER project faces significant delays. The 
construction completion date has slipped from 2016 to 2022 and the 
total project cost estimate has increased from $14 billion to $20 
billion. The ITER International Office managing this project still does 
not have a final design or a schedule and cost baseline. These delays 
have increased U.S. costs and further delays could put at risk the 
U.S.'s total project cost estimate of $2.2 billion for construction. 
What has the United States done to mitigate risk?
    Answer. The Department's senior leadership has been vigorously 
engaged in the ITER project over the past 8-9 months. We are currently 
working with the other ITER members to achieve a final, credible 
project baseline and a change in ITER Organization management that will 
ensure robust management during the construction phase. We are making 
progress with the other members to address these issues. We hope to 
have some of them resolved by the June 2010 ITER Council Meeting (IC-
6). We anticipate using the fiscal year 2011 funding request to make 
substantial progress on the design, R&D, and long-lead procurement 
activities for the U.S. hardware contribution, as well as to keep the 
United States on track to meet its critical path commitments to the 
project.
    Question. Will the United States consider withdrawing from ITER if 
delays continue and costs escalate beyond the $2.2 billion U.S. 
commitment?
    Answer. DOE's policy is to aggressively manage projects to maintain 
cost and schedule. DOE constantly assesses projects to improve 
performance as prescribed by DOE Order 413.3A. ITER is no exception. We 
have made progress in addressing ITER performance concerns. We hope to 
determine the project baseline schedule and improve the management 
issues shortly to allow for much more orderly and efficient management 
of the ITER project. The Department is committed to maintaining the 
established CD-1 cost range for the U.S. contribution to the project 
and, in fact, has resisted entreaties by the ITER Organization to 
accept more scope.
    Question. When will a decision be made by the United States on 
whether to stay in the ITER program?
    Answer. We hope to establish the overall ITER project baseline and 
improve the management issues by the June 2010 ITER Council Meeting 
(IC-6). DOE constantly assesses projects to improve performance as 
prescribed by DOE Order 413.3A.
    Question. I think we all agree we need to move to an electric drive 
transportation system to decrease our dependence on foreign oil and 
decrease our greenhouse gas emissions. I know that your Department is 
working toward decreasing battery costs, which are a huge part of the 
increased incremental cost of electric vehicles. Further, President 
Obama has set a goal of having 1 million electric vehicles on the road 
by 2015.
    What are the major things that the Department is doing to achieve 
that goal? What percentage of the Advanced Vehicles Technology budget 
is going into electric drive vehicles (which can include both battery 
and fuel cell vehicles)?
    Answer. Using Recovery Act funds, the Department is making 
substantial investments in establishing domestic manufacturing 
capability and infrastructure development needed to advance the 
widespread market penetration of electric drive vehicles. These 
investments totaled over $2.4 billion, including up to $2 billion for 
battery and electric drive manufacturing facilities, $400 million for 
transportation electrification projects, and $20 million in battery 
research and testing facilities.
    Under the Advanced Technology Vehicle Manufacturing Loan Program, 
the Department made loan commitments of over $8 billion to domestic 
manufacturers of advanced technology vehicles, including loans to Ford, 
Nissan, Tesla, and Fisker Automotive. A substantial fraction of the 
funds disbursed will support domestic manufacturing facilities focused 
on producing batteries, plug-in hybrid, and electric vehicles.
    Under the Recovery Act's section 48C Advanced Energy Manufacturing 
Tax Credits, the Department made awards for tax credits for several 
clean energy manufacturing projects related to electric drive vehicles.
    In addition, the Department is conducting ongoing applied R&D to 
support the development of critical technologies needed for widespread 
introduction of electric drive vehicles. These efforts include battery 
development, power electronics and electric motors, and electric drive 
vehicle systems.
    As part of the U.S. Government effort to update the Federal fleet 
with fuel efficient hybrids and plug-in hybrid electric vehicles, DOE 
will replace 753 vehicles with hybrids in 2010. This will bring the 
total number of DOE hybrid vehicles to 888, even as the agency trims 
the overall size of its vehicle fleet.
    In fiscal year 2010, the DOE Vehicle Technologies Program is 
investing $145 million directly supporting electric drive technologies, 
or approximately 47 percent of its total fiscal year 2010 
appropriation. Other R&D, such as vehicle lightweighting, indirectly 
supports vehicle electrification.
    Question. What is the Department planning to do to overcome the 
non-technical barriers to the deployment of electric vehicles? Are you 
dedicating some of your resources to a public information campaign?
    Answer. Significant resources are being dedicated to addressing 
non-technical barriers. The Department is closely collaborating with 
the EPA to develop and validate fuel economy test protocols for 
electric drive vehicles. The Department works with the Society of 
Automotive Engineers (SAE) and various industry standards organizations 
to establish codes and standards to promote faster widespread market 
penetration. The Department is working with the National Highway 
Traffic Safety Administration and the National Fire Protection 
Association to develop safety standards. The Department has made 
significant awards to develop educational programs for teachers, 
student, and the general public.
    Resources are being dedicated to a public information campaign, 
including the work of the Department's Clean Cities program, which is 
conducting public deployment programs and communicating the benefits of 
transportation electrification to the general public. The Clean Cities 
public education and outreach activities provide technical assistance 
and consumer information related to electric vehicles and other 
alternative fuels, as well as the infrastructure and service industries 
needed to support them. In fiscal year 2010, approximately $10.3 
million is devoted to these efforts.
    As part of the Recovery Act projects, the Department made 
competitively selected awards, totaling $39 million, to 10 consortia of 
universities, community colleges, science centers, and public relations 
organizations to develop advanced electric drive vehicle educational 
programs for student, teachers, technicians, emergency responders, and 
the general public.
    In addition, the Department has launched an outreach effort on its 
Energy Efficiency and Renewable Energy Web site entitled Energy 
Empowers, which includes informative articles and videos showing where 
the Department's efforts are making an impact on people's lives.
    Question. How do you expect to leverage what is learned from the 
demonstration Communities funded by the Recovery Act funds for future 
widespread deployment of electric vehicles?
    Answer. The information obtained and lessons learned as a result of 
the Demonstration Communities will help to guide future development and 
deployment efforts. It will also help to instill a greater 
understanding among the general public of the costs and benefits of 
electric vehicles. Based on this greater public knowledge and 
confidence, the Department will be able to leverage greater future 
investment by local communities in establishing electric vehicle 
infrastructure.
    Question. The electrification (even partial) of medium and heavy 
duty vehicles could play a significant role in decreasing oil use and 
greenhouse gas emissions, due to their low fuel economy. Can you 
describe to me what work the Department is doing in this area and how 
that is represented in your budget?
    Answer. Current electric drive technologies that are being 
developed for automotive applications (e.g., batteries, electric motors 
and power electronics) are in general also applicable to both medium- 
and heavy-duty vehicles. More specifically, R&D on advanced 
technologies for electrification of medium- and heavy-duty vehicles is 
ongoing under the 21st Century Truck Program, and under the SuperTruck 
Program recently initiated with Recovery Act funds. SuperTruck also has 
additional funding support from annual appropriations.
    Truck-stop electrification is being implemented using Recovery Act 
funds. Cascade Sierra Solutions was competitively-selected for an award 
of up to $22.2 million to deploy truck stop electrification 
infrastructure at 50 sites along major U.S. interstate highways and to 
provide 5,450 rebates for truck modification to implement idle 
reduction technologies.
    Medium- and heavy-duty electric drive vehicle awards, 
competitively-selected using Recovery Act funds, include an award of up 
to $45 million to a consortium of California's South Coast Air Quality 
Management District (SCAQMD) and 50 different utilities and fleets to 
develop a fully integrated, production plug-in hybrid system for Class 
2-5 vehicles (8,500-19,500 lbs gross vehicle weight) and demonstrate a 
fleet of 378 trucks and shuttle buses; Navistar was awarded up to $39 
million to develop and deploy 400 advanced battery electric delivery 
trucks (12,100 lbs gross vehicle weight) with a 100-mile range; and 
Smith Electric Vehicles was awarded up to $32 million to develop and 
deploy up to 100 electric vehicles, such as ``Newton'' medium-duty 
trucks.
    Question. What are you currently doing to investigate the possible 
uses of automotive grade lithium ion batteries in stationary 
applications, both with new and somewhat depleted batteries?
    Answer. Several electric drive vehicle battery manufacturers are 
assembling battery packs for stationary grid applications using 
automotive grade lithium ion battery cells developed with DOE funding 
support. For example, A123Systems has built large battery systems from 
high power HEV batteries to support grid frequency regulation. DOE 
anticipates that some of battery production facilities being 
established with support from the Recovery Act will produce batteries 
for both vehicle and utility grid applications.
    In addition, the DOE Office of Electricity Delivery and Energy 
Reliability, with the help of Sandia National Laboratory, is studying 
the value propositions of various energy storage systems, including 
``new'' automotive grade lithium-ion batteries, for stationary grid 
applications such as load leveling, peak demand management, all of 
which could help defer the need to build peaking power plants.
    For ``somewhat depleted'' batteries used in automotive 
applications, the Vehicle Technologies Program (VTP) initiated a 
program to investigate the merits of re-purposing or re-using the 
batteries retired from plug in hybrid electric vehicles (PHEV) or 
electric vehicles (EV) for other applications. This program has several 
elements including analysis, testing, and demonstration. In the 
analysis portion, VTP is investigating the value of the ``somewhat 
depleted'' batteries for grid, off-grid and other mobile applications. 
The potential uses in grid applications include home energy storage 
appliance, community energy storage, substation back up, and 
electricity storage for wind or solar plants.
    Question. How do you anticipate the battery and storage hub 
integrating with existing programs in OE and EERE as well as ARPA-E?
    Answer. The Department formed an Energy Storage Working Group to 
enhance communication and coordination of energy storage research 
across the Department. This activity is led by the Under Secretaries as 
well as the principals of the Offices of Science (SC), Energy 
Efficiency and Renewable Energy (EERE), Electricity Delivery and Energy 
Reliability (OE), and ARPA-E. The Energy Storage Working Group has 
initiated an extensive assessment of the DOE-wide energy storage 
investment by technology readiness level. A staff level group meets 
more frequently to coordinate day-to-day activities. The involved 
program offices share detailed project listings and participate in 
review of each other's new and ongoing projects. They also share 
information on upcoming Funding Opportunity Announcements and support 
joint workshops to identify gaps and barriers.
    In addition, there is a parallel Hubs Working Group that 
coordinates the formulation of the Hubs to ensure similar processes and 
coordination among the Hubs. The Department's Energy Innovation Hubs 
Oversight Board (Under Secretaries for Energy and Science, their senior 
scientific/technical advisors, and I) will provide additional assurance 
that these activities are effectively managed and coordinated. Hub 
researchers will also be full participants in joint program meetings 
with researchers and managers from SC, OE, EERE, and ARPA-E to ensure 
seamless information exchange and to promote coordination and 
collaboration as appropriate.
    Question. In your budget this year, you have cut hydrogen and fuel 
cell funding by $37 million from last year's appropriated level. 
Although this is an improvement over the budget you constructed last 
year, I'm still concerned that this decrease could be seen as an 
indication of what you plan to do with this program. The major programs 
that seem to have been decreased are both Hydrogen and Fuel Cell R&D 
lines ($17 million) and the Market Transformation ($15 million).
    Can you give a brief summary of the existing programs that will be 
discontinued or significantly scaled back in order to make these cuts 
possible?
    Answer. Project deferrals will occur in the Market Transformation 
subprogram, which includes Early Markets, Safety, Codes and Standards, 
and Education, and in the Systems Analysis subprogram.
    Question. One question I have is why would you so dramatically 
decrease the funding for the work that is designed to encourage public 
adoption of the technology, which the American people have funded over 
the years?
    Answer. The Hydrogen and Fuel Cell Technologies funding request 
provides for a focused effort on key Safety, Codes and Standards 
activities, which are essential for market adoption of hydrogen and 
fuel cell technologies. At the same time, data collection and analysis 
of fuel cell systems will continue on fuel cells that are placed into 
the market using fiscal year 2009, fiscal year 2010 and Recovery Act 
funding that together totals nearly $62 million. Analysis of these data 
will be conducted to help identify future needs.
    Question. Last year, the cuts you proposed in this area would have 
abruptly terminated funding to 189 ongoing multi-year grants. Will any 
existing grants be affected this year.
    Answer. There will be 22 projects deferred in fiscal year 2011 in 
Market Transformation (18) and in Systems Analysis (4). Deferred means 
that an existing project will not be funded in fiscal year 2011, but 
the funding of that project could be re-started in fiscal year 2012 
depending upon appropriations. An existing project is one that began in 
fiscal year 2010 or earlier. We retain the option to continue funding 
the project in out years. Deferred does not include new projects that 
would begin in fiscal year 2011. However, the Program anticipates about 
20 new projects will begin in Fuel Cell Systems R&D.
    Question. What are your plans for further solicitations in this 
area to continue building upon the work that the Department has done 
for many years?
    Answer. The Department plans for solicitations in the Fuel Cell 
Systems R&D and Manufacturing R&D subprograms. For the fuel cell 
solicitation, a Request for Information has closed, a pre-solicitation 
workshop has been conducted and preparation of the Funding Opportunity 
Announcement is underway. DOE anticipates that this solicitation will 
yield about 20 new projects.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
    Question. In reviewing the fiscal year 2011 Fossil Energy Research 
and Development (R&D) budget, I am very troubled. Despite a healthy 
overall 6.8 percent increase for the Department from the fiscal year 
2010 enacted level, the Fossil Energy R&D program is not among the 
beneficiaries of forward-thinking. It greatly concerns me that the Coal 
R&D budget is flat funded; the Oil and Natural Gas R&D programs are 
zeroed out; no new funds have been requested for a Clean Coal Power 
Initiative (CCPI) Round 4 solicitation; the Fossil Energy Program 
Direction account is underfunded by $10 million and underfunded by $19 
million if funding is not provided to administer the Recovery Act 
activities; the Methane Hydrates work that has been traditionally 
conducted by NETL is being transferred to the Office of Science; and 
the Ultra-Deepwater and Unconventional Gas and Other Petroleum Research 
Fund has been offered up for rescission.
    Is the fiscal year 2011 Fossil Energy R&D budget an accurate 
reflection of your vision for NETL and the Fossil Energy R&D program? 
Please elaborate.
    Answer. The Office of Fossil Energy's (FE) primary objective is to 
ensure the continued use of traditional fuel sources to provide clean, 
affordable, reliable energy. The Clean Coal Research Program, 
implemented by the National Energy Technology Laboratory (NETL), 
supports the U.S. Department of Energy's (DOE) overall mission to 
achieve national energy security in an economic and environmentally 
sound manner. The Fossil Energy Research and Development fiscal year 
2011 budget request of $586.5 million represents more than 75 percent 
of FE's total fiscal year 2011 budget request and will help maintain 
DOE's leadership role in addressing the challenge of climate change, 
deliver to the Nation superior electricity generating technologies, and 
allow NETL to carry out energy and environmental research, development, 
and demonstration programs.
    The Coal Program has four key priorities: (1) to develop carbon 
dioxide (CO<INF>2</INF>) capture technologies for fossil fueled power 
plants and industrial sources; (2) to establish safe, reliable 
CO<INF>2</INF> storage methods including geologic storage and 
beneficial reuse; (3) to improve the efficiency of both existing and 
new coal-fired power generation plants; and (4) to implement computer 
modeling and simulation to accelerate the Research and Development 
(R&D) path from discovery to commercialization and reduce costs.
    There are a number of technical and economic challenges that must 
be overcome before cost-effective CCS solutions can be implemented to 
address climate change. Funding from the American Recovery and 
Reinvestment Act (Recovery Act) is helping to address these challenges. 
The Recovery Act provided an additional $3.4 billion for FE R&D to 
accelerate the commercial deployment of CCS technology, including $800 
million for the Clean Coal Power Initiative. The Recovery Act funding 
coupled with our annual appropriations will allow FE and NETL to 
support important advances in capture technologies, efficiency of 
advanced power generation systems and CO<INF>2</INF> storage 
technology. The experience gained from capture and storage 
demonstrations funded by the Recovery Act will be a critical step 
forward achieving widespread, cost-effective deployment of CCS. In 
addition to the Recovery Act projects, the core research, development, 
and demonstration activities that leverage public and private 
partnerships will support the goal of broad cost-effective CCS 
deployment in the post-2020 timeframe.
    Consistent with administration policy to phase out fossil fuel 
subsidies, the Office of Fossil Energy requested no funding for oil and 
gas research and development. In addition, Methane Hydrates R&D is 
transferred to the Office of Science. Over the next 2 years, the 
program will phase out production related R&D activities in favor of 
research to strengthen the fundamental understanding of methane 
hydrates: their formation and occurrence; their role in geological and 
ecological systems; their stability in natural and engineered systems; 
and their role in the carbon cycle. This transfer does not preclude 
academic institutions and laboratories from applying for grants to 
support research that addresses these more fundamental questions. This 
decision is based on the nature of the research and development 
activities not the type of competitively selected awardees.
    Question. The Coal R&D program, which has been flat funded, is 
focused on developing a portfolio of technology options for future 
energy plants that will provide significant improvements in efficiency 
coupled with Carbon Capture and Storage. Given that the Environmental 
Protection Agency will begin regulating greenhouse gas emissions next 
year, how do you view the Coal R&D budget as adequate?
    Answer. The Fossil Energy Research and Development fiscal year 2011 
budget request of $586.5 million represents more than 75 percent of 
FE's total fiscal year 2011 budget request and will help maintain DOE's 
leadership role in addressing the challenge of climate change, deliver 
to the Nation superior electricity generative technologies, and allow 
NETL to carry out new and ongoing energy and environmental research, 
development, and demonstration programs.
    In addition, the Recovery Act provided $3.4 billion for Fossil 
Energy Research, Development, and Demonstration FER&D to accelerate the 
commercial deployment of CCS technology.
    The coal research and development (R&D) funding request in the 
President's fiscal year 2011 budget is sufficient to meet current 
needs. Ultimately comprehensive energy and climate legislation that 
puts a cap on carbon will provide the largest incentive for CCS because 
it will create stable, long-term, market-based incentives to channel 
private investment in low-carbon technologies.
    Question. The Oil and Natural Gas R&D programs focus on long-term, 
high risk research and development, and are implemented by 
universities, national laboratories, research and development 
institutions, governments, and industry. These programs involve 
research and development on unconventional resources, such as methane 
hydrates; natural gas locked in tight sands, coals, and shales; 
stranded oil; and crude oil in non-conventional reservoirs. I am 
advised that these resources are significant--billions to trillions of 
barrels and more than 1,000 trillion cubic feet of natural gas; 
however, technology advancements are required to develop these domestic 
resources. Furthermore, it is my understanding that the vast majority 
of the oil wells belong to independent operators eager to apply the 
technologies that the Department is helping them access. Why is the 
Department turning its back on these huge potential resources by 
zeroing out the Oil and Natural Gas R&D programs? What alternatives 
have you considered to improve the programs, rather than to eliminate 
them?
    Answer. The Methane Hydrates R&D program is proposed to be 
transferred to the Office of Science. Over the next 2 years, the 
program will focus on research to strengthen the fundamental 
understanding of methane hydrates: their formation and occurrence; 
their role in geological and ecological systems; their stability in 
natural and engineered systems; and their role in the carbon cycle. 
This transfer does not preclude academic institutions and laboratories 
from applying for grants to support research that addresses these more 
fundamental questions. This decision is based on the nature of the 
research and development activities not the type of competitively 
selected awardees.
    Question. During our January 2009 visit in my office, I urged you 
to visit the NETL in Morgantown. Have you made such a visit to any of 
the NETL campuses? What steps have you taken to schedule this visit?
    Answer. Despite several attempts, I have not been able to visit the 
NETL in Morgantown. I look forward to the chance to see the NETL 
campuses and I am working with my staff to schedule a visit soon.
    Question. I have been supportive of the concept behind FutureGen, 
and public-private partnership to build a first of its kind, coal-
fueled, near-zero emissions power plant, provided that the Federal 
share of the project was not funded at the expense of the basic Coal 
R&D account. I understand that you intend to make a go/no go decision 
on the FutureGen project in the coming weeks.
    If you determine that the FutureGen project should proceed, what 
additional Federal resources will be required to complete the project? 
How would the administration make up that shortfall? What assurance can 
you provide me that this shortfall will not be addressed by robbing the 
Coal R&D account?
    Answer. The FutureGen Alliance submitted its Renewal Application to 
DOE on March 19, 2010.
    The latest estimate of capital costs from the FutureGen Industrial 
Alliance has grown from the earlier one provided.
    Currently, the Department is in discussions with the FutureGen 
Alliance about the most promising funding path forward. If additional 
funds are warranted, the Department may consider the use of prior year 
available funds but does not plan to fund the project through offsets 
from current year research and development (R&D) funding nor from 
future year requests for appropriated R&D funds.
    Question. If FutureGen is a ``go,'' will the Department be able to 
obligate funds provided through the American Recovery and Reinvestment 
Act (ARRA) prior to the September 30, 2010, deadline? If those funds 
expire, how will the Department address the FutureGen funding needs?
    Answer. The Department is planning to obligate the American 
Recovery and Reinvestment Act funds for the FutureGen project before 
the September 30, 2010, deadline.
    Question. Should a determination be made not to proceed with the 
FutureGen project, how will the Federal funds that have thus far been 
made available for the project be redirected?
    Answer. On March 19, 2010, the FutureGen Industrial Alliance 
submitted its Renewal Application to the Department of Energy. 
Currently, DOE is in discussions with the FutureGen Alliance about the 
most promising path forward toward a successful project.
    Question. What goals of the FutureGen project being met through the 
current CCPI Round 3 and other funding opportunities provided through 
the ARRA?
    Answer. Some of the environmental goals of FutureGen (emissions of 
criteria pollutants and mercury) will likely be met under the Clean 
Coal Power Initiative Round 3 and American Recovery and Reinvestment 
Act funded awards. The carbon capture and storage goals of FutureGen 
are more stringent than those required under the alternative funding 
opportunities; however, some of the projects being pursued under the 
CCPI would satisfy the 90 percent carbon capture goal and the 
sequestration goal of a minimum 1 million metric tons per year. The 
goal of fully integrating an integrated gasification combined cycle 
powerplant with sequestration in a saline formation remains unique to 
FutureGen.
    Question. After spending most of our meeting last year discussing 
the importance I place on NETL, I was disturbed that your office did 
not take the time to notify me that NETL Director Carl Bauer had 
retired earlier this year. As the Department considers candidates, I 
urge you to seriously consider filling this position with someone who 
not only has a strong technical background, but also who knows how NETL 
is structured, how it works within the Department, and how to build 
relationships with outside stakeholders. What is the status of the 
Department's efforts to identify a new NETL director? I expect your 
office to notify me as soon as a formal decision has been made. I would 
very much like the opportunity to meet the new Director, and will rely 
on your office to help coordinate such a visit.
    Answer. Your office was notified on April 1, 2010, that the 
Department named Anthony V. Cugini as the new NETL Director. Dr. Cugini 
has a strong technical background that includes expertise in a number 
of key energy and environmental research and development areas, 
including catalyst development, advanced carbon synthesis, hydrogen 
production and separation, gas hydrates, and CO<INF>2</INF> 
sequestration and computational modeling.
    During Dr. Cugini's 23-year career at NETL he was responsible for 
overseeing the Office of Research and Development since 2007, where he 
supervised an organization with over 400 personnel at 3 NETL locations, 
which included cutting-edge research and computer simulations conducted 
onsite as well as that performed through partnerships, cooperative 
research and development agreements, financial assistance, and 
contractual arrangements with universities and the private sector.
    Dr. Cugini's background provides an excellent combination of 
leadership abilities, scientific and research expertise, understanding 
of key technical challenges in clean energy, and familiarity with 
NETL's programs, personnel, and capabilities. Dr. Cugini's outstanding 
career at the laboratory has demonstrated a clear ability to continue 
NETL's important mission at a high level of achievement and 
accomplishment. The Department looks forward to the lab's continued 
progress and success under his leadership.
    As requested, we will be pleased to arrange a visit with you and 
Dr. Cugini. The Department's Office of Congressional and 
Intergovernmental Affairs will contact your office to coordinate a 
visit.
    Question. NETL also serves as a PMC for EERE. Approximately 122 
NETL employees support the PMC by implementing 40 percent of EERE's 
projects and programs, including weatherization, power and vehicles, 
and buildings and industrial technologies.
    The EERE program direction for the PMC at NETL did not allow for 
annual cost escalation and is $3 million below what is required to 
sustain the 122 NETL FTEs supporting the PMC at NETL. If this funding 
shortfall is not addressed by Congress, how many NETL positions will be 
eliminated?
    Please provide me with an update on the PMC activities at NETL, 
specifically, the long-term plans to continue this successful NETL-EERE 
collaboration.
    Answer. In fiscal year 2010, the initial NETL Program Direction 
budget was $14.2 million (same as fiscal year 2009), with the 
understanding that after we completed our midyear budget review an 
adjustment may be made based on need. NETL was notified that its final 
fiscal year 2010 regular program direction budget would increase by 
$1.3 million to $15.5 million (9.2 percent) above fiscal year 2009. In 
addition, EERE increased the NETL Recovery Act Program Direction budget 
by $3.5 million. Therefore, there is no funding shortfall in fiscal 
year 2010, and no positions will be eliminated in fiscal year 2010. 
Upon receiving the fiscal year 2011 appropriation from Congress, EERE 
will reassess the funding requirements at the PMC locations, and ensure 
equitable distribution.
    NETL has been a successful partner with EERE, and the long-term 
plan is to continue this working relationship.
    Question. As American industries confront the challenges of 
reducing their carbon emissions and creating the clean energy jobs of 
the 21st century, how can the Industrial Technologies Program (ITP) 
help to place on a fast track major innovations in efficiency and cost-
effective environmental performance? Certain components of this program 
were scaled down or terminated in recent years. Through the ITP, or 
perhaps through other programs, how do you intend to increase the 
Department's focus on maximizing the research, development, and 
deployment that can be achieved through public-private cost-share 
programs, with a view toward achieving bold advancements in the energy-
intensive industries that are so vital to the future of America's clean 
energy job market?
    Answer. The Nation faces serious economic, energy, and 
environmental challenges that are impacting all sectors of the economy, 
including manufacturing which has seen significant job losses over the 
past 2 years. Clean energy development and deployment, and a robust 
manufacturing infrastructure which supports this endeavor are critical 
to U.S. energy security, jobs, and reducing carbon emissions, and have 
been a priority of the administration. In January, President Obama 
announced the award of $2.3 billion in Recovery Act Advanced Energy 
Manufacturing Tax Credits for clean energy manufacturing projects 
across the United States. Additionally, in November 2009, Secretary Chu 
announced more than $155 million in Recovery Act funds for 41 
industrial energy efficiency projects across the country. ITP also 
funded additional Industrial Technical Assistance activities to assist 
energy-intensive manufacturers cut their energy bills, improve their 
productivity, and save jobs over the past few years.
    Also during the summer of 2009, to help restock the technology 
development pipeline, ITP issued a funding opportunity announcement 
(FOA) for grand challenge concept studies to define requirements for 
transformational industrial processes and technologies that reduce the 
energy intensity or greenhouse gas emissions by a minimum of 25 percent 
while providing a return on investment of 10 percent or greater. 
Selections from this FOA are expected to be completed by May 2010.
    Notwithstanding these efforts, ITP recognizes the significant long-
term need for process innovation in manufacturing. The fiscal year 2011 
budget re-prioritized the ITP program strategy. This new strategy 
emphasizes crosscutting technologies that provide significant savings 
across multiple energy intensive industries. ITP will continue to 
support industry-specific R&D for the energy-intensive chemical 
industry. The Program is developing breakthrough technologies that 
significantly reduce process energy- and carbon-intensity, and plans to 
undertake an exploratory study to identify pathways for significant 
carbon emission reductions from the cement industry. ITP will continue 
to work with other energy-intensive industries through its Energy 
Intensive Process R&D activities, which focus on developing innovative 
crosscutting technologies applicable to multiple industries.
    In addition, the fiscal year 2011 ITP budget request proposes a new 
subprogram entitled Manufacturing Energy Systems (MES). The MES 
program, to be anchored at two U.S. universities, will serve as 
knowledge development and dissemination centers organized around 
distinct manufacturing areas with critical technical needs. The centers 
will reduce the time necessary to translate innovation into commercial 
product for low or near-zero carbon processes and technologies.
    ITP will continue to coordinate with other EERE program efforts 
focusing on the manufacturing of clean energy products as appropriate.
    Question. What action is the Department taking to ensure that 
public and private clean energy investments will provide benefits to 
the residents of rural areas, small cities, and towns commensurate with 
the benefits provided to residents of larger metropolitan areas? How do 
these efforts differ from last year? Rural areas have long struggled to 
keep up with critical infrastructure and, if agencies such as yours do 
not provide clear leadership, these rural areas could be at risk of 
missing out on major new public works projects and investments. Please 
provide me with the proportions of the program funding that have been 
committed to rural areas in the State Energy Program and the Energy 
Efficiency and Conservation Block Grant program.
    Answer. In the absence of statutory requirements, the Department of 
Energy (DOE) does not require States to allocate any specific 
proportion of State Energy Program (SEP) funding to either specific 
geographic areas or topics within the State. Through the SEP, DOE 
provides formula grant dollars to State Energy Offices (SEO) on behalf 
of each State. The SEO proposes energy efficiency and renewable energy 
programs that best fit the unique needs and resources within the State. 
DOE then reviews and approves the State programs and provides technical 
assistance as needed.
    The American Recovery and Reinvestment Act of 2009 appropriated 
$3.2 billion in funding for the Energy Efficiency and Conservation 
Block (EECBG) Program. Of this total, more than $2.7 billion is 
available for distribution in the form of direct formula grants to over 
2,350 eligible units of government such as cities and counties, States, 
U.S. territories, and Federal recognized Indian Tribes. This subtotal 
has been allocated, as directed by the Energy Independence and Security 
Act of 2007, to the following categories of grantees:
  --Sixty-eight percent to formula-eligible units of local government 
        (cities or city-equivalents with a population of at least 
        35,000 or that are one of the top 10 highest populated cities 
        of the State, and counties or county-equivalents with a 
        population of at least 200,000 or that are one of the top 10 
        highest populated counties of the State);
  --Twenty-eight percent to States through formula grants;
  --Two percent to Indian Tribes through formula grants; and
  --Two percent for competitive grants to ineligible cities, counties, 
        and Indian tribes (42 U.S.C. 17153(a)(1-4)).
    A State that receives a grant under the EECBG Program shall use not 
less than 60 percent of the amount received to provide subgrants to 
units of local government in the State that are not eligible for a 
direct formula grant from DOE. Hawaii, the U.S. Virgin Islands, 
American Samoa, Guam, and the Commonwealth of the Northern Mariana 
Islands have no ineligible entities and are, therefore, exempt from the 
requirement to make subgrants. For example, West Virginia received more 
than $14 million in direct formula awards to State and local 
governments. Out of this funding, over $9.5 million was awarded to the 
West Virginia State Energy Office, which must subgrant a majority of 
these funds under the requirement described above.
    The authorizing statute does not identify any eligible criteria 
that are specific to ``rural'' communities.
    Up to $453.72 million in Recovery Act funds will be awarded through 
competitive EECBG grants covering two topic areas, as described in 
Funding Opportunity Announcement DE-FOA-0000148.
    The first topic area, the ``Retrofit Ramp-Up'' program, will award 
funds to innovative programs that are structured to provide whole-
neighborhood building energy retrofits. DOE expects to make 8 to 20 
awards under this topic area, with award size ranging from $5 to $75 
million. Both formula eligible and formula-ineligible entities may 
apply for funds under Topic 1.
    The second topic area, the ``General Innovation Fund,'' will award 
up to $63.68 million to help expand local energy efficiency efforts and 
reduce energy use in the commercial, residential, transportation, 
manufacturing, or industrial sectors. DOE expects to make 15 to 60 
awards, with award size ranging from $1 to $5 million. Only formula-
ineligible entities can apply for funds under Topic 2. The award 
selection official may consider a proposed program's ``impact on, and 
benefits to, a diversity of communities, including low-income and rural 
communities'' when making selections per page 38 of FOA-0000148.
    These EECBG grants will almost certainly benefit small and rural 
communities beyond the direct recipients by adding substantially to the 
knowledge base surrounding the implementation and operation of energy 
efficiency/renewable energy projects (EE/RE). The grants will help to 
validate and refine best practices in a diversity of communities, 
including those with low-income and rural characteristics. These new 
data points will allow future EE/RE projects to be more closely 
tailored to the economic, environmental, and energy needs of Americans 
from all walks of life.
    Question. With my strong urging several years ago, NETL began 
performing work under the auspices of the Office of Legacy Management 
(LM). Most recently, these staff relocated to the new 59,000 square-
foot LM Business Center in Morgantown, West Virginia.
    I was advised in June 2008 by LM officials that the LM Business 
Center would house 30 Federal and 60 contractor staff. Please provide 
me with the current Federal and contractor staffing levels at the 
Morgantown site. If the goals provided to me in 2008 have not been met, 
I would like a detailed explanation on how and when these employment 
goals will be achieved.
    Answer. There are currently 9 Federal staff and 73 contractor staff 
at the Legacy Management Business Center (LMBC) located within the West 
Virginia University Research Park. None of these employees are 
associated with the National Energy Technology Laboratory. Over the 
last several years the Office of Legacy Management (LM) has been able 
to reduce total LM Federal staffing levels from an allocation of 83 to 
a current level of 57. This was accomplished by outsourcing work and 
using Federal employees from other organizations where it would be more 
efficient. Within the new staffing level there are presently 50 Federal 
employees in LM. We expect to hire additional Federal employees and 2-3 
of those employees would support activities at the LMBC. However, we do 
not anticipate needing beyond approximately 12 Federal employees at the 
LMBC in the foreseeable future.
    Question. Please describe in detail the functions that are being 
performed by Federal staff at the Morgantown site. Please provide the 
same detailed information about the contractor staff.
    Answer. Federal staff assigned to the LMBC perform a variety of 
functions. Those functions include: management and storage of records; 
information technology infrastructure services; oversight of LM site 
activities (e.g., ensuring compliance with environmental regulations 
and management of natural, historical and cultural resources); budget 
formulation and execution; acquisition support and oversight; and, 
management of personal property.
    The majority of contractor staff at the LMBC are associated with 
LM's primary mission at this location which is the management of 
records and information technology. Contractor staff performs the 
following types of functions: Information Technology, Records 
Management, and a variety of business services. These programs are 
based in Morgantown and support LM mission activities throughout the LM 
complex. LM's contractor also provides operation of the National 
Archives and Records Administration (NARA) certified Records Warehouse 
and the Consolidated Data Center; including environment, safety, and 
health oversight and conduct of operations.
    Question. Please provide me with a schedule of anticipated closures 
of DOE nuclear operations across the country. What effect will these 
closures have upon the demand for the functions performed at Morgantown 
and the staff levels?
    Answer. Responsibility for sites is transferred to LM after active 
remediation is completed, from programs within the Department of 
Energy, the Army Corps of Engineers, and from private licensees of 
former uranium mills. LM anticipates our site responsibility to grow 
from our current level of 87 to 112 by 2015. A list of sites projected 
to transfer by the end of 2015 is below. As a majority of the sites are 
in the Western United States, require only limited maintenance, and 
have small volumes of records and information we do not anticipate an 
increase in LMBC staffing levels.
    Bear Creek, Wyoming; Gas Hills East, Wyoming; Gas Hills North, 
Wyoming; Split Rock, Wyoming; Inhalation Toxicology Lab, New Mexico; 
Lisbon Valley, Utah; Mound, Ohio; Uravan, Colorado; Durita, Colorado; 
Panna Maria, Texas; Church Rock, New Mexico; Ford, Washington; Gas 
Hills West, Wyoming; General Electric Vallecitos, California; Mercury 
Storage Facility (location TBD); Ray Point, Texas; Iowa Army Ammunition 
Plant, Iowa; Painesville, Ohio; Attleboro, Massachusetts; Combustion 
Engineering, Connecticut; Highland, Wyoming; Latty Avenue Properties, 
Missouri; Sequoyah Fuels, Oklahoma; St. Louis Airport, Missouri.
    Question. What other LM functions could be housed in the new 
Morgantown facility?
    Answer. LM has consolidated several of its business functions at 
the LMBC including records storage and management, and information 
technology infrastructure. In addition, Federal staff at the LMBC 
provide oversight of certain LM site activities (e.g., ensuring 
compliance with environmental regulations and management of natural, 
historical and culture resources); budget formulation and execution; 
acquisition support and oversight; and, management of personal 
property.
    The documents to be stored, managed, and processed at the facility 
are inactive, temporary DOE records from the cold war nuclear sites. 
Records are retrieved to respond to various requests for information. 
The records currently stored at several NARA Federal Records Centers 
will be transferred to the LMBC for permanent storage.
    Over the last few years LM has worked hard to both evaluate and 
optimize Federal staffing levels and locations. Based on LM's current 
functions, the locations where those functions are most efficiently 
performed, and the distribution of our sites within the country we do 
not anticipate the transfer of other LM functions to the LMBC.
    Question. In February 2010, the President signed the Memorandum 
creating an Interagency Task Force on Carbon Capture and Storage (CCS). 
The Memorandum proposed a plan ``to overcome the barriers to the 
widespread, cost-effective deployment of CCS within 10 years, with a 
goal of bringing 5 to 10 commercial demonstration projects online by 
2016.''
    What is the status of your progress? What are your plans for going 
forward?
    Answer. In the President's Memorandum, the interagency carbon 
capture and storage (CCS) task force has 180 days to produce a report 
proposing a plan to overcome the barriers to the widespread, cost-
effective deployment of CCS within 10 years, with a goal of bringing 5 
to 10 commercial demonstration projects online by 2016. The task force 
is on track to deliver the report to President Obama in August, 2010. 
On May 6, 2010, at the Grand Hyatt Washington from 8:30 a.m. to 6 p.m. 
a public meeting was held to provide input to the interagency CCS task 
force.
    Question. How do these goals correlate with the Environmental 
Protection Agency's efforts to regulate mobile sources of greenhouse 
gas emissions this year and stationary sources of greenhouse gas 
emissions next year?
    Answer. An area that the interagency carbon capture and storage 
(CCS) task force will investigate is the legal and regulatory issues 
associated with CCS. Per the Presidential Memorandum, the Task Force 
will consider how best to coordinate existing administrative 
authorities, as well as identify areas where additional administrative 
authority may be necessary.
    Question. In June 2009, the administration released a Memorandum of 
Understanding (MOU) entitled, ``Implementing the Interagency Action 
Plan on Appalachian Surface Coal Mining.''
    The MOU noted that ``Federal agencies will work . . . to help 
diversify and strengthen the Appalachian regional economy and promote 
the health and welfare of Appalachian communities. This interagency 
effort will have a special focus on stimulating clean enterprise and 
green jobs development . . .''
    What new programs is the Energy Department proposing to advance 
economic diversification in Appalachia?
    Answer. This question should be directed to the U.S. Department of 
the Army, the U.S. Department of the Interior, and the U.S. 
Environmental Protection Agency. See http://www.epa.gov/owow/wetlands/
pdf/Final_MTM_MOU_6-11-09.pdf.
    Question. What new resources is the Energy Department requesting to 
advance economic diversification in Appalachia?
    Answer. The Department of Energy is not a party to this Memorandum 
of Understanding. This question should be directed to the U.S. 
Department of the Army, the U.S. Department of the Interior, and the 
U.S. Environmental Protection Agency. See http://www.epa.gov/owow/
wetlands/pdf/Final_MTM_MOU_6-11-09.pdf.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Secretary Chu, I am pleased to once again see an increase 
in overall funding for EERE, because we've got to move forward toward a 
clean energy economy and the work being done at the Department will 
help keep us on that path.
    I am concerned, however, that for the second year in a row the 
Water Program has been cut--by 25 percent this year--while nearly every 
other renewable energy program receives increased funding. As you know, 
the National Hydropower Association recently released a report citing 
the potential for additional, emissions-free hydropower--and hundreds 
of thousands of jobs that could be created.
    We must continue investment in our existing hydro facilities to 
allow us to use those flexible resources to firm up intermittent 
renewable resources like wind and solar. And we must also increase our 
work to develop new marine and hydrokinetic technologies that may also 
be able to act as baseload resources in the future.
    Given these recurring funding cuts for this important program, I am 
not assured that the administration sees the value of water as a clean 
energy source.
    Can you please tell me what your goals are for the Water Power 
Program, specifically with regard to conventional hydro as well as 
marine and hydrokinetic technologies?
    And is the Department using the Marine Science Laboratory at 
Sequim, Washington--the Department's only national lab facility located 
on water--to help achieve these goals, particularly to understand the 
environmental impacts of energy devices as the industry begins to test 
at scale?
    Answer. The Department of Energy is excited about the potential to 
develop emerging marine and hydrokinetic energy (MHK) technologies and 
untapped hydropower resources. The $50 million appropriated for Water 
Power in fiscal year 2010 has allowed the Department to continue 
aggressive efforts to develop advanced water power technologies, and we 
are working diligently to ensure that this increased level of funding 
is spent carefully and wisely. DOE believes that the $40.5 million 
requested for Water Power in fiscal year 2011 is sufficient to continue 
the program's ongoing efforts to develop water power technologies and 
accelerate the market adoption of these technologies. This funding is 
complemented by up to $31.7 million in Recovery Act funds for projects 
to deploy advanced turbines and control technologies at hydropower 
facilities, thereby boosting generation of environmental sustainable 
hydropower and stimulating job creation and economic activity. As the 
size of the Nation's water power resources and the ability of emerging 
technologies to capture that energy becomes clearer, the Department 
will be better able to determine if higher funding levels are 
necessary.
    The Department's goals for MHK energy technologies are to determine 
the baseline costs of energy and identify key cost drivers for MHK 
generation, to quantify the total MHK resource available by resource 
type, and to address barriers to the siting and permitting of these 
devices. For conventional hydropower, the Department's goals are to 
facilitate the deployment of new sustainable hydropower generating 
capacity, including timely and low-cost upgrades at existing 
hydroelectric facilities, the powering of non-powered dams and 
constructed waterways, and assessing the potential for new small 
hydropower deployment. The Department also works with other Federal 
agencies, such as the Army Corps of Engineers and the Department of the 
Interior's Bureau of Reclamation, to support the development of 
environmentally sustainable hydropower by increasing energy generation 
at Federal-owned facilities and exploring opportunities for new 
development of low-impact hydropower.
    The Water Power Program has funded MHK technology research at 
Pacific Northwest National Laboratory (PNNL) since fiscal year 2008, 
and the capabilities of PNNL's Sequim Marine Science Laboratory have 
been integral to that effort. Given Sequim's coastal location and 
strong marine environmental research capabilities, much of the work 
undertaken at the Sequim facility has been related to environmental 
baseline studies for MHK technology applications. PNNL is currently 
leading an effort to identify, analyze, and predict environmental 
impacts from MHK energy production. After prioritizing risks, PNNL will 
conduct experiments and field trials to investigate high priority 
environmental impacts to reduce uncertainty, and to gain insight into 
the cumulative impacts of multiple stressors from devices and arrays.
    Question. Mr. Secretary, as you may know in January, as Chairman of 
the U.S.-China Inter-Parliamentary Group, I led a Congressional 
Delegation trip to China. Part of our charge was to focus on a variety 
of bilateral issues, including energy. If our two nations are to 
aggressively deploy clean energy technologies, much needs to be done to 
spur innovation across the energy sector to increase renewable energy 
use as well as reduce greenhouse gas emissions from coal fired 
electricity plants.
    I know that DOE is doing much to drive a green energy future, and 
recognize the need to continue to invest in fossil energy programs. We 
know that current available technology is too expensive. I am concerned 
that the fiscal year 2011 DOE budget request seems to be missing 
programs that will drive the innovation we need now for successful 
deployment in a decade.
    Can you please comment on DOE's intentions for developing a 
significant national program that rapidly accelerates revolutionary 
approaches to carbon capture?
    Answer. In the fiscal year 2011 budget request the Office of Fossil 
Energy (FE) requested over $84 million for capture technology. This 
funding will support bench and laboratory scale R&D for post combustion 
capture techniques such as solvents and sorbents. Pre-combustion 
capture funding will support the development of novel bench scale pre-
combustion capture technology. In addition, the Advanced Research 
Projects Agency--Energy (ARPA-E) is supporting CCS research and 
development of next generation carbon capture technology with funds 
provided by the American Recovery and Reinvestment Act. The Office of 
Science is supporting R&D into the design of novel materials and 
separation processes for post-combustion CO<INF>2</INF> capture, as 
well as catalysis and separation research for novel carbon capture 
schemes that might be incorporated into the design of future power 
plants. These three programs, which closely coordinate, support the 
research and development necessary to reduce the cost and energy 
penalty associated with carbon capture technologies.
    Question. Also, can you please tell me what methods the Department 
is looking at in addition to carbon capture and sequestration, such as 
carbon capture and recycle?
    Answer. The American Reinvestment and Recovery Act allocated to the 
Department $1.52 billion to support industrial carbon capture and 
storage (CCS) projects. Of the $1.52 billion, $17.4 million was 
allocated for industrial CCS applications is to test innovative 
concepts for the beneficial use of CO<INF>2</INF>. Historically, 
enhanced oil recovery projects have been injecting CO<INF>2</INF> to 
stimulate the production of oil, and that is expected to expand as 
CO<INF>2</INF> becomes more readily available. In addition, FE has a 
solicitation, which closed April 20, 2010, targeting technologies that 
utilize CO<INF>2</INF> to produce products at a cost of less than $10 
per metric ton.
    Question. Mr. Secretary, can you give me an update on the 
implementation of the U.S.-China Energy Research Centers? How are you 
implementing this program within the various offices at DOE and are you 
engaging the national labs who are also developing relationships with 
their Chinese counterparts?
    Answer. On March 30, 2010, the Department released a funding 
opportunity announcement (FOA) with the availability of $37.5 million 
over the next 5 years to support the U.S.-China Clean Energy Research 
Center (CERC). Funding from DOE will focus on advancing technologies 
for building energy efficiency, clean coal including carbon capture and 
storage (CCS), and clean vehicles. These are areas in which the United 
States and China have a shared interest in further developing 
technology to help our countries meet clean energy and climate change 
goals. Awards will be made to consortia with the knowledge and 
experience to undertake first-rate collaborative research programs. 
These consortia will help bring together top talent from both countries 
and are expected to generate key technological advancement through 
genuine collaboration between U.S. and Chinese researchers. The DOE 
funding will only go to American researchers and institutions, and 
grantees will match the Department's funding dollar for dollar, 
bringing the United States' contribution to $75 million. All proposed 
projects must involve researchers from both countries. DOE anticipates 
notifying the applicants selected for awards and making the awards in 
summer 2010.
    The implementation of the U.S.-China Clean Energy Research Program 
will be administered by the Office of Policy and International Affairs, 
through a CERC secretariat, to be established and housed at the DOE 
headquarters. The secretariat will act as the principal coordinator of 
activities under the CERC. The Office of Fossil Energy (on clean coal 
and CCS), and the Office of Energy Efficiency and Renewable Energy (on 
building energy efficiency and clean vehicles) will have strong roles 
in supporting the CERC activities, along with the support from DOE 
national laboratories. In addition, DOE national laboratories are also 
eligible to apply as prime applicants.
    Question. I know you when you visited the Pacific Northwest 
National Laboratory last year that you toured the Electricity 
Infrastructure Operations Center (EIOC). This center will be an 
important platform for advancing the smart grid and will be utilized in 
the Pacific Northwest Smart Grid Demonstration that is funded by the 
Recovery Act. What are DOE's plans to follow up on that investment, and 
what must DOE and the Federal Government do to ensure that the 
transition to the smart grid is completed?
    Answer. DOE research and development funds helped establish the 
EOIC, and we expect it to continue to be a great asset in facilitating 
further research, as well as in validating technologies, systems and 
processes that advance the concept of a smart grid. Given its unique 
capabilities, we expect ongoing research, development and demonstration 
funds will continue to support Pacific Northwest National Laboratory, 
and the EOIC.
    The transition to a smart grid is a process that will take years, 
and the role of the Federal Government is to ensure that progress is 
prudent, efficient, and validated by solid research. The Federal 
Government can also work to advance the transition by testing the next 
generations of technical and policy solutions to improve the 
electricity infrastructure, in collaboration with industry, academia, 
and our state partners.
                                 ______
                                 
               Questions Submitted by Senator Tom Harkin
    Question. Dr. Chu, the Energy Policy Act of 2005 included the 
Renewable Fuel Standard commonly referred to as RFS2. It requires use 
of 15.2 billion gallons of biofuels in 2012, and 20.5 billion gallons 
in 2015. It is clear most of that fuel will be in the form of ethanol. 
At the same time, we are facing a challenge with integrating these 
increasing volumes of ethanol into out transportation fuels market. 
Specifically, these volumes go beyond the ``ethanol blend wall'' 
meaning the amount of ethanol that can be utilized in form of E10--fuel 
blends of 10 percent ethanol in gasoline. Now that problem will be 
somewhat alleviated if EPA grants a waiver that allows use of blends 
such as E15 in all highway vehicles, but what we really need are more 
flex-fuel vehicles that can use higher blends and more refueling 
stations that offer higher blends through the use of blender pumps.
    Your Clean Cities Program is increasing the use of alternative 
fuels, but your budget for that program allocates over half of funding 
to support electric vehicles.
    Given that electricity already is widely available while electric 
vehicles are still pretty scarce, and that we have this ethanol market 
limitation, why aren't you putting the major emphasis on your clean 
cities program on availability and use of higher ethanol blends?
    To me, it's very clear that ethanol offers by far the greatest 
potential for reducing our dependence on petroleum for at least the 
next decade. Isn't it in our national energy security interest to make 
sure we can take full advantage of the petroleum displacement potential 
that ethanol provides?
    Answer. DOE has continued to demonstrate strong support for 
deployment of E85 blends with recent financial assistance awards. In 
2009, Clean Cities awards were announced that will help build an 
additional 198 E85 refueling locations during the 2010-2012 timeframe 
in more than 20 States through the Recovery Act and under a separate 
set of Clean Cities infrastructure grants. In 2006, DOE Clean Cities 
helped fund 169 E85 stations. Moreover, DOE Clean Cities continues to 
support the more than 2,000 E85 stations in the United States by 
providing user-friendly web-based station locators and mapping tools 
for convenient trip planning for flex-fuel vehicle (FFV) drivers and 
owners. In addition, in fiscal years 2007-2010, the Department funded a 
$45 million test program focused on intermediate blends of ethanol in 
gasoline for blends up to E20. This program, intended to provide high-
quality data to the Environmental Protection Agency for use in 
considering current and future ethanol blend waiver requests, covers 
materials compatibility, emissions, long-term durability of exhaust 
emissions control systems, and operational issues for E15 and E20 for 
new and legacy vehicles and non-road engines. The Department is also 
evaluating the compatibility of new and legacy fueling infrastructure 
equipment with intermediate blends; a portion of this infrastructure 
testing has been funded through the Clean Cities Program. In a separate 
but related effort, Clean Cities has also engaged in studies of blender 
pumps and E85 fuel quality surveys.
    For the fiscal year 2011 budget request, a portion of the Clean 
Cities budget is focused on activities related to electric vehicles and 
the infrastructure needed to support them. It is estimated that 15 to 
20 new battery electric and 9 to 10 new plug-in hybrid electric vehicle 
models will be introduced by 2012, and that a million of these vehicles 
will be on the road by 2015 (which all need recharging stations). In 
addition, communities where electric vehicles are being introduced will 
need training for first responders, equipment installers and vehicle 
technicians. Clean Cities funding proposed in the fiscal year 2011 
budget request would support these efforts and strengthen the 
participation of local coalitions.
    While there is no question that high-level ethanol blends are 
important for U.S. energy security, the combination of E85 flex fuel 
technology and electric drive offers even greater potential. For 
example, General Motors has mentioned the possibility of a Chevy Volt 
extended range electric vehicle that could be E85 flexible fuel capable 
after 2010. It is an understatement to say that the combination of a 
plug-in vehicle that can also run on ethanol instead of petroleum will 
be an important event for promoting petroleum reduction--a key mission 
of the Clean Cities program and the Office of Energy Efficiency and 
Renewable Energy.
    Question. The Artificial Retina Program at DOE has been an 
incredible success and was recently named a 2009 R&D 100 Award Winner. 
The real potential this program has to restore sight to over 10 million 
blind people in the United States could be a historical accomplishment 
for the DOE Science Program. The fiscal year 2011 budget includes only 
$4 million for this program, and it includes detrimental language to 
terminate the program at DOE at the completion of the 240 electrode 
device, rather than the 1000 electrode device, which was the original 
intention of the program. While NIH has been a partner with DOE in 
doing the clinical trials, they simply cannot pick up the program now 
and develop the 1000 electrode device. With over $70 million already 
invested in this program at DOE, I think it would be a gross mistake to 
prematurely end this program when it is so close to developing a 
technology that would help so many people. Given that this program has 
met every benchmark thus far, and DOE has already made a substantial 
investment in the program, why is DOE terminating the successful 
Artificial Retina Program when the final goal of the 1000 electrode 
device is so close to being achieved?
    Answer. The original intention of this interagency program was to 
develop robust partnerships synergistically linking the strengths of 
the national laboratory, academic, and industrial researchers through 
proof of concept demonstration and engineering of a retinal prosthetic 
device. DOE supports fundamental research and technology development to 
advance DOE missions in energy, climate, and the environment, and is 
working to transition this successful project to other agencies with 
more direct mission responsibility for clinical research. The current 
60 electrode device is in the midst of clinical trials, and early 
clinical trial results have allowed researchers to improve the design 
and fabrication of the 240 electrode device. Synthesis of the 
individual components of the 240 electrode device is expected to be 
complete at the end of fiscal year 2010. The $4 million in the fiscal 
year 2011 budget is designated to facilitate an orderly transition of 
the device through pre-clinical testing and complete additional 
technology research required to bring the device to readiness for 
clinical trials led by partnering organizations. Increasing the number 
of electrodes does not guarantee improved clinical performance. The 
benefits of the 240 electrode Artificial Retina device will not be 
assessed until it enters formal clinical trials and statistically 
significant patient results are demonstrated. Since the early clinical 
testing results are just emerging for the Argus II 60 electrode device, 
the results from the 240 electrode device testing will be critically 
important to design any further device improvements and to determine 
whether those improvements should be specifically focused upon higher 
electrode density or improved neural and visual processing software 
development. Through implementing device improvements informed by 
clinical trial testing of the 240 electrode device, the goal of 
improving visual acuity to many people can be best realized.
    DOE has contributed to the success of the Artificial Retina Project 
through its contributions in materials sciences and microfabrication of 
components, and it is important to transition the work to organizations 
that have a more direct role in the clinical testing and development 
and application.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
    Question. Approximately $2.5 billion (7 percent) of the $36.7 
billion appropriated in the American Reinvestment and Recovery Act, 
enacted over a year ago, has been spent. While around $25 billion has 
been obligated, it's the funds that have been ``costed'' that mean jobs 
and results.
    Why is the pace so slow getting these funds out?
    Answer. As enacted, the Recovery Act's estimated cost of $787 
billion came in three pieces: roughly a third in tax cuts directly to 
the American people, another third in emergency relief for hard-hit 
families, businesses, and State governments, and a third in investments 
in the infrastructure and technology, creating platforms for economic 
growth. The Department of Energy's Recovery program focuses on the 
third leg, accelerating innovation to lay the foundation for long-term 
economic growth.
    From the first day after the Recovery Act was signed into law, DOE 
has been focused on moving the money out the door quickly to create 
jobs and spur economic recovery. We have used competitive processes to 
select exceptional projects. We have streamlined DOE operating 
processes across the board. We are providing unprecedented transparency 
and insist on clear accountability every day.
    DOE has $36.7 billion in appropriations, including $32.7 billion in 
contract and grant authority and $4 billion in loan credit subsidy 
authority. We have made selections for over $32 billion (98 percent) of 
our contract and grant authority. In total, we have obligated $29.4 
billion (90 percent) and outlaid over $5.1 billion (16 percent). 
Environmental Management has paid out $2.3 billion in outlays and 
weatherization has now outlaid over $1 billion. Working with Treasury, 
we have also supported the processing of $7 billion in additional tax 
awards: $4.7 billion in 1603 grants in-lieu of tax credits and $2.3 
billion in 48c tax credits.
    We will be finalizing our remaining selections in the next 3 months 
with the exception of loan guarantees. DOE will finalize selection of 
section 1705 loan guarantees by September 30, 2011.
    We have obligated $29.4 billion (90 percent of contract and grant 
authority). We are on track to obligate nearly 100 percent of our 
contract and grant authority by September 30. Since the March 10 
resolution of the Smart Grid Investment Grant tax issues, OE has fully 
obligated all 100 Smart Grid Investment Grant projects and most of the 
Smart Grid Demonstration Grant projects. We sent nearly 20 HQ staff to 
the field to help in the negotiation process of the Retro-fit Ramp-Up 
awards. In just 5 weeks, they fully obligated all 25 awards ($450 
million). For all new selections, programs are using SWAT teams to 
ensure expeditious obligation. No major delays are expected. Fossil 
Energy and Loans will be the last to obligate.
    We have outlaid over $5.1 billion (16 percent of our contract and 
grant authority). We outlaid nearly $700 million in May and are on our 
way to $750 million in June. In addition to the various renewable 
energy research, development and deployment programs, three of the 
department's largest Recovery Act programs the Environmental Management 
Program and the Weatherization Assistance Program, and the Science 
Program are all at run rate. In the last 2 months, the vehicles program 
has ramped up operations and surpassed its May target by nearly $18.5 
million. Over the last 3 months, we have seen an average payment growth 
rate of 18 percent month-to-month. We outlaid $472 million in March and 
$569 million in April. We expect to hit reach our optimal monthly spend 
rate of $800 million to $1 billion this quarter.
    In the first quarter of 2010, Department of Energy created and 
saved nearly 29,000 direct FTEs jobs at the prime and sub-recipient 
level. DOE has seen an average 50 percent quarter-to-quarter increase 
in recipient reported jobs. Recovery Act investments in the Office of 
Weatherization and Intergovernmental Program (OWIP) and Environmental 
Management program have seen the largest job creation. Going forward, 
DOE expects significant job creation from Recovery Act renewable energy 
and smart grid projects.
    Question. When do you expect to have the full amount actually 
spent--not just obligated?
    Answer. DOE Recovery Act appropriations are funding 144 projects, 
aside from loan guarantees, in 10 different program offices (e.g., 
Energy Efficiency, Fossil Energy, Science, etc.). Each of these 
projects has a unique structure and statutory time horizon for the 
deployment of these funds (i.e., R&D vs. infrastructure investment). 
For example, DOE's Office of Environmental Management has allocated 
nearly $6 billion in Recovery Act funding to 17 sites with a goal to 
complete their work by the end of fiscal year 2011. Large scale, heavy 
infrastructure projects in the Fossil Energy program require extensive 
design and construction stages that will take their Recovery Act 
spending out until fiscal year 2014. As an agency, DOE expects to spend 
70 percent of its ARRA funds by the end of CY2011, nearly 90 percent by 
CY2012, and 100 percent by CY2015.
    Question. Why are there still unresolved tax issues for smart grid 
grantees, more than a year after enactment of the bill, and what is the 
Department doing to address them?
    Answer. The tax issue has been resolved for the Smart Grid 
Investment Grant program, and finalization of the grants is well 
underway. On March 10, 2010, the Internal Revenue Service announced a 
determination on the tax treatment for grantees receiving Recovery Act 
funding under the $3.4 billion Smart Grid Investment Grant program. 
Under the revenue procedure, the Internal Revenue Service is providing 
a safe harbor under section 118(a) of the Internal Revenue Code (IRC) 
for corporations receiving funding under the Smart Grid Investment 
Grant program. With the determination that Smart Grid Investment Grants 
to corporations are non-taxable, corporate utilities will be able to 
launch their investments with a clear indication of the tax status for 
their projects.
    The Internal Revenue Service revenue procedure specifically did not 
apply to Smart Grid Demonstration grants because the programs, which 
are authorized by different statutory provisions, differ in several 
ways that may affect whether DOE's financial assistance can qualify as 
permanent contributions to capital under section 118(a). As a result, 
grantees under the different programs will require separate 
explanations for how the tax code applies. There are also fewer 
corporate recipients of Smart Grid Demonstration grants than of the 
Smart Grid Investment Grants. DOE has asked recipients of Smart Grid 
Demonstration grants to identify whether such tax treatment is 
applicable and necessary for the success of their projects and will 
consider recipients' responses in determining a path forward. 
Regardless, each recipient is free to pursue use of section 118 on its 
own, as well as any other tax treatment it believes is applicable.
    Question. Approximately $6 billion was provided for the 
Environmental Management (EM) program in the Recovery Act. A number of 
the sites are not currently on track to meet cost and schedule 
estimates. Why is this the case, and what steps is EM taking to address 
these issues?
    Answer. The Recovery Act requires all funding to be obligated by 
the end of fiscal year 2010, and spent within 5 years of obligation. 
The Office of Environmental Management (EM) established a very 
aggressive goal of spending the majority of the money by the end of 
fiscal year 2011 in order to maximize the creation of jobs. The EM 
Recovery Act program has obligated more than $5.4 million of the $6 
billion of Recovery Act funding, and more than $2.3 billion has been 
paid out. Approximately 10 percent of the 91 EM Recovery Act projects 
are now scheduled to extend into fiscal year 2012. In regard to project 
performance, a recent GAO report identifies that a number of the 
Recovery Act projects are not currently meeting their original cost and 
schedule goals. Examples of these project variances include: greater 
than initially planned volumes of contaminated soils, resulting in 
higher costs for excavation and disposal; delays due to changes in 
initial waste type characterization assumptions; and contract issues 
causing delays in work start date.
    EM Senior Management continues to be fully engaged with all the 
Recovery Act projects on a regular basis, including monthly project 
reviews with each of the sites. EM Management also requires each 
project with less than satisfactory performance to develop a recovery 
plan that fully defines the issues and contains the corrective actions 
necessary to bring the projects back on-track and within cost and 
schedule. At this time it appears that all of the projects are 
recoverable and will meet Recovery Act performance objectives.
    Question. The President recently named a prestigious group of 
individuals to form a Blue Ribbon Commission on Nuclear Waste. The 
chairmen are Lee Hamilton and General Brent Scowcroft. The Commission 
is expected to make recommendations within 18-24 months.
    What should we expect from the Blue Ribbon Commission?
    Answer. In my comments at the first open meeting of the Blue Ribbon 
Commission on America's Nuclear Future (the Commission) on March 25, 
2010, I set forth several of my expectations for the Commission, which 
include a comprehensive review of the science, technology and other 
factors that influence the back-end of the fuel cycle. In addition, the 
Commission's charter specifies that this comprehensive review includes 
an evaluation of alternatives for storage, processing, and disposal of 
civilian and defense used nuclear fuel, high-level waste, and materials 
derived from nuclear activities, to be followed by advice and 
recommendations on a new plan to address these issues. I am confident 
the Commission will render useful advice and recommendations and 
fulfill its mission and responsibilities under its charter.
    Question. How aggressive will the administration be in pursuing a 
permanent solution to the back end of the nuclear fuel cycle?
    Answer. The establishment of the Commission speaks to the 
administration's commitment to a well-considered policy for managing 
used nuclear fuel and other aspects of the back end of the nuclear fuel 
cycle. The administration, armed with the final report from the 
Commission, is committed to working with Congress, States, and local 
governments to develop an effective strategy to meet the Government's 
obligation to dispose of our Nation's used nuclear material.
    Question. What impact has the proposed closure of Yucca Mountain 
had on the clean-up plans, as far as the existing tripartite agreements 
and their associated milestones, for high level waste at Hanford, Idaho 
National Laboratory, and Savannah River?
    Answer. The administration's decision not to proceed with the Yucca 
Mountain repository does not affect the Office of Environmental 
Management's (EM) plans to retrieve, treat, and store high-level wastes 
stored in tanks or to treat and store spent nuclear fuel. EM is focused 
on addressing environmental and health risks by placing high-level 
waste and spent nuclear fuel in safe and stable configurations. We 
intend to continue our tank waste projects as planned and in accordance 
with our compliance agreements as reflected in the fiscal year 2011 
budget request.
    Question. How will the administration pay for the awards such as 
the one recently announced for Energy Northwest?
    Answer. All funding for settlements and damages awarded utilities 
in the ongoing litigation between the Government and the utilities for 
the Department's delay in accepting spent nuclear fuel from utilities 
by 1998 under the contracts is provided by the Judgment Fund in the 
U.S. Treasury.
    Question. Regardless of what path we pursue in the future, some 
type of geologic repository will be needed for radioactive material 
stored at Hanford. The extensive scientific record that has been 
developed for Yucca Mountain would be extremely useful toward informing 
and providing lessons learned for any future repository program. What 
steps are you taking to ensure that this record will remain available 
for this purpose?
    Answer. The Department is committed to preserving the scientific 
knowledge created through the Yucca Mountain Project. Records generated 
by the Office of Civilian Radioactive Waste Management (OCRWM) are 
managed and archived in accordance with the requirements of the Federal 
Records Act and related regulations. Paper and electronic media records 
that have been archived are stored at several National Archives and 
Records Administration Federal Records Centers (FRC) under FRC 
regulations, as well as in a DOE-leased facility in Las Vegas. In 
addition to records on paper and electronic media, images of records 
are electronically maintained in our Records Information System and 
DOE's documentary material relevant to the Yucca Mountain licensing 
proceeding is electronically available on the Licensing Support 
Network.
    Question. Why did the administration move to withdraw the licensing 
application before NRC with prejudice rather than without prejudice?
    Answer. As explained in its Motion to NRC's Atomic Safety and 
Licensing Board to Withdraw the pending license application with 
prejudice, the Department seeks this form of dismissal to provide 
finality in ending the Yucca Mountain project and to enable the Blue 
Ribbon Commission to focus on alternative methods of meeting the 
Federal Government's obligation to take high-level waste and spent 
nuclear fuel.
    Question. DOE's loan guarantee program was authorized in 2005. 
Since that time only one final commitment has been made and five 
conditional commitments. Applicants have complained about the lack of 
transparency, the unwieldy application process (which differs depending 
on the sector), and DOE's complete risk-adversity (risk is impossible 
to avoid for small companies launching new technologies). DOE has 
identified multiple goals for the Loan Guarantee program--promoting 
innovation in the energy sector, helping to develop the capacity to 
confront the challenges that climate change poses, jumpstarting the 
construction of new nuclear reactors, ensuring the affordability of 
energy, and bolstering the competitiveness of the United States in 
global energy markets.
    How is DOE prioritizing these ambitious goals and, as a practical 
matter, using them to select which projects to support?
    Answer. Since issuing its first conditional commitment in March 
2009, as of April 1, 2010, the Loan Guarantee Program has closed one 
loan guarantee and issued conditional commitments for seven additional 
projects. Projects supported by the Loan Guarantee Program reach 
conditional commitment and ultimately financial close based on each 
individual project's ability to fulfill the requirement outlined in the 
Energy Policy Act of 2005, its Final Rule and the relevant 
solicitation.
    Question. DOE had planned to make a minimum of 21 conditional 
commitments for projects supported under the Recovery Act by the end of 
2009. Instead, the Department made a total of 4 conditional 
commitments. While the Department has made a few additional conditional 
commitments since then, DOE is still far short of its target. What 
explains the program's difficulty in adhering to its plan? What steps 
are being taken to address the sources of delay?
    Answer. The Loan Guarantee program had substantial achievements in 
2009 issuing four conditional loan guarantee commitments, one of which 
reached financial closing and issuance of the loan guarantee in 
September. The Program Specific Recovery Plan was based on best 
estimates at the time, developed very early in the planning process
    Question. What steps are being taken to ensure that the program 
will issue enough loan guarantees to use the funding authority provided 
under the Recovery Act before September 30, 2011, when funding 
authority expires?
    Answer. The Loan Guarantee Program has a robust pipeline of 
projects eligible for both appropriated credit subsidy under the 
Recovery Act and able to meet the Recovery Act requirement to begin 
construction by September 30, 2011. In addition, the Loan Guarantee 
Program has two open solicitations and continues to receive 
applications from eligible projects.
    Question. I understand the application review process differs by 
the type of technology. Applicants with nuclear power generation 
projects received a ranking from DOE before submitting the full 
application fee, while applicants with coal-based and other types of 
projects did not. Applicants with some types of technologies were 
allowed to brief DOE and explain their projects after submitting their 
applications while others were not, potentially denying them the 
opportunity to clear up misunderstandings about their projects. Why are 
applicants treated differently in these regards?
    Answer. DOE strives to treat all applicants on an equitable basis. 
DOE understands that communication with applicants is critical as they 
seek to make business decisions. While the ultimate decision to issue a 
loan guarantee rests with the Department, DOE endeavors to provide 
early and thorough feedback to help all applicants make informed 
decisions regarding their application.
    Question. Given how substantial the credit subsidy fees can be for 
applicants--an average of about 12 percent of the loan guarantee 
amount, and potentially more for some applicants--when in the 
application process are you giving applicants estimates? How long have 
they waited and how much money have they generally spent before 
receiving these estimates? How precise are these estimates?
    Answer. Self-pay applicants can receive an estimated Credit Subsidy 
Cost, given as a range, early in the loan guarantee process. The 
Department has developed a process to provide estimates to applicants 
at key points in the application process. The intent of this process is 
to provide applicants with estimates of the likely cost so that they 
can use them for planning purposes. DOE produces early range estimates 
for self pay applicants under 1703.
    The length of the due diligence process depends on the 
completeness, robustness and simplicity of the project. During this 
period, companies pay all associated legal and contractor fees, which 
are comparable to costs assumed for equivalent work in the private 
sector, and vary widely across technology sectors.
    Question. About 90 percent of DOE's budget (over $22 billion 
annually) is spent on contracts. DOE is the largest contracting agency 
in the Government after the Department of Defense. In 1990, GAO 
designated DOE contract administration and project management as ``high 
risk'' because of DOE's record of inadequate management and oversight 
of contractors, and failures to hold contractors accountable. The 
National Nuclear Security Administration and Environmental Management 
program, which account for the majority of DOE's contract budget, 
continue to experience significant problems.
    DOE over the past several years has issued new guidance on 
performance-based contracting, including how to develop performance 
measures and incentives to motivate contractors to achieve results. 
What additional actions can the department take to hold its contractors 
accountable for meeting cost, schedule, and technical performance 
targets on projects?
    Answer. In addition to performance measures set forth in individual 
contracts, the Department has undertaken a Root Cause Analysis (RCA) 
and is implementing fundamental systemic reforms that are being 
implemented under its Corrective Action Plan (CAP) to improve contract 
and project management. In addition to the long term improvement in the 
ability of the Department to meet its commitments on projects and 
contracts that are expected as a result of the RCA/CAP implementation, 
the Department is beginning to realize benefits as measured by the 
percentage of the total project cost (established at Critical Decision-
2) that meet the performance metrics for capital asset projects and 
environmental cleanup projects. For capital asset line item projects, 
the percentage of projects that are within 110 percent of the Critical 
Decision-2 Total Project Cost has improved from the baseline level in 
2007 of 70 percent to the current projected level of 100 percent. A 
similar trend is noted for Environmental Management cleanup projects. 
For those projects baselined after the 2007 CAP, the projected 
percentage within 110 percent of the Critical Decision-2 Total Project 
Cost is 100 percent. While there are continuing challenges on the older 
projects, those that were baselined after 2007 exhibit greater schedule 
and cost discipline and are testimony to the continued improvements in 
major acquisition management within the Department. Specific activities 
undertaken as part of the RCA/CAP that will promote greater contractor 
accountability include:
  --Improved project front-end planning and requirements definition by 
        the Government will permit large projects to be segmented into 
        smaller, better defined requirements that will support a shift 
        to awarding more firm-fixed-price contracts. This reflects a 
        shift of cost and performance risk to the contractor and is in 
        alignment with President Obama's March 4, 2009, memo on 
        Government Contracting.
  --A new algorithm will be used by Federal project directors to 
        analyze functional staffing requirements to ensure that major 
        projects have adequate staffs to perform contract and project 
        oversight.
  --Additional training of Federal contract and project management 
        workforce will ensure that the Government has the skill sets to 
        perform the necessary project and contract oversight function.
  --Better integration of the Government contract and project 
        management functions in the acquisition planning process will 
        ensure that contractor accountability is built into the 
        contract terms and that conditions and enforcement mechanisms 
        are in place.
  --A new Project Assessment and Reporting System (PARS-II) will upload 
        contractor schedule, cost, and performance data from the 
        contractors systems into the Government system to provide 
        consistent, transparent, and reliable data to all levels of DOE 
        management.
  --Expanded use of project peer reviews modeled on those in the Office 
        of Science, which has successfully and consistently delivered 
        projects on budget and schedule, is expected to improve overall 
        project execution.
  --Rigorous change control processes are in place and will mitigate 
        cost growth on contracts and projects.
  --Knowledge management will be improved by piloting a Project 
        Management lessons learned program (ProjNet and the DOE 
        Corporate Lessons Learned system) to collect and disseminate 
        information and knowledge from past projects.
    Question. Please describe how you systematically reward best 
performers, and use disincentives for poor performers?
    Answer. DOE uses a variety of mechanisms to reward high quality 
performance and to hold contractors accountable for poor performance. 
Specific tools used are: effective use of past performance information; 
targeting award and other incentive fees to areas of concern; not using 
base fee on cost-plus-award-fee contracts; and paying no fee if 
contractors do not meet minimum levels of safety and security.
    DOE recognizes contractors that deliver quality service by giving 
them past performance credit for good performance when making 
selections for future contracts. Past performance is a meaningful 
source selection factor in the award of negotiated acquisitions. DOE 
ensures its past performance information, which is reported 
electronically through its Contractor Performance Assessment Reporting 
System to the Past Performance Information Retrieval System, is 
accurate by its systems of internal procedures and control. These 
controls include DOE's Procurement Management Review, Balanced 
Scorecard Self Assessment, and Data Quality Review programs.
    DOE considers a cost-plus-award-fee contract the appropriate 
contract type for DOE management and operating and other facility 
contracts. DOE does not generally use base fee on these contracts. All 
at-risk fee is dependent upon performance. DOE includes a conditional 
payment of fee clause in its management and operating and other 
facility contracts that reduces or entirely eliminates any fee the 
contractor would otherwise earn if the contractor has not met the 
safety and security requirements of the Department. This recoupment 
provision is an exceptionally strong incentive for contractors to 
perform critical functions well.
    Question. How do you apply ``lessons learned'' across all contracts 
throughout all programs?
    Answer. DOE has a robust program of continual guidance 
dissemination throughout the Department. Guidance is released through 
Policy Flashes, Acquisition Letters, new and updated Acquisition Guide 
Chapters, and Memorandums from the Senior Procurement Executive. This 
program includes sharing of lessons learned from recent procurements, 
from internal reviews, and from reviews conducted by outside groups 
such as the Department's Inspector General and the Government 
Accountability Office. Internal reviews include the Procurement 
Management Review that documents finding and best practices within a 
knowledge management tool--a Web site that supports sharing of the 
lessons learned and best practices in the areas of acquisition, 
financial assistance, contractor pension/benefit management and 
property management.
    In fiscal year 2008, the Department implemented a robust, 
comprehensive Procurement Management Review (PMR) Program. This program 
determines how effectively and efficiently the field area and site 
contracting organizations support their respective site mission 
requirements. It emphasizes the evaluation and compliance of critical 
contracting processes that are key. In addition, the program identifies 
noteworthy practices for export throughout the Department as well as 
deficiencies and obstacles to avoid. This knowledge management 
component of the program is facilitated by a headquarters core review 
team augmented by experienced field contracting personnel. Integration 
of experienced field staff with senior-level headquarters staff 
facilitates the transfusion of knowledge and experience among and 
between DOE's contracting activities via the sharing of lessons learned 
and best practices. The team incorporates peer reviews from other DOE 
procurement/financial assistance locations and helps spread practices 
throughout the Department.
    Additionally, DOE created a position titled ``Source Evaluation 
Board (SEB) Secretariat and Knowledge Manager (SKM)'' specifically 
tasked with ensuring that lessons learned are recorded and shared 
across the Department. The SKM developed a ``SEB lessons learned'' 
template and all SEBs whose acquisition value exceeds $25 million must 
document their lessons learned, which will be shared with all DOE 
procurement personnel. The lessons learned will be analyzed for trends, 
and areas where additional guidance, and/or policy may be needed. The 
SKM is also responsible for source selection training for SEBs, and the 
establishment of SEB reporting requirements and tracking the status of 
SEB activities against established milestones. A monthly SEB reporting 
requirement has been put in place, and both lessons learned and trends 
will be identified and shared with DOE procurement personnel.
    Question. Last year we were told the Department faced a major 
crisis with funding for its contractor pension programs. I understand 
you have changed the way you are budgeting for pensions and the problem 
is less of a crisis.
    Could you please explain in detail the changes in budgeting you 
have or intended to implement?
    Answer. Due to the rising costs for the reimbursement of DOE 
Management and Operating (M&O) and major site management contractor 
employee defined benefit (DB) pension plan contributions, the 
Department has improved and strengthened its management and oversight 
of DB pension plans.
    Specifically, in January the Department eliminated the requirement 
that every contractor employee DB pension plan be funded--and thus 
annual contributions budgeted--at the 80 percent level. The new 
reimbursement action requires the Department to reimburse contractors 
for the amounts required to fund their DB pension plans at a level 
equivalent to the minimum amount required by the Employment Retirement 
Income Security Act (ERISA) as amended by the Pension Protection Act 
(PPA), or higher if necessary for a contractor DB pension plan to have 
a funded status of at least 60 percent. Exceptions to the new 
reimbursement action will be reviewed on a case-by-case basis. 
Additionally, the Department has institutionalized an annual pension 
management plan review process with the specific objective of improving 
cost predictability and containing current and future costs. Each 
contractor is required to provide annual DB pension plan data and 
information to DOE for review in January of each year, so that DOE and 
the contractor can engage in fact-finding and discussions concerning 
the contractor's management approach and plans for its employee pension 
plans prior to the contractor's actuarial certification of the DB plan 
as required under the PPA. In an effort to improve planning and 
budgeting accuracy, contractor representatives also will discuss with 
DOE personnel, among other things, assumption elections, usage of 
credit balances, investment performance, and future year contribution 
estimates. Although actual contributions required by a contractor to 
fund a DB pension plan cannot be known prior to the start of the fiscal 
year, the Department has acquired modeling capabilities to estimate 
funding requirements and will work closely with the contractors to 
include accurate contribution estimates in future budget requests.
    Question. What is the fiscal year 2010 pension liability and how 
does that compare to what the Department budgeted for that fiscal year? 
How will that change in fiscal year 2011?
    Answer. Based on the information provided by the contractors during 
the annual pension management plan review, the Department anticipates 
fiscal year 2010 contributions by contractors to their DB pension plans 
of approximately $650 million. Although contractor contributions are an 
indirect cost allocated in accordance with the Cost Accounting 
Standards and are not broken out as line items in the fiscal year 2010 
budget request, these contributions are covered by the fiscal year 2010 
budget.
    For fiscal year 2011, the Department currently estimates these 
contributions will be approximately $1 billion, which is reflected in 
its fiscal year 2011 budget request. Actual contributions may change, 
as they are highly sensitive to underlying data, methods, assumptions, 
and capital market performance.
    Question. What are the impacts of higher pension liability on the 
amount of work performed by the contractors?
    Answer. The Department anticipates that contractor DB pension costs 
will continue to rise for the foreseeable future, some of which can be 
attributed to the current reimbursement action The Department's recent 
efforts to improve and strengthen its management and oversight of the 
contractor's management of its DB pension plan costs were motivated by 
the need for greater predictability and better control over costs, as 
well as to ensure that contractor DB pension costs do not impact 
performance of mission work. As a result of the Department's revised DB 
pension cost reimbursement action, as well as improved market factors 
and improved transparency, the Department anticipates that additional 
resources may in fact become available in fiscal year 2010 and fiscal 
year 2011 for performance of mission activities. However, as the 
additional resources that may become available to DOE in the short-term 
in fiscal year 2010 and fiscal year 2011 is due to the current 
reimbursement action, in the long term, it may come at the expense of 
the need for additional reimbursements in the future.
    That said, the Department anticipates facing rising contractor DB 
pension costs (due in part to the change in reimbursement action, and 
to the ever-increasing overall contractor employee compensation and 
benefits structure which includes pension benefits) for the foreseeable 
future and will continue to work closely with the contractor community 
to minimize any impact on mission work.
    Question. How does the Department propose to resolve this 
situation?
    Answer. The Department will continue to use the annual pension plan 
review process to assess this situation and will continue to engage 
with the contractors to mitigate any impacts, while continuing to meet 
contractual and statutory obligations to reimburse the costs of the 
contractor's DB pension plan.
    Question. As one of the largest research agencies in the Federal 
Government, DOE spends billions of dollars each year on publicly funded 
research.
    How is DOE using its labs to develop technologies to address the 
complex task of cleaning up decades of accumulated nuclear and 
hazardous wastes? Please provide some examples.
    Answer. The Office of Environmental Management (EM) directs the 
national laboratories, particularly those with close ties to EM sites 
such as the Savannah River National Laboratory (SRNL), the Pacific 
Northwest National Laboratory (PNNL), and the Oak Ridge National 
Laboratory (ORNL) to develop environmental cleanup technologies. The 
focus of our technology needs is primarily on Tank Waste. The reason EM 
is tasking the labs to do this is because we need transformational 
technologies to vastly reduce the life cycle cost and schedule of the 
tank waste system. Examples of technologies under development at the 
national laboratories include advanced glass formulations for increased 
radioactive waste loadings, an advanced cold crucible induction melter, 
and advanced chemical cleaning technologies for radioactive waste 
tanks.
    Question. To what extent are DOE sites using similar cleanup 
technologies, when possible, to help reduce development costs and 
increase cleanup efficiency?
    Answer. The Technology Development and Deployment program seeks, 
wherever possible, to develop technologies that can be used at multiple 
sites. Current projects with multiple site application include:
  --At-Tank/Near Tank Processing.--Use of at- or near-tank equipment 
        will allow solids and radionuclides to be removed, accelerating 
        processing rates and allowing early operations at both Hanford 
        and Savannah River Site (SRS).
  --Glass Optimization.--Improved glass formulations applicable to the 
        Hanford WTP and the SRS DWPF will allow a higher waste loading 
        and reduced life cycle costs.
  --Alternative Treatment/Disposal Processes.--A Fluidized Bed Steam 
        Reforming (FBSR) technology is being developed that could be 
        applied to waste streams at both Hanford and SRS.
  --Mixing/Blending Systems Optimization.--The use of lab and pilot 
        scale data to verify and calibrate Computational Fluid Dynamic 
        (CFD) or other types of numerical models will be used to 
        improve the modeling of Hanford and SRS tank waste mixing and 
        processing.
  --Integrated Systems Analysis.--To analyze alternatives to current 
        radioactive tank waste disposal technologies, EM has developed 
        a limited life-cycle model applicable to both the Hanford and 
        SRS tank wastes. The next steps will be for site-specific 
        process characteristics from current systems plans to be loaded 
        into the model and validation runs to be completed.
    Question. Why are three sites with tank waste--Savannah River, 
Hanford, and Idaho Falls--all using different technologies to treat 
their tank waste?
    Answer. The three sites do use different technologies due to the 
composition of the radioactive tank waste. Hanford produced large 
volumes of about 20 different types of waste. SRS, built a decade after 
Hanford, produced two main types of waste using the plutonium-uranium 
extraction (PUREX) process and the H-modified PUREX process.
    Another factor contributing to the use of different technologies 
are the waste tanks themselves. The Hanford and SRS tanks are 
constructed of carbon steel and cannot contain acid. Therefore the 
wastes were neutralized with caustic to produce an alkaline waste. The 
Idaho tanks were constructed with stainless steel and therefore the 
wastes were not neutralized with caustic. As the Idaho radioactive 
wastes were acidic, a different disposition approach, calcination, was 
appropriate.
    Question. Aside from the Recovery Act, the Department has 
unobligated balances in excess of $1 billion. What is DOE's policy 
regarding maintaining carryover balances? What is the rationale for 
such large unobligated balances? To what extent can these balances be 
used to offset the fiscal year 2011 budget request? Why should the 
subcommittee not require that all salaries and expenses appropriations 
be single-year, as they are in most other agencies?
    Answer. It is my intention to use departmental resources wisely. A 
key component of this effort is to use funds as intended by Congress 
and in as efficient and timely a manner as possible.
    Given the importance of minimizing unobligated balances, progress 
toward fully obligating each account is one of the key metrics 
evaluated during quarterly execution reviews. There are some instances 
where it is not prudent to obligate fully and therefore, establishing a 
blanket goal across the Department is unwise. Some examples of 
appropriate delays in obligations include: late passage of or 
anticipated delay in enacting annual appropriations; complex or 
specialized efforts for which it is difficult to find contractors; and 
programs that accumulate balances over several years before 
obligating--the Clean Coal Power Initiative, for example.
    When there are excess balances the Department's Chief Financial 
Officer and the programs work to address any impediments to carrying 
out approved activities. Where impediments to carrying out activities 
are identified, mitigation efforts are put in place. Where these are 
unsuccessful, or where the funds are no longer needed, unobligated 
balances may be identified as sources to pay for new activities. When 
this is possible, we propose this to Congress.
    In general, the Department has a good record of obligating funds. 
Over the last 5 years, the Department has obligated an average of 95 
percent of available funding by the end of each year. The small amount 
of unobligated balances is useful to help manage activities during 
Continuing Resolutions. I am confident the Department does not abuse 
the no-year availability of this funding and urge you to leave it no-
year money.
    Question. With the NP2010 ending this year, you have reorganized 
the Nuclear Energy budget.
    How would you characterize the changes you have made in the Office 
of Nuclear Energy in terms of projects that focus on applied science 
versus those that focus on basic science?
    Answer. The research budget of the Office of Nuclear Energy (NE) is 
directed toward attaining breakthroughs that would specifically support 
the advancement of nuclear power technologies, which we generally 
consider applied research. However, NE is also engaged with other 
offices, such as the Office of Science, in coordinating research that 
is at a more basic level. For example, NE is funding materials 
research, where the results could be used by the nuclear industry for 
future fuel cycle facilities, but also potentially by multiple 
industries.
    Question. What would you highlight in the Office of Nuclear Energy 
as your most important programs? How important is sustaining the 
current fleet of reactors, potentially for operation beyond 60 years, 
in terms of reducing greenhouse gas emissions?
    Answer. NE has established a broad research portfolio to support 
nuclear power in multiple ways. All of the programs are important to 
nuclear energy's future, though certainly different programs are more 
important with respect to specific objectives: extending the lifetime 
of the current fleet, enabling new builds, developing a sustainable 
fuel cycle, etc. Safely continuing operation of the current fleet of 
reactors, potentially beyond 60 years, helps avoid greenhouse gas 
emissions and as such would have an effect on the Nation's carbon 
emissions profile.
    Question. What is DOE doing to research the potential to keep these 
plants on the grid? Are you aware of any Energy Information Agency 
forecasting that include the current 104 reactors on grid through 2040?
    Answer. The Light Water Reactor Sustainability program is 
conducting research to investigate the possibility of extending the 
operating lifetime of current plants beyond 60 years. The program plans 
to look at a variety of issues, including materials aging and 
degradation, safety margin characterization, efficiency improvements, 
instrumentation and controls, and advanced fuels for light water 
reactors. The long-term EIA projections go out to 2035, so we are not 
aware of any forecasting that includes the current 104 reactors 
remaining on grid through 2040.
    Question. For the first time, DOE is proposing to work 
cooperatively with industry on small modular reactors. These are 
reactors that can be built in U.S. factories and shipped to plant 
sites. Can you explain why the Department is proposing this program at 
this time?
    Answer. DOE has engaged in discussion with small modular reactor 
(SMR) vendors, utilities, the Nuclear Regulatory Commission (NRC), 
Department of Defense, and other possible end-users of SMR energy. 
Through these discussions, we became convinced that there is potential 
in the small modular reactor concept. We will hold a workshop to gain 
further information about potential technical needs and industry 
challenges and from there the administration evaluate potential 
priorities in the context of the appropriate Federal role to identify 
the most cost effective, efficient, and appropriate mechanisms to 
support further development.
    Question. The budget increases the Fuel Cycle Research and 
Development Account by $65 million. Could you please tell the Committee 
what activities you are planning for 2011?
    Answer. The Fuel Cycle Research and Development program is 
continuing the shift begun in fiscal year 2010 from a near-term 
technology development and deployment program to a long-term, results-
oriented, science-based R&D program. We intend to expand the scope of 
the program in two areas in fiscal year 2011, which accounts for the 
increased funding request: (1) Used Nuclear Fuel Disposition R&D and 
(2) Modified Open Cycle R&D.
    The Used Nuclear Fuel Disposition R&D technical area is being 
increased from $9 million to $45 million to continue and expand R&D 
related to storage, transportation, and disposal options for used 
nuclear fuel and high-level waste. Much of the work in these areas was 
previously within the scope of the Office of Civilian Radioactive Waste 
Management. In addition, as necessary, these funds will also be used to 
respond to technical inquiries from the Blue Ribbon Commission.
    The Modified Open Cycle R&D program has been established as a new 
technical area in the program in fiscal year 2011. It is important to 
examine the full range of fuel cycle strategies in order to provide 
future decisionmakers with adequate information to make decisions on 
how best to manage used nuclear fuel. The modified open fuel cycle has 
not been studied as thoroughly as the once-through fuel cycle and full 
recycle fuel cycle options. The modified open fuel cycle is a strategy 
that is ``modified'' in that some limited separations and fuel 
processing technologies are applied to the used light water reactor 
fuel to create fuels that enable the extraction of potentially much 
more energy from the same mass of material and accomplish waste 
management and nonproliferation goals. There are many technical 
challenges and unanswered questions associated with this option. The 
program will investigate priority issues related to fuel forms, 
reactors, and fuel/waste management approaches.
    Question. Could you please describe how you fund, monitor, and 
enforce compliance issues within the Energy Star Program?
    Answer. For fiscal year 2010, EERE is using American Reinvestment 
and Recovery Act (Recovery Act) funds for verification testing of 
ENERGY STAR products in support of the Recovery Act-funded Appliance 
Rebate Program (SEEARP). If models fail to meet ENERGY STAR program 
requirements, States are being notified and, at their discretion, can 
remove those models from their rebate eligibility lists. Also, if a 
model does not meet requirements, EERE notifies the Environmental 
Protection Agency who will take ENERGY STAR enforcement action with 
the manufacturer and, in most cases, would disqualify the product from 
the program's qualified product list. In the event testing shows the 
product also does not meet minimum energy efficiency standards, the 
Department of Energy will begin enforcement actions to insure the 
product is not sold illegally in the market. The 2009 MOU was written 
with the intent EPA will handle matters pertaining to ENERGY STAR 
enforcement while DOE would continue to handle any minimum standards 
violations.
    In fiscal year 2011, the Department will expand the categories of 
ENERGY STAR products to be tested, along with supporting EPA's managed 
market-based verification program. DOE continues to request 
appropriated funds for work supported by DOE.
    Question. How many staff does the Department employ for ENERGY 
STAR compliance, monitoring, and enforcement, and are there any 
specific plans to increase this capacity in fiscal year 2011?
    Answer. In fiscal year 2010, the Department is using 2.0 Full Time 
Equivalent (FTE) for ENERGY STAR verification testing, compliance and 
monitoring, and program transition functions. Based on DOE verification 
testing, EPA is handling the enforcement portion of the program. In the 
event testing shows the product also does not meet minimum energy 
efficiency standards, the Department of Energy will begin enforcement 
actions to insure the product is not sold illegally in the market. The 
2009 MOU was written with the intent EPA will handle matters pertaining 
to ENERGY STAR enforcement while DOE would continue to handle any 
minimum standards violations. In addition, 1.0 FTE has been used to 
support the State Energy Efficiency Appliance Rebate Program. In fiscal 
year 2011, the Department anticipates increasing staff support to 3.0 
FTE in order to increase its testing, compliance and monitoring 
functions, to begin developing/revising test procedures for the program 
and to provide technical analyses for EPA's program requirements' 
development and revision. The State rebate program will be winding down 
and only require 0.25 FTE in fiscal year 2011.
    Question. DOE staff has briefed congressional staff on transferring 
the promotion of several ENERGY STAR products to the EPA, such as 
windows, refrigerators, dishwashers and compact fluorescent lights, 
within the fiscal year 2011 budget request. However, the budget still 
references these products as part of the DOE.
    Is it the administration's intent to transfer the promotion of 
ENERGY STAR labels for these appliances from the Energy Department to 
the EPA? Please describe the funding, rationale, and implementation 
schedule anticipated for this transfer, if it is undertaken.
    Could you please describe how the DOE intends to release more than 
20 final appliance rules by June 30, 2011 and whether the amount of 
funding requested in the budget is adequate to ensure that these final 
rules are issued by the deadline.
    Could you please break-down funding for the various components of 
the ENERGY STAR Program for fiscal year 2011?
    Answer. In order to improve the efficiency of the ENERGY STAR 
Program based on the capabilities of the two agencies, the agencies 
agreed to new roles managing this program. The Environmental Protection 
Agency will now take on one set of responsibilities across all ENERGY 
STAR product categories. This includes both program requirements 
establishment, or revision, and the promotion of these products. DOE 
will take on the roles of testing procedure development and product 
testing where appropriate. This transition is currently taking place 
and will be completed during fiscal year 2010. In fiscal year 2011, the 
DOE proposes to fund the development or revision of test procedures for 
ENERGY STAR, testing and verification of products, and providing 
technical support to EPA as described in the September 30, 2009 
Memorandum of Understanding signed by the two agencies. For fiscal year 
2011, the Department requested $10 million for ENERGY STAR Program 
activities of which $5 million will be focused on test procedure 
development and revision, $4 million for testing and verification, and 
$1 million for analyses and technical support to EPA.
    DOE established detailed schedules for development and issuance of 
all rulemakings governed by the Consent Decree or statutory deadlines, 
and is putting in place the staff, internal processes and other 
resources necessary to ensure that these deadlines are achieved. For 
fiscal year 2010, the Department requested and received $35 million to 
support implementation of the appliance standards programs. For fiscal 
year 2011, the Department requests $40 million for these efforts. This 
funding is adequate to enable DOE to meet the established deadlines and 
to undertake new efforts to improve compliance and enforcement. part of 
that money will go to the enforcement of minimum appliance standards 
that DOE promulgates. While we will report and share data with ENERGY 
STAR, the Appliance Standards program is not responsible for enforcing 
ENERGY STAR efficiency levels.
    Question. The Next Generation Lighting Initiative will provide 
significant energy savings though more efficient lighting. Given the 
DOE's management in the development and understanding of this new 
technology, could you please describe how DOE will oversee this 
initiative, as well as other activities related to the initiative?
    Answer. The Department of Energy (DOE) has taken a comprehensive 
approach to overseeing the Next Generation Lighting Initiative, a part 
of the Energy Policy Act of 2005. This approach covers a balance of 
engineering and science in R&D, and market-based programs. Elements 
include Core Technology (applied research), Product Development, 
Manufacturing R&D, Commercialization Support, and SSL Partnership (with 
the Next Generation Lighting Industry Alliance). Over 70 active R&D 
projects address the key science and engineering challenges. Workshops 
are held each year to keep the program focused on the priority R&D 
challenges. All R&D projects are competitively-awarded and cost-shared. 
A collection of Commercialization Support programs, such as CALiPER, 
GATEWAY and Standards development, provide information and direction to 
market players, and link back into the R&D program for further 
improvements. The commercialization support programs have over 150 
partners involved. The program has produced performance achievements in 
efficacy each year, moving the market/technology upward in efficiency.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Mr. Secretary, I have been waiting for a year for a 
report on the Strategic Petroleum Reserve, specifically on the 
Mississippi site for expansion, and I have yet to receive any word from 
the Department. Why? I brought this up at last year's hearing because 
funding for the project remained contingent on the issuance of the 
report. What is the status?
    Answer. The Omnibus Appropriations Act, 2009 (Public Law 111-8), 
enacted March 11, 2009, requires ``. . . That none of the funds 
provided for the new site expansion activities may be obligated or 
expended for authorized activities until the Secretary of Energy has 
submitted a Report to the Congress on the effects of expansion of the 
Reserve on the domestic petroleum market.'' DOE has prepared the report 
and it is under review.
    Question. What is the status of DOE-funded nuclear energy workforce 
training and education programs? Are we going to have enough people 
trained to work at nuclear plants and at DOE facilities in the next 10 
years?
    Answer. In 2011 the Department will implement RE-ENERGYSE 
(Regaining our Energy Science and Engineering Edge), which will enable 
education and inspire students to pursue careers in science, 
engineering, and entrepreneurship related to clean energy. This new 
effort will provide important support to bolster nuclear engineering 
and science programs at U.S. universities and will be an effective and 
appropriate means of providing educational support.
    The existing program within NE that provides scholarships and 
fellowships will be terminated at the end of fiscal year 2010. This 
existing program--the Integrated University Program (IUP) will provide 
$5 million to fund 88 scholarships and 30 fellowships to be awarded in 
the summer of 2010. In fiscal year 2011, NE will fund these activities 
at the same level through the RE-ENERGYSE initiative.
    Question. I am concerned about the utility ratepayers of 
Mississippi who have contributed to the nuclear waste fund. What is the 
justification for continuing to collect these funds from Mississippi 
when DOE has now decided to terminate the national repository program? 
Mr. Secretary, I believe it would make better public policy to suspend 
collections until Congress determines future funding needs and funding 
methods when it enacts a new program based on the Blue Ribbon 
Commission's recommendations. I would like to work with your staff on 
this issue.
    Answer. The administration is fully committed to meeting the 
responsibilities for the safe storage and management of spent nuclear 
fuel and nuclear waste. The fees collected from the nuclear industry 
are legally mandated and reviewed every year and will pay the cost of 
the long-term disposition of the materials. The Blue Ribbon Commission 
has been charged with making recommendations on these issues, including 
how the fees should be handled moving forward.
    Question. On the subject of terminating the national repository 
program, Mr. Secretary, what steps are you taking to appropriately 
retain the data gained from the billions of dollars invested in 
research on the repository?
    Answer. The Department is committed to preserving the scientific 
knowledge developed through the Yucca Mountain project. Records 
generated by the OCRWM program in the course of activities at Yucca 
Mountain are managed and archived in accordance with the requirements 
of the Federal Records Act and related regulations. Paper and 
electronic media records that have been archived are stored at several 
National Archives and Records Administration Federal Records Centers 
(FRC) under FRC regulations, as well as in a DOE-leased facility in Las 
Vegas. In addition to records on paper and electronic media, images of 
records are electronically maintained in our Records Information System 
and the DOE's documentary material is electronically available to the 
public on the Licensing Support Network.
    Question. Mr. Secretary, in speaking with my colleagues today, you 
mentioned salt domes as possible nuclear waste storage sites. Could you 
please tell me which salt domes the Department is looking at for this 
purpose, and could you give more information about this idea?
    Answer. The Department is not currently studying any specific site 
as a replacement for Yucca Mountain, nor is DOE considering any 
specific salt dome as a possible nuclear waste storage site.
    Question. I understand the DOE is proposing $3 million for 
international nuclear energy cooperation. Can you please explain this 
program to the subcommittee?
    Answer. The INEC budget request of $3 million will be used to 
provide advice and support to Office of Nuclear Energy (NE) programs in 
implementing international cooperative research and development (R&D) 
activities. The R&D is the responsibility of other NE programs, not 
INEC. INEC would also work with other NE programs, other Department 
offices, and other agencies on implementing new agreements having 
civilian nuclear energy aspects. Some of the funding will focus on 
bilateral and multilateral agreements and implementing arrangements to 
carry out cooperative technical R&D-based activities with countries 
including Argentina, Brazil, China, India, Kazakhstan, and the Republic 
of South Africa and possibly other countries as U.S. international 
policy is developed. Typically, before international collaborative work 
is initiated, DOE works closely with other domestic agencies, such as 
the Department of State, to convene experts-level meetings with foreign 
counterparts to discuss the policy, technical and legal parameters of 
cooperation. Once these are established, assessments of capabilities 
and technology requirements are typically conducted to identify the 
most mutually beneficial areas of cooperation. It is in these initial 
steps of laying the foundation for cooperation that much of the INEC 
budget request would be applied.
    NE collaborates on a bilateral and multilateral basis with a wide 
array of countries including Japan, Russia, the Republic of Korea, 
France, Ukraine, and others, but the implementing arrangements for 
cooperation with these countries are already in place. In such cases, 
policy and technical support from NE's Office of International Nuclear 
Energy Policy is less intensive.
    Examples of potential areas of international civilian nuclear 
energy collaboration that NE programs would engage in include, but are 
not limited to: research, development, testing, and evaluation of 
advanced nuclear reactor systems; advanced nuclear fuel and material 
irradiation and use of experimental facilities; technical expert 
exchange programs to share best practices at civilian nuclear power 
plants; small and medium-sized reactor development; reactor life 
sustainability; probabilistic safety assessments and risk analyses for 
operating reactors; improvements in reactor fuel burn-up efficiencies; 
and, together with other global partners, the exploration of ways to 
enhance the international framework for civil nuclear cooperation so 
that countries can access nuclear power for peaceful purposes while 
minimizing the risks of proliferation.
    Question. Congress appropriated funds in the Recovery Act 
specifically for pilot and demonstration scale biofuels projects. In my 
home State of Mississippi, we have a company that is ready to start 
building a biorefinery capable of producing close to 18 million gallons 
of biofuel per year. This project is shovel-ready and will create green 
jobs in our State. It is our understanding that several of these 
projects are currently being evaluated by the Loan Guarantee Program. 
Can you give us a sense of what the timing is on issuing loan 
guarantees for biofuels projects?
    Answer. The Departments' Biomass Program and Loan Programs work in 
conjunction to support the development of cellulosic ethanol from 
research and development, demonstration and piloting, and finally, full 
commercial scale-up. In 2009, the Department's Biomass Program 
committed over $610 million in Recovery Act funds to increase 
investments in integrated biorefineries at the pilot and demonstration 
scale as well as for biofuels infrastructure activities. This Recovery 
Act funding is in addition to the over half of a billion dollars of DOE 
investments in integrated biorefinery projects from fiscal years 2007 
through 2010. The purpose of DOE's investments in pilot, demonstration, 
and small commercial scale biorefineries is to generate techno-economic 
data from their operations in order to validate full commercial-scale 
readiness. Once a technology has been proven in the pilot and 
demonstration phase, it may be eligible for a DOE loan guarantee to 
support the project's full commercial scale up. Under the Recovery Act 
funding for the Loan Guarantee Program, all biofuel projects must 
represent advanced technologies.
    The Loan Guarantee Program is working closely with the Renewable 
Fuels Association to facilitate dialogue with biofuels companies. As a 
result of this collaboration, on April 7, 2010, the Loan Guarantee 
Program held a roundtable discussion with members of the biomass 
community to discuss issues that the industry faces in obtaining loan 
guarantees.
    Question. President Obama reiterated his support for biofuel 
development in May 2009 and again on February 3 of this year. Are there 
any issues that are holding up approval of these biofuels projects? Are 
these projects a priority for DOE?
    Answer. Bioproduct projects present some unique challenges. Many 
are capital intensive, provide a commodity product, and have no off-
take agreements. The Loan Guarantee Program is working closely with the 
Renewable Fuels Association to facilitate dialogue with the biofuels 
companies. As a result of this collaboration, on April 7, 2010, the 
Loan Guarantee Program held a roundtable discussion with members of the 
biomass community to discuss issues that the industry faces in 
obtaining loan guarantees.
    Question. In the 2007 energy bill we set a renewable fuels standard 
that requires 36 billion gallons of renewable fuel by 2022. How does 
DOE envision achieving this goal?
    Answer. Achieving the Renewable Fuel Standard (RFS) requires the 
creation of a new industry that will produce a high volume of liquid 
transportation fuels that are cost competitive with petroleum fuels. 
Several factors have led to unanticipated reductions in the near-term 
pace of growth of the cellulosic biofuels industry, including the 
economic recession, oil price drops, and the reduction of credit 
available to investors who wish to invest in these technologies.
    The Department of Energy (DOE) believes the United States must 
accelerate renewable fuels production to meet the RFS requirement of 36 
billion gallons. The key to such a large-scale transition and meeting 
the RFS targets is to make cellulosic biofuels and other advanced 
biofuels cost competitive with corn-based ethanol and gasoline. That is 
why the DOE is performing fundamental research on next-generation 
bioenergy crops to provide the transformational breakthroughs that can 
contribute toward more efficient cellulosic ethanol production and 
development of other advanced biofuels. Additionally, DOE has a robust 
applied R&D and deployment program focused on driving down the costs of 
key components of producing advanced biofuels through both biochemical 
and thermochemical pathways. DOE also works to establish a sufficient 
and sustainable supply of bioenergy feedstocks and cost-effective 
systems for harvest and transport of feedstocks to biorefineries. 
Moreover, DOE is cost sharing a total of 27 biorefinery projects with 
industrial partners at the pilot, demonstration, and commercial scales, 
all of which focus on cellulosic or other non-food feedstocks to 
produce advanced biofuels in support of the RFS. DOE has developed 
public-private partnerships to reduce the risk of deploying first-of-a-
kind cellulosic biorefineries to produce biofuels. The Energy 
Information Agency's Annual Energy Outlook 2010's reference case 
scenario projects that biofuels will account for most of the projected 
growth in liquid fuels consumption, reaching 26 billion gallons in 
2022.\1\
---------------------------------------------------------------------------
    \1\ ``EIA's Long-Term Biofuels Outlook'' EIA Presentation, 2010 
Energy Conference, April 6, 2010 http://www.eia.doe.gov/conference/
2010/session2/gross.pdf.
---------------------------------------------------------------------------
                                 ______
                                 
           Questions Submitted by Senator George V. Voinovich
    Question. The DOE Office of Nuclear Energy budget lists a new 
program for Reactor Concepts R&D in the amount of $195 million. The 
Reactor Concepts R&D request carries on activities for a variety of 
previously appropriated activities, and includes a new program for 
Small Modular Reactors (SMRs) in the amount of $38.9 million. Given 
recent strong commercial interest in the new reactor technologies 
funded by Reactor Concepts R&D, there is a need for adequate, dedicated 
funding for cost-sharing of the development of Small Modular Reactors 
by public/private partnerships to reduce financial uncertainty. The 
cost-sharing amount needed to support two small light-water-reactor 
designs has been estimated to be not less than $35 million. This means 
that additional funds of about $20 million are needed to support 
research for the SMRs. How is DOE ensuring that adequate cost-sharing 
funds and research funds are available for small light water modular 
reactors, and how is DOE ensuring that this cost-sharing information is 
publically known and available so that the private sector will have 
certainty in investing?
    Answer. DOE has engaged in discussion with small modular reactor 
(SMR) vendors, utilities, the Nuclear Regulatory Commission (NRC), 
Department of Defense, and other possible end-users of SMR energy. 
Through these discussions, we became convinced that there is potential 
in the small modular reactor concept and have requested an appropriate 
amount of funding for SMR activities in the fiscal year 2011 budget. 
DOE will hold a workshop on SMRs in June 2010 to obtain information 
from vendors and suppliers, potential utility customers, national 
laboratories, universities, NRC, and interested stakeholders on 
priorities, activities and projects that will inform our strategy. As 
noted in the budget, the administration will evaluate potential 
priorities in the context of the appropriate Federal role to identify 
the most cost-effective, efficient, and appropriate mechanisms to 
support further development. Any cost-sharing within the SMR program 
will be based on a competitive award process. We believe that both the 
DOE cost-share award process and NRC licensing process will help ensure 
that information gained through this program is made available to 
others to the greatest degree possible.
    Question. The Clean Energy Park concept builds upon a DOE 
initiative to reindustrialize and transform former weapons complex 
sites into clean energy production centers. Through this approach, the 
local communities, States and regions that supported our Nation's 
defense mission for so long will benefit from the sustainable economic 
development opportunities of such large-scale commercial projects. As 
you are aware the Southern Ohio Clean Energy Park Alliance (SOCEPA) has 
held several meetings with officials in the Department over the past 
year regarding their shared interest with the Department in creating a 
Clean Energy Park initiative. This project would provide a unique 
opportunity for the Department to support many of the missions of its 
own internal offices in a cross-cutting nature, including carbon 
footprint reduction of the Nation's electric generation, asset 
reutilization and re-industrialization of former weapons complex sites, 
and support for deployment of electric generation that relies on low 
carbon and zero carbon technologies.
    While the Department has voiced support for the concept, it is not 
clear how DOE is progressing in developing it. Examples of program 
developments could be formation of a program office within DOE 
including funding, identification and policies for coordination of 
issues across departments, and policies for organizations to use in 
developing sites and local support.
    What is the Department doing to develop this concept?
    Answer. In early 2009, representatives from the Office of 
Environmental Management (EM) discussed EM's ``footprint reduction'' 
initiatives for several Department of Energy (DOE) sites and the 
potential future use of land with regional stakeholders and local 
communities. However, the administration is focusing Environmental 
Management activities on its core cleanup mission, which continue to 
experience project management, technical, and regulatory challenges. 
Completing remediation of these sites on cost and schedule is the most 
effective way for the Department to support local officials, 
businesses, and others in these communities with their economic 
development plans.
    Question. Is there any legislation that is needed?
    Answer. The administration is not proposing or requesting any 
legislation.
    Question. I am concerned that the regulatory and technical 
infrastructure, as well as the industrial base in manufacturing and 
fabrication technologies may not be ready to support the development of 
new and innovative reactors. This includes cross-cutting technologies 
for identification, development, demonstration and qualification of 
advanced manufacturing and construction techniques, modern codes and 
standards, supply chain development, and qualification, and training of 
people. How is DOE ensuring that adequate resources have been set aside 
to ensure that this infrastructure continues to develop and will be in 
place in a timely manner?
    Answer. In general the private sector is expected to respond and 
accommodate the manufacturing and construction needs as industry 
decides to move forward and build new reactors. The Department's recent 
loan guarantee announcement has sent a strong signal to the private 
sector that nuclear needs to be part of our energy mix, and we expect 
the private sector to continue to make adjustments in order to build 
new reactors. We are also working, through programs such as RE-
ENERGYSE, to train the next generation of nuclear engineers and 
scientists. And, the Department will participate in codes and standards 
activities as appropriate..
    Question. I would like to commend you for DOE's recent announcement 
to provide a $45 million cost share for further development and 
demonstration of the American Centrifuge Plant (ACP) in Piketon, Ohio. 
Your decision is a strong commitment by the Department to this 
important technology.
    However, I am concerned about your response to Senator Bennett's 
question during the Energy and Water hearing regarding when DOE will 
close on the loan guarantee application by Areva for their proposed 
enrichment facility. The premise in your response ``We are closing on 
it as quickly as possible'' implies that Areva will receive a loan 
guarantee without United States Enrichment Corporation (USEC) having 
the opportunity to update their previous application for the loan 
guarantee.
    I urge you to ensure that the USEC technology is not precluded in 
the consideration for a loan guarantee. As you know, USEC has been 
working to address the technical and financial concerns that were 
raised last summer by the DOE loan guarantee program. USEC has 
indicated that they have made significant technical progress in 
demonstrating the reliability and the high quality manufacturability of 
the centrifuge machines to support certainty in the cost and 
performance needed for a commercial plant. DOE's commitment to 
providing $45 million in demonstration and development funding has 
enhanced USEC's ability to demonstrate the technical requirements 
needed for the loan guarantee program. Financially, USEC has disclosed 
that they are exploring strategic alternatives to raise additional 
capital for the American Centrifuge project, and that assurances for a 
clear path forward for a loan guarantee would be important to their 
ability to obtain third-party financing.
    From a timing standpoint, USEC appears to be nearing the final 
stages of meeting their obligations for a loan guarantee. The ACP is 
``shovel ready'' and has the potential to quickly create about 8,000 
good American jobs in numerous States. The Areva project is not as 
mature and will take several years before we would see this kind of job 
growth, assuming the project is successful. As we have discussed 
before, funding of this centrifuge technology is essential to U.S. job 
growth and the future of clean, abundant energy in the United States.
    If DOE is, in fact, nearing a decision on the Areva technology, I 
urge you as strongly as possible to also provide a clear path forward 
for ensuring loan guarantee funding is also available for the American 
Centrifuge Plant. A failure to do so, I fear, would lead to further job 
loss and ultimately jeopardizing the success of this project so crucial 
to our energy and national security needs. I request that you support 
USEC's commitment to fulfilling the requirements for a loan guarantee 
and do not shut the door on this vital project. Specifically, will DOE 
have additional loan guarantee funds available for both the Areva and 
the USEC ACP, and what legislative authority and appropriations does 
DOE need to support this?
    Answer. In response to a June 30, 2008 solicitation for Federal 
loan guarantees supporting Front End Nuclear Facilities, the Department 
received two applications for Federal loan guarantees to support two 
different front-end nuclear facility projects. In total, the two 
applicants requested DOE to provide loan guarantees in excess of the $2 
billion available authority.
    On March 25, 2010, the Department sent a reprogramming request to 
the appropriate Congressional Committees notifying them of DOE's 
intention to use up to $2 billion of the fiscal year 2007 Authority, 
made available to the Department under the Revised Continuing 
Appropriations Resolution, 2007, for front end nuclear fuel facilities. 
The balance of the fiscal year 2007 Authority will remain available for 
loan guarantees for eligible project applicants under the 2006 
Solicitation for fossil, energy efficiency and renewable energy systems 
projects that employ innovative technologies.

                          SUBCOMMITTEE RECESS

    Senator Tester. I wish you all the best, Secretary Chu.
    And this subcommittee hearing is recessed.
    [Whereupon, at 12 noon, Thursday, March 4, the subcommittee 
was recessed, to reconvene subject to the call of the Chair.]

 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                       WEDNESDAY, MARCH 10, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:15 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Byron L. Dorgan (chairman) 
presiding.
    Present: Senators Dorgan, Feinstein, and Bennett.

                          DEPARTMENT OF ENERGY

                National Nuclear Security Administration

STATEMENT OF HON. THOMAS P. D'AGOSTINO, ADMINISTRATOR
ACCOMPANIED BY:
        ADMIRAL KIRKLAND H. DONALD, DEPUTY ADMINISTRATOR OF NUCLEAR 
            REACTORS
        STEVEN BLACK, CHIEF OPERATING OFFICER, OFFICE OF DEFENSE 
            NUCLEAR NONPROLIFERATION
        BRIGADIER GENERAL GARRETT HARENCAK, PRINCIPAL ASSISTANT DEPUTY 
            ADMINISTRATOR FOR MILITARY APPLICATIONS

              OPENING STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. I'm going to call the hearing to order.
    I was giving a speech just down the hall, and therefore, 
showed up early, and it was most uncomfortable, because I'm 
never anywhere early.
    So, if it appeared to all of you I didn't know what to do, 
that's the reason.
    Mr. D'Agostino, you appear to be in a good mood this 
morning, and I assume that's because your budget request, 
coming from the administration, suggests increased funding. 
There's always a relationship in the mood, and we're 
appreciative, very much, of your being here, and we 
congratulate you on your extension and continued work in these 
areas. The work of the National Nuclear Security Administration 
is very, very important.
    This year's budget request of $11.2 billion for NNSA is up 
$1.3 billion, or 13.5 percent above the fiscal year 2010 
appropriation. This would make it the largest increase to 
NNSA's budget since the agency was established, 10 years ago.
    Over the past years, I've expressed some concern about the 
lack of funding to maintain the Nation's nuclear weapon 
stockpile and to achieve the nonproliferation goals, which I 
think are very important. I'm pleased to see, in this budget 
request, a clear commitment in increasing NNSA's ability to 
assess the safety, security and reliability of nuclear weapons. 
Furthermore, I'm pleased that the NNSA plans to accelerate 
efforts to secure vulnerable nuclear material around the world, 
within the coming 4 years.
    I have two main concerns, which I hope you will address 
today, and I'll ask some questions about them.
    First, can the NNSA sustain new initiatives and 
construction projects of the size that we're talking about in 
the out years? Before we approve very expensive new 
initiatives, we need to be confident that NNSA has a clear 
strategy to manage very complex projects concurrently. Further, 
we need to know that NNSA has sound cost and schedule 
estimates.
    What you're asking for in the fiscal year 2011 request is 
to ramp up the production of refurbished W76 warheads; begin 
life extensions for the B61 and W78; increase surveillance 
activities of retired nuclear weapons; build three major new 
nuclear facilities, that would each exceed $3 billion in cost; 
the Chemistry and Metallurgical Facility at Los Alamos, the 
Uranium Processing Facility at Y-12, and the Pit Disassembly 
and Conversion Facility at Savannah River; and expand naval 
reactor projects, such as designing a new reactor for the Ohio-
class ballistic missile submarine.
    What I've not seen, and what I want to see, is a plan or a 
strategy that shows how NNSA will be able to manage this many 
complex projects at once, and pay for them, in the coming 
years. We want cost and schedule estimates. Both the GAO and 
the IG and other independent reviewers have raised questions 
about NNSA, for cost and schedule estimates, in years past. We 
believe NNSA--and I know Mr. D'Agostino would agree--just needs 
to do better.
    Despite sizable projected increases in funding, we are also 
concerned about whether there is an underestimating of budget 
needs. For example, out-year funding for the three major 
facilities does not reflect cost increases that could likely 
exist because of design changes or schedule delays. The second 
major concern is the rate of increase for the nonproliferation 
program, which is an increase of $550 million, or 26 percent, 
compared to fiscal year 2010. I'm not convinced that that 
amount of money will be able to be spent quite so quickly, 
effectively, or efficiently. So, we want to talk a little about 
that today.
    I applaud the efforts to date--for example, through the 
nonproliferation program, 2,300 kilograms of highly enriched 
uranium and plutonium, enough material to make 90 nuclear 
weapons has been removed and disposed of from civilian nuclear 
sites worldwide. That's a good record. These efforts rely on 
the cooperation, however, of foreign countries that do not 
always share our nuclear security concerns. The NNSA needs to 
show that it has or will produce, or can produce, agreements 
with countries that justify such a large increase in material 
retrieval.
    I think the NNSA also needs to demonstrate that Russia and 
other countries will continue to maintain the close to $3 
billion in security upgrades that the United States has funded 
over 17 years as the United States withdraws financial support. 
As we have funded these facilities, in the order of safety, 
just building them and leaving does not necessarily give us the 
assurance that those upgrades will last and will continue to be 
supported by the host countries.
    Finally, NNSA needs to demonstrate that nonproliferation 
funds are being spent effectively and efficiently. They've 
installed radiation detection equipment at more than 350 
borders, in dozens of countries, to prevent smuggling of 
nuclear materials. But, the GAO has found that the corruption 
of foreign border security officials, along with technical 
limitations of radiation detection equipment, inadequate 
maintenance of some equipment, and the lack of supporting 
infrastructure at some sites, has hindered the full 
effectiveness of these activities. Now, we know that the NNSA 
will address those issues so that we can understand the 
investment of these funds is leading to real and significant 
security improvements.
    Again, Mr. D'Agostino, we appreciate your being here with 
your colleagues.
    And let me call on Senator Bennett for any opening 
statements he may have.

             OPENING STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Well, thank you very much, Mr. Chairman.
    And I welcome all of you here.
    And, as I listen to the chairman, I find myself in 
agreement with him. I very much applaud your top-line budget 
request. You need the money; you've shown the courage of asking 
for it. And I think we'll do the very best we can to give it 
you. That's the good news.
    The bad news is that the agency's track record in managing 
large construction projects is not encouraging. And the 
chairman has outlined that.
    And just to underscore what Senator Dorgan has said, you're 
going to have four major projects underway at once: the Uranium 
Processing Facility; the CMRR Nuclear Facility, at Los Alamos; 
two projects at Savannah, the Pit Disassembly and Conversion 
Facility, and the MOX Fuel Facility. And, these, I understand, 
are the biggest construction projects NNSA has ever taken on. 
And then, while you're doing that you're talking about two 
life-extension programs being carried on simultaneously. And 
you have never conducted two LEPs at once. And those that you 
have conducted in the past--not necessarily you, specifically, 
but the agency--have been over-budget and over-schedule.
    So, the money is needed, the repairs are needed, the 
updating is needed. Everybody agrees with that. But, one thing 
to say, ``Okay, here's the money.'' It's another thing to say, 
``How's it going to be spent?'' And we need to pin down a lot 
of items, schedules, who the contractors are going to be, what 
the track record is that--those who're going to be involved. 
And we obviously are very interested in your answers to those 
questions.
    And then there's the question of how you spend the 
tremendous increase you're asking for in nonproliferation area. 
That's critical to the--ensure international nuclear safety. 
And with a requested increase of 68 percent for the Global 
Threat Reduction Initiative, and a past history of large 
unobligated balances, these are questions that we need to go 
into.
    Now, the chairman has gone into all of these in detail, and 
I'm simply underscoring my support for his concern in these 
areas. You're going to find a very unified subcommittee, both 
in support for the money and in support for the details that we 
need to look at.
    Senator Dorgan. Senator Bennett, thank you very much.
    Senator Feinstein.

                           PREPARED STATEMENT

    Senator Feinstein. I will put my statement in the record.
    [The statement follows:]
             Prepared Statement of Senator Dianne Feinstein
    Thank you, Mr. Chairman, and thank you Mr. D'Agostino for taking 
the time to see us today.
    As you know, I have worked with colleagues in the House and Senate 
to stop the re-opening of the nuclear door and the development of new 
nuclear weapons.
    Together, we have eliminated funding for the Advanced Concepts 
Initiative, the Robust Nuclear Earth Penetrator, the Modern Pit 
Facility and the Reliable Replacement Warhead program.
    Now, we are working with a new president, one who believes in 
reclaiming a leadership role for the United States in nuclear non-
proliferation issues and shares the vision of a nuclear free world.
    In his April 5, 2009 Prague speech, President Obama called for ``an 
end to cold war thinking'' and declared that the United States will 
``reduce the role of nuclear weapons in our national security 
strategy.'' Before and after his inauguration, he pledged that he 
``will not authorize the development of new nuclear weapons.''
    I am hopeful he will use the upcoming Nuclear Posture Review to 
craft a new nuclear weapons policy that will help stop the spread of 
nuclear weapons and chart the course for their elimination from the 
Earth.
    We are in the final stages with Russia on new agreement to make 
additional cuts to each nation's nuclear arsenal. This is welcome news 
and I look forward to the conclusions of those talks.
    I also appreciate President Obama's support for ratification of the 
Comprehensive Test Ban Treaty, a critical component of any U.S. nuclear 
nonproliferation regime.
    In his fiscal year 2011 budget for the National Nuclear Security 
Administration, the President has requested $11.2 billion, a 13.4 
percent increase from fiscal year 2010.
    This marks a substantial commitment to maintaining the safety and 
reliability of our nuclear weapons arsenal and the nuclear weapons 
complex.
    We must ensure that these funds compliment, rather than detract 
from, the President vision on nuclear weapons policy and nuclear 
nonproliferation issues.
    I stand ready to work with my colleagues and the administration to 
craft a sensible, bi-partisan nuclear weapons policy that will keep 
Americans safe and will reduce the danger of a nuclear war or a nuclear 
attack.

    Senator Feinstein. I have a number of questions, but let me 
just say this, Mr. Chairman. I want to thank you for your 
chairmanship of this subcommittee. I guess this is your final 
appropriations bill. And we've worked together on several 
items. I think you've brought about, really, sterling 
leadership, and very impressive--I will miss you. I believe the 
ranking member will miss you. And I know you will have bright 
horizons ahead of you, but you darken our skies by leaving.
    Senator Bennett. Yes, I want to associate myself with that. 
I was just getting settled into the pleasure of working with 
you, and now you're going to go off to greener pastures. So, we 
will do our best to carry on your tradition after you've gone, 
assuming, of course, that I get to stay, as well.
    Senator Dorgan. Well, this year will end 30 years in the 
United States Congress. It's a great privilege, but there are 
other things I wish to do, and--but, enough of that. You're 
making me sound like Gabby Hayes, here.
    Mr. D'Agostino, thank you for your leadership, thanks for 
the work you do. Why don't you proceed.
    Your entire statement will be part of the permanent record 
so you may summarize.

                 STATEMENT OF HON. THOMAS P. D'AGOSTINO

    Mr. D'Agostino. Thank you, Mr. Chairman, Senator Bennett, 
Senator Feinstein.
    It's a pleasure to be here. It's a real honor for us to 
have the opportunity to testify on the President's budget, 
particularly for the National Nuclear Security Administration.
    As you note, I'm accompanied here by folks that have a lot 
of history and understanding of the program. Admiral Kirk 
Donald, for naval reactors; Steve Black, who's a chief 
operating officer in our nonproliferation program; and 
Brigadier General Gary Harencak, for defense programs.
    So, Mr. Chairman, under your leadership, the subcommittee 
has been a proponent of our NNSA programs and initiatives, and 
I thank you for the support. The subcommittee's backing will 
become even more critical as we seek to move forward on 
programs to implement the President's nuclear security vision. 
And moving the program in the right direction for many years 
out in the future, of course, since these programs last many 
years, it has to be done in a way that makes sense, in a 
bipartisan sense, because it's important for national security.
    Last year when I appeared before you, the focus of my 
testimony was the continuing of the transformation of this 
outdated cold war nuclear-weapons complex and moving it into a 
21st century national security enterprise and our initial 
efforts on implementing, the President's announcement, securing 
the most vulnerable materials worldwide. Since that time, we've 
identified and defined portfolio programs to meet the 
President's emerging nuclear security agenda.
    Our 2011 budget request, as you've noted, is $11.2 billion, 
a 13.4-percent increase from the prior year's appropriation. 
And in developing this program, Secretary Chu has worked--and 
I--have worked very closely with Secretary Gates to make sure 
that we had a program that was integrated across both 
departments. And, that reflects not just the nuclear weapons 
program itself, but the nonproliferation program and the naval 
reactors' activities.
    Our request can be summarized, essentially, into four 
components. Collectively, we ensure that the President's 
overall nuclear security agenda, as outlined in his April 2009 
Prague speech and reinforced during his State of the Union 
Address--first, our requests describe NNSA's crucial role in 
implementing this nuclear security vision and its call to 
secure vulnerable material worldwide within 4 years. The $2.7 
billion request for nonproliferation programs includes key 
programs related to the President's agenda: nearly $560 million 
for the Global Threat Reduction Initiative to secure vulnerable 
material around the world; over $1 billion for a fissile 
material disposition program to permanently eliminate 68 metric 
tons of surplus weapons-grade plutonium and more than 200 
metric tons of surplus highly-enriched uranium; and over $350 
million for the nonproliferation verification research and 
development programs; provide technology support to the 
President's arms control and nonproliferation agenda, including 
a new capability at our Nevada site to fully integrate treaty 
verification in arms control experiments.
    The second component is our investment in the tools and 
capabilities required to effectively manage the stockpile 
itself. Based on preliminary analysis in the draft Nuclear 
Posture Review, we concluded that maintaining the safety, 
security, and effectiveness of the enduring nuclear deterrent 
requires increased investments to strengthen an aging physical 
infrastructure and sustain depleted technical human-capital 
base across our enterprise. Our request includes more than $7 
billion to ensure that the capabilities are required to 
complete ongoing weapons life-extension activities; to 
strengthen the science and technology and engineering base; and 
reinvest in the scientists, technicians, and engineers who 
perform this mission.
    These activities are very consistent with the NNSA's 
stockpile stewardship and management responsibilities, as 
outlined in the 2010 National Defense Authorization Act. Vice 
President Biden recently noted the need to invest in a modern 
sustainable infrastructure that supports the full range of 
NNSA's mission, not just stockpile stewardship. He said, ``This 
investment is not only consistent with a nonproliferation 
agenda, it is essential to it.''
    And there is an emerging bipartisan consensus that now is 
the time to make these investments to provide the future 
foundation for our U.S. security. A key example of that 
consensus was reflected in the January Wall Street Journal 
article by Senator Sam Nunn and Secretaries George Shultz, 
Secretary Henry Kissinger, and Secretary William Perry.
    That leads me to the third component of our investment in 
recapitalizing our nuclear infrastructure and deterrent 
capability into a 21st-century nuclear security enterprise. As 
the Vice President said last month, some of the facilities we 
use to handle uranium and plutonium date back to the days when 
the world's great powers were led by Truman, Churchill, and 
Stalin. The signs of age and decay are becoming more apparent 
every day.
    Our request includes specific funds to continue the design 
of the Uranium Processing Facility at our Y-12 Facility and the 
construction of the Chemistry and Metallurgy Research 
Replacement Facility, at Los Alamos.
    Our Navy's nuclear fleet includes all of our submarines and 
aircraft carriers spread over the globe to protect America's 
interests. The naval reactors budget shows a steady increase 
over the future year national security plan--our 5-year 
program, essentially. To meet the operational requirements of 
the Ohio-class replacement, we will need to provide a new 
reactor plan, using improved materials that we've not used 
before. This effort dovetails well into our need to refuel one 
of our land-based prototypes, which provides the platform to 
demonstrate the manufacturability of the Ohio replacement core 
and also to realistically test systems and components. Finally, 
this prototype serves a key role as an operating reactor plant 
for training our Navy sailors.
    Mr. Chairman, investing now in a modern sustainable nuclear 
security enterprise is the right thing to do. Investment will 
support a full range of nuclear security missions to ensure 
future security. The range of missions includes stockpile 
stewardship, nonproliferation and disarmament, arms control and 
treaty verification, counterterrorism and emergency response, 
nuclear forensic and naval nuclear propulsion. It's the whole 
gambit.
    Finally, the fourth component, one that ties all our 
missions together, is our commitment to aggressive management 
reforms across the NNSA. And I look forward to questions on 
this. I can go into some detail. But, as you know, with 
increased resources comes an increased responsibility to be 
effective stewards of our taxpayers' money and to ensure that 
we effectively and efficiently manage this. We take this 
responsibility very seriously.
    Take, for example, the costs associated with our physical 
security posture. As you are well aware, each year the costs of 
these efforts have risen. We initiated a zero-based security 
review to implement greater efficiencies and to drive down 
costs while sustaining, and sometimes even improving, our 
security capabilities. We recently concluded a review at our 
Nevada site and identified some potential savings. We will be 
reviewing other sites shortly.
    Next, our supply chain management center has already saved 
taxpayers more than $130 million, largely through electronic 
sourcing and strategic sourcing, essentially tying our 
enterprise together; instead of having eight separate 
procurement centers, to try to focus these things together and 
leverage our purchases. That saved us significant resources.
    And, as you may be aware, our Kansas City plant recently 
won a Malcolm Baldrige Award for manufacturing and quality, for 
their innovations and performance excellence. We're working to 
implement that Kansas City model of best business practices 
across the whole nuclear security enterprise.
    And finally, we emphasize performance and financial 
accountability at all levels of our operation. In 2009, our 
programs met or exceeded 95 percent of their performance 
objectives, and over the past 2 years, NNSA has successfully 
executed large funding increases in several nonproliferation 
programs while reducing, at the same time, the percentage of 
carryover, uncosted, and uncommitted funds. We'll be glad to 
provide details of those, as well.
    Importantly, for the subcommittee's consideration, we have 
the people and process in place to initiate immediately the 
mission work and increased mission work in this area.
    Mr. Chairman and members of the subcommittee, we will 
ensure that our stockpile, our infrastructure, and our missions 
are melded together into a comprehensive, forward-looking 
strategy that protects America and its allies. Investments in 
nuclear security are now providing the tools to tackle a broad 
range of nuclear security challenges. Now we must continue to 
cultivate the talents of our people to use these tools 
effectively, because essentially, in the end, people are the 
key to our success here.
    Thank you, Mr. Chairman, and we all look forward to your 
questions.
    [The statement follows:]
            Prepared Statement of Hon. Thomas P. D'Agostino
    Thank you for the opportunity to present the fiscal year 2011 
President's budget request for the National Nuclear Security 
Administration (NNSA). This budget request will allow the NNSA to meet 
its commitments to the American people to provide for nuclear 
deterrence, to reduce nuclear dangers around the world, and to provide 
the capabilities to address the broader national security challenges of 
the 21st century.
    At this time last year, the focus of NNSA efforts was the 
continuing transformation of the cold war-era weapons complex to a 21st 
century Nuclear Security Enterprise, and transformation of the 
composition and size of the U.S. nuclear weapons stockpile. 
Simultaneously, we were in the very early stages of defining the 
efforts necessary to address the President's policy statements on 
securing the most vulnerable nuclear materials worldwide.
    During the first 14 months of the Obama administration, we have 
been fully engaged with the Department of Defense (DOD) and the 
Interagency on the Nuclear Posture Review, and with the Department of 
State on a new START Agreement and a broad menu of nonproliferation 
agreements with our international partners.
    NNSA efforts this past year defined a portfolio of programs to meet 
the President's nuclear security agenda for the future. The fiscal year 
2011 President's budget request for this portfolio is $11.2 billion, an 
increase of more than 13 percent from last year. In the development of 
this portfolio, Secretary of Energy Chu and NNSA Administrator 
D'Agostino worked closely with Secretary of Defense Gates and other DOD 
officials to ensure that we remain focused on meeting the DOD's 
requirements. As a result, the budget request for Weapons Activities 
increases nearly 10 percent to a level of $7 billion; Defense Nuclear 
Nonproliferation increases nearly 26 percent to a level of $2.7 
billion; Naval Reactors increases more than 13 percent to a level of 
$1.1 billion; and, the request for Federal oversight and staff included 
in the Office of the Administrator account increases by 6.5 percent to 
a level of nearly $450 million. NNSA's budget request also includes 
associated outyear projections in a Future-Years Nuclear Security 
Program (FYNSP) that identifies resources needed to meet the continuing 
requirements for significant long term investments in the Nuclear 
Security Enterprise deliverables, capabilities and infrastructure.
    The fiscal year 2011 President's budget request for the NNSA can be 
summarized in four core components that, collectively, ensure that the 
NNSA implements the President's overall nuclear security agenda, 
introduced in his April 2009 Prague speech, re-enforced during the 
State of the Union Address on January 27, 2010, and will, we believe, 
be embodied in the soon to be completed Nuclear Posture Review.
    Implementing the President's Nuclear Security Vision.--The budget 
request highlights NNSA's crucial role in implementing President 
Obama's nuclear security vision, including his call for an 
international effort to secure all vulnerable nuclear material around 
the world within 4 years. The request for these efforts is $2.7 billion 
(an increase of 25.8 percent over the current year). Key 
nonproliferation programs reflect significant increases from last year, 
including;
  --Nearly $560 million for the Global Threat Reduction Initiative (an 
        increase of 68 percent over the current year) to secure 
        vulnerable nuclear materials around the world within 4 years, 
        and to provide a comprehensive approach to deny terrorist 
        access to nuclear and radiological materials at civilian sites 
        worldwide;
  --Over $1 billion for our Fissile Materials Disposition program (an 
        increase of 47 percent over the current year) for construction 
        of the Mixed Oxide (MOX) Fuel Fabrication Facility and the 
        Waste Solidification Building, design of the Pit Disassembly 
        and Conversion Facility, and meeting our commitment to support 
        Russian plutonium disposition activities;
  --More than $590 million for Material Protection, Control, and 
        Accounting and Second Line of Defense activities to accelerate 
        securing nuclear materials in the Former Soviet Union and other 
        Asian states, as well as worldwide efforts to deter, detect, 
        and respond to nuclear smuggling events; and
  --Over $350 million for the Nonproliferation and Verification 
        Research and Development programs (an increase of 10 percent 
        over the current year) to provide the key technical support for 
        the President's arms control and nonproliferation agenda.
    Managing the Nuclear Weapons Stockpile.--Based on a preliminary 
analysis of the draft Nuclear Posture Review, the Department concluded 
that maintaining the safety, security, and effectiveness of the nuclear 
deterrent without nuclear testing--especially at lower stockpile 
numbers--requires increased investments to strengthen an aging physical 
infrastructure and to sustain a depleting technical human capital base 
across the Nuclear Security Enterprise. As such, we are requesting more 
than $7 billion (an increase of 9.8 percent over the current year) in 
the Weapons Activities appropriation to:
  --Ensure the capabilities required for stockpile management and for 
        the completion of ongoing Life Extension Programs are 
        available;
  --Strengthen the Science, Technology, and Engineering base 
        capabilities that underpin stockpile stewardship, without 
        nuclear testing, as well as all other NNSA nuclear security 
        activities; and
  --Reinvest in the scientists, technicians, and engineers who perform 
        the mission across the Nuclear Security Enterprise.
    The President's Budget Request is consistent with the principles of 
the Stockpile Management Program outlined by Congress in the fiscal 
year 2010 National Defense Authorization Act.
    Recapitalizing Our Nuclear Infrastructure and Deterrent 
Capability.--These increases represent an investment in transforming 
our outdated nuclear weapons complex into a 21st century Nuclear 
Security Enterprise. This request includes funds to continue the design 
of the Uranium Processing Facility at the Y-12 facility; the design and 
construction of the replacement for the Chemistry and Metallurgy 
Research facility at the Los Alamos National Laboratory; and, 
conceptual design for the recapitalization of Naval Reactor's Expended 
Core Facility at the Idaho National Laboratory. Investing in a modern, 
sustainable nuclear security infrastructure supports the full range of 
NNSA's nuclear security missions, including:
  --Stockpile stewardship;
  --Nuclear nonproliferation and disarmament;
  --Arms control treaty monitoring;
  --Nuclear forensics;
  --Counterterrorism and emergency response; and
  --the nuclear Navy.
    Additionally, the request supports the recent Department of Defense 
decision to recapitalize the sea-based strategic deterrent. The OHIO-
class ballistic submarines, the most survivable leg of the Nation's 
strategic deterrent, are reaching the end of their operational life. 
The request will enable Naval Reactors to continue reactor plant design 
and development efforts begun in 2010 for procurement of long-lead 
reactor plant components in 2017, in support of Navy procurement of the 
first OHIO-class submarine replacement in 2019. Providing the OHIO-
class replacement a life-of-the-ship reactor core will require 
substantial advances in manufacturing technology to provide a new 
cladding and a new fuel system. The request also supports the refueling 
of a land based prototype reactor, providing a cost effective test 
platform for these new technologies.
    Continuing NNSA Management Reforms.--With the increased resources 
provided by the Congress comes an increased responsibility to be 
effective stewards of the taxpayer's money. NNSA will continue to 
promote proactive, sound management reforms that save money, improve 
the way we do business, and increase efficiency. Following are a few of 
the efforts already underway:
  --A Zero-Based Security Review initiative has led to efficiencies in 
        our site security programs, helping drive down those costs 
        while sustaining core physical security capabilities.
  --An Enterprise Re-engineering Team is implementing ideas for 
        improving the way NNSA does business, such as:
    --A Supply Chain Management Center has already saved the taxpayers 
            more than $130 million since its inception in 2007 and is 
            expanding its focus. Two key elements of the Center are:
      -- eSourcing.--an electronic sealed-bidding and reverse auction 
            function; and
      -- Strategic Sourcing.--where our Management and Operating 
            contractors use their combined purchasing power to 
            negotiate multi-site commodity contracts with vendors.
    --A moratorium on new, NNSA-initiated Reviews and re-direction of 
            those resources to improve Contractor Management Systems 
            and operations and oversight across the Nuclear Security 
            Enterprise.
    --Issuing new NNSA Operating Principles to guide the priorities and 
            decision processes of entities that perform NNSA work 
            consistently across the Nuclear Security Enterprise.
    --Applying a new performance-based model, best business practices, 
            and lessons-learned across the Nuclear Security Enterprise. 
            The model, pioneered at our Kansas City Plant, provides 
            greater contractor flexibility and accountability; better 
            focused, risk-based oversight; eliminates redundant and 
            non-value-added reviews; and improves efficiencies and 
            availability of Federal and contractor resources to support 
            the full scope of NNSA missions.
    --Reducing contractor expenses through renegotiation of health and 
            dental plans, using common contracts for administration and 
            supplies, and converting plant shifts for five 8-hour days 
            to four 10-hour day shifts.
  --Retaining the critical Federal workforce.
    --Piloting for the Department a 5 year Office of Personnel 
            Management Demonstration Project on Pay-for-Performance and 
            Pay Banding to test new Human Resource concepts to recruit 
            and retain a high caliber staff by providing faster pay 
            progression for high-performing employees, and to build on 
            the workforce planning system to better identify competency 
            needs and gaps.
    --Conducting a Future Leaders Program and sponsoring Historically 
            Black Colleges and Universities, Hispanic Serving 
            Institutions, Native American Serving Institutions, and 
            other intern and fellowship programs to bring into 
            government the best and brightest talent in science, 
            engineering, business, and other technical positions to 
            ensure that when our aging workforce retires, it is 
            replaced with competent, well-trained, and experienced 
            professionals to carry on the mission work of the NNSA.
    Finally, NNSA continues to emphasize performance and financial 
accountability at all levels of our operations. NNSA needs to assure 
the subcommittee and the taxpayers that the we are an excellent steward 
of the programs and funds the Congress entrusts to us to carry out the 
President's nuclear security vision. In 2009, NNSA met 95 percent of 
its stated program performance objectives, and, over the past 2 years, 
NNSA successfully executed consecutive, large annual funding increases 
in several of our nonproliferation programs while reducing uncosted, 
uncommitted balances. We are ready to meet the challenge of executing 
the additional program increases supported by the fiscal year 2011 
President's budget request. Our Federal and contractor staff and our 
contracting processes are in place to initiate immediately the 
increased mission work both in the United States and abroad. The NNSA 
will be a leader in successful program and financial execution for the 
Department of Energy and for the U.S. Government.
    The NNSA is not operating on a ``business-as-usual'' basis. The 
budget request represents a comprehensive approach to ensuring the 
nuclear security of our Nation. NNSA will ensure that our strategic 
posture, our nuclear weapons stockpile, and our infrastructure, along 
with our nonproliferation, arms control, emergency response, 
counterterrorism, and naval propulsion programs, are melded into one 
comprehensive, forward-looking strategy that protects America and its 
allies.
    Maintaining the nuclear weapons stockpile is the core work in the 
NNSA. However, the science, technology, and engineering capabilities, 
which enable the core work, must also continue to focus on providing a 
sound foundation for ongoing nonproliferation and other threat 
reduction programs. The investment in nuclear security is providing the 
tools that can tackle a broad array of national security and energy 
challenges and in other realms. NNSA now has the tools, but must 
continue to cultivate the talents of the people to use them 
effectively.
    The NNSA is developing the next generation of scientists, 
engineers, and technicians required to meet our enduring deterrence 
requirements as well as the critical work in nonproliferation, nuclear 
counterterrorism, and forensics. People are ultimately our most 
important resource. We are working closely with our national 
laboratories to develop and retain the necessary cadre of the best and 
the brightest to successfully carry out all of our technically 
challenging programs into the foreseeable future.
    Following are more detailed descriptions of each of the four 
specific NNSA appropriations.
        national nuclear security administration budget overview
    The President's budget request for the NNSA contains budget 
information for 5 years as required by section 3253 of Public Law 106-
065, entitled Future-Years Nuclear Security Program (FYNSP). The FYNSP 
projects $57.9 billion for NNSA programs through fiscal year 2015. 
While the funding necessary to support the President's commitment to 
lead an international effort to secure vulnerable nuclear materials 
throughout the world is focused in the near term, major longer term 
funding commitments are needed in other NNSA programs. The Secretaries 
of the Department of Defense (DOD) and the Department of Energy (DOE) 
agree that it is necessary to modernize the nuclear security 
infrastructure of the United States, and this will require the 
investments over the long-term reflected in the FYNSP. Modernization of 
the infrastructure, including major capital projects, is needed to 
ensure safe, secure, sustainable and cost-effective operations in 
support of scientific and manufacturing activities. It is also 
necessary to bolster key scientific, technical and manufacturing 
capabilities needed to ensure that the U.S. nuclear weapons stockpile 
remains safe, secure and effective while avoiding the requirement for 
new nuclear tests. Increased outyear resources are also included for 
major new deliverables in support of the nuclear navy, including 
reactor plant development for the OHIO-class replacement submarine, 
core manufacturing for and refueling of the technology demonstration 
land-based prototype, and initial planning for the recapitalization of 
spent nuclear fuel infrastructure.
                         nnsa program summaries
    The fiscal year 2011 President's budget request for the NNSA is 
$11.2 billion, a 13.4 percent increase over the fiscal year 2010 
appropriated level. Out-year projections meet the requirements for 
significant long-term investments in the nuclear security enterprise 
deliverables, capabilities and infrastructure.
 Weapons Activities Appropriation
    The request for this appropriation is $7.0 billion; an increase of 
9.8 percent over the fiscal year 2010 appropriated level. This level is 
sustained and increased in the later out-years.
    Although no change to the existing program budget structure within 
this appropriation is proposed in this budget, we will address the 
current programs within the Weapons Activities appropriation in four 
related components:
  --Stockpile Support (Directed Stockpile Work, Readiness Campaign);
  --Science, Technology and Engineering (Science Campaign, Engineering 
        Campaign, Inertial Confinement Fusion and High Yield Campaign, 
        Advanced Simulation and Computing Campaign, Science, Technology 
        and Engineering Capability);
  --Infrastructure (Readiness in Technical Base and Facilities, Secure 
        Transportation Asset, Facilities and Infrastructure 
        Recapitalization Program, Site Stewardship); and
  --Security and Nuclear Counterterrorism (Defense Nuclear Security, 
        Cyber Security, Nuclear Counterterrorism Incident Response).
    Increased funding is requested for programs in Stockpile Support, 
for Scientific, Technology and Engineering activities related to 
maintenance assessment and certification capabilities for the 
stockpile, and for critical infrastructure improvements. The Security 
and Nuclear Counterterrorism component decreases about 3 percent from 
the fiscal year 2010 appropriated levels, attributable to continuing 
efficiencies in the Defense Nuclear Security programs budget.
    This multi-year increase reflects the President's commitment to 
maintain the safety, security and effectiveness of the nuclear 
deterrent without underground nuclear testing, consistent with the 
principles of the Stockpile Management Program outlined in section 
3113(a)(2) of the National Defense Authorization Act of fiscal year 
2010 (50 U.S.C. 2524). The nuclear security requirements driving this 
budget request include improvements to the safety and security of the 
enduring stockpile; a strengthened science, technology, and engineering 
base; and a recapitalized physical infrastructure. The enterprise must 
also be responsive to an arguably more complex future national defense 
environment than the singular cold-war context within which the legacy 
deterrent was built.
    The President's budget request provides funding necessary to 
protect and advance the scientific capabilities at the U.S. national 
security laboratories--including the ability to maintain the nuclear 
deterrent as well as development and engineering expertise and 
capabilities--through a stockpile stewardship program that fully 
exercises these capabilities.
    This budget request is responsive to fiscal year 2010 Congressional 
direction to carry out a Stockpile Management Program in support of 
stockpile stewardship that provides for effective management of the 
weapons in the nuclear weapons stockpile. This program will strengthen 
the stockpile activities, including life extension programs and 
surveillance; strengthen science, technology and engineering, including 
the workforce; and modernize the aging infrastructure, particularly 
special nuclear materials capabilities. The key objectives of the 
Stockpile Management Program include:
  --Increase the reliability, safety, and security of the stockpile;
  --Further reduce the likelihood of the need to resume underground 
        nuclear testing;
  --Achieve further reductions in the future size of the stockpile;
  --Reduce the risk of an accidental detonation; and
  --Reduce the risk of an element of the stockpile being used by a 
        person or entity hostile to the United States, its vital 
        interests, or its allies.
    The Stockpile Support component of this appropriation includes 
Directed Stockpile Work and the supporting Readiness Campaign. The 
President's budget request is $2.0 billion, an increase of 25.2 percent 
over the fiscal year 2010 appropriation. This provides for the 
Stockpile Management Program, including surveillance, maintenance, 
assembly, disassembly and dismantlement activities, and will fully 
support the ongoing Life Extension Programs for the W76 warhead and the 
refurbishment of the B61 bomb. The budget request will enhance 
surveillance efforts, and ensure that capabilities and capacity are 
available so that future warhead life extension programs will allow for 
increased margin and enhanced warhead safety, security and control. The 
request will initiate a study in fiscal year 2011 to evaluate future 
options and approaches to maintaining the W78, consistent with the 
principles of the Stockpile Management Program defined in section 
3113(a)(2) of the National Defense Authorization Act of fiscal year 
2010 (50 U.S.C. 2524).
    The Science, Technology and Engineering (STE) component of this 
appropriation includes the Science Campaign, Engineering Campaign, 
Inertial Confinement Fusion and High Yield Campaign, Advanced 
Simulation and Computing Campaign, and Science, Technology and 
Engineering Capability. The President's budget request of $1.6 billion 
is an increase of 10.4 percent over the fiscal year 2010 appropriation 
and will restore sufficient funds for the science and technology base 
that supports stockpile assessment and certification in the absence of 
nuclear testing. Within this request, the Inertial Confinement Fusion 
and High Yield Campaign is requested at $481.5 million. Construction of 
the National Ignition Facility (NIF) was completed in fiscal year 2009, 
and the first in a series of ignition experiments beginning in the 
summer of 2010 will attempt to compress, implode, and ignite a layered 
deuterium-tritium capsule with a 1.3 megajoule energy pulse from the 
NIF. Regardless of the specific status of ignition, fiscal year 2011 
will present a very demanding agenda of work in the ignition effort. 
Results from the first ignition experiments in 2010 will be analyzed in 
detail, and the intensive process of tuning laser and target parameters 
for optimum performance will continue toward development of a robust 
ignition platform by the end of 2012. The NIF is designed to provide 
critical scientific data to support the stockpile without underground 
nuclear testing.
    Computation and simulation underpin all of our science, technology 
and engineering, and are pervasive throughout the activities in the 
nuclear security enterprise. The fiscal year 2011 President's budget 
request of $616 million for the Advanced Simulation and Computing 
Campaign will enable a stronger simulation program and inject a renewed 
scientific rigor back into the program. Developing robust peer review 
among the national security laboratories as we move away from the test 
base experience is essential to being able to maintain a stockpile 
without underground testing. Comprehensive uncertainty quantification 
calculations in 3D will provide the confidence necessary to make 
reliable progress toward the predictive capability necessary to address 
stockpile aging issues. In the next decade, predictive capability and 
specific warhead simulation deliverables will demand ever more powerful 
and sophisticated simulation environments. This request will position 
the national security laboratories to take advantage of future platform 
architectures to more efficiently steward the stockpile.
    Also within the STE component, the new subprogram to provide 
collaborative efforts in intelligence analysis, which was created in 
response to congressional funding in the Supplemental Appropriations 
Act, 2009, continues in fiscal year 2011. This subprogram provides a 
focal point for science, technology and engineering in NNSA, and will 
facilitate a point of entry for the wider national security community 
into NNSA's programs and facilities. The fiscal year 2009 supplemental 
funding provided for laboratory efforts in intelligence analysis. The 
fiscal year 2011 request will support NNSA's commitment to a 5 year 
Memorandum of Understanding with the Defense Threat Reduction Agency 
for national security research and development of mutual interest. At 
this time, the defined focus areas of mutual interest are: Advanced 
Science and Forensics, Experimental Capabilities, Science Based Output, 
Active Interrogation of Special Nuclear Material, and Nuclear Weapons 
Effects Modeling and Simulation.
    The Infrastructure component of the appropriation includes 
Readiness in Technical Base and Facilities, Secure Transportation 
Asset, Facilities and Infrastructure Recapitalization Program, and Site 
Stewardship. The President's budget request is $2.3 billion, a 4.8 
percent increase over the fiscal year 2010 level. Transformation and 
maintenance of supporting physical infrastructure for the nuclear 
security enterprise is a high priority in the upcoming FYNSP. Along 
with the funding to support the ongoing operations of the Government-
owned, contractor operated laboratories and manufacturing facilities, 
the President's budget request includes funding for major long-term 
construction projects needed to restore critical capabilities in 
plutonium and uranium essential to the Stockpile Management program.
    The President's budget request includes funding to complete the 
design and begin construction of the Chemistry and Metallurgy Research 
Facility Replacement--Nuclear Facility at the Los Alamos National 
Laboratory. This facility conducts plutonium research and development 
and provides analytical capabilities in support of pit surveillance and 
production. The facility will also support the broad range of NNSA's 
nuclear security missions, including: (1) stockpile stewardship; (2) 
nuclear nonproliferation and disarmament; (3) arms control treaty 
monitoring; (4) nuclear forensics; and, (5) counterterrorism and 
emergency response. Current planning schedules full operation in 2022. 
A related project is requested to improve the safety profile at the 
adjoining PF-4 facility. The budget request also includes funding for 
continuing the design and construction planning of the Uranium 
Processing Facility at the Y-12 National Security Complex to support 
production and surveillance of highly-enriched uranium components. This 
facility is also planned to achieve full operations by 2022.
    Maintaining and improving the current infrastructure is also an 
important priority for NNSA. The Facilities and Infrastructure 
Recapitalization Program is continuing to reduce the deferred 
maintenance backlog as it proceeds toward its planned conclusion in 
2013. Increased funding is provided for the Site Stewardship program 
that integrates institutional/landlord functions for our sites, 
including regulatory-driven long-term Stewardship, Nuclear Materials 
Consolidation, and energy efficiency projects.
    The Security and Nuclear Counterterrorism component of the 
appropriation includes Defense Nuclear Security, Cyber Security, and 
Nuclear Counterterrorism Incident Response. The President's budget 
request for these programs is $1.1 billion, which, except for a 5 
percent increase in Nuclear Counterterrorism and Incident Response, 
represents an overall 3.2 percent decrease from fiscal year 2010 
appropriated levels. The decrease reflects efficiencies expected to be 
gained from risk-informed decisions identified through the Defense 
Nuclear Security program's Zero-Based Security Review, consistent with 
implementation of the Graded Security Protection Policy.
Defense Nuclear Nonproliferation Appropriation
    The request for this appropriation is $2.7 billion; an increase of 
25.8 percent over the fiscal year 2010 appropriated level. The increase 
is driven by the imperative for U.S. leadership in nonproliferation 
initiatives both here and abroad, including the consolidation of 
fissile materials disposition activities into this account. In addition 
to the programs funded solely by the NNSA, our programs support the 
Department of Energy mission to protect our national security by 
preventing the spread of nuclear weapons and nuclear materials to 
terrorist organizations and rogue states. These efforts are implemented 
in part through the Global Partnership against the Spread of Weapons 
and Materials of Mass Destruction, formed at the G8 Kananaskis Summit 
in June 2002, and the Global Initiative to Combat Nuclear Terrorism, 
launched in Rabat, Morocco, in October 2006.
    The fiscal year 2011 President's budget request reflects support 
for the President's direction to secure vulnerable nuclear materials 
around the world in 4 years. The International Nuclear Materials 
Protection and Cooperation (MPC&A) program increases by 3 percent to 
support selective new security upgrades to buildings and areas that 
were added to the cooperation after the Bratislava summit, additional 
Second Line of Defense sites, sustainability of MPC&A upgrades, and 
continued expansion of nuclear and radiological material removal. The 
Global Threat Reduction Initiative increases by 68 percent to support 
an increase in reactor conversions and shutdowns, acceleration of 
domestic production capability of Molybdenum-99, and an acceleration of 
the removal and disposition of high-priority, vulnerable nuclear 
materials in full support of the President's nuclear security agenda. 
The Fissile Materials Disposition program increases by 47 percent 
reflecting continuing domestic construction on the MOX Fuel Fabrication 
Facility, and the design and construction of two major supporting 
facilities.
    The NNSA's nonproliferation programs seek to secure nuclear 
materials worldwide that could be used for weapons and to convert such 
materials for peaceful applications, and, through the Second Line of 
Defense Program, provide the tools for partner countries to detect and 
interdict smuggling of these materials across international borders.
    The Nuclear Nonproliferation Research and Development (R&D) 
activities seek to improve detection of nuclear material production and 
movement through advanced R&D. The program draws on the vast technical 
expertise of the NNSA and DOE national laboratories, as well as 
academia and industry, the program delivers solutions to the hardest 
technical nuclear security challenges. Focusing on nuclear detection 
instrumentation development that is tightly coordinated across Federal 
and international agencies, these advanced detection techniques are a 
significant contributor to the U.S. ability to detect foreign nuclear 
materials production as well as the illicit movement of those 
materials. Further, the R&D program provides the backbone for advances 
in U.S. and international capabilities to monitor nuclear-related 
treaty obligations. In keeping with the President's commitment for 
verifiable treaties, the R&D program's fiscal year 2011 budget request 
increases by 10 percent over the current year to include a more robust 
set of testing and evaluation activities to demonstrate new U.S. treaty 
monitoring capabilities.
    The fiscal year 2011 President's budget request has consolidated 
all of the funding requests for the Fissile Materials Disposition 
activities within the Defense Nuclear Nonproliferation appropriation. 
The current funding for both the MOX Fuel Fabrication Facility and 
Waste Solidification Building projects were moved in the fiscal year 
2010 appropriation, and the Pit Disassembly and Conversion Facility 
project has been moved back to Defense Nuclear Nonproliferation 
appropriation starting in fiscal year 2011. The DOE has decided to 
explore a proposed combination of the Office of Environmental 
Management Plutonium Preparation Project and the Pit Disassembly and 
Conversion Project in a single project located in an existing K-Area 
Facility at the Savannah River Site. This activity will be evaluated 
using the Department's project management order, DOE O 413, and will 
move toward a Critical Decision 1 (approval of alternative selection 
and cost range).
    The United States continues to work with the Russian Federation on 
plutonium disposition in Russia pursuant to the Plutonium Management 
and Disposition Agreement reached in September 2000. Congress had 
appropriated $200 million in a fiscal year 1999 Supplemental 
Appropriation to support Russian plutonium disposition activities; 
however, $207 million of this and other funding for this program was 
rescinded in fiscal year 2008 due to lack of progress in Russia. The 
fiscal year 2011 request includes $100 million of the U.S. commitment 
to provide $400 million to support plutonium disposition in Russia once 
a Protocol amending the 2000 Agreement, related liability provisions, 
and a monitoring and inspection regime is signed. The balance of more 
than $2 billion in remaining cost associated with Russian plutonium 
disposition would be borne by Russia and non-U.S. contributions.
Naval Reactors Appropriation
    The request for this appropriation is $1.1 billion; an increase of 
13.3 percent over the fiscal year 2010 appropriated level. The program 
directly supports the U.S. Navy's nuclear fleet, which encompasses all 
Navy submarines and aircraft carriers. The nuclear fleet is comprised 
of 54 attack submarines, 14 ballistic missile submarines, 4 guided 
missile submarines, and 11 aircraft carriers. These ships, and their 
consistent forward presence, are relied on every day, all over the 
world, to protect our national interests.
    Naval Reactors has a long history of providing safe and reliable 
Naval nuclear propulsion. This requires continual analysis for prompt 
identification of leading indicators from fleet operations and careful 
engineering to assure prudent, yet timely modernization, and scrupulous 
maintenance. Over the last decade, funding for these successful 
endeavors has been relatively constant. The onset of unavoidable, 
nondiscretionary requirements for spent reactor fuel processing and 
replacement, and maintenance and disposal of an aging support 
infrastructure has required continued rebalancing of funding 
priorities. Those priorities coupled with new challenges necessitated 
the additional funding included in the budget request. Increases in the 
fiscal year 2011 President's budget request support three key 
deliverables--the OHIO-class submarine replacement reactor plant, the 
refueling of the land-based prototype located in New York, and the 
Expended Core Facility at the Naval Reactors Facility located on the 
Idaho National Laboratory.
    The most survivable leg of the Nation's strategic deterrent, the 
OHIO-class ballistic missile submarines are reaching the end of their 
operational life. Propulsion plant design and development efforts began 
in 2010 to support Navy procurement of reactor plant components in 
2017, for ship construction starting in 2019. This schedule for 
development is consistent with previous designs. Key technical 
challenges include an effort to lower total ownership costs while 
maintaining the traditionally high operational availability of this new 
ship. The most important challenge to meet this is a life-of-the-ship 
reactor core.
    The DOE land-based prototype reactor, which has served the 
Program's needs for R&D and training since 1978, requires refueling in 
2017. The reactor provides a cost-effective test platform for new 
technologies and components before they are introduced for Fleet 
applications, supports testing and evaluation of materials, and 
provides a vital training platform for reactor plant operators. The 
land-based prototype refueling will also provide key technical data for 
the OHIO-class submarine replacement, since the reactor core work to 
support the refueling will also support the core manufacturing 
development for the OHIO-class replacement. This approach is based on 
Naval Reactors' extensive experience in reactor design--taking 
advantage of the prototype refueling opportunity to proof-test new 
manufacturing techniques for reactor fuel cladding material never 
previously used by the Navy. This will reduce technical risk in 
manufacturing the OHIO-class replacement life-of-the-ship core.
    The Expended Core Facility (ECF) is the central location for naval 
spent nuclear fuel receipt, inspection, dissection, packaging, and 
secure dry storage, as well as detailed examination of spent cores and 
irradiated specimens. The existing facility is more than 50 years old, 
and its mission has evolved significantly over time. While serviceable, 
it no longer efficiently supports the nuclear Fleet or the work 
required to meet the agreements we have with the State of Idaho for 
naval spent fuel. To minimize risks associated with an aging facility 
and support the timely refueling and defueling of nuclear-powered 
warships, construction is targeted to begin by 2015. Uninterrupted ECF 
receipt of naval spent nuclear fuel is vital to the timely, constant 
throughput of ship refuelings and return of these capital warships to 
the Fleet. The mission need statement for this project has been 
approved, and conceptual design and alternative analysis efforts began 
in 2010.
Office of the Administrator Appropriation
    The request for this appropriation is $448.3 million; an increase 
of 6.5 percent over the fiscal year 2010 appropriated level. This 
appropriation provides for the Federal staff and related support for 
the NNSA Headquarters and field organizations. The Federal personnel 
level for fiscal year 2011 is projected at 1,970 Full Time Equivalents, 
essentially level with the expectation for fiscal year 2010. Implicit 
in the request is a 1.4 percent cost of living adjustment and a 3.3 
percent increase for performance-based salary increases, awards, and 
benefit escalation associated with the Federal workforce. Other 
increases reflect full funding for NNSA site office space requirements 
across the Nuclear Security Enterprise, funds for new building 
maintenance and lease requirements, and expansion of NNSA international 
offices for the NNSA's nonproliferation programs.
  national nuclear security administration--appropriation and program 
summary tables--out-year appropriation summary table--fiscal year 2011 
                             budget tables

                    NATIONAL NUCLEAR SECURITY ADMINISTRATION--OVERVIEW--APPROPRIATION SUMMARY
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                       Fiscal Year 2009    Fiscal Year 2010
                                                            Actual              Current        Fiscal Year 2011
                                                         Appropriation       Appropriation          Request
----------------------------------------------------------------------------------------------------------------
National Nuclear Security Administration:
    Office of the Administrator.....................            439,190              420,754             448,267
    Weapons Activities..............................          6,410,000            6,384,431           7,008,835
    Defense Nuclear Nonproliferation................          1,545,071            2,136,709           2,687,167
    [non-add MOX Project funded in other                       [278,879]             ( \1\ )             ( \1\ )
     appropriations]................................
    Naval Reactors..................................            828,054              945,133           1,070,486
                                                     -----------------------------------------------------------
      Total, NNSA...................................          9,222,315            9,887,027          11,214,755
                                                     ===========================================================
Transfer of prior year balances--OMB scoring........  ..................             -10,000  ..................
                                                     -----------------------------------------------------------
      Total, NNSA...................................  ..................           9,877,027  ..................
----------------------------------------------------------------------------------------------------------------
\1\ N/A.


               OUT-YEAR APPROPRIATION SUMMARY--NNSA FUTURE-YEARS NUCLEAR SECURITY PROGRAM (FYNSP)
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                 Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                     2011         2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
NNSA:
    Office of the Administrator................      448,267      426,424      430,726      435,069      448,498
    Weapons Activities.........................    7,008,835    7,032,672    7,082,146    7,400,966    7,648,200
    Defense Nuclear Nonproliferation...........    2,687,167    2,507,191    2,715,191    2,833,243    2,956,328
    Naval Reactors.............................    1,070,486    1,099,734    1,171,178    1,226,017    1,310,530
                                                ----------------------------------------------------------------
      Total, NNSA..............................   11,214,755   11,066,021   11,399,241   11,895,295   12,363,556
----------------------------------------------------------------------------------------------------------------


                     OFFICE OF THE ADMINISTRATOR--OVERVIEW--APPROPRIATION SUMMARY BY PROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                       Fiscal Year 2009    Fiscal Year 2010
                                                            Actual              Current        Fiscal Year 2011
                                                         Appropriation     Appropriation \1\        Request
----------------------------------------------------------------------------------------------------------------
Office of the Administrator:
    Office of the Administrator.....................             415,878             418,074             448,267
    Congressionally Directed Projects...............              23,312              13,000  ..................
    Use of Prior Year Balances......................  ..................             -10,320  ..................
                                                     -----------------------------------------------------------
      Total, Office of the Administrator............             439,190             420,754             448,267
                                                     ===========================================================
Transfer of Prior Year Balances.....................  ..................             -10,000  ..................
                                                     -----------------------------------------------------------
      Total, OMB Scoring............................             439,190             410,754             448,267
----------------------------------------------------------------------------------------------------------------
\1\ In accordance with Public Law 111-85, $10,000,000 of Office of the Administrator prior year balances have
  been transferred to Non-Defense Environmental Cleanup for cleanup efforts at the Argonne National Laboratory.

Public Law Authorization
    Energy and Water Development and Related Agencies Appropriations 
Act, 2010 (Public Law 111-85).
    Fiscal year 2009 Omnibus Appropriations Act (Public Law 111-8).
    National Nuclear Security Administration Act (Public Law 106-65), 
as amended.

                                         OUT-YEAR APPROPRIATION SUMMARY
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Office of the Administrator.................................      426,424      430,726      435,069      448,498
----------------------------------------------------------------------------------------------------------------


          OFFICE OF THE ADMINISTRATOR--CONGRESSIONALLY DIRECTED PROJECTS--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year     Fiscal Year
                                                                       2009            2010            2011
----------------------------------------------------------------------------------------------------------------
Congressionally Directed Projects...............................          23,312          13,000  ..............
----------------------------------------------------------------------------------------------------------------


                           WEAPONS ACTIVITIES--OVERVIEW--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Weapons Activities:
    Directed Stockpile Work.....................................       1,590,152       1,505,859       1,898,379
    Science Campaign............................................         316,690         295,646         365,222
    Engineering Campaign........................................         150,000         150,000         141,920
    Inertial Confinement Fusion Ignition and High Yield Campaign         436,915         457,915         481,548
    Advanced Simulation and Computing Campaign..................         556,125         567,625         615,748
    Readiness Campaign..........................................         160,620         100,000         112,092
    Readiness in Technical Base and Facilities..................       1,674,406       1,842,870       1,848,970
    Secure Transportation Asset.................................         214,439         234,915         248,045
    Nuclear Counterrorism Incident Response.....................         215,278         221,936         233,134
    Facilities and Infrastructure Recapitalization Program......         147,449          93,922          94,000
    Site Stewardship............................................  ..............          61,288         105,478
    Environmental Projects and Operations.......................          38,596  ..............  ..............
    Defense Nuclear Security....................................         735,208         769,044         719,954
    Cyber Security..............................................         121,286         122,511         124,345
    Science, Technology and Engineering Capability..............          30,000  ..............          20,000
    Congressionally Directed Projects...........................          22,836           3,000  ..............
    Use/Rescission of Prior Year Balances.......................  ..............         -42,100  ..............
                                                                 -----------------------------------------------
      Total, Weapons Activities.................................       6,410,000       6,384,431       7,008,835
----------------------------------------------------------------------------------------------------------------

Public Law Authorization
    National Defense Authorization Act for Fiscal Year 2010 (Public Law 
111-84).
    Energy and Water Development and Related Agencies Appropriations 
Act, 2010 (Public Law 111-85).
    National Nuclear Security Administration Act, (Public Law 106-65), 
as amended.

                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Weapons Activities:
    Directed Stockpile Work.................................    1,900,736    1,999,470    2,240,139    2,346,254
    Science Campaign........................................      397,460      418,823      416,199      394,766
    Engineering Campaign....................................      149,737      134,996      144,920      145,739
    Inertial Confinement Fusion Ignition and High Yield           480,451      475,597      470,994      484,812
     Campaign...............................................
    Advanced Simulation and Computing Campaign..............      622,940      616,257      615,420      633,134
    Readiness Campaign......................................       81,697       70,747       69,854       72,584
    Readiness in Technical Base and Facilities..............    1,872,546    1,841,325    1,926,568    1,997,764
    Secure Transportation Asset.............................      251,272      249,456      252,869      261,521
    Nuclear Counterrorism Incident Response.................      222,914      222,508      235,300      237,986
    Facilities and Infrastructure Recapitalization Program..       94,000       94,000  ...........  ...........
    Site Stewardship........................................      101,929      103,536      174,071      205,802
    Defense Nuclear Security................................      730,944      729,609      728,925      740,649
    Cyber Security..........................................      126,046      125,822      125,707      127,189
                                                             ---------------------------------------------------
      Total, Weapons Activities.............................    7,032,672    7,082,146    7,400,966    7,648,200
----------------------------------------------------------------------------------------------------------------


                             DIRECTED STOCKPILE WORK--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Directed Stockpile Work:
    Life Extension Programs:
        B61 Life Extension Program..............................           1,854  ..............  ..............
        W76 Life Extension Program..............................         203,189         223,196         249,463
                                                                 -----------------------------------------------
          Subtotal, Life Extension Programs.....................         205,043         223,196         249,463
                                                                 ===============================================
    Stockpile Systems:
        B61 Stockpile Systems...................................          90,204          91,956         317,136
        W62 Stockpile Systems...................................           1,500  ..............  ..............
        W76 Stockpile Systems...................................          63,219          56,554          64,521
        W78 Stockpile Systems...................................          40,347          48,311          85,898
        W80 Stockpile Systems...................................          30,712          27,398          34,193
        B83 Stockpile Systems...................................          26,938          33,502          39,349
        W87 Stockpile Systems...................................          40,949          48,139          62,603
        W88 Stockpile Systems...................................          43,928          51,940          45,666
                                                                 -----------------------------------------------
          Subtotal, Stockpile Systems...........................         337,797         357,800         649,366
                                                                 ===============================================
    Weapons Dismantlement and Disposition:
        99-D-141-01 Pit Disassembly and Conversion Facility--SRS          24,883  ..............  ..............
        99-D-141-02 Waste Solidification Building--SRS..........          40,000  ..............  ..............
        Weapons Dismantlement and Disposition...................          52,695          96,100          58,025
        Pit Disassembly and Conversion Facility--O&M............          69,351  ..............  ..............
                                                                 -----------------------------------------------
          Subtotal, Weapons Dismantlement and Disposition.......         186,929          96,100          58,025
                                                                 ===============================================
    Stockpile Services:
        Production Support......................................         308,806         300,037         309,761
        Research & Development Support..........................          35,049          37,071          38,582
        Research & Development Certification and Safety.........         169,403         166,523         209,053
        Management, Technology, and Production..................         192,072         183,223         193,811
        Plutonium Capability....................................         155,053  ..............  ..............
        Plutonium Sustainment...................................  ..............         141,909         190,318
                                                                 -----------------------------------------------
          Subtotal, Stockpile Services..........................         860,383         828,763         941,525
                                                                 ===============================================
          Total, Directed Stockpile Work........................       1,590,152       1,505,859       1,898,379
----------------------------------------------------------------------------------------------------------------


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Directed Stockpile Work:
    Life Extension Programs:
        W76 Life Extension Program..........................      255,000      255,000      255,000      255,000
                                                             ---------------------------------------------------
          Subtotal, Life Extension Programs.................      255,000      255,000      255,000      255,000
                                                             ===================================================
    Stockpile Systems:
        B61 Stockpile Systems...............................      337,851      394,027      437,518      512,296
        W76 Stockpile Systems...............................       56,418       58,312       55,396       54,038
        W78 Stockpile Systems...............................      104,964      156,340      346,923      345,359
        W80 Stockpile Systems...............................       31,627       34,566       35,974       36,621
        B83 Stockpile Systems...............................       37,160       38,294       42,621       42,059
        W87 Stockpile Systems...............................       67,754       64,924       51,898       50,433
        W88 Stockpile Systems...............................       61,229       65,094       69,777       68,648
                                                             ---------------------------------------------------
          Subtotal, Stockpile Systems.......................      697,003      811,557    1,040,107    1,109,454
                                                             ===================================================
    Weapons Dismantlement and Disposition...................       53,327       48,446       58,102       60,089
                                                             ===================================================
    Stockpile Services:
        Production Support..................................      288,227      271,067      265,429      274,509
        Research & Development Support......................       35,044       34,667       35,497       36,711
        Research & Development Certification and Safety.....      207,133      213,923      214,632      222,777
        Management, Technology, and Production..............      202,020      196,676      198,660      205,454
        Plutonium Sustainment...............................      162,982      168,134      172,712      182,260
                                                             ---------------------------------------------------
          Subtotal, Stockpile Services......................      895,406      884,467      886,930      921,711
                                                             ===================================================
          Total, Directed Stockpile Work....................    1,900,736    1,999,470    2,240,139    2,346,254
----------------------------------------------------------------------------------------------------------------


                                 SCIENCE CAMPAIGN--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Science Campaign:
    Advanced Certification......................................          19,400          19,400          76,972
    Primary Assessment Technologies.............................          80,181          83,181          85,723
    Dynamic Plutonium Experiments...............................          23,022  ..............  ..............
    Dynamic Materials Properties................................          83,231          86,617          96,984
    Advanced Radiography........................................          28,535          28,535          23,594
    Secondary Assessment Technologies...........................          76,913          77,913          81,949
    Test Readiness..............................................           5,408  ..............  ..............
                                                                 -----------------------------------------------
      Total, Science Campaign...................................         316,690         295,646         365,222
----------------------------------------------------------------------------------------------------------------


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Science Campaign:
    Advanced Certification..................................      104,704      129,481      129,978       98,908
    Primary Assessment Technologies.........................       86,253       85,248       84,327       87,165
    Dynamic Materials Properties............................       97,114       95,980       94,945       98,144
    Advanced Radiography....................................       27,132       26,816       26,528       27,421
    Secondary Assessment Technologies.......................       82,257       81,298       80,421       83,128
                                                             ---------------------------------------------------
      Total, Science Campaign...............................      397,460      418,823      416,199      394,766
----------------------------------------------------------------------------------------------------------------


                               ENGINEERING CAMPAIGN--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Engineering Campaign:
    Enhanced Surety.............................................          46,111          42,000          42,429
    Weapon Systems Engineering Assessment Technology............          16,593          18,000          13,530
    Nuclear Survivability.......................................          21,100          21,000          19,786
    Enhanced Surveillance.......................................          66,196          69,000          66,175
                                                                 -----------------------------------------------
      Total, Engineering Campaign...............................         150,000         150,000         141,920
----------------------------------------------------------------------------------------------------------------


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Engineering Campaign:
    Enhanced Surety.........................................       44,019       43,699       48,851       50,523
    Weapon Systems Engineering Assessment Technology........       16,533       15,199       19,730       20,404
    Nuclear Survivability...................................       20,627       18,550       10,334       10,687
    Enhanced Surveillance...................................       68,558       57,548       66,005       64,125
                                                             ---------------------------------------------------
      Total, Engineering Campaign...........................      149,737      134,996      144,920      145,739
----------------------------------------------------------------------------------------------------------------


           INERTIAL CONFINEMENT FUSION IGNITION AND HIGH YIELD CAMPAIGN--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Inertial Confinement Fusion Ignition and High Yield Campaign:
    Ignition....................................................         100,535         106,734         109,506
    NIF Diagnostics, Cryogenics, and Experimental Support.......          66,201          72,252         102,649
    Pulsed Power Inertial Confinement Fusion....................           8,652           5,000           5,000
    Joint Program in High Energy Density Laboratory Plasmas.....           3,053           4,000           4,000
    Facility Operations and Target Production...................         203,282         269,929         260,393
    NIF Assembly and Installation Program.......................          55,192  ..............  ..............
                                                                 -----------------------------------------------
      Total, Inertial Confinement Fusion Ignition and High Yield         436,915         457,915         481,548
       Campaign.................................................
----------------------------------------------------------------------------------------------------------------


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Inertial Confinement Fusion Ignition and High Yield
 Campaign:
    Ignition................................................      110,222       74,410       71,479       73,886
    Support of Other Stockpile Programs.....................       17,240       39,637       35,522       49,154
    NIF Diagnostics, Cryogenics, and Experimental Support...       74,104       83,878       82,921       76,117
    Pulsed Power Inertial Confinement Fusion................        5,000        5,000        5,000        5,000
    Joint Program in High Energy Density Laboratory Plas-           4,000        4,000        4,000        4,000
     mas....................................................
    Facility Operations and Target Production...............      269,885      268,672      272,072      276,655
                                                             ---------------------------------------------------
      Total, Inertial Confinement Fusion Ignition and High        480,451      475,597      470,994      484,812
       Yield Campaign.......................................
----------------------------------------------------------------------------------------------------------------


                    ADVANCED SIMULATION AND COMPUTING CAMPAIGN--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Advanced Simulation and Computing Campaign:
    Integrated Codes............................................         138,917         140,882         165,947
    Physics and Engineering Models..............................          49,284          61,189          62,798
    Verification and Validation.................................          50,184          50,882          54,781
    Computational Systems and Software Environment..............         156,733         159,022         175,833
    Facility Operations and User Support........................         161,007         155,650         156,389
                                                                 -----------------------------------------------
      Total, Advanced Simulation and Computing Campaign.........         556,125         567,625         615,748
----------------------------------------------------------------------------------------------------------------


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Advanced Simulation and Computing Campaign:
    Integrated Codes........................................      167,327      163,752      163,887      168,143
    Physics and Engineering Models..........................       66,541       65,019       64,626       66,438
    Verification and Validation.............................       54,168       52,879       52,300       53,835
    Computational Systems and Software Environment..........      175,833      175,833      175,833      180,912
    Facility Operations and User Support....................      159,071      158,774      158,774      163,806
                                                             ---------------------------------------------------
      Total, Advanced Simulation and Computing Cam-  paign..      622,940      616,257      615,420      633,134
----------------------------------------------------------------------------------------------------------------


                                READINESS CAMPAIGN--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Readiness Campaign:
    Stockpile Readiness.........................................          27,869           5,746          18,941
    High Explosives and Weapon Operations.......................           8,581           4,608           3,000
    Nonnuclear Readiness........................................          32,545          12,701          21,864
    Tritium Readiness...........................................          70,409          68,246          50,187
    Advanced Design and Production Technologies.................          21,216           8,699          18,100
                                                                 -----------------------------------------------
      Total, Readiness Campaign.................................         160,620         100,000         112,092
----------------------------------------------------------------------------------------------------------------


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Readiness Campaign:
    Tritium Readiness.......................................       81,697       70,747       69,854       72,584
                                                             ---------------------------------------------------
      Total, Readiness Campaign.............................       81,697       70,747       69,854       72,584
----------------------------------------------------------------------------------------------------------------


                    READINESS IN TECHNICAL BASE AND FACILITIES--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Readiness in Technical Base and Facilities:
    Operations of Facilities:
        Kansas City Plant.......................................          89,871         156,056         186,102
        Lawrence Livermore National Laboratory..................          82,605          86,670          80,106
        Los Alamos National Laboratory..........................         289,169         311,776         318,464
        Nevada Test Site........................................          92,203          79,583          80,077
        Pantex..................................................         101,230         131,602         121,254
        Sandia National Laboratory..............................         123,992         104,133         117,369
        Savannah River Site.....................................          92,762         128,580          92,722
        Y-12 National Security Complex..........................         235,397         229,774         220,927
        Institutional Site Support..............................          56,102         120,129          40,970
                                                                 -----------------------------------------------
          Subtotal, Operations of Facilities....................       1,163,331       1,348,303       1,257,991
                                                                 ===============================================
    Program Readiness...........................................          71,626          73,021          69,309
    Material Recycle and Recovery...............................          70,334          69,542          70,429
    Containers..................................................          22,696          23,392          27,992
    Storage.....................................................          31,951          24,708          24,233
                                                                 -----------------------------------------------
      Subtotal, Operations and Maintenance......................       1,359,938       1,538,966       1,449,954
                                                                 ===============================================
    Construction................................................         314,468         303,904         399,016
                                                                 -----------------------------------------------
      Total, Readiness in Technical Base and Facilities.........       1,674,406       1,842,870       1,848,970
----------------------------------------------------------------------------------------------------------------


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Readiness in Technical Base and Facilities:
    Operations of Facilities................................    1,178,512    1,129,208    1,061,276    1,097,791
    Program Readiness.......................................       48,492       47,998       63,541       65,713
    Material Recycle and Recovery...........................       61,678       63,673       63,386       65,554
    Containers..............................................       22,043       23,100       22,971       23,757
    Storage.................................................       19,535       21,425       21,942       22,693
                                                             ---------------------------------------------------
      Subtotal, Operations and Maintenance..................    1,330,260    1,285,404    1,233,116    1,275,508
                                                             ===================================================
    Construction............................................      542,286      555,921      693,452      722,256
                                                             ---------------------------------------------------
      Total, Readiness in Technical Base and Facilities.....    1,872,546    1,841,325    1,926,568    1,997,764
----------------------------------------------------------------------------------------------------------------


                       SECURE TRANSPORTATION ASSET--OVERVIEW FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Secure Transportation Asset (STA):
    Operations and Equipment....................................         127,701         138,772         149,018
    Program Direction...........................................          86,738          96,143          99,027
                                                                 -----------------------------------------------
      Total, Secure Transportation Asset........................         214,439         234,915         248,045
----------------------------------------------------------------------------------------------------------------


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Operations and Equipment:
    Operations and Equipment................................      149,274      144,398      144,660      150,066
    Program Direction.......................................      101,998      105,058      108,209      111,455
                                                             ---------------------------------------------------
      Total, Operations and Equipment.......................      251,272      249,456      252,869      261,521
----------------------------------------------------------------------------------------------------------------


              SECURE TRANSPORTATION ASSET--OPERATIONS AND EQUIPMENT--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Operations and Equipment:
    Mission Capacity............................................          70,107          75,038          84,010
    Security/Safety Capability..................................          20,617          26,472          27,001
    Infrastructure and C5 Systems...............................          25,978          23,217          23,681
    Program Management..........................................          10,999          14,045          14,326
                                                                 -----------------------------------------------
      Total, Operations and Equipment...........................         127,701         138,772         149,018
----------------------------------------------------------------------------------------------------------------


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Operations and Equipment:
    Mission Capacity........................................       82,966       76,764       75,672       79,699
    Security/Safety Capability..............................       27,541       28,092       28,654       29,227
    Infrastructure and C5 Systems...........................       24,155       24,638       25,131       25,633
    Program Management......................................       14,612       14,904       15,203       15,507
                                                             ---------------------------------------------------
      Total, Operations and Equipment.......................      149,274      144,398      144,660      150,066
----------------------------------------------------------------------------------------------------------------


                  SECURE TRANSPORTATION ASSET--PROGRAM DIRECTION--FUNDING PROFILE BY SUBPROGRAM
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Program Direction:
    Salaries and Benefits.......................................         $75,226         $81,225         $83,311
    Travel......................................................         $10,188        $411,331          $7,746
    Other Related Expenses......................................          $1,324          $3,587          $7,970
                                                                 -----------------------------------------------
      Total, Program Direction..................................         $86,738         $96,143         $99,027
                                                                 ===============================================
      Total, Full Time Equivalents..............................             570             647             637
----------------------------------------------------------------------------------------------------------------


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Program Direction:
    Salaries and Benefits...................................      $85,781      $88,323      $90,943      $93,641
    Travel..................................................       $7,980       $8,218       $8,465       $8,719
    Other Related Expenses..................................       $8,237       $8,517       $8,801       $9,095
                                                             ---------------------------------------------------
      Total, Program Direction..............................     $101,998     $105,058     $108,209     $111,455
                                                             ===================================================
      Total, Full Time Equivalents..........................          637          637          637          637
----------------------------------------------------------------------------------------------------------------


                     NUCLEAR COUNTERRORISM INCIDENT RESPONSE--FUNDING PROFILE BY SUBPROGRAM
                                           [In thousands for dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Nuclear Counterterrorism Incident Response (Homeland
 Security):\1\
    Emergency Response (Homeland Security) \1\..................         132,918         139,048         134,092
    National Technical Nuclear Forensics (Homeland Security) \1\          12,557          10,217          11,698
    Emergency Management (Homeland Security) \1\................           7,428           7,726           7,494
    Operations Support (Homeland Security) \1\..................           8,207           8,536           8,675
    International Emergency Management and Cooperation..........           4,515           7,181           7,139
    Nuclear Counterterrorism (Homeland Security) \1\............          49,653          49,228          64,036
                                                                 -----------------------------------------------
      Total, Nuclear Counterterrorism Incident Response.........         215,278         221,936         233,134
----------------------------------------------------------------------------------------------------------------
\1\ Office of Management and Budget (OMB) Homeland Security designations.


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Nuclear Counterterrorism Incident Response:
    Emergency Response (Homeland Security) \1\..............      137,715      138,359      139,504      141,107
    National Technical Nuclear Forensics (Homeland Security)       11,589       11,694       11,577       11,828
     \1\....................................................
    Emergency Management (Homeland Security) \1\............        7,129        6,629        6,505        6,694
    Operations Support (Homeland Security) \1\..............        8,691        8,799        8,749        9,000
    International Emergency Management and Cooperation......        7,129        7,139        7,032        7,275
    Nuclear Counterterrorism (Homeland Security) \1\........       50,661       49,888       61,933       62,082
                                                             ---------------------------------------------------
      Total, Nuclear Counterterrorism Incident Response.....      222,914      222,508      235,300      237,986
----------------------------------------------------------------------------------------------------------------
\1\ Office of Management and Budget (OMB) Homeland Security designations.


              FACILITIES AND INFRASTRUCTURE RECAPITALIZATION PROGRAM--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Facilities and Infrastructure Recapitalization Program:
    Operations and Maintenance (O&M):
        Recapitalization........................................          69,226          69,377          79,600
        Infrastructure Planning.................................          10,324           8,982           9,400
        Facility Disposition....................................  ..............           5,600           5,000
                                                                 -----------------------------------------------
          Subtotal, Operations and Maintenance (O&M)............          79,550          83,959          94,000
                                                                 ===============================================
    Construction................................................          67,899           9,963  ..............
                                                                 -----------------------------------------------
      Total, Facilities and Infrastructure Recapitalization              147,449          93,922          94,000
       Program..................................................
----------------------------------------------------------------------------------------------------------------


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Facilities and Infrastructure Recapitalization Program:
    Operations and Maintenance (O&M):
        Recapitalization....................................       79,600       86,600  ...........  ...........
        Infrastructure Planning.............................        9,400        2,400  ...........  ...........
        Facility Disposition................................        5,000        5,000  ...........  ...........
                                                             ---------------------------------------------------
          Subtotal, Operations and Maintenance (O&M)........       94,000       94,000  ...........  ...........
                                                             ===================================================
    Construction............................................  ...........  ...........  ...........  ...........
                                                             ---------------------------------------------------
      Total, Facilities and Infrastructure Recapitalization        94,000       94,000  ...........  ...........
       Program..............................................
----------------------------------------------------------------------------------------------------------------


                                 SITE STEWARDSHIP--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Site Stewardship:
    Operations and Maintenance..................................  ..............          61,288          90,478
    Construction................................................  ..............  ..............          15,000
                                                                 -----------------------------------------------
      Total, Site Stewardship...................................  ..............          61,288         105,478
----------------------------------------------------------------------------------------------------------------


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Site Stewardship:
    Operations and Maintenance..............................      101,929      103,536      174,071      205,802
    Construction............................................  ...........  ...........  ...........  ...........
                                                             ---------------------------------------------------
      Total, Site Stewardship...............................      101,929      103,536      174,071      205,802
----------------------------------------------------------------------------------------------------------------


                      ENVIRONMENTAL PROJECTS AND OPERATIONS--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Environmental Projects and Operations:
    Long-Term Stewardship.......................................          38,596  ..............  ..............
                                                                 -----------------------------------------------
      Total, Environmental Projects and Operations..............          38,596  ..............  ..............
----------------------------------------------------------------------------------------------------------------


                             SAFEGUARDS AND SECURITY--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Safeguards and Security (S&S):
    Defense Nuclear Security (Homeland Security):
        Operations and Maintenance..............................         689,510         720,044         667,954
        Construction............................................          45,698          49,000          52,000
                                                                 -----------------------------------------------
          Total, Defense Nuclear Security.......................         735,208         769,044         719,954
                                                                 ===============================================
    Cyber Security (Homeland Security)..........................         121,286         122,511         124,345
                                                                 -----------------------------------------------
      Total, Safeguards and Security............................         856,494         891,555         844,299
----------------------------------------------------------------------------------------------------------------


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Safeguards and Security (S&S):
    Defense Nuclear Security (Homeland Security):
        Operations and Maintenance..........................      675,229      672,344      671,671      681,259
        Construction........................................       55,715       57,265       57,254       59,390
                                                             ---------------------------------------------------
          Total, Defense Nuclear Security...................      730,944      729,609      728,925      740,649
                                                             ===================================================
    Cyber Security (Homeland Security)......................      126,046      125,822      125,707      127,189
                                                             ---------------------------------------------------
      Total, Safeguards and Security........................      856,990      855,431      854,632      867,838
----------------------------------------------------------------------------------------------------------------


                             DEFENSE NUCLEAR SECURITY--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Defense Nuclear Security:
    Operations and Maintenance (Homeland Security):
        Protective Forces.......................................         418,694         453,000         414,166
        Physical Security Systems...............................          77,245          74,000          73,794
        Transportation..........................................             420  ..............  ..............
        Information Security....................................          25,880          25,300          25,943
        Personnel Security......................................          31,263          30,600          30,913
        Materials Control and Accountability....................          35,929          35,200          35,602
        Program Management......................................          71,364          83,944          80,311
        Technology Deployment, Physical Security................           9,431           8,000           7,225
        Graded Security Protection Policy (formerly DBT)........          19,284          10,000  ..............
                                                                 -----------------------------------------------
          Total, Operations and Maintenance (Homeland Security).         689,510         720,044         667,954
                                                                 ===============================================
    Construction (Homeland Security)............................          45,698          49,000          52,000
                                                                 -----------------------------------------------
      Total, Defense Nuclear Security...........................         735,208         769,044         719,954
----------------------------------------------------------------------------------------------------------------


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Defense Nuclear Security:
    Operations and Maintenance (Homeland Security):
        Protective Forces...................................      422,221      414,432      414,617      421,346
        Physical Security Systems...........................       71,405       73,987       71,165       72,297
        Information Security................................       26,202       26,464       26,729       26,996
        Personnel Security..................................       31,222       31,534       31,849       32,167
        Materials Control and Accountability................       35,958       36,318       36,681       37,048
        Program Management..................................       80,924       82,239       83,186       83,887
        Technology Deployment, Physical Security............        7,297        7,370        7,444        7,518
                                                             ---------------------------------------------------
          Total, Operations and Maintenance (Homeland             675,229      672,344      671,671      681,259
           Security)........................................
                                                             ===================================================
    Construction (Homeland Security)........................       55,715       57,265       57,254       59,390
                                                             ---------------------------------------------------
      Total, Defense Nuclear Security.......................      730,944      729,609      728,925      740,649
----------------------------------------------------------------------------------------------------------------


                                  CYBER SECURITY--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Cyber Security (Homeland Security):
    Infrastructure Program......................................          93,776          99,011          97,849
    Enterprise Secure Computing.................................          25,500          21,500          21,500
    Technology Application Development..........................           2,010           2,000           4,996
                                                                 -----------------------------------------------
      Total, Cyber Security (Homeland Security).................         121,286         122,511         124,345
----------------------------------------------------------------------------------------------------------------


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Cyber Security (Homeland Security):
    Infrastructure Program..................................       99,550       99,326       98,211       99,693
    Enterprise Secure Computing.............................       21,500       21,500       22,500       22,500
    Technology Application Development......................        4,996        4,996        4,996        4,996
                                                             ---------------------------------------------------
      Total, Cyber Security (Homeland Security).............      126,046      125,822      125,707      127,189
----------------------------------------------------------------------------------------------------------------


                  SCIENCE, TECHNOLOGY AND ENGINEERING CAPABILITY--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Operations and Maintenance......................................          30,000  ..............          20,000
                                                                 -----------------------------------------------
      Total, Science, Technology and Engineering Capability.....          30,000  ..............          20,000
----------------------------------------------------------------------------------------------------------------


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Operations and Maintenance..................................  ...........  ...........  ...........  ...........
                                                             ---------------------------------------------------
      Total, Science, Technology and Engineering Capabil-     ...........  ...........  ...........  ...........
       ity..................................................
----------------------------------------------------------------------------------------------------------------


              WEAPONS ACTIVITIES--CONGRESSIONALLY DIRECTED PROJECTS--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Congressionally Directed Projects...............................          22,836           3,000  ..............
----------------------------------------------------------------------------------------------------------------


                    DEFENSE NUCLEAR NONPROLIFERATION--OVERVIEW--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Defense Nuclear Nonproliferation:
    Nonproliferation and Verification Research and Development..         356,281         317,300         351,568
    Nonproliferation and International Security.................         150,000         187,202         155,930
    International Nuclear Materials Protection and Cooperation..     \1\ 460,592         572,050         590,118
    Elimination of Weapons-Grade Plutonium Production...........         141,299          24,507  ..............
    Fissile Materials Disposition...............................          41,774         701,900       1,030,713
    Global Threat Reduction Initiative..........................     \2\ 404,640         333,500         558,838
        Congressional Directed Projects.........................           1,903             250  ..............
                                                                 -----------------------------------------------
          Subtotal, Defense Nuclear Nonproliferation............       1,556,489       2,136,709       2,687,167
                                                                 ===============================================
Use of Prior Year Balances......................................         -11,418  ..............  ..............
                                                                 -----------------------------------------------
      Total, Defense Nuclear Nonproliferation...................       1,545,071       2,136,709       2,687,167
----------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2009 amount includes international contributions of $4,067,065 from Government of Canada,
  $387,335 from New Zealand, $837,600 from Norway, and $300,000 from South Korea.
\2\ Fiscal year 2009 amount includes international contributions of $3,918,000 from the Government of Canada,
  and $5,722,212 from the United Kingdom of Great Britain and Northern Ireland.
 
NOTES.--Fiscal year 2009 funds appropriated in Other Defense Activities for the Mixed Oxide Fuel Fabrication
  Facility, and in Weapons Activities for the Waste Solidification Building and Pit Disassembly and Conversion
  Facility (fiscal year 2009 and fiscal year 2010) are not reflected in the above table.

Public Law Authorization
    Energy and Water and Related Agencies Appropriations Act, 2010 
(Public Law 111-85).
    National Nuclear Security Administration Act, (Public Law 106-65), 
as amended.
    National Defense Authorization Act for Fiscal Year 2010 (Public Law 
111-84).

                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Defense Nuclear Nonproliferation:
    Nonproliferation and Verification Research and                315,941      317,558      328,194      351,145
     Development............................................
    Nonproliferation and International Security.............      161,083      165,275      169,861      181,741
    International Nuclear Materials Protection and                570,798      561,790      558,492      623,670
     Cooperation............................................
    Fissile Materials Disposition...........................      859,375    1,010,642      789,558      743,600
    Global Threat Reduction Initiative......................      599,994      659,926      987,138    1,056,172
                                                             ---------------------------------------------------
      Total, Defense Nuclear Nonproliferation...............    2,507,191    2,715,191    2,833,243    2,956,328
----------------------------------------------------------------------------------------------------------------


            NONPROLIFERATION AND VERIFICATION RESEARCH AND DEVELOPMENT--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Nonproliferation and Verification R&D:
    Operations and Maintenance (O&M):
        Proliferation Detection.................................        195,400         181,839         225,004
        Homeland Security-Related Proliferation Detection [Non-         [50,000]        [50,000]        [50,000]
         Add]...................................................
        Nuclear Detonation Detection............................        142,421         135,461         126,564
                                                                 -----------------------------------------------
          Subtotal, O&M.........................................        337,821         317,300         351,568
                                                                 ===============================================
    Construction................................................         18,460   ..............  ..............
                                                                 -----------------------------------------------
      Total, Nonproliferation and Verification R&D..............        356,281         317,300         351,568
----------------------------------------------------------------------------------------------------------------


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Nonproliferation and Verification R&D:
    Operations and Maintenance:
        Proliferation Detection (PD)........................     182,614      183,549      189,696      202,962
        Homeland Security-Related Proliferation Detection        [50,000]     [50,000]     [50,000]     [50,000]
         [Non-Add]..........................................
        Nuclear Detonation Detection........................     133,327      134,009      138,498      148,183
                                                             ---------------------------------------------------
          Total, Nonproliferation and Verification R&D......     315,941      317,558      328,194      351,145
----------------------------------------------------------------------------------------------------------------


                   NONPROLIFERATION AND INTERNATIONAL SECURITY--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Nonproliferation and International Security:
    Dismantlement and Transparency..............................          47,529          72,763          49,207
    Global Security Engagement and Cooperation..................          44,076          50,708          47,289
    International Regimes and Agreements........................          40,793          42,703          39,824
    Treaties and Agreements.....................................          17,602          21,028          19,610
                                                                 -----------------------------------------------
      Total, Nonproliferation and International Security........         150,000         187,202         155,930
----------------------------------------------------------------------------------------------------------------


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Nonproliferation and International Security:
    Dismantlement and Transparency..........................       50,832       52,155       53,602       57,351
    Global Security Engagement and Cooperation..............       48,852       50,124       51,514       55,117
    International Regimes and Agreements....................       41,141       42,210       43,383       46,417
    Treaties and Agreements.................................       20,258       20,786       21,362       22,856
                                                             ---------------------------------------------------
      Total, Nonproliferation and International Security....      161,083      165,275      169,861      181,741
----------------------------------------------------------------------------------------------------------------


            INTERNATIONAL NUCLEAR MATERIALS PROTECTION AND COOPERATION--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
International Nuclear Materials Protection and Cooperation:
    Navy Complex................................................          30,316          33,880          34,322
    Strategic Rocket Forces/12th Main Directorate...............          51,767          48,646          51,359
    Rosatom Weapons Complex.....................................          76,070          71,517         105,318
    Civilian Nuclear Sites......................................          45,542          63,481          59,027
    Material Consolidation and Conversion.......................          21,560          13,611          13,867
    National Programs and Sustainability........................          54,901          68,469          60,928
    Second Line of Defense......................................         174,844         272,446         265,297
    International Contributions.................................       \1\ 5,592  ..............  ..............
                                                                 -----------------------------------------------
      Total, International Nuclear Materials Protection and              460,592         572,050         590,118
       Cooperation..............................................
----------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2009 amount includes international contributions of $4,067,065 from Government of Canada,
  $387,335 from New Zealand, $837,600 from Norway, and $300,000 from South Korea.


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
International Nuclear Materials Protection and Cooperation:
    Navy Complex............................................       31,764  ...........  ...........  ...........
    Strategic Rocket Forces/12th Main Directorate...........       37,830  ...........  ...........  ...........
    Rosatom Weapons Complex.................................       52,000  ...........  ...........  ...........
    Civilian Nuclear Sites..................................       18,502  ...........  ...........  ...........
    Material Consolidation and Conversion...................       14,306       14,627       14,627       16,433
    National Programs and Sustainability....................       61,967       39,006       39,006       43,623
    Second Line of Defense..................................      354,429      508,157      504,859      563,614
    International Contributions.............................  ...........  ...........  ...........  ...........
                                                             ---------------------------------------------------
      Total, International Nuclear Materials Protection and       570,798      561,790      558,492      623,670
       Cooperation..........................................
----------------------------------------------------------------------------------------------------------------


                ELIMINATION OF WEAPONS-GRADE PLUTONIUM PRODUCTION--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Elimination of Weapons-Grade Plutonium Production (EWGPP):
    Zheleznogorsk Plutonium Production Elimination (ZPPEP)......         139,282          22,507  ..............
    Crosscutting and Technical Support Activities...............           2,017           2,000  ..............
                                                                 -----------------------------------------------
      Total, Elimination of Weapons-Grade Plutonium Production           141,299          24,507  ..............
       (EWGPP)..................................................
----------------------------------------------------------------------------------------------------------------


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Elimination of Weapons-Grade Plutonium Production...........  ...........  ...........  ...........  ...........
----------------------------------------------------------------------------------------------------------------


                          FISSILE MATERIALS DISPOSITION--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                   2009 Current    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Fissile Materials Disposition (FMD):
    U.S. Surplus Fissile Materials Disposition:
        Operations and Maintenance (O&M):
            U.S. Plutonium Disposition..........................  ..............          90,896         278,940
            U.S. Uranium Disposition............................          39,274          34,691          25,985
            Supporting Activities...............................           1,500           1,075  ..............
                                                                 -----------------------------------------------
              Subtotal, O&M.....................................          40,774         126,662         304,925
                                                                 ===============================================
        Construction............................................  ..............         574,238         612,788
 
                                                                 -----------------------------------------------
          Total, U.S. Surplus FMD...............................          40,774         700,900         917,713
                                                                 ===============================================
Russian Surplus FMD:
    Russian Materials Disposition...............................           1,000           1,000         113,000
                                                                 -----------------------------------------------
      Total, Fissile Materials Disposition......................          41,774         701,900       1,030,713
----------------------------------------------------------------------------------------------------------------


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Fissile Materials Disposition:
    U.S. Surplus Fissile Materials Disposition (O&M)........      302,276      482,185      478,897      459,827
    Construction............................................      556,099      527,457      309,661      282,773
    Russian Surplus Fissile Materials Disposition...........        1,000        1,000        1,000        1,000
                                                             ---------------------------------------------------
      Total, Fissile Materials Disposition..................      859,375    1,010,642      789,558      743,600
----------------------------------------------------------------------------------------------------------------


                  GLOBAL THREAT REDUCTION INITIATIVE (GTRI)--FUNDING PROFILE BY SUBPROGRAM \1\
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Global Threat Reduction Initiative:
    Highly Enriched Uranium (HEU) Reactor Conversion............          76,706         102,772         119,000
    Nuclear and Radiological Material Removal:
        Russian-Origin Nuclear Material Removal.................         123,083          94,167         145,191
        U.S.-Origin Nuclear Material Removal....................           8,331           9,889          16,500
        Gap Nuclear Material Removal............................           4,982           9,111         108,000
        Emerging Threats Nuclear Material Removal...............           7,600           5,556          16,000
        International Radiological Material Removal.............          21,702           8,333          45,000
        Domestic Radiological Material Removal..................          17,063          17,778          25,000
                                                                 -----------------------------------------------
          Subtotal, Nuclear and Radiological Material Removal...         182,761         144,834         355,691
                                                                 ===============================================
Nuclear and Radiological Material Protection:
    BN-350 Nuclear Material Protection..........................          50,977           9,109           2,000
    International Material Protection...........................          42,909          41,463          57,000
    Domestic Material Protection................................          41,647          35,322          25,147
                                                                 -----------------------------------------------
      Subtotal, Nuclear and Radiological Material Protection....         135,533          85,894          84,147
                                                                 ===============================================
      Total, Global Threat Reduction Initiative (appropriation).         395,000         333,500         558,838
 
Funds from International Contributions..........................           9,640  ..............  ..............
                                                                 -----------------------------------------------
      Total, Global Threat Reduction Initiative Funds Available.         404,640         333,500         558,838
----------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2009 amount includes international contributions of $3,918,000 from the Government of Canada,
  and $5,722,212 from the United Kingdom of Great Britain and Northern Ireland.


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Global Threat Reduction Initiative:
    HEU Reactor Conversion..................................      176,000      210,000      245,000      293,000
    Nuclear and Radiological Material Removal:
        Russian-Origin Nuclear Material Remov-  al..........       96,000       70,000       82,000       83,000
        U.S.-Origin Nuclear Material Removal................        1,000        3,000        1,000        1,000
        Gap Nuclear Material Removal........................       22,000       16,000       27,000        1,000
        Emerging Threats Nuclear Material Removal...........       16,000       16,000      194,000      188,000
        International Radiological Material Removal.........       44,000       39,000       10,000       10,000
        Domestic Radiological Material Removal..............       31,000       31,000       33,000       34,000
                                                             ---------------------------------------------------
          Subtotal, Nuclear and Radiological Material             210,000      175,000      347,000      317,000
           Removal..........................................
                                                             ===================================================
Nuclear and Radiological Material Protection:
    BN-350 Nuclear Material Protection......................        2,000  ...........  ...........  ...........
    International Material Protection.......................      100,000      125,000      130,000      143,000
    Domestic Material Protection............................      111,994      149,926      265,138      303,172
                                                             ---------------------------------------------------
      Subtotal, Nuclear and Radiological Material Protec-         213,994      274,926      395,138      446,172
       tion.................................................
                                                             ===================================================
      Total, Global Threat Reduction Initiative.............      599,994      659,926      987,138    1,056,172
----------------------------------------------------------------------------------------------------------------


                        CONGRESSIONALLY DIRECTED PROJECTS--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Congressionally Directed Projects...............................           1,903             250  ..............
----------------------------------------------------------------------------------------------------------------


                           NAVAL REACTORS--OVERVIEW--APPROPRIATION SUMMARY BY PROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                    2009 Actual    2010 Current     Fiscal Year
                                                                   Appropriation   Appropriation   2011 Request
----------------------------------------------------------------------------------------------------------------
Naval Reactors Development:
    Operations and Maintenance (O&M)............................         771,600         877,533         997,886
    Program Direction...........................................          34,454          36,800          40,000
    Construction................................................          22,000          30,800          32,600
                                                                 -----------------------------------------------
      Total, Naval Reactors Development.........................         828,054         945,133       1,070,486
----------------------------------------------------------------------------------------------------------------

Public Law Authorizations
    Public Law 83-703, ``Atomic Energy Act of 1954'' ``Executive Order 
12344'' (42 U.S.C. 7158), ``Naval Nuclear Propulsion Program''.
    Public Law 107-107, ``National Defense Authorizations Act of 
2002'', title 32, ``National Nuclear Security Administration''.
    John Warner National Defense Authorization Act for fiscal year 
2007, (Public Law 109-364).
    Fiscal Year 2008 Consolidated Appropriations Act (Public Law 110-
161).
    National Nuclear Security Administration Act, (Public Law 106-65), 
as amended.
    Fiscal Year 2009 Consolidated Appropriations Act (Public Law 111-
8).
    Fiscal Year 2010 Energy and Water and Related Agencies 
Appropriations Act (Public Law 111-85).

                                    OUT-YEAR APPROPRIATION SUMMARY BY PROGRAM
                                             [In thousands dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2012         2013         2014         2015
----------------------------------------------------------------------------------------------------------------
Naval Reactors Development:
    Operations and Maintenance..............................    1,018,634    1,102,978    1,177,817    1,240,430
    Program Direction.......................................       41,200       42,400       43,700       45,000
    Construction............................................       39,900       25,800        4,500       25,100
                                                             ---------------------------------------------------
      Total, Naval Reactors Development.....................    1,099,734    1,171,178    1,226,017    1,310,530
----------------------------------------------------------------------------------------------------------------


    Senator Dorgan. Mr. D'Agostino, thank you very much. Would 
you like to identify, for the record, those who are 
accompanying you today?
    Mr. D'Agostino. Yes, sir.
    Mr. Steven Black, to my right, is going to be representing 
the nonproliferation program. Mr. Black has been the chief 
operating officer in--we call the NA-20 organization, and has 
been--essentially, has very deep knowledge of all levels of the 
program. And we're fortunate to be with him.
    Admiral Kirk Donald, to my left, runs the naval reactors 
program; for many years, has demonstrated significant success 
in implementing these programs. It's really, quite an 
impressive organization.
    And Brigadier General Gary Harencak, to my left, runs the 
defense programs activities. General Harencak joined our 
operation about a year ago--little less than a year ago. It's a 
great find for us, from the Air Force. It's the Air Force's 
demonstration of their commitment to these types of programs.

                     5 YEAR BUDGET ESTIMATE DETAILS

    Senator Dorgan. Well, thank you very much for your 
testimony.
    Let me ask a couple of questions of the type that I raised 
and Senator Bennett raised, as well. We have a 5-year out-year 
budget from NNSA that shows an average of about $300 million 
per year increase for NNSA needs. But, my understanding is that 
that budget doesn't include the current $3 billion estimated 
cost of the Chemistry and Metallurgy Research Facility 
replacement, at Los Alamos; the Uranium Processing Facility, at 
Y-12--that's expected to cost $1.4 to $3.5 billion; the Pit 
Disassembly and Conversion Facility at Savannah River--that's 
to cost between $2.4 and $3.2 billion.
    My understanding is the cost estimates are not completed on 
those buildings, so they are not a part of your 5 year 
estimate. Is that right? Will the subcommittee expect to see 
higher cost estimates and more requirements for those three 
buildings?
    Mr. D'Agostino. The resources for the design work are in 
our FYNSP. We feel--we're limited, in providing a 5 year plan, 
sir. Most of these facilities will take, in many cases, 9 or 10 
years to build. What we've looked at in the Department--to 
address the concerns, raised by you sir, as well as the 
Government Accountability Office, which has been very clear on 
how we want to move forward--is, it's important to spend more 
time up front in understanding what you're going to design 
before you commit to a cost--you know, what we call a 
``critical decision 2,'' which is a final cost, scope, and 
schedule that we say we sign our names up to.
    So, what we have in the first few years of this future-
year--5-year national security plan are our projections on what 
the out years might be. The real numbers are going to start 
coming in, in the years 2015, 2016, 2017, and 2018, as we get 
into the heavy construction pieces of those particular 
projects. So, in order to address the project management 
concern, which is a very valid concern, the Deputy Secretary 
recently issued a revised project management policy to address 
those specific points.
    Senator Dorgan. I'm sorry to interrupt you, but let me just 
ask the admiral a question that is similar. We're talking about 
three facilities, each of which are going to cost probably 
close to a couple billion dollars each, rather $3 billion, 
potentially; $2 billion; $2.5 billion. So, three very large 
facilities that will be built over a long period of time.
    Mr. D'Agostino. Right.
    Senator Dorgan. At the same time, my understanding is, that 
we're going to do three things, we're going to have three 
projects. One is developing a new reactor core for the Ohio-
class submarine; refueling the prototype reactor in New York; 
and new spent-fuel facilities in Idaho. The first, I think is 
going to cost, I'm told, up to $1.5 billion; the second, $1.3 
billion; the third, probably $1.3 or $1.4 billion. So, you're 
talking about three very large programs, here; three very large 
facilities. Then, I think we asked the question earlier, can 
you effectively do all these in reasonably the same period of 
time, effectively manage them, and, especially, control costs?
    Mr. D'Agostino. I believe the answer is, firmly yes, we can 
do that. We can do it because--for a number of reasons. In many 
cases, these are activities that have started already. They 
won't be starting from a zero stop and then going to full steam 
ahead. Well, all the facilities on the weapons side and 
operations side have started, already.
    What we've realized on large projects is spending the right 
amount of money early on the design allows us to lock in and 
have a good understanding of the actual costs before we begin 
construction. So, we do--our 5 year plan does have the 
resources to do the design work that we think is absolutely 
critical. The last 2 years of the 5 year plan, for example, the 
years 2014 and 2015, show bump-ups of about $300 million in 
each of those years to address when we start to actually expect 
doing construction work, because we think that's when the 
dollars will be needed.
    But, the important thing is that we haven't yet committed 
to the actual design cost schedule yet, because we haven't 
finished our design work. And one of the commitments in our 
policies is to do the design early. Once you have the design 
early--and we have authorization and appropriations to 
proceed--is to make sure that the President's request requests 
the right amount of money in each year--not try to shortchange 
those things. In the past, we've gotten into trouble, because 
it always seemed like a convenient pool to go to, to go solve 
other problems that come up throughout the year. And the 
commitment is that once the cost, scope, and schedule is 
understood on the project, we fund it.
    I'd like to turn to Admiral Donald, who can talk a little 
bit about the naval reactors piece.
    Admiral Donald. Sure. Thank you very much. It's good to be 
here and thank you for the opportunity to appear before the 
subcommittee.
    There are two points I would make about our ability to 
execute these significant projects. There are two that involve 
reactor design--the reactor plant design for the replacement 
for the Ohio-class, and then the reactor design that goes into 
the prototype up in New York for training and--or research and 
development. The third one, while not a reactor design, is 
similar, in the sense that it's a complex nuclear project that 
we would be undertaking.
    The first point I would make to you, sir, is that we have a 
history of designing reactor plants. This would be the 30th--
over the 30th reactor design that naval reactors has made. 
We've made over two dozen reactor plant designs that include 
the entire propulsion plant, over the history of the program, 
the most recent being the design of the reactor plant for the 
Gerald R. Ford class of aircraft carrier, which we're on 
schedule, all of our components are being delivered or are in 
delivery to the shipyard right now, on time, and on the budget 
that we had demonstrated, or we had planned for in the past.
    These projects are very similar, in that regard, so I 
think--I am confident that we know how to do this. We 
understand what the difficulties are, what the challenges are, 
and we've carefully mapped those out.
    The key, however, as we've learned, to success in these is, 
you have to get the design matured, as Mr. D'Agostino pointed 
out. History has shown that if you can get designs complete to 
about 40 to 50 percent, you have a very good opportunity--a 
very good chance of delivering on time and on budget. That's 
what we demonstrated in the Virginia-class submarine program. 
That's the target that we're going for now for these projects. 
And the key to that is the early upfront funding so that we can 
do the design, the concept development, and be prepared to 
start construction.

                     ENSURING CONTRACT COMPETITION

    Senator Dorgan. All right. Last year, we expressed some 
concern in this subcommittee about the sole-source awarding of 
target production for the NIF and other laser facilities, which 
we indicated we felt was inconsistent with policy guidelines. 
With the cost of target production expected to increase 
significantly, competition will be needed to lower costs and to 
spur innovation. We believe the NNSA's recently released 
request for information to award a new contract is more 
oriented toward one contractor. We've also had complaints about 
that, as well.
    To what extent, if you can tell me, Mr. D'Agostino, does 
the request for information preclude multiple vendors from 
effectively competing for the contract?
    Mr. D'Agostino. Mr. Chairman, we're very much interested in 
competition across a broad range of activities. I'm not aware 
of any complaints, but I'd be happy to make sure we take a look 
at that.
    If our request for information appears to be focused to a 
single contractor, that was an oversight on our part. We'll 
have to--I'll take a look into that and get back to the 
subcommittee.
    Senator Dorgan. All right because it seems to me, 
especially on these kinds of projects, the more you can get 
contractors involved in competition, the lower you're going to 
experience pricing on these major contracts.

                             JASON'S REPORT

    Mr. D'Agostino. Yes, sir.
    Senator Dorgan. Let me just ask, on the issue of nuclear 
weapons design, my understanding is that the plan is to modify 
the design of nuclear weapons. Reconcile that, if you would, 
that is the need for changes, with JASON's conclusion, in its 
2009 report, that the lifetimes of today's nuclear warheads 
could be extended for decades without significant changes to 
their design and without any significant deterioration.
    Mr. D'Agostino. Right.
    Senator Dorgan. So, can you tell us how you see the JASON's 
report--related to the discussions about changing design?
    Mr. D'Agostino. Absolutely, and at the end, if General 
Harencak wants to join, if it's okay----
    Senator Dorgan. All right.
    Mr. D'Agostino [continuing]. We'll ask him to do it. I'll--
I can't start off on that.
    The JASON's report, the unclassified executive summary, 
basically talked about: If we don't want to improve the safety, 
if we don't want to improve the security, if we don't want to 
improve the reliability, and just keeps things the way they are 
and have cold war nuclear weapons, they felt, ``just keep 
making things the way you used to make them.''
    There's a couple--okay. I'll take that statement.
    Senator Feinstein. That's not what it says.
    Mr. D'Agostino. It's--it talks about----
    Senator Feinstein. I have it in front of me.
    Mr. D'Agostino [continuing]. We can maintain, out into the 
future----
    Senator Feinstein. Excuse me.
    Mr. D'Agostino. Yes. Well, I don't have it in front of me 
right now, but if it says we can--I think it says, we can 
maintain, out into the future, using current life-extension 
approaches----
    Senator Feinstein. Yes.
    Mr. D'Agostino [continuing]. To safety, security----
    Senator Feinstein. That's right.
    Mr. D'Agostino. I think--what I'm interested in--there's a 
couple of problems with what I would say, to this high-level 
summary statement. One is, in many cases we can't make things 
the way we used to make them 30, 40 years ago. We just don't 
have the people; we don't have the processing techniques; many 
of the chemicals, and many of the materials that were used back 
then are prohibited from us for being able to use them; they 
have grave environmental damages and a very expensive 
infrastructure to be able to build that stuff. And so, I'm 
thinking about--decisions that get made now are going to have 
long-term impacts. These are, like, multi-decade facilities, so 
why would I want to, kind of, lock in the way we used to make 
things, when you know, we've progressed a lot in manufacturing 
approaches and we know a lot more about material, and the 
damage that beryllium does, and acetyl nitrate does. These are 
specific components.
    Because those have costs, those have real costs, and they 
have long-term costs in dollars and in people--so, the approach 
is: In order to overcome the problem that we have in 
manufacturing, that there are different ways to do business. In 
order to address what I would say is 21st century security 
problems and 21st century safety approaches and not lock in the 
way we did safety, 30 years ago. There are features that we can 
put inside of these devices that will essentially make them 
safe.
    And I think that would be my approach.
    Senator Dorgan. I want to call on my colleagues in a 
moment, but my understanding was, in this discussion, which was 
RRW and this discussion had a number of components.
    My understanding was that, for some while, there was a 
belief that pit degradation would mean that we would not have 
reliability of our nuclear deterrent, and therefore, a new 
class of nuclear weapons was required. The JASON's report, I 
think, among other things, has indicated, ``No, that worry 
about degradation is not a concern.'' They believe that these 
nuclear weapons will be reliable, well out into the future.
    And your point about designing safety, I understand.
    Mr. D'Agostino. Yes.
    Senator Dorgan. But, my point is that the design changes 
originally were driven by a notion that you would have a 
degrading of the deterrent, and therefore, you had to replace 
them. I think the JASON's report is at odds with that. So, that 
was what I was trying to ask.
    Mr. D'Agostino. Okay.
    Senator Dorgan. Let me call on my colleagues for questions.
    Senator Bennett.

                       INDEPENDENT COST ESTIMATES

    Senator Bennett. Thank you very much.
    Again, the chairman has talked about many of the things 
that I want to talk about. Let's discuss the whole issue of 
independent cost estimates.
    Senator Alexander and I sent a letter to Secretary Chu last 
month to request the Department to obtain an independent cost 
estimate for the UPF Facility. He has not responded. Were you 
aware of that request?
    Mr. D'Agostino. Yes, sir, I'm aware of that request.
    Senator Bennett. And, as part of your reforms for contracts 
and project management, do you like the idea of independent 
cost estimates?
    Mr. D'Agostino. I absolutely love the idea. I think it's a 
great idea. We have to have it, and we have to do it much more 
frequently than we've done in the past. The policy the Deputy 
Secretary signed out last week on project management will 
require independent cost estimates more frequently, 
particularly at the critical decision points. So, before the 
Department would propose, in a budget request--that the 
President proposes in the budget request to Congress, on a 
critical decision--we would have an independent cost estimate, 
outside of my organization, to go validate that--you know, 
check independently that we have a good understanding of what 
the project's going to cost. There are a couple of other pieces 
to that, as well, that I'd be willing to describe, on project 
management.
    Senator Bennett. That means you'll have a solid cost 
estimate and schedule for each one of the multiple projects I 
described in my opening statement?
    Mr. D'Agostino. Yes, sir. We will--the key is, providing 
that solid cost estimate and schedule when we have the data to 
say we actually understand it. And, as Admiral Donald said, an 
example of this new policy will require much more significant 
design maturity then we've ever had in the past on these 
projects. What I'm looking at, in the NNSA for example, is to 
try to get as close as possible to 90 percent design maturity 
before we go off and authorize the construction of an activity, 
because then we will have a good idea--we will say, ``We 
absolutely know what this design is.'' We've run down all of 
the technology readiness-level issues that typically come up 
and bite you if you don't--if you try to get started too soon. 
So, that's an element of this----
    Senator Bennett. Okay.
    Mr. D'Agostino [continuing]. Design maturity.
    Senator Bennett. Yes. I outlined the series of things that 
you're trying to do simultaneously----
    Mr. D'Agostino. Right.
    Senator Bennett [continuing]. Plus the two life-extension 
programs. Now, does the activity we need to do on the life 
extension programs hinge on the timely completion of the other 
four projects?
    Mr. D'Agostino. Two of the projects are nonproliferation 
projects. So, there's a clear answer to ``no''--no, on that 
activity. The two life-extension programs in question are the 
W76 and the B61. The W76 work, General, is underway right now, 
we're into production mode on that, so it doesn't hinge on the 
completion of those projects. The B61 work is--particularly in 
the first few years, we're in the design maturity stage of the 
study, and then we'll come back and request authorization to 
actually proceed with the production. So, it doesn't hinge 
directly on that, because the idea is to get--when is the date 
for the B61, Gary?
    General Harencak. By 2017, sir.
    And, if I might----
    Mr. D'Agostino. Yes.
    General Harencak [continuing]. Make a point about our life-
extended--while we will have a time where there are dual life-
extended--the way it's laid out is, the majority--overwhelming 
majority of the work will be done for the W76 as we start the 
core of the majority of the work of the B61. And then, that 
would be completed, should we need to do any other life-
extensions time. So, while certainly on paper you're doing two 
life extensions, we've already de-conflicted the major 
facilities with that, our workforce and its plan to complete 
the W76 on time, on schedule, prior to the main heavy lifting 
that'd be required for the B61 in our production facilities.

                PIT DISASSEMBLY AND CONVERSION FACILITY

    Senator Bennett. When do you anticipate requesting funds 
for the Pit Disassembly and Conversion Facility? And do you 
have any idea what the full cost is likely to be? Is that 
included in your 5-year budget, or is that something we can 
expect at some future time?
    Mr. Black. The cost of the Pit Disassembly and Conversion 
Facility will be determined after we do some study. You may 
know that the Deputy Secretary decided, this past fall, to 
direct the Department to explore the possibility of combining 
the original standalone Pit Disassembly and Conversion 
Facility, which you've been discussing, with an existing 
project to deal with non-pit plutonium at Savannah River, 
that's currently run by the Office of Environmental Management, 
EM. So, we formed a working group with EM--an NNSA-EM working 
group--to evaluate what the possibilities are to combine these 
two projects. And part of the reason we're doing this is 
because the working group that was already stood up felt that 
there were a number of potential advantages to combining them; 
in particular, cost avoidance. We can't promise that, but 
initially it looks like we might be able to avoid the cost of 
building a new facility, because we would use the shell of the 
old K-Reactor, which currently exists, rather than building a 
new one. We would also avoid the costs of decontaminating and 
decommissioning a second category-1 facility at the end of the 
mission. And we might be able to smooth out such things as 
transportation costs, in terms of shipping pits from Pantex to 
Savannah River, and the like. So, there's a variety of ways 
that we might be able to avoid some costs and come in with a 
project that will actually satisfy both missions. But, we're 
not at CD1 yet. We don't have a cost estimate, and we expect 
that it will take 12 to 18 months. So, we would imagine, 
perhaps by the end of fiscal year 2011, we would be able to 
come in with a more reasonable--a more specific cost estimate 
and proposal.
    Senator Bennett. So, you have nothing in your 5 year budget 
now.
    Mr. Black. Not right now, no. We have funds that were 
transferred from the Pit Disassembly and Conversion Facility 
that came over from another part of the budget, when it was 
reconfigured and realigned this year. And that funding will be 
used to continue work that would need to be done, irrespective 
of which path we take on the building. Whether we do the pit 
disassembly and conversion functions in the K Area, in the K-
Reactor, or whether we do it in a standalone facility that we 
build, we're still going to have to have glove boxes and hot 
cells and process equipment and the like. So, we're continuing 
to do the work and the long-lead procurement that would be 
required to do this mission. The mission has to be done. The 
question is whether we do it in this kind of a facility or that 
kind of facility. And, we feel that we can save some money in 
the long run if, as the Administrator said, we can do more 
complete design work over the next 12 to 18 months, and come 
back to you and to the Secretary with another estimate.

                      PROPOSED BUDGET ALLOCATIONS

    Senator Bennett. Okay. Now, in spite of all of the talk 
about the top line going up so dramatically, your request for 
day-to-day operations is down 7 percent, or $1.3 billion. And 
can you talk about that--why there's the decrease in this area? 
Was this a tradeoff as you negotiated with OMB? I've negotiated 
with OMB. And, while administrations come and go, and change, 
OMB always remains the same, it seems to me, and always 
difficult when you're in a department or an agency and trying 
to deal with them. You're forced to make budget cuts to deal 
with the other activities that go in the areas we've talked 
about our support for? I know that's a very blunt question, and 
you----
    Mr. D'Agostino. Yes, sir.
    Senator Bennett [continuing]. Probably can't give me a 
blunt answer, but hint around at it as best you can.
    Mr. D'Agostino. Senator Bennett, every year, there will be 
changes to our budget. And in many cases the message that I've 
been working to drive over the past few years is we have to 
continue to look at ways to be more efficient. There are always 
ways, I believe, to be more efficient. I believe there continue 
to be ways to be more efficient. We have to do it, for a number 
of reasons; obviously, healthcare costs and benefits and things 
like that, which impact all of us, are part of that. The area 
that I'm most particularly concerned about is our--you know, 
what I call some of the physical infrastructure.
    And I want--well, I have a meeting with the board of 
governors, actually, for two of our laboratories, Los Alamos 
and Livermore, this afternoon. I'm going to emphasize that this 
budget looks like great news, and it's important, because the 
country recognizes what's important, but we have to sharpen our 
pencils and reduce the fixed costs of doing our work in the 
enterprise. I believe there are more opportunities there. It 
certainly presents some challenges in maintenance of old 
facilities. I will readily admit that. You know, Brigadier 
General Harencak knows about this; he can probably add some 
detail to what I'm saying.
    But, in general, I'm always going to push to drive 
efficiencies and try to get out of those facilities that we 
don't need and to take them down, because they do add to the 
fixed costs. I support the President's budget, of course. There 
will always be program managers in my organization that would 
like more, in order to do more. But, I try to look at it, not 
just--well, look at what's an increment from what we had last 
year, but what's in the base of what we had last year that we 
can try to get out of the program. In this program--or, the 
request that we have before us reflects some of my leanings 
toward looking into the base of the program and trying to drive 
those costs down.
    Will it cause problems out there? Yes, because change is 
always hard. I think there will be challenges. There'll be some 
folks out in the field that'll say, you know, ``I need more and 
more--I need more.'' But, I think, in order to change from this 
kind of large cold war nuclear weapons complex, to an 
efficient, trim nuclear security enterprise that addresses not 
just weapons, but all these other areas, that's a necessity.
    General, would you want to add?
    General Harencak. Yes, sir. I----
    Mr. D'Agostino. Feel free to disagree with me, as well. 
So----
    General Harencak. Well, sir.
    Mr. D'Agostino. I mean, you're testifying, not me.
    General Harencak. I will not disagree with you. What I will 
say, though, is a caveat, perhaps----
    Mr. D'Agostino. Yes.
    General Harencak [continuing]. That we still, even with 
this much needed budget increase--and, you know, last year, I 
believe, the testimony was--I told you that we could not 
sustain this enterprise. My best military advice was--I was new 
to the enterprise and--we could not sustain it with the type--
with the number of resources we had. This goes a long way, 
obviously, to fixing those problems and doing the work that we 
have to do.
    That being said, all budgets are going to have some areas 
that need, perhaps, still a little bit more attention. 
Facilities, is one, readiness and testing are some others.
    We do believe, though, that we could internally--through 
the great efforts of Mr. D'Agostino and all the great Americans 
that work in this organization that are trying to turn this 
into a 21st century nuclear security enterprise--that we can 
make some internal adjustments, and we're working it. As we 
speak right now, our best--some of our best people are meeting 
to look at how we're going to, internally, specifically in 
defense programs, fix some of the short-term concerns that we 
have, specifically where it comes to some facilities.
    We're confident that, as an enterprise, we're all going to 
work together, and we're going to say, ``Hey, perhaps we can 
move some work here, we can move some money here to fix 
those.''
    So, I'm not going to sit here and tell you that we 
absolutely have no problems with this budget, that there's--you 
know, we got everything we need, but I will tell you we are 
aggressively managing those areas; we'll do what's necessary in 
the coming years to adjust and, when we come back to you, say, 
``Hey, perhaps now--in retrospect, we should've put x number to 
this facility, and we're going to adjust those.'' But, overall, 
as Mr. D'Agostino said, we are absolutely committed to making 
this organization more efficient, more responsive.
    And, along those ways, since I have the opportunity, if you 
don't mind, I certainly agree that, in the past, our management 
of some projects has not been sterling. I mean, there's no 
other way around that. But, you have a team in place now that 
Mr. D'Agostino has put into place, that is--job one is to fix 
that. And, while certainly we could come up with things that we 
have done wrong in the past, I also point to some things that 
we are doing extremely well now and--because we do have the 
capacity to learn, and we're demonstrating that.
    Certainly, the NIF project, this is an incredible success 
story. While, granted, it had problems in the past, long before 
our time here, it's now incredibly well run and it's making 
great, great positions.
    KCRIMS is another example where we've taken, in a very 
complex thing, which is moving an in-operation plant to a much 
more efficient, much more cost effective, much more a green 
place, if you will. And we're doing that superbly, I believe, 
because we've instituted a formal risk-management process, 
where we're identifying the sources of risks, assessing those 
risks, but, more importantly, looking at how that affects 
overall project performance, and coming up with alternatives, 
real time, to fix it. And the KCRIMS program is a perfect 
example of contractors and Feds working together to actually 
produce a project on time and on schedule.
    And so, I just offer that up to you, sir, that we are 
aggressively working on how to manage projects correctly.

                        NUCLEAR NONPROLIFERATION

    Senator Bennett. Okay. Thank you. Let me go, my last 
question, in the other direction. You want to secure all the 
vulnerable nuclear material around the world within 4 years and 
the budget increase has gone up 68 percent. This is one very 
heavy increase. And I've learned, in my business world, it's 
tough to deal with a cut, and sometimes it's even tougher to 
deal with an increase. And do you have the capacity to execute 
these funds in fiscal 2011, let alone significant increases of 
up to a billion dollars over the 5 year project plan?
    Mr. Black. Sir, I would say that we do have the ability to 
get this mission done. If I may, the President laid out a very 
ambitious agenda for us last April, and again in the State of 
the Union Address. We're not the only part of the solution of 
this problem, though; he said, ``This is work for the world,'' 
so we have international partners and we have interagency 
partners.
    The portion of the task that we have essentially carved out 
for ourselves is the part that is consistent with our 
expertise, our authorities, and the budget that we believe we 
can manage. And so, we've requested the amount that we think we 
can use effectively. We are looking to commit all of the money, 
for the fiscal year 2011 work that we've requested in the 
budget, and we believe we can do it, for several reasons. One 
is we are much better staffed this year than we were at this 
time last year. Last year at this time, we had an 83-percent 
staffing rate, 17-percent vacancy rate. And we have dropped 
that now to a 5 percent vacancy rate. We have a lot more Feds 
on board. These are young, energetic people who have experience 
working overseas. They speak the language, they know the 
culture, and they're certainly enthusiastic about the mission, 
and they know they have the support of both ends of 
Pennsylvania Avenue.
    We've also put in place contracts and vehicles, such as the 
IDIQ, the indefinite delivery/indefinite quantity contract that 
supports our GTRI work, Global Threat Reduction Initiative 
work, and a DICCE contract that will help us execute work in 
second line of defense. These two contract vehicles make it 
possible for us to contract out work overseas and greatly 
simplify what is otherwise a very complicated and long process 
to getting work done in other countries.
    And we've done a very good job with our uncommitted 
balances, as well. The last 5 years, despite an increase in our 
overall nonproliferation budget, every year--our uncommitted 
balances have come down every single year. And the last 4 
years, our balances have been under the 13-percent departmental 
threshold for uncosted balances. So, in particular, in the two 
programs that have to bear the greatest brunt of the burden for 
the 4-year plan, what we nominally call the 4-year plan, Global 
Threat Reduction and MPC&A, those two programs' uncommitted 
balances have come in under 9 percent. They're very well 
positioned to make good use of the funds that we are 
requesting. So, on balance, we feel that we're committed and 
able to execute this work very effectively.
    Senator Bennett. Thank you very much.
    Senator Feinstein. Thank you. Thank you very much.
    Senator Bennett, good to see you again.
    And, Mr. D'Agostino, good to see you again, I want to say 
that you have always been a straight-shooter with me. I very 
much appreciate that. You spent several times briefing me on 
the RRW. We did not see, with the same eyes, the same thing, 
and I found myself opposing the nuclear bunker buster, the 
advanced weapons concepts, the new plutonium pits, and the RRW. 
And I just want to say why.
    I strongly believe that the United States of America should 
not be a nuclear proliferator. And when I sat down with Sid 
Drell on the bunker buster and on the laws of physics and what 
would happen if one of these things exploded, I couldn't 
believe that my country was proposing it. And so, I have begun 
to look very critically at weapons programs. And, of course, 
what I find is that Russia and the United States have a huge 
arsenal, which is in the process, through START and hopefully 
through the Comprehensive Test Ban Treaty, of being weaned down 
and better controlled over the years so that there is the kind 
of information, on both sides, about what the other side does 
that gives true mutual deterrence some real credibility.
    I'd like to ask the clerk that the 4 pages of the September 
9, 2009, JASON report be included in the record.
    [The information follows:]
          Lifetime Extension Program (LEP)--Executive Summary
                          1 executive summary
1.1 Study charge
    This study of the Life Extension Program (LEP) for deployed U.S. 
nuclear weapons responds to the following charge.
    ``NNSA requests that JASON study LEP strategies for maintaining the 
U.S. nuclear deterrent in the absence of underground nuclear testing. 
This should include:
  --``Study the certification challenges associated with changes, to 
        include accumulation of changes, made to a warhead \1\ during 
        its life.
---------------------------------------------------------------------------
    \1\ In this study ``warhead'' refers to the nuclear explosive 
package and associated non-nuclear components.
---------------------------------------------------------------------------
  --``Compare the assessment and certification challenges of different 
        LEP strategies ranging from refurbishment to replacement.
  --``Study proposed methods to measure the evolution of risk due to 
        multiple changes during warhead life and initiated in LEPs.
  --``Study how NNSA can mitigate risks while maintaining a safe, 
        secure and reliable nuclear deterrent. Comment on how the 
        overall balance and structure of science, technology, 
        engineering and production activities can be made to minimize 
        future risk to the stockpile.
  --``Study the accumulated risks and uncertainties of the current Life 
        Extension Program strategy. As already identified by a previous 
        JASON study, risk areas include:
    --``Linkage to UGT data,
    --``Manufacturing changes that may unavoidably result in 
            differences from the as-tested devices,
    --``Increased surety \2\ features, and
---------------------------------------------------------------------------
    \2\ Surety encompasses safety, security and use control.
---------------------------------------------------------------------------
    --``Thresholds to failure.''
    NNSA provided the following definitions:
    ``Refurbishment (current implementation of LEP).--Very generally, 
individual warhead components are replaced before they degrade with 
components of (nearly) identical design or that meet the same `form, 
fit, and function.'
    ``Warhead Component Reuse.--Refers specifically to the use of 
existing surplus pit and secondary components from other warhead types. 
Approach may permit limited warhead surety improvements and some 
increased margins.
    ``Warhead Replacement.--Some or all of the components of a warhead 
are replaced with modern design that are more easily manufacturable, 
provide increased warhead margins, forego no longer available or 
hazardous materials, improve safety, security and use control, and 
offer the potential for further overall stockpile reductions.''
1.2 Findings
    JASON was asked to assess the impacts of changes to stockpile 
warheads incurred from aging and LEPs. In response:
  --JASON finds no evidence that accumulation of changes incurred from 
        aging and LEPs have increased risk to certification of today's 
        deployed nuclear warheads
      This finding is a direct consequence of the excellent work of the 
        people in the U.S. nuclear weapons complex supported and 
        informed by the tools and methods developed through the 
        Stockpile Stewardship program. Some aging issues have already 
        been resolved. The others that have been identified can be 
        resolved through LEP approaches similar to those employed to 
        date. To maintain certification, military requirements for some 
        stockpile warheads have been modified. The modifications are 
        the result of improved understanding of original weapon 
        performance, not because of aging or other changes. If desired, 
        all but one of the original major performance requirements 
        could also be met through LEP approaches similar to those 
        employed to date.
  --Lifetimes of today's nuclear warheads could be extended for 
        decades, with no anticipated loss in confidence, by using 
        approaches similar to those employed in LEPs to date.
      The report discusses details and challenges for each stockpile 
        system.
    For each warhead, decisions must be made about including additional 
surety features. Findings regarding surety features are:
  --Further scientific research and engineering development is required 
        for some proposed surety systems.
  --Implementation of intrinsic \3\ surety features in today's re-entry 
        systems, using the technologies proposed to date, would require 
        reuse or replacement LEP options.
---------------------------------------------------------------------------
    \3\ i.e. inside the nuclear explosive package.
---------------------------------------------------------------------------
  --All proposed surety features for today's air-carried systems could 
        be implemented through reuse LEP options.
  --Implementation of intrinsic surety features across the entire 
        stockpile would require more than a decade to complete.
    Concerning methods for assessing evolution of risk and assessing 
the effects of multiple changes to a weapon, we find that:
  --The basis for assessment and certification is linkage to 
        underground test data, scientific understanding, and results 
        from experiment.
  --Quantification of Margins and Uncertainties (QMU) provides a 
        suitable framework for assessment and certification.
  --Increased scientific understanding enables reduced reliance on 
        calibration, enhanced predictive capability, and improved 
        quantification of margins and uncertainties.
    Regarding certification challenges for LEP strategies ranging from 
refurbishment to replacement, we find that:
  --Assessment and certification challenges depend on design details 
        and associated margins and uncertainties, not simply on whether 
        the LEP is primarily based on refurbishment, reuse, or 
        replacement.
    Concerning the overall balance and structure of science, 
technology, engineering and production activities, and how to mitigate 
risk to the stockpile, we find that:
  --Certification of certain reuse or replacement options would require 
        improved understanding of boost.
  --Continued success of stockpile stewardship is threatened by lack of 
        program stability, placing any LEP strategy at risk.
    Surveillance of stockpile weapons is essential to stockpile 
stewardship. Inadequate surveillance would place the stockpile at risk. 
We find that:
  --The surveillance program is becoming inadequate. Continued success 
        of stockpile stewardship requires implementation of a revised 
        surveillance program.
    We conclude this section with a concern. All options for extending 
the life of the nuclear weapons stockpile rely on the continuing 
maintenance and renewal of expertise and capabilities in science, 
technology, engineering, and production unique to the nuclear weapons 
program. This will be the case regardless of whether future LEPs 
utilize refurbishment, reuse or replacement. The study team is 
concerned that this expertise is threatened by lack of program 
stability, perceived lack of mission importance, and degradation of the 
work environment.
1.3 Recommendations
    Our recommendations are as follows:
  --Determine the full potential of refurbishment, as exemplified by 
        LEPs executed to date, for maintaining or improving the legacy 
        stockpile.
  --Quantify potential benefits and challenges of LEP strategies that 
        may require reuse and replacement, to prepare for the 
        possibility of future requirements such as reduced yield or 
        enhanced surety.
  --Strengthen and focus science programs to anticipate and meet 
        potential challenges of future LEP options, including 
        challenges associated with boost and surety science.
  --Revise the surveillance program so that it meets immediate and 
        future needs.
  --Assess the benefits of surety technologies in the context of the 
        nuclear weapons enterprise as a system, including technologies 
        that can be employed in the near term.

                     NATIONAL LABORATORY PERSONNEL

    Senator Feinstein. And I want to just read, quickly, the 
finding, one of them, ``JASON finds no evidence that 
accumulation of changes incurred from aging and LEPs' lifetime 
extension have increased risk to certification of today's 
deployed nuclear warheads.'' And it goes on to say that, ``The 
finding is a direct consequence of the excellent work of the 
people of the nuclear weapons complex, supported and informed 
by the tools and methods developed through the Stockpile 
Stewardship Program. Some aging issues have already been 
resolved. The others that have been identified can be resolved 
through LEP approaches similar to those employed to date.'' 
And, it goes on, and then it makes the statement, 
categorically, ``Lifetimes of today's nuclear warheads could be 
extended for decades with no anticipated loss in confidence, by 
using approaches similar to those employed in LEPs to date.''
    Now, what I'd like you to do, because you've raised the 
question several times with me, on beryllium and other things 
that are a hazard to the workforce, I'd like to get together 
with some of these technical JASONs, with you, and really 
explore that one issue. None of us want to put workers in 
danger----
    Mr. D'Agostino. Right.
    Senator Feinstein [continuing]. Of working around these 
warheads with chemicals in them that are highly toxic or are 
highly destructive. So, I want to understand that part of the 
issue better, if you would agree to that.
    Mr. D'Agostino. Absolutely, Senator. That would be great.
    Senator Feinstein. Thank you. The other thing that I've had 
occasion to do is visit the--some of the labs. And I would like 
to sit down with you on what you see the future mission of our 
labs to be----
    Mr. D'Agostino. Right.
    Senator Feinstein [continuing]. And particularly now that 
the private sector is heavily involved, and with some 
considerable cost, that has forced the layoff of nuclear 
scientists in large numbers at Los Alamos and in the other 
labs, as well. So, if we could have that meeting, as well, I 
would appreciate it very much.
    Mr. D'Agostino. That would be great, Senator, I'd love to.
    Senator Feinstein. Okay.
    Mr. D'Agostino. Thank you.

                       NATIONAL IGNITION FACILITY

    Senator Feinstein. Now, I want to talk about the NIF, if I 
might, a little bit. I had the pleasure of going.
    Mr. D'Agostino. Right.
    Senator Feinstein. And, as you know, it's a very 
impressive----
    Mr. D'Agostino. Right.
    Senator Feinstein [continuing]. Plant. And the prototype 
for a fission nuclear powerplant was obviously there and was 
mentioned by people who were briefing me. It's also my 
understanding that the National Academy of Science, and the 
National Academy of Engineering, are conducting a study on 
inertial fusion energy.
    Mr. D'Agostino. Right.
    Senator Feinstein. And the question is, whether this 
facility has the resources to provide the Academy with support 
and collateral information.
    So, my question is this. I am told that the NIF will not 
have funding to operate the facility, 24/7, that it is being 
reduced to 16 hours a day, 5 days a week, which obviously 
limits the type of research it can do. So, here's the question. 
Do you believe that Lawrence Livermore would need additional 
funding to develop a baseline design for the technologies 
required to translate successful demonstration of ignition, on 
NIF, into a practical powerplant for supplying sustainable, 
carbon-free baseload electricity?
    Mr. D'Agostino. Our program does not have--first of all, we 
don't have a baseline level of funding to do that, to convert 
what could come out of the NIF Facility into a powerplant. That 
is not part of our budget. However, the key on NIF is, get to 
ignition first, because that is the most important thing, for a 
number of reasons you pointed out--potential energy benefit--
there's a tremendous scientific benefit that that draws. I 
mean, being able to explore what happens to the materials under 
these extreme pressures and temperatures will be important, not 
just for weapons physics, but also for basic science. And 
third, we believe it's critical to get to ignition in order to 
effectively be able to provide that proof test on the stockpile 
itself. It will allow us to solve some very specific problems, 
that we can describe in a classified setting.
    But, the budget that we have before us doesn't have an 
aggressive inertial fusion energy component, as it's laid out 
before you. What we are doing, though, because--as we've 
committed to Congress for close to a decade now--is to conduct 
a credible ignition experiment this year. And ``credible'' 
means that we have no reason to believe it's not going to work. 
So, we're going to do that this year. And what we are working 
very closely on is that work plan once you achieve this, just, 
unbelievable scientific milestone--is both the scientific work 
that has to lay out--layer out on top of that to explore that 
energy pipeline that could potentially come out of this 
facility.
    Senator Feinstein. Is that included in the $481 million----
    Mr. D'Agostino. The----
    Senator Feinstein [continuing]. Amount.
    Mr. D'Agostino. The $481 million piece is to support the 
types of experiments--stockpile stewardship experiments that we 
need to have in order to make sure it addresses the science and 
the stockpile part of the NIF facility. There are components of 
that----
    Senator Feinstein. Is that a yes, or a no?
    Mr. D'Agostino. So, it's--no, it does not include inertial 
fusion energy--an aggressive inertial fusion energy program 
right now. What I will say is the Under Secretary for Science, 
Steven Koonin and I have talked about, you know, ``This is a 
big deal, this National Ignition Facility. How do we look at 
this, as a department--not just as NNSA, but as a department--
to address the energy piece of that?''
    Senator Feinstein. Yes, so was fusion energy.
    Mr. D'Agostino. Right. And the fusion energy sciences group 
in the basic science area--we do have an international 
commitment on the ITER project, out in France. But, we 
recognize that ignition changes lots of things; success at 
Livermore changes lots of things. So, we're going to be looking 
very closely at, how does the Department bring the Office of 
Science and the NNSA together in a way that can capitalize on 
this tremendous capability? We literally had the meeting----
    Senator Feinstein. So----
    Mr. D'Agostino [continuing]. Yesterday.
    Senator Feinstein [continuing]. What does that mean, in 
terms of this year and the budget? If I understand you, you're 
saying we can't do it under the $481 million.
    Mr. D'Agostino. Well ma'am, no, no I think--you've got it--
the $481 million gets us to that first milestone.
    Senator Feinstein. The first test?
    Mr. D'Agostino. That gets us to the test and running 
experiments. Because there's no way that, you know, inertial 
fusion energy makes any sense at all if you can't get to 
ignition and you can't understand it better. And so, the $481 
million a year, plus whatever the year-by-year, goes out on 
that--I don't know if I have the specifics in front of me 
here--will actually operate that facility, will exercise our 
scientists, will prove ignition works, will address stockpile 
stewardship problems. And in order to do the component that 
we're all interested in, as well, this energy piece, which I 
think has the great potential, we have to put together a 
program on top of that. But, to say we know what it's going to 
be, on--for energy purposes, right now, is--it's just way too 
early, because we haven't achieved ignition yet.
    Senator Feinstein. So, this cutback on hours for operation 
of the lab, how does that help achieve what you're trying to 
achieve?
    Mr. D'Agostino. I wasn't aware of a 24/7 versus a 5/16. I'm 
going to look into that----
    Senator Feinstein. Okay.
    Mr. D'Agostino [continuing]. Though, after this testimony--
--
    Senator Feinstein. Right.
    Mr. D'Agostino [continuing]. And try to get a better--I'll 
get an----
    Senator Feinstein. Could----
    Mr. D'Agostino [continuing]. Answer----
    Senator Feinstein [continuing]. You let me----
    Mr. D'Agostino [continuing]. To that.
    Senator Feinstein [continuing]. Know?
    Mr. D'Agostino. Absolutely.
    Senator Feinstein. I'd appreciate that----
    Mr. D'Agostino. Yes, ma'am.
    Senator Feinstein [continuing]. Very much. Let me see----
    Mr. D'Agostino. Yes. I'd like----
    Senator Feinstein [continuing]. What else----
    Mr. D'Agostino [continuing]. To do that.
    Senator Feinstein [continuing]. Because--when I went to the 
lab and actually looked and actually talked to people there, 
you know, the spark that's just turned on. I mean, ``What 
if''----
    Mr. D'Agostino. Right.
    Senator Feinstein [continuing]. ``It's possible?''----
    Mr. D'Agostino. Right.
    Senator Feinstein [continuing]. Is a very thrilling ``what 
if.''
    Mr. D'Agostino. Yes.
    Senator Feinstein. So----
    Mr. D'Agostino. Yes, ma'am.
    Senator Feinstein [continuing]. I think it's worth pursuing 
to see whether it's possible or not.
    Mr. D'Agostino. We'll do that. And I think it may be 
worth--if you're amenable to both Under Secretary Koonin and I 
giving you a full-up integrated response on this question of 
inertial fusion energy, and NIF, and what does it mean in the 
out years--we'll write that up, as well as--we'd be happy to 
come up and talk to you or members of the staff--subcommittee 
staff.
    Senator Feinstein. All right. It just--bottom line, my 
interest, on the military side, is really to see that we do not 
become proliferators----
    Mr. D'Agostino. Right.
    Senator Feinstein [continuing]. That we, by our actions, do 
not give anyone else the ability to develop new nuclear 
weapons.
    Mr. D'Agostino. Yes, ma'am. That's right. And the great 
thing about NIF is, it allows us to test--excuse me--to test 
the small components in a laboratory, and not do underground 
testing. That's why we----
    Senator Feinstein. That's right.
    Mr. D'Agostino [continuing]. That's why we want the NIF.
    Senator Feinstein. That's right.
    Mr. D'Agostino. So, we want to stay away from this question 
of underground testing, as far away as we can.
    Senator Feinstein. Great. Thank you very much.
    Mr. D'Agostino. Thank you, ma'am.
    Senator Feinstein. Thank you, gentlemen.
    Thanks, Mr. Chairman.

                        NUCLEAR NONPROLIFERATION

    Senator Dorgan. Senator Feinstein, thank you very much.
    Let me ask a question that I referred to briefly in my 
opening statement, and it is about the sums of money that we 
spend on security upgrades and radiation detection equipment, 
for example, in Russia and other countries. What happens after 
we withdraw? We make the investment, we help that country 
provide some additional security, and then we withdraw. What 
kind of concern do we have about sustaining these upgrades? Can 
you give me some notion of where we are on that?
    Mr. D'Agostino. Sure. Why don't I start, and then I'll ask 
Mr. Black to provide some additional detail.
    This question of sustainability of security upgrades has 
been on the forefront, particularly as we get closer to 
completing our overall job in Russia, at least from the 
implementation standpoint. The job is never really going to 
ever end, because it will require, just like any type 
infrastructure investment, constant observations and looking at 
it, the like.
    The fiscal year 2011 request that you have in front of you 
gets us to finishing the installation. I believe we have 19 
more sites. We're about 92 percent done in Russia with, kind 
of, that baseline plan.
    Senator Dorgan. Can you describe to me what you're doing at 
a site; just generally.
    Mr. D'Agostino. It will involve--generally, it involves 
doing a security assessment, with the Russians, of what's 
required at a particular site, what the vulnerabilities are, 
whether there's an insider threat or whether we have an 
external physical security threat; and then working with them 
to design upgrades, whether they're cameras, fences, you know, 
technology, and integrating those; and purchasing that and then 
working with them to install.
    Steve, do you want----
    Senator Dorgan. These are the production sites, right?
    Mr. D'Agostino. Well, I wouldn't call them ``weapons 
production sites.'' We don't have access to those, just yet. 
But, the material sites, yes.
    Senator Dorgan. Weapon materials.
    Mr. Black. Right. These are all in the--in what's called 
the Rosatom Weapons Complex. We're working at seven large 
facilities right now, as the Administrator said; 19 buildings, 
in particular. And the sorts of things we're doing is 
increasing the strength of doors; we're putting in central 
alarm stations; we're putting in PIDASs, Perimeter Intrusion 
Detection Alarm Systems, helping strengthen guard forces, 
reactive forces, and the like. Those are fairly typical 
security upgrades.
    And, in terms of sustainability, what we are doing is, we 
are turning over--developing, with each site individually, 
individualized sustainability plans, because some of these 
sites have their own revenues. They may be factories and they 
produce other things for the Russian economy, and they may have 
their own revenue stream. But, in some cases, these facilities 
don't have enough budgets. And so, what we're trying to do is 
develop with them a clear understanding of all of the things 
that are needed to maintain that security investment at that 
particular site, so each site has its own joint sustainability 
plan, there are specific milestones, and we're working with the 
Russians to make sure that they develop regulations----
    Senator Dorgan. What is the number of sites?
    Mr. Black. Total?
    Senator Dorgan. Yes.
    Mr. Black. So, let me----
    Mr. D'Agostino. We've done 221 in Russia----
    Mr. Black. Well, those are the second line of defense 
sites.
    Mr. D'Agostino. Oh, right, right.
    Mr. Black. Let me get the information for you and bring it 
back, because I want to give you an accurate answer. It's 
readily available, it's just not in my head and----
    Senator Dorgan. All right.
    Mr. Black [continuing]. Won't be able to find it quickly.
    Senator Dorgan. All right.
    Mr. Black. I do want to make the point, though, that we 
have variable degrees of cooperativeness with our Russian 
partners. They're not all the same. In the case of the Russian 
Customs Service we have a cost-sharing agreement with the 
Customs officials. And so, the Russians bear half the cost of 
all of the second-line-of-defense facilities that are being put 
in Russia; 170, 175 of those facilities will be paid for 
completely by the Russians.
    The reason the cost-sharing is important is because it's an 
indication of how committed to the task, in the first place, 
the Russian host is. In the case of the Ministry of Defense 
nuclear sites, they have been far more receptive to maintaining 
security upgrades at roughly two dozen facilities than has 
Rosatom. But, we're working very closely with Rosatom, as I 
said, and we're making some progress.
    Senator Dorgan. All right.
    Mr. Black. Does that help?

                    MANAGING LIFE EXTENSION PROGRAMS

    Senator Dorgan. Finally, let me ask about the B61 life-
extension programs there. It's, as I'm told, three times the 
number of components that need to be replaced than the W76; 
there's about $190 million requested to study the reuse or 
remanufacture of nuclear components. You're considering a 
compressed schedule for it. My understanding is, the first 
refurbished B61 would be completed by 2017.
    Mr. D'Agostino. Right.
    Senator Dorgan. So, it's complicated, complex. You know, we 
went down the road, with the W80, and spent a fair amount of 
money on refurbishment activities--I think, close to $500 
million--before canceling that program. So, you think the B61 
is a critically important program, and you think that, as 
complicated as it is, we're not going to make the same mistake 
that we had with the W80?
    Mr. D'Agostino. Yes, sir. I think it's--it is a critically 
important program. It--you know, the early analysis, from our 
NPR and working with the Defense Department and folks in the 
interagency, have said that that will be a component. I'll ask 
the General at the right--when I'm done with my comments--
maybe, to jump in and provide some specifics, if he could.
    Absolutely, you're right. There are more components than 
the W76. That's because the 76--I mean, just the warhead, the 
bomb, is--we're responsible for the whole device. The 
approaches that we're looking at, though, will allow us to--and 
I believe--and the key is, exercising the people and getting 
them into the work necessary to maintain the stockpile. And so, 
I believe, by--my discussions with Tom Hunter, at Sandia 
National Laboratories, which have the majority of the work 
here, and talking with Los Alamos director, Mike Anastasio, 
they feel very comfortable that their workforce is up to the 
task.
    In essence, we've started some of this thinking already, in 
the study phase. And this is what we're asking for, is to 
continue and finish that study phase on the B61 bomb. When 
we're done with that study phase, just like a construction 
project, we will want to lock down with commitments on both the 
laboratory's part, as well as my part, as representing the 
NNSA, on the exact cost, scope, and schedule for that facility. 
The important thing is the 2017 date.
    And then, General, if you can talk to some of the specifics 
there.
    General Harencak. Yes, sir.
    That's one of the major requirements of the Department of 
Defense, is ASAS--NNSA to accomplish the life-extended B61 by 
2017. That is an aggressive, yet certainly--we are committed to 
it, and we will get it done. A key to that, though, is a 
complete and full study of it, and that's what we're asking to 
complete as soon as possible.
    Our entire enterprise is going to be focused in defense 
programs. Amongst all the things we do our top two priorities 
of getting things done is going to be the completion of W76, as 
we said, and getting this life-extended B61. This is an analog 
bomb. It's the cornerstone of our air-delivered weapon. It is 
essentially our only one. It needs to become a digital weapon 
so it could mate with the F35 for extended-deterrence reasons. 
That's the 2017 date on that. It's a first-production unit. The 
F35, regardless of when there are initial operating dates for 
that program, is irrespective of what we need to do. Our 
milestone that we must complete is to deliver a life-extended 
B61 by 2017. In order to do that, we have to start yesterday. 
And we started yesterday. But, we need to complete this study. 
It is very large--as you see in our budget, that we're 
requesting a big lift for B61. And that essentially gets to 
very quickly locking down how we're going to take this analog 
bomb and make it digital; also, how we're going to improve its 
surety and its safety features, which are vitally important.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Dorgan. All right. We are going to submit a number 
of written questions to you.
    Senator Feinstein, do you have additional questions?
    Senator Feinstein. I don't believe so, at this time.
    Senator Dorgan. All right.
    Senator Feinstein. Thank you, though.
    Senator Dorgan. Well, then we will be submitting additional 
questions, Mr. D'Agostino. We appreciate very much your team 
being here, and your being here. And obviously this is a lot of 
money.
    Mr. D'Agostino. Yes, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted by Senator Byron L. Dorgan
                     nuclear weapons design changes
    Question. Increases in funding for nuclear weapons science, 
technology and engineering point to developing capabilities to modify 
the design of existing weapons and understand the changes. For example, 
a $48 million increase for plutonium sustainment allows NNSA to 
manufacture pits for primaries and quadrupling of funding for advanced 
certification will develop NNSA's tools to certify changes to the 
nuclear package of existing nuclear weapons.
    Does NNSA have plans to modify the design of nuclear weapons? If it 
does, what is driving the needs for those changes?
    Answer. NNSA will give strong preference, when proceeding with 
engineering development for Life Extension Programs (LEPs), to options 
for refurbishment or reuse. Replacement of nuclear components would be 
undertaken only if critical Stockpile Management Program goals could 
not otherwise be met, and if specifically authorized by the President 
and approved by Congress. LEPs will use only nuclear components based 
on previously tested designs, and will not support new military 
missions or provide for new military capabilities. Upgrading and/or 
replacing limited life components (LLCs), such as the neutron 
generators, is considered a relatively routine maintenance activity to 
preserve the weapons' viability. Numerous aging mechanisms, including 
corrosion and adhesive bonding failure, raise concerns relative to non-
nuclear components and weapon system performance. Often times, 
replacing materials, which are no longer attainable or usable because 
they have been deemed unsafe or environmentally damaging are included 
as part of an LEP. Other drivers include replacing or adding features 
to improve the safety and security of the stockpile, such as by 
replacing conventional high explosives with insensitive high 
explosives.
    Question. How do you reconcile the needs for changes with the 
JASONs conclusion in its 2009 report that the lifetimes of today's 
nuclear warheads could be extended for decades without significant 
changes to their designs?
    Answer. NNSA is in agreement with the JASON's conclusion that the 
lifetimes of today's nuclear warheads could be extended without 
significant changes to their designs. To increase the safety, security, 
and effectiveness of our nuclear arsenal, NNSA plans to upgrade limited 
life components (LLCs) and materials, and incorporate more surety--
safety, security, and use control--technology, whenever possible, 
through LEPs. LLCs reaching their end-of-life will be upgraded with 
LLCs that have longer expected lifetimes, Certain materials will be 
upgraded with more attainable materials. Each weapon system will be 
evaluated on a case-by-case basis and the best technological approach, 
from a full spectrum of options, will be applied.
    Question. To what extent would modifying the design of primaries 
and secondaries introduce more risk than maintaining them in their 
current condition?
    Answer. NNSA, through LEPs, will use only nuclear components based 
on previously tested designs. Any modifications to the Nuclear 
Explosive Package (NEP) would allow for the introduction of surety 
features, if feasible, to reduce the risk of accidental or deliberate 
unauthorized use of a nuclear weapon.
    Question. To what extent are potential design changes consistent 
with the congressionally authorized Stockpile Management Program?
    Answer. The congressionally authorized Stockpile Management Program 
allows for the extension of the effective life of nuclear weapons. 
NNSA, through LEPs, plans to increase the reliability of our nuclear 
weapons stockpile by upgrading to longer life LLCs and more readily 
available and compatible materials. Increases in safety, security, and 
use control through the incorporation of additional surety features 
whenever possible, and if feasible, will reduce the risk of accidental 
detonation and also reduce the risk of an element of the stockpile 
being used by a person or entity hostile to the United States, its 
vital interests, or its allies. Because the Nuclear Posture Review 
directs that strong preference be given to options for refurbishment or 
reuse, upcoming and future LEPs will produce modified weapons that 
remain comparable to their original underground nuclear tested designs 
to ensure certifiability, and will consider the possibility of using 
the resulting warhead on multiple platforms allowing NNSA to achieve 
reductions in the future size of the nuclear weapons stockpile.
                       b61 life extension program
    Question. Mr. D'Agostino, the B61 Life Extension Program (LEP) is 
going to be very challenging. The B61 has three times the number of 
components that need to be replaced than the W76. In fiscal year 2011, 
NNSA is asking for about $190 million to study the reuse or 
remanufacture of nuclear components. Despite these challenges, NNSA is 
considering a compressed schedule for engineering and design work to 
manufacture the first refurbished B61 by 2017.
    Given the complexity of the program, is the 2017 date realistic?
    Answer. The Nuclear Weapons Council, in 2008, established the 2017 
first production unit (FPU) date based on the need to replace several 
non-nuclear components that are approaching end-of-life and to prevent 
capability gaps in the U.S. extended nuclear deterrence. The Nuclear 
Posture Review later recommended that the full range of options, 
including safety and surety enhancements, be considered to extend the 
life of a given warhead. The 2017 FPU is achievable provided time-
critical technology maturation activities are funded in fiscal year 
2010 and fiscal year 2011 prior to the start of Phase 6.3 engineering 
development work in fiscal year 2012. To address B61 technology risks, 
NNSA is requesting $252 million in fiscal year 2011, which is split 
between the non-nuclear and nuclear study activities ($136 million) and 
B61 first use, technology maturation work targeted to advance readiness 
levels to enable the 2017 FPU ($116 million).
    Question. Are you confident that you are not introducing 
unnecessary risk with this accelerated schedule?
    Answer. Yes. The NNSA augments the weapon system acquisition 
process with Integrated Phase Gates (IPGs). IPGs use a systems-
engineering approach to bring rigor, accountability, and cross-
functional integration by using management reviews at key decision 
points and involving production agencies early in the design process. 
NNSA incorporated IPGs based on lessons learned from previous life 
extension programs (LEPs) and to address GAO findings and Congressional 
concerns about LEP management.
    NNSA can manage the risk for the B61 schedule if required 
technologies are brought to the appropriate level of readiness prior to 
beginning engineering development in fiscal year 2012. Furthermore, in 
fiscal year 2012, the Nuclear Weapons Council will review the readiness 
of key technologies and associated risks prior to authorizing the next 
phase of development.
    Question. Is there a clear nuclear deterrent mission need for the 
B61 life extension program?
    Answer. The recently-released Nuclear Posture Review (NPR) affirms 
the importance of the B61 in fulfilling air-delivered strategic and 
extended deterrent capabilities.
                    managing life extension programs
    Question. Mr. D'Agostino, a number of GAO reports have found that 
NNSA has not effectively managed cost, schedule, and technical risks 
for the last three life extension programs--the W87, B61, and W76--and 
that NNSA has not established realistic schedules to complete these 
projects.
    To what extent has NNSA improved its ability to manage cost, 
schedule and technical risk?
    Answer. NNSA is applying corrective acquisition management measures 
to the current B61 Life Extension Program (LEP) Phase 6.2 Study. These 
measures were communicated in NNSA's Management Decision letter of 
March 12, 2009, in response to the Government Accountability Office 
(GAO) report GAO-09-152C, ``Nuclear Weapons: NNSA and DOD Need to More 
Effectively Manage the Stockpile Life Extension Program.'' NNSA has 
made progress on improving the approach to requirements, risk, cost, 
and schedule management through an improved implementation of the joint 
DOD-NNSA acquisition process for nuclear weapons refurbishments.
    Question. Based on NNSA's current plans, by 2017, NNSA will be 
completing the W76 life extension, starting the B61 life extension, 
preparing for the W78 life extension, possibly increasing weapons 
dismantlement based on treaty obligations, and continuing surveillance 
of aging nuclear weapons. How does NNSA plan to manage these many 
activities concurrently, especially when it has not previously managed 
more than one life extension at one time?
    Answer. Trade studies are conducted to assess the need for specific 
NNSA capabilities and facilities. As part of these trade studies, DOD 
is involved in assessment of life extension priorities. NNSA is also 
currently assessing workload in technical maturation and life extension 
studies across the nuclear complex and will likely be making workload-
balancing assignments to optimize execution of multiple life extension 
activities. Through the early 2000s, NNSA managed the B61 ALT 357, W76, 
and W80 life extension programs concurrently.
    Question. To what extent will the nuclear weapons production 
plants--Pantex, Y-12, and Kansas City--be able to manage this increase 
in workload when they already face resources and infrastructure 
constraints?
    Answer. In conjunction with the life extension studies, trade 
studies are being conducted to assess the refurbishment options, along 
with overall workload evaluations on the NNSA production facilities and 
their capacities. For instance, a Canned Subassembly (CSA) reuse study 
is currently underway for the B61 life extension study that may 
ultimately minimize the amount of work and resources that will be 
needed at Y-12 for this LEP. Also, as part of the enhanced acquisition 
risk management approach to the B61 life extension study, production 
readiness risks have been identified at the Kansas City Plant and 
funding priority has been given to minimize these risks by the B61 LEP 
program management team.
    Question. To what extent does the fiscal year 2011 budget help the 
production plants prepare for increased activities?
    Answer. As part of the fiscal year 2011 budget request, the 
Science, Technology, and Engineering Campaigns and stockpile services 
were funded at a level to mature the development and manufacturing of 
technologies needed for Life Extension Programs. In addition, the life 
extension program management team has given priority to the 
complementary funding needed for technical maturation at the national 
laboratories and plants.
                          nuclear surveillance
    Question. Mr. D'Agostino, the fiscal year 2011 budget request adds 
about $50 million to increase surveillance activities for each weapon 
system in the stockpile.
    To what extent is this increase in funding sufficient to address 
the JASON's concerns?
    Answer. Based on the National Laboratory Directors and the JASON 
recommendations for a more robust surveillance program, an increase of 
$50 million was added for each year split among the weapon programs to 
sufficiently enable the accomplishment of weapons systems surveillance 
requirements.
    Question. How have you modified the surveillance program and how do 
you maintain confidence that the new approach will identify any 
emerging problems as weapons age?
    Answer. In 2007, NNSA modified the surveillance testing approach 
through the Surveillance Transformation Project. NNSA took action to 
reduce the number of system test activities across all weapon programs, 
while increasing the actual number of component tests that look for 
age-related degradations. The design agencies reviewed their component 
testing programs and increased requirements in that area. NNSA also 
experienced new requirements for non-destructive evaluations and 
modeling and simulation techniques and capabilities. In prior fiscal 
years, NNSA was able to identify some funding within the base program 
to support the increase in component testing and development of new 
surveillance diagnostic techniques and capabilities; however, the $53 
million in increased funding included in the fiscal year 2011 request 
for surveillance activities will allow NNSA to make significant 
progress on the Surveillance Transformation Project.
    In addition, NNSA reorganized the surveillance enterprise structure 
to improve the alignment of the organizations responsible for the 
development of surveillance requirements all the way up to those 
responsible for programmatic and budgetary decisions. Emphasis has been 
placed on better integration and communication of requirements and 
prioritization of activities across weapon programs and all sites. This 
was another issue raised by the JASON study.
                       national ignition facility
    Question. Mr. D'Agostino, in January 2009, the JASONs criticized 
NNSA for failing to implement a ``critical recommendation'' they issued 
in 2005 to improve oversight and management of the National Ignition 
Campaign.
    Has NNSA implemented the recommendation by establishing both an 
advisory committee to review scientific and technical issues and an 
advisory committee to review how NIF will be shared by different users?
    Answer. As recommended by the JASON review and endorsed by NNSA, 
LLNL has formed an advisory group (Chaired by Dr. Alvin Trivelpiece) to 
review the progress of the National Ignition Campaign. This group has 
had one meeting and will be producing a preliminary report soon. NNSA 
has also taken initial steps to form a Federal Review Committee with a 
charter that will include all of weapons science and technology. This 
committee will review the use of NNSA facilities as shared national 
resources. Finally, NNSA has also formed a Planning Council whose 
purpose is to formulate a detailed plan for weapons experimental 
activities for all users at all NNSA facilities.
    Question. If not, why has it taken more than 5 years to implement 
this recommendation?
    Answer. The NNSA is implementing the recommendation.
                 weapons dismantlement and disposition
    Question. Mr. D'Agostino, funding for weapons dismantlement and 
disposition is declining in fiscal year 2011.
    Is NNSA reducing the pace of dismantlements?
    Answer. No, the pace of dismantlements remains consistent with our 
commitment to dismantle all currently retired weapons by 2022. However, 
the dismantlement rate varies depending on the complexity of the weapon 
types scheduled for dismantlement. Some weapons require considerably 
more effort and time than others to dismantle. In recent years, NNSA 
exceeded its planned dismantlement rates due to investments in 
efficiencies and additional funding from Congress. Consequently, NNSA 
has some flexibility in adjusting resource commitments in the near 
term. NNSA remains committed to dismantle all currently retired weapons 
by 2022.
    Question. Is a funding decrease consistent with the backlog of 
retired weapons awaiting dismantlement and potentially more after the 
START treaty is signed?
    Answer. NNSA's planned fiscal year 2011 dismantlement funding 
aligns with our schedule to dismantle all currently retired weapons by 
2022. The NNSA will review the details of the New START treaty and 
ensure we take appropriate action to support the commitments made by 
the President. The schedule and planning through 2022 will need to be 
adjusted if additional dismantlements are to be added to the workload 
within that timeframe.
                            nonproliferation
    Question. From fiscal year 1993 through fiscal year 2010, DOE has 
spent more than $2 billion to provide security upgrades and other 
related assistance to nuclear weapon sites in Russia and other 
countries. In fiscal year 2011, NNSA requested more than $200 million 
to complete this work with the last year of funding for these programs 
in fiscal year 2012.
    How will NNSA ensure that Russia will maintain these security 
upgrades once the United States withdraws?
    Answer. The funds requested will be used to support nuclear 
security improvements to areas where NNSA has recently been granted 
access, continue to maintain the systems we have installed over the 
period of our program, and tackle the challenge of reducing the risk to 
theft by an insider.
    At the same time, NNSA is doing all it can to help Russia take over 
financial responsibility. For the past several years, NNSA has been 
working with our Russian partners, primarily the State Corporation for 
Atomic Energy, ``Rosatom,'' to ensure that they are prepared to sustain 
our sizeable investment in the long-term. NNSA and Rosatom have agreed 
to a Joint Transition Plan which identifies the fundamental 
requirements for sustainable nuclear security programs, and joint 
projects that will be undertaken over the next few years to ensure 
these fundamental requirements are in place. Rosatom officials have 
told NNSA counterparts repeatedly that they understand maintenance of 
these systems in the long run is their responsibility, however, we 
believe the added costs for maintenance are being passed on to sites 
and are not being funded through Russia's Federal budget. Regarding the 
Ministry of Defense, it has informed us that it will take over full 
financial responsibility for sustaining permanent warhead sites (11 
sites with DOE-funded upgrades, 18 sites with DOD-funded upgrades), and 
that the Kremlin has promised necessary funds will be made available. 
MOD is expecting to receive funding in April 2010 for this 
sustainability work.
    The success of these efforts ultimately depends on Russia's 
willingness and ability to devote the necessary resources. We hope that 
the Russian Government will increase its nuclear security budget and 
ensure that these funds are efficiently distributed to the hundreds of 
nuclear facilities across the vast Russian territory. The Russian 
nuclear security budget is classified and we have not yet seen much 
evidence of increases in funding at sites where we are working.
    Question. Funding for the gap nuclear material remove program jumps 
from $9 million to $108 million or 12 times more funding than fiscal 
year 2010. How does NNSA plan to spend this significant increase in 
funding for this program and what are the challenges in spending this 
money?
    Answer. This activity supports the removal and disposal of 
vulnerable, high-risk nuclear materials that are not covered by the 
Russian-origin and U.S.-origin Nuclear Material Remove activities. This 
includes U.S.-origin HEU other than TRIGA and MTR fuel, HEU of non-
U.S.- and non-Russian-origin, and separated plutonium. These activities 
collectively support President Obama's April 5, 2009 Prague speech in 
which he called for an international effort to secure all vulnerable 
nuclear material around the world within 4 years, which was further 
strengthened in the July 2009 Joint Statement resulting from the Moscow 
Summit and the September 2009 UNSC Resolution 1887. In accordance with 
these goals, GTRI is accelerating the return of Gap material from third 
countries.
    In fiscal year 2011, GTRI will remove or facilitate disposition of 
an additional 161 kilograms of Gap HEU and plutonium from several 
countries, resulting in a cumulative total of 301 kilograms of HEU and 
plutonium removed, enough material for more than 10 nuclear weapons. 
Funds will also be used for preparatory activities for removals planned 
for 2012.
    Additionally, in fiscal year 2011 GTRI will focus a large portion 
of its funding on HEU spent fuel removals since we have completed most 
of the HEU fresh fuel removals. Spent fuel removals are more expensive 
than the fresh fuel removals because the radioactivity of the fuel 
requires specialized casks and remote operations.
                         second line of defense
    Question. Funding for the Second Line of Defense (SLD) core 
program, which involves installing radiation detection equipment at 
borders in Russia, former Soviet states, Eastern Europe and other key 
countries is doubling to $140 million to complete another 55 sites.
    Have countries at these 55 sites already agreed to install this 
equipment?
    Answer. The 55 sites are based on our current planning and 
represent our best projection of the sites at which we will be working. 
We already have agreements in place to partner with all but two of the 
countries, and we have every reason to believe that we will sign these 
additional agreements in the near future, certainly before fiscal year 
2011.
    Question. Are these sites the highest priority sites to combat 
nonproliferation?
    Answer. Based on our threat analysis, we believe that all these 
sites are high priority for receiving SLD support.
    Question. How will the United States ensure that these countries 
will properly maintain the equipment after it is installed?
    Answer. SLD's Sustainability Program is designed to ensure the 
long-term operation of SLD systems by Host Country Partners. To this 
end, SLD works closely with Host Country Partners to develop their 
indigenous capabilities so that we may fully transition SLD systems to 
their support. SLD and Host Country Partners agree on joint transition 
plans in which milestones for the turnover of training, maintenance, 
and oversight responsibilities (including budget planning) are 
formalized.
    During this transition phase, the SLD Program provides maintenance 
technicians, training experts, and Sustainability leads to work with 
Host Country Partners to develop their indigenous capabilities. For 
maintenance, SLD provides training, tools, and spare parts to ensure 
equipment remains operable. Maintenance is usually performed by local 
contractors and includes scheduled maintenance and calibration as well 
as urgent or unscheduled repairs. In addition, Pacific Northwest 
National Laboratory (PNNL) provides support on training transition to 
the Host Country Partners. PNNL has also established a Help Desk to 
provide support to local maintenance providers and host nation 
counterparts in the event of an issue with a system that cannot be 
resolved at the local level. Through the Help Desk, the program can 
provide remote expertise or deploy experts from the United States if 
needed to repair a system if needed.
    Question. Has DOE addressed GAO's concerns about corruption of some 
foreign border security officials, technical limitations of some 
radiation detection equipment, inadequate maintenance of some 
equipment, and the lack of supporting infrastructure at some border 
sites?
    Answer. The Second Line of Defense Program addresses corruption 
through two main approaches. First, radiation portal monitors are 
networked to central alarm stations (CAS) at the sites. Should an alarm 
sound or a monitor be disabled, the CAS operator is automatically 
notified. In most sites, this means that more than one individual is 
engaged in resolving alarms and would be aware if a monitor were 
disabled or ignored. This increases the chance that corrupt actions 
could be observed and countered. In addition, the SLD Core Program has 
begun integrating the sites into nationwide networks reporting to 
central officials (usually in the nation's capital). Should a high-
priority alarm be generated at a site, or a monitor disabled, other 
border security officials would become aware and could investigate and 
validate the actions of the officials at the border crossings. 
Integration projects are underway in Russia (where the Customs Service 
is paying for half the installation) and Georgia. Networking is planned 
to begin in one more country in 2011.
    SLD also collaborates with other international organizations, 
notably the EU and IAEA on training, in addition to the extensive 
training that SLD provides directly to the partner country as part of 
the implementation process. SLD believes that this training contributes 
to strengthening the recipient organizations and building a strong 
cadre of committed customs and border management officials.
    The radiation detection equipment SLD Core provides has been proven 
over time to be robust, relatively easy to maintain, and effective in 
detecting special nuclear material (SNM) under limited shielding 
scenarios. A knowledgeable individual can shield SNM from the passive 
radiation detection equipment we provide. However, we believe that the 
equipment that SLD provides is the best and most appropriate detection 
system currently available for the type of detection activities being 
carried out. The equipment is carefully installed and its settings 
optimized to maximize its effectiveness against SNM.
    The SLD Program funds maintenance and sustainment contracts that 
provide for calibration of the equipment it provides. Responsibility 
for funding maintenance and sustainability transitions to the recipient 
country after an agreed upon period of time, generally 3 years but 
longer if necessary. A description of how SLD maintains equipment is 
provided in the answer to the previous question.
    In most cases, infrastructure exists to provide electricity and 
security for the radiation portal monitors. In many cases, back up 
power generators are provided to ensure that short-term power outages 
do not adversely impact the monitors. In cases where sites are not 
manned year round, or there is insufficient infrastructure, SLD may 
provide handheld devices in lieu of permanently installed systems.
                 u.s. and russian plutonium disposition
    Question. The United States is negotiating an agreement with Russia 
in which the United States would provide $400 million to support 
plutonium disposition in Russia and Russia would pay the other $2 
billion. The fiscal year 2011 budget asks for the first $100 million 
U.S. commitment.
    What is the status of the U.S.-Russia protocol to dispose of 
weapons grade plutonium?
    Answer. On March 11, the U.S. and Russian lead negotiators 
initialed the conformed English and Russian texts of a Protocol to 
amend the 2000 Plutonium Management and Disposition Agreement (PMDA). A 
set of associated monitoring and inspections key elements was also 
approved in mid-March. The United States and Russia are scheduled to 
sign the Protocol in mid-April.
    Question. What are the terms of U.S. financial support and what 
would Russia have to do before we release the first $100 million and 
the other $300 million?
    Answer. The United States will spend the $100 million in the fiscal 
year 2011 budget request once the amended PMDA and associated liability 
provisions enter into force (expected in fall 2010 once the Russian 
Duma ratifies the amended PMDA). DOE has developed a notional plan for 
spending $300 million of the $400 million based on a ``milestone 
approach'' to move Russia toward beginning disposition in 2018. Under 
the ``milestone approach,'' the United States would provide funding 
once Russia has fully completed a milestone and U.S. experts have 
verified such completion. The remaining $100 million will be paid to 
Russia on a pro rated basis for each metric ton of plutonium verified 
to have been irradiated and disposed (e.g., approximately $2.7 million 
per metric ton).
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                            nuclear weapons
    Question. The President has requested $11.2 billion for the 
National Nuclear Security Administration, a 13.4 percent increase from 
fiscal year 2010. This includes a request of $7 billion for Weapons 
Activities, an increase of $624 million from fiscal year 2010. In your 
testimony and in the recent op-ed by Vice President Joe Biden, the 
administration has argued that the funding requests reflects the 
President's vision of a nuclear free world and his commitment to 
stopping the spread of nuclear weapons efforts and maintaining the 
safety and security of our arsenal without nuclear testing.
    Are you concerned that our allies and adversaries will view the 
massive increase in spending on our nuclear weapons arsenal as an 
indication that the United States is not serious about a nuclear-free 
world?
    Answer. As President Obama articulated in his April 2009 speech in 
Prague, the United States is committed to achieving a world without 
nuclear weapons. While this is a long-term objective, the President 
expressed his intent to take concrete steps to make it possible. 
Several of these steps have already been taken.
  --Critically, the United States and Russia have already reduced the 
        number of deployed strategic nuclear warheads by about 75 
        percent, and the signing of New START agreement will take these 
        numbers even lower.
  --Moreover, the Nuclear Posture Review deemphasizes the role of 
        nuclear weapons in U.S. national security strategy.
  --However, as long as nuclear weapons exist, the United States is 
        committed to maintaining safe, secure, and effective nuclear 
        forces in order to deter potential adversaries and assure U.S. 
        allies and partners.
  --The increase in spending will allow NNSA to modernize the 
        infrastructure and sustain the science, technology, and 
        engineering base. By revamping the complex, we will be able to 
        consolidate activities, and respond more effectively to 
        unanticipated future threats. This will not only assure that 
        our stockpile remains safe, secure and effective, but the 
        reinvestment will in fact also facilitate further nuclear 
        reductions by sustaining the confidence in the active weapon 
        systems and lower the need for a large reserve stockpile. 
        Continued investment in the nuclear complex will also enhance 
        our ability to stem nuclear proliferation and nuclear 
        terrorism.
    Question. How does the President's request square with his view 
that the United States should lessen the importance of nuclear weapons 
in our national security strategy?
    Answer. The President's request is consistent with his view that 
investments in the nuclear security enterprise are required to lessen 
the importance of the nuclear weapons in our national security 
strategy.
  --By maintaining a credible nuclear deterrent and reinforcing 
        regional security architectures with missile defenses and other 
        conventional military capabilities, we can reassure our non-
        nuclear allies and partners worldwide of our security 
        commitments to them and confirm that they do not need nuclear 
        weapons capabilities of their own.
  --By pursuing a sound Stockpile Management Program for extending the 
        life of U.S. nuclear weapons, we can ensure a safe, secure, and 
        effective deterrent without the development of new nuclear 
        warheads or further nuclear testing.
  --By modernizing our aging nuclear facilities and investing in human 
        capital, we can substantially reduce the number of nuclear 
        weapons we retain as a hedge against technical or geopolitical 
        surprise, accelerate dismantlement of retired warheads, and 
        improve our understanding of foreign nuclear weapons 
        activities.
    Question. How will the President's request impact our efforts to 
strengthen the Nuclear Nonproliferation Treaty at the May 2010 review 
conference?
    Answer. The President's request for increased investment 
demonstrates our commitment to nuclear nonproliferation efforts. This 
bolstered the United States' position to lead the effort to strengthen 
the Nonproliferation Treaty at the May 2010 review conference.
    In last year's Prague speech, the President laid out his vision for 
ultimately achieving a world without nuclear weapons, supported by a 
system of enhanced nonproliferation controls and a new international 
civil nuclear framework. The President's budget request enhances DOE's 
efforts to strengthen both the U.S. nuclear disarmament record of 
achievement and the credibility and reliability of the U.S. nuclear 
deterrent as a stabilizing influence as we proceed toward a nuclear 
weapon free world. The President's budget request will, among other 
benefits, allow the Department of Energy to continue with its planned 
nuclear dismantlement activities and support the provisions of the 
recently completed New START Treaty. The budget request will also help 
the Department to continue to transform the DOE Nuclear Weapons Complex 
to a smaller weapons complex that consolidates activities at fewer 
sites while allowing the United States to better respond to existing 
and credible potential challenges. These changes will provide the 
framework to allow the United States to go to lower numbers of nuclear 
warheads in the stockpile.
    Question. Mr. D'Agostino, as you know, I have long opposed the 
production of new nuclear weapons by the United States. It is 
unnecessary and harms our nuclear nonproliferation efforts. During the 
presidential campaign President Obama said: ``I will not authorize the 
development of new nuclear weapons.'' The President did not request any 
funding for the Reliable Replacement Warhead program in fiscal year 
2010 and on a conference call with reporters last month you said that 
``RRW is dead, it is over.''
    Can you confirm that the fiscal year 2011 budget request does not 
contain any funding for the Reliable Replacement Warhead program or any 
new-design warheads?
    Answer. Yes. I can confirm that the fiscal year 2011 budget request 
does not contain any funding for the Reliable Replacement Warhead 
program or any new-design warheads. Per the Nuclear Posture Review, the 
administration is focused on maintaining the stockpile through Life 
Extension Programs.
    Question. If the NNSA fiscal year 2011 budget does not include any 
funding for new-design nuclear weapons, is it accurate to say that you 
and the directors of the national labs agree that for the foreseeable 
future the effectiveness of our nuclear arsenal can be maintained into 
the indefinite future through Life Extension Programs?
    Answer. Yes, the Laboratory Directors and I agree that our nuclear 
arsenal can be maintained into the indefinite future through Life 
Extension Programs (LEPs). The full range of LEP approaches will be 
considered on a weapon-by-weapon basis. The Nuclear Posture Review 
states, ``In any decision to proceed to engineering development for 
warhead LEPs, the United States will give strong preference to options 
for refurbishment or reuse. Replacement of nuclear components would be 
undertaken only if critical Stockpile Management Program goals could 
not be otherwise met, and if specifically authorized by the President 
and (funding is) approved by Congress.''
    Question. Mr. D'Agostino, I was pleased to see the recent report of 
the JASONS, the independent scientific body, which found that the 
United States can maintain our existing nuclear arsenal for decades 
with our existing Life Extension Programs. This is great news.
    In your view, does this report close the door, once and for all, on 
a Reliable Replacement Warhead-like program that would produce a new 
nuclear warhead?
    Answer. NNSA does not foresee the need to develop a new nuclear 
warhead. Each weapon system will be evaluated on a case-by-case basis 
in order to determine which Life Extension Program option best 
preserves the weapon's effectiveness, safety, and security. The Nuclear 
Posture Review makes the point very clearly, ``The United States will 
not develop new nuclear warheads. Life Extension Programs will use only 
nuclear components based on previously tested designs, and will not 
support new military missions or provide for new military 
capabilities.''
    Question. How will the Nuclear Posture Review influence the size of 
the reductions in each nation's stockpile?
    Answer. The Nuclear Posture Review conducted detailed analysis to 
determine an appropriate limit on nuclear warheads and strategic 
delivery vehicles.
  --As an initial step, the administration is committed to working with 
        Russia to preserve stability at significantly reduced nuclear 
        force level, through the New Strategic Arms Reduction Treaty 
        (New START), which will replace the expired 1991 START I 
        Treaty.
  --New START sets significant mutual limits in deployed strategic 
        nuclear warheads, well below that 2,200 allowed under the 
        Strategic Offensive Reductions Treaty, also known as the Moscow 
        Treaty, which expires in 2012.
  --The United States agreed with Russia to New START limits of 1,550 
        accountable strategic warheads, 700 deployed strategic delivery 
        vehicles, and a combined limit of 800 deployed and non-deployed 
        strategic launchers.
  --The Nuclear Posture Review also calls for reinvesting in the 
        nuclear security enterprise's intellectual and physical 
        infrastructure. This additional investment will not only assure 
        that our stockpile remains safe, secure and effective, but will 
        also facilitate further nuclear reductions by sustaining the 
        confidence in the active weapon systems and lower the need for 
        a large reserve stockpile.
    Question. Given the substantial commitment to maintaining the 
safety and reliability of the nuclear arsenal as reflected in the 
President's budget request for the NNSA, can we go even lower?
    Answer. The New START Treaty has been signed. The President has 
directed a review of potential future reductions in U.S. nuclear 
weapons below New START levels, but the pace of further reductions has 
yet to be determined. The Nuclear Posture Review states, ``Russia's 
nuclear force will remain a significant factor in determining how much 
and how fast we are prepared to reduce U.S. forces. Following 
ratification and entry into force of New START, the administration will 
pursue a follow-on agreement with Russia that binds both countries to 
further reductions in all nuclear weapons. Because of our improved 
relations, the need for strict numerical parity between the two 
countries is no longer as compelling as it was during the cold war. But 
large disparities in nuclear capabilities could raise concerns on both 
sides and among U.S. allies and partners, and may not be conducive to 
maintaining a stable, long-term strategic relationship, especially as 
nuclear forces are significantly reduced. Therefore, we will place 
importance on Russia joining us as we move to lower levels.'' \1\
---------------------------------------------------------------------------
    \1\ Nuclear Posture Review Report, April 2010, Page 30.
---------------------------------------------------------------------------
                    nuclear nonproliferation efforts
    Question. I firmly believe that ratification of the Comprehensive 
Test Ban Treaty is critical to reclaiming U.S. leadership in the 
nuclear nonproliferation field and bringing us closer to a world free 
of nuclear weapons. I am pleased that the Obama administration has made 
ratification of this treaty a priority.
    How does the President's budget request support ratification of the 
Comprehensive Test Ban Treaty? Is there sufficient funding for 
implementation and verification?
    Answer. The President's budget request reflects his commitment to 
maintaining the nuclear deterrent without nuclear testing and is 
consistent with the principles of the Stockpile Stewardship Management 
Plan submitted to Congress. This budget reinvests and recapitalizes the 
nuclear security infrastructure--including in its science, technology 
and engineering human capital base--essential for assuring that the 
stockpile is safe, secure and effective. The President's arms control 
and non-proliferation policies require these investments so that the 
Nation is confident that its reduced nuclear stockpile is safe, secure, 
and effective, without having to resort to nuclear testing.
    The President's budget request also supports CTBT ratification 
because it invests in a robust, science-based Stockpile Stewardship 
Program (SSP). SSP is the key program that provides the Nation the 
assurance that the stockpile is safe, secure, and effective without 
underground nuclear testing. SSP is also the essential program for 
managing long-term risks to the stockpile as it ages, protecting 
against technological surprises, and supporting nuclear 
nonproliferation technology development. The SSP sustains the science, 
technology, and engineering expertise and exercises the talent for the 
development of next-generation technologies for proliferation 
prevention-related nuclear missions, including nuclear forensics, 
detection, and verification technologies. A sustained science base will 
provide the ability to respond to the challenge of meeting requirements 
that may result from the New START or CTBT treaties.
    While today's SSP capabilities are supplanting--and even 
surpassing--the role that nuclear tests once played in understanding 
our nuclear weapons, the President's fiscal year 2011 budget request 
will also allow us to revitalize the workforce, sustain the stockpile, 
and modernize key parts of the physical infrastructure.
    Question. I applaud your commitment to supporting President Obama's 
goal of securing all vulnerable nuclear material from around the world 
within 4 years.
    What do you need from Congress to meet this goal? What programs 
will be involved? What are the key challenges?
    Answer. Congressional support for our budget requests is a critical 
element to ensuring that we meet the President's goal of leading an 
international effort to secure all vulnerable nuclear materials within 
4 years.
    A number of programs within the Office of Defense Nuclear 
Nonproliferation play a direct role in implementing the work necessary 
to meet this goal. The Offices of International Material Protection and 
Cooperation and Global Threat Reduction lead the effort to secure 
vulnerable nuclear materials from theft or sabotage worldwide. The 
Global Threat Reduction Initiative seeks to permanently eliminate the 
threat by converting research reactors and isotope production 
facilities from the use of highly enriched uranium (HEU) to low 
enriched uranium (LEU) and by removing or permanently disposing of 
excess nuclear material. Finally, the Office of Nonproliferation and 
International Security plays a vital role in strengthening the 
international system that ensures that nuclear sites worldwide have 
adequate safeguards measures in place.
    The primary challenge that NNSA faces is cooperation of foreign 
governments. The United States cannot unilaterally eliminate the threat 
posed by dangerous materials and we therefore rely heavily on 
cooperation from many international partners. In addition to the 
activities outlined above, the Office of Defense Nuclear 
Nonproliferation has been actively involved in various initiatives 
undertaken to bolster U.S. leadership in nonproliferation and arms 
control, such as the 2010 Nuclear Security Summit, the Joint Statement 
from the Moscow Summit in July 2009, and the September 2009 United 
Nations Security Council (UNSC) Resolution 1887.
                       national ignition facility
    Question. Mr. D'Agostino, some assert that the National Ignition 
Facility may be a prototype for a fusion nuclear powerplant some day. I 
understand that the National Academy of Sciences and the National 
Academy of Engineering are conducting a study on Inertial Fusion Energy 
in part to explore the viability of that vision.
    Do you agree that the results of this study could be enhanced if 
the National Ignition Facility is able to provide the Academy with 
extensive analysis and testing?
    Answer. While I agree that the National Ignition Facility (NIF) 
will ultimately play a central role in any program designed to evaluate 
concepts for inertial fusion energy, I do not believe that specific new 
experimental work will be required for the current National Academies 
study. The National Academies panel has been asked to assess the 
prospects for Inertial Fusion Energy (IFE) as a power source; to 
identify scientific and engineering challenges, cost targets and 
research and development objectives associated with developing an IFE 
demonstration plant; and to advise the DOE on an R&D roadmap aimed at 
creating a conceptual design for such a demonstration assuming success 
in ignition at NIF as a starting point. This will be a wide-ranging 
assessment that will look at various schemes for target physics and 
component technologies beyond those currently being investigated as 
part of the National Ignition Campaign and will depend primarily on 
existing computational and experimental studies of the various 
approaches. The most important task for NIF, in support of the study, 
is to achieve ignition as soon as possible since the prospects for 
development of inertial fusion for energy applications is dependent 
upon achievement of this critical milestone. The current schedule for 
this is already quite aggressive.
    Question. Do you believe that Lawrence Livermore National Lab would 
need additional funding to provide the Academy with such testing and 
analysis?
    Answer. Specific funding has not been provided to the laboratories 
to support such studies in the past, but they may use their 
discretionary research funding to support work they deem necessary for 
their participation. If funding was directed to support analysis and 
testing in support of the National Academies study, a mechanism would 
have to be identified to ensure equitable access to all potential 
participants and thus all potential IFE alternatives in the study.
    Question. Could the NAS's ability to make sound technical judgments 
on the potential of Inertial Fusion Energy be impaired due to the lack 
of technical development of the trade-offs of various design approaches 
if it does not have full access to NIF testing?
    Answer. Because the NAS has been asked to help establish an R&D 
roadmap for IFE based upon the current state of maturity of the 
relevant science and technology, it is not likely that their 
conclusions could be impacted by testing prior to the achievement of 
ignition. The most important question that NIF will address relevant to 
the National Academies study is the demonstration of ignition, which is 
already the focus of the National Ignition Campaign. All of the nascent 
international efforts on IFE are also planning based on the U.S. 
Inertial Confinement Fusion program being the lead on the actual 
demonstration of ignition.
    Question. Do you believe that developing Inertial Fusion Energy 
should be part of the mandate of the NNSA, the DOE Office of Science, 
or both? Why do you believe this?
    Answer. Through leadership of the three Department of Energy Under 
Secretaries, and reporting through Under Secretary Koonin, we have an 
internal DOE study to assess several areas of research and development 
that currently cut across departmental organizations. We have chosen to 
include inertial fusion energy in those assessments because of its 
potential, and we will use this process to consider when and how to 
recommend to Congress that a modified program might be established.
    Question. Mr. D'Agostino, a year after completion of construction 
of the National Ignition Facility, NNSA has proposed an operations 
budget that may not permit Lawrence Livermore National Lab to run this 
facility full time.
    Do you agree that after making this sort of capital investment, 
NNSA should provide the resources necessary to operate the facility 24 
hours a day, 7 days a week?
    Answer. NNSA's requested funding provides for 24-hour-a-day, 7-day-
a-week (24/7) operations at NIF. A very careful experimental plan has 
been formulated for the period through the first attempts at ignition. 
In this plan, the most efficient experimental shot sequence was deemed 
to be about 16 hours-per-day/5 days-per-week (16/5) with the overall 
NIF operations staff remaining on a 24/7 status. This plan is also more 
compatible with the continuing installation of sophisticated equipment 
since the facility operations schedule must allow adequate time to 
ensure safety during maintenance and installation of experimental 
equipment.
    In the early experimental operation of NIF, the shot sequence was 
10 hours-per-day/7 days-per-week. NIF is currently in the process of 
installing sophisticated cryogenic (and other) equipment that will 
enable DT-layered target operation. After this installation period, NIF 
will begin the 16/5 shot sequence that is believed to be optimum for 
the very complex targets that will be utilized for many of the shots.
    Question. Mr. D'Agostino, at our hearing, you emphasized that it is 
very important to focus on getting to ignition at NIF, before putting 
too much work into next steps predicated on successful ignition. 
However, I am told that scientists in other countries are barreling 
ahead with their work ``assuming ignition,'' and that we risk falling 
behind as a result.
    Are you concerned that we could fall behind other countries in this 
area due to our caution? Please explain.
    Answer. The Department of Energy is a world leader in inertial 
confinement fusion research, and the National Ignition Facility gives 
the United States an unparalleled capability to undertake this 
research. Our aggressive plan for ignition will lay the basis for the 
rest of the world to pursue research in inertial fusion energy, with 
reliance on U.S. development of critical technology such as diode-
pumped laser systems. A similar facility called Laser Mega Joule is 
expected to eventually provide a French capability to pursue ignition, 
but the United States is in the unique position to pursue this major 
scientific achievement now. Current European plans for Inertial Fusion 
Energy are at a formative stage and will not involve significant 
activity until about 2020. Our scientists are certainly aware of the 
worldwide activities in this area, and I am not concerned that we could 
fall behind other countries is this area in the foreseeable future.
    The U.S. ICF Program is actively pursuing the application of 
ignition to the crucial needs of the weapons program. With respect to 
the Inertial Fusion Energy application, the National Academy of 
Sciences has been asked to provide an analysis of the best directions 
to follow after the achievement of ignition. We anticipate using the 
NAS Panel report (an early draft will be available in less than 1 year) 
as a key component in planning for the application of ignition to 
energy issues.
                               llnl study
    Question. Mr. D'Agostino, in 2007 a private consortium began 
operating Lawrence Livermore National Lab. I still question the logic 
of having a private contractor run national nuclear labs as for-profit 
corporations. Is NNSA willing to conduct a thorough review of whether 
this privatization effort has produced significant benefits to the 
productivity of our national labs''?
    Answer. Yes. NNSA is currently sponsoring the study that was 
mandated in the fiscal year 2011 National Defense Authorization Act to 
be conducted by the National Academies of Science. The study, to be 
conducted in two phases, each by a separately appointed committee, will 
provide an independent external review of the following for the 
Lawrence Livermore, Los Alamos, and Sandia National Laboratories:
  --The quality of the scientific research being conducted at the 
        laboratory, including research with respect to weapons science, 
        nonproliferation, energy, and basic science.
  --The quality of the engineering being conducted at the laboratory.
  --The criteria used to assess the quality of scientific research and 
        engineering being conducted at the laboratory.
  --The relationship between the quality of the science and engineering 
        at the laboratory and the contract for managing and operating 
        the laboratory.
  --The management of work conducted by the laboratory for entities 
        other than the Department of Energy, including academic 
        institutions and other Federal agencies, and interactions 
        between the laboratory and such entities.
    Phase 1 will address elements 4 and 5 of the Statement of Task and 
aspects of element 3. A separate committee will be formed for Phase 2, 
which will address elements 1 and 2 of the Statement of Task and 
aspects of element 3.
    The report from the NAS is expected to be complete in January 2012.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
                           weapons activities
                              surveillance
    Question. Mr. D'Agostino, the budget request states that funding 
has been restored to fully execute the surveillance program.
    What is the budget for surveillance, and how does that amount 
compare to fiscal year 2010? Is this enough to make the surveillance 
program ``whole''?
    Answer. In fiscal year 2011, NNSA requests $66 million directly for 
Enhanced Surveillance. Within Directed Stockpile Work (DSW), there is 
over $300 million dedicated to surveillance activities, including the 
DSW base capability for conducting surveillance in stockpile services 
and the specific weapon surveillance activities in stockpile systems. 
For comparison, the fiscal year 2010 appropriation authorized $69 
million directly for Enhanced Surveillance and approximately $200 
million dedicated to surveillance activities in DSW.
    Based on NNSA's actions to do surveillance smarter and more 
efficiently, the fiscal year 2011 request provides an adequate and 
balanced surveillance portfolio.
                         plutonium sustainment
    Question. Mr. D'Agostino, the budget request includes a $50 million 
increase for Plutonium Sustainment to restore the capability to produce 
10 pits per year.
    What happened to this capability? Wasn't it achieved in fiscal year 
2007?
    Answer. The NNSA successfully produced 11 W88 pits in fiscal year 
2007. The funding in 2007 was $165 million which was the level 
necessary to attain and maintain the capability to produce up to 10 
pits per year. However, fiscal year 2008 and fiscal year 2009 funding 
levels were $135 million and $143 million, respectively, which resulted 
in the capability not being fully maintained as intended and necessary 
infrastructure investments to be deferred. The increase of $50 million 
will restore the funding levels to maintain this capability back to its 
required level and will also support development of a Defense Programs 
power supply mission. The increase will support upgrades and new 
equipment items. Additionally, as part of our Plutonium Sustainment 
mission, NNSA will work with LANL to revise and update equipment layout 
in Plutonium Facility 4 to streamline the pit production process that 
is co-located with existing Research and Development activities.
                                  firp
    Question. When Congress authorized the Facilities and 
Infrastructure Recapitalization Program (FIRP) to buy-down legacy 
deferred maintenance backlog, it was designed as a finite program with 
a congressionally-mandated end in fiscal year 2013. Yet the full scope 
of legacy deferred maintenance has not been bought down and newly 
deferred maintenance has accumulated. Why has adequately maintaining 
infrastructure been such a problem for NNSA? What would NNSA do with 
additional FIRP funds if the program were extended or succeeded?
    Answer. When FIRP was authorized, NNSA determined that an 
acceptable goal for deferred maintenance reduction was on the order of 
$1.2 billion, which was 5 percent of the value to replace the physical 
infrastructure. This level should provide a facility condition 
equivalent to the best managed Federal and private sector campuses.
    FIRP was designed to be completed by fiscal year 2011. Annual 
funding for FIRP remained on track through fiscal year 2005 and 
resulted in sizable reductions of deferred maintenance across the 
complex through the completion of high priority projects supporting the 
Stockpile Stewardship Mission. Thereafter, weapons activity funding for 
facility maintenance and deferred maintenance reduction struggled in 
the face of reduced appropriations. The direct impact of fewer annual 
dollars slowed the progress of deferred maintenance reduction. In light 
of these challenges Congress authorized in the extension of FIRP to 
fiscal year 2013 and the $1.2 billion goal was reduced to $900 million.
    If additional funds were provided, the NNSA would continue its goal 
of to reduce deferred maintenance to industry standards based on the 
annual increases furnished. Additional funds would be prioritized to 
address unfunded deferred maintenance projects, as well as to further 
support the Facility Disposition subprogram, which has been restarted 
this year because of the growing need to dedicate resources 
specifically to dismantle and dispose of excess deactivated facilities. 
When the FIRP Facility Disposition subprogram ended in fiscal year 
2008, it had successfully demolished more than 3,100,000 gross square 
feet of excess facilities.
                           tritium readiness
    Question. Mr. D'Agostino, NNSA is facing significant technical 
challenges in its Tritium Readiness Program that have caused the 
Tennessee Valley Authority to limit the number of Tritium Producing 
Burnable Absorber Rods in its reactor (thus affecting the amount of 
Tritium produced for extraction).
    Is NNSA taking any action to develop alternative Tritium production 
processes to the current plan to produce tritium at commercial light 
water reactors?
    Answer. No other alternative to producing tritium in commercial 
light water reactors is being considered at this time. NNSA and TVA 
entered into an interagency agreement in the year 2000 which called for 
TVA to perform irradiation services for NNSA using any of the following 
reactors; Watts Bar Unit 1, Sequoyah Units 1 and 2. Under the 
interagency agreement, NNSA notifies TVA of its irradiation 
requirements and TVA decides how best to accomplish the irradiation, 
specifically, which reactors will be used to accomplish the irradiation 
services. To date TVA has met all requirements through the use of Watts 
Bar Unit 1 only. TVA has taken and will continue to take steps to get 
Sequoyah ready for potential future irradiation services.
    TVA produces tritium for NNSA through the irradiation of Tritium 
Producing Burnable Absorber Rods (TPBARs). Although TPBARs have been 
experiencing higher than expected permeation rates of tritium into the 
reactor coolant system, TVA has maintained levels below its regulatory 
limits to ensure public health and safety. NNSA and TVA are developing 
plans to continue to meet NNSA tritium requirements using only the 
Watts Bar reactor, however, the Sequoyah reactors would also be 
available as backups, if necessary.
    Even with the challenges the program faces, the production of 
tritium at commercial light water reactors remains the best means to 
produce tritium.
                        physical security budget
    Question. The budget request calls for a decrease for Defense 
Nuclear Security by $49 million or 6 percent. The decrease is 
attributed to implementation of the Graded Security Protection (GSP) 
Plan and to ``The Deputy Secretary's Security Reform Initiative.''
    How has implementation of the GSP already effectuated security cost 
savings and what are they?
    Answer. The issuance of the Department's 2008 GSP Policy, which 
replaced the 2005 Design Basis Threat (DBT) Policy, has enabled the 
National Nuclear Security Administration (NNSA) to take advantage of 
cost avoidances tied to the DBT implementation plans, as well as cost 
savings associated with ongoing site security operations. In terms of 
cost avoidances, the 2008 GSP Policy allowed NNSA to eliminate 
approximately $195.6 million in unnecessary one-time security upgrades 
that were contained in the site DBT implementation plans. In addition, 
NNSA was able to avoid over $30.2 million in recurring annual costs 
associated with unneeded additional protective force personnel 
connected to 2005 DBT implementation plans. This has yielded a total 
cost avoidance of over $419.6 million from the startup period of the 
DBT implementation plan in 2008, through the duration of the fiscal 
year 2012-2016 Future Years Nuclear Security Program. In addition to 
these cost avoidances, NNSA is working to find efficiencies for current 
Category I nuclear security operations through the Zero-Based Security 
Review (ZBSR) initiative. Under the ZBSR, NNSA is collaborating with 
other organizations within the Department of Energy (DOE) and the 
Department of Defense (DOD) to pilot an innovative GSP Implementation 
Assistance Visit (GSP-IAV) approach that provides a strong Federal-
Contractor partnership in developing and implementing robust security 
programs that provide an acceptable level of risk and are consistent 
across the NNSA nuclear security enterprise and with others that have 
similar security missions. In our first field trial of the GSP-IAV, 
conducted at the Nevada Test Site, we have identified significant 
potential cost savings associated with protecting the Device Assembly 
Facility (DAF)--while maintaining exceptionally high protection levels 
for the facility. We are in the process of more fully evaluating these 
proposed changes before making any final decision on implementation. 
Our plans are to conduct GSP-IAV activities at all Category I NNSA 
sites by the end of this fiscal year. We are confident that 
efficiencies we expect to gain through the NNSA ZBSR initiative will 
enable us to meet fiscal year 2011 funding targets for safeguards and 
security while providing a strong security posture consistent with the 
Department's GSP policy.
    Question. What is ``The Deputy Secretary's Security Reform 
Initiative''--is this the ``Zero-Based Security Review'' you discussed 
in your testimony? How does this generate cost savings?
    Answer. The Deputy Secretary's Security Reform Initiative and the 
ZBSR are separate but closely connected activities. The Deputy 
Secretary issued a challenge to the Department to reform the security 
program and develop innovative approaches to security that were capable 
of maintaining high levels of security but also eliminated unnecessary 
costs and productivity drains associated with low-value security 
requirements and/or security administration activities. The ZBSR is the 
NNSA's answer to the Deputy's challenge and since June 2009, NA-70 has 
been working closely with NNSA field sites and the Office of Health, 
Safety and Security (HSS) to comprehensively reexamine our security 
requirements and implementation expectations. The ZBSR has identified 
and will implement improvements to reduce both security costs and 
mission impacts, while maintaining very high levels of protection for 
our critical national security assets. The NNSA ZBSR approach is 
consistent with DOE management reform principles and is strongly 
supported by both the Federal and contractor communities.
    NNSA's security reform initiative is built along three main tracks: 
(1) reforming security policy; (2) reforming the Category I nuclear 
security program; and (3) improving the governance of the Federal and 
contractor security assessment programs.
  --Using field-led teams, NNSA has developed four draft security 
        ``standards'' covering Information Security, Physical 
        Protection, Protective Forces, and Program Management & 
        Planning. The standards will document NNSA expectations for 
        implementing existing DOE directives that are tailored to our 
        nuclear security enterprise.
    --The ZBSR teams used a ``first-principles'' approach to ensure 
            that security requirements meaningfully contribute to the 
            goal of protecting national security assets and actually 
            reduce security risks. The teams also focused on driving 
            consistency with current national standards into the core 
            set of NNSA security requirements.
  --For high-consequence nuclear security operations, NNSA is working 
        closely with HSS and DOD in piloting an innovative risk 
        assessment approach that is fully consistent with the new DOE 
        Graded Security Protection (GSP) policy. The pilot will focus 
        on a peer-reviewed assessment of adversary scenarios and risk 
        informed security response options.
    --NNSA is working to improve the management structure for our 
            nuclear security operations. This includes developing new 
            approaches for making senior-level, risk-informed decisions 
            on matching security capabilities to meet credible threats 
            and determining the necessary and sufficient investments 
            for nuclear security operations. This initiative is closely 
            aligned with the Committee of Principals (CoP) task to more 
            closely align DOD and NNSA nuclear security approaches.
    --As a compliment to improving our risk management processes, the 
            Office of Defense Nuclear Security (DNS) is also working on 
            a standardization initiative to improve the efficiency of 
            NNSA nuclear security operations. This effort will involve 
            the use of the NNSA Supply Chain Management Center (SCMC) 
            as a common sourcing and procurement mechanism, and will 
            provide cost savings through the standardization of 
            protective force uniforms, shields, and select items of 
            security equipment. In addition to the SCMC approach to 
            leveraging larger buys, DNS has coordinated with DOD's 
            Joint Munitions Command to be able to buy ammunition from 
            their contracts. Savings are realized both in unit price as 
            well as avoidance of site overhead taxes--which can exceed 
            50 percent at some sites. For ammunition not available 
            through DOD, the Service Center will set up contracts with 
            commercial vendors at pre-negotiated prices for all sites 
            to be able to order from.
  --Due to the self-regulatory nature of the NNSA security program, 
        both line management oversight and Independent Oversight will 
        be needed in this new model to provide feedback on performance 
        and provide assurance to all stakeholders that NNSA can 
        effectively perform its vital national security missions. 
        Enhancing contractor assurance systems are a major focus in 
        improving our performance assurance processes. We will all 
        continue to ensure that we have the right level of Federal 
        oversight provided by NNSA Site Offices. Additionally, NNSA is 
        working with HSS to ensure that the Office of Independent 
        Oversight will continue to provide us with extremely valuable 
        feedback on the effectiveness of our security program.
    Question. Can you assure us these cost savings measures do not have 
a detrimental effect on security?
    Answer. Absolutely, physical security remains a core NNSA mission 
capability and we will continue to focus on this area in the future. 
NNSA is working closely with the Department to ensure our security 
reform initiatives are carefully targeted to eliminate unnecessary 
costs and remove barriers to improving the productivity of our national 
security mission, while maintaining the highest standards for the 
protection of our critical national security assets. We intend to 
carefully monitor the implementation of our reform efforts and will be 
working to improve the capabilities of our site office Federal staff to 
provide comprehensive oversight of the contractor's implementation of 
our security program requirements. In addition, we are partnering with 
the HSS organization to find innovative ways to strengthen Independent 
Oversight activities as well as improve our ability to apply inspection 
lessons-learned across the NNSA enterprise.
                    defense nuclear nonproliferation
    Question. In the fiscal year 2011 budget the significant funding 
increase requested for U.S. Surplus Fissile Material Disposition is 
largely due to the consolidation of 3 major construction projects in 
this account: the Mixed Oxide Fuel Fabrication Facility (MOX), the Pit 
Disassembly and Conversion Facility (PDCF), and the associated Waste 
Solidification Building (WSB) for these facilities.
    What are the technical reasons for combining this project with the 
Office of Environmental Management Plutonium Preparation project?
    Answer. Potential programmatic, life cycle, and schedule advantages 
that would result from combining NNSA's PDCF project with EM's 
Plutonium Preparation (PuP) project include:
  --Cost avoidance for surplus plutonium disposition program;
  --Avoidance of expenditures for the design, construction, operation, 
        and decontamination and demolition of an additional secure, 
        Hazard Category 2 nuclear facility;
  --Greater program and schedule flexibility through an incremental 
        approach to project execution;
  --Cost avoidance at PANTEX by establishing early surplus pit storage 
        at SRS; and
  --Load leveling of Secure Transportation resources.
    Question. Will PDCF be operational in time for the MOX facility to 
operate without pause?
    Answer. DOE has planned for PDCF to begin operations several years 
after the start-up of the Mixed Oxide (MOX) Fuel Fabrication Facility 
(MFFF). To fill the feedstock gap, DOE is relying on several options 
including: (1) disassembling surplus pits at LANL (ARIES) in order to 
produce at least 2 metric tons of plutonium oxide for MFFF; (2) 
processing 7.8 metric tons of additional non-pit material suitable for 
MFFF feedstock currently under the jurisdiction of the Office of 
Environmental Management at the Savannah River Site; (3) working with 
nuclear utilities interested in irradiating MOX fuel to adjust the 
quantity and timing of initial fuel deliveries; and (4) planning to 
start-up limited processes in the PDCF to produce early feedstock for 
MFFF.
    Question. The fiscal year 2011 budget request includes $100 million 
for Russian Surplus Fissile Material Disposition to meet a portion of 
the U.S. $400 million pledge. Additional funds to fulfill this pledge 
are not included in the FYNSP. When are requests anticipated? How did 
NNSA determine that $100 million was needed this year? What will it pay 
for and over how long?
    Answer. DOE is requesting $100 million in fiscal year 2011 to 
demonstrate to Russia that the United States is serious about 
fulfilling our $400 million commitment and to begin work that will 
enable Russia to start disposition in 2018 as called for in the amended 
Plutonium Management and Disposition Agreement (PMDA). Work to be 
undertaken includes removing part of the BN-600 reactor that breeds 
plutonium, configuring the BN-800 reactor to operate as a burner rather 
than a breeder of plutonium, establishing a capability to fabricate 
surplus weapon-grade plutonium into MOX fuel, and establishing a 
monitoring and inspection regime. Additional funding will be sought 
once DOE and Rosatom reach agreement on areas of U.S. assistance and 
once the majority of the initial $100 million has been costed. We 
anticipate that the last $100 million increment of the $400 million 
will be requested over a number of years beginning in fiscal year 2018 
timeframe to be paid to Russia on a pro rated basis for each metric ton 
of plutonium disposed of (e.g., approximately $2.7 million per metric 
ton).
                             human capital
    Question. How does NNSA ensure that the nuclear enterprise (Federal 
and management and operation contractors) sustains the skills needed 
for current and future missions-including those skills needed for 
currently inactive missions, such as test readiness?
    Answer. The NNSA and its Management and Operating (M&O) contractors 
proactively pursue the development of the next generation nuclear 
security enterprise workforce.
  --A robust Stockpile Stewardship Program (SSP) provides key 
        opportunities to attract and retain the science, technical, and 
        engineering workforce. SSP promotes skill-building and 
        exercising of talent by conducting, for example, complex 
        integrated experiments at the Nevada Test Site, and on the 
        major NNSA facilities, such as the National Ignition Facility 
        (NIF), Dual-Axis Radiographic Hydro-test Facility (DARHT), 
        Joint Actinide Shock Physics Experimental Research (JASPER), 
        and Z--the pulsed power machine.
  --In addition, active life extension programs, such as the B61 LEP, 
        further exercise the full spectrum of development work, from 
        advanced and exploratory concepts through product realization, 
        and develop the critical intuition, judgment and confidence 
        present only in experienced scientists and engineers who have 
        applied their skills to real nuclear weapons design and 
        development work. This work is essential to attracting and 
        retaining the scientists and engineers necessary to sustain the 
        Nation's nuclear deterrent.
  --Critical skills for less active missions must also be maintained. 
        The Underground Nuclear Weapon Test readiness program is an 
        example. Test-readiness skills are exercised through major 
        science experiments at the Nevada Test Site and the Sub-
        Critical experiments that take place in U1a, an underground 
        tunnel system.
  --Further, knowledge preservation programs have been in place since 
        the end of nuclear testing, archiving underground test data, 
        countless documents, and hundreds of videotaped interviews to 
        ensure that should a decision be made to resume nuclear 
        testing, the skill mix needed will be readily reconstituted.
    Question. How have external programs and activities (``work for 
others'') helped or hindered the enterprise to sustain critical skills?
    Answer. The nuclear complex has a long history of performing 
strategically aligned work for others (WFO) programs with the express 
intent of maximizing the technical value to the NNSA and to other 
agencies in meeting their national security mission requirements. NNSA 
and WFO programs not only help sustain existing critical competencies 
and technologies, but enable the development and maturation of new 
leading edge science, technology, and associated critical skills that 
would otherwise not be possible. Examples of NNSA mission critical 
capabilities that provide benefit to and receive benefit from aligned 
WFO programs include:
  --Materials (including energetic and non-energetic material design, 
        synthesis, testing, and characterization from the nano- to the 
        macro-scale);
  --Information science & technology (including the full range of 
        modeling, simulation, visualization, and knowledge-creating 
        integration of large data sets to maintain exquisite 
        situational awareness, perform intelligence assessments, or 
        make science-based predictions of complex systems);
  --Science of signatures (including nuclear forensics, integrated 
        systems for remote modeling, detection of nuclear and 
        radiological material, and the prevention of technological 
        surprise); and
  --Systems engineering (low volume production against stringent 
        safety, security, and reliability requirements throughout an 
        extended service life, robust command and control, exacting 
        performance in challenging diverse environments).
    Regardless of funding source, work such as advanced supercomputing, 
fundamental material science, design and production of unique 
microelectronics and subsystems, and deployment of fully engineered 
systems (e.g., B61 LEP, nonproliferation systems, satellites) exercises 
the full spectrum of science, technology, and engineering skills of the 
Nuclear Security Enterprise on an ongoing basis to the joint benefit of 
NNSA and WFO agencies. Additionally, the diverse and demanding 
technical work portfolio enables the Nuclear Security Enterprise to 
attract and retain the best talent in many critical skill areas.
    Question. To date, how does NNSA identify critical skill gaps at an 
enterprise-wide level?
    Answer. Each M&O contractor identifies the critical skill gaps. A 
comprehensive, enterprise-wide inventory of these skills and 
capabilities is being developed to pinpoint capabilities at risk, 
identify gaps, and develop productive recruitment/retention strategies.
    Question. What assistance does NNSA provide to management and 
operation contractors for recruiting and retention efforts? What 
changes, if any, is NNSA planning to make regarding its role sustaining 
critical skills enterprise-wide?
    Answer. NNSA and M&O contractors encourage the development of the 
next generation workforce with succession planning programs in the form 
of institutes, fellowships, internships, capstone projects, and post-
doctoral appointments. Among other outcomes, these institutes and 
collaborations build relationships with students to improve their 
recruitment potential, and they also offer educational programs to 
personnel to strengthen their individual critical skills. Beneficial 
temporary reassignments, including detail assignments, job swaps, and 
acting management roles, have been found to benefit the ``sending'' as 
well as the ``receiving'' organization.
    One key program NNSA uses to address critical skill gaps is 
Laboratory Directed Research and Development (LDRD). The LDRD program 
promotes highly innovative exploratory research among the scientists, 
technicians, and engineers to respond to present national security 
mission needs and to anticipate future ones. The program funds projects 
that pursue technological solutions to the most urgent challenges 
facing our Nation or that promote science and engineering foundations 
that will lead to new research and development.

    Senator Dorgan.  It is an increase in funding for some very 
important programs. And the questions that have been raised, I 
think, are questions you, as a manager, I'm sure, raise every 
day. How do we do this? How do we do it effectively and 
efficiently?
    Mr. D'Agostino. Right.
    Senator Dorgan. How do we give the taxpayer full value for 
their money on these important security issues?
    Mr. D'Agostino. Right.

                          SUBCOMMITTEE RECESS

    Senator Dorgan. So, we thank all of you for your 
willingness to be here.
    Mr. D'Agostino. Thank you.
    Senator Dorgan. This hearing is recessed.
    [Whereupon, at 11:27 a.m., Wednesday, March 10, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        THURSDAY, MARCH 11, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
     The subcommittee met at 9 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Byron L. Dorgan (chairman) 
presiding.
     Present: Senators Dorgan, Murray, Johnson, Landrieu, Reed, 
Lautenberg, Harkin, Tester, Bennett, Cochran, Bond, Alexander, 
and Voinovich.

                      DEPARTMENT OF DEFENSE--CIVIL

                         DEPARTMENT OF THE ARMY

                       Corps of Engineers--Civil

STATEMENT OF HON. JO-ELLEN DARCY, ASSISTANT SECRETARY

              OPENING STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Good morning. We'll call to order the 
hearing. This is a hearing of the Subcommittee on Energy and 
Water of the Senate Appropriations Committee. We appreciate all 
of you being here.
    Today, the subcommittee will take testimony on the fiscal 
year 2011 budget requests for the U.S. Army Corps of Engineers 
and for the Department of the Interior.
    Testifying for the Corps will be Jo-Ellen Darcy, the 
Assistant Secretary of the Army for Civil Works; Lieutenant 
General Robert Van Antwerp, Chief of Engineers for the U.S. 
Army Corps of Engineers.
    Testifying for the Interior will be Anne Castle, Assistant 
Secretary for Water and Science at the Department of the 
Interior, and Michael L. Connor, Commissioner of the Bureau of 
Reclamation.
    I appreciate all of you taking time to be with us this 
morning.
    General Van Antwerp, I know you are aware of the National 
Weather Service predictions of a very high likelihood of major 
flooding in a number of communities in North Dakota and 
Minnesota and throughout the Midwest this spring. I've already 
asked the Corps districts that cover North Dakota to do as much 
advance preparation as is possible, and if the flooding is as 
severe as some predict, I'll be calling on you for much more 
help during the flood fight. Almost everyone remembers the 
weeks in which the Nation watched every single day as they were 
on a knife's edge, wondering whether the dikes would hold on a 
substantial, major flood in Fargo and Moorhead. So, we might be 
right back into that in just the coming weeks. Thank you for 
the work the Corps is doing.
    Regarding the fiscal year 2011 budget, the President has 
talked about an overall discretionary spending freeze for 
fiscal year 2011. That, however, has translated into a 9.3 
percent cut for the Corps budget and a 2 percent cut for the 
Bureau budget. In my judgment, those are the wrong agencies to 
be cutting in the current economic situation. The Recovery Act 
was a shot in the arm--no question about that--but we should be 
building on that effort with more robust investments in water 
projects especially, not returning to chronically underfunding 
our needs.
    The Corps and the Bureau are agencies that we depend on to 
build the water infrastructure that moves our Nation's cargo, 
to reduce the impact of flooding, to provide irrigation water, 
to provide hydropower, and to restore our environment. Nearly 
all of the work is contracted to the private sector, which 
means that there are new jobs for our citizens when we get 
these projects up and running. Not only does the work of the 
agencies provide jobs now, but the infrastructure that is 
constructed continues to benefit the economy. It's an asset for 
this country for decades in the future, which then, in turn, 
creates additional new jobs.
    Unfortunately, in my opinion, the budget request ignores 
these facts and reflects the consistent underfunding that we've 
seen in too many prior budgets. The fiscal year 2011 budget for 
the Corps of Engineers proposes $4.939 billion, which is $506 
million below fiscal year 2010 enacted of $5.45 billion. Not 
only is the fiscal year 2011 amount less than what was enacted 
last year, it's 4 percent below what the administration 
proposed last year in their budget.
    Secretary Castle and Commissioner Connor, the two major 
project accounts for the Department of the Interior under the 
jurisdiction of this subcommittee are the Central Utah Project 
Completion Act and water and related resources for the Bureau 
of Reclamation. Your budgets are relatively flat compared to 
fiscal year 2010. While the Central Utah Project is up $1 
million, the Bureau of Reclamation is down $23 million from the 
current year. A flat budget is a declining budget for your 
agencies, and that's just a fact because you have additional 
salary and other expenses from inflation. Personnel, material, 
contract costs continue to increase. So, you are accomplishing 
less work with the same money based on the budget request. The 
needs for water and power, particularly in the west, continue 
to rise, along with population increases in western States.
    I know that all of you, as members of the administration, 
in your prepared remarks, will tell us, as you must today, that 
this is a responsible budget request for your agencies, and it 
meets the country's needs. I have served here a long, long 
time, and your role here is to reflect and support the 
administration's budget. I understand that and am not surprised 
by it. I know of only one occasion where an official of an 
administration came and sat at that table, I think it was 
former Congressman Parker, and he was just unbelievably honest 
when asked, is this enough money for your agency? He said of 
course not; we're dramatically underfunded. The next day, he 
was dramatically out of work. So, we have not gotten such a 
burst of candor since, and that was probably 10 years ago.
    But I must tell you, from my personal standpoint, I do not 
think this is a good budget request for the Corps of Engineers 
and for the Bureau of Reclamation.
    The top six construction projects in the Corps budget 
account for $771 million of the $1.7 billion requested for 
construction work all across the United States. That's 45 
percent of the total just for six projects. Only one of the six 
projects has a benefit-to-cost ratio. The other five are for 
dam safety activities, environmental restoration, and 
environmental compliance.
    In the general investigation account, two studies account 
for 30 percent of the money proposed by the administration in 
that account. Nearly half of the funding goes to national 
programs, rather than the studies of water resource needs. 
There are proposed new construction starts for a $1.8 billion 
environmental restoration project. One of the studies that will 
be funded, if we accept this budget, would lead to a $1 billion 
flood control project.
    The question that we have to ask now is: How are we going 
to pay for them? We need to plan for that. I think, in many 
cases, these are very important priorities. The metrics and the 
budget criteria, I think, seem to drive the budget out of 
balance. And there's certainly nothing about the criteria 
that's any better than the criteria this committee uses to put 
together our approach, our annual spending recommendations. Our 
decisions are generally based on the law and the long-standing 
policy understandings between the executive and the legislative 
branch.
    The decisions that the administration makes in their budget 
generally is the basis for the annual spending plan that this 
subcommittee develops, but the subcommittee will have no choice 
this year, frankly, but to make some changes in the fiscal year 
2011 spending plan to rectify what I think are some of the 
inequities. I can't speak for everybody on the subcommittee, 
but I would say that I think the consensus of this subcommittee 
will not be to support cutting a half a billion dollars out of 
the Corps of Engineers' funding at this time. It is just not a 
thoughtful recommendation.

                           PREPARED STATEMENT

    I do have a longer statement for the record, which goes 
into much more detail, but I wanted to highlight just a few of 
the issues.
    [The statement follows:]
             Prepared Statement of Senator Byron L. Dorgan
    Good morning, the hearing will come to order.
    Today, the subcommittee will take testimony on the fiscal year 2011 
budget requests for the U.S. Army Corps of Engineers and the Department 
of Interior.
    Testifying for the Corps will be: Jo-Ellen Darcy, Assistant 
Secretary of the Army for Civil Works.
    Ms. Darcy, Congratulations on your confirmation Assistant 
Secretary. This is not our first meeting, but it is our first hearing 
together. I look forward to working with you on the many water resource 
problems that we have across this country.
    Lieutenant General Robert L. Van Antwerp, Chief of Engineers for 
the U.S. Army Corps of Engineers.
    General Van Antwerp, always good to see you, welcome.
    As I am sure you are both aware, the National Weather Service has 
predicted a high likelihood of major flooding in a number of 
communities in North Dakota as well as throughout the Midwest this 
spring. I have already asked the Corps Districts that cover North 
Dakota to do as much advance preparation as possible and if the 
flooding is as severe as some are predicting, I will be calling on both 
of you for help during both the flood fight and the recovery.
    Testifying for the Department of Interior will be: Anne Castle, 
Assistant Secretary for Water and Science, Department of the Interior.
    Ms. Castle, Congratulations to you on your confirmation as 
Assistant Secretary for Water and Science. I look forward to working 
with you on many western water issues.
    Michael L. Connor, Commissioner, Bureau of Reclamation.
    Commissioner Connor, it is good to have you back with us.
    As I am sure you are aware, I am quite passionate about issues 
concerning rural water supply, particularly on unmet promises from 50 
years ago on the Garrison Diversion project. I am glad to see that your 
budget has provided a little more funding to address these long overdue 
promises.
    Thank you all for appearing before us today.
    As you know, this will be my last general budget oversight hearing 
of the Corps and the Bureau's budgets. The one constant in the Senate 
is change and assuming you stay in your positions, you will be 
testifying before a different Chairman next year.
    When I assumed the Chairmanship of Energy and Water Subcommittee in 
January 2007, I was quite familiar with the work of both of your 
agencies in North Dakota from my many years in the Senate and the 
House.
    However, upon becoming Chairman, I quickly realized the impacts 
that your programs have to the national economy.
    More importantly, my colleagues quickly let me know how important 
your programs were to nearly all of them. It seemed they all had 
funding issues for on-going projects.
    It appears that the administration's fiscal year 2011 budget will 
be no different in that regard.
    The President has talked about an overall discretionary spending 
freeze for fiscal year 2011. That has translated into a 9.3 percent cut 
for the Corps budget and a 2 percent cut for the Bureau.
    These are the wrong agencies to be cutting during the current 
economic situation. We should be increasing infrastructure spending now 
to boost the economy. The Recovery Act was a great shot-in-the-arm, but 
we need to build on that with more robust investments not return to 
underfunding our needs.
    The Corps and the Bureau builds the water infrastructure that moves 
our Nation's cargo, reduces the impacts of flooding, provides 
irrigation water, hydropower and restores our environment.
    Nearly all of their work is contracted to the private sector which 
means jobs for our citizens. Not only does the work of these agencies 
provide jobs now, the infrastructure that is constructed continues to 
benefit the economy for decades in the future which in turn creates 
more jobs.
    Unfortunately, the budget request ignores this fact and reflects 
the consistent underfunding that we have seen in prior budgets.
    The President's fiscal year 2011 budget for the Corps of Engineers 
proposes $4.939 billion, which is $506 million below the fiscal year 
2010 enacted amount of $5.445 billion.
    Not only is the fiscal year 2011 amount less than what was enacted 
in fiscal year 2010, it is 4 percent below what the administration 
proposed for fiscal year 2010. When you look at the budget details on 
an account by account basis, the difference is more striking.
  --General Investigations is down $56 million from the current year.
  --Construction, General is down $341 million from the fiscal year 
        2010 enacted amount. The fiscal year 2011 request is even down 
        from the administration's fiscal year 2010 proposal, yet the 
        request manages to find $29 million for two new construction 
        projects.
  --The Mississippi River and Tributaries account is down $100 million 
        from the current year.
  --O&M is down $39 million from the fiscal year 2010 enacted amount. 
        O&M has been essentially flat for a number of years even though 
        personnel, material, and equipment costs have continued to 
        rise.
    To provide current year levels for the Corps major accounts would 
require an additional $536 million.
    Secretary Castle and Commissioner Connor the two major project 
accounts for the Department of Interior under the jurisdiction of this 
subcommittee are the Central Utah Project Completion Act and Water and 
Related Resources for the Bureau of Reclamation. Your budgets are 
relatively flat when compared to fiscal year 2010.
    The Central Utah Project Completion Account is proposed at $1 
million more than current year.
    The Bureau of Reclamation is down $23 million from the current 
year.
    A flat budget is a declining budget for your agencies. Personnel, 
material and contract costs continue to increase, so you are 
accomplishing less work this year based on this budget request.
    The needs for water and power in the West continue to rise along 
with the population increases in the western States.
    I know that all of you as loyal members of the administration in 
your prepared remarks are going to tell us how responsible this budget 
request is for your agencies and how it meets the country's needs.
    I know this because the last person that came to the Hill and 
actually told the truth about the administration's budget was fired. I 
don't want to see any of you fired so I will say what you can't.
    Our national water resource needs continue to increase as our 
population grows and shifts around the country. However the Federal 
budget for these needs grows much more slowly, if at all.
    In both agencies, budget development seems to be predicated on the 
notion that you can develop criteria to determine a finite group of 
``nationally important'' projects.
    I have heard the arguments that the projects funded are ``national 
priorities'' and that the metrics you develop allow you to make the 
``right'' decisions about what should be funded. I am sure that all of 
you will make the same arguments in your testimony today.
    However, the criterion seems to shift annually not only when we 
change administrations, it also happens within the same administration. 
It has happened in this administration.
    For example, as I mentioned earlier, the Corps O&M budget for 
fiscal year 2011 is proposed at $39 million less than the fiscal year 
2010 enacted amount and $143 million less than the administration 
proposed just last year.
    This means either more work is being done with less money--not 
likely; maintenance costs have decreased--again, not likely; or 
periodic dredging costs for 2011 are drastically reduced over 2010--
again, not likely.
    The only conclusion left is that you have arbitrarily reduced the 
O&M account to meet a budget ceiling.
    Another example is in the construction account. The budget proposes 
two new start projects while proposing to invest $341 million less in 
the Construction, General account than was enacted in fiscal year 2010.
    More surprising is that the fiscal year 2011 CG budget is $28 
million less than the administration proposed in their fiscal year 2010 
budget. Yet there was room for two new construction projects. One of 
these new start projects is authorized at $1.8 billion over a 10 year 
timeframe.
    I have to wonder how this project will be shoehorned into the 
administration's out-year budget based on your recently delivered 5-
year development plan.
    The 2011 amount displayed in both the Base and Enhanced outlooks 
does not appear to accommodate this request with the other ongoing 
work. This makes me suspicious as to whether a funding stream for this 
project has been thought out or if this project was added for other 
reasons.
    If I am suspicious of the basis for your new start criteria, I am 
downright skeptical of your other budgetary criteria.
    A constant drumbeat of people who oppose projects added by Congress 
is that all of the projects that Congress adds are wasteful spending, 
but everything that is proposed by the administration is beyond 
reproach.
    How can anyone make that determination? One certainly cannot tell 
from the budget justification documents.
    Of the 95 projects proposed for the Corps Construction, General 
account only 49 have benefit to cost ratios. The other 46 have benefits 
that have been assumed to be greater than the costs; however we have no 
way of comparing one of these to another to determine if the proper 
choices were made. We are dependent on your metrics which, as I have 
noted, have a tendency to change.
    For the 49 projects that have benefit to cost ratios, what are the 
metrics for substantial life savings benefits? One life? 10 lives? 100 
lives?
    Why is a benefit to cost ratio of 2.5 a better value for the Nation 
than a project with a benefit to cost ratio of 1.7? Shouldn't we be 
comparing excess benefits over cost if we are determining value?
    We don't really have any way to determine if the metrics that you 
used to determine which projects to fund are the ``best'' metrics or 
are merely a convenience for hitting the budget amounts that were 
decided by OMB.
    Despite what anyone may say, your metrics and criteria are no 
better than the criteria this subcommittee uses to develop its' annual 
spending recommendations.
    Our decisions are generally based in law and longstanding policy 
understandings between the executive and legislative branch.
    This subcommittee would never dismiss the President's budget 
request when trying to develop an appropriation bill.
    However, projects that Congress believes are important that meet 
the legal criteria for Federal investment, but not the specialized 
criteria for your budget, are dismissed annually in your budget--as if 
they don't exist.
    If they were considered, you would need to include the costs to 
bring these projects to some type of orderly conclusion.
    An example is the Corps CG account. The administration's fiscal 
year 2011 CG proposal consists of 95 projects as opposed to the 258 
projects funded in the fiscal year 2010 enacted amount.
    I would remind you, as Congress has previously mentioned in law, 
that once the President signs the appropriations bill into law, all of 
the projects become the responsibility of the administration--not just 
the ones the administration supports.
    I am pleased that you have provided budget justifications 
concurrent with the budget submission this year and that you have 
provided factsheets for those projects for which you did not budget but 
were funded in the previous year by Congress.
    This is a step in the right direction. However, the costs of not 
continuing enacted projects should be addressed in your budget 
proposals.
    To ignore them, as you and previous administrations have done and 
continue to do, is intellectual dishonesty and it keeps Congress and 
the public ``in the dark'' about the true costs and needs of your 
programs.
    Finding a new and better prioritization system is not the answer to 
the problems of consistently underfunding infrastructure.
    The only way to address this funding crisis is for the 
administration to provide more funding for these infrastructure 
investments.
    Also I cannot stress enough that infrastructure spending means 
jobs, both now and in the future.
    The decisions that the administration makes in their budget 
proposal generally form the basis for the annual spending plan that 
this subcommittee develops.
    However, the subcommittee will have no choice but to make 
significant changes to the fiscal year 2011 spending plan to rectify 
some of the inequities in your budget proposal.
    I look forward to the witness' testimony and will have some 
questions at the appropriate time.

    Senator Dorgan. I want to mention to my colleagues that we 
have a fair number of senators who will be attending this 
morning, so what we will do is have seven-minute rounds of 
questions. Since the FAA reauthorization bill is on the floor 
of the Senate, which Senator Rockefeller and I are jointly 
handling, and because before I go to the floor of the Senate, I 
have to go to the Commerce Committee for a very brief 
appearance on the Comcast-NBC proposed merger, Senator Tester 
has agreed to take the chair when I have to depart in about an 
hour.
    I appreciate my colleagues' being here. Senator Bennett, I 
believe, is stuck in traffic. That's an inelegant thing to say, 
but not unusual here in Washington, DC. But he's on his way, 
and when he comes, we will recognize him for an opening 
statement. What I'd like to do is offer opening statements, if 
we can make them very brief, to my colleagues. We'll then have 
the statements by the witnesses and then have ample time for 
questioning this morning.
    Do any of my colleagues wish to make an opening statement?
    Senator Voinovich. I'd like to.
    Senator Dorgan. All right, Senator Voinovich.

                STATEMENT OF SENATOR GEORGE V. VOINOVICH

    Senator Voinovich. Thank you. I thank you for holding this 
hearing. This is my 2nd year on the Appropriations Committee, 
but I've been dealing with the Army Corps of Engineers' budget 
for 12 years, and I still shake my head at the inadequacy of 
this budget--it has been that way for almost ever--and a 
backlog of $60 billion for unfunded Corps projects. The Corps 
has taken on not only the traditional projects, but now 
environmental restoration. And, Mr. Chairman, we've tried to 
figure out some priority or knock some of them off the list. We 
have never been successful in doing that because nobody wants a 
project off the list.
    I'm particularly concerned about the Great Lakes. The Corps 
put together recommendations several years ago in terms of what 
should be done with the Great Lakes. And the fact is that they 
recommended some $200 million a year to handle it, and the 
budget has always been about $100 million. So, it's half of 
what's needed to get the job done.
    For years, I've raised the issue of urgent needs facing the 
navigation system on the Great Lakes. Every year, hundreds of 
millions of tons of goods are transported through the lakes. 
Waterways and communities throughout the Great Lakes are tied 
to this travel. The Army Corps of Engineers estimates a backlog 
of 17 million cubic yards of dredging at commercial Great Lakes 
harbors and channels. This dredging backlog has been 
exacerbated by the historic low water levels, but the result is 
a negative impact on shipping. Several freighters have gotten 
stuck in Great Lakes channels. Ships have had to carry reduced 
loads, and some shipments have simply ceased altogether.
    So, we benefit from the Great Lakes navigation system. One 
of the things that I don't understand is that, despite the 
significant backlog of Corps work, the Harbor Maintenance Trust 
Fund is approximately a $4 billion surplus that is growing each 
year, $4 billion. And, as we know, the money collected from 
that fund is intended for a specific use, maintaining harbors 
and channels; yet, OMB uses the surplus as cost savings. It's 
another one of those gizmos that you use trust funds to balance 
the budget.
    So, I'm very, very concerned about it, and I think, 
Secretary Darcy, you know how concerned all of us are from the 
Great Lakes about something that some people snicker at, but 
it's these Asian carp. I just want to say that if they get into 
the Great Lakes, we're talking about losing a $7 billion 
fishery. And as the former Mayor of Cleveland and Governor of 
Ohio and one who has worked to restore the lakes--I call it the 
second battle of Lake Erie--at this stage in my life, I do not 
want to see that happen. That is in addition to the fishery. 
That lake is responsible for recreation and all the other 
things. And if it goes that direction--we lose the fishery, 
it's going to have an indirect effect on everything else that 
happens on the Great Lakes. So, I hope you understand how 
serious we are about making sure that this doesn't happen.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Bennett.

             OPENING STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you very much, Mr. Chairman. I 
apologize to you and the other members of the subcommittee for 
not gauging the traffic properly and not being here on time, 
but I appreciate the opportunity to comment here. We welcome 
Secretary Castle and Secretary Darcy and General Van Antwerp 
and Commissioner Connor.
    And, Commissioner Connor, particularly, I want to say 
welcome to you. You've been very helpful to me over the years 
when you were on the Senate side of things, and I want to make 
sure we take this opportunity to acknowledge that.
    I also want to recognize that Reed Murray, who is here, 
with the Central Utah project--that's a project, obviously, 
very important to my State. And I want to thank Reed for the 
great things your office is doing for water development in my 
State. In Utah, water is--the old line ``Whiskey is for 
drinking and water is for fighting.'' And maybe we don't drink 
as much whiskey as some others, but we do fight over water. The 
other line I've heard is that it's better to be head of the 
ditch than head of the church, in terms of where you are with 
respect to water.
    Now, I'm not going to reiterate the funding amounts for the 
various accounts. I agree with the chairman that these agencies 
are underfunded. My greatest concern with this budget is how it 
fails to address our Nation's aging infrastructure in an 
adequate fashion.
    Many of the Bureau of Reclamation projects are over 100 
years old. The Corps's infrastructure doesn't fare much better. 
Last summer, we had a canal in Logan, Utah--an irrigation 
canal--give way. The breach cost the lives of three people in 
the home beneath the canal, resulted in the destruction of 
homes and properties throughout the area, and while this is 
relatively small compared to Bureau and Corps projects, it is a 
sobering example of what could happen on a larger scale if we 
fail to protect our infrastructure adequately.
    We addressed this issue last year, Mr. Chairman, in the 
omnibus public lands bill, which both you and I strongly 
supported, and we put in an aging infrastructure title that 
would allow the Bureau of Reclamation and water contractors to 
address these issues in a reasonable manner, and the 
President's budget includes no funding for this purpose 
whatsoever.
    And I'm also concerned that this cost-share and the 
authority may be prohibitive for the project partners to 
afford. We need to continue to work to adequately address these 
issues before there is a major infrastructure failure.
    Now, as I said, the Corps's infrastructure is in not much 
better shape. Levees constructed 50 or more years ago are not 
built to current design standards. And as FEMA puts 
requirements for levee recertification on local communities, it 
is costing local communities millions of dollars, and, in some 
cases, the levees that communities have depended upon no longer 
provide 100-year flood protection, which will mean a triggering 
of a remapping of the flood plain.
    And another area that jumps out at me is the unbalanced 
focus--in my view, unbalanced--on environmental restoration, 
which will take up 31 percent of the Corps's construction 
budget, an allocation that comes at the expense of other 
projects that are in the traditional water resource missions of 
the Corps. For example, only 22 percent of the local--total 
construction budget goes to what the Corps defines as high-
performance projects, also known as projects with high benefit-
to-cost analysis. The project with the highest benefit-to-cost 
ratio of 22 to 1--that's the Sacramento River bank protection--
received only $10 million in this budget request. Now, 
theoretically, that means that, for a $10 million investment, 
the Nation would get $220 million in benefits. And the 
Everglades restoration project, on the other hand, gets $180 
million in this budget with no cost-benefit ratio listed.
    So, $10 million that, presumably--in actual fact, it 
doesn't all work out that way, but the analysis is that $10 
million is worth $220 million, but instead of putting the kind 
of money that would produce the 22 to 1 ratio, we're saying no; 
we're only going to starve it--we're going to starve with only 
$10 million, but we're going to put $180 million into the 
Everglades, for which there is no analysis available.
    Now, if the administration is going to underfund our 
national infrastructure to this extent, there must be a more 
transparent method of comparing the relative values of these 
projects so that we know that the taxpayers are not being 
short-changed. I'm concerned there is no transparency in these 
decisions. The Corps is using constantly changing criteria in 
order to accommodate to the annual budget numbers.
    Now, Mr. Chairman, there's another issue I think needs to 
be addressed, and better addressed in this budget, and that's 
hydropower generation. This administration has made it clear 
they're strongly in favor of renewable energy, but every time 
we bring up hydropower as a source of renewable energy, there's 
dead silence. It's a clean energy source. It's available now. 
It continues to suffer from underfunding. And this budget, 
viewed with the 20 percent cut in water power activities in the 
Department of Energy, makes me wonder about the 
administration's commitment to all kinds of clean renewable 
energy or if there is a bias to particular kinds that seem to 
have constituencies in the political arena, regardless of what 
the science may say.
    Both the Corps and Bureau hydropower plants are 
experiencing more and more unscheduled outages, and that's a 
demonstration of a lack of maintenance. And when these plants 
go down, energy has to be purchased from the market and other 
sources, and the purchase is almost always from a fossil fuel 
source. So, it's expensive and disruptive and, ironically, 
contributes to the use of fossil fuels in many circumstances, 
even while we're proclaiming that's what we're trying to get 
away from.
    All right, EPAct requires the Secretary of the Interior and 
the Secretary of the Army and the Secretary of Energy to look 
at increasing power production at Federal hydro facilities. 
That's a study that was completed in May 2007. So, we should be 
moving on that. Reclamation found six sites that could 
demonstrate both physical and economic conditions sufficient to 
warrant further exploration for additional hydropower 
development. The Corps identified 58 sites on similar criteria, 
and these are not new dams; these are additional units that 
could be installed at existing hydropower facilities, and the 
transmission facilities are already connected to these sites. 
This is not a wind farm somewhere that's going to require 
tremendous wiring to get to it. The total capacity is estimated 
to be 1,230 megawatts. That's enough to serve roughly a million 
residences.
    And there are opportunities to refurbish some facilities 
with existing hydropower to give us another 1,283 megawatts of 
generating capacity, and I don't understand why this 
administration is not pursuing that. This is clean energy 
without the limitation of the other sources. And to demonstrate 
that I'm serious about this, I introduced a bill earlier this 
year to investigate the feasibility of developing 50 megawatts 
of hydropower from the Diamond Fork Project at the existing 
dam.
    Thank you, Mr. Chairman, for allowing me to raise these 
concerns, and, again, my apologies to the panel for my 
tardiness in coming here.
    Senator Dorgan. Senator Bennett, thank you.
    Before we hear from the witnesses, does anyone else have 
comments?
    Senator Tester. Yes, just real briefly, Mr. Chairman.
    Senator Dorgan. Senator Tester.

                    STATEMENT OF SENATOR JON TESTER

    Senator Tester. First of all, thank you all for being here. 
I appreciate the work you do. Both the Bureau and the Corps are 
in the middle of addressing some aging water infrastructure 
issues in Montana and, I think, across the country.
    That being said, as I look at the budget, there's several 
projects in Montana, a couple of water projects that the Bureau 
is working on, that has been cut from $9 million to $1 million. 
These are $300 million water projects to service rural areas in 
the north central and northeastern part of the State. And I'm 
sure when the budget was put together--one was cut from $9 
million to $1 million; the other was cut from $8 million to $2 
million. I'm sure when this budget was put together they said, 
well, you know, there was Recovery Act dollars in one of these 
projects last year, so we can back them off.
    I'll give you an example of one of them. When I first 
started my service in the State legislature, it was a $100 
million project. It's the same project. Now it's $300 million. 
That's a little--that's 12 years ago. It has tripled in cost. 
What had happened, until we had the Recovery Act moneys, we 
weren't even keeping up with the cost of inflation with the 
money we were appropriating to it, and I'm afraid we're going 
back to that again.
    These are important projects, and they need to be finished. 
In order to be finished, we need to have the resources. The 
Recovery Act was a blessing for them. And that money has been 
spent--it's being spent as we speak, and it's doing some great 
work. I would hope we could go back and address those again.
    On the Army Corps side of things, the whole issue around 
levee certification is interesting as it applies to FEMA's 
flood insurance programs. In Montana and in rural America, we 
have a struggling economy in rural America. It has been that 
way not just during this recession, but it has been that way 
for a while. And we've got small communities now that are being 
saddled with the goal of making sure these levees are safe. 
They don't have the population to spread out the cost of these 
expensive certifications, and it is putting them in one heck of 
a bind because when these don't get certified and the flood 
insurance rates go through the roof, it further puts them in a 
difficult situation. I will get into the specifics during my 
questions when it comes to the levees.
    But I would just say we really need to be looking more down 
the road with our budget. That's what it should be as a sign of 
where we're going as a country, as far as these infrastructure 
projects. It has been said here before many of the projects 
we're dealing with are 100 years old--the Saint Mary's, for 
example. We need--there's so much work that needs to be done. 
The dikes and the levees that were built 50-60 years ago--I 
mean, we've got a lot of things to address. I'm not sure this 
budget gets it done.
    So, with that, I want to thank you, Mr. Chairman.
    Senator Dorgan. Anyone else?
    Senator Landrieu. I'll wait until the questions.
    Senator Dorgan. All right. Let me begin with Secretary 
Darcy. Madam Secretary, thank you for being with us.
    I would say to all four witnesses that your full statements 
will be made a part of the permanent record, and you may 
summarize.
    Secretary Darcy.

                    STATEMENT OF HON. JO-ELLEN DARCY

    Ms. Darcy. Thank you. Mr. Chairman and distinguished 
members of the subcommittee, thank you for the opportunity to 
present the President's budget for the Civil Works Program of 
the Army Corps of Engineers for fiscal year 2011.
    The fiscal year 2011 President's budget for the Civil Works 
Program is $4.939 billion. The budget supports four principal 
objectives: funding construction of the highest performing 
water resources infrastructure investments that will provide 
the best return from a national perspective; supporting the 
Nation's navigation network by funding capital development 
achievable with current revenues; advancing aquatic ecosystem 
restoration efforts and continuing to meet the requirements of 
the Endangered Species Act; and emphasizing critical 
maintenance and operational reliability of the existing civil 
works infrastructure.
    The budget focuses funding primarily on three main civil 
works program areas: commercial navigation, flood and coastal 
storm damage reduction, and aquatic ecosystem restoration. The 
budget supports hydropower, recreation, environmental 
stewardship, and water supply services at existing water 
resources projects owned or operated by the Corps. Finally, the 
budget provides for protection of the Nation's regulated waters 
and wetlands, cleanup of sites contaminated as a result of the 
Nation's early efforts to develop atomic weapons, and emergency 
preparedness and training.
    In keeping with President Obama's commitment to limit the 
overall level of non-security discretionary spending, the level 
of funding in the 2011 civil works budget is a reduction from 
both the 2010 budget and the enacted 2010 appropriations. 
However, the 2011 funding level reflects a practical, 
effective, and sound use of the Nation's financial resources.
    The Army continues to apply objective performance 
guidelines to many competing civil works construction projects 
in order to establish priorities among them and to guide the 
allocation of funds to high-performing ongoing projects and 
high-performing new construction starts. These guidelines 
emphasize investments that provide the best return from a 
national perspective in achieving economic, environmental, and 
public safety objectives.
    The budget includes two construction new starts and several 
new initiatives. One of the construction new starts is the 
Louisiana Costal Area Program, which will provide funding for 
the construction of projects coming out of the study by the 
same name, after they have favorably completed administration 
review. The other construction new start is a non-structural 
flood damage reduction projection in Onion Creek, Texas.
    Within the Operation and Maintenance program, there is 
funding for a new Global Changes Sustainability program to 
assess the impacts on civil works projects of climate change, 
as well as impacts of shifting demographics, changing land use, 
and changing social values.
    Understanding those impacts will enable the Corps to 
identify operational and other modifications to anticipate and 
respond to changing requirements to achieve and maintain 
sustainability.
    Last year, the administration proposed legislation for a 
new user fee to increase revenue to the Inland Waterways Trust 
Fund, and that proposal remains available for consideration by 
Congress in support of the 2011 budget. The Army continues to 
work in partnership with the inland waterway stakeholders to 
identify priorities and an effective funding stream for inland 
waterway construction and rehabilitation for the next 20 years, 
which could be made possible by enactment of a new funding 
mechanism.
    The budget provides $180 million for the South Florida/
Everglades Ecosystem Restoration program. This includes funding 
for continued construction of five significant restoration 
projects: Picayune Strand, Site One Impoundment, Indian River 
Lagoon South, Kissimmee River, and the C-111 project.
    The budget also supports work on other major ecosystem-wide 
initiatives, in part through Federal inter-agency working 
groups headed by the Council on Environmental Quality. The 
budget includes a total of $58 million for one such effort, the 
California Bay Delta restoration.
    Within the ongoing Cultural Resources program, $3 million 
is included to continue the Veterans Curation Project, which 
was initially funded through the American Recovery and 
Reinvestment Act and recently received the annual Chairman's 
Award from the Advisory Council on Historic Preservation. The 
Veterans Curation Project supports small curation laboratories 
in Augusta, Georgia; Saint Louis, Missouri; and Washington, 
DC--three sites with high populations of recently returning and 
wounded veterans. The veterans are hired into temporary 
positions and receive on-the-job training in curation of some 
of the backlog of archeological and historic properties that 
have come into the Corps's possession over the years. This is 
an innovative approach to supporting returning and disabled 
veterans of all branches of the military service, with jobs and 
training in a variety of technical skills with broad 
applicability while benefiting the Civil Works program. I spoke 
at the opening of the lab in Augusta, and I was very moved by 
the stories of how this program has given hope to recovering 
veterans.
    In conclusion, this is a frugal budget that reflects the 
priorities of a Nation that is both at war and successfully 
navigating its way out of economic upheaval. While this budget 
does not fund all of the good things that the Corps of 
Engineers is capable of doing, it will support very important 
investments that will yield long-term returns to the Nation's 
citizens.

                           PREPARED STATEMENT

    Mr. Chairman and members of the subcommittee, I am proud to 
support the 2011 budget for the Army Civil Works program. Thank 
you.
    Senator Dorgan. Secretary Darcy, thank you very much.
    [The statement follows:]
               Prepared Statement of Hon. Jo-Ellen Darcy
    Mr. Chairman and distinguished members of the subcommittee, thank 
you for the opportunity to present the President's budget for the Civil 
Works Program of the Army Corps of Engineers for fiscal year 2011.
                                overview
    The fiscal year 2011 budget supports four principal objectives:
  --Focus on the construction of those high performing projects that 
        provide the best return from a national perspective in 
        contributing to the economy, restoring aquatic ecosystems, and 
        reducing risks to human safety;
  --Support future capital investments for the inland waterways by 
        proposing that Congress enact a new funding mechanism to raise 
        the revenue needed to meet the authorized 50 percent non-
        Federal cost-share in a way that is efficient and equitable;
  --Advance aquatic ecosystem restoration efforts, including 
        restoration of Florida's Everglades, the California Bay Delta, 
        and the Louisiana coast, as well as continuing to meet the 
        requirements of the Endangered Species Act, particularly in the 
        Columbia River and the Missouri River Basins; and
  --Within the O&M program, give priority to investments in the 
        operational reliability, safety, and availability of key 
        existing Civil Works infrastructure.
    The budget focuses funding for development and restoration of the 
Nation's water and related resources within three main Civil Works 
program areas: commercial navigation, flood and coastal storm damage 
reduction, and aquatic ecosystem restoration. Additionally, the budget 
supports hydropower, recreation, environmental stewardship, and water 
supply services at existing water resources projects owned or operated 
by the Corps. Finally, the budget provides for protection of the 
Nation's regulated waters and wetlands; cleanup of sites contaminated 
as a result of the Nation's early efforts to develop atomic weapons; 
and emergency preparedness and training. The budget does not fund work 
that should be the responsibility of non-Federal interests or other 
Federal agencies, such as wastewater treatment and municipal and 
industrial water treatment and distribution.
              fiscal year 2011 discretionary funding level
    The total new discretionary funding of $4.939 billion in the fiscal 
year 2011 budget will keep the Civil Works program moving forward to 
help revitalize the economy and provide for restoration and stewardship 
of the environment. The budget also proposes cancellation of the 
unobligated balance of funding previously provided in the Mississippi 
River and Tributaries account for construction of the Yazoo Pumps 
project.
    In keeping with President Obama's decision to constrain the overall 
level of non-security discretionary spending, the level of funding for 
the Civil Works program in the 2011 budget is a reduction from both the 
2010 budget and the enacted 2010 appropriations. However, the 2011 
funding level reflects a practical, effective, and sound use of the 
Nation's resources and focuses on key investments that are in the best 
interest of the Nation.
    Within the $4.939 billion total, $1.69 billion is budgeted for 
projects in the Construction account, and $2.361 billion is budgeted 
for activities funded in the Operation and Maintenance (O&M) account.
    The fiscal year 2011 budget also includes $104 million for 
Investigations; $240 million for Flood Control, Mississippi River and 
Tributaries; $30 million for Flood Control and Coastal Emergency; $193 
million for the Regulatory Program; $130 million for the Formerly 
Utilized Sites Remedial Action Program; $185 million for the Expenses 
account; and $6 million for the Office of the Assistant Secretary for 
Civil Works.
    The fiscal year 2010-1014 Five Year Development Plan (FYDP) was 
recently provided to the relevant committees of Congress. Projections 
in the FYDP are formula driven. They do not represent budget decisions 
or budget policy beyond fiscal year 2010, but they can provide 
perspective on the Army Civil Works program and budget.
                  new investments in fiscal year 2011
    The Civil Works budget includes two construction new starts and 
several other new initiatives in the Investigations and O&M accounts.
    In the Construction account, the budget includes $19 million for a 
new start for construction of projects under the Louisiana Coastal Area 
program. These funds will be applied to construct authorized 
restoration projects with reports that have favorably completed 
executive branch review. The budget also includes $10 million to 
initiate a nonstructural flood damage reduction project at Onion Creek, 
Lower Colorado River Basin, Texas.
    In the Investigations account, two new national efforts are funded: 
$2 million for a Water Resources Priorities Study--a high-priority 
evaluation of the Nation's vulnerability to flooding. The 
Investigations account also includes $500,000 for continued support of 
the revised Principles and Guidelines to direct future planning for 
water resources projects, including development of detailed planning 
procedures to implement the revised Principles and Guidelines.
    The O&M program includes $10 million for a new Global Changes 
Sustainability program to assess the impacts of climate change on Civil 
Works projects, update drought contingency plans, enhance Federal 
collaboration, and increase partnerships with non-Federal stakeholders 
and programs. Understanding those impacts will enable the Corps to 
identify operational and other modifications to anticipate and respond 
to climate change. Also included in the O&M account is $3 million to 
initiate a Coastal Data Information Program to provide long-term 
coastal wave observations nationwide, to develop tools for using wave 
and other data for managing coastal sediments, and to support 
sustainable coastal and navigation projects under a changing climate.
                   inland waterways user fee proposal
    The fiscal year 2011 budget proposes to allocate $158.1 million for 
capital investment (construction, replacement, rehabilitation, and 
expansion of projects) on the inland waterways, of which $82.3 million 
would be derived from the Inland Waterways Trust Fund. Last year, the 
Army submitted proposed legislation to the Congress on behalf of the 
administration for a new user fee. That proposal is awaiting action by 
Congress and is reflected in the fiscal year 2011 budget. In addition, 
the Army continues to work with the inland waterway stakeholders to 
explore other possible options to achieve the purposes of this 
legislative proposal, which are to raise the needed revenue from the 
commercial users of these waterways and to do so in a way that is 
efficient and equitable. The administration has shown flexibility and 
is working to move the process forward. At this point, however, I would 
like to emphasize that neither the Corps nor the Army supports, or has 
accepted or endorsed, any particular out-year schedule or funding 
proposal for the inland waterways, or any alternative to the lock usage 
fee legislative proposal that Army submitted to Congress in May 2009.
                     aquatic ecosystem restoration
    The budget places priority on aquatic ecosystem restoration and 
provides $180 million for the Corps for the South Florida/Everglades 
ecosystem restoration program. The budget includes funding for 
continued construction of five significant restoration projects in this 
program: Picayune Strand; Site One Impoundment; Indian River Lagoon 
South; Kissimmee River, and the C-111 (South Dade) project.
    The budget also supports work on other major ecosystem-wide 
initiatives, such as the $58 million for Corps' ecosystem restoration 
and other water resources studies and projects in the California Bay 
Delta, including: Coyote and Berryessa Creeks; Hamilton Airfield 
Wetlands Restoration; Napa River Salt Marsh Restoration; Sacramento-San 
Joaquin Delta Islands and Levees; and Santa Ana River Mainstem, a flood 
and coastal damage risk reduction construction project.
    The budget increases funding by 44 percent over last year's budget 
for the Lower Columbia River Fish Mitigation project to mitigate the 
impact of Corps dams on migrating salmon. Nearly $138 million will be 
used to construct bypasses, improve fish ladders and for other 
activities that support salmon habitat. Similarly the budget supports 
ongoing work on the Missouri Fish and Wildlife Recovery project with 
$78 million to construct habitat and connect floodplains that had been 
degraded, for the benefit of the endangered pallid sturgeon and other 
species.
                 ongoing priorities in the o&m account
    Two particular ongoing activities in the O&M account merit special 
attention. First, the O&M account includes $15 million for the 
expansion of the National Levee Inventory database to include available 
information on levees of other Federal agencies and all of the States. 
The Corps will work with stakeholders to facilitate their use of the 
Database for local levee safety programs. In addition, the Corps will 
continue development of a levee risk screening and classification 
process.
    The budget for the Cultural Resources program in the O&M account is 
increased to $5.5 million to include $3 million to continue the 
Veterans Curation Project, which received funding in fiscal year 2009 
from the American Recovery and Reinvestment Act (ARRA). The Veterans 
Curation Project temporarily employs and trains wounded and returning 
veterans in the curation of archeological and historic properties that 
have come into the Corps' possession over the years as a result of 
construction at water project sites around the country, thus advancing 
the Corps' curation program while providing employment and 
transferrable skills that improve future employment opportunities of 
the veterans who work in the labs.
         planning improvements and performance-based budgeting
    Working through the Chief of Engineers, the Army continues to 
strengthen and improve the planning expertise of the Corps, including 
greater support for planning Centers of Expertise, better integration 
of project purposes, and greater reliability of cost estimates and 
schedules in both planning and programming processes.
    The fiscal year 2011 budget continues the Army's commitment to a 
performance-based approach to budgeting for the Civil Works program. 
Competing investment opportunities for studies, design, construction, 
and operation and maintenance were evaluated using multiple metrics. 
The Army used and will continue to use objective, performance criteria 
to guide its recommendations on the allocation of funds.
    The Army applied objective performance guidelines to establish 
priorities and guide the allocation of funds to high-performing ongoing 
construction projects and new construction starts. These guidelines 
focus on those investments within three main mission areas of the Corps 
that provide the best return from a national perspective in achieving 
economic, environmental, and public safety objectives. Similarly, the 
Army used objective performance criteria to allocate O&M funds in the 
fiscal year 2011 budget. The O&M criteria consider both the condition 
of the project and the potential consequences for project performance 
if the O&M activity were not undertaken in fiscal year 2011.
    In fiscal year 2011 the Corps will focus efforts on developing new 
strategies, along with other Federal agencies and non-Federal project 
partners, to better manage, protect, and restore the Nation's water and 
related land resources, including floodplains, flood-prone areas, and 
related aquatic ecosystems. The Corps also will continue to pursue 
management reforms that improve project cost and schedule performance 
to ensure the greatest value from invested resources, while 
strengthening the accountability and transparency of the way in which 
taxpayer dollars are being spent.
                 american recovery and reinvestment act
    The Corps continues the work funded in the ARRA. The act provided 
$4.6 billion for the Civil Works program. That amount includes $2 
billion for Construction; $2.075 billion for O&M; $375 million for 
Mississippi River and Tributaries; $25 million for Investigations; $25 
million for the Regulatory Program; and $100 million for the Formerly 
Used Sites Remedial Action Program. The Corps has allocated ARRA funds 
to more than 800 projects in 49 States, the District of Columbia, and 
Puerto Rico, and has completed 42 projects. The ARRA appropriations for 
Civil Works will create or maintain direct construction industry jobs 
and indirect jobs in firms supplying or supporting the construction and 
the businesses that sell goods and services to these workers and their 
families.
    The ARRA-funded Civil Works projects provide important support to 
the Nation's small businesses in their economic recovery. Of the more 
than $2.8 billion of ARRA funds obligated thus far (62 percent of the 
total $4.6 billion), small business awards make up about 74 percent of 
the total contract actions and account for about 47 percent of the ARRA 
funds obligated.
    Projects that received ARRA funds were selected on the basis of 
their long-term contribution to the Nation and their readiness for 
execution within the ARRA timeframe. The wide geographic distribution 
of ARRA funded projects helps to spread the employment and other 
benefits across the Nation. Funding also is distributed across Civil 
Works programs, including inland and coastal navigation, aquatic 
ecosystem restoration, flood risk management, hydropower, and more.
                               conclusion
    The administration has made rebuilding America's infrastructure a 
priority. Through resources provided for the Civil Works program in the 
President's budget for fiscal year 2011, the Army can help achieve this 
objective and help support the Nation's economy and environment. The 
Army is committed to applying 21st century technological advances to 
present day challenges, while protecting and restoring significant 
ecological resources.
    Mr. Chairman, members of the subcommittee, I am proud to present 
the fiscal year 2011 budget for the Army Civil Works program. I look 
forward to working with this subcommittee in support of the President's 
budget. Thank you.

    Senator Dorgan. General Van Antwerp.
STATEMENT OF LIEUTENANT GENERAL ROBERT L. VAN ANTWERP, 
            CHIEF OF ENGINEERS
    General Van Antwerp. Mr. Chairman and distinguished members 
of the subcommittee----
    Senator Dorgan. Would you turn the microphone on, General? 
And move it just a bit closer?
    General Van Antwerp. I think my light is on.
    Mr. Chairman and distinguished members of the subcommittee, 
I appreciate your opening comments, Mr. Chairman, about 
flooding. I might address that very quickly before I talk about 
the budget.
    We've got two areas--your area in North Dakota and another 
in Pennsylvania--and we're really gearing up right now. Just to 
give you a little idea, a lot of community involvement and all 
the Federal agencies, FEMA and everyone else are involved. We 
inventoried all of our pumps, our sand bags, polyurethane, and 
all the things that we'll need. I'm happy to report I think we 
have sufficient resources to fight this, but the early warning 
projections are for severe flooding. Yesterday, Major General 
Bill Grisoli who's behind me right here, is our deputy 
commanding general for civil works and emergency operations, 
had a total get-together with all of our folks that would be 
involved in this. And he'll be the first one to go, too, if we 
need to send him out there. We're honored and understand the 
concern; we're equally concerned as you are.
    This budget is a performance-based budget. It makes the 
best use of available funds through a focus on projects and 
activities that provide the highest economic and environmental 
returns or address significant risk to human safety. The budget 
has 99 construction projects in it. It includes four in the 
Mississippi River and Tributaries account. There are 10 dam 
safety projects, 20 projects that address significant risks to 
human safety, and 69 other projects.
    The budget supports restoration of nationally and 
regionally significant aquatic ecosystems, emphasis on the 
Florida Everglades, Louisiana Coastal Area, and Hamilton 
Airfield in the San Francisco Bay region. The budget also 
supports the Columbia River and Missouri River fish projects to 
support the continued operation of our facilities, multi-use 
projects, to meet the requirements of the Endangered Species 
Act.
    As soon as the Corps constructs a project, as you might 
imagine, our attention turns to operation and maintenance. 
Generally, with periodic maintenance, we can operate these 
facilities for many, many years. The average age of our 241 
locks, by the way, is 58.3 years old.
    The budget supports our continued stewardship in this 
infrastructure by focusing funding on our key infrastructure 
that has central importance to the Nation.
    We support the President's commitment to continued sound 
development and management of the Nation's water resources.
    Domestically, the Corps of Engineers personnel from across 
the Nation continue to respond to calls for help during 
national emergencies. The critical work they are doing will 
reduce the risk of damage from future storms to people and 
communities of this Nation.
    Internationally, the U.S. Army Corps of Engineers continues 
to support the mission in Iraq and Afghanistan, and build 
foundations for democracy and freedom and prosperity.
    I especially would like to recognize the many Corps 
civilians; we calculated that about 10,000 Corps civilians have 
deployed either to southeast Louisiana to respond to hurricanes 
or to Iraq and Afghanistan over the last 10 years. These 
wonderful, expeditionary--what I will call soldiers--civilians 
and soldiers provide their engineering expertise, quality 
construction management, and program and project management to 
many nations. The Corps of Engineers is actually involved in 34 
other countries today.

                           PREPARED STATEMENT

    In closing, I'd like to say the Corps is committed to 
staying at the leading edge of service to the Nation. We're 
committed to change that ensures an open, transparent, and 
performance-based civil works program.
    Thank you, Mr. Chairman. I look forward to your questions.
    Senator Dorgan. General, thank you very much.
    [The statement follows:]
     Prepared Statement of Lieutenant General Robert L. Van Antwerp
    Mr. Chairman and distinguished members of the subcommittee: I am 
honored to be testifying before your subcommittee today, along with the 
Assistant Secretary of the Army for Civil Works, the Honorable Jo-Ellen 
Darcy, on the President's fiscal year 2011 budget for the Civil Works 
Program of the United States Army Corps of Engineers.
    My statement covers the following five topics:
  --Summary of fiscal year 2011 Program Budget;
  --Investigations Program;
  --Construction Program;
  --Operation and Maintenance Program; and
  --Value of the Civil Works Program to the Nation's Economy and 
        Defense.
               summary of fiscal year 2011 program budget
Introduction
    The fiscal year 2011 Civil Works budget is a performance-based 
budget, which reflects a focus on the projects and activities that 
provide the highest net economic and environmental returns on the 
Nation's investment or address significant risk to human safety. The 
budget also proposes cancellation of the unobligated balance of funding 
in the Mississippi River and Tributaries account that was previously 
provided for construction of the Yazoo Pumps project. The Reimbursed 
Program funding is projected to involve an additional $2.5 billion.
Direct Program
    The budget reflects the administration's commitment to continued 
sound development and management of the Nation's water and related land 
resources. The budget incorporates objective performance-based metrics 
for the construction program, funds the continued operation of 
commercial navigation and other water resource infrastructure, provides 
significant funding for the regulatory program to protect the Nation's 
waters and wetlands, and supports restoration of significant aquatic 
ecosystems, with emphasis on the Florida Everglades, Louisiana coast, 
California Bay-Delta, and Columbia River & Missouri River restoration 
efforts. Additionally, it emphasizes the basic need to fund emergency 
preparedness activities for the Corps as part of the regular budget 
process.
Reimbursed Program
    Through the Interagency and Intergovernmental Services Program we 
help non-DOD Federal agencies, State, local, and tribal governments, 
and other countries with timely, cost-effective implementation of their 
programs. Rather than develop their own internal workforce to oversee 
large design and construction projects, these agencies can turn to the 
Corps of Engineers, which has these capabilities. Such 
intergovernmental cooperation is effective for agencies and the 
taxpayer by using the skills and talents that we bring to our Civil 
Works and Military Program missions. The work is principally technical 
oversight and management of engineering, environmental, and 
construction contracts performed by private sector firms, and is 
totally financed by the agencies we service.
    Currently, we provide reimbursable support for about 70 other 
Federal agencies and several State and local governments. Total 
reimbursement for such work in fiscal year 2011 is projected to be $2.5 
billion. The exact amount will depend on requests from the agencies.
                         investigations program
    The budget for the Investigations program would enable the Corps to 
evaluate and design future projects that are most likely to be high-
performing within the Corps three main mission areas: commercial 
navigation, flood and storm damage reduction, and aquatic ecosystem 
restoration. The budget includes $104 million for these and related 
activities in the Investigations account and $846,000 in the 
Mississippi River and Tributaries account.
                          construction program
    Within available resources, the goal of the construction program is 
to produce high value to the Nation by delivering new, or replacing, 
rehabilitating, or expanding existing, flood damage reduction, 
environmental restoration, commercial navigation, or hydropower 
benefits that serve the Nation's water resource needs. Our fiscal year 
2011 budget includes $1.69 billion in discretionary funding in the 
Construction account and $85.29 million in the Mississippi River and 
Tributaries account to further this objective. Consistent with this 
objective, the budget also gives priority to projects that address a 
significant risk to human safety.
    Using objective performance measures, the budget allocates funding 
to 99 construction projects, including 4 Mississippi River and 
Tributaries projects, 10 dam safety assurance, seepage control, and 
static instability correction projects, 20 projects that address a 
significant risk to human safety, and 69 other projects. This program 
also includes, for example, significant funding for our efforts in the 
Columbia River Basin and Missouri River Basin to support the continued 
operation of Corps of Engineers multi-purpose projects by meeting the 
requirements of the Endangered Species Act.
    Performance measures, which the Corps uses to establish priorities 
among projects, include the benefit-to-cost ratios for projects with 
economic outputs; and, for aquatic ecosystem restoration projects, the 
extent to which the project cost-effectively contributes to the 
restoration of a significant aquatic ecosystem. The selection process 
also gives priority to dam safety assurance, seepage control, static 
instability correction, and to projects that address a significant risk 
to human safety. Under each of these criteria, resources are allocated 
based on performance. This approach significantly improves the 
realization of benefits to the Nation from the Civil Works construction 
program and will improve overall program performance by allowing the 
Nation to realize the benefits of the projects with the best net 
returns (per dollar invested) sooner.
                   operation and maintenance program
    The facilities owned and operated by, or on behalf of, the Corps of 
Engineers are aging. As stewards of this infrastructure, we are working 
to ensure that its key features continue to provide an appropriate 
level of service to the Nation. Sustaining such service poses a 
technical challenge in some cases, and proper maintenance is becoming 
more expensive in some cases as infrastructure ages.
    The Operation and Maintenance (O&M) program for the fiscal year 
2011 budget includes $2.361 billion, and an additional $153.864 million 
under the Mississippi River and Tributaries program, with a focus on 
the maintenance of key commercial navigation, flood and storm damage 
reduction, hydropower, and other facilities. Specifically, the 
operation and maintenance program supports completed works owned or 
operated by the Corps of Engineers, including administrative buildings 
and laboratories. Work to be accomplished includes dredging, repair, 
aquatic plant control, removal of sunken vessels, monitoring of 
completed coastal projects, and operation of structures and other 
facilities, as authorized in the various River and Harbor, Flood 
Control, and Water Resources Development Acts.
    One of the contributions the Civil Works program can make to the 
Nation is to support and create opportunities for returning and wounded 
veterans. Through continued funding of the Veterans Curation Project as 
part of the Cultural Resources program, the Corps can provide such 
support in ways that directly benefit the Civil Works program by 
addressing the backlog of historic properties needing curation, while 
also benefiting returning and wounded veterans.
  value of the civil works program to the nation's economy and defense
    We are privileged to be part of an organization that directly 
contributes to the President's priorities to secure the homeland and to 
revitalize the economy.
    The way in which we manage our water resources can improve the 
quality of our citizens' lives. It has affected where and how people 
live and influenced the development of this country. The country today 
seeks economic development as well as the protection of environmental 
values.
    Corps of Engineers personnel from across the Nation continue to 
respond to the call to help during national emergencies, such as 
hurricanes and the recent earthquake in Haiti. The critical work they 
are doing reduces the risk of damage to people and communities.
Research and Development
    Civil Works Program research and development provides the Nation 
with innovative engineering products, some of which can have 
applications in both civil and military infrastructure spheres. By 
creating products that improve the efficiency and competitiveness of 
the Nation's engineering and construction industry and providing more 
cost-effective ways to operate and maintain infrastructure, Civil Works 
program research and development contributes to the national economy.
The National Defense
    Internationally, the U.S. Army Corps of Engineers continues to 
support the mission to help Afghanistan build foundations for 
democracy, freedom and prosperity.
    I also want to recognize the many Corps of Engineers civilians--
each of whom is a volunteer--and soldiers who are providing engineering 
expertise, quality construction management, and program and project 
management in other nations. The often unsung efforts of these 
patriotic men and women contribute daily toward this Nation's goals of 
restoring the economy, security, and quality of life for all.
    In Afghanistan, the Corps is spearheading a comprehensive 
infrastructure program for the Afghan national army, and is also aiding 
in important public infrastructure projects.
                               conclusion
    The Corps of Engineers is committed to staying at the leading edge 
of service to the Nation. We are committed to change that ensures an 
open, transparent, and performance-based Civil Works Program.
    Thank you, Mr. Chairman and members of the subcommittee. This 
concludes my statement.

                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

STATEMENT OF ANNE CASTLE, ASSISTANT SECRETARY FOR WATER 
            AND SCIENCE
    Senator Dorgan. Secretary Castle, you may proceed. Thank 
you for being here.
    Ms. Castle. Thank you. Good morning, Chairman Dorgan and 
Senator Bennett and members of the subcommittee. Thanks for the 
opportunity to be here today in support of the President's 2011 
budget for the Bureau of Reclamation and the Central Utah 
Project Completion Act.
    With me is Mike Connor, the Commissioner of Reclamation. 
And, as Senator Bennett noted, Reed Murray is here, the 
Director of the Central Utah Project Completion Act Office. He 
will be here and available if you have any questions about that 
program.
    The Department of the Interior's people and lands and 
programs touch virtually every American. It's our job to 
protect natural resources and our country's cultural heritage, 
and we have trust responsibility for all American Indians and 
Native Alaskans. We truly are the Department of America.
    The Department's 2011 budget focuses on six priorities: 
implementing a new energy frontier, climate change adaptation, 
tackling our country's water challenges, protecting our 
treasured landscapes, empowering Native American communities, 
and engaging our youth in natural resources.
    I'm going to focus today on one of the programs that seeks 
to tackle our water challenges, and that's our new WaterSMART 
program. That project was launched just 2 weeks ago, and it 
implements a sustainable water strategy for the Department of 
the Interior. WaterSMART stands for Sustain and Manage 
America's Resources for Tomorrow. And we're doing it; we're 
implementing that program because we simply have to focus on a 
sustainable water strategy for this country. Our water supply-
and-demand equation is out of balance, and we need a national 
commitment to address that imbalance. We have the imbalance 
because of a variety of factors--population growth, climate 
change impacts on water supplies, increased recognition of the 
need for water for ecosystem sustainability, and increased need 
for water because of increased domestic energy production.
    The WaterSMART program is designed to help correct that 
supply-and-demand imbalance. The program includes coordination 
of the water sustainability and conservation efforts of all the 
agencies within the Department of the Interior and also of our 
Federal and State and private partners, and that includes a 
focus on the energy-water nexus, so that we'll recognize the 
water demands of different types of energy development projects 
and take those into account and also recognize the 
opportunities for saving energy through water conservation.
    We'll have an Internet-based clearinghouse for best 
practices and incentives and the most cost-effective 
conservation and recycling technologies. We'll coordinate with 
the Department of the Interior's climate change programs, and 
we have a water footprint reduction program for Interior 
facilities that will achieve the President's goal of reducing 
overall water consumption within the Federal agencies.
    The 2011 budget request includes $72.9 million for the 
WaterSMART program. That's an increase of over $36 million over 
2010 for those various different component programs. Sixty-two 
million is for the Bureau of Reclamation's WaterSMART programs, 
and those include its basin studies, West-wide water risk 
assessments, and its cost-share grant programs for water 
efficiency and water recycling and reuse projects.
    Another $10.9 million funds the USGS water availability and 
use assessment. That was what we have known as the Water 
Census, and that program implements the provisions of the 
Secure Water Act in Public Law 111-11.
    The overall budget request for the Bureau of Reclamation is 
$1.02 billion. Commissioner Connor will be discussing the 
details of the Reclamation request, but I'll just emphasize 
that this budget proposal is designed to promote reliable and 
sustainable water supplies, and provide them in an economically 
and environmentally sound manner.
    The 2011 budget request for the Central Utah Project 
Completion Act is $43 million. That's $1 million more than in 
2010. That funding provides for the continued design and 
construction of the Utah Lake system, and it also increases the 
funding for mitigation and conservation projects.
    This 2011 Interior budget represents our best effort to 
work within the tough economic times that are facing our 
country, to do our part to reduce the spending deficit but 
still implement the core mission and the priorities of the 
Department.

                           PREPARED STATEMENT

    I'd like to express my appreciation for the very strong 
support that this subcommittee has shown for both the Bureau of 
Reclamation and the Central Utah Project. And I'd be happy to 
answer any questions.
    Senator Dorgan. Thank you very much.
    [The statement follows:]
                   Prepared Statement of Anne Castle
    Mr. Chairman, Mr. Bennett, and members of this subcommittee, I am 
pleased to appear before this subcommittee today to discuss the 
President's fiscal year 2011 budget for the Department of the Interior 
and to update you on progress in implementing our fiscal year 2010 
programs.
    The Department of the Interior's mission is complex and 
multifaceted. Our programs and mission stretch from the North Pole to 
the South Pole and across 12 time zones, from the Caribbean to the 
Pacific Rim. Our extensive mandate rivals any Government agency in its 
breadth and diversity--and its importance to the everyday lives of 
Americans.
    Interior manages 500 million acres or about 1 in every 5 acres in 
the United States, including 392 national park units, 551 wildlife 
refuges, the 27 million-acre National Landscape Conservation System, 
and other public lands. These places are treasured landscapes and serve 
as economic engines for tourism and growth opportunities for 
recreation, wildlife conservation, and responsible resource use.
    The Department's public lands and 1.7 billion acres on the Outer 
Continental Shelf supply nearly one-third of the Nation's domestic 
energy production. These resources are vital to the Nation's energy 
security and provide economic returns to the Nation. In fiscal year 
2011, an estimated $14.0 billion in revenues will be generated from 
these lands and waters.
    The Department fulfills its special responsibilities to Native 
Americans managing one of the largest land trusts in the world 
including over 55 million acres held in trust for Indian Tribes and 
individual Indians, over $3.6 billion of funds held in over 2,700 
tribal trust accounts, and over 380,000 open individual Indian Money 
accounts. The Bureau of Indian Education school system provides 
services to approximately 42,000 students in 23 States attending 183 
elementary and secondary schools and dormitories, and supports 30 
tribally controlled community colleges, universities, and post-
secondary schools.
                             the first year
    In January 2010, President Obama and Secretary Salazar marked their 
first anniversary by recognizing the achievements of Interior's 70,000 
employees, including:
  --Restoring the Everglades--beginning construction of the 1-mile 
        bridge on the Tamiami Trail and breaking ground on the Picayune 
        Strand Restoration project in the Everglades in Florida--to 
        restore water flows and revive 55,000 acres of wetlands for 
        wildlife habitat;
  --Negotiating a settlement of the long-running and highly contentious 
        Cobell v. Salazar class-action lawsuit--resolving trust 
        accounting and management issues after 14 years;
  --Advancing renewable energy development--establishing renewable 
        energy coordination offices in four States and teams in six 
        States to facilitate renewable energy production on public 
        lands and issuing four exploratory leases for renewable wind 
        energy production on the OCS;
  --Moving forward to invest $3.0 billion available from the American 
        Reinvestment and Recovery Act in facility renovation and energy 
        efficiencies, habitat restoration, increasing water supplies 
        and water conservation, supporting renewable energy 
        development, and reducing human hazards;
  --Restoring confidence and accountability in our energy programs by 
        beginning an orderly termination of the Royalty-in-Kind program 
        and reforming the management of onshore oil and gas resources;
  --Coming to the aid of drought-stricken California with emergency aid 
        and infrastructure investments;
  --Expanding opportunities for youth--employing 8,200 young adults in 
        2009;
  --Opening the crown of the Statue of Liberty for public access--the 
        crown has been closed to the public since 9/11;
  --Ending a stalemate at the Flight 93 National Memorial--completing 
        the acquisition of land in cooperation with willing sellers and 
        clearing the way for construction of a memorial to honor the 
        Nation's heroes;
  --Delisting the brown pelican--a case of complete recovery for a 
        species that was first listed as endangered in 1970;
  --Increasing transparency--reversing and withdrawing flawed oil and 
        gas leases with potential impacts to national parks in Utah and 
        oil shale research, development, and demonstration leases that 
        may have shortchanged taxpayers; and
  --Helping to negotiate a collaborative solution that would end 
        decades of conflict and potentially allow for the restoration 
        of the Klamath River Basin in California and Oregon.
                overview of the fiscal year 2011 budget
    Interior's 2011 budget reflects an aggressive agenda in the context 
of challenging fiscal times. The 2011 Interior budget request for 
current appropriations is $12.2 billion. Permanent funding that becomes 
available as a result of existing legislation without further action by 
the Congress will provide an additional $5.8 billion, for budget 
authority totaling $18.0 billion for Interior in 2011.
    The request for the Bureau of Reclamation and the Central Utah 
Project Completion Act, funded under the jurisdiction of this 
subcommittee, is $1.1 billion. The fiscal year 2010 Reclamation 
discretionary budget request is $1.02 billion in current appropriations 
and the request for the Central Utah Project is $43.0 million.
                       climate change adaptation
    Resource managers consider climate change to be the single most 
challenging issue they face. In order to equip them with the tools and 
strategies they need, Interior's Climate Change Adaptation initiative 
will investigate the causes and formulate solutions to mitigate climate 
impacts to lands, waters, natural and cultural resources. As the pre-
eminent manager of lands and resources, Interior will leverage its 
experience and expertise in partnership with other governmental and 
non-governmental entities. Interior's Climate Science Centers and 
Landscape Conservation Cooperatives (LCC) will conduct and communicate 
research and monitoring to improve understanding and forecasting for 
those natural and cultural heritage resources that are most vulnerable 
to climate change impacts.
    The Department's High Priority Performance Goal for Climate Change 
Adaptation is to identify areas and species most vulnerable to climate 
change and begin implementing comprehensive adaptation strategies by 
the end of 2011. Beginning with the 2011 budget, Reclamation will 
identify dedicated climate change funding, including an increase of 
$3.0 million for its Basin Studies Program. Through the Basin Studies 
Program, Reclamation will work with State and local partners to analyze 
the impacts of climate change on water and power operations throughout 
basins in the Western States, and will identify options to mitigate or 
adapt to those impacts.
                               watersmart
    The 2011 budget proposes a sustainable water strategy to assist 
local communities to stretch water supplies and improve water 
management. A High Priority Performance Goal is established to increase 
water supply for agricultural, municipal, industrial, and environmental 
uses in the western United States up to 350,000 acre-feet by the end of 
2011 through conservation programs including water reuse and recycling 
and WaterSMART (formerly Challenge) grants.
    The budget for the WaterSMART program--Sustain and Manage America's 
Resources for Tomorrow--includes $72.9 million, an increase of $36.4 
million over the 2010 enacted level for sustainability programs in 
Reclamation and USGS. Reclamation will use $62.0 million, an increase 
of $27.4 million, to improve water management by encouraging voluntary 
water banks; reducing demand; implementing water conservation and water 
reclamation and reuse projects; and taking action to improve energy 
efficiency and reduce environmental conflicts. The USGS will use $10.9 
million, an increase of $9.0 million, for a multi-year, nationwide 
water availability and use assessment program.
                          treasured landscapes
    The 2011 budget includes funding for an increased effort by 
Reclamation to conduct studies, projects, and other efforts in the 
California Bay-Delta. These activities will support the December 22, 
2009 Bay-Delta Interim Action Plan, investing in short and long-term 
actions for sustainable water and ecosystem restoration. This request 
will fund habitat restoration efforts, the development of fish screens 
and fish ladders, efforts to eradicate or mitigate invasive species, 
various water quality and quantity studies and assessments, and other 
efforts.
                       supporting tribal nations
    The 2011 budget for Reclamation contains funding in support of 
tribal nations through projects such as the Animas-La Plata project to 
continue implementation of the Colorado Ute Settlement Act and funding 
for the Navajo-Gallup Water Supply project.
                               conclusion
    Thank you for the opportunity to testify on behalf of the 
President's fiscal year 2011 budget request for the Department of the 
Interior. I want to reiterate my appreciation for the long-standing 
support of this subcommittee. Our fiscal year 2011 budget will--in its 
entirety--make a dramatic difference for the American people. We have a 
tremendous opportunity to improve the future for our children and 
grandchildren with wise investments in clean energy, climate impacts, 
treasured landscapes, our youth, and the empowerment of tribal nations. 
This concludes my overview of the fiscal year 2011 budget proposal for 
the Department of the Interior. I am happy to answer any questions that 
you may have.

    Senator Dorgan. Commissioner Connor.
STATEMENT OF MICHAEL L. CONNOR, COMMISSIONER
    Commissioner Connor. Yes, sir. Thank you, Chairman Dorgan, 
Senator Bennett, and members of the subcommittee, for the 
opportunity to discuss the Bureau of Reclamation's 2011 budget.
    With me today is Bob Wolf, who is the Director of our 
Program and Budget Office at the Bureau of Reclamation.
    As noted by Secretary Castle, the fiscal year 2011 
discretionary request for Reclamation is $1.02 billion. 
Overall, the budget reflects a set of wide-ranging activities 
and initiatives that support Reclamation's mission. According 
to a recent departmental economic analysis, Reclamation's 
mission is to supply water, generate power, and provide 
recreation opportunities to millions of Americans. It supports 
over 260,000 jobs on an annual basis and $39.5 billion in 
economic activity.
    At its core, however, the goal of Reclamation's budget is 
simply to promote certainty and sustainability in the use of 
limited water resources, whether it is for agricultural, 
municipal, industrial, environmental, or power-generation 
purposes. Certainty and sustainability require Reclamation to 
take action on many fronts, and our budget proposal was 
developed with that principle in mind. Through these efforts, 
we believe we can continue to provide the economic benefits I 
just described.
    Secretary Castle identified six priorities that are focal 
points of the Department's fiscal year 2011 budget. Very 
briefly, I want to speak about several of those items.
    The first is tackling the Nation's water challenges and the 
New Energy Frontier. Addressing water challenges and energy 
needs starts with operating, maintaining, and improving the 
condition of our existing facilities. Accordingly, the 2011 
budget requests a total $424 million for facility operations, 
maintenance, and rehabilitation activities. This amount 
represents almost one-half--46 percent--of the Water and 
Related Resources account. The remaining balance of that 
account is used for water, energy, land, and fish and wildlife 
resource management activities, which amount to $490 million in 
total, or 54 percent of the remaining part of the Water and 
Related Resources account.
    Included within this $490 million allocation is the 
WaterSMART program that was just described in detail. As noted, 
WaterSMART includes a specific focus on energy-water issues. In 
addition to promoting energy efficiency through water 
conservation, Reclamation will be working with our numerous 
partners to facilitate new renewable energy generation 
development in association with Reclamation facilities and its 
operations.

                       CLIMATE CHANGE ADAPTATION

    In the area of climate change, Reclamation will do its part 
to assist the Department in implementing an integrated strategy 
to better understand and respond to climate change impacts on 
water and associated resources.
    As identified in our budget documents, the Department will 
be establishing Climate Science Centers (CSCs), Landscape 
Conservation Cooperatives (LCCs), and a Climate Effects 
Network. Reclamation's 2011 budget includes an increase of $3 
million for Reclamation's Basin Studies program to implement 
West-wide risk assessments and to establish two LCCs. 
Reclamation's Science and Technology program will also devote 
$4 million in support of the science agenda being carried out 
by the Climate Science Centers. This funding represents a 
critical investment that will help our stakeholders better 
understand and plan for a future impacted by increasing 
temperatures.

               TREASURED LANDSCAPES AND RESTORING RIVERS

    Protecting the Nation's treasured landscapes is another 
departmental priority, and it is imperative that Reclamation do 
its share. First, maintaining our ability to deliver water and 
generate power requires protecting and restoring the aquatic 
and riparian environments affected by our operations. Beyond 
that, restoring the health of our rivers will help avoid future 
conflicts and provide more flexibility in addressing the 
challenges presented by drought, increasing populations, 
increasing energy demand, environmental needs, depleted 
aquifers, and a changing climate. Included within the Restoring 
Rivers program are our endangered species recovery programs, 
which are an increasing part of Reclamation's budget.

                       SUPPORTING TRIBAL NATIONS

    The final priority I want to briefly discuss is 
Reclamation's support for tribal nations. The 2011 budget 
continues this support through our ongoing efforts to implement 
Indian water rights settlements. Included in the request is 
$12.5 million in support of the Animas-La Plata project and the 
Shiprock Pipeline, which are the critical items in the Colorado 
Ute Settlement Act amendments. Those are anticipated to be 
completed in 2013.
    The request also includes $10 million for the Navajo-Gallup 
Water Supply Project, a key element of the Navajo Nation Water 
Rights Settlement in the San Juan River basin in New Mexico.
    There's also $4 million for the Soboba Water Rights 
Settlement to complete funding for the United States' share of 
constructing, operating, and maintaining the basin recharge 
project that's central to that settlement.
    And outside settlements, Reclamation is addressing tribal 
needs through its rural water program. Sixty-two million 
dollars is requested for this program to continue the 
construction of authorized rural water projects, several of 
which benefit tribal nations in the Great Plains and Upper 
Colorado River regions.
    Mr. Chairman, please allow me to express my sincere 
appreciation for the continued support that this subcommittee 
has provided the Bureau of Reclamation. I stand ready to answer 
questions at the appropriate time.
    [The statement follows:]
                Prepared Statement of Michael L. Connor
    Thank you, Mr. Chairman, Mr. Bennett and members of the 
subcommittee, for the opportunity to discuss with you the President's 
fiscal year 2011 budget request for the Bureau of Reclamation. With me 
today is Bob Wolf, Director of Program and Budget.
    I appreciate the time and consideration this subcommittee gives to 
reviewing and understanding Reclamation's budget and its support for 
the program. Reclamation works hard to prioritize and define our 
program in a manner that serves the best interest of the public who 
rely on Reclamation for their water and power.
    Our fiscal year 2011 request continues support for activities that 
deliver water and generate hydropower, consistent with applicable State 
and Federal law, in an environmentally responsible and cost-effective 
manner.
    The budget continues to emphasize working smarter to address the 
water needs of a growing population in an environmentally responsible 
and cost-efficient manner; and assisting States, tribes, and local 
entities in solving contemporary water resource challenges. It also 
emphasizes the operation and maintenance of Reclamation facilities in a 
safe, efficient, economic, and reliable manner; assuring systems and 
safety measures are in place to protect the public and Reclamation 
facilities. Funding for each project or program within Reclamation's 
request is based upon administration, departmental, and Bureau 
priorities. Key focus areas include Water Conservation, Climate Change 
Adaptation and Renewable Energy, Restoring Rivers, and supporting 
tribal nations.
    Reclamation's 2011 budget request is $1.1 billion, which includes 
$49.9 million for the Central Valley Project Restoration Fund (CVPRF). 
This request is offset by discretionary receipts in the CVPRF, 
estimated to be $49.6 million. The request for permanent appropriations 
in 2011 totals $167.0 million.
                      water and related resources
    The 2011 budget request for Water and Related Resources, 
Reclamation's principal operating account, is $913.6 million. The 
request includes a total of $489.9 million for water and energy, land, 
and fish and wildlife resource management and development activities. 
Funding in these activities provides for planning, construction, water 
conservation activities, management of Reclamation lands including 
recreation, and actions to address the impacts of Reclamation projects 
on fish and wildlife.
    The request also provides a total of $423.7 million for facility 
operations, maintenance, and rehabilitation activities. Providing 
adequate funding for these activities continues to be one of 
Reclamation's highest priorities. The Bureau continues to work closely 
with water users and other stakeholders to ensure that available funds 
are used effectively. These funds are used to allow the timely and 
effective delivery of project benefits; ensure the reliability and 
operational readiness of Reclamation's dams, reservoirs, power plants, 
and distribution systems; and identify, plan, and implement dam safety 
corrective actions and site security improvements.
   highlights of the fiscal year 2011 request for water and related 
                               resources
    I would like to share with the subcommittee several highlights of 
the Reclamation budget including an update on the WaterSMART (Sustain 
and Manage America's Resources for Tomorrow) Program and Interior's 
establishment of a High Priority Performance Goal target to enable 
capability to increase available water supply for agricultural, 
municipal, industrial and environmental uses in the western United 
States by 350,000 acre-feet by the end of 2011.
    WaterSMART Program.--The request focuses resources on the 
Department of the Interior's WaterSMART program. The program 
concentrates on expanding and stretching limited water supplies in the 
West to reduce conflict, facilitate solutions to complex water issues, 
and to meet the growing needs of expanding municipalities, the 
environment, and agriculture. The U.S. Geological Survey is a partner 
in WaterSMART.
    The Department plays an important role in providing leadership and 
assistance to States, tribes, and local communities to address these 
competing demands for water and to be more energy efficient in the 
operations of its facilities. Reclamation is proposing to increase its 
share of the WaterSMART Program by $27.4 million over the fiscal year 
2010 enacted level for total funding of $62.0 million. The three 
ongoing programs include: the WaterSMART (formerly the Challenge) grant 
program funded at $27.0 million; the Basin Study program funded at $6.0 
million; and the title XVI Water Reclamation and Reuse program funded 
at $29.0 million. Through these programs, Reclamation will provide 
competitive grants for water marketing and conservation projects; 
implement basin-wide planning studies that will help identify the 
impacts of climate change, identify potential adaptation measures and 
address comprehensive water supply and demand in the West; and continue 
funding of water reuse and recycling projects.
Other Significant Programs and Highlights Include
    Climate Change Adaptation and Renewable Energy.--The Department is 
implementing an integrated strategy for responding to climate change 
impacts on the resources managed by the Department, through the 
establishment of DOI Climate Science Centers (CSC), Landscape 
Conservation Cooperatives (LCC) and a Climate Effects Network. The 2011 
budget requests an increase of $3.0 million for use within 
Reclamation's Basin Studies program for total funding of $6.0 million 
to implement West-wide climate change risk assessments. Reclamation 
will take the lead to coordinate work at two LCCs. Reclamation's 
Science and Technology program will devote $4.0 million to support 
scientific work through the Department's CSCs. Reclamation is also 
assessing and implementing new renewable energy generation development 
in association with Reclamation facilities in cooperation with other 
Federal and State agencies, water users, and private sector entities 
through its Power Program Service program.
    Restoring Rivers.--In order to best maintain Reclamation's ability 
to meet its core mission goals of delivering water and generating 
hydropower, a growing part of its mission must focus on the protection 
and restoration of the aquatic and riparian environments influenced by 
its operations. This growing focus area will help Reclamation better 
balance its environmental mission with its role as a water supplier and 
power generator, thus better positioning Reclamation to address the 
ongoing challenges presented by drought, climate change, increasing 
populations, the growing water demand associated with energy 
generation, and environmental needs. Reclamation's Restoring Rivers 
agenda involves a large number of activities, including its Endangered 
Species Act recovery programs.
    The 2011 request provides $171.7 million for operating, managing 
and improving California's Central Valley Project. This amount includes 
$39.9 million for the CVP, Sacramento River Division, Red Bluff pumping 
plant, which will be constructed to facilitate passage for threatened 
fish species, as well as providing water deliveries. The American 
Recovery and Reinvestment Act of 2009 also provided $109.8 million for 
the Red Bluff pumping plant. The funding for CVP also includes $11.8 
million for the Trinity River Restoration program that includes 
development of a comprehensive monitoring and adaptive management 
program for fishery restoration and construction of channel 
rehabilitation projects at various sites along the Trinity River. This 
request includes $21.7 million for the CVP Replacements, Additions, and 
Extraordinary Maintenance program, for modernization, upgrade, and 
refurbishment of facilities throughout the Central Valley.
    The request includes $25.3 million for Lower Colorado River 
Operations to fulfill the role of the Secretary as water master for the 
Lower Colorado River. The request provides funding for management and 
oversight of both the annual and long-range operating criteria for 
Colorado River reservoirs; water contract administration; and 
implementation of the Lower Colorado River Multi-Species Conservation 
program. The Bureau of Reclamation remains committed to maximizing 
efficient ways to deliver water under its contracts and to conserve 
water for multiple uses, including endangered species protection.
    The budget requests $23.7 million for Endangered Species Act 
Recovery Implementation programs. The request includes $12.7 million in 
the Great Plains Region to implement the Platte River Endangered 
Species Recovery Implementation program, based upon approval of the 
program by the Secretary and the Governors of Colorado, Nebraska, and 
Wyoming in late 2006 and authorized by the Consolidated Natural 
Resources Act of 2008. Implementation of this program provides measures 
to help recover four endangered or threatened species, thereby enabling 
existing water projects in the Platte River Basin to continue 
operations, as well as allowing new water projects to be developed in 
compliance with the Endangered Species Act. It also provides an 
increase of $4.9 million for a total of $8.4 million for the Upper 
Colorado River Endangered Fish Recovery program, which was established 
in January 1988, to provide habitat management, development and 
maintenance; augmentation and conservation of genetic integrity; and 
conservation of other aquatic and terrestrial endangered species. The 
increase will fund construction of a system that automates canal 
operations to conserve and redirect water for instream flows.
    The Klamath project request is $22.5 million and includes funds for 
studies and initiatives related to improving water supplies to meet the 
competing demands of agricultural, tribal, wildlife refuge, and 
environmental needs. Key areas of focus include continuing a water 
bank; making improvements in fish passage and habitat; taking actions 
to improve water quality; developing a basin-wide recovery plan; 
increasing surface and groundwater supplies; and continuing 
coordination of Reclamation's Conservation Improvement program.
    The Klamath Dam Removal and Sedimentation Studies are being 
conducted as a result of negotiations initiated in 2005 and completed 
in 2010 regarding restoration of the Klamath River. Study results will 
be used to inform a Secretarial Determination to decide if removing 
PacifiCorp's four dams on the Lower Klamath River is in the public 
interest and advances restoration of the Klamath River fisheries. The 
Reclamation request includes $5.0 million to further assess the costs 
and benefits of removing the dams. The Fish and Wildlife Service, 
funded under the Interior, Environment, and Related Agencies 
appropriations subcommittee, also has $2.0 million in its request to 
support these studies.
    The Middle Rio Grande project request is $25.1 million and will 
continue funding of endangered species activities and Reclamation's 
participation in the Middle Rio Grande Endangered Species Act 
Collaborative program. Funding of the repair of priority river levee 
maintenance sites is also included.
    The Yakima River Basin Water Enhancement Project request is $12.4 
million, which will continue funding grants to Benton and Roza 
Irrigation Districts and Sunnyside Division Board of Control, to 
implement conservation measures and monitor the effects of those 
measures on the river diversions.
    Supporting Tribal Nations.--The fiscal year 2011 Reclamation budget 
supports tribal nations through a number of projects. The request 
includes $12.5 million for the Animas-La Plata project to continue 
implementation of the Colorado Ute Settlement Act. Project completion 
is anticipated in 2013, and 2011 funding will provide for directional 
drilling and pipeline construction on the Navajo Nation Municipal 
Pipeline and the continued filling of Lake Nighthorse.
    The request includes $10.0 million for the Navajo-Gallup Water 
Supply Project, a key element of the Navajo Nation Water Rights 
Settlement on the San Juan River in New Mexico. The project will 
provide a reliable and sustainable municipal, industrial, and domestic 
water supply from the San Juan River to 43 Chapters of the Navajo 
Nation.
    The request includes $4.0 million for the Soboba Water Rights 
Settlement Project to complete funding for the payment or reimbursement 
for constructing, operating, and maintaining the portion of the basin 
recharge project that the United States is responsible for under the 
Settlement Agreement.
    The 2011 Reclamation budget requests $62.0 million for on-going 
authorized rural water projects. The projects that benefit tribal 
nations include Mni Wiconi, the rural water component of the Garrison 
Diversion Unit; Fort Peck Reservation/Dry Prairie; Jicarilla Apache 
Reservation; and Rocky Boys/North Central Montana. Other rural water 
projects include Perkins County and Lewis and Clark.
    Safety of Dams.--A total of $95.2 million is requested for 
Reclamation's Safety of Dams program, which includes $45.0 million 
directed to dam safety issues at Folsom Dam. Funding also includes 
$29.3 million to initiate other safety correction activities and $19.0 
million for safety evaluations of existing dams. This includes $1.9 
million to oversee the Interior Department's Safety of Dams program.
    A total of $30.3 million is requested for Site Security to ensure 
the safety and security of the public, Reclamation's employees, and key 
facilities. This funding includes $9.2 million for physical security 
upgrades at high risk critical assets and $21.1 million to continue all 
aspects of Bureauwide security efforts including law enforcement, risk 
and threat analysis, personnel security, information security, security 
risk assessments and security-related studies, and guards and patrols.
    Section 513 of the Consolidated Natural Resources Act of 2008 
includes provisions for the treatment of Reclamation site security 
costs. Under these provisions, Reclamation will collect approximately 
$20.0 million, as indexed for inflation, in security-related operation 
and maintenance costs that are reimbursable under Reclamation law. 
Approximately 60 percent of this amount is reimbursable through up-
front revenues. Approximately 40 percent of this amount is appropriated 
and then reimbursed to projects through the normal operations and 
maintenance cost allocation process.
                       policy and administration
    The $61.2 million request in fiscal year 2011 funds the 
development, evaluation, and implementation of Reclamation-wide policy, 
rules, and regulations, including actions under the Government 
Performance and Results Act. These funds are also used for management 
and performance functions that are not chargeable to specific projects 
and required for ongoing Commissioner's activities.
                central valley project restoration fund
    The 2011 budget includes a request of $49.9 million for the CVPRF. 
This budget request is offset by collections estimated at $49.6 million 
from mitigation and restoration charges authorized by the Central 
Valley Project Improvement Act. The San Joaquin River Restoration Fund 
section below describes the impact that the San Joaquin River 
Restoration Settlement Act has on the CVPRF.
    The 2011 program funds a variety of activities to restore fish and 
wildlife habitat and populations in the CVP service area of California, 
including: acquiring water for anadromous fish and other environmental 
purposes; providing for long-term water deliveries to wildlife refuges; 
continuing the anadromous fish restoration program with the goal of 
doubling their natural production; monitoring the effectiveness of 
restoration actions; acquiring fee title or conservation easements to 
facilitate better management; restoring land to improve wildlife 
habitat, conserve water, and reduce drainage; and continuing funding 
for fish screens on diversions along the Sacramento River.
                   san joaquin river restoration fund
    While there is a $72.1 million request for discretionary 
appropriations in fiscal year 2011, receipts will be used, as 
authorized by the 2009 San Joaquin River Restoration Act, to implement 
terms of the settlement of the litigation. Funding in fiscal year 2011 
will be used to continue planning, engineering, environmental 
compliance, fishery management, water operations, and public 
involvement activities.
                 california bay-delta restoration fund
    The budget requests $40.0 million for the California Bay-Delta 
Restoration Fund, pursuant to the CALFED Bay-Delta Authorization Act 
that was signed into law on October 25, 2004. The legislation provides 
a 6 year Federal authorization to implement the collaborative Bay-Delta 
program. Authorities authorized by the Water Supply, Reliability, and 
Environmental Act were extended until 2014, by the Energy and Water 
Development and Related Agencies Appropriations Act, 2010. A consortium 
of Federal and State agencies fund and participate in the Bay-Delta 
program, focusing on the health of the ecosystem and improving water 
management and supplies. In addition, Bay-Delta activities address the 
issues of water supply reliability, aging levees, and threatened water 
quality.
    Funding for Bay-Delta is requested in the amount of $40.0 million 
for the following program areas: $5.0 million for water storage 
studies; $3.5 million for the conveyance program; $7.5 million for 
water use efficiency; $8.5 million for the science program; $5.0 
million for water quality assurance investigations; $8.5 million for 
ecosystem restoration projects; and $2.0 million for Reclamation's 
oversight function to ensure program balance and integration.
                  fiscal year 2011 planned activities
    Reclamation's fiscal year 2011 priority goals are directly related 
to fulfilling contractual requests to deliver water and power. These 
include addressing a range of other water supply needs in the West, 
playing a significant role in restoring and protecting freshwater 
ecosystems consistent with applicable State and Federal law, and 
enhancing management of our water infrastructure while mitigating for 
any harmful environmental effects. Reclamation will deliver roughly 28 
million acre-feet of water to meet contractual obligations while 
addressing other resource needs (for example, fish and wildlife 
habitat, environmental enhancement, recreation, and Native American 
trust responsibilities).
    Reclamation will maintain dams and associated facilities in good 
condition to ensure the reliable delivery of water. Reclamation will 
maintain a forced outage average of 2.20 that is lower than the 
industry average for similar units to ensure reliable delivery of 
power. Reclamation has set a goal to prevent an additional 12,700 tons 
of salt from entering the water ways in fiscal year 2011. The actions 
Reclamation will take to accomplish this goal include selecting new 
salinity control projects through a competitive process.
    Moreover, the fiscal year 2011 budget request demonstrates 
Reclamation's commitment to meeting the water and power needs of the 
West in a fiscally responsible manner. This budget continues 
Reclamation's emphasis on managing those valuable public resources. 
Reclamation is committed to working with its customers, States, tribes, 
and other stakeholders to find ways to balance and provide for the mix 
of water resource needs in 2011 and beyond.
                               conclusion
    Mr. Chairman, please allow me to express my sincere appreciation 
for the continued support that this subcommittee has provided 
Reclamation. This completes my statement. I would be happy to answer 
any questions that you may have at this time.

    Senator Dorgan. Mr. Connor, thank you very much. We 
appreciate that.
    Senator Harkin has asked for the privilege of asking a 
single question in order that he may chair a hearing at 10 
o'clock, and if there's no objection on the subcommittee, I 
would honor that request.
    Senator Harkin.

                         CEDAR RAPIDS FLOODING

    Senator Harkin. Thank you very much, Mr. Chairman, and I 
appreciate the indulgence of the subcommittee.
    I just have one question for Secretary Darcy. Cedar Rapids, 
the second largest city in Iowa, suffered a major flood, as you 
know, in 2008. It was broadcast all over the world. We saw 
houses floating down the river. It destroyed a great part of 
downtown Cedar Rapids. Over 5,000 homes were destroyed. The 
water was higher than even 1,000-year floods. It was the 
highest ever, ever on record. The Rock Island District is now 
working on the feasibility of doing a flood control project 
involved--improving Cedar Rapids' ability to withstand future 
floods.
    Here's the problem, some parts of that project may meet the 
traditional requirements of the cost-benefit ratio. That would 
be improvements on the east side of the river that protects 
most of downtown and another part that protects some 
industries, Quaker Oats being the major one.
    But it looks unlikely that the traditional cost-benefit 
analysis would be positive for the west side of the river. 
Well, on the west side of the river, we have over 4,000 homes 
of moderate- to low-income people. Many of them were damaged in 
the flood, and what happens--these are families of modest 
means. If the project moves on the west side of the river, you 
can then see that the west side may experience a worse flood in 
various scenarios because the east side would be protected.
    I was pleased to see the December 3, 2009 proposed national 
objectives, principles, and standards for related resources 
draft. It looks at non-monetary fix, such as community impacts 
on groups such as those with lower incomes and the effects on 
the economy of the area.
    So, I think it's extremely difficult to move forward with 
only protecting the higher income and the downtown areas, while 
increasing--actually increasing--the flood risk to those with 
lower incomes, modest incomes, on the other side of the river. 
The traditional national economic analysis just simply does not 
take these considerations into effect and also what it would 
mean economically for that side of the river, in terms of 
businesses and things like that, that simply wouldn't go there.
    My question is--I just want to get your views on the need 
to move forward with a project that is crucial and whether or 
not it would be appropriate to consider these other concerns 
for a project like this.
    Ms. Darcy. Your reference to the Principles and Guidelines 
being drafted is exactly what that's designed to do. 
Traditionally, we have only looked at national economic 
benefits when considering water resources projects. With the 
new Principles and Guidelines, we are looking at more than just 
the economic impact; we're looking at the environmental impact, 
the impact to the community as well as to other impacts, 
including social values. With the new Principles and 
Guidelines, we'll get at exactly the concern that you have in 
your study.
    Senator Harkin. Thank you.
    Senator Dorgan. Thank you, Senator Harkin.
    For the information of members who weren't here when I 
began, I indicated that I have to leave at 10 o'clock. We have 
the FAA bill on the floor, and I also have to be at a Commerce 
Comcast-NBC merger hearing ever so briefly. So, Senator Tester 
will take the chair at 10 o'clock.

     EFFECT OF PROPOSED BUDGET ON AUTHORIZED BUT UNFUNDED PROJECTS

    Let me ask a couple of questions. Secretary Darcy, again, I 
understand your role, and that is to support this budget and 
not vary even one degree if you can avoid it, but it seems to 
me that we have $67 billion of authorized unfunded Corps 
projects. Some of them will never be built, but we guess that 
somewhere around $20-25 billion of those projects are going to 
be built. They are authorized, but at the current level of 
funding, it will take a long, long, long time to build and 
invest in that infrastructure. It just seems to me that a 
reduction of nearly one-half a billion dollars in fiscal year 
2011 in investment in Corps water projects is not going to be 
able to do what we need to do to invest in these infrastructure 
projects. What is your judgment about that?
    Ms. Darcy. Senator, we can always use more money, but we 
are going to make the best investments with the dollars that we 
have, not only for the infrastructure but for the entire Corps 
mission and the Corps program. We have a lot of challenges. We 
have many unmet needs. The infrastructure in this country, we 
all know, is aging. But within the dollars that we have 
proposed in this budget, I think that we are going to do the 
best we can with the high-performing projects that we are going 
to be able to afford to fund.
    Senator Dorgan. Yes. I would guess the consensus of this 
subcommittee will be to re-prioritize the funding in the series 
of accounts in order to avoid a one-half-billion-dollar cut in 
water infrastructure funding. I just don't think that that's 
what we ought to be doing at this point.
    Let me ask General Van Antwerp a question. You used one 
word that concerned me. You said, ``I think we have the funding 
for this flood fight this spring.'' Did you mean to use 
``think''?
    General Van Antwerp. We do have the resources. Let me 
clarify. We do have the resources right now for everything that 
we can predict that we're going to need to do.
    Senator Dorgan. My colleagues will remember last year that 
the Red River flood fight went on for nearly a month. According 
to the National Weather Service, it appears there is nearly a 
100 percent chance that we will see major flooding within the 
coming weeks, particularly in the Fargo-Moorhead area. So, they 
are also working on a flood control project and Secretary Darcy 
and I and others have talked about this. It's a very important 
issue for them because it is a recurring problem and puts a lot 
of population at risk and property and so on.

                          RURAL WATER PROJECTS

    Let me ask, if I might, of the Bureau of Reclamation, how 
did you arrive at the funding decisions for rural water 
projects? Most of them seem funded at minimal levels, and the 
fact is at these levels, inflation is probably going to 
increase the project cost faster than the funding that we are 
investing in the project. So, can we get some notion of how you 
made these judgments about rural water?
    Commissioner Connor. With respect to the rural water 
program, we have been able to increase the level of funding up 
to the $62 million, which I think reflects a similar amount to 
that that was proposed in the 2010 budget. So, we are trying to 
keep a budget that makes some continued progress with respect 
to the two projects that have significant construction activity 
and are nearing completion. Those would be the Garrison project 
and Mni Wiconi. Within the available resources, given all the 
competing priorities, we're trying to present a budget that 
sustains activity in those other projects, keeps the 
administrative activity on the ground, and helps people 
continue to do their planning efforts and to do some level of 
maintenance on the project facilities that have been 
constructed since they're anywhere from 10 percent to 84 
percent fully constructed.
    So, I completely concede the point that at the funding 
level of $62 million, several of those projects are going to 
fall behind from an inflation perspective versus what we are 
able to invest. But it's a level that has been brought up from 
prior budgets over the last 3 or 4 years. We were able to make 
significant inroads in some of the activity with respect to 
Recovery Act money, and we're trying to prioritize within the 
available resources in that account on a couple projects and 
keep the others going.

                     INFRASTRUCTURE REHABILITATION

    Senator Dorgan. With respect to the Bureau, something 
Senator Bennett asked about or raised during his opening 
statement was that a recently passed lands bill, as Senator 
Bennett indicated, gave Reclamation the authority to address 
the rehabilitation of its aging infrastructure. Prior to this, 
it had been a non-Federal responsibility. But much of the 
infrastructure of the Bureau is well over one-half a century 
old, and some of it is in pretty poor condition, and yet no 
funding was provided in the budget.
    And I guess the question I would ask is does this mean this 
will be and remain a low priority for the administration? And 
with the infrastructure over 50 years old, much of it over one-
half a century old, the problem will increase rather than 
decrease; so has Reclamation developed contingency policies in 
the event of the failure of infrastructure?
    Commissioner Connor. Infrastructure is a very high priority 
in our budget, and our budget starts with baseline numbers of 
what it takes to operate and maintain our projects. That's 
where building our budget starts, with those activities. That's 
an annual view of maintenance to keep projects in operating 
condition. We do have a significant issue with respect to major 
rehabilitation, and the tool provided in the omnibus public 
lands bill was a very valuable tool. Previously, there was just 
no opportunity for our stakeholders to make that investment 
beyond a 1-year period. Now we have a tool that, if resources 
are provided, they can enter into a repayment contract not to 
exceed 50 years.
    So, that's part of what we need to be doing. We don't have 
any money request in the budget. You're correct. But we're 
still evaluating the needs in that situation. We invested $10 
million of Recovery Act money to assess the condition of our 
major canals. We're doing 95 stretches of canals that we 
anticipate we will have reports on through the end of this 
calendar year that will identify the need of where we think we 
need to make investments. We are talking with some stakeholders 
about their major rehabilitation needs, such as in Idaho, and 
initiating discussions on what a repayment contract would look 
like so that we can put that tool to work, should there be 
resources.
    And, finally, if we can do this without a major increase in 
our appropriations for this activity, one of the keys is to 
have the loan guarantee program that was authorized in the 2006 
Rural Water Project Act. In trying to implement that loan 
guarantee program, we came across several issues that need to 
be evaluated, and that's going to be on our agenda this year, 
to go back to the Office of Management and Budget and have that 
dialogue on that loan guarantee program.
    Senator Dorgan. Secretary Darcy, do we have the full 
commitment of the Corps of Engineers to work with the Red River 
Valley in Minnesota and North Dakota and the interests as they 
move forward, not only to fight that flood this year again, as 
they've done so many years, but also as they work locally to 
make judgments about the comprehensive flood control project 
that is necessary to protect the largest population center on 
the Red River Valley? Is the Corps prepared to work fully with 
State and local interests with respect to the Federal interest 
on these projects?
    Ms. Darcy. Yes, Senator, we are.
    Senator Dorgan. And anxious to do that?
    Ms. Darcy. Can't wait.
    Senator Dorgan. Happy to do that? It's going to be very 
important. I mean, we've got people living on an edge here that 
has been very troubling for them and now facing a very 
significant, major flood threat once again. So, I appreciate 
that.
    Let me make one comment, and that is that, you know, 50 
years ago, half a century ago or more, in this country we built 
new things. We did a lot of projects, a lot of new projects. We 
built an interstate highway system that connected the entire 
country. We couldn't do that now in a million years. You 
couldn't propose spending that kind of money to connect America 
with an interstate highway system, but the fact is, if we don't 
get serious about the infrastructure, yes, roads, bridges, 
water projects, you name it, we won't be the kind of country we 
used to be in the minds of people from around the world who 
came to see what America built. You know, we won't be making 
anything, and we won't be building anything. We've already gone 
way down the road in not making anything.
    But this budget is very important. This subcommittee is a 
very important decisionmaker about what our country is going to 
be in terms of the infrastructure we build for the future. 
These are big investments that create significant assets for 
decades to come. So, I want you all to work very hard inside 
the administration next year to bring better budgets if you 
can, because we're going to have to make significant judgments 
and changes in this budget. I just think it substantially and 
dramatically underfunds our water programs.
    As I indicated, we will have 7-minute rounds. I exceeded 
mine by a minute or so, but let me call on Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman, and 
thank you for your statement. I agree with you absolutely that 
this subcommittee is going to have to exercise its authority to 
try to correct some of the problems we have in this budget.

                       QUAGGA MUSSEL R&D PROGRAM

    Senator Voinovich focused on the carp and the difficulties 
that would create in the Great Lakes. People in Utah are very 
concerned about Quagga mussels and the impact that they will 
have as an invasive species in Lake Powell and other places. 
And in fiscal 2010, we provided funding to the Bureau of 
Reclamation to establish the Quagga mussel R&D program, and I'd 
like to know what the status of that is.
    Ms. Castle. Yes, Senator, the Quagga mussel program--the 
science and technology and research and development on both 
looking at materials that will resist the attachment of Quagga 
mussels and also looking at ways to kill them selectively 
without killing other life in the water--that is ongoing in 
Reclamation's Technical Services Center. The budget for science 
and technology this year, proposed for 2011 for the Bureau of 
Reclamation, is about $6 million. Of that, approximately $2 
million--and Commissioner Connor and Mr. Wolf can be more 
specific--is for that Quagga mussel research.
    Senator Bennett. Thank you. I appreciate that specificity 
and simply want to reaffirm the importance of following through 
on that.

                  CENTRAL UTAH PROJECT COMPLETION ACT

    You made reference, Secretary Castle, to CUPCA, the Central 
Utah Project Completion Act, and the budget is up $1 million 
compared to fiscal 2010. Obviously, you will insist that this 
is the right number, but can we probe that just a little and 
see what the total funding capability for CUPCA in fiscal 2011 
and why you think that's adequate?
    Ms. Castle. Senator, we were actually delighted to have an 
increase in the CUPCA budget for 2011 given the austerity of 
the overall budget. CUPCA also benefited, as you know, and you 
were responsible for significant Recovery Act funding. It's my 
understanding that CUPCA normally has about three project 
contracts going at a time. We now have nine as a result of the 
Recovery Act additional boost. So, that money has really 
allowed us, together with the 2010 and 2011 budgets, to move 
forward much more expeditiously than we had anticipated with 
CUPCA, and we are fulfilling the capability of the Central Utah 
Conservancy District.

                          2011 DROUGHT OUTLOOK

    Senator Bennett. Very good. Let's talk about drought. What 
is the drought outlook for the West in 2011? You've budgeted 
$380,000 for drought assistance, and that means you must be 
looking at a pretty wet year. Give me your background and your 
attitude with respect to that.
    Ms. Castle. Well, I'll take a crack at it, Senator, and 
then turn to Commissioner Connor. The drought outlook varies 
every year. We're used to seeing very significant droughts in 
the Southwest. This year, it looks like we're going to have 
significant drought in the Northwest, in the Columbia River 
system, in the Upper Colorado Basin. And we're focused on that 
in looking at our water management operations and trying to 
plan for the best use of the available water. Fortunately, many 
of our reservoirs have been able to refill over the past year, 
so we're going into this, in these drought locations, in better 
shape than might have been the case.
    The drought assistance money that the Bureau of Reclamation 
has had has not been huge amounts over its history. We have 
authority for drought assistance. That authority expires at the 
end of 2010 fiscal year. We do have $380,000 in the budget for 
the contingency that we are able to spend that money for 
drought assistance. We're able to use it for temporary 
structures and for the construction of wells to assist in 
drought relief. And that's something that we may want to work 
with the subcommittee on to look again at the authorization for 
drought assistance and determine whether those particular 
authorizations make sense in light of current conditions.

                              LAKE POWELL

    Senator Bennett. You say the reservoirs are refilling, and 
that is true in the Central Utah Project. Do you have any sense 
of where Lake Powell is going to be at the end of this year? 
Back up, but how much or is that just a----
    Ms. Castle. Yes----
    Senator Bennett. Yes, I realize, but you've probably done 
some studies as to where you think Lake Powell is going to be.
    Ms. Castle. The most recent figures that I've seen indicate 
that stream flows and precipitation, snow pack in the Upper 
Colorado, the source of fill for Lake Powell, is about at 68 
percent. So, it's been coming down and down and down. It 
started the water year out very well, but things have not 
progressed the same way. So, Lake Powell may not get any fuller 
than it was--last year it was about 60 percent at its peak of 
capacity. But let me defer to Commissioner Connor, who may have 
more specifics on that.
    Senator Bennett. Yes.

                          COLORADO RIVER BASIN

    Commissioner Connor. Just a couple additional thoughts. I 
think Lake Powell currently is a little over 60 percent of 
capacity. The real issue is the Colorado River Basin--and all 
the figures that Secretary Castle quoted are the ones we're 
working with. As a result, Lake Powell will probably release 
the minimum 8.23 million acre-feet this year to satisfy the 
Colorado River Compact obligations.
    Lake Mead is only at 44 percent capacity, and that's the 
real concern at this point in time in the Colorado River Basin. 
Fortunately, it was at 42 percent just a couple months ago. So, 
the moisture in southern California and that area has helped us 
save water, and that has improved the situation. And the 
coordinated operations agreement that the seven basin States 
put in place a couple years ago has helped us have an objective 
set of criteria to manage those two reservoirs so that 
everybody understands the rules and is dealing with them. But 
if we don't turn around and have a good precipitation year--
we're in a 10-year drought cycle in the Colorado River basin--
we're looking at the possibility, within a couple years, of 
having to declare a shortage in the Lower Colorado River basin. 
So, things are touch and go with respect to that system.
    Senator Bennett. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Tester [presiding]. Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman. Moving from Utah 
to Louisiana is about as different as you can get on this 
subcommittee, and it shows how difficult and challenging our 
work is, and your work, to accommodate the extraordinary needs 
of the Nation with very limited resources. The Senator was just 
questioning you about the lack of water, and I'm going to 
question you about the fact that we have so much of it we don't 
quite know what to do with it. And if we could keep it in our 
rivers instead of out of neighborhoods and cities where homes 
fill up to the roof with water, we would be in better shape, 
and that's what my line of questioning is.

                     LOUISIANA COASTAL RESTORATION

    I want to begin on a positive note, though, by thanking 
this team and particularly the President for, in all of the 
budget, designating only two new starts and one of those being 
the coastal restoration efforts in Louisiana, which we have put 
extraordinary and mighty and, I think, good work into getting 
the Nation's attention about the great need. And I want to say 
that we're grateful for the $10 million that is in this bill to 
begin turning dirt, at least the Federal Government begin 
really turning dirt, on Louisiana coastal projects, which 
protect not just south Louisiana and parts of Mississippi and 
actually benefit some parts of Texas, but actually benefit the 
entire Nation as we are the largest drainage basin in the 
Nation, the fifth or sixth largest delta in the entire world. 
We have the largest land loss anywhere in the lower 48. And 
it's quite an urgent matter.
    But my question is this: We have $10 million for new 
construction. That is going to be applied to 18 projects, 
currently approved and pending authorizations, General or the 
Secretary, the total of which is $2 billion in authorization. 
So, I just did a little rough math, assuming these projects 
will take anywhere from now to 7 years. We need $300 million a 
year just to finish these 18 projects, which are the first 
piece of the Louisiana coastal restoration effort. And you've 
given us $10 million. We're grateful, but how are we going to 
get where we need to go?
    Ms. Darcy. Senator, as you say, this is a start. The needs 
in coastal Louisiana have been identified by not only the 
Congress but on the ground down there. We've got ongoing 
studies also in the budget this year. We are funding six 
additional studies--the six studies for the LCA program.
    Senator Landrieu. I appreciate that. I don't want to 
interrupt. I appreciate that, but the point is this--that we've 
actually been studying this, the Federal Government has been 
studying this now for more than 20 years, and this is the first 
$10 million that's been directed in a budget for construction, 
of studies associated with coastal security and restoration. We 
don't really need more studies. What we actually need are more 
hard dollars to construct what we already know we should be 
doing. So, I just want to leave you, you know, with that 
challenge.
    I will second, ask for some comments from you, Madam 
Secretary, about the White House Working Group on Coastal 
Louisiana, which I know you were a part of, and this was part 
of the outcome of this work. How--I'm encouraged by the first 
step; I'm encouraged by the report that was released. How do 
you think--and I'd like, General, you to comment as well--how 
can we accelerate our work based on this new working group, and 
what does the Corps--how does the Corps either its changing 
role or a different role based on what this report has already 
indicated? And maybe, General, I'll ask you, and then come back 
to you, Madam Secretary.
    General Van Antwerp. Thank you, Senator. First of all, I 
think what it really is, is a signal for partnership and 
collaboration and really working with local authorities to get 
all of the input that we need so we get the preferred solution, 
the best solution, and the one that has the best benefit-cost 
ratio. I think it is definitely a move in the right direction.
    Senator Landrieu. Did you all talk about accelerating the 
time for planning, construction, and implementation?
    General Van Antwerp. We have had a lot of discussion about 
cutting the amount of time in the planning process. The other 
issue that we've been discussing is the external reviews, in 
that how can we make sure we get those done so that we get the 
best and the brightest working with us, but not to extend the 
time that it takes to get this done, to actually cut it down. 
We're really looking at saving time to get to the end state, to 
get to construction, as you've mentioned.
    Senator Landrieu. Well, I would just mention to my 
colleagues, this is really an unprecedented effort that's going 
on between the Corps and many of the environmental groups, the 
marine industry, the fisheries industry, the agriculture 
industry, the oil and gas industry, the State of Louisiana, and 
it really is an exciting project, but we're going to continue 
to need to accelerate the work and find additional resources.

                          LEVEE CERTIFICATION

    Going up to the top of my State, to Louisiana and actually 
up to the Mississippi, there is great concern--you've heard it 
mentioned again, and I guess maybe, Secretary, this would be 
for you--about the recertification of the levees. Now, these 
levees--this levee system was built in large measure after the 
great flood of 1927, and that was generations ago. We didn't 
even have GPS and the technology we have today to give accurate 
elevation accounts. Now we're--the Corps of Engineers is 
traveling up and down these levee systems through all of our 
States, coming up with accurate data, but it's causing a 
recertification of these levees, Madam Secretary. My question 
is; is there any money in this budget to help even one 
community with increased insurance costs or increased cost-
share?
    Ms. Darcy. Senator, the money included in this budget is 
not for certification for those levees. As you know, the local 
sponsor is responsible for the operation, maintenance, and the 
certification of those levees. We're finding across the country 
that they are challenged mostly because of the time constraints 
in getting a levee either certified or repaired, and then when 
the FEMA flood insurance requirements will kick in.
    Senator Landrieu. Well, I'm going to ask the Corps to 
submit to this subcommittee an estimate of the total amount of 
money that is going to be needed to accommodate these new 
certifications. I think this subcommittee is going to be 
shocked when the numbers come in, about what our communities 
are going to have to either step up or pay in money that they 
don't have or pay in additional insurance premiums to get flood 
insurance coverage, and for Ouachita, for Rapides Parish in my 
State. But it's all the way up the Mississippi River and 
perhaps in some of the other river systems as well, so.
    I have several other questions, but my time is out. I'll 
submit the rest for, you know, written response, and just to 
invite any of you that want to travel to the Netherlands, we're 
taking a third trip. This subcommittee has been gracious about 
supporting these efforts over time, and we've found some 
extraordinary peer opportunities in the Netherlands about water 
management, living with water safely, which is something I 
think our country needs to learn how to do a little bit better. 
Thank you.
    Senator Tester. Thank you, Senator Landrieu. And it does 
affect other drainages. I will defer till the end.
    Senator Cochran.

                  EXPEDITING PROJECTS FOR JOB CREATION

    Senator Cochran. Mr. Chairman, Madam Secretary.
    Secretary Darcy, we appreciate very much your efforts to 
work with the elected officials in our State of Mississippi to 
identify and try to help move forward water projects, 
reclamation projects, and protection of gulf coast areas that 
are threatened. And our Governor is hard at work trying to 
identify some of the things that can be done in cooperation 
between the State and its responsibilities and Federal 
Government agencies.
    The reason this has taken on a new urgency is that just 
this morning, we received word that unemployment in the State 
of Mississippi has reached 12 percent. That was not expected, 
but it--the news comes as a warning that we need to get busy 
and figure out ways to deal more effectively with unemployment 
problems and look to Government agencies who can contribute 
with accelerating projects that were already approved, already 
been funded, but where work and actual job-creating activity is 
not moving as fast as it could be. So, I'm hopeful that we can 
work with you and General Van Antwerp and others in the Federal 
agencies and the Corps of Engineers to try to identify some of 
these opportunities.
    One permitting project that can be expedited, I'm told, 
that has already be funded is the port at Gulfport, where work 
can be done to help modernize and recover from some of the 
damages that were sustained during Hurricane Katrina. We've had 
serious damages done there that need attention, and we can 
start work very quickly. There's a Mississippi coastal 
improvement plan which is also finished. It's my understanding 
that the Corps is looking at ways to improve and expand port 
capacity in the Gulf of Mexico. We have a Panama Canal 
expansion that's under way.
    So, things are coming together now and providing 
opportunities for us to really do some things that will help 
economically both State and national interests.
    So, I'm wondering--and I don't know which witness wants to 
take this question, but what is the time line now for 
implementation of the Mississippi Coastal Improvement Plan? We 
provided $439 million for barrier island restoration work, and 
we wonder when the work is actually going to begin.
    Ms. Darcy. Senator, I believe the work on that particular 
program which was authorized in an appropriations bill and 
included funding of $439 million, I believe that some of that 
work has begun. In addition to that, we have submitted to the 
Congress the Chief's report for additional ecosystem 
restoration for the barrier islands and others along the coast 
of Mississippi. It was the first Chief's report that we 
actually submitted to the Congress earlier this year, and I 
think that included 12 additional projects on the coast, 
including the barrier island restoration.
    Senator Cochran. General Van Antwerp, do you have 
information you can provide us?
    General Van Antwerp. I think that information covers it, 
but your other question about getting the permits required--
we're committed to getting the permits as quickly as we can in 
some of the areas like the Gulfport Harbor expansion. We are 
probably going to need an EIS there because of its large amount 
of fill and other things. Generally, an EIS takes 18 to 24 
months. We're looking at all of those aspects to try and 
expedite the permit process.
    Senator Cochran. Well, our Governor, Haley Barbour, is 
working very hard in his capacity as Governor of the State of 
Mississippi to help contribute to expediting these projects. 
And so, what I'm hopeful is that if you run into any delays 
that can be dealt with either by legislation or by accelerating 
appropriations directed toward some of these projects, you will 
please let us know. I'd like for you to look at the budget 
request you've submitted and find some areas where we can 
provide funding that will help achieve these goals of better 
and higher levels of protection and job-creating activities 
where the projects have been approved, Congress has approved 
them, directed that they be done, funding has been 
appropriated, but nothing is happening. So, we hope we can 
change that and we will have your cooperation in doing it.
    Ms. Darcy. Yes, Senator. I had the opportunity to tour the 
coast of Mississippi with the Governor several months ago, and 
he was adamant about not only expediting permits but, I think, 
to quote the Governor, about the expansion of Gulfport Harbor, 
he was ``as serious as a heart attack'' about that project. So, 
we're well aware of it.
    Senator Cochran. Well, with the Panama Canal expansion, the 
opening of the new parts of that, we're going to see a lot more 
traffic coming into the Gulf of Mexico, bigger ships. We're 
going to have to accommodate those ships at gulf coast ports. 
And the port at Gulfport is ideally suited geographically. The 
public supports the expansion. You're not going to have people 
out there lying down in front of the workers when they start to 
work. People are going to be cheering and applauding because 
they know it's a good idea economically, and in terms of 
environmental concerns, it has already been cleared. Thank you 
for whatever you can do to help expedite that.
    Thanks, Mr. Chairman.
    Senator Tester. Thank you, Senator Cochran.
    Senator Johnson.

               BUDGET POLICY OF THE BUREAU OF RECLAMATION

    Senator Johnson. I want to thank the panel for appearing 
before this hearing. It is nice to see you again, Commissioner 
Connor. And I hope that you are enjoying sitting on your side 
of the desk after all the years you've spent in the U.S. 
Senate. I also want to commend the Bureau on using the Recovery 
Act funds to speed up the completion of key projects on water 
systems in the Great Plains and South Dakota.
    Commissioner Connor, it is my understanding that the 
Bureau's first priority in funding rural water projects is a 
required O&M component, and then for construction, the priority 
is on projects nearest to completion and projects serving 
Indian tribes. That stated policy doesn't seem to align with 
the actual budget. I'm profoundly disappointed, in fact angry, 
at the Bureau's budget for South Dakota projects in particular.
    What the Bureau proposed was a budget that did not fund 
drinking water projects with a tribal component, such as Mni 
Wiconi, at their full capability, and then provided what 
appears to be a fig leaf of money for projects without a tribal 
component, such as Lewis & Clark. Can you explain to me what 
appears to be an absolute disconnect between the Bureau's 
budget policy and the actual funding requests?
    Commissioner Connor. Senator Johnson, there is some 
consistency with the priorities, given the fact that Garrison 
and Mni Wiconi did receive the most resources in the budget 
request, based on both their tribal components and where they 
are in the construction phase, being two of our most advanced 
projects.
    With respect to the other projects, we are within the 
resources we have, once again, which do not reflect capability, 
as you noted. We are trying to maintain some activity on those 
projects to allow there to continue to be planning activity and 
for there to continue to be some level of maintenance of the 
facilities that have been constructed. We did, as threshold 
matter, take into account O&M as the priority. So, we have $15 
million of the $62 million that's been identified in the budget 
is for O&M. I think it amounts to $5 million for Garrison and 
$10 million Mni Wiconi. And those are, quite frankly, eating up 
an increasing part of the overall budget that we can make 
available within the resources we have right now.
    So, I think the answer to your question is we are trying to 
allocate those resources on a proportionate basis, based on 
those priorities, those are the overall amounts that we have. I 
certainly understand it doesn't keep up with the construction 
schedules that could be attended to if there were available 
resources, and we're trying to do our best to keep the projects 
in some level of activity as we move forward.
    Senator Johnson. I would remind you that the State and 
local share has been completely exhausted, and all that's left 
is the Federal share.
    I know that the State of California has required quite a 
bit of your time and energy over the past several months. 
Speaking for members of the Great Plains region, I'd like to 
extend an invitation to you to travel to South Dakota to see 
for yourself the progress being made in completing these 
important rural water projects serving hundreds of thousands in 
South Dakota.

                        NORTHERN PLAINS FLOODING

    General Van Antwerp, the Northern Plains region are under 
the threat of significant overland and river flooding this 
spring as a combination of very wet snow pack and saturated 
grounds from a rainy, wet fall. Can you please describe in 
detail what actions the Corps of Engineers are taking now to 
prepare for a possible severe flooding?
    General Van Antwerp. Thank you, Senator. We're taking a lot 
of action right now. To outline a few of the things--first of 
all, we've gotten with NOAA and we have the projections, as 
best as they can determine right now, and that gives us the 
early warning. We know that there is going to be significant 
flooding. We've started with our community involvement. It's 
actually been going on for quite some time, with the State and 
Federal agencies. We've looked at the request for advance 
measures and have received a lot of those where we've looked at 
our inventories of things such as sand bags for example, and 
things that would be part of those advance measures. We have 
the resources we feel necessary to fight these floods. We 
actually have people out on the levees today with the local 
folks.
    One of the other things we do is we lower the water levels 
at our reservoirs. We're doing that right now in anticipation 
so that we can be as ready as we can. We had a meeting 
yesterday with all of our Commanders associated with this and 
our security chiefs that have to do with the flood fighting 
just to make sure those personnel resources can be made 
available and are available when this happens.
    We also have another event pending in the Pennsylvania 
area, in which our Pittsburgh District handles. We're going to 
be all across the country, maybe as early as this weekend.
    Senator Johnson. Thank you, Mr. Chairman.
    Senator Tester. Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman, Senator 
Bennett, for holding the meeting, my apologies for arriving 
late. Senator Murray and I have the responsibility to try to 
straighten out HUD with Secretary Donovan. She is questioning 
him at length and will be here, and I'm going back. Anybody 
wants to go take a few shots in the interim, please do so.
    But, Lieutenant General Van Antwerp and Madam Assistant 
Secretary thank you very much for your testimony.
    Jo-Ellen, we welcome you back to the Senate. I hope I won't 
get you in trouble with the administration to say that we all 
were glad to have a long-time friend from the legislative side 
on the other side of this debate. So, I hope it doesn't mess 
you up.
    But as you all know well, there's one issue that's near and 
dear to the hearts of several of us. Senator Dorgan and I are 
both very interested in the regulation of the Missouri River. 
Now that Senator Dorgan and I have full lakes and a full 
navigation season, our work is complete, so we both are able to 
retire from the Senate in 2011. I know how much you will miss 
us both and all our helpful counsel, but with us gone now the 
entire burden lies on you, don't blow it.
    We finally got the lakes and the rivers full, and it's up 
to you to keep it going.

                       INLAND WATERWAY MANAGEMENT

    But on waterways in general, we have some very difficult 
economic times, and we're all looking for stimulus. There's a 
lot of money being spent. I hope that you two are being strong 
advocates within the administration for budget priorities. And 
there are budget priorities that are very important.
    We have immense capacity on our rivers for shipping. It's 
efficient. It takes far less energy, releases far less 
pollution, and it's a big answer to long-term congestion 
problems. This is a win-win opportunity. We have projects in 
the backlog that are shovel-ready, and I hope you're looking at 
these and fighting for them. They need to be--they need to be 
included in the budget and the plans. A big priority for a lot 
of us in the Midwest is modernizing the Social Security-age 
locks on the Mississippi River. If you are for increased trade, 
commercial growth, and job creation, all of which we 
desperately need right now, you cannot get there without 
supporting the basic transportation and infrastructure, like 
the much-needed new locks and dams on the Mississippi.
    As we look 50 years into the future, we have to ask 
ourselves a fundamental question: Should we continue to be 
stuck with a system that was designed in a transportation 
straightjacket for 1950 rather than 2050? It was designed when 
we still had paddle wheel boats, and we are strangled. I've 
visited those locks. I've seen the double locking they have to 
go through. And we know that if one of those locks--they don't 
just leak right now; sheets of water come down when the water 
is low. If one of those locks on the lower Mississippi--one of 
the lower ones goes out our trade is going to be crippled.
    You remember what happened--well, those of us in 
agriculture territory know what happened when Hurricane Katrina 
blocked the mouth of the Mississippi River. I mean, it was a--
it was a huge shock to the entire economy of rural Midwest. 
That's where I live. That's where my people live. And I was 
very troubled and disappointed that while funds for river 
modernization are authorized, there's no money for those 
projects in the budget. The oversight is disappointing since 
the locks are our Nation's most important inland waterways and 
the projects are ready to go. I'm stumped by the budget 
oversight. Since the President has been on his--you may 
remember he was a lead partner with me in authorizing the 
project, and the future is now in his hands. Get the word to 
the Budget Office.
    I see this as a most promising opportunity to get something 
big and important underway. It is good for jobs. It is good for 
reducing energy dependence, and it is the best thing we can do 
in transportation right away for lessening pollution. This 
project would involve 48 million man-hours, creating much 
needed jobs. And our friends in labor, throughout the Midwest, 
are crying for this job stimulus, which is good for the 
economy, good for the environment. It will put--it will help 
people in the Heartland grow, mine, manufacture things, and be 
more competitive.
    Additionally, river modernization has broad ecosystem 
restoration components, and while that doesn't create as many 
jobs as we would see on the commercial side, it would help 
broaden the support for pressing forward with a meaningful 
project with bipartisan support. And, as I said, the President 
when he was in the Senate was a vigorous supporter of this, and 
we need OMB to get the joe.
    Now, I guess I'm going to be sending a letter to the 
administration, but, General, let me ask you, are you working 
on these opportunities? Are you looking for similar 
opportunities where the Corps can work with stakeholders, work 
on American job creation, and work to get the necessary 
financing behind the projects that I think anybody who has paid 
any attention to it knows we badly need? What's happening? 
Where are you going? When are we going to see some budget 
recommendations?
    General Van Antwerp. Thank you, Senator. There are a lot of 
questions in there. I'll try and give it my best shot. I was--
--
    Senator Bond. How are we going to get--we need money in the 
budget.
    General Van Antwerp. Right.
    Senator Bond. That's the question.
    General Van Antwerp. That's the bottom line.
    Senator Bond. What are you doing to get it there?
    General Van Antwerp. I guess the first thing is to really 
know what we have and what condition they're in, and we do know 
that now.
    Senator Bond. Yes.
    General Van Antwerp. So, we can prioritize those things. 
You know we had some lock chamber problems this year, and what 
we don't want is unscheduled outages because that's what backs 
up the industry. We do know what we have, and we've taken these 
dollars in this budget and, as best we can, prioritized for 
those that are most crucial, have the largest impact, and have 
the most--I guess the most opportunity for failure. So, that's 
how we've budgeted right now.
    Senator Bond. But you know there--the needs are far greater 
than the dollars in the budget.
    General Van Antwerp. The needs are far greater than the 
dollars we have----
    Senator Bond. Far greater.
    General Van Antwerp [continuing]. To put against them. Yes.
    Senator Bond. What can you do to help get the dollars 
there?
    General Van Antwerp. Well, I think that the first step 
really is what we've done, and that is to let the need be known 
with the priorities, so that we know that with whatever dollars 
we have, we're able to do the best we can. We have some 
American Recovery and Reinvestment Act dollars in the O&M 
account, about $2 billion in the civil works arena. That helped 
a lot, but the backlog is great. The American Society of Civil 
Engineers says the infrastructure backlog in the country is 
$2.2 trillion. That is what we're up against, and we have a 
part of that, as you said. It's Social Security age. I like the 
way you stated that. That's the age of our lock system.
    Senator Bond. Unfortunately, when we talk about Social 
Security age, I'm at the age where ``don't ask, don't tell'' 
refers to the year I was born in so, I know something. The 
locks are older than I am which should be shocking.
    Mr. Chairman, I am going to--I'm going to have to go back 
to the hearing, but I know that Senator Murray obviously has 
quite a few things she'd like to ask. But I'll leave you with 
good wishes and the profound hope that we can work together and 
make sure we get the money in the budget for what is a 
tremendous opportunity that we're missing now.
    Senator Tester. Thank you, Senator Bond. And tell Senator 
Murray that, when she gets here, we'll be open for business, 
but tell her to move quickly.
    Senator Bond. I'll do that.
    Senator Tester. Thank you.

                          LEVEE CERTIFICATION

    This is a question for Secretary Darcy and General Van 
Antwerp, and it deals with a singular town, but by Senator 
Landrieu's questions, it's more broad-spread than that, and I 
think you know that.
    Right now, the city of Great Falls is having--Great Falls, 
Montana, is having a serious problem getting their levees 
certified for inclusion on the FEMA flood maps. Last July, FEMA 
let Great Falls know that their levees would need to be 
certified. When Great Falls went to the Army Corps for help, it 
turns out that those policies changed the January before to say 
that no Federal funds could be used on levee certification 
unless it was in an active Army Corps area project. That left 
not only Great Falls but a lot of folks scrambling to find out 
how they could come up with an engineering firm that was 
qualified to do the work and, second and even more challenging, 
a way to pay for it. Because all the communities in Montana are 
rural, you do not have the population to be able to spread out 
those costs.
    I was just wondering why that change was made, why the Army 
Corps made the change to not do any more certification, and 
what are they doing to help small communities with levee 
certification.
    Ms. Darcy. Senator, the decision was made to change the 
policy because of resource limitations to certify the levees. 
We, at the moment, are trying to work with the locals in order 
to provide some sort of way to help them with their 
inspections, but at this time, we don't have a budgeted 
resource for that service.
    Senator Tester. Okay. So, ultimately--I mean, Senator 
Landrieu asked a question of how much it was going to cost. 
We've heard anywhere from, well, around $30,000 a mile. The 
folks in Great Falls that I talked to said it was going to be 
more than that. How are we going to solve this problem? Because 
the fact is, if we don't get the levee certified, if they don't 
have the means to do it, and the flood insurance goes up, 
houses don't get sold--it further depresses an already 
depressed economy. How are we going to fix it?
    Ms. Darcy. Senator, I think one of the things we can look 
at doing is working with FEMA. I think one of the challenges 
that many of the local sponsors are finding is one of time, 
that there's a 2-year window here in order to get your levee 
certified before the increased flood insurance rates would kick 
in, and in many instances, it may just be a matter of time in 
order to get the resources and get the levee in shape to get 
certified.
    I think if we can work with FEMA in order to look at some 
kind of--I'm not sure what the end result would be, but I think 
we need to look at that because there are lots of people, not 
only in Montana, but around the country who are faced with the 
same challenge. And it's not that they were bad actors; it's 
just there's not the time nor the resources to do whatever is 
needed to bring the levee up to certification.
    But your point about is there a firm in their geographic 
area or nearby who has the capability and----
    Senator Tester. Right.
    Ms. Darcy [continuing]. And the wherewithal to provide that 
certification.
    Senator Tester. And it's not only time; it's liability, 
too, because during that 2-year period, the liability shifts to 
local cities, towns, counties. Is there anything that can be 
done about that?
    Ms. Darcy. That, again--I think we have to address it. I 
can't tell you right now what that would be.
    Senator Tester. Okay.
    General Van Antwerp. Senator, if I might add, one thing 
we're doing right now is we're trying to get the databases for 
inspections that have been done so that it can cut down on the 
cost of certification. There are a lot of A-E firms out there 
that will do the certification today, but, as you suggested, 
it's the cost. And it can range from between $150,000 to $1 
million depending on----
    Senator Tester. How big the levee is?
    General Van Antwerp [continuing]. The levee.
    Senator Tester. Yes and the other issue is bonding, because 
of the liability issue.
    General Van Antwerp. Right, your liability associated with 
that.
    Senator Tester. Yes. Along those lines, you are 
performing--the Army Corps is performing some work on those 
levees. Is it your opinion that work will be able to be used in 
the recertification project to help drive costs down, even if 
the recertification is done by a private engineering firm?
    General Van Antwerp. We basically have four types of 
levees. We have levees that are Corps-built, Fed-built, and 
Fed-operated O&M.
    Senator Tester. Yes.
    General Van Antwerp. Then we have the Fed-built, but 
locally maintained.
    Senator Tester. Right.
    General Van Antwerp. And then we have some that are in a 
category that we flood-fight, and then we have the others. And 
the others are about 100,000 miles worth.
    Senator Tester. That's fine.
    General Van Antwerp. So----
    Senator Tester. The question is, is where you are already 
doing certification work, is it possible to use that 
certification work to help keep costs down by a private firm 
that's doing certification work? And----
    General Van Antwerp. We're working----
    Senator Tester [continuing]. Is that being done now, 
because there's a lot of work that has to be done.
    General Van Antwerp. Where we're doing certification work 
right now is in the area where it's Fed-owned and Fed-
maintained, and so that's the limit of what our resources 
allows us to do. So, that other area, other than giving them 
all the data we have for those other types of levees, that's 
been our contribution to try and help them cut costs.
    Senator Tester. Okay. And just to confirm, I heard you, 
Secretary Darcy, say that you were going to--because this is my 
next question. I think you may have already answered it. That 
the Army Corps was going to work with FEMA to help with local 
communities with the flood issue. Because it's--I mean, we've 
got them across the board. I mean, town that have--Malta, 
Glasgow, Chinook, Saco. I mean, some of these are really small 
towns. There has to be a solution for this; otherwise, we're in 
big trouble.
    Ms. Darcy. I think that we will need to work with FEMA in 
order to help to address that concern because, as you noticed 
and as you have stated, it's nationwide.
    Senator Tester. Okay. Thank you. I'm going to kick it over 
to Senator Murray, and then I've got some questions for the 
Corps after Senator Bennett gets done.
    Senator Bennett. I'm waiting to hear what Senator Murray 
has to say following on Senator Bond. So----
    Senator Murray. I will just send him back to 
Transportation, so.
    Well, thank you very much, Mr. Chairman. I really 
appreciate your having this hearing. I know the Corps is facing 
some tough budget times ahead, and I appreciate the work all of 
you do out on the ground.

                           HOWARD HANSON DAM

    General, I wanted to talk to you because, as you know, 
Howard Hanson Dam in my home State of Washington, has a 
significant seepage problem that is putting all of our 
downstream communities at serious risk of very, very dangerous 
flooding, and I really want to thank you and Assistant 
Secretary Darcy for coming out, visiting the dam and seeing 
first-hand how important this is to all the people in the Green 
River Valley below it. And I see that General Grisoli and 
General McMahon are in the audience as well. They came and 
talked with all of us last week. I know they are up to date on 
this. And I appreciate the tremendous amount of work on this.
    I know that the Corps is currently working on a study now 
to determine what needs to be done at Howard Hanson Dam, and as 
you know, this study needs to be completed by a certain point, 
by June of this year, in order to be considered for the fiscal 
year 2012 construction funding. I sent a letter to you all back 
in February urging you to move quickly on the study so that we 
will know what we need to do to protect our Green River Valley 
communities, and I can't stress enough how important it is that 
the Corps get that done.
    So, my question to you this morning, General, is what 
assurances can you give me that this study will in fact be 
ready by June of this year?
    General Van Antwerp. Thank you, Senator, for the question. 
I'm getting the latest and greatest information right now.
    Senator Murray. I can see that.
    General Van Antwerp. The study will be at the point that we 
will have alternatives identified so that we can begin the 
process of the design.
    Senator Murray. By June of this year?
    General Van Antwerp. Yes, ma'am.
    Senator Murray. Okay. I really appreciate that. And, 
Secretary Darcy, thank you so much for your work and working 
with us a lot on the advance measures for Howard Hanson and, 
again, for coming out. I want to continue working with you to 
find ways, as we move forward on this, to make sure everybody 
is as safe as possible.

                             COLUMBIA RIVER

    But I do want to ask you this morning about another 
critical issue to my State. I worked very hard and was able to 
include $26.6 million in the Recovery Act for the Army Corps to 
complete the Columbia River Channel Deepening Project in 
Washington State. It was a big victory for the region. That 
deeper channel is so important to us to accommodate larger 
ships, to help the economy in the region, and to support 40,000 
jobs that depend on that maritime commerce. That project, right 
now, creating jobs is people at work. I was there a few weeks 
ago. It is really laying the foundation for long-term economic 
growth, and that's why I thought it was such an important use 
of recovery funding.
    But I am concerned still that all of that work that we've 
done and all the time we put into that will be for nothing if 
the Columbia River jetties fall into disrepair. Those jetties 
are so important to our shipping industry. That supports 
billions of dollars in economic activity throughout the region. 
Those jetties actually protect the mouth of the Columbia River 
from all the ocean waves as well as a lot of beach sand that 
clogs that shipping channel. And their continued effectiveness 
is absolutely essential to this region and to our economic 
health.
    So, I was really happy that the Corps did put forward a 
plan to bolster those jetties, and I'm committed to working 
with you to make sure that you have the resources you need to 
get that done.
    But my question this morning is, directly to you, will you 
continue to work with me and our local communities to make sure 
that we move forward in a timely fashion on those critical 
jetties' repair?
    Ms. Darcy. Yes, we will, Senator.
    Senator Murray. And you'll continue to prioritize that 
issue, plan budgets to make sure we have the necessary funds 
for it as well?

                      ODESSA SUBAREA SPECIAL STUDY

    Ms. Darcy. We will strongly consider it always.
    Senator Murray. Okay. Thank you very much. I appreciate it.
    And, finally, Commissioner Connor, while you're here, I 
wanted to ask you--I'm really disappointed that the President's 
budget doesn't include funding for our Odessa Subarea Special 
Study. You know the Columbia Basin Project is a critical tool 
for our farmers in my home State of Washington and neighboring 
States. It secures a reliable surface water supply for the 
producers. That's very important to making sure that the 
continuation of agriculture in central Washington and to 
protect our ground water supply as well. Can you tell me this 
morning how the Bureau is progressing with the funding Congress 
has provided? And are you still on track for completion in 
2011?
    Commissioner Connor. At this point in time, we are making 
good use of the resources that Congress has provided and that 
you specifically were able to get for us with respect to the 
study activity. So, we are on track right now with the 
environmental impact study to get a draft out this spring 2011. 
Hopefully, we will not have a whole range of issues, and the 
game plan is then to be able to finalize that document in the 
spring of 2011. So, we still are on track at this point in time 
with the funding provided by this subcommittee, plus the State 
funding. I think we've got enough. We will keep your office 
posted if we think we're going to run short of funds.
    Senator Murray. Okay. Please stay in very close touch with 
us. This is very important for that region of our State--
actually, for our entire economic region there. So, I 
appreciate it very much, and we want to continue to work with 
you on that.
    Commissioner Connor. Absolutely.
    Senator Murray. Mr. Chairman, thank you for letting me jump 
in, I appreciate it.
    Senator Tester. Absolutely. I thank you, Senator Murray.
    A couple questions more for the Corps, and then we'll go 
over to the Bureau of Reclamation.

                          CERTIFICATION COSTS

    The Omaha folks from the Army Corps were in my office 10 
days ago, and we talked about the certification issue. One of 
the things that they brought up that I didn't follow up with 
them, so I will with you, is could the Corps do certification? 
They've said it would cost a lot more for the Corps to do the 
certification than it would for a private engineering firm to 
do it. Is that correct, and if it is correct, why?
    Ms. Darcy. I don't know if that's correct.
    Senator Tester. Okay. That's all--that's good enough.
    Ms. Darcy. I couldn't tell you which was more costly.
    Senator Tester. Okay. That's cool. Since we've got the 
Corps and the Bureau of Reclamation here today, it is good to 
have you all here. And, by the way, from the lines of 
questioning, you've got a very difficult job, and I appreciate 
the work you do. Everybody's got their priorities, and it seems 
like some of them are at loggerheads with one another.

                   ST. MARY'S REHABILITATION PROJECT

    But I want to ask you about a project in Montana we've 
talked about. The chairman of this subcommittee has helped with 
it a lot. The St. Mary's Rehabilitation Project. That project 
is probably nearly as old as Senator Bond's dad.
    Last time I went out there, there were chunks of concrete 
falling off the dam. The Bureau of Reclamation has been getting 
appropriations for the studies to rehabilitate the project. In 
the last water bill, the Army Corps was authorized to do the 
project on a cost-share. Since you're both here, my question 
is, which one is going to take the lead?
    Ms. Darcy. Did you see us looking at each other?
    Senator Tester. You can arm-wrestle in the middle, if you'd 
like.
    Commissioner Connor. He who speaks first--is that the----
    Ms. Darcy. The WRDA authorization of 2007 did give 
authority to the Corps and at that cost-share; however, it is 
not budgeted for in the Corps budget. And I think that the 
Bureau has $3 million--is that right--for this year? I'm not--
--
    Senator Tester. So that indicates that the Bureau will be 
taking the lead.
    Commissioner Connor. At this point in time, we have some 
resources.
    Senator Tester. Okay.
    Commissioner Connor. We see a process to start dealing with 
the diversion dam issues with ESA; we can also look at 
rehabilitation. So, that's what's happening in 2010.

                      RURAL WATER PROJECT BACKLOG

    Senator Tester. Super. Commissioner Connor, you testified, 
I think last--it was last fall now that you have about $2 
billion in authorized rural water projects as a backlog. What 
are we going to do about it? Do you guys have a--do you have a 
plan for that to get them addressed? And the reason I bring it 
up is because--the comments I made in my opening statement. A 
project that I started working on 12 years ago that was $100 
million is--two of them. They were each $100 million projects. 
Now they're each $300 million projects. The money that's been 
appropriated over the--well, the money that's been 
appropriated, with the exception of the Recovery Act dollars, 
hasn't even kept up with inflation. And I'm sure they're all in 
that same boat if they're backlogged in. What do you have--I 
mean, what--what's your vision?
    Commissioner Connor. Well, the vision right now is one 
that's an incomplete picture, quite frankly. Through the last 2 
years with the increases in our budget that have been provided 
by Congress, plus the priority placed on rural water through 
the Recovery Act, we've been fortunate to be able to invest 
something to the tune of $460 million in these rural water 
projects. That still leaves a $1.2 billion backlog in 
authorized projects, and if you add in the pipeline projects 
we're doing associated with Indian Water Rights Settlements, we 
are at the $2 billion figure.
    Senator Tester. Correct.
    Commissioner Connor. So, we've got a good work plan for 
2010, even through 2011, since there's a large amount of 
construction activity. But then we're in a situation where 
there's a big gap in how we're going to fund. With respect to 
some of the Indian Water Rights Settlement programs, we've got 
some help on the way in 2020 through some direct expenditures 
that are available through the Reclamation Fund, and that was 
part of Public Law 111-11.
    But right now, we are looking at a situation where, you 
know, the facts tell the story. We are at $62 million per year, 
given the construction schedules and the need versus that $1.2 
billion, we are not keeping up with inflation dollars at this 
point in time, and we are looking at Government-wide flat 
budgets for the next few years. So, we will continue to try and 
prioritize the projects, get done what we can as we've done 
with prioritizing Garrison and Mni Wiconi this year. We may 
look at reallocating some funds, not much, but we are in the 
process of finalizing how we're going to reallocate Recovery 
Act funds to make sure we can meet the statutory deadlines. But 
I can't sit here and tell you I have a game plan that's going 
to solve that issue right now, in the coming years.

                               FORT PECK

    Senator Tester. All right. All right, last question--it 
actually goes off of Senator Bond's question. I wasn't going to 
ask this, but I've got to. We've got a little lake in Montana 
called Fort Peck, and a few years ago, when you flew over Fort 
Peck, it didn't look like a lake anymore; it just looked like a 
river because it was pretty well depleted. It has not--I don't 
think it's close to full pool at this point in time. I think 
it's got a long ways to go to get to that point. But it is 
better than it was a few years ago.
    The question I had, since you--the Army Corps is 
responsible for that, is there enough water to take advantage 
of the recreational opportunities in a place like Fort Peck, 
that's critically important to their economy, and take care of 
our shipping needs downstream? Or is that--must that be 
prioritized? And what's the Army Corps's priority? Is it for 
the shipping or is it for recreation, as we move forward?
    Ms. Darcy. Senator, I think, with regards to Fort Peck, the 
releases from Fort Peck into the Missouri River are, many of 
them, dictated by some endangered species that are downstream, 
as opposed to the shipping interests. I think we currently need 
to sustain the population of the pallid sturgeon and the least 
tern----
    Commissioner Connor. And----
    Ms. Darcy [continuing]. On the Missouri, in that stretch of 
the river between Fort Peck and the Missouri. That is what is 
helping to dictate the operation manual for Fort Peck.
    Senator Tester. So, it isn't dictated off of shipping?
    Ms. Darcy. It's dictated off of the authorized use of Fort 
Peck, of the Fort Peck Dam that was built there.
    Senator Tester. Okay. Let me back up a little bit. Is 
release based off of endangered species or is it--is it based 
off of shipping needs downstream?
    Ms. Darcy. It's based off of the authorized purpose of the 
Fort Peck Dam.
    Senator Tester. Which is?
    Ms. Darcy. Which is--I believe it is recreation and----
    Senator Tester. Okay.
    Ms. Darcy. It is multi-purpose.
    Senator Tester. Just--yes.
    Ms. Darcy. I know its recreation.
    Senator Tester. Yes.
    Ms. Darcy. But I know--but I know part of what is 
determining the operation--when the master manual was redone--
--
    Senator Tester. Yes.
    Ms. Darcy [continuing]. In the late 1990s.
    Senator Tester. Yes.
    Ms. Darcy. Consideration had to be made for the endangered 
species downstream.
    Senator Tester. Okay. We'll continue the dialogue as we 
move forward because, as we talk about flooding downstream in 
the Missouri River, I don't think it's going to come out of the 
mountains of Montana. We're at about 60 percent of normal in 
snow pack. And so, that's going to put the water level at Fort 
Peck becoming a big issue again, as it always is.
    I want to thank you all for being--Senator Bennett, did you 
have anything?

                     ADDITIONAL COMMITTEE QUESTIONS

    At this time I would ask the subcommittee members to please 
submit any questions they have for the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Departments for response subsequent to 
the hearing:]
   Questions Submitted to Hon. Jo-Ellen Darcy and Lieutenant General 
                         Robert L. Van Antwerp
             Questions Submitted by Senator Byron L. Dorgan
                        general budget questions
    Question. The budgetary criteria used for determining the budget 
request is not statutory, correct?
    Ms. Darcy. Yes, that is correct.
    Question. How is the criteria developed?
    Ms. Darcy. The budgetary criteria were developed in response to the 
Government Performance and Results Act, establishing Civil Works 
business lines and developing criteria to delineate performance and 
prioritize programs, projects, and activities for inclusion in the 
budget.
    The four principal metrics for the Civil Works program are, in 
brief, Benefit-to-Cost Ratio, (BCR), potential to contribute to human 
safety, potential to cost-effectively restore important aquatic 
ecosystems, and effectiveness in reducing risk of failure in high 
consequence situations. Applicable criteria are applied to each 
project. Where more than one criterion applies to a project, these 
criteria are considered in conjunction to make a balanced decision on a 
project's merits. The Corps continues to refine the performance 
metrics.
    Question. What happens if a project that the administration 
determines to be worthwhile does not meet the established budgetary 
criteria?
    Ms. Darcy. All eligible projects that are consistent with 
administration policies compete on a level playing field for inclusion 
in the budget. Projects that are considered for budgeting are 
consistent with the Corps' main mission areas and the projects' 
environmental and economic performance. Projects that do not meet 
budgetary criteria are not included in the budget.
    Question. Is the criteria adjusted during preparation of the 
budget?
    General Van Antwerp. Adjustments to the criteria are occasionally 
made during formulation of the President's budget to reflect 
administration priorities. For example, ongoing non-structural projects 
with BCRs of 1.0 or greater were considered for funding in fiscal year 
2011 because of the importance to the administration of ecosystem 
restoration and non-structural solutions to water resource challenges. 
The BCR thresholds for inclusion in the budget also may vary over time, 
depending on the funding available for the Civil Works program within 
the President's overall priorities.
    Question. How would the budget request differ if you only used the 
statutory requirements for considering projects?
    Ms. Darcy. Statutory requirements do not provide a basis for 
prioritizing eligible projects for funding. BCRs, Regardless of what 
criteria are used, projects still need to be prioritized for funding, 
because the universe of authorized projects far exceeds the amount of 
funding available.
    Question. Would it be correct to say that the budgetary criteria 
are arbitrarily changed from year to year to accommodate funding 
amounts or does the budgetary criteria drive the funding amounts 
provided?
    Ms. Darcy. Budgetary criteria can change periodically to reflect 
changing National priorities, but that does not mean they are 
arbitrary. Objective performance criteria are used to determine the 
high performing projects to be included in the President's budget. The 
total amount of funding available in the budget for the Civil Works 
program is a function of the President's overall policies and 
priorities.
    Question. How do you explain the reduced request from fiscal year 
2010 to fiscal year 2011?
    Ms. Darcy. The fiscal year 2011 budget supports the 
administration's commitment to constrain the overall level of non-
security discretionary spending. The fiscal year 2011 funding level 
reflects a practical, effective, and sound use of the Nation's 
financial resources.
                                  arra
    Question. Why has the administration consistently refused to fund 
shore protection projects with ARRA particularly when in some cases 
these projects have higher benefit to cost ratios than projects the 
administration has chosen to fund?
    Ms. Darcy. Last Spring, the administration allocated ARRA funds to 
high priority infrastructure work. At the same time, the administration 
engaged in a review of executive branch policies for shore protection 
projects. Subsequently, shore protection projects with the highest 
benefit cost ratio were included in the Presidents fiscal year 2011 
budget.
    Question. What is the status of the obligation of the ARRA funding?
    General Van Antwerp. Approximately $3.2 billion, or 70 percent of 
the total of $4.6 billion, has been obligated.
    Question. How much of the ARRA funds have gone to small businesses?
    General Van Antwerp. To date, 73 percent of all ARRA contracts and 
45 percent of ARRA funding, or $1.3 billion, went to small businesses.
    Question. How do the projected jobs to be created by ARRA compared 
with the actual job creation?
    General Van Antwerp. Comparisons are difficult for several reasons: 
Not all recipients of Civil Works ARRA funds reported initially, and 
there was uncertainty about how to calculate the jobs supported by ARRA 
funds. Also, recipients of ARRA funds do not report jobs supported by 
their subcontractors, which likely is a significant number for the 
construction and maintenance work the Corps has funded. I understand 
that the rule of thumb used by the Council of Economic Advisers is 
$92,000 per job. For $4.6 billion, this would translate into about 
50,000 jobs over the total period of spending. For the fourth quarter 
of fiscal year 2009, recipients of Civil Works funds reported that 
Recovery Act funds were creating or retaining jobs at an annual rate of 
2,145. In the second quarter the number of jobs reported to be created 
or retained was 6,047 at an annual rate.
    Question. How accurate do you feel your job creation count is?
    General Van Antwerp. There have been challenges with under-
reporting and data accuracy. The Corps is working closely with ARRA 
recipients to ensure complete job data is provided for the recovery 
reporting job count. The target for the next fiscal quarter is 100 
percent accuracy in reporting by 100 percent of the recipients required 
to report.
         new orleans technical report on category 5 protection
    Question. Is the Louisiana Coastal Protection and Restoration 
technical report complete? It is now over 2 years overdue for 
submission to Congress. Where is the report now and when do you plan to 
submit it to Congress?
    General Van Antwerp. The Corps of Engineers has completed its 
technical evaluation and transmitted it to the Assistant Secretary of 
the Army for Civil Works. Additional information will be provided to 
the Assistant Secretary's office as soon as possible, to enable 
completion of their review.
    Question. Once the State of Louisiana has provided input on its' 
views regarding the Louisiana Coastal Protection and Restoration Report 
and you provide the report to Congress, how will you move forward on 
the findings of the report?
    General Van Antwerp. The Corps will engage with the State to 
establish a cost sharing agreement and establish priority coastal areas 
and risk reduction options for further evaluation. Some of the final 
risk reduction options identified in the Louisiana Coastal Protection 
and Restoration Technical Report are already being incorporated for 
further evaluation under other ongoing feasibility study efforts such 
as Donaldsonville to the Gulf of Mexico and Southwest Louisiana Coastal 
studies.
    Question. The Mississippi Coastal Improvements program report, 
started at the same time as the Louisiana report, recommended near term 
and long term solutions--some of which have already been funded. In the 
drafts of the Louisiana report, there seems to be more of a focus on 
providing options without providing recommendations. If you as our 
experts cannot make recommendations to improve hurricane and storm 
damage protection along the Louisiana coast, who should be making those 
recommendations?
    General Van Antwerp. The findings of the Louisiana Coastal 
Protection and Restoration technical analysis identified multiple 
effective approaches for greater reduction of risk in any specific area 
of coastal Louisiana. However these approaches produce varying levels 
of risk reduction in exchange for varying and significant exchanges, or 
tradeoffs, of impacts to the public directly, social and economic 
viability, and the environment, in addition to a range of significant 
fiscal investment at the Federal and State level. As a result it is 
viewed as critical that the final recommendations involve an 
interactive consideration of the risk tradeoff values of the affected 
communities and region and not be solely a function of technical 
evaluation by the Corps.
                 louisiana hurricane protection system
    Question. What is the status of the repairs to the existing 
hurricane protection system?
    General Van Antwerp. By June 2006, the Corps had repaired and 
restored 220 miles of the system to the pre-Katrina level of 
protection. The Corps also constructed 5 new safe rooms so pump station 
operators can safely operate during storm events; added storm proofing 
features to pump stations in Jefferson Parish for more than $28 
million; completed 47 pump station repairs in Jefferson, Orleans and 
St. Bernard parishes for a total of more than $56 million; and awarded 
contracts for 16 pump station repairs in Plaquemines Parish for more 
than $19 million--all completed with the exception of the Elaine Pump 
Station which is scheduled for completion in November 2010. The safe 
rooms and pump station repairs were all 100 percent Federal funded.
    Question. What is the status of the improvements to the existing 
system funded by Congress?
    General Van Antwerp. The Corps has made significant progress on the 
Hurricane Storm Damage Risk Reduction System (HSDRRS) in the last 4\1/
2\ years. More than 240 construction contracts have been awarded. To 
date, $7.4 billion (or 51 percent) of the almost $15 billion program 
for the HSDRRS Program has been obligated, including almost $2 billion 
worth of direct contracts to small business firms.
    The system is now stronger and more resilient than at any time in 
history. Execution of the HSDRRS is more than one-third complete. The 
Inner Harbor Navigation Canal Surge Barrier at Lake Borgne is over 50 
percent complete. The West Closure Complex, another major navigable 
surge barrier and pump station that will reduce storm surge risk for 
the West Bank, is 20 percent complete. Floodwall and levee projects in 
New Orleans Metro area are 90 percent complete.
    Question. Will the system be functional by June 2011 as promised in 
the previous administration?
    General Van Antwerp. We remain confident in our ability to deliver 
the 100-year system on schedule and within budget. I would note that 
the Corps shares responsibilities with local sponsors and other 
partners who must provide real estate interests, borrow areas, 
relocations and other technical matters, to deliver the HSDRRS program 
to the public within the cost and schedule commitment. The support and 
contributions of partners and stakeholders are essential to execute 
this immense and complex program.
    The HSDRRS is a top priority of the Corps of Engineers; the Corps 
is using the overall resources of the entire Mississippi Valley 
Division and other Corps expertise from across the Nation to keep the 
program on schedule and deliver on the commitment to having the 
physical features in place to provide 100-year level of risk reduction 
by hurricane season 2011.
    Question. What do you see as the current weak link in the system?
    General Van Antwerp. The Corps of Engineers undertook an exhaustive 
scientific analysis to determine the physical features and design 
elevations necessary to deliver a uniform system of storm surge risk 
reduction for the Lake Pontchartrain and Vicinity and West Bank and 
Vicinity projects. Upon completion of physical features of the system 
in 2011, the project will deliver a uniformly robust and resilient 
system, built to provide a 100-year level of risk reduction.
    Question. There has been considerable discussion over the 
replacement of the temporary pump stations constructed on the three 
main outfall drainage canals after Katrina. The city wanted the 
replacement stations to also replace the existing pump stations on the 
canals so that water would only have to be pumped once. Congress 
rejected this proposal in the fiscal year 2010 E&W Act. Am I correct 
that this would not improve hurricane surge protection or storm damage 
reduction?
    General Van Antwerp. That is correct. The city's preferred plan, 
Option 2 or 2a, provides no greater level of storm surge protection 
than Option 1, the current plan to replace the temporary pump stations 
with permanent, robust structures.
    Question. What would the plan that the city desires do exactly? Do 
any additional benefits accrue to the Federal Government or are they 
all local benefits?
    General Van Antwerp. Option 2 significantly modifies the city's 
interior drainage by deepening and lining the outfall canals to 
accommodate gravity flow of interior rain water to Lake Pontchartrain, 
eliminating the need for pump stations at the interior of the canals. 
The estimated cost (pre-feasibility level of design) is $3.4 billion.
    Option 2a adds a plan to intercept and divert Jefferson Parish 
(Hoey's Basin) rain water from the 17th Street canal to the Mississippi 
River. The estimated cost (pre-feasibility level of design) is $3.5 
billion.
    Options 2 and 2a provide no greater level of storm surge risk 
reduction than Option 1, the planned permanent canal closures and 
pumps. Option 2 is a complex construction project that would take 
several years to construct, at considerable impact and disruption to 
the surrounding communities.
    No additional benefits accrue to the Federal Government.
    Question. Will the system work as the Corps has currently proposed? 
Has it been tested?
    General Van Antwerp. The proposed plan to build permanent closures 
and pump stations at the mouths of the three outfall canals will 
replace the temporary features in place today. These temporary features 
performed exactly as planned during the coordinated pumping operations 
with the Sewerage and Water Board during Hurricanes Gustav and Ike. The 
Corps exercises these pumps frequently during regular operations and 
maintenance as well as emergency operation exercises conducted with our 
partners at the Sewerage and Water Board.
    The permanent pump stations will have the capacity to handle the 
current and planned future capacity of the S&WB.
    Question. I understand that the Corps has agreed to modify, at 
Federal expense, the permanent pump stations on the outfall canals so 
that the State could install the locally preferred plan at a later 
date. Has the State signed the cost sharing agreement on the 
replacement of the temporary pumps for the three major outfall canals?
    General Van Antwerp. The Corps has committed to replacing the 
temporary pump stations in a way that would facilitate later 
improvements to the local interior drainage system, should they be 
authorized and funded or constructed by the State in the future.
    The Army plans to execute a Project Partnership Agreement (PPA) 
Amendment with the State of Louisiana, Coastal Protection and 
Restoration Authority (CPRA) on March 12, 2010.
    Question. What is considered the design life of the temporary 
pumps?
    General Van Antwerp. The temporary pumps were designed and built in 
time for the June 2006 hurricane season. They have a limited project 
life (5-7 years).
    Question. What does that mean? Will the pumps fail or won't they?
    General Van Antwerp. The Corps will provide the necessary 
maintenance of the temporary pumps to assure their operability until 
they are replaced. The temporary pumps will experience diminished 
reliability and increased maintenance costs the longer they are kept in 
service.
    Question. Does not initiating construction going to drive 
completion of the permanent pumps past the point of when the temporary 
pumps will become much less reliable?
    General Van Antwerp. Following the scheduled execution of a Project 
Partnership Agreement Amendment between the Army and the State of 
Louisiana on March 12, 2010, the Corps will have the ability to move 
forward to provide robust, sustainable protection at the outfall 
canals. The Corps anticipates completion of the permanent closure 
structures and pump stations by fall 2014.
    Question. Isn't the delay in initiating construction of the 
permanent pumps putting the citizens of New Orleans at increased risk 
WHEN, not if, the next hurricane hits?
    General Van Antwerp. The temporary closure structures and pump 
stations at the three outfall canals currently provide 100-year level 
of risk reduction. However, they have a limited project life (5-7 
years). The Corps will provide the necessary resources to ensure their 
operability until the permanent closure structures and pump stations 
are constructed.
                        national levee inventory
    Question. Please report on progress on the National Levee 
Inventory: How many levee miles have been inventoried to date?
    General Van Antwerp. (1) Civil Works Program--14,000; (2) Other 
Federal Programs--0; and (3) Non-Federal Programs--0.
    Question. How many miles within WRDA 2007 authorities remain to be 
inventoried?
    General Van Antwerp. (1) Civil Works Program--Complete; (2) Other 
Federal Programs.--Number of miles unknown. Will start to identify 
levees in fiscal year 2010-2011; and (3) Non-Federal Programs--Number 
of miles unknown. Will start to identify levees in fiscal year 2010-
2011 to the extent voluntarily provided by States and local 
communities.
    The Corps will continue to expand the National Levee Database (NLD) 
to other Federal agencies and all the States. In accordance with title 
IX, USACE will implement a process to collect available levee 
information from States and communities for inclusion in the NLD. 
Additionally, the Corps will work with stakeholders to facilitate their 
use of the NLD for local levee safety programs.
              allocations of fiscal year 2011--$15 million
    Question. National Levee Inventory--$10 million to inventory yet to 
be determined levee miles.
    General Van Antwerp. Activities will include: (1) work with States, 
other Federal agencies, tribes, and communities on the transfer of 
technology and practices on levee inventory; (2) inventory newly 
eligible levees within the Corps' authority; (3) operate and maintain 
the National Levee Database; and (4) prepare a report to Congress on 
the general condition and consequences of failure of levees within the 
Corps' authorities.
    The Corps is developing policy and procedures required for the 
implementation of Tolerable Risk Guidelines (TRG) within its Levee 
Safety program. The TRG build on the TRG policies implemented for the 
Corps Dam Safety Program, include stakeholder review and feedback, and 
serve the purpose of providing a framework for consistent, risk-
informed decisionmaking on the built levee infrastructure. We 
anticipate having final policy and procedure completed within the 
timeframe of the comprehensive Levee Safety Engineering Regulation 
currently under development and to be published in Jan 2012.
    Question. National Committee on Levee Safety--$5 million to do 
what?
    General Van Antwerp. The National Committee on Levee Safety (NCLS) 
will work to further develop the governance structure of the 
Commission, a stakeholder involvement plan, and a strategic plan to 
implement recommendations in the Report.
    NCLS recommendations can be found at http://www.iwr.usace.army.mil/
ncls/.
    Question. What is the plan for completing the National Levee 
Inventory to the full extent of the WRDA 2007 authorities?
    General Van Antwerp. For the inventory and inspection, the Corps is 
preparing a rollout strategy for the public release of the National 
Levee Database. There will be different levels of access depending on 
the user--Federal agency, State/local agencies, or general public. In 
the second quarter of fiscal year 2010, the Corps will initiate a 
survey (the Levee Census) by questionnaire that will define unique 
identifiers for levee segments and facilitate development of the 
inventory of levees by name and location. The elements of the survey 
will contain requirements to determine the number of miles of levees in 
the national inventory and other key attributes to define the scale of 
effort in building a comprehensive National Levee Database. By the 
first quarter of fiscal year 2011, the Corps will finalize a report 
summarizing the results of the questionnaire and guidance for non-
Federal stakeholders to voluntarily provide available levee 
information.
    Once the National Committee on Levee Safety completes further 
development of recommendations and the strategic plan, this requirement 
of title IX of WRDA 2007 will be complete in fiscal year 2011.
    Question. Is additional authorization needed to expand the National 
Levee Inventory to include all levees in the Nation?
    General Van Antwerp. Currently, title IX of WRDA 2007 only provides 
the Corps the authority to collect available information for levees 
outside the Corps' program only if it is voluntarily provided by State 
or local governmental agencies. Since levee information in many cases 
is scarce or nonexistent, completing a comprehensive National Levee 
Database based on available information may not be achievable. The 
Corps does not have the authority to conduct a one-time inventory and 
inspections of all levees in the Nation, although such an inventory and 
inspections could provide the quality of data necessary in a more 
accurate national inventory that would include the general condition of 
the levees. The term ``inventory'' includes surveying/geo-referencing 
all features of the levee to populate the database. ``Inspection'' in 
this case would be defined as the Corps periodic inspection for levees, 
which is an inspection conducted by a multi-disciplinary team that 
verifies proper operation and maintenance; evaluates operational 
adequacy, structural stability and, safety of the system; and compares 
current design and construction criteria with those in place when the 
levee was built.
                          north dakota floods
    Question. Based on past experience with the 2008 flooding, what is 
the Corps doing to prepare (advance measures) for potential flooding in 
North Dakota?
    General Van Antwerp. While there were significant floods in the 
Midwest (in particular on the Cedar River in Iowa) during 2008, even 
more experience was gained when a flood of record was set in Fargo, 
North Dakota during the spring of 2009. The James River Basin, located 
in North and South Dakota, also set pools of record in 2009 which led 
to many lessons learned about preparing and installing emergency 
levees. The greatest lesson learned from the 2008 and 2009 flooding was 
to engage locals, State, and congressional officials as early as 
possible.
    Since January 2010, the Corps' St. Paul and Omaha Districts have 
been engaged with the National Weather Service (NWS) and the U.S. 
Geological Survey in preparing for potential flooding in the Red River 
basin. The Corps is currently preparing to activate the St. Paul 
District Emergency Operations Center and to deploy its flood fighting 
assets for the upcoming flood fight on the Red River of the North river 
basin. Contracts for emergency construction will be in place up to an 
entire month prior to the potential flooding.
    The Corps has been receiving requests for advanced measures 
projects and currently has 15 project information reports in various 
stages, from preparation to review for construction of flood risk 
management features.
    The Corps put flood engineers on the ground this week, meeting with 
local officials to determine flood fight needs. To date, the Corps has 
received requests for technical and/or direct assistance from North 
Dakota's Cass and Richland counties and the cities of Fargo, Lisbon, 
Oxbow, Enderlin, Grafton, Harwood, North River, Jamestown, LaMoure and 
Fort Ransom. Corps personnel are currently meeting with these 
communities and providing technical assistance in preparing for this 
year's potential flood event.
    Corps reservoirs in North Dakota and Western Minnesota are being 
drawn down to provide the maximum flood control storage in anticipation 
of the high spring snowmelt runoff. These draw downs are part of our 
normal operation procedures, but are being coordinated with local 
agencies because they are being done in an accelerated way.
    Question. Does the Corps have adequate resources and funds 
available?
    General Van Antwerp. Funding, supplies and flood fight personnel 
are expected to be sufficient for a successful flood fight. The States 
of North Dakota and Minnesota have specific information on the Corps' 
inventories and understand that we will release our equipment at their 
request, once local, county and State materials have been exhausted.
    Question. What is the forecast for a potential flood this year?
    General Van Antwerp. According to the 2010 National Oceanic and 
Atmospheric Administration, (NOAA) National Hydrologic Assessment, 
there is an above average risk of significant flooding across North 
Dakota this spring. The document notes that early season heavy rain 
saturated soils which froze deeply before snow fell across the northern 
Plains, and combined with substantial snowpack, has created an area of 
above average flood risk.
    The area of snow cover is more extensive than last year, creating 
the potential for a more widespread flooding event. The Red River at 
Fargo, North Dakota is expected to exceed the major flood stage. 
Locations that have a greater than 90 percent risk of reaching or 
exceeding major flood level are Fargo, Abercrombie, Lisbon, Harwood, 
and West Fargo. Additional locations that have a greater than 50 
percent chance of reaching or exceeding major flood level include 
Wahpeton, Valley City, Halstad, Grand Forks, Oslo, Drayton, Pembina on 
the Red River of the North, and Grafton on the Park River. Deeply 
frozen rivers which froze at a high level in the region have created an 
above average risk of ice jam flooding. The Souris Basin has been 
spared significant rain so far this winter, but heavy snowfall has 
resulted in a snowpack that is in many ways comparable to that of last 
year at this time, especially in the immediate Minot area. The areas 
north and west of Minot hold less snow and water equivalent overall and 
continue to decrease upstream of Lake Darling.
    Question. Is the ongoing Red River of the North study addressing 
potential future flooding?
    General Van Antwerp. Yes, the study is developing a Watershed 
Management Plan which will identify possible flood storage locations, 
provide technical assistance for local communities developing levee 
plans, and develop detailed models allowing for easier implementation 
of local plans.
    Question. Given the damages resulting from the 2008 floods, what 
other measures should be taken to lessen impacts from future flooding?
    General Van Antwerp. The June 2008 flooding of the Midwest led to a 
significant amount of Federal disaster flood relief given to victims. 
The lesson learned for lessening impacts is to start the flood 
preparations earlier and engage officials many months prior to the 
expected flood. While there are several actions that should be taken to 
lessen the impacts of flooding, there is nothing that can eliminate 
flood risk and impacts.
    The best way to lessen the impacts of future flooding is to prevent 
development in the floodplain. This allows rivers to continue their 
natural use of the floodplain and ensures that stages in existing 
developed areas are not increased due to encroachment by additional 
development. Local governments should enact and enforce strict 
floodplain development ordinances.
    Buying out flood impacted properties and relocating people out of 
the floodplain is another important way to prevent future damages. The 
Federal Emergency Management Agency (FEMA) provides some funding for 
buyouts, but local and State governments are also actively purchasing 
properties without Federal assistance. When FEMA funds a buyout, the 
Agency places a deed restriction on the property that prevents future 
uses of the land, including construction of flood control measures. 
When local funding is used, no restrictions need to be imposed, so 
permanent or emergency measures can be built to protect remaining 
properties.
    Other measures that should be considered include constructing 
levees, diversions, and flood storage where such measures can be 
justified. Non-structural approaches including raising existing 
structures above the flood level can also be effective in reducing 
flood damage. The Corps of Engineers is considering these alternatives 
in several studies, including the Fargo-Moorhead Metro feasibility 
study, the Fargo-Moorhead and Upstream study, the Red River Watershed 
Study, and the reconnaissance studies for the Sheyenne River Basin and 
Valley City, North Dakota.
    Finally, all property owners located in or near a floodplain should 
purchase flood insurance through the National Flood Insurance Program. 
Although this will not prevent flood damage or the personal disruption 
caused by flooding, it does mitigate the financial risk to individuals.
                             fargo-moorhead
    Question. When will the Fargo-Moorhead Metro study be completed?
    General Van Antwerp. The study is currently on an aggressive 
schedule for a Chief of Engineers report to be completed by December 
2010.
    Question. What is the likelihood that the Federal Government would 
recommend and cost share a 35,000 cfs Minnesota diversion?
    General Van Antwerp. The National Economic Development (NED) plan 
is still undergoing refinement. Initial results identified it as a 
20,000 cfs diversion through Minnesota, but, there now appear to be a 
number of factors supporting a larger Minnesota diversion as the NED 
plan. The next step is for the Corps to fully develop the rationale for 
recommending a larger plan, and then submit a request for a waiver of 
the NED plan in favor of selecting a larger plan as the Federal 
supported improvement plan to the Assistant Secretary of the Army 
(Civil Works) for approval.
    Question. Would the administration support and budget for a North 
Dakota diversion as a locally preferred plan?
    Ms. Darcy. A Locally Preferred Plan (LPP) has not been identified 
by the local interests. Once an LPP is identified, it would require 
administration review and approval. While preliminary coordination has 
been initiated, administration support of a North Dakota diversion as 
an LPP is subject to review of documents supporting the plan. A locally 
preferred plan with the non-Federal sponsor bearing the costs above the 
NED plan and a BCR above 1.0-to-1 would be consistent with long-
standing policy. However, whether the project would be budgeted is a 
future decision, and the project would need to compete with other 
worthy projects for funding in the President's budget.
                        devils lake levee raise
    Question. What is the status of the Devils Lake embankment raise 
and are there any issues that could delay construction?
    General Van Antwerp. Phase 1 construction is ongoing and the 
Independent External Peer Review for this work is scheduled for 
completion on March 24, 2010 so the Notice to Proceed on the embankment 
work can be issued. The design is being completed on Phase 2, although 
due to poor soils and additional design challenges, the decision has 
been made to split the work into 2 contracts. Phase 2A is scheduled to 
be advertised later this summer. The Corps is continuing to work with 
the city and local residents to ensure the project is completed in a 
timely and safe manner, although there are a number of challenges to be 
addressed. Issues that could delay construction include: (1) 
acquisition of the real estate on an aggressive schedule, including the 
relocation of homes and businesses; (2) completion of the environmental 
review; and (3) addressing the poor soil conditions to ensure the 
structure can be constructed safely while under load (holding back 
water).
    Question. Does the project provide 100-year flood protection?
    General Van Antwerp. No Sir. Previously, the Corps provided a 
letter to FEMA stating that there was reasonable assurance that the 
embankment could contain the 1 percent event. Since then, the lake has 
risen such that the position taken in that letter is no longer 
applicable. An updated letter is being prepared at FEMA's request. One 
hundred-year protection will not be achievable until the entire 
alignment is complete.
                           bayou meto, ar&la
    Question. This project was funded in fiscal year 2010 for 
construction. Has the Project Partnering Agreement (PPA) been signed by 
the sponsor?
    Ms. Darcy. No, the PPA has not been signed by the sponsor.
    Question. Why did this project not receive ARRA funds?
    Ms. Darcy. During initial identification of projects to receive 
ARRA funds in the April 2009 timeframe this project had not received 
construction funds and, therefore, was considered to be a new project. 
ARRA specifically prohibits funding new Civil Works projects with ARRA 
funds.
                           grand prairie, ar
    Question. What is the status of the Grand Prairie project?
    General Van Antwerp. Construction is continuing on the Grand 
Prairie project under a PPA executed in June 2000. The project sponsor 
continues to provide their share of project costs. Four items are 
currently ready to be advertised: (1) DeValls Bluff, AR Pumping Station 
sub-structure $6.5 million Federal share; (2) DeValls Bluff, AR Pumping 
Station super-structure, pending Federal funds $21.7 million; (3) 
DeValls Bluff, AR Pumping Station discharge and outlet structure, 
pending Federal funds $16.8 million; and (4) DeValls Bluff, AR Pumping 
Station electrical sub-station, pending Federal funds $3 million.
    Question. This project has work ready to be executed that meets the 
criteria for ARRA funds. Why wasn't this project funded with ARRA 
funds?
    Ms. Darcy. There are more projects eligible for funding than there 
is ARRA funding available. Therefore, this project, like many others, 
competed for these funds and the determination was made that there were 
other more worthy projects that provide a high return on investment in 
the Corps traditional mission areas of flood damage reduction, 
navigation, and environmental restoration.
                     ozark-jeta taylor project, ar
    Question. I note that this powerhouse rehab project is not in your 
budget this year. Why?
    General Van Antwerp. Ozark-Jeta Taylor, Powerhouse Rehab, AR 
project is not in the budget because it did not meet the performance-
based construction guidelines used to prioritize projects in the fiscal 
year 2011 budget.
    Question. Last fiscal year you used ARRA funds to avoid terminating 
the contract. Is lack of funding in the fiscal year 2011 budget going 
to again force you to consider a contract termination?
    General Van Antwerp. Customer funding will be requested through the 
Southwestern Power Administration (SWPA) to fund anticipated contractor 
earnings in fiscal year 2011. If SWPA is unable to obtain Customer 
funding, the Corps will proceed under the provisions of the ``special'' 
continuing contract clause to terminate the contract at the convenience 
of the Government. The Corps anticipates making a decision on the way 
forward within the next couple of months.
    Question. How much will it cost to terminate the contract versus 
provide funding in fiscal year 2011?
    General Van Antwerp. It will cost $20 million to terminate the 
contract. The Corps could use $23.5 million in fiscal year 2011 but I 
must add that the capability estimate for each study or project is the 
Army Corps of Engineers estimate for the most that it could obligate 
efficiently during the fiscal year for that study or project. However, 
each capability estimate is made without reference to limitations on 
manpower, equipment, and other resources across the Army Civil Works 
program, so the sum of the capability estimates exceeds the amount that 
the Corps actually could obligate in a single fiscal year.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
    Question. In June 2009, the administration released a Memorandum of 
Understanding (MOU) entitled ``Implementing the Interagency Action Plan 
on Appalachian Surface Coal Mining.''
    The MOU noted that ``Federal agencies will work . . . to help 
diversify and strengthen the Appalachian regional economy and promote 
the health and welfare of Appalachian communities. This interagency 
effort will have a special focus on stimulating clean enterprise and 
green jobs development. . . .''
    How will the Corps implement this new focus during its review and 
prioritization of projects and proposed activities? For instance, how 
will the Corps exercise a special focus on economic diversification and 
clean enterprise, during the course of conducting its ``public interest 
review'' of proposed activities?
    General Van Antwerp. Stimulation of clean enterprise and green jobs 
development may result in increased project permit applications 
requiring authorization to discharge fill material into waters of the 
United States. If these projects would result in the construction and 
implementation of energy projects, they would receive higher priority 
regulatory review from the Corps over non-energy related projects. This 
higher priority review for energy-related projects is based on both the 
Corps implementing regulations for section 404 of the Clean Water Act 
and Executive Order 13212.
    In accordance with 33 CFR 320.4(n), district engineers will give 
high priority to the processing of permit actions involving energy 
projects. Further, under Presidential Executive Order (EO) 13212, dated 
July 30, 2001, all Federal agencies have been directed to expedite 
their review of permits for energy-related projects or take other 
actions as necessary to accelerate the completion of such projects, 
while maintaining safety, public health, and environmental protections.
    With respect to the Corps' public interest review, the decision 
whether to issue a section 404 permit is based, in part, on an 
evaluation of the probable impact, including cumulative impacts, of the 
proposed activity on the public interest. Decisions reflect the 
national concern for both protection and utilization of important 
resources. The benefit, which reasonably may be expected to accrue from 
the proposal, must be balanced against its reasonably foreseeable 
detriments. All factors that may be relevant to the proposal will be 
considered, including the cumulative effects thereof; among those are: 
conservation, economics, aesthetics, general environmental concerns, 
wetlands, historic properties, fish and wildlife values, flood hazards, 
floodplain values, land use, navigation, shoreline erosion and 
accretion, recreation, water supply and conservation, water quality, 
energy needs, safety, food and fiber production, mineral needs, 
considerations of property ownership and, in general, the needs and 
welfare of the people. Any positive effects of a proposed project are 
balanced against any foreseeable negative effects the activity would 
have on relevant factors within the Corps' scope of Federal control and 
responsibility. AA permit will be issued if the project is found not to 
be contrary to the public interest.
    Question. What new resources is the administration requesting for 
the Corps to advance economic diversification in Appalachia?
    General Van Antwerp. The Corps does not have a specific action in 
this area.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question. The Army Corps of Engineers operates or has authority 
over a large quantity of space behind dams for flood control purposes. 
California is still recovering from 3 years of drought, and the water 
situation is likely to remain critical, or near critical, for years to 
come.
    To what extent can the Army Corps reoperate, or change the 
management, of some of its projects to consider water supply benefits 
in key areas across the State, including those on tributaries to the 
Sacramento-San Joaquin Delta, and on rivers and streams throughout 
Southern California?
    Will you report back on potential for water supply benefits from 
projects like Whittier Narrows, Prado Dam, Hanson Dam, and Seven Oaks?
    Ms. Darcy. There may be potential for additional water supply 
benefits from existing Corps flood control reservoirs throughout 
California. The Army recognizes the balance to address flood risk 
management and dam safety, along with the safety of the public and 
water supply demands. Currently, the Army is coordinating with co-
operators to operate the reservoirs for both flood control and future 
water supply during these critical dry years. In those instances where 
there is potential for significant water supply benefits, an 
appropriate means of addressing improved reliability of water supply 
would be to seek reauthorization to reallocate reservoir storage and 
add water supply as a project purpose in those cases where it is not 
already an authorized project purpose.
    Additionally, there are ongoing feasibility studies to assess water 
supply and conservation. For example, the Army is conducting a 
Reservoir Re-operation study as part of the Central Valley Integrated 
Flood Risk Management Study. The Corps is completing a water quality 
study and evaluation of water conservation at the Seven Oaks Dam as 
part of the Santa Ana River Mainstem project. Also, issues such as 
water conservation and addressing Dam Safety related to the Whittier 
Narrows dam are being assessed. These studies have potential to provide 
water supply benefits at existing projects.
    Question. I am concerned about the Dam Safety Assurance Program. 
This program is supposed to fund the most critical dam improvement 
projects in the Nation. However, the President's budget only includes 
$49.1 million. I understand that the capability for the program is 
$70.4 million.
    Why is the President's budget not at the Corps Capability for this 
program? Is Dam Safety a top priority for this administration?
    Ms. Darcy. Individual dam safety, seepage and instability 
correction projects that are budgeted for construction are funded at 
capability, and are funded in the 2011 budget to a total of $446 
million. The separate line-item for planning and design of additional 
such projects--the Dam Safety and Seepage/Stability Correction Program 
(DSS)--is funded at $49.1 million, which will be allocated to priority 
dam safety studies and design. The amount was determined to be the 
correct amount for fiscal year 2011, in consideration of funding 
available overall for the Civil Works program.
    Question. The Corp is developing new national policies for the 
allowance and/or removal of trees and other vegetation from levee 
projects. Meanwhile, the Corps has participated in a collaborative 
effort with the State of California to develop vegetation-removal 
guidelines for the Central Valley. This collaborative effort holds 
promise for reaching a reasonable and balanced program for assuring 
levee integrity and, at the same time, taking into consideration unique 
circumstances and resources found in many areas in the Central Valley, 
and the Corps' past involvement with the region's levees.
    Can you assure me that your national policy will embrace and be 
fully compatible with situations like those found in the Central 
Valley? How will the national guidance accommodate the collaborative 
effort you've participated in for California?
    General Van Antwerp. The Army is committed to collaborating with 
California and other stakeholders in flood risk management in a 
systematic manner. The implementation of system-wide flood risk 
management strategies such as the one developed for the Central Valley 
is one of the Corps' top priorities for water resources actions 
nationwide. National policies for vegetation are incorporated into the 
collaborative solutions developed and implemented to address both 
national resource and public safety goals. The California Framework 
Agreement will continue to be the guiding document as the State of 
California continues to develop its long-term plan to resolve 
vegetation issues; a plan we understand will be finalized in July 2012.
    Question. The administration included two new construction starts 
in the Corps' portion of the President's fiscal year 2011 budget. How 
were the two ``new starts'' in the President's budget selected? What 
criteria were used? What did the administration hope to demonstrate 
through selection of these particular projects?
    Ms. Darcy. The two projects are priorities that demonstrate this 
administration's commitment to Ecosystem Restoration and non-structural 
solutions to water resource challenges.
    Question. The President's budget request reduced the enacted 
funding level for the Corps by $500 million. This has been cited by 
some as a reason to keep new starts to a minimum. On the other hand, it 
could also be argued that, in tight budget times, it is even more 
important to make the best possible use of scarce resources, and that 
some old projects should be discontinued, while newer projects that 
represent a better way of doing business are moved forward.
    Will the administration be reviewing priorities to determine 
whether some projects should be scaled back or discontinued in order to 
allow construction to begin on newer and better designed projects that 
contribute more significantly to national public safety and 
environmental goals?
    Ms. Darcy. As in previous years, the administration's budgets for 
the Army Corps of Engineers will focus funding on those projects with 
the highest net economic and environmental returns to the Nation, 
highest contributions to reducing risk to human safety, and highest 
contributions to environmental restoration in order to efficiently 
realize the benefits of those projects. New starts are not precluded as 
a general rule. The selection process focuses on the highest return 
studies and projects that are the administration priorities for that 
particular year.
                      specific california projects
    Question. In February, I wrote to you about the dam safety seismic 
remediation project at Success Dam. I appreciate the response I 
received this week to that letter. However, the lack of funding in the 
President's budget for this project continues to concern me about this 
project and the Army Corps of Engineers' commitment to dam safety in 
general.
    Why was there not enough funding in the President's budget to do 
anything on this project in fiscal year 2011, now that real estate 
acquisitions and construction are ready to move forward?
    Is Success Dam no longer a safety threat?
    Ms. Darcy. The Army is committed to dam safety and regards public 
safety as a crucial mission and obligation to our Nation. The Corps is 
prioritizing dam study and repair nationally, based on risk informed 
decisions to maximize benefits of our dam safety investments. There are 
risks associated with Success Dam, but other Corps projects pose 
greater concern at this time, based on the Corps improved understanding 
of structural performance and risk consequences.
    Even though Success Dam is not in the highest risk class, the study 
is still underway. In 2010, past and present study methods are being 
analyzed to determine if the overall project approach can be revised to 
reduce risk in a more cost effective and timely manner. Also, interim 
risk reduction planning has been performed to provide the downstream 
communities additional levels of flood risk reduction. The interim 
safety measures will remain active until the remediation is complete.
    Question. Hamilton City Flood Control is a project in my State of 
California that will produce both flood risk reduction and ecosystem 
restoration benefits. It involves construction of a new 6.8 mile-long 
set-back levee to provide enhanced protection for an economically 
challenged community of 2,500 on the Sacramento River while 
reconnecting over 1,400 acres of floodplain to the river--allowing for 
ecosystem restoration that benefits several species listed as 
threatened or endangered. It will also provide enhanced protection for 
the community's sewage treatment plant, and therefore produces water 
quality benefits.
    It has been cited as a model for collaboration among diverse 
stakeholders, and for achieving multiple societal goals simultaneously. 
It would seem to be an excellent example of a new and better way of 
doing business at the Corps. It is also ready to go. Design is 
complete, and the non-Federal cost-share has been secured.
    Since this project appears to encapsulate the administration's 
goals for multi-benefit projects, I believe it would be an excellent 
project for consideration in the President's fiscal year 2012 budget. 
What else does the Hamilton City project need to do to be included in 
the President's fiscal year 2012 budget?
    Ms. Darcy. The Hamilton City project satisfies the administration 
goals and objectives by emphasizing Ecosystem Restoration solutions to 
water resource challenges. This multipurpose project also meets 
numerous State, local and other non-governmental agencies objectives 
and goals for public safety, environmental stewardship and restoration.
    The project's design phase is fully funded and the Corps expects to 
complete it this year. The project will be considered along with other 
high performing projects in the Nation for consideration by the 
administration for New Starts in fiscal year 2012.
    Question. Last November, I wrote to alert you that the Sacramento 
District had encountered a cost-increase for their scheduled repairs to 
Marysville Ring Levee, which surrounds and protects the 12,000 
residents of the city of Marysville. Construction on Marysville, a 
separable element of the Federal authorized Yuba River Basin Project, 
is scheduled to begin in August. I understand you are personally 
working with the State of California and the local sponsors to close 
the funding shortfall to take advantage of the construction season, so 
several functional segments can be completed all at once.
    What is the status of your efforts to secure the additional funds 
the District needs for this project?
    Ms. Darcy. The Yuba River Basin, Marysville Ring Levee Phase 1 
contract has been allocated sufficient ARRA funds. The contract award 
is scheduled for the summer of 2010, pending completion of the 
Engineering Design Report and execution of the amended Project 
Partnership Agreement.
    Question. The Napa River Flood Protection Project has been the 
premiere flood protection/multiple purpose project of the Corps for the 
last 10 years and I appreciate the commitment made to the project by 
this administration, both in last year's budget and by providing almost 
$100 million from the American Recovery and Reinvestment Act. This is 
the type of project the Corps should be proud of: a project that 
delivers 100-year flood protection, creates over 700 acres of tidal 
wetland, and will lead to the economic rebirth of a flood prone 
community.
    What is your plan to keep this project on schedule and to move it 
aggressively toward completion?
    General Van Antwerp. The Napa Salt Marsh project, rather than the 
Napa River flood risk reduction project, is the project that would 
provide 700 acres of tidal wetland. The Napa Salt Marsh project is 
funded in the fiscal year 2011 budget. Because the project is quite 
large and complex and construction activities are accelerating, the 
Corps recently has increased public outreach efforts. Weekly meetings 
are held with the local sponsor, County of Napa--Flood Control and 
Water Conservation District, and the city of Napa so that any issues 
related to effects of ongoing construction activities on local 
businesses and residences are quickly addressed. Short term schedules 
are posted on the current contractor's Web site. Meetings with area 
residences and businesses are held in advance of upcoming work to seek 
input and make adjustments to construction work efforts, where 
practical, to accommodate their suggestions.
    With ongoing construction occurring in Napa, the Corps recognizes 
the need to continue design efforts and assess the Federal interest on 
the remaining project features. The Corps is striving to have the next 
design contract completed as soon as possible.
    Question. Murrieta Creek Flood Protection and Environmental 
Restoration is a similar multi-benefit project in southern California, 
which will also deliver 100-year flood protection, restore a riparian 
habitat corridor, create 160 acres of wildlife habitat, and develop a 
55-acre regional sports park. Since fiscal year 2004, Congress has 
provided $14 million for construction of the Murrieta Creek project. 
However, we have seen little movement by the Corps in constructing the 
project and yet the Corps spends the funds on non-construction tasks, 
including project management.
    Will you provide a full accounting of where the funding we have 
appropriated has gone? What are the administrative costs that are 
causing this funding to be spent without any physical results?
    General Van Antwerp. From fiscal year 2003 to fiscal year 2010, 
appropriations for Murrieta Creek Project totals $16,062,000. During 
this same period, a total amount of $537,000 was lost to Savings and 
Slippage (S&S), and/or Rescission. A total of $3,455,000 was 
reprogrammed into the project, for a total work allowance of 
$18,980,000 (see Table below).

                                                 SUMMARY OF PROJECT CONSTRUCTION FUNDING (2003 TO 2010)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                          Initial Work
                      Fiscal Year                          Conference      Savings and     Rescission       Allowance          Net          Final Work
                                                                         Slippage (S&S)                       (IWA)       Reprogramming      Allowance
--------------------------------------------------------------------------------------------------------------------------------------------------------
2003...................................................      $1,000,000      ($179,000)        ($6,000)        $815,000        $254,000       $1,069,000
2004...................................................       1,000,000       (141,000)         (5,000)         854,000       2,869,000        3,723,000
2005...................................................       1,500,000       (157,000)        (11,000)       1,332,000         370,000        1,702,000
2006...................................................       3,750,000  ..............        (38,000)       3,712,000         (38,000)       3,674,000
2007...................................................       1,760,000  ..............  ..............       1,760,000  ...............       1,760,000
2008...................................................       1,813,000  ..............  ..............       1,813,000  ...............       1,813,000
2009...................................................       3,349,000  ..............  ..............       3,349,000  ...............       3,349,000
2010...................................................       1,890,000  ..............  ..............       1,890,000  ...............       1,890,000
--------------------------------------------------------------------------------------------------------------------------------------------------------

    The physical construction for Phase 1 of the Murrieta Creek project 
was completed in fiscal year 2004 for total cost of approximately $3 
million. In 2005, this completed portion was damaged during the 2005 
flood season. Emergency repairs and upgrades incurred a total cost of 
approximately $3.6 million. In addition, annual O&M and environmental 
and water quality monitoring costs of this completed portion are paid 
for by project funds until this phase is turned over to the sponsor. 
Supervision and administration costs for the project are slightly over 
$500,000 through fiscal year 2009.
    On the non-construction costs, engineering and design costs for the 
project totals to approximately $11 million. In addition to already 
completed engineering design and environmental documentation products, 
these costs include on-going work such as the following: (1) 
development of the Design Documentation Report which includes Sponsor's 
request to do technical analysis of other alternatives for the basin 
design; (2) preliminary design to include the ecological restoration 
and recreation features of the basin to its flood control feature are 
also being made; and (3) plans and specs for Phase 2 are near 
completion after several modifications to address several constraints 
and issues.
    Design of Phase 1A is also being prepared to account for necessary 
design changes due to the Metropolitan Water District's requirements. 
The Environmental Assessment reports for Phase 1A and Phase 2 are being 
developed. In addition, the presence of nesting birds requires a 
section 7 consultation and therefore, more coordination with U.S. Fish 
and Wildlife Service. Our environmental and water quality monitoring 
produced reports to assure compliance with water quality and the 
project mitigation requirements.
    The following summarizes the total project expenditures through 
fiscal year 2009:

------------------------------------------------------------------------
                                                            Federal
                                                         Expenditures
                    Work Category                     Though Fiscal Year
                                                             2009
------------------------------------------------------------------------
Lands...............................................             $41,268
Relocations.........................................  ..................
Ecosystem Restoration...............................  ..................
Channels............................................           3,348,830
Recreation..........................................  ..................
Pre-construction Engineering and Design.............           1,492,000
Engineering and Design..............................          11,261,621
Supervision and Administration......................             564,655
                                                     -------------------
      Total.........................................          16,708,374
------------------------------------------------------------------------

    Question. The local sponsor, the Riverside County Flood Control and 
Water Conservation District, is working to develop an innovative, more 
cost-effective alternative to the basin design which the community 
prefers to the Corps' plan which we believe will reduce costs and 
increase the benefit/cost ratio significantly.
    Will you commit the Corps to reviewing the sponsor's cost reduction 
recommendations, including more cost-effective designs, in order to 
find a more economical project that the administration can budget?
    General Van Antwerp. The Corps' Los Angeles District is working 
with the Riverside County Flood Control and Water Conservation District 
and the Cities of Murrieta and Temecula in an effort to move the 
project forward. In October 2009, there was a meeting to discuss 
available options to start construction of Phase 1A and Phase 2. The 
Corps has committed to reviewing recommendations for a more cost-
effective design and to continue to work to move the project forward.
    Question. The Llagas Creek Flood Protection Project, will provide 
flood protection for 1,100 homes, 500 businesses and over 1,300 acres 
of agricultural land and preserve the creek's habitat, fish and 
wildlife. This project was initiated in 1954 and is only 60 percent and 
the adjoining communities continue to flood on a regular basis.
    Despite regular appropriations, this project has not progressed 
well. What can the Army Corps do to prioritize this project for 
implementation in order to complete construction within the next 
several years?
    General Van Antwerp. The project cost sharing is inconsistent with 
standard Corps cost-shares and due to low performance, the project does 
not compete well for funding against other Corps projects. However, the 
Corps will continue to evaluate this project for funding during budget 
development.
    Question. The South San Francisco Bay Shoreline Project will 
provide flood protection to Silicon Valley from the existing, deficient 
non-engineered levees where tidal flooding and land subsidence occur 
along with the real risk of sea level rise. I have been advised that, 
even though the Corps commits to schedules and budgets, the feasibility 
study which was projected to cost approximately $12 million and be 
completed in 5 years, now is estimated to cost $25 million and will be 
completed in 10 years. This is unacceptable.
    One solution to moving the project quickly is for the San Francisco 
District to work more collaboratively with the local sponsors, both to 
allow them to advance portions of the project to provide flood 
protection and to allow the sponsors to complete certain pieces, or 
even the remainder of the feasibility report, in concert with the Corps 
to reduce costs and expedite the schedule significantly.
    Will you report back on positive efforts to facilitate these steps 
and recommend other innovative approaches to allow for securing 
expedited completion and approval of the Chief's Report for the Project 
and initiation of Corps' consideration?
    General Van Antwerp. Although progress on the Shoreline Study has 
been slower than originally anticipated, the Corps will complete the 
without-project phase of the planning process in August 2010. This 
major milestone will identify existing and future tidal flood risks and 
associated economic damages to the South Bay communities should a 
project never be built. The Corps continues to work closely with the 
sponsors. One-half of the study costs ($12.5 million) will be provided 
by the sponsors primarily as in-kind credit for contracts they are 
managing and staff time to participate in the study in an integral way 
through meetings and technical reviews.
    The Corps is assisting the sponsors in applying the technical 
analysis to develop smaller, early implementation projects for flood 
risk management under our section 104 authority that they can move 
forward with on their own. This work in advance of a Corps authorized 
project will help bring flood protection to the communities most at 
risk sooner, and provide early restoration opportunities. If these 
projects become part of the authorized project the local sponsors can 
receive credit during construction for the work they perform. Although 
there is an authority under Navigation studies for a local sponsor to 
complete a feasibility report on their own, no such authority exists 
for Flood Risk Management studies.
    The with-project phase of our planning process includes the 
development and evaluation of alternatives for both flood risk 
management and ecosystem restoration. Due to the complexity of the 
hydrodynamic modeling within the study area and multi-purpose planning 
challenges, we have scheduled a significant amount of time for this 
effort. We are assessing every possible way to streamline the 
evaluation and comparison of project alternatives with the goal of 
shortening the schedule.
    Other options to consider are to continue with a single purpose 
plan of Flood Risk Management, or to reduce the geographic scope of 
this first study. The goal is to collaborate with both the Conservancy 
and Santa Clara Valley Water District in developing a plan to move 
forward in the most expeditious and beneficial manner for all parties.
    Question. As stated in the Assistant Secretary's testimony, the 
Hamilton Airfield Wetlands Restoration-Bel Marin Keys Project is one of 
the Army Corps' premier wetlands restoration projects. However, I am 
concerned about reports I am hearing of how the project is being 
implemented and I believe your personal involvement is required.
    First, I was recently made aware that after about a year of 
negotiating the Project Cooperation Agreement to include the 
authorization of the Bel Marin Keys V portion of the project into the 
base Hamilton Project at the authorized cost-sharing of 75 percent/25 
percent in the Corps' own documents, that in the last month the Corps 
made the decision to change the cost-sharing to 65 percent/35 percent.
    Second, while the project is authorized at a total of $228 million, 
last year the San Francisco District estimated the total cost would be 
$500 million. This year, the Corps came back with an estimate of $300 
million, but could not detail for the local sponsor how much dredged 
material that amount would move, nor could they quantify the minimum 
amount of dredge material needed to meet the habitat goals. This 
inability to determine the total cost of this project is concerning.
    Can you report back to me on both of these issues?
    General Van Antwerp. Because of changes to project authorities, the 
cost share did start out as 75/25 and is now 65/35. Specifically, 
section 2037 of WRDA 2007 amended the section 204 authorization the 
project was started under to increase the non-Federal cost share to 35 
percent. WRDA 2007 modified the Hamilton Wetland Restoration Project 
(HWRP) to add the Bel Marin Keys Unit V (BMK) site to the existing 
project at a first cost of $228.1 million. The authorized fully funded 
total project cost estimate for the combined project, escalated to 
today's dollars is $267 million. This estimate assumes that the total 
project will be constructed with the expected amount of dredged 
material and environmental outputs of the project as specified in the 
Chief's Report.
                               sacramento
    Question. The Sacramento Area Flood Control Agency and the 
California Department of Water Resources are collaborating on urgently 
needed levee improvements for the Natomas basin, in close cooperation 
with the Army Corps of Engineers. In fact, the Corps is preparing a 
Post-Authorization Change Report (PACR) to support the Federal 
component of the project. The Corps has committed to completing the 
PACR this summer, in time for Congress to act on as it considers 
authorization of water projects.
    Can you confirm the Corps' schedule and commitment to this project? 
Please provide a detailed schedule for completion of the PACR.
    General Van Antwerp. The Corps is committed to the Natomas Basin 
project, including executing in accordance with the following schedule:
    Schedule American River Common Features (ARCF) Post Authorization 
Change Report:
  --Complete the draft Post-Authorization Change (PAC) by June 15, 
        2010.
  --Submit the final PAC package to HQ by August 31, 2010.
  --Sign Chief's Report by December 31, 2010.
    The Chief's Report for the ARCF GRR is scheduled for December 31, 
2010.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. Greater Sacramento remains one of the most at-risk urban 
areas in the Nation. I want to acknowledge my appreciation that the 
President's budget once again includes funding for Sacramento area 
flood control projects. However, several projects, especially the 
American River Watershed ``Common Features'' project and the Folsom Dam 
Modification project are at the point of heavy construction activity.
    Do you anticipate that the administration will support the large 
funding requirements that are necessary to keep these projects on 
schedule?
    Ms. Darcy. I cannot commit to future budget amounts, since those 
are future decisions. However, I can affirm that this project has 
consistently been considered a priority.
    Question. The Sacramento Area Flood Control Agency and California 
Department of Water Resources are working together to lead what I 
believe is a perfect example of non-Federal initiative for initiating 
and financing major flood control works in the Natomas Basin. I believe 
this could serve as a model for more collaborative Federal/non-Federal 
partnerships nationwide, which can move needed projects forward more 
efficiently and leverage limited Federal resources.
    Would you consider reviewing this model as a potential template for 
future partnerships?
    Ms. Darcy. Yes, we will review this model. Non-Federal partners, 
the State of California and SAFCA have been outstanding partners and 
instrumental in assisting the Corps move forward quickly and 
effectively on this project.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
                      louisiana coastal area (lca)
    Question. The budget request includes a new start in the 
Construction account, one for the Louisiana Coastal Area ecosystem 
restoration project. Can construction on the Louisiana Coastal Area 
project be initiated in fiscal year 2011, given the status of the 
planning study?
    General Van Antwerp. Provided that LCA project reports favorably 
complete the administration review process, yes, construction can be 
initiated in fiscal year 2011. The LCA study farthest along is for the 
Beneficial Use of Dredged Material (BUDMAT) Program. The programmatic 
feasibility study for BUDMAT was submitted by the Corps to my office in 
March 2010 for review. The study outlines a framework for using 
material generated through maintenance dredging of authorized channels 
for restoration efforts.
    The BUDMAT study provides criteria for identifying individual 
projects that could proceed after completing the relevant planning and 
environmental studies. Pre-construction engineering and design of the 
first BUDMAT projects will start in late fiscal year 2010, with 
construction of those individual projects expected to be initiated in 
fiscal year 2011.
    Question. Can you assure us today that the funding would result in 
on the ground projects if it was included in an appropriation bill?
    General Van Antwerp. If the LCA BUDMAT Program report receives a 
favorable administration review, the Corps is prepared to work with the 
State of Louisiana to execute a Project Partnership Agreements in 
fiscal year 2010 in preparation to begin construction in fiscal year 
2011. The Corps will capitalize on the scheduled maintenance dredging 
at authorized channels where the material can be used for restoration 
projects that meet the LCA Program objectives.
    Question. The Louisiana coast continues to be negatively impacted 
from subsidence and sea level rise. Beyond the near term benefit of 
wetland restoration, how will the work proposed under the LCA account 
for these factors. Are we essentially wasting our money for very short 
term gains?
    General Van Antwerp. Sea level rise and subsidence were factors in 
developing the plans for the LCA projects. While the projects cannot 
stop sea level rise and subsidence, the projects can slow down the 
disappearance of the landforms by eliminating some of the causes of 
coastal erosion. The addition of sediments through direct placement or 
river diversions will increase the ability of the restored area to 
continue to function and provide habitat with minimum continuing 
intervention over time. The soft, fluid Louisiana coastal formations 
erode in nature, and the services produced by a given project will 
change as the land erodes. The landforms continue to function as 
coastal habitats and ecosystem regulators even though they do not 
maintain their original construction footprint.
    Question. Will the LCA project actually restore the Louisiana 
coast? It appears to me that the best you will be able to accomplish 
with this program is perhaps to reduce the current loss of wetlands. 
Even that goal is unclear if it can be met. How do you justify spending 
funds to initiate construction on something that has such speculative 
benefit?
    General Van Antwerp. The projects identified in the LCA 2004 report 
are restoration elements that could be implemented in the near term to 
address critical needs of the Louisiana coast. As indicated in the LCA 
2004 report, the design and operation of these features would reduce 
the current rate of loss, maintain the opportunity for, and support the 
development of large-scale, long range comprehensive coastal 
restoration.
    The near term projects are intended to work in concert with each 
other to improve the sustainability of the Louisiana coast. Maintaining 
natural landscape features and hydrologic processes is critical to 
sustainable ecosystem structures and functions. The Louisiana coastline 
represents 90 percent of the wetlands in the contiguous United States 
and is currently disappearing at an alarming rate. This unique and 
scarce habitat has high fish and wildlife values and serves to protect 
nationally important oil and gas infrastructure, as well as coastal 
communities and cultures.
    Question. Why is the LCA project more of a priority for the 
administration than other restoration projects?
    Ms. Darcy. Execution of the LCA projects would make significant 
progress toward achieving and sustaining a coastal ecosystem that can 
support and protect the environment, economy, and culture of southern 
Louisiana and thus, contribute to the economy and well-being of the 
Nation.
    With no action the capacity of the coastal wetlands to buffer storm 
surges from tropical storm events will diminish, which will increase 
the risk of significant damage to oil, gas, transportation, water 
supply and other private and public infrastructure and agriculture 
lands and urban areas. A continued decline of the natural ecosystem 
will result in a decrease in various functions and values associated 
with wetlands, including corresponding diminished biological 
productivity and increased risk to critical habitat of Federal-listed 
threatened and endangered species.
    Question. Why is funding included in both the GI and the 
construction accounts?
    Ms. Darcy. For fiscal year 2011, funds from the Investigations 
account would be used to continue the feasibility level analysis for 
components of the LCA Program and funds from the Construction account 
will be used to undertake construction for those components where 
construction can be initiated.
    Question. WRDA 07 conditionally authorized six projects subject to 
a favorable report of the Chief of Engineers not later than December 
2010. Are you on schedule to meet this report requirement?
    Ms. Darcy. The Corps and the State of Louisiana are currently on 
schedule to have a signed favorable report of the Chief of Engineers 
Report by December 2010.
                        general budget questions
    Question. Understanding that development of the budget is an 
iterative process between the agency and the administration, is it safe 
to assume that the Corps initial budget request to OMB differed from 
what we have before us today?
    Ms. Darcy. The Corps' recommendations are the foundation of the 
Army's budget recommendations to the President. The advice and counsel 
leading up to the Army's recommendations are part of the internal 
deliberative process.
    Question. Without going into specific projects are funding levels, 
can you tell us a little bit about how it might have differed?
    Ms. Darcy. The President must make government-wide budget decisions 
in consideration of his the overall policy, spending and deficit goals. 
In order to provide the President the full benefit of advice from the 
agencies and departments, budget deliberations are considered to be 
pre-decisional, internal information.
    Question. Was the initial amount that the Corps recommended higher 
than what is before us today?
    Ms. Darcy. The advice and counsel leading up to the recommendations 
that form the basis of the President's budget are part of the internal 
deliberative process and are considered confidential advice to the 
President.
    Question. Was a specific area or business line of the budget 
request more impacted by the budgetary criteria?
    Ms. Darcy. The budget is performance based, and benefit cost ratio 
(BCR) is a primary allocation metric. Some business lines are more 
likely to carry higher benefit-to-cost ratios, although consideration 
also is given to reducing risks to human life and providing important 
environmental restoration benefits.
                            yazoo backwater
    Question. Why does the fiscal year 2011 budget propose to cancel 
$58 million previously appropriated for the Yazoo Backwater project?
    Ms. Darcy. As a result of Environmental Protection Agency's (EPA) 
veto of the Yazoo Backwater Pumps Project under section 404(c) of the 
National Environmental Policy Act, the project cannot proceed and, 
therefore, the funds appropriated specifically for implementation of 
the Yazoo Backwater pumps project are not needed.
    Question. Will this cancellation affect completion of the center 
associated with the Theodore Roosevelt National Wildlife Refuge?
    Ms. Darcy. The requirement of the fiscal year 2009 Omnibus 
Appropriation Act that some of the funding appropriated for the Yazoo 
Pumps project in that act be used for the Interpretive Center has been 
satisfied.
    Question. What about the ongoing litigation? It is inappropriate to 
propose cancellation of these funds before the final decision is made.
    Ms. Darcy. The Army is not a party to this litigation. The court 
has allowed six environmental groups to intervene as defendants in the 
lawsuit. The court will decide the lawsuit on motions for summary 
judgment based on the administrative record.
    Question. There is an inconsistency between the administration's 
budget appendix and the Corps' press release. The budget appendix 
assumes $58 million is cancelled. The press book shows only $52 
million. Are either of these numbers correct?
    Ms. Darcy. The $58 million reflected in the administration's budget 
appendix is the amount of funds appropriated in fiscal year 2004 thru 
fiscal year 2009 for implementation of the Yazoo Backwater project. Due 
to a misunderstanding about the effect of language in the fiscal year 
2009 Omnibus Appropriation Act, the press book reduced the amount by 
$6,000,000.
                          levee certification
    Question. There is considerable controversy over the minimally 
acceptable rating for levee certification. Please explain the Corps 
inspection process and how the FEMA rating system has affected the 
Inspection of Completed Works program.
    General Van Antwerp. The Corps conducts Routine Inspections on an 
annual basis of levees including those the Corps operates and 
maintains; those Federal authorized and operated/maintained by a local 
sponsor; and those locally constructed and locally maintained, but have 
applied and been accepted into the Corps' Public Law 84-99 program. The 
purpose of these Routine Inspections (also referred to as Annual 
Inspections or Continuing Eligibility Inspections) is to ensure the 
levee system is being properly operated and maintained in accordance 
with project cooperation agreements, if applicable, as well as to 
determine eligibility for Federal rehabilitation funds under Public Law 
84-99.
    The Corps uses an inspection checklist and provides a levee 
``system'' rating. A levee system is defined as comprising one or more 
levee or floodwall segments which collectively provide flood risk 
reduction to a defined area. The levee system is inclusive of all 
features that are interconnected and necessary to ensure flood risk 
reduction of the associated separable floodplain. A levee system can 
have one or more local sponsors or maintainers, but is rated as one 
entity. The Corps provides a rating for each individual item/component 
on the checklist and then gives the levee an overall system rating.
    The Corps' inspection ratings include the following:
    Acceptable Item.--The inspected item is in satisfactory condition, 
with no deficiencies, and will function as intended during the next 
flood event.
    Minimally Acceptable Item.--The inspected item has one or more 
minor deficiencies that need to be corrected. The minor deficiency or 
deficiencies will not seriously impair the functioning of the item as 
intended during the next flood event.
    Unacceptable Item.--The inspected item has one or more serious 
deficiencies that need to be corrected. The serious deficiency or 
deficiencies will seriously impair the functioning of the item as 
intended during the next flood event.
    Acceptable System.--All items or components are rated as 
Acceptable.
    Minimally Acceptable System.--One or more items are rated as 
Minimally Acceptable or one or more items are rated as Unacceptable and 
an engineering determination concludes that the Unacceptable items 
would not prevent the system from performing as intended during the 
next flood event.
    Unacceptable System.--One or more items are rated as Unacceptable 
and would prevent the system from performing as intended, or a serious 
deficiency noted in past inspections (which had previously resulted in 
a minimally acceptable system rating) has not been corrected within the 
established timeframe, not to exceed 2 years.
    If a levee system is rated Unacceptable, that system is placed in 
Inactive status in Public Law 84-99 until corrections are made. An 
Inactive levee is no longer eligible for Federal rehabilitation funding 
if damaged from a flood event. The Corps will still participate in 
flood fighting activities.
    Inspection results are provided to the local sponsor and to FEMA. 
If the Corps is on record as having previously certified the levee for 
FEMA purposes, then the Corps will evaluate how the inspection results 
may or may not impact the certification. If the Corps did not certify 
the levee, then FEMA will decide if the certification needs to be 
revisited based on the inspection results.
    An ``Acceptable'' inspection rating by the Corps does not equate to 
a levee certification.
    An ``Unacceptable'' inspection rating by the Corps does not 
automatically ``decertify'' a levee.
    A Periodic Inspection, conducted every 5 years, is the next level 
of inspection in the Corps Levee Safety Program and is conducted by a 
multidisciplinary team, led by a professional engineer. It includes a 
more detailed, comprehensive and consistent evaluation of the condition 
of the levee system. Activities under the Periodic Inspection include 
evaluating Routine Inspection items; verifying proper operation and 
maintenance; evaluating operational adequacy, structural stability and, 
safety of the system; and comparing current design and construction 
criteria with those in place when the levee was built. The final 
Periodic Inspection rating is based upon the Routine Inspection 
checklist.
    FEMA does not have any type of rating system for levees or levee 
certification.
    Question. We understand that levees that were designed for 
underseepage may now receive a minimally acceptable rating under the 
new rating system. How will this impact the levee being certified or 
accredited by FEMA?
    General Van Antwerp. Inspection ratings by the Corps do not have a 
direct correlation to levee certification for FEMA purposes. 
Certification for FEMA purposes only evaluates a levee at the 1 percent 
flood event (or 100 year or base flood) and any type of condition, such 
as underseepage, will need to be taken into account for this 
evaluation. For example, deficiencies could exist that may not impact 
the levee's ability to perform at the 1 percent flood event.
    Question. What happens if a levee loses certification and how will 
this impact taxes paid to levee districts for funding levee 
maintenance?
    General Van Antwerp. When levees do not meet certification 
criteria, the areas behind them are mapped as if the levee is not 
there. Depending on the hydraulics, these areas could be shown on 
FEMA's Flood Insurance Rate Maps as high-risk Special Flood Hazard 
Areas (SFHAs). Flood insurance and other flood plain management 
requirements are mandatory in SFHAs.
    The Corps cannot comment on how local taxes are implemented or 
impacted.
    Question. Who is responsible for the cost to bring a levee that was 
previously certified in the past up to current standards for levee 
certification?
    General Van Antwerp. For Inspection of Completed Works levees 
(Federal authorized/locally maintained), the local sponsor has the 
responsibility to ensure the levee will perform to the authorized 
design level, which may be below, at, or above the 1 percent (or 100 
year or base) flood event for levee certification.
    For levees the Corps operates and maintains, the Corps has the 
responsibility to ensure the levee will perform to the authorized 
design level. For all other levees, the entity seeking certification 
has responsibility to ensure the levee meets certification criteria.
    Question. How does the Corps Levee Safety program support levee 
certification?
    General Van Antwerp. The Corps will provide any levee information 
available to the local sponsor in support of certification efforts.
    Question. When is levee certification a Corps of Engineers 
responsibility?
    General Van Antwerp. It is the local levee sponsor's or community's 
responsibility to provide levee certification documentation to FEMA. 
Local communities must legally adopt and administer FEMA's National 
Flood Insurance Program (NFIP) requirements and have responsibility for 
operation and maintenance of their levees.
    If the Corps operates and maintains the levee, the local community 
that must adopt the FEMA Flood Insurance Rate Map as part of their 
requirement for participation in the National Flood Insurance Program 
may request the Corps to perform the certification of that levee. If 
funding is available, the Corps may perform the certification. The 
purpose of levee certification is to determine how FEMA will map the 
floodplain behind the levee for flood insurance purposes as part of the 
NFIP. The 1 percent annual chance exceedance flood, also called the 
100-year or base flood, is an insurance standard. It is not a safety 
standard nor does it eliminate risk.
    Question. For levee projects that once had 100-year certification 
and now find that they are a couple of feet too short or have other 
structural issues, what is the likelihood that current Corps policy 
would allow the Corps to participate in finding solutions that would be 
economically justified?
    General Van Antwerp. The Corps has various authorities and programs 
in the area of Flood Risk Management to collaborate in finding 
potential solutions, such as section 205--Flood Damage Reduction; 
section 216--Review of Completed Projects; Floodplain Management 
Services, Planning Assistance to States, interagency teams, or 
initiation of reconnaissance study.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
    Question. The U.S. Army Corps recommends a mere $2.868 million for 
the Kentucky Lock and Dam project in the fiscal year 2011 budget, which 
will cause the project to slip even further behind. How many years 
delayed is the project, and what additional funds are now needed 
complete it? What is the Army Corps' long-term plan for Kentucky Lock?
    General Van Antwerp. The Kentucky Lock Project received $65.6 
million in ARRA funds to date that has allowed for award of the 
Upstream Lock Monoliths construction contract. This contract 
encompasses all the critical activities of the project through at least 
the second quarter of fiscal year 2012. For this reason, the project 
did not require significant funding in fiscal year 2011 from the Inland 
Waterways Trust Fund (IWTF).
    The $2.868 million in the fiscal year 2011 budget is sufficient to 
complete the ongoing highway/railroad relocations superstructure 
construction contract. The project's completion date has been extended 
for 3 years due to the solvency issues of the IWTF. If enacted, the 
draft plan to restore solvency to the IWTF would provide sufficient 
funding to complete the project before 2020.
    Question. The Army Corps has indicated that $143.2 million could be 
used to further construction at Olmsted Locks and Dam; however the 
President's budget for fiscal year 2011 includes $136 million for the 
project. How many years behind is the project from its scheduled 
completion date? At what point does the budget for Olmsted take a 
severe budget cut, like the Kentucky Lock Project, because of the 
inability of the Inland Waterways Trust Fund to fund ongoing projects?
    General Van Antwerp. The Olmsted project completion date of 2012 
has slipped, due to a number of factors including river conditions, 
design changes, materials and supply escalation, and differing site 
conditions. If optimal funding were to be available, the project could 
be completed in 2018. For fiscal year 2011 thru fiscal year 2015 the 
estimated efficient funding stream for the project is approximately 
$140-$145 annually.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
    Question. In the wake of Judge Magnuson's July 2009 ruling 
concerning the Corps' illegal operations in the Apalachicola-
Chattahoochee-Flint (ACF) River Basin, the Corps was forced to withdraw 
its scoping report for the ACF Water Manual Update and issue a revised 
scoping report. The Corps is also preparing a new water control manual 
for the Alabama-Coosa-Tallapoosa (ACT) River Basin, but Judge Bowdre 
has not yet ruled on the legality of the Corps operations in the ACT 
Basin.
    In light of the experience with having to withdraw the ACF scoping 
report, has the Corps considered suspending the ACT manual update 
process until Judge Bowdre issues her ruling? If not, how can the Corps 
justify expending scarce resources to continue with the ACT manual 
update process when Judge Bowdre's ruling may require that the process 
start over?
    General Van Antwerp. The Corps is updating the ACT water control 
manuals and associated NEPA documentation in accordance with direction 
provided by then Secretary of the Army Pete Geren in October 2007, and 
Army regulations. Updating the water control manuals and NEPA 
documentation is a complex and time-consuming deliberative process that 
includes extensive model development and data analysis, as well as 
coordination with Federal, State, regional and local agencies.
    The Corps is confident that its operations in the ACT basin, and 
its process in updating the ACT manuals, are fully in compliance with 
applicable law. While the possibility exists that some adjustments to 
the update may be appropriate in response to a future ruling by Judge 
Bowdre in the ACT litigation in the U.S. District Court for the 
Northern District of Alabama, the majority of the work being performed 
now would still be needed and of value in implementing any water 
control manual update.
    Although the Corps did decide to reopen public scoping of the ACF 
water control manual updates and EIS in November 2009, to account for 
Judge Magnuson's July 17, 2009 ruling in the consolidated cases styled 
In re Tri-State Water Rights Litigation, No. 3:07-md-01 (M.D. Fla.), 
the Corps is continuing the process of updating the ACF water control 
manuals, in accordance with Secretary Geren's earlier direction, and 
released an updated scoping report in March 2010. The July 2009 ruling 
is currently on appeal.
    Question. Explain how the Corps has factored the legal principles 
underlying Judge Magnuson's ruling concerning the ACF into Corps' ACT 
manual update process.
    General Van Antwerp. Judge Magnuson's ruling addressed the 
authorities for operating Buford Dam/Lake Sidney Lanier and did not 
address the ACT manual update process.
    Question. What steps has the Corps taken to address the fact that 
Cobb County-Marietta Water Authority withdraws more water than they are 
entitled to withdraw from Lake Allatoona under their contract with the 
Corps?
    General Van Antwerp. The Corps notified CCMWA in a letter dated 
November 2, 2007 that its water supply withdrawals from Lake Allatoona 
were exceeding the amount of water available in storage allocated to 
CCMWA pursuant to its storage contract. There are on-going discussions 
with CCMWA regarding this issue.
    Question. What is the status of the Hickory Log Creek Reservoir in 
Georgia and when is it anticipated that the pumping facility on the 
Etowah River will begin operations?
    General Van Antwerp. Construction of the reservoir is essentially 
complete and the reservoir is approximately 80 percent full due to 
plentiful rains in the fall of 2009 and spring 2010. The Etowah River 
pump system is completed, but some land acquisition problems have 
arisen. Pursuant to DOA permit conditions CCMWA cannot pump from the 
Etowah River until it completes its compensatory mitigation. The 
estimated time until the pumping from the Etowah begins is now December 
2010. However, to date, the Corps has not received a formal request 
from CCMWA to start pumping from the Etowah River.
    Question. Has the Corps imposed any restrictions on the timing and 
duration of pumping from the Etowah River into the Hickory Log Creek 
Reservoir to minimize the impact upon inflows into Lake Allatoona?
    General Van Antwerp. The State of Georgia has established 
conditions for when pumping from the Etowah River into Hickory Log 
Creek can occur. These conditions limit withdrawals from the Etowah 
River when the river is below 25 percent of Annual Daily Discharge 
(ADD).
                                 ______
                                 
           Questions Submitted by Senator George V. Voinovich
    Question. In the Fiscal Year 2010 Energy and Water Appropriations 
Act, Congress provided the Corps with emergency authority to implement 
measures for Asian Carp that were included in an interim or final 
Feasibility Study, which was authorized in WRDA 2007. Has this 
authority been helpful and does the Corps support the continuation of 
this authority?
    Ms. Darcy. The Army has found the authority useful and supports its 
extension. The authority has provided the Corps with the opportunity to 
complete studies for the Secretary's approval that can be implemented 
quickly to address the high level of concern in the Great Lakes 
community over the migration of Asian Carp. One example of using the 
authority is the construction of fencing and barricades to prevent 
bypass of the Corps' electric barrier system in the case of flood 
events.
    Question. For many years, I have raised concerns about the 
significant backlog of Corps work throughout the country as well as in 
the Great Lakes. This backlog problem is, in part, the result of the 
Corps practice of treating the Great Lakes as a coastal system and 
comparing individual ports using tons as a budget metric. In contrast, 
the Corps budgets our Nation's river systems on a ton-mile metric. The 
current budget process and metrics put the Great Lakes navigational 
system at a disadvantage compared to other domestic navigational 
systems. How do you plan to address the backlog of Corps' work across 
the country, and in particular the Great Lakes?
    General Van Antwerp. The Corps budgets for key maintenance needs 
across the entire spectrum of Civil Works projects by prioritizing 
projects based on objective performance criteria. In navigation, the 
Corps focuses on funding harbors and waterways that have high volumes 
of commerce. However, funds are budgeted based on other factors as 
well, such as those ports and channels that serve as critical harbors 
of refuge, subsistence harbors, or facilitate U.S. Coast Guard search 
and rescue operations.
    The Great Lakes projects are individually authorized and are 
considered coastal projects. While there is some interdependence of the 
Great Lakes ports and harbors on each other, the Great Lakes system is 
non-linear and many Great Lakes ports and harbors can operate 
independent of other harbors. Conversely, the inland navigation 
facilities on the Mississippi River, Ohio River, and other inland 
waterways are often linear and interdependent on each other. For 
example, if users are traversing more than one lock and dam a single 
closure in the system will stop that traffic. For other than short-haul 
movements, or movements south of St. Louis, the commercial towing 
vessels must transit through many locks and dams to move from the point 
of origin to the destination point and all the inland navigation 
infrastructure along the way must be functional for the trip to occur.
    Question. Despite the significant backlog of Corps work, the Harbor 
Maintenance Trust Fund has approximately a $4 billion surplus that is 
growing each year. As you know, the money collected for the Harbor 
Maintenance Trust Fund is intended for a specific purpose--maintaining 
harbors and channels. Do you believe that additional money should be 
provided to the Corps from the Harbor Maintenance Trust Fund?
    Ms. Darcy. The source of funds is just one of many factors 
considered in the budget development process. The overall Civil Works 
Operation and Maintenance (O&M) program is prioritized for all 
missions, including navigation, flood risk management, hydropower, etc. 
Funding is budgeted for the diverse Civil Works missions based on 
various metrics and priorities, and is limited by our overall budget 
authority.
                                 ______
                                 
             Questions Submitted to Hon. Michael L. Connor
             Questions Submitted by Senator Byron L. Dorgan
                                drought
    Question. In prior years I have talked about the drought situation 
in the West particularly as it relates to North Dakota. As we know, 
that is not the situation this year. However, can you talk about the 
drought situation in the West and what we should expect based on 
current models?
    Answer. Reclamation utilizes the National Oceanic and Atmospheric 
Administration's Climate Prediction Center to monitor drought 
conditions. Currently, the Center shows that the States of Arizona, 
California, Colorado, Hawaii, Idaho, Montana, Nevada, New Mexico, 
Oregon, Texas, Utah, Washington, and Wyoming are experiencing some 
level of drought ranging in intensity from abnormally dry to extreme. 
While the El Nino winter has improved the drought conditions in the 
Pacific Northwest and Northern Rockies, it has expanded the drought in 
the Hawaiian Islands.
                              rural water
    Question. There are a number of projects in the fiscal year 2010 
Energy and Water Act that were not included or included at low levels 
in the President's fiscal year 2011 budget request. Can you provide us 
the capability amounts needed for those projects?
    Answer. The first priority for funding rural water projects is the 
required O&M component, which is $15.5 million (Reclamation-wide) for 
fiscal year 2011. For the construction component, Reclamation allocated 
funding based on objective criteria that gave priority to projects that 
serve on-reservation needs and are nearest to completion.
  --Fiscal year 2011 is the second time Jicarilla-Apache Rural Water 
        System (RWS) in New Mexico is in the budget request. The 
        request is for $0.5 million.
  --Perkins County Rural Water System (RWS) in South Dakota is in the 
        budget request. The request is for $1 million.
  --Rocky Boy's/North Central Montana RWS in Montana is in the budget 
        request. The request is for $1 million. At full capability, $20 
        million would be used to install additional core system 
        pipeline from the Tiber Dam to the Rocky Boy's Reservation.
  --Fort Peck Reservation/Dry Prairie RWS in Montana is in the budget 
        request. The request is for $2 million. At full capability, $15 
        million would be used to complete pipeline from the water 
        treatment plant to Wolf Point and Poplar.
  --Lewis and Clark RWS in South Dakota, Iowa, and Minnesota, is in the 
        budget request. The request is for $200 million. At full 
        capability, $35 million would complete construction on Phase II 
        of the water treatment plant.
    Question. How did you arrive at the funding decisions for rural 
water projects? Most of them seem to be funded at minimal levels.
    Answer. The first priority for funding rural water projects is the 
required O&M component, which is $15.5 million (Reclamation-wide) for 
fiscal year 2011. For the construction component, Reclamation allocated 
funding based on objective criteria that gave priority to projects that 
serve on reservation needs and are nearest to completion.
    Question. Are these projects not part of Reclamation's mission of 
bringing water to the West?
    Answer. Yes. The mission of the Bureau of Reclamation is to manage, 
develop, and protect water and related resources in an environmentally 
and economically sound manner in the interest of the American public.
    The fiscal year 2011 President's budget balances several 
priorities, including funding for constructing authorized rural water 
projects. Given the need to work within the framework of today's budget 
realities, as well as the need to be attentive to priorities associated 
with existing water and power infrastructure throughout the West, 
Reclamation is unable to fund all of the ongoing rural water projects 
at their full capability levels.
    Question. How are we ever going to make progress on completing 
these projects, at these low budget levels? Inflation is going to 
increase the project cost faster than the funding we are investing.
    Answer. Reclamation is making progress in funding rural water 
projects throughout North and South Dakota and Montana. The Mid-Dakota 
Rural Water System was completed in fiscal year 2006; numerous features 
within the Garrison Diversion Unit in North Dakota have been completed; 
and the Mni Wiconi Rural Water System is scheduled to complete in 2013. 
Reclamation also allocated $200 million in American Reinvestment and 
Recovery Act funds (ARRA) to further construction on these projects.
                        title xvi recycled water
    Question. Title XVI programs are traditionally not well supported 
by the administration. I am pleased to see an increase for these 
projects in your budget. However, can you explain how the unallocated 
$20 million will be allocated to projects?
    Answer. Fiscal year 2011 is a transition year for the title XVI 
Water Reclamation and Reuse program (title XVI) because a number of the 
individual projects authorized under title XVI of Public Law 102-575, 
as amended, that have been included in the President's budget in the 
past are completed or are approaching Federal cost-share ceilings. 
Reclamation plans to post a funding opportunity announcement to invite 
project sponsors to submit requests for fiscal year 2011 funding. The 
procedure will be similar to the steps used to allocate over $135 
million in ARRA funding to title XVI projects in 2009, when proposals 
were reviewed and ranked to identify individual projects for funding. 
The funding opportunity will be open to authorized projects that have 
received Federal funding in the past and those that have not received 
Federal funding to date. Reclamation proposes to consider construction 
and pre-construction activities that can be commenced in fiscal year 
2011 and completed within 24 months (i.e., not previously completed 
construction). Generally, criteria will focus on reducing existing 
diversions or addressing specific water supply issues in a cost-
effective manner, addressing environmental and water quality concerns, 
and meeting other program goals.
    Question. What modifications do you believe could be made to the 
title XVI program that would make it more acceptable to the 
administration?
    Answer. This administration recognizes the key role water reuse 
plays in addressing western water issues, as indicated by this 
increased request. Title XVI is an important part of the WaterSMART 
program, which seeks to achieve a sustainable water strategy to meet 
the Nation's water needs. Title XVI projects can stretch water supplies 
using both time-tested methodologies and piloting new concepts. 
Reclamation looks forward to working with the subcommittee to make the 
title XVI program as effective as possible as part of this coordinated 
approach to addressing 21st century water challenges.
    Question. How much of a backlog currently exists in the currently 
authorized title XVI program?
    Answer. There are currently 53 authorized title XVI projects, 
including new projects authorized as a result of the Omnibus Public 
Land Management Act of 2009 (Public Law 111-11). Together, those 
authorized projects have a remaining Federal cost share balance in 
excess of $600 million--after more than $135 million allocated under 
ARRA has been applied.
                          aging infrastructure
    Question. The recently passed Lands bill gave Reclamation the 
authority to address rehabilitation of its aging infrastructure. Prior 
to the passage of this legislation this rehab work would have been a 
non-Federal responsibility. Recognizing that this is a relatively new 
authority, has Reclamation established guidance for how this program is 
to be implemented?
    Answer. Reclamation is currently developing guidance regarding the 
implementation of this program as directed by Omnibus Public Land 
Management Act (Public Law 111-11, subtitle G--Aging Infrastructure). 
Similar programs designed to assist Reclamation project beneficiaries 
in financing the reimbursable costs of extraordinary maintenance and 
rehabilitation work have been implemented by Reclamation in the past, 
and we are drawing on that experience in developing implementation 
guidance.
    Question. Has Reclamation evaluated the condition of this 
infrastructure so that this work could be prioritized in a meaningful 
manner?
    Answer. Reclamation periodically evaluates the condition of its 
facilities through existing facility review programs. The 
recommendations resulting from the reviews are the basis for 
prioritization of funding for identified needs.
    Question. No funding was provided in your budget for this 
authority. Does this mean that this will be a low budget priority for 
the administration?
    Answer. No. Reclamation believes that the Omnibus Public Land 
Management Act (Public Law 111-11, subtitle G--Aging Infrastructure) 
provides the authority to undertake such a program, and plans to 
consider the appropriateness of funding requests to support these 
efforts on a project by project basis given current budget constraint. 
As stated in above, Reclamation periodically evaluates the condition of 
its facilities through existing review programs and the recommendations 
resulting from the reviews are the basis for prioritization of funding 
for identified needs.
    Question. The language in the Lands bill makes this work 
reimbursable over a period not to exceed 50 years. Will this be 
affordable to the non-Federal sponsors that most need this assistance?
    Answer. Current law requires the non-Federal sponsors to pay for 
this work in advance. Allowing repayment over a term of up to 50 years 
will greatly ease the burden these entities have faced in the past in 
repaying the reimbursable costs of this work. In addition, Reclamation 
would pay for the share of the costs that would be allocated to non-
reimbursable project purposes. However, given that some of the major 
repair work needed will be very costly, and that interest will be 
assessed on the reimbursable obligations, some project sponsors will 
still face challenges in repaying these costs.
    Question. With much of Reclamation's infrastructure more than 50 
years old, this problem is only going to increase. Has Reclamation 
developed contingencies to address failures of this infrastructure?
    Answer. Assuming that the reference to failures is in the context 
of not being able to continue water deliveries, this would pose a 
public policy question regarding the costs and benefits associated with 
major Federal investment in recapitalizing this infrastructure. 
Reclamation believes that the Omnibus Public Land Management Act 
(Public Law 111-11, subtitle G--Aging Infrastructure) provides the 
authority to undertake such a program, and plans to consider the 
appropriateness of funding requests to supports these efforts on a 
project by project basis given current budget constraints.
    Question. Now that the CALFED Program has been extended, will the 
administration be providing a Cross Cut Budget document showing 
expenditures and accomplishments, either this year or in next year's 
request?
    Answer. Reclamation and the other Federal CALFED agencies prepared 
a Federal Cross Cut Budget for fiscal year 2011 in accordance with the 
extension of Public Law 108-361 through fiscal year 2014. That is 
currently posted with the President's fiscal year 2011 budget on the 
OMB Web site under Analytical Perspectives. Under the newly established 
Delta Stewardship Council which replaced the California Bay-Delta 
Authority and assumed the CALFED Program, the Federal CALFED agencies 
anticipate continuing to work with the State to meet the goals 
identified in the CALFED Bay-Delta Programmatic Record of Decision and 
our Federal responsibilities as defined in Public Law 108-361. OMB will 
continue to work with the Federal CALFED agencies through fiscal year 
2014 to ensure a Federal Cross Cut Budget is prepared and submitted 
unless replaced by some other process or defining legislation.
    Question. On December 22, 2009, the administration released an 
``Interim Federal Action Plan for the California Bay-Delta''. How will 
the administration report expenditures by agencies on items within this 
plan and accomplishments of the plan?
    Answer. The administration will work closely with our State and 
other Federal partners in developing a coordinated report on 
obligations and accomplishments of the Federal Action Plan for the 
California Bay-Delta. As many of the activities under the Action Plan 
will also be associated with the activities of the new Delta 
Stewardship Council, we will work together to provide a concise and 
meaningful report of the obligations and accomplishments under the 
Federal Action Plan that is fully coordinated with the annual reporting 
requirements of the extended CALFED Program. This reporting includes 
the Annual Cross Cut Budget submittal unless replaced by some other 
process or defining legislation.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                                 calfed
    Question. Now that the CalFed Bay-Delta Authorization is extended 
through 2014, will the administration be providing a Cross Cut Budget 
document showing expenditures and accomplishments, either this year or 
in the fiscal year 2012 budget request?
    Answer. Reclamation and the other Federal CALFED agencies prepared 
a Federal Cross Cut Budget for fiscal year 2011 in accordance with the 
extension of Public Law 108-361 through fiscal year 2014. That is 
currently posted with the President's fiscal year 2011 budget on the 
OMB Web site under Analytical Perspectives. Under the newly established 
Delta Stewardship Council which replaced the California Bay-Delta 
Authority and assumed the CALFED Program, the Federal CALFED agencies 
anticipate continuing to work with the State to meet the goals 
identified in the CALFED Bay-Delta Programmatic Record of Decision and 
our Federal responsibilities as defined in Public Law 108-361. OMB will 
continue to work with the Federal CALFED agencies through fiscal year 
2014 to ensure a Federal Cross Cut Budget is prepared and submitted 
unless replaced by some other process or defining legislation.
    Question. On December 22, 2009, the administration released an 
``Interim Federal Action Plan for the California Bay-Delta''. How will 
the administration report expenditures by agencies on items within this 
plan and accomplishments of the plan?
    Answer. The administration will work closely with our State and 
other Federal partners in developing a coordinated report on 
obligations and accomplishments of the Federal Action Plan for the 
California Bay-Delta. As many of the activities under the Action Plan 
will also be associated with the activities of the new Delta 
Stewardship Council, we will work together to provide a concise and 
meaningful report of the obligations and accomplishments under the 
Federal Action Plan that is fully coordinated with the annual reporting 
requirements of the extended CALFED Program. This reporting includes 
the Annual Cross Cut Budget submittal unless replaced by some other 
process or defining legislation.
                        red bluff diversion dam
    Question. The President's budget includes $39.9 million to continue 
construction of the new fish screen and pumping plant at the Red Bluff 
Diversion Dam on the Sacramento River. The administration also 
allocated $109.9 million in stimulus dollars toward this project. 
However, in order to keep this project on schedule to meet the 
requirements in the June 4, 2009 Biological Opinion for the Operating 
Criteria and Plan for the Central Valley Project, this project requires 
$61.3 million in fiscal year 2011. Why does the budget not include this 
amount?
    Answer. The fiscal year 2011 budget includes the minimum required 
to keep pace with the expected construction expenditures. Additional 
funding that would be available to the project in fiscal year 2011 
would be obligated to the pumping plant and fish screen construction 
contract to reduce the amount remaining to be funded on the contract. 
Reclamation will continue to assess project funding needs as more 
refined cost estimates are available.
                     san joaquin river restoration
    Question. The San Joaquin River Settlement dedicates revenues from 
the Friant surcharge and capital repayment obligation to fund 
implementation of the agreement. The State of California also has 
committed funding to the Settlement. But the Parties to the Settlement, 
including the Interior Department, know that full implementation will 
require more than these dedicated revenues and the promised State 
funding. That's why the Settlement Act authorizes an additional $300 
million in appropriations. The Parties, including the Interior 
Department, always assumed--and assured me--that Settlement 
implementation would be funded each year with a mix of appropriations 
and non-appropriated dedicated revenues.
    Yet for the second year in a row, the Department has requested no 
new appropriations for the Settlement in fiscal year 2011. The budget 
request includes only the dedicated revenues from the Friant surcharge 
and capital repayment for Settlement implementation plus a small amount 
from the CVP Restoration Fund. This is not in keeping with my 
understanding of what was agreed to, nor does it conform to the 
understanding of the water users and conservation organizations who are 
Parties to the Settlement. They tell me that they are concerned that 
this budget reflects a lack of commitment by the Department to 
implement the agreement as agreed to.
    As you know, a significant portion of the Settlement's non-
appropriated dedicated revenues will come in a few years before the 
Settlement's largest expenditures for river restoration and water 
management projects, which will exceed those revenues. If you spend all 
or even most of the Settlement's non-appropriated funds in the short-
term, how will the Department fund the major implementation costs that 
are coming within the next few years?
    Answer. Funding for projects required by the Settlement can be 
funded by direct spending from dedicated revenues (subject to an $88 
million cap until 2019), appropriated discretionary funds, and State or 
local contributed funds.
    Question. Do you expect to fund these projects entirely or mostly 
with appropriations?
    Answer. With the funding cap of $88 million on the direct spending 
from dedicated revenues until 2019, most of the implementation costs 
will need to come from both State contributions and Federal 
discretionary appropriations.
    Question. Wouldn't funding the Settlement with a mix of 
appropriated and non-appropriated funds now tend to reduce and even out 
appropriation requirements in the future when costs will be the 
greatest?
    Answer. Yes, Federal appropriations, such as the $5 million in 
fiscal year 2010, will reduce the magnitude of future appropriations 
required to implement the Settlement.
    Question. If so, why isn't the Department following this course?
    Answer. The Department's fiscal year 2011 budget request maintains 
a strong commitment to make progress on these issues, which are high 
priorities for the Department. There is $2 million in the Central 
Valley Project Restoration Fund request in addition to the mandatory 
revenues available.
    Question. Can the Department please provide me with a chart 
displaying an annualized estimate of funding needs for implementing all 
Settlement and Settlement Act projects, programs and activities 
together with an annualized estimate of revenues to the San Joaquin 
River Restoration Fund from all sources, including State funding?
    Answer. The requested chart is provided below. The chart is not a 
reflection of or estimate of future funding requests in the President's 
budget. A list of assumptions made in developing the chart is also 
provided below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Estimated funding need includes completion of the Settlement's high 
priority channel and structural improvements projects (also referred to 
as the Phase 1 projects), water management activities, fishery 
reintroduction planning and permitting, and management and monitoring 
of flows. The estimated funding need does not include costs for the 
Settlement's Phase 2 projects, Settlement Paragraph 12 projects (other 
projects recommended by the Restoration Administrator), and fisheries 
reintroduction activities due to the current uncertainty of the scope 
and need for these actions. The estimated funding need for the Friant-
Kern and Madera Canal Capacity Correction Project assumes funding this 
project over time as incremental improvements are made. Due to the 
requirement in section 10203 of Public Law 111-11 that funding for the 
Friant-Kern Canal Reverse Flow Project cannot impact or delay 
implementation of any other Settlement requirement, it is assumed that 
this project will not be initiated until 2017. Based on these 
assumptions, the estimated funding need for the program from fiscal 
year 2010 through fiscal year 2018 is approximately $520 million.
    Total funding available within the fiscal year includes funds from 
the following sources: Friant surcharge; Friant capital repayment; 
other Central Valley Project Improvement Act funding; appropriations in 
fiscal year 2010; and an estimate of State funding. Funds from the 
Friant surcharge and Friant capital repayment are assumed to be subject 
to the $88 million Pay As You Go (PAYGO) cap. From fiscal year 2010 to 
fiscal year 2018, Reclamation estimates collecting approximately $148.3 
million above the $88 million PAYGO cap that is not accounted for in 
the total funding available as it will require additional 
appropriations for use. Using these assumptions, the estimated total 
funding available from fiscal year 2010 through fiscal year 2018 is 
approximately $292 million.
    The remaining funding need is the difference between the total 
funding available and the estimated funding need. Using the assumptions 
we have described previously, the remaining annual funding need from 
fiscal year 2010 through fiscal year 2018 is approximately $313 
million.
    Question. Please also indicate how much of the revenues collected 
to date into the SJR Restoration Fund have been expended as ``mandatory 
spending'' and how much is left within the current Pay As You Go 
(PAYGO) cap as available for mandatory spending from the SJR Fund.
    Answer. As of April 1, 2010, approximately $168,000 of the funds in 
the SJR Restoration Fund has been obligated as mandatory spending. 
Reclamation estimates that mandatory spending from the SJR Restoration 
Fund at the end of fiscal year 2010 will be $5.6 million leaving $82.6 
million available after fiscal year 2010 under the $88 million cap.
    Question. In fiscal year 2008 and fiscal year 2009, this 
subcommittee provided a total of $1.4 million for projects to restore 
the original water carrying capacity of the Friant-Kern and Madera 
Canals. Those projects were included in the Settlement Act to help meet 
one of the Settlement's goals of avoiding or minimizing water supply 
impacts to Friant water users. Interim flows this year will exceed 
200,000 acre-feet and therefore the water supply impacts addressed by 
the Water Management Goal have already begun and can be expected to 
occur each year from now on. Bringing Water Management Goal projects 
online as soon as possible is important to the success of the 
Settlement. Yet despite 2 years of study funded by this subcommittee, 
the Department doesn't plan to start work on the canal repairs or other 
significant water management projects--in fiscal year 2011.
    Answer. Reclamation has used the funding provided for these 
projects in fiscal year 2008 and fiscal year 2009 to make progress.
    Question. Why?
    Answer. Reclamation has been working to expedite the completion of 
the feasibility studies required by Public Law 111-11 (passed in March 
2009), environmental permitting, and engineering design activities for 
these projects. For both the Friant-Kern and Madera Canal Capacity 
Correction Project and the Friant-Kern Canal Reverse Flow Project, 
preliminary design reports are scheduled for completion in June 2010, 
the National Environmental Policy Act compliance activities in July 
2010, and feasibility reports in August 2010. Final design and 
preconstruction activities would be completed in fiscal year 2011. Due 
to the need to construct the canal capacity correction project in the 
winter, when the canals are dewatered, this project would not be ready 
for construction until fiscal year 2012. The pump-back project could go 
to construction in late fiscal year 2011; however, as it currently 
stands, the Friant-Kern Canal Reverse Flow Project is assumed to be 
delayed until 2017 as it will be challenging to make the findings 
required in section 10203 of Public Law 111-11 if this project is 
funding with monies from the SJR Restoration Fund.
    Question. With regard to the Settlement's restoration activities, 
there have also been unexplained delays. For example, please explain 
why the Fisheries Management Plan is already significantly late when 
all the needed funding has been available?
    Answer. Although Reclamation and other implementing State and 
Federal agencies have been working diligently to implement the 
Settlement, some restoration activities have been delayed. The primary 
causes for the delays are: (1) the Federal legislation to implement the 
Settlement was enacted more than 2 years later than the Settlement 
assumed; (2) access to private property has not been granted, which has 
significantly delayed necessary field studies; (3) funding from the 
State of California has required compliance with a variety of State 
laws that Reclamation would not have otherwise had to comply with, 
including the California Environmental Quality Act; and, (4) 
Reclamation has incorporated a variety of processes to increase 
coordination with the Settling Parties, Implementing Agencies, Third 
Parties, and the public in an effort to increase the potential for a 
successful program and facilitate permitting and approval actions. 
Reclamation remains committed to implementing the Settlement.
    The San Joaquin River Restoration Program released a public review 
draft of the Fisheries Management Plan in June 2009. The Work Group 
received comments on the Plan and is currently preparing an updated 
version of the Plan in response to the comments received. The updated 
version of the Plan is anticipated to be ready and included as an 
attachment to the Program Environmental Impact Statement/Report, which 
is scheduled for release in June 2010. The Fisheries Management Plan is 
a living document that will be updated periodically as new information 
is gathered and uncertainties are addressed through monitoring and 
study activities.
    Question. Why doesn't the Department plan to start significant 
restoration projects in fiscal year 2011?
    Answer. Reclamation is currently in the formal planning and 
environmental compliance phases for the following three significant 
projects: (1) the Mendota Pool Bypass and Reach 2B Channel Improvements 
Project; (2) the Reach 4B, Eastside and Mariposa Bypass Low Flow 
Channel and Structural Improvements Project; (3) the Arroyo Canal Fish 
Screen and Sack Dam Fish Passage Project. These 3 projects address 9 of 
the 10 Phase 1 improvements in paragraph 11(a) of the Settlement. Each 
project includes substantial changes to the San Joaquin River system 
that will require a significant amount of upfront planning and design 
activities. Considering the time required to complete the planning, 
environmental reviews, permitting, preliminary and final designs, land 
acquisition, and awarding construction contracts, these projects are 
scheduled to be ready for construction in fiscal year 2013 or early 
fiscal year 2014.
    Question. When will the canal projects and the pump-back project 
authorized by Part III of the Settlement Act be ready for construction?
    Answer. Construction of both projects could begin in fiscal year 
2012. The canal capacity correction project could be ready for 
construction late fiscal year 2011; however, to reduce interruptions in 
water deliveries from the Friant-Kern and Madera canals and resulting 
impacts to water users, this project needs to be constructed in the 
winter when the canal is typically dewatered. Therefore, this project 
would not be ready for construction until fiscal year 2012. The pump-
back project could also initiate construction in late fiscal year 2011; 
however, as it currently stands, it will be challenging to make the 
findings required in section 10203 of Public Law 111-11 if this project 
is funded with monies from the SJR Restoration Fund.
    Question. How can these projects be expedited without impacting 
other Settlement activities?
    Answer. Given the requirements of Public Law 111-11, the National 
Environmental Policy Act, the Endangered Species Act, and other Federal 
laws that must be complied with, it is unlikely that either of the 
projects could initiate construction sooner than fiscal year 2012. To 
expedite the initiation of the pump-back project and the completion of 
the capacity correction project without impacting other Settlement 
activities, a sufficient amount of Federal appropriated funding for the 
other Settlement activities would be required.
    Question. Could time and money be saved if non-Federal authorities 
assumed responsibility for carrying out the projects through a 
cooperative agreement with the Department?
    Answer. The initial requirements called for in Public Law 111-11, 
the National Environmental Policy Act, the Endangered Species Act, and 
other Federal laws would still need to be completed and approved by 
Reclamation, so it is unlikely that the construction schedule could be 
expedited. It is possible that some time could be saved if non-Federal 
authorities assumed responsibility for carrying out the final design 
and construction of these projects through a cooperative agreement with 
Reclamation. In general, these non-Federal authorities are able to 
conduct more expedited contracting efforts which would result in a time 
savings for the projects. However, it is unclear if money can be saved 
as it is likely that both Reclamation and the non-Federal authority 
would contract the work to an outside private entity.
    Question. What is the status of guidelines for implementation of 
the cost-shared groundwater program authorized in Part III?
    Answer. Consistent with section 10202(c) of part III of subtitle A 
of title X of Public Law 111-11, Reclamation released the public review 
draft of the part III Guidelines for the Application of Criteria for 
Financial Assistance for Local Projects (Guidelines) on March 29, 2010. 
The Guidelines were available for a 60-day public review period. 
Reclamation anticipates releasing final Guidelines in late summer 2010.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
                             quagga mussels
    Question. In fiscal year 2010 we provided funding for Reclamation 
to establish a Quagga Mussel R&D program to determine ways to deal with 
this invasive species. What is the status of this effort?
    Answer. Reclamation has a very active Research and Development 
program underway, working with all of the western States and several 
other Federal and local agencies, developing and testing several 
methods for early detection of mussels, deterrence of mussel 
attachment, removal of mussels, or killing of mussels in situ. Methods 
being tested include high-capacity filters, ultraviolet light, pulsed-
pressure systems, bacterial by-product derived from Pseudomonas 
fluorescens, foul-resistant and foul-release coatings, high and low pH 
modulation, and predatory fish. Emphasis is placed on methods that are 
environmentally friendly and do not require costly permitting for use 
in open water systems. Reclamation is also developing a research plan 
in conjunction with the United States Geological Survey (USGS) and the 
Pacific States Marine Fisheries Commission to test multiple untested 
new and existing methods for cleaning mussels from recreational boats.
    Beginning in 2009 and continuing in 2010, Reclamation applied ARRA 
funds to test approximately 200 reservoirs and other water bodies in 
the West for the earliest possible detection of mussel larvae. This 
program is coordinated closely with all of the western States. Results 
are reported to each of the States and to the associated Reclamation 
operating offices. This careful monitoring will provide the greatest 
lead time (up to 5 years) to plan, budget, and implement facility 
protection strategies if larvae are detected in a reservoir, before the 
infestation creates substantial problems for operation of our 
facilities.
    Reclamation recently briefed the Metropolitan Water District of 
Southern California, the Water Research Foundation, and the USGS on 
current research and discussed new avenues for collaboration. 
Reclamation is also hosting the 2010 International Conference on 
Aquatic Invasive Species in August, with a primary focus on invasive 
quagga and zebra mussels in the western United States.
    Question. How much funding is included in Reclamation's budget to 
address the control of quagga mussels?
    Answer. Reclamation does not have a line item for addressing quagga 
mussels. Approximately $1.5 million is allocated within the Science and 
Technology line item to support development and testing at several of 
our lower Colorado River dams that are already impacted by quagga 
mussels. Approximately $200,000 is included annually in each region's 
O&M budget to support prevention, development of response plans, 
facility vulnerability assessments, public outreach and education, and 
coordination efforts with other agencies, stakeholders, and interested 
organizations.
    Question. What are the estimated costs to Reclamation to deal with 
quagga mussels at Reclamation projects?
    Answer. Apart from basic monitoring and outreach, the only Region 
expending significant funds on retrofitting facilities for control, 
management, and protection against mussels is the Lower Colorado 
Region, which has been dealing with invasive quagga mussels in Lakes 
Mead, Mohave, and Havasu since 2008. The table below provides a general 
summary of Reclamation-wide costs associated with planning, prevention, 
and mitigation for invasive quagga mussels to date. Reclamation is 
monitoring more than 100 of its high-risk reservoirs for early presence 
of quagga mussel larvae. However, it is not possible at this time to 
forecast how quickly the infestation will spread and, therefore, what 
the longer term costs will be for prevention and mitigation.

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year     Fiscal Year     Fiscal Year                     Fiscal Year     Fiscal Year
      Reclamation Costs and Budget for Quagga/Zebra Mussels         2008 Actual     2008 Direct    2009 Enacted     2009 Direct    ARRA Funding    2010 Enacted     2010 Direct        Total
                                                                   Appropriated      Fund \1\         Approp.          Fund                           Approp.          Fund
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Prevention......................................................         $72,750          $1,828        $160,947         $25,804  ..............        $458,000         $50,000        $769,329
Early Detection/Rapid Response..................................         114,550          10,000         104,056          59,458      $4,500,000         478,000         100,000       5,366,064
Control and Management..........................................         109,506         220,000         279,629         267,000  ..............         510,000         305,000       1,691,135
Research........................................................         927,390          23,090       1,093,000  ..............  ..............       1,490,000  ..............       3,533,480
Education and Outreach..........................................         262,001           1,158         403,208          22,142  ..............         521,940          20,000       1,230,449
                                                                 -------------------------------------------------------------------------------------------------------------------------------
      Subtotal..................................................       1,486,197         256,076       2,040,840         374,404       4,500,000       3,457,940         475,000  ..............
                                                                 ===============================================================================================================================
      Total.....................................................             1,742,273
                                                                             2,415,244                 4,500,000             3,932,940                12,590,457
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Direct Funding includes all funds and services provided by Reclamation customers, including power revenues, in-kind services, cost share contributions and direct or contributed funds.

                 quagga and zebra mussels costs/budgets
Category Key
    Prevention.--This includes specific prevention measures such as the 
preparation of facility assessment plans, boat/equipment inspection/
cleaning, and related training. Early Detection and Rapid Response: 
This includes monitoring of invasive species that are beginning to 
appear, and quick coordinated responses, including the development of 
plans to destroy or contain invasive species before they become too 
widespread.
    Control and Management.--This includes actions taken to control, 
limit, or reduce the impact of zebra and quagga mussels on water system 
function. Control methods are generally categorized under four topics: 
biological control, chemical control, cultural control, and mechanical 
control
    Research.--This includes efforts to identify, develop, demonstrate, 
and implement (on a pilot or small-scale basis) conventional and 
promising new strategies and technologies to protect facilities from 
zebra and quagga mussels that which have potentially broad application 
for water and power infrastructure.
    Education and Outreach.--This includes education and outreach 
programs to make the public aware that their actions can result in the 
introduction and spread of quagga and zebra mussels. Some examples 
include posting or distribution of signs, posters, and handouts in 
public recreation sites, or sponsoring public workshops and training. 
This also includes participation and leadership in regional, national, 
and international professional efforts to review and share knowledge on 
efforts to prevent, detect, and conduct research on quagga and zebra 
mussels.
                 desalination research and development
    Question. What research and development plans does Reclamation have 
for the Brackish Groundwater National Desalination Research Facility in 
2011?
    Answer. In general, the work at this facility focuses on resolving 
environmental issues and reducing the cost of treating inland brackish 
groundwater. Emphasis is being placed on the testing of technologies 
for the pretreatment and treatment of brackish groundwater, and 
disposal of concentrate, with special emphasis on the use of renewable 
energy to drive such processes.
    Research funds for the Brackish Groundwater National Desalination 
Research Facility (Facility) were transferred to New Mexico State 
University (NMSU) in fiscal year 2008 ($3.365 million) and fiscal year 
2009 ($2.0 million). In fiscal year 2010, NMSU developed the program 
for research at or associated with the Facility with requests for 
competitive, merit reviewed proposals to be advertised in late fiscal 
year 2010 and fiscal year 2011. Reclamation is advertising a fiscal 
year 2010 funding opportunity announcement for $1.0 million for a 
project in which at least one pilot plant will be carried out at the 
Facility and much of the research will lead to pilot projects that will 
be constructed and/or conducted at the Facility. For fiscal year 2011, 
Reclamation has requested $1.6 million for O&M of the Facility, and 
$2.066 million for research on advanced water treatment technologies, 
some of which will occur at the facility.
    To date, research at the Facility has included work with NMSU, 
General Electric, Sandia National Laboratories, University of Texas at 
El Paso, Colorado School of Mines, Veolia Water, and Ohio University. 
Funding for this research comes from a number of sources including 
Department of Defense (Army and Navy), Department of Energy, State of 
New Mexico, State of Texas, as well as the Bureau of Reclamation. 
Several other projects are in the discussion stages including renewable 
energy driven processes, innovative energy recovery systems, new 
desalination processes, and a partnership with the city of Alamogordo 
New Mexico, a major private sector company, and a local university.
    The Facility provides all the required resources for researchers 
working with desalination systems, concentrate management issues, 
renewable energy/desalination hybrids, and small and rural systems.
    Question. Will the fiscal year 2011 funding budgeted allow for 
meaningful research at the facility?
    Answer. Historically, Reclamation has ensured that research 
appropriations produce the highest quality products by defining the 
research objectives to address the highest-priority questions, and 
funding research through an open, competitive, peer reviewed process. 
These have been the administration's standards for research 
administration.
    This approach will be used to define and guide research priorities 
at the Facility for those appropriations that Reclamation controls. The 
amounts requested in the President's fiscal year 2011 budget are 
sufficient to undertake the important work of advancing the treatment 
of brackish groundwaters.
    Reclamation's ability to ensure meaningful research is limited to 
the extent that the funds appropriated for this research are earmarked 
without an open, competitive process.
    Question. What other advanced water treatment options are showing 
promise for impaired groundwater?
    Answer. Many technologies exist to treat a range of brackish 
waters. Reclamation focuses its research on technologies that may 
represent a significant breakthrough in either cost reduction or 
effectiveness of treatment. Currently, two of the most promising 
technologies that Reclamation is developing are: (1) a truly chlorine-
resistant thin-film composite reverse osmosis membrane that will allow 
pre-treatment with chlorine to prevent biofouling without the 
degradation of the membrane, and (2) a more efficient cellulose-
triacetate membrane that is naturally chlorine resistant. Both 
technologies will likely be tested at the Facility.
    In addition, Reclamation is exploring potential options with other 
Government agencies, universities, non-profits, and the private sector. 
Not only are there new membrane formulations being created and tested 
by Reclamation and others, innovative work is continuing on the 
development of cost effective concentrate disposal, reduced energy 
consumption/lower CO<INF>2</INF> footprint/renewables, reduced fouling/
pretreatment, and alternative desalination technologies such as forward 
osmosis, membrane distillation, electrodialysis, capacitive 
deionization, thermal technologies and others.
    Question. Do you see any potential for Reclamation becoming 
involved in the construction of desalination plants?
    Answer. Reclamation was involved in the design and construction of 
the world's first large-scale reverse osmosis desalination plant in the 
1970s and 1980s, the Yuma Desalting Plant. The YDP applied innovations 
developed by the old Office of Water Research and Technology on a very 
large scale. Since then, a number of brackish desalination projects 
have received construction funding through the Water Reuse Program.
    Given the very large global industry around design and construction 
of desalination plants, there does not appear to be a need for 
Reclamation to enter into this business. However, Reclamation may be 
able to play a role in providing designs or reviewing designs for 
systems that are not a focus of the mainstream design and construction 
industry. Potential examples include small scale plants that are part 
of a Reclamation Rural Water project, applications on tribal lands, and 
applications that are otherwise integrated with Reclamation projects.
    Question. Why?
    Answer. Historically, Reclamation has focused upon research and 
development of advanced water treatment technologies up through pilot 
scale testing and demonstration, and moving those technological 
advances to the private sector for commercialization.
                             miscellaneous
    Question. You have only budgeted about $380,000 for drought 
assistance in fiscal year 2011. Is that funding sufficient to address 
the drought issues that are anticipated next year?
    Answer. Reclamation has many important programs that need to be 
funded, and has made its best effort to develop a budget that 
adequately balances the competing needs for these different programs.
    Because Reclamation prepares its budget 2 years in advance, we are 
unable to forecast emergency needs for drought. However, we make every 
effort to address the greatest need with the funds available.
    In addition to the Drought Program, Reclamation also addresses 
competing demands for finite water supplies through WaterSMART, which 
includes funding for the title XVI, WaterSMART Grants, and Basin 
Studies.
    Question. What is the drought outlook for the West in 2011?
    Answer. Precipitation outlooks are generally unreliable beyond 3 
months. Because Reclamation does not forecast weather or drought 
conditions, we rely on the information provided by other agencies that 
focus on weather, including the National Oceanic and Atmospheric 
Administration's Climate Prediction Center (http://www.cpc.noaa.gov), 
and the Drought Monitor, managed by the National Drought Mitigation 
Center (http://www.drought.unl.edu/dm/monitor.html).
    Question. In particular which areas are anticipated to experience 
the biggest impacts?
    Answer. According to the National Oceanic and Atmospheric 
Administration's Climate Prediction Center, drought conditions through 
June 2010 are forecast to persist in the Pacific Northwest and northern 
Rockies due to low snowpack and above-average temperatures. In 
addition, the El Nino winter has expanded drought conditions in the 
Hawaiian Islands.
                         rural water authority
    Question. Can you update us on the status of the Rural Water 
Program?
    Answer. We began accepting applications for funding under the new 
Rural Water Program in the summer of 2010. Currently, Reclamation is in 
the process of finalizing internal directives (Directives and 
Standards) describing key aspects of program implementation, including 
the required content of appraisal investigations and feasibility 
studies as well as the process for approving those studies. Reclamation 
published the Directives and Standards for the Rural Water Program in 
July 2010, and plans to post a Funding Opportunity Announcement on 
grants.gov for the program in May 2010. Reclamation received 21 
proposals totaling $5.4 million in Federal funding request.
    Question. We have appropriated more than $3 million for the Rural 
Water program over the last 2 years, and yet no studies have been 
started. Will any studies for rural water systems be initiated this 
year with the $2.7 million requested?
    Answer. Rural water studies will be initiated this year. 
Reclamation expects to post a funding opportunity announcement on 
grants.gov in May 2010 and anticipates selecting studies for funding in 
late August. After the funding opportunity announcement is posted, 
project sponsors will also have the opportunity to submit an appraisal 
investigation or a feasibility study previously conducted without any 
financial or technical support from Reclamation. Reclamation will 
review these independent study submittals for eligibility and technical 
adequacy and will prepare the appraisal or feasibility reports for 
independent studies determined to be eligible for inclusion in the 
program, technically adequate, and conforming to Reclamation standards. 
Reclamation expects to receive at least six independent study 
submissions this year.
                                 cupca
    Question. The budget for CUPCA is up $1 million when compared to 
fiscal year 2010. Is this funding level sufficient to continue to make 
progress on this critical project?
    Answer. The fiscal year 2011 budget request together with funding 
from the American Recovery and Reinvestment Act of 2009 and the fiscal 
year 2010 appropriation will allow the CUPCA program to continue making 
sufficient progress.
    Question. What is your total funding capability for CUPCA in fiscal 
year 2011?
    Answer. Although there is always additional funding capability, the 
fiscal year 2011 budget request represents a prudent and manageable 
level of capability.
    Question. What would this additional capability accomplish?
    Answer. Additional capability would accelerate current projects.

                          SUBCOMMITTEE RECESS

    Senator Tester. I want to thank you all for coming today. I 
appreciate your service, and I appreciate the work you have to 
do. It's a tough job. Thank you.
    The subcommittee is recessed.
    [Whereupon, at 11 a.m., Thursday, March 11, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--At the direction of the subcommittee 
chairman, the following statements received by the subcommittee 
are made part of the hearing record on the Fiscal Year 2011 
Energy and Water Development Appropriations Act.]

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

       Prepared Statement of the San Mateo County Harbor District
          oyster point marina/park breakwater reconfiguration
    The San Mateo County Harbor District requests your support for a 
fiscal year 2011 appropriation of $400,000 to the U.S. Army Corps of 
Engineers Continuing Authorities section 107 account to complete this 
vital project, which will facilitate the first new water transit 
service on San Francisco Bay and essential waterborne emergency 
response capability serving the northern San Francisco Peninsula. 
Through this project, the breakwater entrance has been widened to 
enable safe, fast, and comfortable access by new ferryboat service to 
and from the Marina serving east San Francisco Bay.
    Completion of the project requires installation of wave attenuators 
and adaptive management to dissipate wave energy now entering the 
Marina's berthing area because of the entrance widening. This last task 
will provide increased protection to berthed vessels from southeasterly 
storm surges and protection of Marina facilities and property.
    Oyster Point Marina/Park is located in the city of South San 
Francisco, and is operated for the city by the Harbor District under a 
Joint Powers Agreement. Oyster Point was designated by the San 
Francisco Bay Area Water Emergency Transportation Authority (WETA) as 
the initial expansion terminal facility for WETA's new regional ferry 
service on San Francisco Bay. This is due to the significant employee 
base working near the Marina in and around South San Francisco in life 
science industries. There are currently around 25,000 employees within 
a 4.5 mile radius from the Marina, which is forecasted to double by 
2015. Many of these workers commute over the Bay bridges and 
contribute, and are adversely affected by, traffic congestion and air 
pollution. Water transit is an economically and environmentally viable 
alternative.
    Additionally, the Marina has been identified as a vital component 
of WETA's emergency response plan for San Francisco Bay. The breakwater 
project including the wave attenuators is required to accommodate rapid 
waterborne emergency response activities, expanded vessel traffic, 
improve vessel access and safety, and new ferry traffic.
          northern half moon bay shoreline improvement project
    The San Mateo County Harbor District requests your support for a 
fiscal year 2011 appropriation of $100,000 to the U.S. Army Corp of 
Engineers Continuing Authorities section 111 account for this project. 
Project goals are (a) to halt shoreline erosion now threatening the 
Coast Highway, which, as the only coastal artery in the region, is a 
homeland security concern as evidenced by the recent tsunami advisory 
for the California coast; (b) to enable restoration of anchorage area 
to the only designated Harbor of Refuge between San Francisco and 
Monterey Bay; (c) to restore public shoreline access and use adjacent 
to a major metropolitan area; (d) to demonstrate beneficial sand 
replenishment methods that may have broader environmentally sound 
applicability; and (e) overall, to insure that the Federal Pillar Point 
Harbor breakwater performs as intended.
    The Pillar Point Harbor breakwater was built around 1960 to create 
a harbor of refuge for the commercial fishing fleet and other vessels. 
While serving its primary function, the breakwater has caused erosion 
of the adjacent beach and bluff areas by preventing sand movement along 
the shoreline and by scouring the area next to the breakwater. This 
shoreline erosion has increased over time, destroying one road and 
threatening California Highway 1 and several structures, and causing 
loss of a heavily used public beach. A July 2009 Army Corps of 
Engineers Initial Appraisal concluded that there is sufficient cause 
for Federal interest in a shoreline improvement project, which is 
supported by government agencies and the public.
                    pillar point harbor, california
    The San Mateo County Harbor District requests your support for a 
fiscal year 2011 appropriation of $2.2 million to the U.S. Army Corps 
of Engineers Operation and Maintenance account to complete storm damage 
repairs to the Federal breakwater at Pillar Point Harbor. Completion of 
repairs already in progress will restore breakwater integrity and 
navigation safety to a designated critical Harbor of Refuge vital for 
the fishing industry, waterborne commerce, recreational boating, and 
local and regional economies.
    Breakwater-caused shoreline impacts south of the breakwater are 
adversely affecting adjacent State highway safety, causing loss of 
public beach use, and affecting shoreline property, and must be 
addressed by a demonstration project. The recent tsunami advisory for 
the California coast highlighted the need for the proposed action, 
especially as State Highway 1 is the only traffic artery on this 
stretch of coast available for emergency response needs. This project 
element will address damage prevention or mitigation along the northern 
open-ocean shoreline of Half Moon Bay that are attributable to 
construction of the Federal breakwater.
    The eroding beach shoreline fronts on Monterey Bay National Marine 
Sanctuary waters, which are administered for this sanctuary under 
agreement by the Gulf of the Farallones National Marine Sanctuary. 
Project performance will show how human activities can be sustained 
without causing adverse impacts on Sanctuary resources.
    This project thus addresses urgent Federal concerns with navigation 
safety, homeland security, marine resource protection, and public use, 
and will complete work already begun.
                                 ______
                                 
     Prepared Statement of the American Shore & Beach Preservation 
                              Association
    I am Mayor Harry Simmons of Caswell Beach, North Carolina and 
President of the American Shore & Beach Preservation Association. ASBPA 
appreciates this opportunity to provide written testimony to the Senate 
Energy and Water Appropriations Subcommittee on the fiscal year 2011 
budget of the Corps of Engineers. Over the years, the Appropriations 
Committees, and Congress as a whole, have been extremely supportive of 
what is known as the Federal shore protection program. We are very 
grateful for the many times you stood up to what has seemed like the 
never-ending efforts of one administration after another to cripple or 
terminate this program.
    The Federal coastal restoration program represents our Nation's 
commitment to responsible coastal stewardship. Our coasts are the 
gateway to America. They provide the seagoing and intracoastal water 
highways which carry most of America's commerce. They are the home to 
hundreds of animal and plant species that are not likely to be found 
elsewhere. They sustain tens of thousands of middle-class and service 
worker jobs which, together with taxes on business profits, bring 
billions of dollars into the Federal Treasury each year.
    This administration has been far more willing to discuss and budget 
for coastal programs and projects than at any time since 1995. That is 
indeed refreshing. However, the recommendation the President has made 
in his fiscal year 2011 budget of approximately $55 million is only 
one-tenth of what ASBPA's national survey shows as the need for $460 
million for the Federal cost-share of what is needed to fund authorized 
shoreline projects and studies. Inevitably and regrettably, this 
optimal funding number increases each year that we have done this 
analysis. The Federal Government has not provided its share of the cost 
of studies and projects while non-Federal sponsors have their 35 to 50 
percent share in hand because they have set aside funds in advance.
    Following are our recommendations for funding some of the national 
programs promoting coastal stewardship. They are not listed in priority 
order. ASBPA hopes the subcommittee will give consideration to each of 
these requests. Thank you for considering our views. We look forward to 
continuing to work with the subcommittee on the funding and 
effectiveness of coastal programs.
              national planning centers of expertise (gi)
    The Corps of Engineers designated six national Planning Centers of 
Expertise and identified their roles in support of plan formulation and 
complex technical evaluations associated with plan formulation. These 
Planning Centers of Expertise provide specialized planning talent to 
enhance and supplement the capabilities of the districts. They include 
Deep Draft Navigation and Small Boat Harbors, Inland Navigation, 
Ecosystem Restoration, Coastal Storm Damage Reduction, Flood Risk 
Management, and Water Management and Reallocation Studies.
    ASBPA has found that the Coastal and Storm Damage Reduction 
Planning Center of Expertise (Coastal PCX) has been extremely helpful 
to Districts and their customers and has increased the quality of the 
Corps work product and re-instilled confidence on the part of local 
sponsors in the Corps of Engineers. In fiscal year 2009, Congress 
designated some funding allocated to the Planning Support Program (GI 
account) for the 6 centers. In fiscal year 2010, the Senate bill 
designated funding specifically for the Coastal PCX. This was not 
carried over in conference.
    ASBPA Request.--$1,500,000 for the 6 PCX's as a separate line item 
under the GI account. No funding is included in the President's budget 
request.
                 water resource priorities report (gi)
    Section 2032 of WRDA 2007 provides the Corps of Engineers with the 
direction and authority to examine risk assessment and risk reduction 
in the broadest and yet most practical approach imaginable. We 
understand the Corps has requested but not received funding from 
Congress to do the report.
    ASBPA Request.--$2 million to undertake what is likely to be a 2-
year effort to meet the mandate of section 2032. No funding is included 
in the President's budget request.
 section 2038--national shoreline erosion control development program 
                                  (cg)
    Section 227 of WRDA 1992 created a program to test new technologies 
that will improve the performance of Federal beach restoration projects 
and reduce their cost. Section 2038 of WRDA section 2038 moved the 
section 227 program into the section 103 Small Shoreline Protection 
Projects Continuing Authorities Program. The President has earmarked 
every dollar of the funding he requested for section 103 projects, and 
not one of those dollars is requested for the Shoreline Erosion Control 
development program.
    ASBPA Requests.--$8,975,000 to plan, construct, and/or monitor at 
least 9 demonstration projects. No funding is included in the 
President's budget request.
          regional sediment management research program (o&m)
    RSM is not a faster way to plan and execute water resources 
projects; it is a better way. It is a systems-based approach that 
solves sediment-related issues through integrated management of 
littoral, estuarine, and riverine sediments and projects to achieve the 
type of balanced and sustainable approach that is lacking when planning 
and funding is done on a project-by-project basis. RSM will be a major 
factor in protecting environmental resources while also bringing 
efficiencies and greater effectiveness that would otherwise not be 
achievable.
    ASBPA Request.--$9 million to continue Federal, State, and local 
cooperative RSM efforts in almost a dozen States. The President has 
requested $2 million for this program.
regional sediment management program authorized by section 2037 of wrda 
                               2007 (cg)
    This is now known as the section 204 program and is separate from 
the RSM research program above. This program enables the Corps to do at 
least two things that the Research program cannot do: (1) Construction 
RSM projects; and (2) Cooperate with States that have initiated their 
own RSM studies.
    ASBPA Request.--$15 million to fund the planning and construction 
phases of RSM projects from New England to California. There is no 
funding included in the President's budget request.
                 national coastal mapping program (gi)
    This is an interagency effort to survey the U.S. shoreline on a 
recurring basis to support regional sediment management, construction, 
operations and maintenance, and regulatory functions in the coastal 
zone. With this data, governmental entities at all levels will be 
better able to manage America's coastal resources.
    ASBPA Request.--$13 million to complete the first survey of the 
entire U.S. shoreline of the lower 48 States. The President has 
requested $7 million for this program.
               coastal field data collection program (gi)
    Without good data, there can be no project planning for the present 
and no systems planning for the future. CFDC includes the Corps' Field 
Research Facility which obtains data on longer-term coastal processes, 
the Wave Information Study to develop and analyze new surge and wave 
data. This line items also includes several other programs such as 
SWIMS, PILOT, and MORPHUS.
    ASBPA Request.--$6,600,000 to complete construction of projects and 
continue monitoring and evaluation of completed projects. The President 
has requested $1.4 million for all of the programs under this heading.
                 coastal data information program (o&m)
    This is the first year the President has proposed funding a 
separate line item. Nevertheless, this program was established in 1975 
and has now been deployed at over 142 stations and has archived 200 GB 
of wave duty, The CDIP also contains information that is accessed daily 
by the Navy, Coast Guard, Marines, as well as those commercial 
fisherman and others in the private sector.
    ASBPA Request.--$5 million. The President's budget request contains 
$3 million for this line item, which does not permit to expand to the 
east coast.
                national shoreline management study (gi)
    Authorized by WRDA 1999, this study will provide the first detailed 
report since 1971 on which sections of the U.S. shoreline are accreting 
and which are eroding. Without this basic information, none of us knows 
how serious a problem coastal erosion is.
    ASBPA Request.--$500,000. The President has requested $375,000 for 
this study.
                    national hurricane program (gi)
    This program is a cooperative effort with FEMA. The studies 
provided by the National Hurricane Program (NHP) help State and local 
communities establish evacuation plans by determining the probable 
effects of a hurricane; predicting public response to the threat and 
advisories, and identifying appropriate shelters. Specifically, NHP 
conducts hazard and vulnerability analyses for coastal communities 
considering different types of storm threats. This includes an 
assessment of storm surge and wind impacts; existing road and other 
transportation systems, population (e.g., demographics, behavior 
analysis) and shelters. This information helps officials determine 
where individuals are most likely to go when evacuating from a storm.
    The NHP assists coastal communities by developing evacuation zones, 
which helps determine where and when the public should be ordered to 
evacuate as a storm approaches. This recommendation is negotiated among 
decisionmakers within each community. Once the evacuation zones are 
established, the NHP provides each community with corresponding 
evacuation maps and suggested clearance times for the various types of 
storm categories. The communities determine how to utilize these tools 
and recommendations, in developing their evacuation plans.
    ASBPA Request.--$3 million as a separate line item in O&M. It is 
currently part of the National Emergency Preparedness Program and was 
allocated $1 million from that program in fiscal year 2010.
              flood control and coastal emergencies (fcce)
    According to the President's budget justification for this 
important category of funds: ``FISCAL YEAR 2011 DISASTER PREPAREDNESS: 
This activity consists of functions required to ensure that USACE 
activities are ready to provide baseline response to disasters and 
emergencies . . . Planning and preparedness funding should be sought as 
part of the regular budget process, instead of relying on emergency 
supplementals. Recent earthquakes, Nor'easters, ice storms and tsunamis 
illustrate the need for preparedness funding and the ability to provide 
trained staff and resources immediately after or even prior to an 
event.'' ASBPA agrees with the need to include FCCE funding in the 
regular appropriations bill. Unfortunately, this has not been the case 
in recent years. When emergencies arise, the Corps has no money on hand 
to deal with them and must wait for a Supplemental Appropriations bill 
for that purpose.
    ASBPA Request.--$50 million. The President has requested $30 
million which is substantially below his fiscal year 2010 request.
                                 ______
                                 
        Prepared Statement of the Fifth Louisiana Levee District
    The Board of Commissioners for the Fifth Louisiana Levee District 
respectfully requests that construction funding for Mississippi River 
Levees be increased from the $29,150,000 contained in the proposed 
budget for fiscal year 2011, to the U.S. Army Corp of Engineers' 
capability of $56,238,000, and the Mississippi River Levee maintenance 
allocation be increased from the proposed $7,582,000 to $20,270,000.
    Reduced funding, combined with the inability to let construction 
contracts under a continuing contract clause, has left thousands of 
people in Louisiana vulnerable to the adverse effects of a deficient 
levee system. Construction of levee enlargements is essential if the 
levee is to contain the ``Project Flood'' which is estimated to be 20 
percent greater than the record Flood of 1927.
    The effect of fully funded contracts for levee construction, now 
required under Public Law 109-103, (sec. 106 and 108), adopted by the 
109th Congress in 2005, as opposed to the previous system of continuing 
contract clauses, has virtually halted enlargement of the Mississippi 
River Levee System in Louisiana. Year after year, as the cost of 
projects and maintenance has increased, funding for levee systems and 
flood control has been reduced. The current proposed budget is no 
exception, with only $240 million allocated for the entire Mississippi 
River and Tributaries (MR&T) project. We request that be increased to 
the Corp's capabilities of $550 million.
    Since the Mississippi River and Tributaries project was 
established, less than $11 billion has been invested. This investment 
provides benefits far beyond their actual cost to the taxpayer by 
offering protection to the 4 million citizens, 1.5 million homes, 
33,000 farms, and countless vital transportation routes from 
destructive floods.
    With the help of Congress, great progress has been made in the 
Mississippi River Valley over the years, but there is still much to be 
done, and because of that, we urge Congress to increase funding to the 
Corp of Engineers in fiscal year 2011, to insure that the Corp is not 
forced to halt or delay contracts for levee construction essential to 
the well being of this Nation. It is vital that the MR&T project(s) be 
completed at the earliest possible date. This can only be accomplished 
through adequate funding and repeal of the mandate for contracts to be 
fully funded prior to the beginning construction.
                                 ______
                                 
 Prepared Statement of the Board of Levee Commissioners for the Yazoo-
                           Mississippi Delta
    These are changing times for this country's flood control community 
and those whom they seek to protect. As you in your wisdom consider 
such weighty matters as Levee Certification coupled with FEMA's new 
mapping initiative, the Clean Water Act, new Objectives, Principles and 
Standards for the Corps of Engineers and a related Executive order, a 
new WRDA bill and 2011 funding for the Mississippi River and 
Tributaries Project, we urge you to do so with one guiding principle: 
First do no harm.
    As you craft a new approach to flood control activities for the 
21st century, we urge you not to lose sight of the successes of the 
20th and what they have meant to this country. The land in and around 
the Mississippi River Valley is among the most fertile and bountiful on 
earth. Not only is it home to the salt-of-the-earth men and women of 
the Nation's heartland, but within it is produced a significant slice 
of the U.S. export pie--the food and fiber that feed and clothe this 
Nation and the rest of the world.
    You in this body and we in the flood control community are its 
stewards and as we move forward, we must do so always keeping in mind 
our duty to protect it. Update the Clean Water Act, but maintain its 
critical Navigable Waters clause; write new guidelines and standards, 
but avoid any radical departure from what has worked; enact a new WRDA 
bill, but enact one whose principal theme is to preserve and protect.
    We are also keenly aware of the fiscal tightropes which must be 
walked in this country's current economic environment. Every dollar is 
critical and every expenditure must be prioritized. But what priority 
trumps the protection of our people and the wealth they produce? What 
role of government is more critical?
    The administration proposes 2011 funding for the MR&T, truly one of 
this Nation's success stories with a virtually unmatched benefit to 
cost ratio, at $240 million, an amount far less than you appropriated 
for 2010 and an amount even farther less than the Corps of Engineers' 
capability. But the final word is that of Congress, and we urge you to 
fund the MR&T umbrella of needed public works at the Corps capability 
level of $550 million.
    As a local levee board, our first priority should be and is the 
protection of the lives and livelihoods of our people. Simply put, the 
Mainline Mississippi River Levee makes life and development possible 
within the Mississippi Delta. Therefore, we ask you to fund Mississippi 
River levees construction at $56.238 million and their maintenance at 
$20.270 million.
    Our levee board is proud to have been the sponsor of the Upper 
Yazoo Projects, one of the most successful such endeavors in the 
country, given testament by the fact that it faces absolutely no 
environmental opposition. To advance its completion, we urge that you 
appropriate $13.3 million.
    Mississippi's four flood control reservoirs have proven to be 
remarkably successful structures, but they are aging and we request the 
appropriation of a total of $54.113 million for their maintenance.
    Also of primary importance to us is the Delta Headwater Project, 
which helps to prevent our Delta streams from filling with soils eroded 
from the hills. We ask that it be funded at $23.2 million.
    The other investigations, construction projects and maintenance 
efforts of importance to our levee district are as follows. We ask they 
be funded in 2011 at their respective Corps of Engineers capability 
levels:
  --Channel Improvements--$59.646 million.
  --Big Sunflower River--$2.2 million.
  --Main Stem--$25,000.
  --Yazoo Basin Reformulation--$1.6 million.
  --Channel Maintenance--$89.484 million.
  --Revetments and Dikes--$72.328 million.
  --Vicksburg Harbor Maintenance--$750,000.
  --Big Sunflower Maintenance--$1.684 million.
  --Main Stem Maintenance--$3.4 million.
  --Tributaries--$1.017 million.
  --Whittington Auxiliary Channel--$400,000.
                                 ______
                                 
      Prepared Statement of the Big Bear Municipal Water District
    The Big Bear Municipal Water District appreciates the opportunity 
to submit this testimony for the record in support of the $650,000 
request in the fiscal year 2011 appropriations for the Santa Ana River 
and Tributaries, Big Bear Lake, CA for the general investigations 
budget of the U.S. Army Corps of Engineers. The Big Bear Municipal 
Water District is an independent special district of the State of 
California, responsible for the overall management of Big Bear Lake, 
Southern California's Premier recreational Lake.
    Located 100 miles east of Los Angeles, the Big Bear Lake 
recreational area attracts visitors from across southern California and 
beyond. Annually, the greater Big Bear area receives over 6.5 million 
visitors from around the world. The Lake is a unique recreational and 
natural resource, offering some of the most beautiful high elevation 
scenery in southern California. The lake has a depth of 72 feet, and is 
about 7 miles in length and about 1.5 miles wide at its greatest width.
    The problems at Big Bear Lake are very similar to the more 
publicized environmental problems at Lake Tahoe. The purpose is to 
implement a project for aquatic habitat restoration in Big Bear Lake. 
Most of the Lake's environmental problems are created by the activities 
in the Federal owned lands in the surrounding watershed. The removal of 
nutrient laden sediment that has accumulated is critical to improving 
the Lake's water quality, controlling nuisance aquatic plant growth, 
enhancing the wildlife habitat, and maintaining boating and fishing 
access. The Lake is on the EPA's 303d list of impaired water bodies, 
with listings for nutrients (phosphorous and nitrogen), invasive 
aquatic plants, and mercury. Big Bear Lake dry year TMDL's for 
nutrients and invasive aquatic plants have been developed. Removal of 
sediment loads is a major remediation requirement. Big Bear Lake is 
adjacent to the Pacific Flyway and is home to numerous waterfowl, 
including the wintering bald eagle. Most recently, the Lake is 
threatened by the introduction of the invasive species, Quagga Mussel.
    We are in the 8th year of an ecosystem restoration feasibility 
study being conducted by the U.S. Army Corps of Engineers, general 
investigations program. We are seeking funds for completion of the 
feasibility phase. The water district is the cost-sharing sponsor and 
has met all our local cost sharing responsibilities.
    The Congressional Interests for this feasibility study are Senator 
Barbara Boxer, Senator Dianne Feinstein and Congressman Jerry Lewis (R-
41st).
    Our Contact information is: Mr. Scott Heule, General Manager, Big 
Bear Municipal Water District, P.O. Box 2863, Big Bear Lake, CA 92315-
2863. Telephone: 909-866-5796, Fax: 909-866-6485, e-mail Address: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ccbfa4a9b9a0a98caeaea1bba8e2a3beabe2">[email&#160;protected]</a>
                 recommendation for your consideration
    We support the $650,000 request to provide in the U.S. Army Corps 
of Engineers General Investigation Budget, for fiscal year 2011 to 
advance the Santa Ana Tributaries, Big Bear Lake, CA aquatic habitat 
restoration study being conducted by the Corps. Thank you.
                                 ______
                                 
        Prepared Statement of The Little River Drainage District
    Dear Senator Dorgan: My name is Sam M. Hunter, DVM of Sikeston, 
Missouri. I am a veterinarian, landowner, farmer and resident of 
southeast Missouri.
    I am the President of The Little River Drainage District, the 
largest such entity in the Nation. Our District serves as an outlet 
drainage and flood control District to parts of seven counties in 
southeast Missouri. We provide flood control protection to a sizable 
area of northeast Arkansas as well. Our District is solely tax 
supported by more than 3,500 private landowners in southeast Missouri.
    My remarks will be directed toward the Mississippi River and 
Tributaries Project (MR&T) and the St. Francis River Basin portion of 
the MR&T. Those funds when properly expended are investments yielding a 
return of substantial benefits to the American taxpayer throughout this 
Nation. They are used to prevent flooding to much of our valuable 
farmland, to industrial sites, and to upgrade our ever aging locks and 
dam system on our navigable streams which will prevent unscheduled lock 
closures, modernize our hydro-electric plants, and restore some of our 
environmental assets. MR&T authorized by Congress in 1928 and still not 
completed is returning back to our Nation $25 for every dollar 
expended. What a good investment.
    The $4.6 billion of stimulus funding provided the Corps of 
Engineers in 2009 was greatly appreciated. Several needed projects were 
commenced and completed which otherwise would not have occurred. Much 
more needs to be done to provide the Mississippi Valley the flood 
protection its citizens need and the extreme need to modernize our 
inland waterway system.
    Many jobs would be realized and many products would be purchased 
throughout the entire Mississippi Valley and the watersheds which 
discharge into this system if an aggressive modernization of our Inland 
Waterway was put in motion. We must put people back to work and this 
will help considerably. The stimulus funds helped, however, there still 
remains room for more funding. This District supports the request of 
the Mississippi Valley Flood Control Association for funding levels at 
$550 million for the MR&T Project. This project as well as all of the 
subsidiary projects within it are returning back to the U.S. Treasury a 
minimum of $6 for each $1 invested.
    Many of our locks and dams are over 70 years old and we are sitting 
idly by letting them deteriorate further. The current administration 
pledged to improve the infrastructure in this Nation. We are waiting to 
see that promise fulfilled. These much needed improvements are 
investments in this Nation's future. When they are fully underway many 
jobs will be created in the private sector thus serving a twofold 
purpose. Please hear us and help us improve this vital part of our 
Nation.
    We believe Congress needs to intervene and reverse the trend of 
OMB, this administration and of past administrations. We have not 
seriously invested in our waterway infrastructure for decades but we 
must. Local economies will be affected positively by these investments. 
Local labor will be used. Local businesses will provide needed 
materials. This would be a major boost to our economy. Each year OMB 
and recent administrations have submitted low budget amounts for this 
worthwhile project and we have had to rely on Congress to ``fix'' the 
problem. You should not be burdened with this task. Someone needs to 
inform OMB what projects need funding which are assets to our Nation 
and not a liability.
    Investing in our waterways is a great way to stimulate the economy, 
which currently is very much needed, and at the same time be building 
and making investments into a system for the future which will return 
back more dollars than expected. We petition you to give this vital 
industry of our Nation a strong endorsement and do all you can to 
ensure our waterways system and carriers stay competitive with our 
foreign competitors.
    I have the following additional comments for your benefit and 
consideration.
                             infrastructure
    The current administration stated often during its campaign and 
after that a genuine concerted priority would be to invest in this 
country's future, its infrastructure. When are we going to commence?
    Our Federal road systems are crumbling. We must not wait for 
bridges to fail as recently happened in Minnesota before we act. We 
need to move forward across our entire Nation upgrading our Federal 
highway system in its entirety. This will take long term commitments 
not just a ``stimulus'' now and then. We need to put a plan in place, 
work the plan and fund it properly each year until we have completed 
the task.
    Are we truly interested in fuel independence--a cleaner 
environment--a better economy? If we are why don't we have someone step 
forward to be a champion for our ``waterways'' system? We have locks 
and dams which are an average of 50 years old. Parts are having to be 
fabricated since they are no longer manufactured. Tows are having to be 
broken up to pass because our locks and dams are too short and not 
modernized. Many undue delays are occurring. This does not permit our 
carriers to compete fairly with the foreign shipping industry. We must 
start a concerted effort to improve this part of our Nation's 
infrastructure.
    Locks, dams, hydropower, recreation, flood control, water supplies 
and all other benefits from the construction, operation and maintenance 
of these features on our rivers benefit our entire Nation not just a 
few. It is a national asset and it must be operated and funded as a 
national benefit. Private industry can not and will not operate this 
system fairly and in the best interest of our Nation.
    Environmentally moving goods and freight throughout our Nation via 
of water is much cleaner, less intrusive, and far more environmentally 
acceptable than highways or rail. Noise pollution, air pollution, land 
pollution are substantially less when we move the mass amount of goods 
possible by water.
    Fuel efficiency comparison is a ``no brainer''. For instance 1 
gallon of fuel moves 155 tons of freight by truck, 413 tons of freight 
by rail and 576 tons of freight by water. What part of this do we not 
understand? Why can't we realize such an endeavor would reduce much of 
our fuel needs and take much pressure off our highway system?
    Economically investing wisely in our waterways effects much of our 
Nation--not just a regional portion. Consider it being possible to 
board a waterborne vessel at the Port of New Orleans, Louisiana and one 
can touch 36 States of this Nation and 6 provinces in Canada without 
ever getting onto land. Over 75 percent of our population lives along 
water. Only two of our major cities are not on water, namely, Atlanta, 
Georgia and Denver, Colorado. With the many ports throughout the 
Mississippi Valley, which network many more people inland, it is 
evident many local economies will be benefited when investments are 
made in our water infrastructure.
    We seem to be ready, willing, and capable of improving the 
infrastructure of other nations at the expense of our taxpayers but 
seem reluctant to do the same for our Nation. It is far past time to 
reward the American taxpayer with a return for the money he provides 
each year and stop using those funds to benefit those nations who are 
our enemies.
    It has been estimated our waterway infrastructure needs $100 to 
$120 billion to modernize, upgrade and be made functional. Lets start 
now by setting a 10 year goal to modernize that system and then plan to 
meet that goal and exceed same when possible. Currently we are spending 
$13 billion each month to fight terrorism in Iraq and Afghanistan which 
is more spent in 1 year of what is needed to bring our waterways up to 
a finished plan. Perhaps we could cut the 10 year plan to even 5 years 
by eliminating much of that funding, lets try.
    I wish to thank you very much for your time and kind attention and 
for taking the time to review the above. We would be very appreciative 
of anything this subcommittee can do to help us improve our 
environment, improve our livelihood, and improve the area in which we 
live and work which ultimately is good for America. We are also very 
appreciative of all this subcommittee has done in the past. We trust 
you will hear our pleas once more and act accordingly.
                                 ______
                                 
          Prepared Statement of the City of Flagstaff, Arizona
    Chairman Dorgan, Ranking Member Bennett, and distinguished members 
of the subcommittee, thank you for allowing me to testify on behalf of 
the city of Flagstaff, Arizona in support of $8 million in the Army 
Corps of Engineers budget for the Rio de Flag flood control project in 
fiscal year 2011. The Rio de Flag flood control project is critically 
important to the city, to northern Arizona, and, ultimately, to the 
Nation.
    As you may know, Mr. Chairman, with this subcommittee's help over 
the last several fiscal years, Rio de Flag received more than $20 
million to continue construction on this important project. We are 
extremely grateful that the subcommittee boosted this project well 
above the President's request every year, and we would appreciate your 
continued support for this project in fiscal year 2011.
    Like many other projects under the Army Corps's jurisdiction, Rio 
de Flag received no funding in the President's fiscal year 2011 budget, 
although the Corps has expressed a capability of $8 million to continue 
construction on the project and have been unwavering in their support 
of it. We are hopeful that the subcommittee will fund the Rio de Flag 
project at $8 million when drafting its bill in order to keep the 
project on an optimal schedule.
    Flooding along the Rio de Flag dates back as far as 1888. The Army 
Corps has identified a Federal interest in solving this long-standing 
flooding problem through the Rio de Flag, Flagstaff, Arizona--
Feasibility Report and Environmental Impact Study (EIS). The 
recommended plan contained in this feasibility report was developed 
based on the following opportunities: (1) flood control and flood 
damage reduction; (2) environmental mitigation and enhancement; (3) 
water resource management; (4) public recreation; and (5) redevelopment 
opportunities. This plan will result in benefits to not only the local 
community, but to the region and the Nation.
    The feasibility study by the Corps of Engineers has revealed that a 
500-year flood could cause serious economic hardship to the city. In 
fact, a devastating 500-year flood could damage or destroy 
approximately 1,500 structures valued at more than $450 million. 
Similarly, a 100-year flood would cause an estimated $100 million in 
damages. In the event of a catastrophic flood, over one-half of 
Flagstaff's population of more than 60,000 would be directly impacted 
or affected.
    In addition, a wide range of residential, commercial, downtown 
business and tourism, and industrial properties are at risk. Damages 
could also occur to numerous historic structures and historic Route 66. 
The Burlington Northern and Santa Fe Railway (BNSF), one of the primary 
east-west corridors for rail freight, could be destroyed, as well as 
U.S. Interstate 40, one of the country's most important east-west 
interstate links. Additionally, a significant portion of Northern 
Arizona University (NAU) could incur catastrophic physical damages, 
disruptions, and closings. Public infrastructure (e.g., streets, 
bridges, water, and sewer facilities), and franchised utilities (e.g., 
power and telecommunications) could be affected or destroyed. 
Transportation disruptions could make large areas of the city 
inaccessible for days.
    Mr. Chairman, the intense wildfires that have devastated the West 
during the last several years have only exacerbated the flood potential 
and hazard in Flagstaff. An intense wildfire near Flagstaff could strip 
the soil of ground cover and vegetation, which could, in turn, increase 
runoff and pose an even greater threat of a catastrophic flood.
    In short, a large flood could cripple Flagstaff for years. This is 
why the city believes it is important to ensure that this project 
remains on schedule and that the Corps is able to utilize its expressed 
capability of $8 million in fiscal year 2011 for construction of this 
flood control project.
    In the city's discussions with the Corps, both the central office 
in Washington and its Los Angeles District Office also believe that the 
Rio de Flag project is of the utmost importance and both offices 
believe the project should be placed high on the subcommittee's 
priority list. We are hopeful that the subcommittee will consider this 
advice and also place the project high on its priority list and fully 
fund the project at $8 million for fiscal year 2011.
    It is important to note that the city has secured the necessary 
property rights to begin construction, and the city is prepared to 
assume the costs for the non-Federal portion of the cost-sharing 
agreement.
    The city of Flagstaff, as the non-Federal sponsor, is responsible 
for all costs related to required Lands, Easements, Rights-of-Way, 
Relocations, and Disposals (LERRD's). The city had already secured the 
necessary property rights to begin construction in 2004. Implementation 
of the city's Downtown and Southside Redevelopment Initiatives ($100 
million in private funds) are entirely dependent on the successful 
completion of the Rio de Flag project. The Rio de Flag project will 
also provide a critical missing bike/pedestrian connection under Route 
66 and the BNSF Railroad to replace the existing hazardous grade 
crossings.
    Mr. Chairman, the Rio de Flag project is exactly the kind of 
project that was envisioned when the Corps was created because it will 
avert catastrophic floods, it will save lives and property, and it will 
promote economic growth. In short, this project is a win-win for the 
Federal Government, the city, and the surrounding communities.
    Furthermore, the amount of money invested in this project by the 
Federal Government and the city--approximately $54 million (as 
authorized by WRDA)--will be saved exponentially in costs to the 
Federal Government in the case of a large and catastrophic flood, which 
could be more than $450 million. It will also promote economic growth 
and redevelopment along areas that are currently underserved because of 
the flood potential.
    In conclusion, the Rio de Flag project should be considered a high 
priority for this subcommittee, and I encourage you to support full 
funding of $8 million for this project in the fiscal year 2011 Energy 
and Water Development Appropriations bill. Thank you in advance for 
your consideration.
                                 ______
                                 
     Prepared Statement of the Port of Harlingen--Harlingen, Texas
                         history and background
    Port Harlingen, also known as the Rio Hondo Port, is on the Arroyo 
Colorado and Farm Road 106, on the eastern city limits of Harlingen. 
The channel connecting Arroyo Colorado with the Gulf Intracoastal 
Waterway was completed and dedicated on February 27, 1952. It is 12 
feet deep and 125 feet wide and has a turning basin measuring 400 by 
600 feet. By 1962 the port was handling $2.5 million in commerce. In 
1983 commodity shipments amounted to 455,430 short tons, and they 
increased to 801,003 short tons in 1984, when the port housed 10 
industries with commercial leases. In 1989 Port Harlingen handled 
728,954 short tons.
    The port is located 4 miles east of Harlingen, Texas on Highway 
106. It is 25 miles west of Mile Marker 646 on the Gulf Intracoastal 
Waterway, which stretches from the Mexican border at Brownsville, 
Texas, along the entire coast of the Gulf of Mexico to St. Marks, 
Florida. The Gulf Intracoastal Waterway provides over 1,300 miles of 
protected waterway. The Harlingen channel is maintained to a width of 
125 feet and a depth of 12 feet and is supplied by the Arroyo Colorado, 
a fresh water river.
                          project description
    The project is located in the vicinity of Rio Hondo and Harlingen 
in Cameron and Willacy Counties, Texas. The project consists of a 
channel 25.8 miles long. The channel extends with the main channel of 
the GIWW through the Arroyo Colorado to the turning basin at Harlingen. 
It also included a barge-mooring basin near the channel's junction with 
the GIWW. Authorized channel dimensions are 12 feet by 125 feet. One 
hundred percent of all the sugar (180,000 tons), 95 percent of all 
commercial fertilizer products and 30 percent of all gasoline products 
for south Texas is shipped through the Port of Harlingen. The Corps of 
Engineers has determined a need for levee work in Harlingen Channel 
that were destroyed during recent storms in Texas.
                economic impact of the port of harlingen
    The Port of Harlingen provides efficient and economical 
transportation to points as close as Corpus Christi and as far as the 
Great Lakes. Terminal docks and other facilities ease shipments into 
and out of the Port of Harlingen, and over 150 acres of on-and-off 
channel sites are available for industrial firms requiring economical 
transportation and attractive land lease rates. The port is also an 
important link in the comprehensive transportation network of the Rio 
Grande Valley of Texas. Southern Pacific Company rail lines at the 
port, along with switching capabilities with Union Pacific Railways, 
keep products moving to Texas locations and on throughout the U.S. and 
Mexico. Additionally, as was stated in the project description above, 
100 percent of all the sugar (180,000 tons), 95 percent of all 
commercial fertilizer products and 30 percent of all gasoline products 
for south Texas is shipped through the Port of Harlingen.
                     community and industry support
    One industry the Port of Harlingen is involved in is sugar. The 
Port of Harlingen Authority has bid and is building a $3.8 million 
sugar transfer building to load barges of sugar for shipment to 
Louisiana. The sugar mill shipped 171,962 short tons of sugar to 
Louisiana in 2006-2007 and should ship in excess of 180,000 short tons 
in 2007-2008. The mill cannot ship raw sugar by rail because the finish 
mills in Louisiana are not currently capable of receiving raw sugar by 
rail, and instead are organized to ship finished sugar by rail. To ship 
the sugar by truck would take over 6,878 truckloads at 4 times the 
cost. If this occurs, recent economic studies have determined that it 
would put the mill out of business.
    Additional industries present at the Port are Agro Alliance, Helena 
Chemical, UAP and Wilber Ellis, which have facilities at the port or 
down stream that handle 99 percent of all of the commercial liquid and 
dry fertilizer for south Texas. CMX also has a terminal at the port 
that handles much needed concrete sand shipped from Victoria and Cement 
shipped in from Mexico.
    Valero Energy Corporation, which once actively sent gas and diesel 
fuel to the Port of Harlingen by barge, also has projects underway at 
the Port. In October 2005, Valero finished a pipeline to the valley to 
service all three terminals and stopped all barge traffic. In July 2006 
they started barging (about two barges a month) ultra low sulfur diesel 
to the valley. They are currently shipping the entire ultra low sulfur 
diesel by barge and the traffic is almost back to levels achieved 
before their pipeline was built.
         what we need from the subcommittee in fiscal year 2011
    The administration's fiscal year 2011 budget did not include 
funding for the levee work needed in Harlingen Channel. As 
deliberations on the Energy and Water Subcommittee on Appropriations 
commence, we would appreciate your help in securing the Corps 
capability of $805,000 so that this project can move forward and ensure 
that the Gulf Intracoastal Waterway--Port of Harlingen received the 
important levee work identified by the USACE.
                                 ______
                                 
  Prepared Statement of the Brazos River Harbor Navigation District--
                            Freeport, Texas
                         history and background
    Port Freeport is an autonomous governmental entity authorized by an 
act of the Texas Legislature in 1925. It is a deep-draft port, located 
on Texas' central gulf coast, approximately 60 miles southwest of 
Houston, and is an important Brazos River Navigation District 
component. The port elevation is 3 to 12 feet above sea level. Port 
Freeport is governed by a board of six commissioners elected by the 
voters of the Navigation District of Brazoria County, which currently 
encompasses 85 percent of the county. Port Freeport land and operations 
currently include 186 acres of developed land and 7,723 acres of 
undeveloped land, 5 operating berths, a 45 feet deep Freeport Harbor 
Channel and a 70 feet deep sink hole. Future expansion includes 
building a 1,300-acre multi-modal facility, cruise terminal and 
container terminal. Port Freeport is conveniently accessible by rail, 
waterway and highway routes. There is direct access to the Gulf 
Intracoastal Waterway, Brazos River Diversion Channel, and State 
Highways 36 and 288. Located just 3 miles from deep water, Port 
Freeport is one of the most accessible ports on the gulf coast.
                          project description
    The fiscal year 2002 Energy and Water Appropriations signed into 
law included a $100,000 appropriation to allow the United States Army 
Corps of Engineers (USACE) to conduct a reconnaissance study to 
determine the Federal interest in an improvement project for Freeport 
Harbor, Texas. The USACE, in cooperation with the Brazos River Harbor 
Navigation District as the local sponsor, has completed that study. The 
report indicates that ``transportation savings in the form of National 
Economic Development Benefits (NED) appear to substantially exceed the 
cost of project implementation'', thus confirming ``a strong Federal 
interest in conducting the feasibility study of navigation improvements 
at Freeport Harbor''. Congress has to date appropriated over $ 4 
million for the study phase of the channel improvement project. This 
last phase of study for PED will move the project to completion of the 
feasibility report and ready the channel for construction.
    Port Freeport has the opportunity to solidify significant new 
business for Texas with this improvement project. In addition, the 
improvement to the environment by taking a huge number of trucks off of 
the road, transporting goods more economically and environmentally 
sensitive by waterborne commerce is infinitely important to the 
community, the State, and the Nation. Moreover, the enhanced safety of 
a wider channel cannot be overstated. The emergence of an LNG facility 
at Port Freeport--a joint venture of Conoco-Philips and Cheniere Energy 
further solidifies the importance of keeping this critical waterway at 
optimum depth and width.
                    economic impact of port freeport
    Port Freeport is 13th in foreign tonnage in the United States. It 
is responsible for augmenting the Nation's economy by over $9 billion 
annually and generating over nearly 24,000 jobs in Texas, over 11,000 
direct. It also augments the economy by providing annual State and 
local taxes of over $150,000 and an additional of over $300 million in 
Federal tax revenues. Its chief import commodities are bananas, fresh 
fruit and aggregate while top export commodities are rice and 
chemicals. The port's growth has been staggering in the past decade, 
becoming one of the fastest growing ports on the gulf coast. Port 
Freeport's economic impact and its future growth is justification for 
its budding partnership with the Federal Government in this critical 
improvement project.
    Examples of existing tenants at the Port include:
    Dole Fresh Fruit.--Dole has a weekly sailing arriving at Port 
Freeport with green fruit and other exotic fruits, mainly from 
Guatemala and Honduras. Dole has been a tenant of Port Freeport for the 
past 23 years, occupying lease sites comprising of 12 acres and has 
just renewed its lease for another 5 years. There are approximately 450 
jobs associated with this operation.
    Chiquita Fresh North America.--Chiquita is very similar to the Dole 
operation. Chiquita also has a weekly sailing and has been a tenant of 
Port Freeport for the past 12 years. There are about 400 jobs 
associated with this operation.
    Turbana Banana & Isabella Shipping.--Turbana and Isabella, 
divisions of Uniban, based in Colombia import 2,000 pallet loads of 
green fruit and other exotic fruits into Port Freeport weekly. The 
fruit is processed in a newly built chiller, which the Port undertook 
and built 2 years ago at a cost of $7 million. In addition to their 
import activities, they also export general cargo back weekly to ports 
in Costa Rica and Colombia. Since moving to Freeport 2 years ago, 
Turbana has increased their business 38 percent. This highly labor-
intensive company accounts for 500+ jobs. Turbana and Isabella recently 
announced a significant expansion of their Freeport operations that 
will double their cargo throughput within the next 4 months.
    American Rice Inc./Grupo SOS.--As a 20-year tenant of the Port, 
this company has the largest rice milling operation in the United 
States located on water. They are one of the largest suppliers to Iraq 
in the effort to help rebuild their economy. American Rice was recently 
acquired by the Spanish firm Grupo SOS, based in Madrid.
    Grupo SOS recently announced an expansion project at the Port 
Freeport site totaling $150 million dollars. Once all the new 
facilities are built, Port Freeport will be the distribution center for 
all North America, sending product out by ship, truck, and rail to 
Mexico, Canada, the Tropics, and South America as well as throughout 
the United States. With the expansion, there will be approximately 
2,000 jobs associated with this operation.
    Freeport LNG/ConocoPhillips.--Port Freeport was successful 4 years 
ago in attracting Freeport LNG to a site on Quintana Island, owned by 
the Port. This facility, the first new liquefied natural gas plant to 
be built in the United States in the last 25 years, will begin 
operations in the first quarter of 2008. The volume of natural gas 
imported in Phase I will be equal to 10 percent of the total gas 
production of the State of Texas and Phase II will equal over 20 
percent of the entire State's production from this one terminal. The 
docks at the terminal are designed to handle the largest LNG ships 
being designed for the future, will require a wider ship channel which 
will need to be maintained for these larger ships. The investment in 
the LNG facility is $1 billion. The importance of this facility cannot 
be understated. With gas prices spiking at $13/bcf (from $3) recently, 
local petrochemical plants had to shut down some production units, as 
an example, Dow Chemical Freeport purchases $1 million of LNG daily to 
fire up their various production facilities.
    In addition to the Port tenants listed above there a numerous U.S. 
and international chemical and crude processing facilities in the 
immediate area. Some of the larger international corporations utilizing 
the Freeport ship channel are as follows:
    Dow Chemical.--A diversified chemical company that offers a broad 
range of products and services to customers in more than 175 countries, 
helping them to provide everything from fresh water, food and 
pharmaceuticals to paints, packaging and personal care products. Dow 
has annual sales of $49 billion and employs 43,000 people worldwide, 
with 4,000 full time employees in the Texas operations and another 
3,000 contract employees. Texas Operations in Freeport is Dow's largest 
integrated site where 44 percent of Dow's products are sold in the 
United States and more than 21 percent of Dow's products sold globally 
are manufactured. Dow's Freeport Marine Terminal and Operations (FMTO) 
uses the Freeport Harbor channel and handles the movement of 100 
different Dow products at 15 billion pounds annually. Marine vessels 
transport 46 percent of Dow's volume through Dow docks on the Freeport 
channel.
    ConocoPhillips owns and operates a 247,000 bpd refinery at Old 
Ocean, Texas, that relies heavily on marine operations for the delivery 
of crude oil and other feedstock supplies; and, to a lesser extent, for 
product shipments. In particular, ConocoPhillips utilizes both its own 
proprietary terminal and the Teppco crude oil terminal at Port 
Freeport. Maintaining and improving the Port Freeport channel is 
critical to overall refinery operations.
    Seaway Crude Pipeline Company is a partnership between wholly owned 
subsidiaries of TEPPCO and ConocoPhillips. The pipeline transports 
crude oil from the Texas gulf coast to Cushing, OK, a crude 
distribution point for the central United States and a delivery point 
for the New York Mercantile Exchange (NYMEX). The Seaway system is a 
critical link in the crude oil supply chain for Central and Midwest 
refining centers. Seaway also provides marine terminaling and storage 
services for Texas gulf coast area refineries. TEPPCO is the operator 
of Seaway Crude Pipeline. The Freeport, TX, marine terminal is the 
origin point for the 30-inch diameter crude pipeline. Three large 
diameter lines carry crude oil from Freeport to the Jones Creek Tank 
Farm, which has 6 storage tanks capable of handling approximately 3.3 
million barrels of crude. This private terminal also acts as the 
receiving terminal for crude delivered to the Bryan Mound Strategic 
Petroleum Reserve operated by the Department of Energy.
    Schenectady Chemical, Shintech, Air Liquide, Nalco, Rhodia, Rhone-
Poulenc, S F Sulfur Corp and Silica Products are other large 
international companies in the immediate area. All of these companies 
depend on, in some form or fashion the delivery or dispatch of product, 
crude or feedstock by vessel. There is well over $100 billion in assets 
in the immediate area, assets that are in the ground, provide for 
30,000 direct jobs supplying our country with everything from gasoline 
for our vehicles to baby diapers.
    Recent Port improvements include the Velasco Terminal, which was 
launched last October as our first major container terminal. This 
facility, presently under construction will boast a berthing line of 
2,400 linear feet with 90 acres of backland for development. Phase I, 
building Velasco terminal will cost $35 million dollars and should be 
completed in 18 months. We have three, large international companies 
submitting proposals to act as terminal operators. Overall build out 
cost could go as high as $200 million and is designed to handle as many 
as 700,000 containers.
                     defense support of our nation
    Port Freeport is a strategic port in times of National Defense of 
our Nation. It houses a critically important petroleum oil reserve--
Bryan Mound. Its close proximity to State Highways 36 and 288 make it a 
convenient deployment port for Fort Hood. In these unusual times, it is 
important to note the importance of our ports in the defense of our 
Nation and to address the need to keep our Federal waterways open to 
deep-draft navigation.
                     community and industry support
    This proposed improvement project has wide community and industry 
support. The safer transit and volume increase capability is an 
appealing and exciting prospect for the users of Freeport Harbor and 
Stauffer Channel. The anticipated positive benefit to cost ratio that 
was indicated from the Corps of Engineers reconnaissance study firmly 
solidified the Federal interest.
         what we need from the subcommittee in fiscal year 2011
    The administration included no funding for PED for the widening and 
deepening project for Port Freeport; therefore, we need an add on of 
$500,000 to initiate PED. The administration did include $3,538,000 in 
O&M for maintenance of Freeport Harbor; however, that amount falls 
short of the Corps capability. Maintenance dredging of Federal harbors 
is a Federal responsibility; therefore, we respectfully request the 
additional funding of $7,374,000 to restore the harbor to its 
authorized depth. The Corps will need to continue to move this 
important project through the system on an optimum schedule and most 
cost-efficient timeframe for the Federal Government and the local 
sponsor. We respectfully request that the full amount of the Corps 
capability for PED and O&M be included in the House mark-up.
    Not only is the widening and deepening project currently under 
consideration as a feasibility study by the Corps needed to ensure the 
continued growth of the port and surrounding industries, we need 
continued support from the Federal Government to insure our channel is 
maintained at it's Federal authorized depth of 45 feet to assure our 
current customers that we will continue to be able to serve them.
                                 ______
                                 
   Prepared Statement of the Chambers County-Cedar Bayou Navigation 
                            District, Texas
                         history and background
    The Rivers and Harbor Act of 1890 originally authorized navigation 
improvements to Cedar Bayou. The project was reauthorized in 1930 to 
provide a 10 foot deep and 100 foot wide channel from the Houston Ship 
Channel to a point on Cedar Bayou 11 miles above the mouth of the 
bayou. In 1931, a portion of the channel was constructed from the 
Houston Ship Channel to a point about 0.8 miles above the mouth of 
Cedar Bayou, approximately 3.5 miles in length. A study of the project 
in 1971 determined that an extension of the channel to project Mile 3 
would have a favorable benefit to cost ratio. This portion of the 
channel was realigned from mile 0.1 to mile 0.8 and extended from mile 
0.8 to Mile 3 in 1975. In October 1985, the portion of the original 
navigation project from project Mile 3 to 11 was deauthorized due to 
the lack of a local sponsor.
    In 1989, the Corps of Engineers, Galveston District completed a 
Reconnaissance Report dated June 1989, which recommended a study for an 
improvement to a 12 foot by 125 foot channel from the Houston Ship 
Channel Mile 3 to Cedar Bayou Mile 11 at the State Highway 146 Bridge. 
Subsequently, at the completion of the feasibility report, the 
preferred plan recommendation was to construct a 10 foot by 100 foot 
channel. The feasibility report was approved by both the ASA of Civil 
Works for the Army Corps of Engineers and the Office of Management and 
Budget.
    The Texas Legislature created the Chambers County-Cedar Bayou 
Navigation District in 1997 as an entity to improve the navigability of 
Cedar Bayou. The district was created to accomplish the purpose of 
section 59, Article XVI, of the Texas Constitution and has all the 
rights, powers, privileges and authority applicable to Districts 
created under chapters 60, 62, and 63 of the Water Code--Public Entity. 
The Chambers County-Cedar Bayou Navigation District then became the 
local sponsor for the Cedar Bayou Channel.
                project description and reauthorization
    Cedar Bayou is a small coastal stream, which originates in Liberty 
County, Texas, and meanders through the urban area near the eastern 
portion of the city of Baytown, Texas, before entering Galveston Bay. 
The bayou forms the boundary between Harris County on the west and 
Chambers County on the east. The project was authorized in section 349 
of the Water Resources Development Act 2000, which authorized a 
navigation improvement of 12 feet deep by 125 feet wide from mile 2.5 
to mile 11 on Cedar Bayou. Corps studies have indicated that the 
preferred plan is to widen the channel to 100 feet and deepen it to 10 
feet which is the current plan of action.
                   justification and industry support
    First and foremost, the channel must be improved for safety. The 
channel is the home to a busy barge industry. The most cost-efficient 
and safe method of conveyance is barge transportation. Water 
transportation offers considerable cost savings compared to other 
freight modes (rail is nearly twice as costly and truck nearly four 
times higher). In addition, the movement of cargo by barge is 
environmentally friendly. Barges have enormous carrying capacity while 
consuming less energy, due to the fact that a large number of barges 
can move together in a single tow, controlled by only one power unit. 
The result takes a significant number of trucks off of Texas highways. 
The reduction of air emissions by the movement of cargo on barges is a 
significant factor as communities struggle with compliance with the 
Clean Air Act. Several navigation-dependent industries and commercial 
enterprises have been established along the commercially navigable 
portions of Cedar Bayou. Several industries have docks at the mile 
markers that would be affected by this much-needed improvement. These 
industries include: Reliant Energy, Bayer Corporation, Koppel Steel, 
CEMEX, US Filter Recovery Services and Dorsett Brothers Concrete, to 
name a few.
                       project costs and benefits
    Congress appropriated $100,000 in fiscal year 2001 for the Corps of 
Engineers to conduct the feasibility study to determine the Federal 
interest in this improvement project. The study indicated a benefit to 
cost ratio of the project of 2.8 to 1. The estimated total cost of the 
project is $16.8 million with a Federal share estimated at $11.9 
million and the non-Federal sponsor share of approximately $4.9 
million. Total annual benefits are estimated to be $4.8 million, with a 
net benefit of $3 million. Congress thus far has appropriated nearly 
$1.7 million for this project.
    It has also become an important project for the Port of Houston 
Authority--the Nation's busiest port in foreign tonnage. They hope to 
institute a container on barge facility as soon as this project is 
accomplished. We would appreciate the subcommittee's support of the 
required add of the $100,000 to initiate construction of this important 
improvement project. The users of the channel deserve to have the 
benefits of a safer, most cost-effective Federal waterway.
                             current status
    In July 2006, the project feasibility report was accepted and 
approved by Assistant Secretary of the Army John P. Woodley and OMB as 
a viable, economically justified and environmentally accepted project. 
The project is ready for construction. The Federal Government has 
already invested nearly $1 million for the studies to justify this 
project and the local sponsor has advanced the total local share. We 
are ready to begin construction.
                                 ______
                                 
 Prepared Statement of The Port Authority of New York and New Jersey; 
 State of New Jersey, Department of Transportation; State of New York, 
                  Empire State Development Corporation
    Endorsed By: APM Terminals; Association of Bi-State Motor Carriers, 
Inc.; Board of Commissioners of Pilots of the State of New York; 
Business Council of New York State; Cashman Dredging Company; 
ConocoPhillips Bayway Refinery; CSX Corporation; Donjon Marine Co., 
Inc.; Environmental Defense Fund; Hudson County Chamber of Commerce; 
Great Lakes Dredge and Dock Company; Greater Maritime Port Council of 
New York/New Jersey and Vicinity; I.L.A. Local 1235; International 
Union of Operating Engineers Local 25 Marine Division; Maher Terminals; 
Manhattan Chamber of Commerce; Maritime Association of the Port of NY/
NJ; Marine Engineers Beneficial Association; Maritime Trades Department 
AFL-CIO; Matrix Development Group; Nation'sPort; NJ Sandy Hook Pilots 
Association; New Jersey Alliance for Action; New Jersey State AFL-CIO; 
New York Sandy Hook Pilots; New York Shipping Association; New York-New 
Jersey Port Promotion Association; Newark Regional Business 
Partnership; Norfolk Dredging Company; Norfolk Southern Corporation; 
Seafarers International Union; Weeks Marine Inc.
    This subcommittee has consistently supported the Nation's 
navigation system, including the Port of New York and New Jersey. We 
thank you for your continued support. Now more than ever, we are in 
need of your assistance as we near the end of the construction of the 
New York and New Jersey Harbor Deepening Project (HDP), but face a $33 
million reduction from last year's funding level. The HDP has received 
strong financial support since 2004, which has enabled the Federal 
Government and us to improve the infrastructure required to handle 
cargo growth in our region and the Nation. In order to keep this top 
priority project on schedule, we respectfully ask that the President's 
request for the NY & NJ Harbor Deepening Project be augmented to 
$80,000,000, which is less than the level that was appropriated this 
fiscal year. We also respectfully request added funds totaling 
$5,000,000 to construct the vital Liberty State Park wetlands 
restoration project, $1,500,000 to move forward on other essential 
Hudson-Raritan Estuary (HRE) restoration projects, and $50,838,000 to 
address critically important operations and maintenance needs.
    We understand the fiscal constraints facing the subcommittee and 
the Nation, but would like to emphasize that the Federal investment in 
the Port has yielded great returns. New York and New Jersey marine 
terminals handled over 4 million TEU's in 2009. This freight moved 
throughout the region and to most States in the continental United 
States accounting for approximately 13 percent of the Nation's 
containerized imports and exports and 22 percent of the Nation's import 
of refined petroleum products such as heating oil. The Port supports 
more than 269,000 on and off-terminal jobs locally and nation-wide, and 
the NY/NJ port industry contributed $5.8 billion in local, State and 
Federal tax revenues. The Port continues to serve as a critical 
economic engine in these trying times of an economic downturn.
    The Port and its partners are mindful of the need to balance 
commerce with protection of the environment. The Port Authority has 
dedicated funds to expand its rail capacity in New York and New Jersey 
in order to reduce truck congestion and associated air emissions. The 
funds also financed the acquisition of environmentally sensitive land 
for preservation and studies to identify and prevent sources of 
contamination from entering the harbor estuary. The Port Authority has 
also spent over $20 million for emission-offset programs associated 
with the HDP. In 2010 we will have reduced 796 tons of NO<INF>X</INF> 
emissions annually in the Harbor due to these efforts; by 2013, we will 
have reduced NO<INF>X</INF> emissions by over 1,100 tons per year. 
These improvements and emissions reductions are a legacy to this 
region; their benefits continuing long after the HDP is completed. Over 
40 million cubic yards of dredged material will be removed in 
association with the HDP. To date 100 percent of the material dredged 
has been beneficially reused within the region to improve the Historic 
Area Remediation Site, enhance artificial reefs within the coastal 
waters of New York and New Jersey, and support upland activities such 
as landfill closures and brownfield remediation projects. Additionally, 
terminal operators have voluntarily installed electric cranes, switched 
to ultra-low sulfur diesel and replaced cargo-handling equipment with 
cleaner models--a strong signal of private sector commitment toward 
greening the Port. In addition the Port Authority, together with its 
sister agencies and port partners, has developed and is implementing a 
Clean Air Strategy for the Port of New York and New Jersey. The HDP, 
including our partnership with the Corps, is the centerpiece of a 
commitment to make this important American gateway internationally 
competitive while restoring the harbor estuary and protecting our 
environment. We invite all members of the subcommittee and staff to 
visit the Port to learn more about its role in the environment and the 
U.S. transportation system. Below are our comments on the fiscal year 
2011 budget request. We respectfully request that the subcommittee 
appropriate additional funds for the specific projects as discussed 
below.

------------------------------------------------------------------------
                                         President's
            Construction              Fiscal Year 2011    Port Request
                                           Budget
------------------------------------------------------------------------
New York and New Jersey Harbor......       $57,000,000       $80,000,000
Liberty State Park..................  ................         5,000,000
                                     -----------------------------------
      TOTAL.........................        57,000,000        85,000,000
------------------------------------------------------------------------

    New York and New Jersey Harbor.--This project was authorized by 
section 101(a)(2) of WRDA 2000 (Public Law 106-541). We respectfully 
request that the President's request for the NY and NJ Harbor Deepening 
Program be augmented to $80,000,000, which while higher than the budget 
request would be 12 percent lower than the appropriated level for the 
current year. The continuing NY and NJ Harbor Deepening Project will 
improve transportation efficiency and benefit the national markets 
served by this port. In order to complete the 50-foot deepening of the 
pathways to the container-handling facilities in the Harbor by fiscal 
year 2013 and reap the full benefits of the Federal Government's 
investment, a significant number of contracts must be awarded over the 
next 2 years. Project slippage will have serious negative impacts on 
maritime commerce and the regional and national economy. The 
President's budget allows for the construction of this project to 
continue, but does jeopardize the timeline at a critical juncture. The 
project currently stands near the 50 percent completion mark. With only 
3 years remaining in the schedule, reduced funding at this time hampers 
construction efficiencies, delays the benefits of sections already 
constructed, and subjects the project to possible further delays and 
increased cost as the price of labor and construction inevitably rises 
in the next years. Any hindrance to the timely completion of this 
project risks the possible delay of the realization of first year 
economic benefits to the Nation in the range of $140 million. In 
addition, a delay in funding could mean that this nationally important 
project would not be completed by the opening of the Panama Canal's 
third set of locks. For these reasons, we urge adoption of our 
$80,000,000 funding recommendation, which is a continuation of the 
funding levels the subcommittee has approved in previous fiscal years. 
This approach is consistent with the stated goal of the administration 
of placing priority and resources on the completion of Corps projects 
already underway.
    Liberty State Park.--We also request $5,000,000 to execute the 
Project Partnership Agreement with the State of New Jersey and 
construct the critical wetlands restoration project within Liberty 
State Park. The project was authorized for construction in WRDA 2007. 
This project will both restore critical habitat within the estuary and 
also provide significant public access and education opportunities.
    Continuing Authority Program (CAP).--We request that CAP sections 
1135 and 204 are funded to fund the following ongoing projects within 
the Jamaica Bay complex: Plumb Island, NY ($500,000) and Spring Creek, 
NY ($50,000).

------------------------------------------------------------------------
                                         President's
          Surveys (Studies)           Fiscal Year 2011    Port Request
                                           Budget
------------------------------------------------------------------------
HRE, Hackensack-Meadowlands, NJ.....          $200,000          $250,000
HRE, Lower Passaic River, NJ........           200,000           250,000
HRE New York & New Jersey...........           200,000         1,000,000
                                     -----------------------------------
      TOTAL.........................           600,000         1,500,000
------------------------------------------------------------------------

    HRE-Hackensack Meadowlands.--We respectfully request an increase in 
funding of an additional $50,000 for a total of $250,000 to continue 
design work. The area's wildlife habitat preserves are threatened by 
dwindling open marshes. In April 2003, the Corps executed the FCSA with 
the NJ Meadowlands Commission, and initiated the feasibility study.
    HRE-Lower Passaic.--An increase in funding by $50,000 for a total 
of $250,000 is needed for the HRE-Lower Passaic River to complete a 
Draft Comprehensive Restoration Plan for the entire lower 17-mile 
watershed. The plan is critical component of the integrated Remedial 
Investigation/Feasibility Study underway with EPA as a pilot project of 
the joint Corps-EPA Urban Rivers Restoration Initiative. Many changes 
have occurred over the last year and it is important that the positive 
momentum gained not be lost on this critical project.
    HRE (overall), NY and NJ.--There is a critical need to increase 
funding to $1,000,000 to allow the Corps to complete the Comprehensive 
Restoration Plan (CRP) that will outline the unified vision of a 
restored estuary based on specific science based and stakeholder 
endorsed ecosystem targets. It will also continue the feasibility study 
and programmatic Environmental Impact Statement, which is needed to 
implement the CRP. This study, as well as the Hackensack Meadowlands 
and Lower Passaic River studies, were authorized by House Resolution 
dated April 25, 1999 and are critical components to achieving the 
common stakeholder vision of a World Class Harbor estuary that 
recognizes ecological restoration as being of equal importance with 
economic development. This project directly aligns with other 
administration initiatives and focus for the Corps in fiscal year 2011.

------------------------------------------------------------------------
                                         President's
      Operation and Maintenance       Fiscal Year 2011    Port Request
                                           Budget
------------------------------------------------------------------------
Newark Bay, Hackensack and Passaic            $100,000       $10,200,000
 Rivers, NJ.........................
Project Condition Surveys, NJ.......         1,506,000         1,953,000
Raritan River to Arthur Kill Cut-              100,000         1,450,000
 off, NJ............................
Raritan River, NJ...................            80,000           120,000
Buttermilk Channel, NY..............         8,600,000        10,000,000
East River, NY......................         2,800,000         3,350,000
East Rockaway Inlet, NY.............           200,000         1,750,000
Eastchester Creek, NY...............           150,000           150,000
Flushing Bay and Creek, NY..........           100,000           100,000
Hudson River Channel, NY............           100,000           200,000
Jamaica Bay, NY.....................           120,000           120,000
New York and New Jersey Channels, NY         6,150,000         6,150,000
New York Harbor, NY.................         3,796,000         3,998,000
Portchester Harbor, NY..............            60,000            60,000
Project Condition Surveys, NY.......         1,928,000         2,092,000
Westchester Creek, NY...............           100,000           100,000
New York Harbor, NY and NJ (Drift            7,200,000         7,900,000
 Removal)...........................
New York Harbor, NY and NJ (Prevent          1,045,000         1,145,000
 Obstructive Deposits)..............
                                     -----------------------------------
      TOTAL.........................        34,135,000        50,838,000
------------------------------------------------------------------------

    Operation & Maintenance.--Maintenance projects are critical to the 
commerce, navigation and security of this National Priority port 
system, its channels and the Nation. Billions of public and private 
dollars are continuing to be spent to deepen the Port's channels and 
improve landside infrastructure. The considerable investment in 
deepening the network of channels is devalued if the system is not 
adequately maintained, especially in one of the most highly utilized 
ports in the country. Additionally, the risk of groundings will 
increase. The new budget continues the unfortunate pattern of past 
budgets that enable only partial channel maintenance, leaving 
significant areas and in some cases whole shipping lanes at inefficient 
and potentially unsafe depths. The Port is the Nation's busiest 
petroleum port, and the Arthur Kill (under NY and NJ Channels) is 
critical to that trade, which serves the greater NY/NJ Metropolitan 
area and much of the Northeast. Channel maintenance in this National 
Strategic Port is needed to support the industry and military. 
Maintenance also protects and perpetuates the Federal infrastructure 
investment. We identified several critical projects with pressing 
channel safety concerns and it is important to state for the record 
that this part of the fiscal year 2011 budget is insufficient to meet 
the practical needs of commerce. The irony is that the budget proposes 
using only around 50 percent of the estimated Harbor Maintenance Trust 
Fund receipts for the fiscal year. As such the Harbor Maintenance Trust 
Fund is fully capable of covering the full cost of dredging in our port 
and a good many others. To provide additional perspective, a January 
2010 report from the Congressional Research Service (7-5700) notes that 
the NY/NJ port is a ``large net generator'' of Harbor Maintenance Tax 
revenue. It also illustrates how the NY/NJ port is one of most 
efficient ports when measured in HMTF maintenance expenditures per ton 
of cargo. We respectfully request the budget be increased as shown in 
the above list.
    Conclusion.--The Port of New York and New Jersey continues to be a 
major international gateway for the Nation and a significant producer 
of Harbor Maintenance Tax revenue to support the Nation's port system. 
Furthermore we would be remiss if we did not highlight the importance 
of continuing contracts as a valuable tool in managing the complexities 
of channel deepening and maintenance. National projects, like the NY 
and NJ Harbor Deepening Project, are better served with 2-year 
continuing contracts supported by a 5 and 10 year Corps priority 
project schedule. The Corps' Civil Works Program, coupled with public 
and private sector investments, has served the Nation's economic and 
security interests well for the better part of two centuries. We are 
proud of our part in that history. We commit to continuing our 
productive partnership with the Federal Government and to ensuring that 
continued development and use of the Port and its supporting 
infrastructure is balanced between commerce and the environment.
                                 ______
                                 
          Prepared Statement of the City of Maricopa (Arizona)
    Chairman Dorgan, Ranking Member Bennett, and distinguished members 
of the subcommittee, thank you for allowing me to testify in support of 
$150,000 for the city of Maricopa, Arizona for a Flood Plain Management 
Services (FPMS) study under General Investigations for the Army Corps 
of Engineers in the fiscal year 2011 Energy and Water Development bill.
    Maricopa is a small but thriving community 35 miles south of 
Phoenix. Incorporated in 2003 with a population of approximately 1,000 
people, Maricopa is now a burgeoning community of more than 40,000 and 
growing at the rate of approximately 200 people per month. Maricopa is 
located in Pinal County, which is one of the fastest growing regions in 
one of the fastest growing States in the Nation. With this newfound 
growth has brought increased risk of death and the loss of public and 
private property due to flooding of the Santa Cruz River that splits 
the city. Mitigating this potential flood hazard is critical to this 
area's growth and prosperity. A major flood today would devastate 
homes, businesses, schools, infrastructure and more. It is only a 
matter of time before another devastating flood hits this area. Flood 
control improvements are urgent and necessary to protect the public 
health and safety.
    The Santa Cruz River Basin consists of 8,200 square miles in 
southern Arizona and 400 square miles in Sonora, Mexico. The Basin has 
a long history of damaging floods. Damages included a broad range of 
categories, including agricultural, commercial and residential 
structures, utility lines, and transportation facilities. These 
flooding problems have been studied repeatedly by Federal, State, and 
local agencies, but no comprehensive solution has been implemented due 
to a lack of economic viability.
    The Bureau of Reclamation had previously carried out appraisal 
investigations of the Santa Cruz River in 1965 when the city and areas 
within the basin were largely agricultural. It became apparent at that 
time that the municipal and industrial water-supply needs of the Santa 
Cruz River Basin were of far greater magnitude and urgency than had 
been previously estimated.
    In 1976, Congress, under the authority of the Flood Control Act of 
1938 funded a Corps of Engineers/Bureau of Reclamation study of the 
Lower Santa Cruz River from the Red Rock area to the river's confluence 
with the Gila River. The Corps was tasked with evaluating the flood 
control problems, and the Bureau of Reclamation was tasked with 
evaluating the development potential of water resources. The results of 
this study, released in August 1983 found no economically justified 
solution. Benefits to cost ratios (BCR) ranged from 0.3 to 0.7 for 
three different alternatives for diversion of floodwaters from the 
Greene's Canal area to the Tat Momolikot Dam reservoir. In October 
1983, a flood along the Santa Cruz River caused over $45 million (1994 
dollars) in damages, including extensive damage to many of the channel 
and dike improvements constructed by the agricultural flood control 
districts in the area. A similar devastating flood occurred in 1993. At 
this time, the city of Maricopa had very little residential or 
commercial infrastructure and less than 1,000 residents.
    After the floods, the Corps reevaluated the alternatives in their 
study and were able to develop a BCR of 1.03. Since the 1983 and 1993 
floods, construction of the Central Arizona Project lateral canals, and 
associated irrigation infrastructure, have added additional potential 
damages from future events due to changes in the hydraulic 
characteristics of the flood prone areas. In addition, extreme land 
subsidence is extensive over portions of the Santa Cruz River Basin.
    In June 1989, Pinal County requested a flood control study of the 
Lower Santa Cruz River from the Corps of Engineers. The Corps released 
the Lower Santa Cruz River Feasibility Analysis Summary Report in 
September 1994. This report developed several alternative plans and 
found that the best alternative was still diversion to the Tat 
Momolikot Dam with a BCR of 1.05. The 1994 report concluded that 
additional engineering work was needed due to geotechnical issues in 
the area and also the altered hydraulic characteristics of the area due 
to the Central Arizona Project and irrigation district infrastructure. 
The study was terminated without a recommendation.
    With the recent influx of residential growth into Maricopa and most 
of Pinal County since 2001, the flood prone areas of the Lower Santa 
Cruz River had become candidates for development. Several large master 
planned residential projects have been proposed along the Lower Santa 
Cruz River from the Red Rock area to the city of Maricopa, which has, 
at this point, the largest and most expansive development. These 
projects have been planned in Maricopa, Casa Grande, and many other 
flood prone locations in Pinal County's Santa Cruz River Basin. The 
loss of life and property has increased exponentially since the Corps 
conducted its initial studies. The time to act is now.
    Maricopa is one of the fastest growing communities in Arizona. By 
2020, it is estimated to have nearly 200,000 residents. Similarly, 
other cities, such as Eloy and Casa Grande are expected to see similar 
growth of their communities. Larger communities will translate into 
larger damages and loss of life in the event of a catastrophic flood 
event. An FPMS study would help us begin to address this problem before 
its too late.
    It is important to note that a large stakeholder group is being 
formed to work on a collaborative solution for this growing problem. 
Stakeholders include the city of Maricopa, the Ak-Chin Indian 
Community, the Gila River Indian Community, Pinal County, numerous 
irrigation and flood control districts, and the University of Arizona. 
Realizing the importance of this endeavor, the city of Maricopa has 
committed $9 million over the next 3 years to begin this important 
project.
    Therefore, I respectfully request that the subcommittee includes 
$150,000 for the city of Maricopa, Arizona for a Flood Plain Management 
Services (FPMS) study under General Investigations for the Army Corps 
of Engineers in the fiscal year 2011 Energy and Water Development bill.
    Thank you for the opportunity to testify, as well as your time and 
attention to this important matter.
                                 ______
                                 
   Prepared Statement of the Association of State Floodplain Managers
    The Association of State Floodplain Managers (ASFPM) is submitting 
comments on three items in the budget request: under Investigations--
Planning Assistance to States and Flood Plain Management Services and 
under Operation and Maintenance--National (Levee) Flood Inventory.
    ASFPM and its 29 Chapters represent over 14,000 State and local 
officials and other professionals who are engaged in all aspects of 
managing and mitigating flood risk to address the loss of life and 
property from natural hazards. These aspects include land management, 
hazard mitigation, mapping, engineering, planning, building codes and 
permits, community development, hydrology, forecasting, emergency 
response, water resources and insurance. Most of our members work with 
the Nation's 21,000 flood prone communities to reduce losses from all 
flood related hazards.
    ASFPM strongly believes that the USACE can contribute significantly 
to better informed flood hazard reduction decisions in our Nation's 
communities through providing technical advice and assistance. As the 
Corps moves toward helping States and local governments with a 
comprehensive approach to flood risk management, the Flood Plain 
Management Services (FPMS) and Planning Assistance to States (PAS) 
programs are essential. For many years, these valuable programs have 
been funded at about one-half of their authorized levels. The budget 
request for fiscal year 2011 would continue that level of funding. The 
request for FPMS is $8 million. The request for PAS is $7 million. 
ASFPM recommends funding both programs at a significantly higher level 
and at their fully authorized amounts if possible.
    We support the budget request of $15 million for the National 
(Levee) Flood Inventory. We urge that the inventory proceed 
expeditiously and that it include not only Corps built, owned and 
maintained levees, but all levees. Information on the number and 
location of levees in the Nation and a general assessment of their 
condition is critical as the Congress and Federal Government move to 
develop a national levee safety program. Because of its importance to 
addressing the hazards to public safety and property associated with 
levee failure or overtopping, it is important that the levee inventory 
proceed with deliberate speed.
    The Association of State Floodplain Managers appreciates this 
opportunity to share our views on these important Army Corps programs.
                                 ______
                                 
          Prepared Statement of the Stockton Port District, CA
    The Port of Stockton (``Port'') appreciates the opportunity to 
submit this testimony for the record in support of the fiscal year 2011 
appropriations for the U.S. Army Corps of Engineers Civil Works 
Operations and Maintenance and Construction General Programs. The 
funding amounts are detailed in the paragraphs below.
    Stockton has an unemployment rate of 21.9 percent (Source: CA 
Economic Development Dept., Jan. 2010). San Joaquin County has an 
unemployment rate of 18.4 percent. With the highest home foreclosure 
rate in the Nation, this region continues to suffer the hardest impacts 
of the national and global economic recession.
    The Port of Stockton is widely viewed as one of the primary 
economic engines for the recovery of this distressed region. The 
positive economic outlook for the Port includes introduction of new 
container facilities at the Port in year 2011, thanks to the DOT TIGER 
grant for marine highways. Significant developments are also expected 
for Rough and Ready Island. The Port has been, and will continue, to 
focus on jobs creation at a family wage level for this region.
    The Port of Stockton's recovery, and the regional recovery, is 
dependent on adequate funding of the four projects shown below in the 
Army Corps of Engineers civil works budget.
    The San Joaquin River--Stockton Channel is our highest priority 
appropriations request in the Corps O&M budget. Federal 
responsibilities include annual maintenance dredging of the Federal 
channel and maintaining existing riverbank protection. This project is 
consistently under funded so that the authorized 35-foot ship channel 
has been blocked at depths of 32-33 foot feet. These blockages, often 
last 6 months or more, have denied a stable 35-foot ship channel for 
much of the past 5 years. Past O&M appropriations have been primarily 
in the $2.6 million to $3.1 million range, insufficient for the State's 
largest inland port and fourth busiest California port.
    An amount of $9.8 million is requested for the San Joaquin River--
Stockton Channel project in fiscal year 2011 to adequately maintain the 
ship channel at a safe year round Federal depth and satisfy additional 
State water quality requirements for environmental sampling, testing, 
and disposal of maintenance dredged material.
    The San Francisco Bay to Stockton (John F. Baldwin and Stockton 
Channels) is our second highest priority request in the Corps 
Construction General budget. This $141 million project would deepen the 
Stockton ship channel to 40-feet. The State Transportation Commission 
has designated this project for a $17.5 million construction grant; 
construction must begin in year 2012. Last year, our appropriations 
request for $2 million was zeroed out of the fiscal year 2010 budget 
for reasons unknown to us. With a zero appropriation for the project, 
the Port must recapture the schedule, including possible reprogramming 
of funds.
    Two million dollars in Construction General funding is requested 
for the San Francisco Bay to Stockton project in fiscal year 2011. We 
have recently added strong cost sharing partners with the Western 
States Petroleum Association, along with our long time partner, Contra 
Costa County.
    The Rough and Ready Island Storm Water Drainage Project is our 
third priority request in the Corps Construction General budget. The 
current storm water system on Rough and Ready Island is obsolete and 
must be replaced. The EPA is demanding a replacement. Based on WRDA 
2007, Public Law 110-114, section 5158, $3 million is authorized for 
this storm water system, which includes drainage detention and lift 
facility. The project will also minimize environmental problems, 
increase flood protection and create more usable land for economic 
growth.
    An amount of $925,000 is requested in the Corps fiscal year 2011 
Construction General budget for the Rough and Ready Island, Storm Water 
Drainage Project. This project is authorized in accordance with Public 
Law 102-580, 1992, section 219 Environmental Infrastructure and 
subsequent Water Resources Development Acts.
    The Pinole Shoal, CA Management Study (Delta Long Term Management 
Strategy) is an ongoing study that we support with Contra Costa County 
and many regulatory resources agencies. Authorized in Public Law 108-
447, page 905 of Conference Report (Consolidated Appropriations Act,) 
this study has been funded since fiscal year 2005. Funding would be 
used to develop and approve a joint agency permit and general regional 
water quality control board order for dredging and beneficial reuse of 
dredged material; implement a Delta Dredging and Reuse Management Team 
with a MOU, charter, and operating principles; develop regional 
disposal and reuse of dredged sediment alternatives; initiate a 
programmatic biological assessment, and conduct a pilot project. Fiscal 
year 2011 Federal funds would be used as follows: salaries $300,000, 
A&E and professional service contracts $2,200,000.
    An amount of $2.5 million is requested in the Corps fiscal year 
2011 O&M budget for the Pinole Shoal, CA Management Study.
    Thank you for your consideration.
                                 ______
                                 
         Prepared Statement of the Red River Valley Association
    Mr. Chairman and members of the subcommittee, I am Wayne Dowd, 
President, and pleased to represent the Red River Valley Association, 
629 Spring St., Shreveport, Louisiana. Our organization was founded in 
1925 with the express purpose of uniting the citizens of Arkansas, 
Louisiana, Oklahoma and Texas to develop the land and water resources 
of the Red River Basin.
    The resolutions contained herein were adopted by the Association 
during its 85th Annual Meeting in Shreveport, Louisiana, on February 
18, 2010 and represent the combined concerns of the citizens of the Red 
River Basin area as they pertain to the goals of the Association. A 
summary of the civil works projects and requested funding is included 
in this testimony.
    The President's fiscal year 2011 budget included $4.9 billion for 
the civil works programs. This is a drastic 10 percent cut from what 
Congress appropriated in fiscal year 2010. The administration fails to 
recognize the Corps' critical role as stewards of our Nation's water 
resources, and the vital importance of our water resources 
infrastructure to our economic and environmental well-being. The 
problem is also how the administration distributes funds. A few 
projects received the full ``Corps Capability'' to the detriment of 
many projects that receive no funding. The $4.9 billion level does not 
come close to the real needs of our Nation. A more realistic funding 
level to meet the existing needs of the civil works program is $6 
billion for fiscal year 2011. The traditional civil works programs 
remain at the low, unacceptable level as in past years. These projects 
are the backbone to our Nation's infrastructure for waterways, flood 
prevention, water supply, recreation and ecosystem restoration. We 
remind you that civil works projects are a true ``jobs program'' in 
that up to 85 percent of project funding is contracted to the private 
sector; 100 percent of the construction, as well as much of the 
architect and engineering work. Not only do these projects provide 
jobs, but provide economic development opportunities for our 
communities to grow and prosper, creating permanent jobs.
    Congress did appropriate funding for the civil works program 
through the American Recovery and Reinvestment Act of 2009. The 
majority of those funds went toward backlog maintenance (O&M) at 
completed Corps projects, no construction funds were received in the 
Red River Valley. Many critical maintenance items were addressed; 
however, that should not be a reason to reduce the Corps' fiscal year 
2011 budget. We have the opportunity to truly reduce our maintenance 
backlog, but a reduced Corps budget will allow those issues to increase 
and hinder our ability to catch up.
    We want to point out that we appreciate the funding Congress 
enacted in fiscal year 2010 and that an appropriation bill was enacted 
in November 2009. We encourage Congress to increase the ``water'' share 
of the total Energy and Water bill closer to the $6 billion Corps 
capability.
    We have a serious issue for the J. Bennett Johnston Waterway O&M in 
the President's budget. The administration allocated $7,745,000 for 
fiscal year 2011, $3,733,000 less than appropriated in fiscal year 2010 
($11,478,000)! This drastic reduction will directly impact the ability 
to conduct maintenance dredging and the authorized 9 foot channel will 
not be maintained. It is difficult to understand why the administration 
would fund the O&M at the $11 million range for 5 years and suddenly 
make a drastic reduction that will have such a negative impact on a 
Waterway that has yearly increased its tonnage. If the required funding 
level of at least $11 million is not appropriated the Waterway may 
actually shut down to all traffic and industry will see the Waterway as 
unreliable and choose alternative modes of transportation, impacting 
ports and jobs.
    A national issue that must be addressed is levee certification. 
FEMA has mandated that all levee systems go through a certification 
process. If a levee district does not meet their designated deadline 
their levee will be taken off the flood plain maps. This will greatly 
increase the current flood insurance paid by landowners and discourage 
economic development. The requirements of the engineering analysis for 
levee certification are cost prohibitive by most all districts. 
Considering that many of these levees were constructed over 80 years 
ago construction criteria then do not meet current methods and 
procedures. Additionally, levees have deteriorated and weathered over 
time. Levee districts can not be expected to absorb the expense to 
upgrade their levees to meet current criteria. There must be a national 
program to address this issue. It is too large an expense to be 
absorbed in the civil works underfunded budget. We recommend Congress 
address this issue and develop a program that would be funded through 
FEMA and executed by the Corps of Engineers and cost shared with levee 
districts.
    We have great concerns over the issue of ``earmarks''. Civil Works 
projects are not earmarks. Civil Works projects go through a process; 
reconnaissance study, feasibility study, benefit to cost ratio test, 
EIS, peer review, review by agencies, public review and comment, final 
Chief of Engineer approval, authorization by all of Congress in a WRDA 
bill and signed by the President. WRDA 2007 added an independent review 
of major projects. No other Federal program goes through such a 
rigorous approval process. Each justified project ``stands alone'', are 
proven to be of national interest and should be funded by project. For 
most projects there is local sponsor cost sharing during the 
feasibility study, construction and for O&M. Those who have 
contributed, in most cases--millions of dollars--to the process, must 
have the ability to have a say for their projects to get funded. That 
voice is through their Congressional delegation. We believe that 
earmarks are not in the national interest, but it does not pertain to 
the civil works program. For civil works it is an issue of priority of 
projects to be funded and who will determine that, OMB or Congress. We 
hope Congress keeps their responsibility to set civil works priorities 
and to determine how its citizen's tax dollars are spent.
    The Inland Waterways Trust Fund (IWTF) is inadequately funded by 
the existing fuel tax rate. There is no doubt that something must be 
done to increase the revenue in the fund. The needs of the IWTF should 
be analyzed and determine what increase to the existing fuel tax would 
maintain the necessary income flow to keep projects funded from the 
Inland Waterway Trust Fund. The final proposal must be fair to 
tributary waterways and be applied equally to all industries using the 
waterways.
    I would now like to comment on some of our specific requests for 
the future economic well being of the citizens residing in the four 
State Red River Basin regions.
    Navigation.--The J. Bennett Johnston Waterway is living up to the 
expectations of the benefits projected. We are extremely proud of our 
public ports, municipalities and State agencies that have created this 
success. This upward ``trend'' in usage will continue as new industries 
commence operations. A major power company, CLECO, has invested $1 
billion in its Rodemacher Plant near Boyce, Louisiana, on the lower Red 
River and has started moving over 3 million tons of ``petroleum coke'' 
and limestone, by barge. This project is a reality and there are many 
more industries considering using our Waterway and locating at the 
ports.
    You are reminded that the Waterway is not complete, 12 percent 
remains to be constructed, $246 million. We appreciate Congress' 
appropriation level in fiscal year 2010 of $6,613,000. There is a 
capability for $20 million of work, but we realistically request $12 
million to keep the project moving toward completion, ``J. Bennett 
Johnston Waterway (CG)''.
    Now that the J. Bennett Johnston Waterway is reliable year round we 
must address efficiency. Presently a 9-foot draft is authorized for the 
J. Bennett Johnston Waterway. All waterways below Cairo, Illinois are 
authorized at 12-feet, to include the Mississippi River, Atchafalaya 
River, Arkansas River and Gulf Intracoastal Waterway. A 12-foot channel 
would allow an additional one-third capacity, per barge, which will 
greatly increase the efficiency of our Waterway and further reduce 
transportation rates. This one action would have the greatest, positive 
impact to reduce rates and increase competition, bringing more 
industries to use waterborne transportation. We request a 1-year 
reconnaissance study be funded to evaluate this proposal, at a cost of 
$100,000. Fact: Approximately 95 percent is already at 12-feet year 
round.
    The feasibility study to continue navigation from Shreveport-
Bossier City, Louisiana, into the State of Arkansas will be completed 
in CY 2012. This region of SW Arkansas and NE Texas continues to suffer 
major unemployment and this navigation project, although not the total 
solution, it will help revitalize the economy. Due to the time lapsed 
in the study the ``freight rates'' calculated a number of years ago 
they must be re-evaluated this year. We request funding of $50,000 to 
conduct the re-evaluation of freight rates, ``Navigation into SW 
Arkansas Study''.
    Flood Prevention.--What will happen when we ignore our levee 
systems? We know the Red River levees in Arkansas do not meet Federal 
standards, which is why we have the authorized project, ``Red River 
Below Denison Dam, TX, AR & LA''. Now is the time to bring these levees 
up to standards, before a major flood event.
    We continue to consider flood control a major objective and request 
you continue funding the levee rehabilitation projects ongoing in 
Arkansas. Five of 11 levee sections have been completed and brought to 
Federal standards. The Red River Levee District (AR) is prepared to 
provide lands, easements and rights of way for the next major 
rehabilitation of the Lafayette County levees.
    The levees in Louisiana have been incorporated into the Federal 
system; however, they do not meet current safety standards. These 
levees do not have a gravel surface roadway, threatening their 
integrity during times of flooding. It is essential for personnel to 
traverse the levees during a flood to inspect them for problems. 
Without the gravel surface the vehicles will cause rutting, which can 
create conditions for the levees to fail. A gravel surface will insure 
inspection personnel can check the levees during the saturated 
conditions of a flood.
    Appropriations of $12 million will construct one more levee section 
in Lafayette County, Arkansas and continue the rock surfacing of levees 
in Louisiana, ``Red River Below Denison Dam, AR & LA''.
    Bank Stabilization.--One of the most important, continuing 
programs, on the Red River is bank stabilization in Arkansas and North 
Louisiana. We must stop the loss of valuable farmland that erodes down 
the river and interferes with the navigation channel. In addition to 
the loss of farmland is the threat to public utilities such as roads, 
electric power lines and bridges; as well as increased dredging cost in 
the navigable waterway in Louisiana. These bank stabilization projects 
are compatible with subsequent navigation into Arkansas and we urge 
that they be continued in those locations designated by the Corps of 
Engineers to be the areas of highest priority. We appreciated the 
congressional funding in past fiscal years and request you fund this 
project at a level of $11.3 million in fiscal year 2011, ``Red River 
Emergency Bank Protection''.
    Water Quality.--The Assistant Secretary of the Army (Civil Works), 
in October 1998, agreed to support a re-evaluation of the Wichita River 
Basin tributary of the project. The re-evaluation report was completed 
and the Director of Civil Works signed the Environmental Record of 
Decision. The plan was found to be economically justified. Then the ASA 
(CW) directed that construction would not proceed until a local sponsor 
was found to assume 100 percent of the O&M for the project. The 2007 
WRDA bill included language that clarified that all aspects of this 
project will be at full Federal expense, to include O&M.
    Over the past years there has been a renewed interest by the 
Lugart-Altus Irrigation District to evaluate construction of Area VI, 
of the Chloride Control Project, in Oklahoma. They have obtained the 
support of many State and Federal legislators, as well as the Oklahoma 
Governor in support of a re-evaluation report.
    Total request for the ``Chloride Control Project'': $8,300,000 for 
the Texas and Oklahoma areas.
    Studies.--We have a number of General Investigation (GI) studies 
that have been funded and have local sponsors prepared to cost share 
feasibility studies. Some of those important studies include: Bossier 
Parish Flood Control Study, LA--$250,000; Cross Lake Water Supply 
Study, LA--$100,000; SE Oklahoma Water Resource Study, OK--$500,000; SW 
Arkansas Study, AR--$50,000; Washita River Basin, OK--$500,000 and 
Wichita River Basin, TX--$100,000. These studies are important to have 
projects ready for future construction.
    Operation & Maintenance.--Full O&M capability levels are not only 
important for our Waterway project but for all our Corps projects and 
flood control lakes. The backlog of critical maintenance only becomes 
worse and more expensive with time. We request that the Corps O&M 
projects be funded at the expressed, full Corps capability.
    Thank you for the opportunity to present this testimony and project 
details of the Red River Valley Association on behalf of the 
industries, organizations, municipalities and citizens we represent 
throughout the four State Red River Valley region. The Civil Works 
program directly relates to national security by investing in economic 
infrastructure. If waterways are closed companies will not relocate to 
other parts of the country--they will move over seas. If we do not 
invest now there will be a negative impact on our ability to compete in 
the world market threatening our national security.
    Grant Disclosure.--The Red River Valley Association has not 
received any Federal grant, sub-grant or contract during the current 
fiscal year or either of the two previous fiscal years.

                    RED RIVER VALLEY ASSOCIATION FISCAL YEAR 2011 APPROPRIATIONS CIVIL WORKS
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                          RRVA Fiscal   President
                                             Fiscal Year   Year 2011   Fiscal Year   Local Sponsor  Requirements
                                             2010 Approp    Request    2011 Budget
----------------------------------------------------------------------------------------------------------------
                Studies (GI)
 
Navigation into SW Arkansas: Feasibility...  ...........          $50  ...........  (ARRC)
Red River Waterway, LA--12 foot Channel,     ...........          100  ...........  (RRWC)
 Recon.
Bossier Parish, LA.........................         $278          250  ...........  (Bossier Levee)
Cross Lake, LA Water Supply Supplement.....           90           50  ...........  (Shreveport)
SE Oklahoma Water Resource Study:                    233          500  ...........  (OWRB)
 Feasibility.
SW Arkansas Ecosystem Restoration: Recon             170           47  ...........  (ANRC/AR Game & Fish)
 Study.
Cypress Valley Watershed, TX...............           90          175  ...........  (NETWD)
Sulphur River Basin, TX....................  ...........        1,000  ...........  (Sulphur Auth)
Washita River Basin, OK....................          171          500  ...........  (L)
Wichita River Basin above Lake Kemp, TX:     ...........          100  ...........  (L)
 Recon.
Red River Above Denison Dam, TX & OK: Recon  ...........          100  ...........  (L)
Red River Waterway, Index, AR to Denison     ...........           44  ...........  (?)
 Dam.
Mountain Fork River Watershed, OK & AR,      ...........  ...........  ...........  (?)
 Recon.
Walnut Bayou, Little River, AR.............  ...........          100  ...........  (ANRC)
Little River County/Ogden Levee, AR, Recon.  ...........          100  ...........  (ANRC)
Red River Waterway, Index to Denison,        ...........  ...........  ...........  (?)
 Bendway Weir.
 
         Construction General (CG)
 
Red River Waterway: J. B. Johnston                 6,613       20,000       $1,500  (RRWC)
 Waterway, LA.
Chloride Control Project, TX & OK Texas-           1,332        8,300  ...........  N/A
 7,500/Oklahoma-800.
Red River Below Denison Dam; AR & LA.......        2,035       12,000  ...........  (Levee Districts)
    Bowie County Levee, TX.................  ...........  ...........  ...........  ............................
Red River Emergency Bank Protection........        1,986       11,300  ...........  (Levee Dist.)
Big Cypress Valley Watershed, TX: Section          1,450  ...........  ...........  (Jefferson)
 1135.
Palo Duro Creek, Canyon, TX: Section 205...  ...........           90  ...........  (Canyon, TX)
Millwood, Grassy Lake, AR: Section 1135....          181          100  ...........  (ANRC)
McKinney Bayou, AR, PED....................  ...........  ...........  ...........  (?)
Miller County Levee, AR, Section 1135......  ...........  ...........  ...........  (Miller Levee)
 
      Operation and Maintenance (O&M)
 
J. Bennett Johnston Waterway, LA...........       11,478       23,864        7,745  ............................
Lake Kemp, TX--Total Need..................          311          817          467
    Basic Annual O&M.......................  ...........          214  ...........  ............................
    Reallocation Study.....................  ...........          350  ...........  ............................
    Service Bridge & Gate Repair...........  ...........          253  ...........  ............................
Lake Texoma, TX & OK--Total Need...........        8,740       31,617       10,057  ............................
    Basic Annual O&M.......................  ...........        7,000  ...........  ............................
    Shoreline Management Plan..............        1,158  ...........  ...........  ............................
    Backlog Maintenance....................  ...........       24,617  ...........  ............................
Chloride Control Project, TX & OK..........        1,481        2,025        1,439  ............................
Old River Lock, LA (MR&T)..................        9,854       12,755        9,255  ............................
----------------------------------------------------------------------------------------------------------------
NOTE.--Local Sponsor Column--Sponsor indicated in ( ); (?) indicates No Sponsor identified and need one to
  continue (L) indicates Sponsor not required now but need one for feasibility; N/A--No Sponsor required.

                                 ______
                                 
  Prepared Statement of The Missouri River Association of States and 
                                 Tribes
    Dear Chairman Dorgan and Ranking Member Bennett: We are requesting 
your support for four items in the fiscal year 2011 budget for the U.S. 
Army Corps of Engineers (USACE), related to the Missouri River Basin. 
These include: (1) $78.4 million to continue implementation of the 
Missouri River Recovery Program, (2) $5.5 million to continue funding 
for the Missouri River Authorized Purposes Study, (3) $10 million to 
increase the operations and maintenance budget for the Northwestern 
Division, Omaha District, for protection of cultural and historical 
sites impacted by the operation of the Missouri River Mainstem 
Reservoir System and (4) inclusion of a provision in the fiscal year 
2011 budget to allow reimbursement of travel expenses by tribal, State 
and non-governmental members of the Missouri River Recovery 
Implementation Committee to attend its meetings. No new funds are 
required for this action as the travel reimbursement can be paid with 
funds appropriated for the Missouri River Recovery Program, if the 
prohibition against reimbursement of travel in section 5018 WRDA 2007 
is amended by a provision in the budget bill.
    The Missouri River Association of States and Tribes (MoRAST) is an 
association of representatives of the Governors of the States of 
Wyoming, Montana, North Dakota, South Dakota, Nebraska, Iowa and Kansas 
and many of the American Indian tribes in the Missouri River Basin. 
MoRAST is interested in the proper management and protection of natural 
resources, including water resources, fish and wildlife and other 
related issues of interest to the States and tribes in the basin, 
including cultural resources. The programs and operations of the USACE 
are very important to our members, especially due to the legal 
responsibilities of the States and tribes related to water and the fish 
and wildlife resources in the basin, as well as the trust 
responsibilities of the USACE to the tribes. The following paragraphs 
provide detailed information regarding the bases for our support of the 
four items referred to above for fiscal year 2011 budget of the USACE, 
as outlined below:
    Funding for Missouri River Recovery Program.--$119 million is 
needed for compliance with the Biological Opinion (BiOP). We strongly 
support the $78.4 million in the President's budget as the minimum 
necessary for current year compliance with the BiOP. The Missouri River 
Recovery Program (MRRP) was established by the USACE as a collaborative 
program to protect, recover and restore the Missouri River ecosystem 
and its native species, including the endangered pallid sturgeon, least 
tern and piping plover. This program is authorized by sections 3109, 
3176 and 5018 of the Water Resources Development Act (WRDA) 2007. 
Support for this program is critical to ensure at least enough funding 
is available for compliance with the Biological Opinion, as amended in 
2003. Compliance with the BiOP also protects economic uses as failure 
to comply with the Biological Opinion could require changes to 
reservoir operations and negatively impact other purposes.
    The USACE, various tribal, State and Federal cooperating agencies 
and the Missouri River Recovery Implementation Committee (MRRIC) that 
includes various Stakeholders, are also in the process of developing a 
collaborative study and plan known as the Missouri River Ecosystem 
Restoration Plan (MRERP) to identify and guide long term actions 
required to restore ecosystem functions, mitigate habitat losses, and 
recover native fish and wildlife on the Missouri River, while seeking 
to balance social, economic, and cultural values for future 
generations.
    In addition to recovery and mitigation projects on the Missouri 
River Mainstem, a project to provide for fish passage through a 
diversion dam on the Yellowstone River near Intake, Montana is 
especially important to the recovery of the endangered Pallid Sturgeon, 
as it will open up a large segment of free flowing river. Work on this 
important tributary project is underway with fiscal year 2010 funding 
and is being implemented through a cooperative effort of the U.S. 
Bureau of Reclamation, USACE, U.S. Fish and Wildlife Service (USFWS) 
and the State of Montana.
    In summary, funding the Missouri River Recovery Program at a 
minimum of $78.4 million for fiscal year 2011 is essential to ensure 
compliance with the Biological Opinion on the Missouri River and to 
implement the project on the Yellowstone River near Intake, Montana, 
both of which are of critical importance to the recovery of endangered 
species and the restoration of the ecosystem.
    Funding for the Missouri River Authorized Purposes Study (MRAPS).--
We strongly support appropriation of $ 5.5 million to continue funding 
for MRAPS in fiscal year 2011. Congress appropriated $4.483 million in 
fiscal year 2010. MRAPS was authorized to study the Missouri River 
Projects under the 1944 Flood Control Act (FCA) to determine whether 
changes to the purposes and existing Federal infrastructure may be 
needed. The study was authorized for a total cost of $25 million at 
full Federal expense.
    The Missouri River Basin Project (Pick-Sloan Program) envisioned a 
comprehensive system of projects and facilities in the Missouri River 
basin constructed by both the Bureau of Reclamation and the USACE. The 
plan was only partially completed and there continue to be water needs 
and related issues in the basin, many of which are different than they 
were in 1944. This study is important for many reasons. It has been 
about 65 years since the 1944 FCA was enacted and many changes have 
occurred. The Missouri River Mainstem Reservoir System continues to be 
operated in accordance with the 1944 FCA for various authorized 
purposes including flood control, water supply, water quality, 
irrigation, hydropower, navigation, recreation and fish and wildlife. 
However, while the construction of the reservoir system and other works 
have resulted in large project benefits from some of the authorized 
purposes and much less for others, it has also created substantial 
negative impacts on the economies and resources of Indian tribes and 
others, as well as large environmental losses, such as wetlands and 
habitat for a number of native species, including three that are 
threatened or endangered.
    In summary, there have been many changes in the physical, economic 
and environmental conditions that affect the Missouri River Projects 
and the basin since 1944. The USACE needs $5.5 million for the study in 
fiscal year 2011. That amount should be provided so the study can 
objectively determine whether changes are needed to the 1944 FCA in 
order to best meet the contemporary needs of the Missouri River Basin. 
Once the study is complete, Congress can decide whether the law should 
be changed or not.
    Funding to Protect Tribal Cultural Resources.--It is requested that 
Congress specifically appropriate $10 million for fiscal year 2011 as a 
line item for the Omaha District, Northwestern Division, USACE for the 
stabilization of cultural and historic sites that continue to be 
negatively impacted by the operation of the Missouri River Mainstem 
Reservoir System. Funding for the protection of cultural and historic 
sites within the Omaha District has remained at $3 million for the past 
several years. Past funding through the USACE operation and maintenance 
budget has been woefully inadequate to address the ongoing damage to 
sites from operation of the Missouri River Mainstem Reservoir System.
    The USACE has identified over 400 historic and cultural sites 
protected by Federal law that will be potentially damaged by the 
current annual operations plan and the tribal nations in the Missouri 
River Basin have identified many more sites that could be impacted. 
However, there have only been funds to mitigate damage to a few sites 
each year. The USACE has a unique trust responsibility to the 28 
Missouri River Basin tribes arising from the government-to-government 
relationship between the tribes and the United States Government, as 
well as an obligation under section 106 of the National Historic 
Preservation Act, applicable Executive orders, and other Federal laws, 
which require the USACE to either halt any Federal undertaking that 
will damage or destroy sites protected, or to mitigate the potential 
damage.
    Funding for Travel and Participation in MRRIC and MRRP 
Activities.--We support inclusion of a provision in the fiscal year 
2011 budget bill to remove the prohibition on Federal reimbursement of 
travel expenses for non-Federal members of the Missouri River Recovery 
Implementation Committee (MRRIC) to attend its meetings. No new funds 
are required for this action as it can be funded through the Missouri 
River Recovery Program (MRRP), but this action is needed to improve the 
functionality and chances for success of MRRIC.
    Section 5018 of WRDA 2007 authorized the creation of MRRIC, but 
prohibited Federal reimbursement of travel expenses for non-Federal 
members of the committee. The same section of WRDA 2007 also authorized 
the development of a Missouri River Ecosystem Restoration Plan (MRERP), 
which is a part of the MRRP. The failure to reimburse travel expenses 
is a hardship for some MRRIC members. It also hinders participation and 
prevents balanced representation by tribal, State and non-governmental 
members on the committee. Lack of travel reimbursement also makes 
participation difficult by States and tribes difficult as cooperating 
agencies for the MRERP study, especially during these trying economic 
times and budget shortfalls for States, tribes and others.
    The USACE has a unique trust responsibility to the 28 Missouri 
River Basin tribes and their participation in both MRRIC and MRERP 
activities is vital to the success of efforts to restore the ecosystem 
of the Missouri River consistent with the social, cultural and economic 
needs in the Basin. The failure to fund travel for the tribes to attend 
these meetings will not save money and may result in delay or the need 
for more extensive government-to-government consultations if the tribes 
are not able to participate adequately during the course of efforts by 
MRRIC to make recommendations to the USACE regarding recovery programs 
and the development MRERP.
    We recognize that section 5018 could also be amended by the next 
WRDA bill to remove the prohibition on travel reimbursement for 
attendance at MRRIC meetings. However, that may take more time, while 
the need to fund travel reimbursement should begin as soon as possible 
so that all members can participate, receive the background materials, 
develop relationships and provide meaningful recommendations to the 
USACE and other agencies regarding Missouri River Recovery programs as 
may be appropriate through the MRRIC process.
    In summary, we believe each of these programs is essential to the 
success of efforts to properly manage and protect the natural resources 
of the Missouri River Basin, satisfy the USACE trust responsibilities 
to the Indian nations in the basin and operate its projects in 
accordance with applicable Federal law. We would appreciate your help 
in providing adequate funding for these important programs and 
projects. Please let David Pope, MoRAST executive director, or me know 
if you have questions.
                                 ______
                                 
 Prepared Statement of the Louisiana Department of Transportation and 
                              Development
    On behalf of LADOTD, Office of Public Works and Intermodal 
Transportation, we present recommendations for fiscal year 2011 
appropriations for U.S. Army Corps of Engineers Civil Works Projects in 
Louisiana.
    Louisiana contains the terminus of the Mississippi River, third 
largest drainage basin in the world, draining 41 percent, or 1\1/4\ 
million square miles, of the contiguous United States and parts of two 
Canadian provinces. Consequently, a comprehensive and extensive flood 
control system is required to ensure that these drainage flows are 
contained and safely passed to the gulf. Almost 3,000 miles of levees 
(1,500 in the MR&T system) constructed jointly by Federal, State and 
local entities allow Louisiana to be habitable year-round. Concentrated 
behind these levees are the vast majority of Louisiana's urban centers 
and petro-chemical complexes. Nearly 75 percent of the population lives 
and works in those same areas. Approximately 60 percent of the State's 
agricultural products are produced in these protected areas. Louisiana 
has the second largest refining capacity in the Nation, producing 15 
billion gallons of gasoline annually at 19 refineries. Louisiana ranks 
second in produced natural gas and third for oil production. The 
pipeline system which supplies much of this Nation with natural gas and 
refined petroleum products originates in Louisiana. It is important to 
note that the petrochemical, oil and gas industries in Louisiana that 
contribute significantly to the economic well being of the entire 
Nation are almost totally dependent on this Federal constructed flood 
control system to protect their facilities.
    It is equally important to note that this same river drainage 
system forms the backbone of the Federal constructed Inland Waterway 
System which provides the Nation's heartland cost effective access to 
the global marketplace via the 230 mile deepwater channel of the lower 
Mississippi River from Baton Rouge to the gulf. This strategic gateway 
to international markets is the largest port complex in the world. The 
Inland Waterway System--the whole system--allowed industrial facilities 
scattered throughout the central portion of the Nation to obtain raw 
materials and fuel from distant locations and to reach worldwide 
markets. These industries, and most of the agricultural industries in 
mid-America, are heavily dependent on the Federal maintained navigable 
waterways to remain globally competitive in transporting their 
products. Unfortunately, the administration's budget proposals in 
recent years indicate a lack of concern for the preservation and 
efficient operation of this system which is rapidly deteriorating due 
to lack of maintenance and is in desperate need of renovation and 
modernization.
    The Mississippi River and Tributaries Project (MR&T), which 
encompass both flood control and navigation features, has been underway 
since 1928 and isn't scheduled for completion until beyond 2031. We 
strongly support the Mississippi Valley Flood Control Association's 
request for the MR&T Project and urge your support of this level of 
funding.

  SUMMARY OF RECOMMENDED APPROPRIATIONS FISCAL YEAR 2011 FOR LOUISIANA
    FLOOD CONTROL, NAVIGATION, HURRICANE PROTECTION & WATER RESOURCES
                                PROJECTS
------------------------------------------------------------------------
                                                             LOUISIANA
                   LOUISIANA PROJECTS                         REQUEST
------------------------------------------------------------------------
 
             GENERAL INVESTIGATIONS STUDIES
 
Amite River-Ecosystem Restoration, LA...................        $500,000
Calcasieu Lock, LA......................................       2,000,000
Red River (JBJWW) Recon Study...........................         100,000
Southwest Coastal LA Hurricane Protection, LA...........       1,500,000
St. Charles Parish Urban Flood Control, LA..............         445,000
West Shore--Lake Pontchartrain, LA......................         500,000
Bossier Parish Levee & FC...............................         250,000
Cross Lake Water Supply.................................          50,000
Ouachita River and Tribs................................         200,000
Ouachita and Black......................................         100,000
 
                           PED
 
Bayou Sorrel Lock, LA...................................       2,239,000
Calcasieu River Basin, LA...............................         250,000
Calcasieu River & Pass Navigation, LA...................       1,000,000
Port of Iberia, LA......................................       1,000,000
 
                       NEW STUDIES
 
South Central LA Coastal Protection.....................         100,000
Port Fourchon Enlargement, LA...........................         100,000
Cameron Loop, Calcasieu Pass............................         100,000
East Fork, Calcasieu Pass...............................         100,000
University Lakes........................................         200,000
Bayou Rigaud Ext. Dredging & Breakwater Prot............         100,000
Chenier Caminada Levee Ext. & Levee Armoring Grand Isle,         100,000
 LA.....................................................
Laurel Ridge Levee Ext., Ascension Parish...............         100,000
 
                           CAP
 
Kenner Environmental Infrastructure.....................         500,000
Lafourche Parish Environmental Infrastructure...........         500,000
Plaquemines Parish Environmental Infrastructure.........         500,000
St. Bernard Environmental Infrastructure................         500,000
St. Charles Environmental Infrastructure................         500,000
St. James Environmental Infrastructure..................         500,000
St. John the Baptist Environmental Infrastructure.......         500,000
St. Tammany Environmental Infrastructure................         500,000
West Baton Rouge Environmental Infrastructure...........         500,000
 
                  CONSTRUCTION GENERAL
 
Comite River, LA........................................      25,000,000
East Baton Rouge Parish, LA.............................      25,000,000
Larose to Golden Meadow.................................       5,500,000
IHNC Lock...............................................      13,000,000
Red River Below Den Dam (AR, LA)........................      12,000,000
Ouachita River Levees...................................       2,600,000
J Bennett Johnston WW, Miss. R. to Shreveport...........      20,000,000
Calcasieu River & Pass, Dredged Material Management           12,000,000
 Program................................................
Southeast Louisiana.....................................      21,200,000
Violet Freshwater Diversion.............................       5,500,000
West Bank & Vicinity, LA................................       5,000,000
Ascension Parish Environmental Infrastructure...........       2,000,000
East Baton Rouge Environmental Infrastructure...........       2,000,000
Livingston Parish Environmental Infrastructure..........       2,000,000
 
            OPERATIONS & MAINTENANCE GENERAL
 
Atchafalaya River, Bayous Chene, Boeuf & Black..........      36,700,000
Barataria Bay Waterway..................................         135,000
Bayou Lafourche.........................................       4,300,000
Bayou Segnette..........................................          37,000
Bayou Teche.............................................       8,900,000
Bayou Teche & Vermilion.................................         650,000
Calcasieu River & Pass..................................      57,233,000
Freshwater Bayou........................................      14,875,000
Gulf Intracoastal Waterway..............................      41,000,000
Houma Navigation Canal..................................       7,100,000
Mermentau River.........................................      11,410,000
Mississippi River, Baton Rouge to the Gulf..............     170,169,000
Mississippi River Gulf Outlet at Venice.................       8,338,000
Waterway Empire to the Gulf.............................          47,000
WW. IWW to Bayou Dulac..................................          30,000
Ouachita & Black Rivers (AR, LA)........................      24,135,000
Bayou Bodcau............................................       6,922,000
Caddo Lake..............................................         347,000
Wallace Lake............................................         886,000
Bayou Pierre............................................          49,000
J Bennett Johnston Waterway.............................      23,864,000
Lake Providence Harbor..................................       1,200,000
Madison Parish Port.....................................         150,000
Inspection of Completed Works (N.O.)....................       1,161,000
Inspection of Completed Works (V).......................       1,000,000
------------------------------------------------------------------------


  SUMMARY OF RECOMMENDED APPROPRIATIONS FISCAL YEAR 2010 FOR LOUISIANA
                    MISSISSIPPI RIVER AND TRIBUTARIES
------------------------------------------------------------------------
                                                             LOUISIANA
                   LOUISIANA PROJECTS                         REQUEST
------------------------------------------------------------------------
 
             FC, MR&T GENERAL INVESTIGATIONS
 
Alexandria to the Gulf (PED)............................  ..............
Donaldsonville to the Gulf..............................      $1,200,000
Houma Navigation Canal Deepening (PED)..................         500,000
Morganza to the Gulf (PED)..............................       3,000,000
Spring Bayou Area, LA...................................          50,000
 
                  FC, MR&T CONSTRUCTION
 
Atchafalaya Basin.......................................      25,000,000
Atchafalaya Basin Floodway System.......................       2,631,000
Channel Improvement (N.O. Dist.)........................      11,861,000
Mississippi Delta Region................................  ..............
Mississippi River Levees, LA (N.O. Dist.)...............      15,338,000
Mississippi River Levees (LA) (V. Dist.)................      30,000,000
Channel Improvement (LA) (V. Dist.).....................      27,930,000
 
                  FC, MR&T MAINTENANCE
 
Atchafalaya Basin.......................................      39,900,000
Atchafalaya Basin Floodway System.......................       1,878,000
Baton Rouge Harbor (Devil's Swamp)......................          42,000
Bayou Cocodrie and Tributaries..........................          47,000
Bonnet Carre Spillway...................................       5,300,000
Channel Improvement (N.O. Dist.)........................      14,128,000
Dredging (N.O. Dist.)...................................         700,000
MS Delta Region.........................................       1,921,000
Old River...............................................      12,755,000
Mississippi River Levees (LA) (N.O. Dist.)..............       6,500,000
Mississippi River Levees (LA) (V. Dist.)................       4,400,000
Revetments & Dikes (LA) (V. Dist.)......................      21,052,000
Dredging (LA) (V. Dist.)................................       5,023,000
Boeuf & Tensas Rivers...................................       3,244,000
Red River Backwater.....................................       9,496,000
Lower Red River.........................................         498,000
Inspection of Completed Works (V).......................         681,000
Inspection of Completed Works (N.O.)....................         940,000
------------------------------------------------------------------------

                                 ______
                                 
 Prepared Statement of the Mississippi Valley Flood Control Association
    The Mississippi Valley Flood Control Association respectfully 
requests that the sum of $550 million be appropriated in fiscal year 
2011 for the Mississippi River and Tributaries Project.
    In view of the fact that there are some new members of the 
subcommittee, it seems appropriate to very briefly explain a little of 
the history of the Flood Control Association that was first organized 
in 1922 by a group of interested citizens from the States of Arkansas, 
Mississippi and Louisiana. From that first meeting, held in Memphis, 
Tennessee, a group was selected to come to Washington in an attempt to 
convince both the Congress and the executive branch that the prevention 
of catastrophic floods in the lower Mississippi River Valley was beyond 
the capabilities of the local people and was in fact too large for any 
group other than the United States Government. This group of dedicated 
citizens was without luck until the record flood of 1927 swept through 
the Mississippi River Valley with the fury of devastation not seen 
before. An unknown number of people perished along with thousands of 
heads of livestock and all manner and large numbers of wildlife. Some 7 
percent of all the productive land on this planet was under water for a 
period of almost half a year. The Congress, after extensive hearings, 
passed the Flood Control Act of May 15, 1928 that was signed into law 
by then President Calvin Coolidge.
    The Flood Control Association, acting under the erroneous 
assumption that the United States Government would provide all that was 
needed to prevent flooding in the valley, disbanded. In 1935 it became 
apparent that additional legislation was required and the association, 
under the leadership of then Senator John Overton from Louisiana, was 
re-organized and has been in continuous and active existence since. 
This is our 75th year to hold a meeting in Washington, to request funds 
for the Mississippi River and Tributaries Project.
    We have been fortunate since 1935 to have as our President and two 
Vice Presidents, Members of the United States Congress with Congressman 
Ed Whitfield from the Commonwealth of Kentucky serving as our president 
and Congressmen Mike Ross from Arkansas and Phil Hare from Illinois 
serving as our vice presidents.
    We appear before you today after having carefully considered the 
President's fiscal year 2011 budget for the Mississippi River and 
Tributaries Project. We find, as usual, that the executive department 
has sadly un-funded the Corps of Engineers civil works budget for the 
up-coming fiscal year. We also note that the Corps has stated that they 
have a capability under the Mississippi River and Tributaries Project 
to use $550 million in fiscal year 2011. We would respectfully request 
that the Congress appropriate the amount of $550 million for the 
Mississippi River and Tributaries Project.
    This Nation is still faced with a war on terror and the economic 
situation is poor to say the least. We are ever mindful of these facts 
but we feel that we are justified in requesting additional 
appropriations for the Mississippi River and Tributaries Project 
because the assets and resources of this great Nation must not be 
neglected at this time. We are unaware of any other appropriation that 
contributes as much to national wealth and resources as does flood 
control and navigation for the major rivers of this country and that is 
certainly true for the mightiest of them all, the Mississippi, the 
third largest watershed on the planet.
    Millions of acres of what were once overflow lands are now highly 
productive and contributes to our national wealth. These lands by 
reason of their geographic location are the most fertile of the Nation 
and ample water is available so that they can produce an abundance of 
food and fiber for the general welfare and prosperity of the country. 
This is only possible because of the coordinated work performed by the 
triad of the United States Corps of Engineers, the United States 
Congress and the local people. The appropriations made by the Congress 
for the Mississippi River and Tributaries Project are investments in 
this Nation's future.
    We are aware of the ever increasing demand on the Federal dollars 
and the many complex problems that the Congress is confronted with, but 
we believe that this project is economically sound, environmentally 
necessary, and we urge its completion with all deliberate haste. Our 
request of $550 million is required to meet this goal.
    The ultimate goal to be accomplished with the passage of the act of 
1928 was that the lower valley would never again be destroyed by a 
flood such as that of the fateful year of 1927. By law, the Mississippi 
River and Tributaries Project provides protection against the 
``greatest possible flood'' even though not yet completed. For over 80 
years the project has worked to perfection with not one acre flooded 
that was designed not to be flooded. The project has also insured the 
permanency of location for harbor facilities and industrial sites and 
to obtain a more reliable navigation channel. With the help of the 
Congress we have made great strides in the Mississippi River Valley but 
the job is not yet completed. All the people of the valley will not 
feel or be safe until the job is completed.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present The Nature Conservancy's recommendations for 
fiscal year 2011 appropriations for the U.S. Army Corps of Engineers 
(Corps) and Bureau of Reclamation.
    Our recommendations represent a priority set of efforts that are 
both individually important and collectively designed to demonstrate 
innovations in restoration to help guide future resource allocation. If 
done well, ecosystem restoration projects pay dividends through 
services such as provision of more reliable and higher quality water, 
natural flood attenuation, sustaining commercial fisheries, and 
supporting economically-important outdoor recreation. Moreover, the 
Nation's resiliency to climate change will be substantially dictated by 
the health of our ecosystems. We believe the public investments we are 
requesting now will pay dividends for decades to come.
                     corps construction priorities
    Continuing Authorities Program.--We thank the subcommittee for 
continuing its strong support of the section 1135: Project 
Modifications for Improvement of the Environment and section 206: 
Aquatic Ecosystem Restoration programs. However, demand for these 
programs continues to outstrip funding. The Nature Conservancy (the 
Conservancy) requests that the programs be fully funded by 
appropriating $40 million for section 1135 and $50 million for section 
206.
    The Conservancy seeks funding for two projects under the Continuing 
Authorities Program in fiscal year 2011: Spunky Bottoms (sec. 1135), 
and Emiquon East (sec. 206). Both are model projects to restore 
floodplain wetlands by reconnecting them to the Illinois River. Each 
project needs funding to complete its respective feasibility study, 
develop a project partnership agreement, and begin designs for the next 
phase. The Conservancy is the non-Federal cost share partner for both 
projects, and we request $500,000 for the Spunky Bottoms project and 
$185,000 for the Emiquon East project. Additional funds will be 
necessary for the planning, specification, construction and monitoring 
phases.
    We continue to be concerned about the subcommittee's guidance for 
these programs. The prioritization requirements and ``no new starts'' 
rule included in the fiscal year 2009 report and renewed in fiscal year 
2010 block the implementation of important conservation priorities that 
enjoy strong support from their local communities. We urge the 
subcommittee to adopt a more flexible approach. Appropriating the 
requested amounts will help address the backlog in these programs.
    Upper Mississippi River Navigation and Ecosystem Sustainability 
Program.--The Navigation and Ecosystem Sustainability Program (NESP) is 
a dual purpose authority for integrated management of the Upper 
Mississippi River (UMR) system's habitat and navigation facilities. All 
activities implemented under the existing Environmental Management 
Program (EMP) can be transitioned into NESP, but it is critical to fund 
both programs until the transition is complete. In recognition of the 
current budgetary constraints, we request a NESP fiscal year 2011 new 
start of $15 million. The Conservancy also supports $25 million for EMP 
in fiscal year 2011.
    Illinois River Basin Restoration Program.--This Federal-State 
partnership sustains the health of the entire Illinois River Basin 
through projects that restore habitats, species, and the natural 
processes that sustain them. It complements other Federal programs such 
as EMP and NESP, but is unique in its basin-wide approach to 
restoration. The Conservancy supports $7.9 million in Construction 
funding and $1 million in Investigation funding for this program in 
fiscal year 2011.
    Aquatic Nuisance Species Dispersal Barrier.--The Conservancy 
supports funding for the construction and maintenance of the Dispersal 
Barriers on the Chicago Sanitary and Ship Canal (CSSC) at no less than 
$12,650,000 in fiscal year 2011. Additionally, we request at least $1 
million in fiscal year 2011 to conduct an expedited feasibility study 
of the comprehensive set of permanent solutions to prevent the movement 
of all invasive species though the CSSC. We note that the Corps has the 
capacity to effectively expend up to $23,650,000 on construction and 
$2,500,000 on the separation study, and we encourage the subcommittee 
to consider this greater investment to address this urgent problem.
    Missouri River Fish and Wildlife Recovery Program (MRRP).--Under 
this program, the Corps has completed 30 projects in the lower Missouri 
Basin States to assist in the recovery of three listed species, 
restoring more than 40,000 acres of habitat. New authority allows 
expenditures in the upper basin States as well. Construction of fish 
passage and screens at Intake Dam is a priority for the recovery of the 
endangered pallid sturgeon and other warm-water fish. The Conservancy 
supports $119 million for the MRRP in fiscal year 2011, including $20 
million to continue progress on the design and construction of fish 
passage and screens at Intake Dam.
    Cartersville Diversion Dam Fish Passage.--This project would 
construct a fish passage at Cartersville Dam, allowing fish, including 
the Federal listed endangered pallid sturgeon, to reach the upstream 
portions of the Yellowstone River. This project, along with its 
companion project at Intake Dam, would open an additional 296 miles of 
habitat, which is critically needed for successful recovery of the 
sturgeon population. The Conservancy supports $300,000 for this project 
in fiscal year 2011.
    South Florida Ecosystem Restoration Program.--Corps flood control 
projects, coupled with agricultural and urban development, have 
degraded the Everglades, one of the most diverse and ecologically rich 
wetlands ecosystems in the world. WRDA 2007 authorized construction of 
the first projects under the Comprehensive Everglades Restoration Plan 
(CERP), and we support funding for the Indian River Lagoon South, 
Picayune Strand, and the Site 1 Impoundment. We place priority on 
funding the Kissimmee River Restoration Project, which is almost 75 
percent complete and already a success story. The Conservancy requests 
$246 million for the South Florida Ecosystem Restoration program in 
fiscal year 2011.
    Hamilton City Flood Damage Reduction and Ecosystem Restoration.--
This project will increase flood protection for Hamilton City, CA and 
surrounding agricultural lands and restore approximately 1,500 acres of 
riparian habitat. The PED phase for this project was completed in 2009, 
the non-Federal sponsor is in place and the project received 
construction authorization in WRDA 2007. The Conservancy supports $15 
million in fiscal year 2011 to complete the first phase of 
construction.
    Chesapeake Bay Oyster Recovery.--Native oyster populations in the 
Chesapeake Bay have been decimated from historical levels by a century 
of overfishing, disease and pollution. This project will help move 
oyster populations toward sustainable levels. The requested 
appropriation will create more than 60 acres of oyster habitat. The 
Conservancy supports $6 million in fiscal year 2011.
                       sustainable rivers project
    The Sustainable Rivers Project (SRP) is an initiative launched by 
the Corps in partnership with the Conservancy that recognizes the 
urgent need to update decades-old water management practices to meet 
society's needs today and in the coming decades. Currently working in 
eight demonstration river basins, the SRP is developing and 
demonstrating innovative approaches to reservoir operations that 
restore critical ecosystems and valuable ecosystem services, while 
continuing to provide for (and often improving) water supply and flood 
risk management. The Conservancy supports funding for several 
initiatives that will support the SRP:
    Global Change Sustainability.--Evolving and accumulating challenges 
to water management, such as expanding water and energy demands, 
shifting economic and land use patterns and environmental degradation, 
require innovation in our water management practices. This project will 
allow the Corps to advance a variety of new practices through several 
initiatives, including the SRP, working with other Federal agencies to 
develop a national strategy for climate change adaptation, updating 
drought contingency plans, and others. The Conservancy supports $10 
million in fiscal year 2011 for this program.
    National Portfolio Assessment for Reallocations.--Launched in 
fiscal year 2008, this assessment is a national effort to learn from 
past water management techniques and improve upon them. A national 
database will incorporate data from water supply surveys, climate 
studies, drought contingency plans, and other sources, helping the 
Corps assess its past practices and make project- and basin-scale 
predictions for the future. The SRP will be part of this effort, 
developing new methods that can be used at Corps dams nationwide. The 
Conservancy supports $1 million in fiscal year 2011 for this program.
    Willamette River Floodplain Restoration Study.--The Corps and the 
Conservancy are working together to identify ecological flow 
requirements downstream of Corps dams, and to incorporate those flows 
into dam operations. The ultimate goal of this study is to enable 
system-wide changes in dam operation and floodplain management that 
improve fish and wildlife habitat and community flood protection. The 
Conservancy supports $153,000 in fiscal year 2011 to continue this 
study.
    Connecticut River Watershed Study.--This project will restore 410 
miles of river flow and thousands of acres of natural habitat in the 
Connecticut River Basin. The basin is a priority landscape for the 
Conservancy due to its high quality tributary systems, unique natural 
communities and multitude of ESA-listed species. The study identifies 
dam management modifications for environmental benefits while 
maintaining beneficial human uses. We support $750,000 in fiscal year 
2011 for this project.
    White River Basin-wide Comprehensive Study.--The ecology of the 
White River Basin is impacted by Federal impoundments, water 
withdrawals for agriculture, power generation, and modifications for 
navigation. This project will help determine the condition of the basin 
and its future ecological and human needs. The Conservancy supports 
$1,500,000 in fiscal year 2011 for this study.
    Big Cypress Basin Watershed Study.--This study, part of a project 
to restore the natural river flow of Big Cypress Bayou to enhance 
aquatic ecosystem health and the globally significant Caddo Lake 
wetlands, would allow the Corps to evaluate the potential ecosystem 
restoration benefits and impacts of flow recommendations developed with 
the Conservancy. It would also develop sediment and nutrient load 
guidelines and consider modifying the Caddo Lake weir to allow 
manipulation of lake levels for bald cypress regeneration and aquatic 
plant control. We support $175,000 in fiscal year 2011 for this study.
                  other corps investigation priorities
    Puget Sound Nearshore Ecosystem Restoration Project.--The recovery 
of Puget Sound is a top priority for Washington State and the Corps' 
Puget Sound Nearshore Ecosystem Restoration Project (PSNERP) comprises 
one of the most important pieces of the Governor's recovery plan. The 
Conservancy requests $1.5 million in fiscal year 2011 (in the 
Investigations account) to advance this critical project. The 
Conservancy also requests $7 million (in the Construction account) in 
fiscal year 2011 for the Puget Sound and Adjacent Waters Program--a 
program that provides funding for early action projects to restore 
Puget Sound.
    Long Island Sound Oyster Restoration.--This project will develop a 
comprehensive Master Plan for the restoration of oysters and other 
shellfish in Long Island Sound, supporting both ecological and economic 
well-being by providing a sustainable oyster fishery and creating 
habitat for other coastal and marine species. The Conservancy supports 
$250,000 in fiscal year 2011 for this important effort.
    Lower Mississippi River Resource Assessment.--Flood control and 
drainage systems have accelerated erosion and habitat loss along the 
954-mile Lower Mississippi River and its tributaries. Working with the 
U.S. Department of Interior, the Corps will evaluate the state of river 
management, habitat and public access along the Lower Mississippi and 
recommend action to address current and future needs. The Conservancy 
supports $200,000 in fiscal year 2011 for this project.
    West Pearl River Navigation Study.--The aquatic communities of the 
Pearl, West Pearl and Bogue Chitto Rivers are severely disrupted by old 
and disused navigation structures. This study will allow the Corps to 
consider removing them or repurposing the structures to accommodate 
environmental and recreational needs. The Conservancy supports $100,000 
in fiscal year 2011 for the Reconnaissance study.
    Thames River Basin Watershed Study.--The Thames River Basin 
ecosystem depends on naturally variable water flow, good water quality 
and suitable habitat. This study will determine which research and 
measures are necessary to improve the management of water control 
structures in the basin. We support $100,000 in fiscal year 2011 to 
complete the reconnaissance phase.
    Middle Potomac River Watershed Comprehensive Study.--This study 
will develop a comprehensive, multi-jurisdictional sustainable 
management plan for the Middle Potomac watershed, balancing the 
ecological functions and services provided by the river with the human 
demands upon it. To help complete the watershed assessment, we support 
$68,000 in fiscal year 2011.
    Yellowstone River Corridor Comprehensive Study.--Funding this 
ongoing study of economics, fisheries, and wetlands studies will help 
ensure that the longest free-flowing river in the lower 48 States 
maintains its natural functions while supporting irrigation and other 
economic uses of its waters. The Conservancy supports $750,000 for 
fiscal year 2011.
    Susquehanna River Basin Low Flow Management and Environmental 
Restoration.--Drought conditions, combined with current and projected 
demands for water use, have the potential to impact natural ecosystems 
in the Susquehanna River basin and the upper Chesapeake Bay. This 
basin-wide study will investigate low flow conditions and establish 
goals and standards for low flow management. The Conservancy supports 
$400,000 in fiscal year 2011 for this project.
                             corps expenses
    Mid-Atlantic River Basin Commissions.--The Delaware, Potomac, and 
Susquehanna River Basin Commissions are essential to advancing and 
coordinating the water management and conservation interests of the 
Federal Government, the affected States, and the Conservancy. Funding 
was restored in fiscal year 2009, but it was not continued in fiscal 
year 2010. The Conservancy requests that the Federal Government 
continue support of the Commissions' work by appropriating $2,365,000 
in fiscal year 2011.
                         bureau of reclamation
    Upper Colorado River Endangered Fish Recovery and San Juan River 
Basin Recovery Programs.--These programs take a balanced approach to 
restore four endangered fish species in the Colorado River system while 
allowing water use to continue in the arid West. A full appropriation 
will fund work on remaining major capital projects. The Conservancy 
supports $8,354,000 in fiscal year 2011 for these Programs.
    Platte River Recovery Implementation Program.--An agreement between 
the Governors of Wyoming, Nebraska and Colorado and the Secretary of 
Interior sets forth a plan to restore habitat for five endangered or 
threatened species in the Platte River basin. The Conservancy supports 
$12,707,000 for this recovery effort in fiscal year 2011.
    Basin Studies and WaterSMART.--Basin Studies are a component of the 
new WaterSMART program that helps the Bureau of Reclamation address the 
threat of climate change across our Nation's western waters. The Basin 
Study being conducted on the Colorado River will assess and work to 
resolve water supply and demand issues that may be exacerbated by 
climate change, while considering impacts on the basin's ecological 
resiliency. The WaterSMART program can complement that study by 
delivering grants to local stakeholders developing mechanisms to 
improve both water supply imbalances and environmental flows. The 
Conservancy supports a $62 million appropriation to the Bureau of 
Reclamation for the WaterSMART program in fiscal year 2011, including 
$6 million for its Basin Studies.
    Thank you for the opportunity to present our comments on the Energy 
and Water Appropriations bill.
                                 ______
                                 
     Prepared Statement of the Ventura Port District of California
    Mr. Chairman: Thank you for the opportunity to present testimony on 
behalf of the Ventura Port District of California. My name is Richard 
W. Parsons. I am the Dredging Program Manager of the Port. The 
President's fiscal year 2011 request within the operations, maintenance 
and dredging component of the civil works budget for the U.S. Army 
Corps of Engineers is $2,840,000 for the annual dredging of Ventura 
Harbor. Informal communications with the Corps indicate that $4,300,000 
will be required to meet dredging needs of the port between October 1, 
2010 and September 30, 2011. This higher amount is consistent with the 
dredging requirements of the past several years. Accordingly, it is 
respectfully requested that the Congress appropriate an additional 
$1,460,000 beyond the President's request to meet anticipated Corps of 
Engineer requirements. It is worthy of note that employment associated 
with the commercial fishing industry in the Port of Ventura area is 
directly related to the dredging activities of the Corps. An estimated 
71 million pounds of seafood were unloaded at the facilities associated 
with the Port of Ventura which provides significant employment in the 
area. Thank you very much for your favorable consideration of this 
request.
                                 ______
                                 
      Prepared Statement of the City of Santa Barbara, California
          operations and maintenance dredging--funding request
    As your distinguished subcommittee writes the fiscal year 2011 
Energy and Water Resources Appropriations bill, I would like to bring a 
very important Corps of Engineers' project to your attention. The city 
of Santa Barbara requests $3,700,000 from the Army Corps of Engineers' 
(ACOE) Operation and Maintenance (O&M) Account in fiscal year 2011 
Energy and Water Development Appropriations bill for essential annual 
maintenance dredging of Santa Barbara Harbor's Federal Navigational 
Channel.
                         project justification
    In 1970 Congress authorized (Public Law 91-611, sec. 114) full 
funding for ACOE maintenance dredging for the Harbor's Federal Channel 
to reduce storm damage, shoaling and navigational hazards. Today more 
than ever, the Harbor continues to serve and support our National 
interests. The Harbor is home port for the 87 foot U.S. Coast Guard 
Cutter Blackfin and NOAA R/V Shearwater serving Channel Islands 
National Marine Sanctuary (CINMS). Blackfin's harbor location is 
crucial to its mission of patrolling waters all the way to Morro Bay 
(100 miles north) and is critical to ocean safety and rescue, together 
with emerging Homeland Security Defense System (USCG) requirements 
along the California coastline. Santa Barbara Harbor also provides a 
staging area, facilities and resources required for oil spill 
prevention and response, and is a designated harbor of safe refuge.
    Santa Barbara Harbor was constructed in the late 1920's providing 
the closest harbor of refuge to the notoriously dangerous waters off 
Pt. Conception. Various improvements over the years have created an 
all-weather harbor with 1,133 slips for vessels ranging from 20 feet to 
150 feet in length serving hundreds of thousands of people annually. 
The Harbor serves as a key economic engine for the city. In addition, 
the Harbor both directly and indirectly creates several thousand jobs, 
which are vital to the local economy, commercial fishing, businesses 
and maritime industry.
    Santa Barbara Harbor impedes the transport of sand downcoast 
resulting in shoaling of the Federal Channel and potential coastal 
erosion at several nearby coastal communities. The Corps of Engineers 
conducted comprehensive studies of the harbor in the 1950's and 
determined that annual dredging of the harbor was necessary to maintain 
navigability and nourish downcoast beaches preventing erosion. It is 
essential to dredge approximately 250,000 cubic meters (c.m.) of sand 
from the Federal Channel every year to maintain access for the 
commercial fishing fleet (annual catch is valued at $25 million), U.S. 
Coast Guard Cutter Blackfin, NOAA R/V Shearwater serving Channel 
Islands National Marine Sanctuary as well as thousands of recreational 
vessels.
    Annual dredging costs of the Federal Channel have recently been as 
low as $1,650,000 for minimal critical maintenance dredging and can 
cost over $3 million depending on winter storms and sand accumulation. 
Army Corps of Engineers (Corps) contracts with a private dredge company 
to undertake annual dredging between October and March of the fiscal 
year.
    A recap of the last several years demonstrates the continuing trend 
of reduced dredge funding, which could impact Harbor operations and 
eventually accumulated sand could close the channel during winter 
storms.
    Fiscal Year 2008: Conference.--$1,940,000
    Fiscal Year 2009: Omnibus Bill.--$1,940,000
    Fiscal Year 2010: Conference Report.--$1,606,000
                            funding request
    The President's fiscal year 2011 budget recommendation includes 
$2,040,000 for operations and maintenance dredging for Santa Barbara 
Harbor. I respectfully request that the U.S. Senate, through your 
subcommittee, support that level of funding contained in the 
President's budget submittal for dredging of the Harbor. In addition, 
the city of Santa Barbara is requesting that the subcommittee recommend 
an additional, $1.7 million for maintenance dredging for fiscal year 
2011 (Total $3.7 million).
    Dredging costs per cubic yards removed, have increased dramatically 
in recent years. Due to these escalating costs, the Corp of Engineers 
has increased the project costs to $3.7 million for maintaining the 
Federal Channel in Santa Barbara Harbor.
    We respectfully request your support for this requirement to 
maintain the Federal Channel and thank you for the opportunity to 
submit this statement.
                                 ______
                                 

                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

   Prepared Statement of the Perkins County Rural Water System, Inc.
    Perkins County Rural Water System, Inc. respectfully submits this 
written testimony to the Appropriations Subcommittee on Energy and 
Water Development for appropriations of $3.142 million for fiscal year 
2011. This project was authorized under Public Law 106-136.
    Perkins County Rural Water System, Inc. (PCRWS) gained the approval 
of the Office of Management and Budget and the Bureau of Reclamation to 
proceed with construction in 2004. With funding for 2010, we have been 
appropriated to date $16.9 million. In 2009 and 2010, we received $2.65 
million and $1.0 million respectively. Three million dollars is 
basically the lowest amount that we could receive and still do enough 
construction to move our project forward. Cost share for the System is 
75 percent Federal, 25 percent State and local funds. The State of 
South Dakota has legislated to loan PCRWS the local share for 40 years 
at 3 percent interest to keep costs down to the consumer. We have used 
all of our State of South Dakota funds. With local and State funds to 
date, we would now be able to cost share up to $36.4 million. Total 
project funds are projected at $32.0 million to finish with $24 million 
of that amount to be Federal funds.

            BREAKDOWN FOR THE PROJECT FOR 2011 IS AS FOLLOWS
------------------------------------------------------------------------
 
------------------------------------------------------------------------
2010 BUDGET:
    INCOME:
        BUREAU OF RECLAMATION...........................      $3,142,000
        STATE OF SOUTH DAKOTA...........................  ..............
        LOCAL FUNDS.....................................          25,000
                                                         ---------------
          TOTAL.........................................       3,167,000
 
    EXPENSE:
        NORTH DAKOTA STATE WATER COMMISSION.............         886,760
        FINISH CONSTRUCTION ON DISTRIBUTION.............       2,280,240
                                                         ---------------
          TOTAL.........................................      $3,167,000
------------------------------------------------------------------------

    PCRWS would need $3.167 million for the next year to complete the 
project by 2011. This consists of 250 miles of various pipe sizes 
ranging from 1.5 inch to 8 inch, booster stations, and a pump station 
capable of moving 800 gallons of water per minute, two or more storage 
tanks and telemetry to operate the whole system from one localized 
location.
    The chart below shows the amount of Federal funds in comparison to 
State and local funds. The amount of State and local funds has exceeded 
the cost share for both. Therefore, all funds except for approximately 
$25,000 per year will have to be Federal funds.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The quality of water in northwest South Dakota is the main concern 
for the health and well being of the people. Although the water 
typically meets primary standards established by the USEPA, most of the 
dissolved solids are exceedingly high by the State of South Dakota 
standards. Water quality and quantity in Perkins County, South Dakota 
has been a plague for the county over many years.
    Droughts, such as the one Perkins County is in now, are a fact of 
life for the people in this area. With surface water gone and wells 
being depleted, farmers and ranchers are desperately trying to hold 
onto their livestock herds. Rains will raise grass and small crops, but 
water for drinking is a constant problem for all.
    On behalf of the Board of Directors of PCRWS and the people of 
Perkins County, South Dakota, thank you for allowing us to enter this 
testimony in the subcommittees report.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum

          BUREAU OF RECLAMATION--FISCAL YEAR 2011 APPROPRIATION
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Colorado River Basin Salinity Control Forum's
 Recommendation:
    Title II Program (Basinwide Program) Authorized in       $17,500,000
     1995 (Public Law 104-20)...........................
    Colorado River Water Quality Improvement Program....         ( \1\ )
    Paradox Valley Unit and Grand Valley Unit...........         ( \1\ )
------------------------------------------------------------------------
\1\ Administration request.

    This testimony is in support of funding for the title II Colorado 
River Basin Salinity Control Program. The Congress has designated the 
Department of the Interior, Bureau of Reclamation (Reclamation), to be 
the lead agency for salinity control in the Colorado River Basin. This 
role and the authorized program were refined and confirmed by the 
Congress when Public Law 104-20 was enacted. A total of $17,500,000 is 
requested for fiscal year 2011 to implement the needed and authorized 
program. Failure to appropriate these funds will result in significant 
economic damage in the United States and Mexico.
    In recent years, the President's requests have dropped to below $10 
million. The Colorado River Basin Salinity Control Forum (Forum) finds 
this unacceptable. Reclamation has requests for funding of many very 
cost-effective proposals through its Basinwide Program that far exceed 
this funding level. In the judgment of the Forum, this amount is 
inappropriately low. Water quality commitments to downstream United 
States and Mexican water users must be honored while the Basin States 
continue to develop their Colorado River Compact-apportioned waters. 
Concentrations of salts in the river cause about $353 million in 
quantified damage in the United States with significantly greater 
unquantified damages. Damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    The Forum, therefore, believes implementation of the program needs 
to be accelerated to a level beyond that requested by the President in 
the past.
    The program authorized by the Congress in 1995 has proven to be 
very successful and very cost effective. Proposals from the public and 
private sector to implement salinity control strategies have far 
exceeded the available funding and Reclamation has a backlog of 
proposals. Reclamation continues to select the best and most cost-
effective proposals. Funds are available for the Colorado River Basin 
States' cost sharing for the level of Federal funding requested by the 
Forum. Water quality improvements accomplished under title II of the 
Colorado River Basin Salinity Control Act also benefit the quality of 
water delivered to Mexico. Although the United States has always met 
the commitments of the International Boundary & Water Commission's 
(Commission) Minute No. 242 to Mexico with respect to water quality, 
the United States Section of the Commission is currently addressing 
Mexico's request for better water quality at the International 
Boundary.
    Some of the most cost-effective salinity control opportunities 
occur when Reclamation can improve irrigation delivery systems at the 
same time that the U.S. Department of Agriculture's (USDA) program is 
working with landowners (irrigators) to improve the on-farm irrigation 
systems. Through the USDA Environmental Quality Incentives Program, 
adequate on-farm funds appear to be available and adequate Reclamation 
funds are needed to maximize the effectiveness of the effort. These 
salinity control efforts have secondary water conservation benefits at 
the point of use and downstream at other points of use.
                                overview
    In 2000, the Congress reviewed the program as authorized in 1995. 
Following hearings, and with administration support, the Congress 
passed legislation that increased the ceiling authorized for this 
program by $100 million. Reclamation has received cost-effective 
proposals to move the program ahead and the Basin States have funds 
available to cost-share up-front.
    The Colorado River Basin Salinity Control Program was originally 
authorized by the Congress in 1974. The title I portion of the Colorado 
River Basin Salinity Control Act responded to commitments that the 
United States made, through Minute No. 242, to Mexico concerning the 
quality of water being delivered to Mexico below Imperial Dam. Title II 
of the Act established a program to respond to salinity control needs 
of Colorado River water users in the United States and to comply with 
the mandates of the then newly legislated Clean Water Act. Initially, 
the Secretary of the Interior and Reclamation were given the lead 
Federal role by the Congress. This testimony is in support of adequate 
funding for the title II program.
    After a decade of investigative and implementation efforts, the 
Basin States concluded that the Salinity Control Act needed to be 
amended. The Congress revised the act in 1984. That revision, while 
leaving implementation of the salinity control policy with the 
Secretary of the Interior, also gave new salinity control 
responsibilities to the USDA and to the Bureau of Land Management 
(BLM). The Congress has charged the administration with implementing 
the most cost-effective program practicable (measured in dollars per 
ton of salt removed). The Basin States are strongly supportive of that 
concept as the Basin States cost share is 30 percent of Federal 
expenditures up-front for the salinity control program, in addition to 
proceeding to implement salinity control activities for which they are 
responsible in the Colorado River Basin.
    The Forum is composed of gubernatorial appointees from Arizona, 
California, Colorado, Nevada, New Mexico, Utah and Wyoming. The Forum 
has become the seven-State coordinating body for interfacing with 
Federal agencies and the Congress to support the implementation of the 
program necessary to control the salinity of the river system. In close 
cooperation with the Environmental Protection Agency (EPA) and pursuant 
to requirements of the Clean Water Act, every 3 years the Forum 
prepares a formal report analyzing the salinity of the Colorado River, 
anticipated future salinity, and the program elements necessary to keep 
the salinities at or below the concentrations in the river system in 
1972 at Imperial Dam, and below Parker and Hoover Dams.
    In setting water quality standards for the Colorado River system, 
the salinity concentrations at these three locations have been 
identified as the numeric criteria. The plan necessary for controlling 
salinity and reducing downstream damages has been captioned the ``Plan 
of Implementation.'' The 2008 Review of water quality standards 
includes an updated Plan of Implementation. The level of appropriation 
requested in this testimony is in keeping with the agreed upon plan. If 
adequate funds are not appropriated, significant damages from the 
higher salt concentrations in the water will be more widespread in the 
United States and Mexico.
                             justification
    The $17.5 million requested by the Forum on behalf of the seven 
Colorado River Basin States is the level of funding necessary to 
proceed with Reclamation's portion of the Plan of Implementation. In 
July 1995, the Congress amended the Colorado River Basin Salinity 
Control Act. The amended act gives Reclamation new latitude and 
flexibility in seeking the most cost-effective salinity control 
opportunities, and it provides for utilization of proposals from 
project proponents, as well as more involvement from the private as 
well as the public sector. The result is that salt loading is being 
prevented at costs often less than one-half the cost under the previous 
program. The Congress recommitted its support for the revised program 
when it enacted Public Law 106-459. The Basin States' cost sharing up-
front adds 43 cents for every Federal dollar appropriated. The 
federally chartered Colorado River Basin Salinity Control Advisory 
Council, created by the Congress in the Salinity Control Act, has met 
and formally supports the requested level of funding. The Basin States 
urge the Energy and Water Development Subcommittee to support the 
funding as set forth in this testimony.
                     additional support of funding
    In addition to the funding identified above for the implementation 
of the most recently authorized program, the Forum urges the Congress 
to appropriate funds requested by the administration to continue to 
maintain and operate salinity control facilities as they are completed 
and placed into long-term operation. Reclamation has completed the 
Paradox Valley unit which involves the collection of brines in the 
Paradox Valley of Colorado and the injection of those brines into a 
deep aquifer through an injection well. The continued operation of this 
project and the Grand Valley Unit will be funded primarily through the 
Facility Operations activity.
    The Forum also supports funding to allow for continued general 
investigation of the Salinity Control Program as requested by the 
administration for the Colorado River Water Quality Improvement 
Program. It is important that Reclamation have planning staff in place, 
properly funded, so that the progress of the program can be analyzed, 
coordination between various Federal and State agencies can be 
accomplished, and future projects and opportunities to control salinity 
can be properly planned to maintain the water quality standards for 
salinity so that the Basin States can continue to develop their 
Colorado River Compact-apportioned waters.
                                 ______
                                 
     Prepared Statement of the Colorada River Commission of Nevada
    Dear Chairman Dorgan: As a Nevada representative of the Colorado 
River Basin Salinity Control Forum, the Colorado River Commission of 
Nevada (CRCN) submits this written testimony in support of $17.5 
million for funding the fiscal year 2011 budget for the Bureau of 
Reclamation's Colorado River Basin Salinity Control Program. The CRCN 
urges the Congress to appropriate funds requested by the administration 
to continue to maintain and operate salinity control facilities as they 
are completed and placed into long-term operations. Reclamation has 
completed the Paradox Valley Unit which involves the collection of 
brines in the Paradox Valley of Colorado and the injection of those 
brines into a deep aquifer through an injection well. The continued 
operation of this project and the Grand Valley Unit will be funded 
primarily through the Facility Operations activity. The CRCN also 
supports funding to allow for continued general investigation of the 
Salinity Control Program as requested by the administration for the 
Colorado River Water Quality Improvement Program.
    Salinity remains one of the major problems in the Colorado River. 
Congress has recognized the need to confront this problem with its 
passage of Public Law 93-320 and Public Law 98-569. Your support of the 
Forum's current funding recommendations in support of the Colorado 
River Basin Salinity Control Program is essential to move the program 
forward so that the congressionally directed salinity objectives 
embodied in Public Law 93-320 and Public Law 98-569 are achieved.
                                 ______
                                 
     Prepared Statement of the Grand Valley Water Users Association
    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
    Prepared Statement of the Tri-County Water Conservancy District
    Dear Chairman Dorgan and Senator Bennett: The Tri-County Water 
Conservancy District Board respectfully requests your support for an 
appropriation in the President's recommended budget for fiscal year 
2011 of $8,354,000 to the Bureau of Reclamation within the budget line 
item entitled ``Endangered Species Recovery Implementation Program'' 
for the Upper Colorado Region. The funding designation we seek is as 
follows: $7,154,000 for construction activities for the Upper Colorado 
River Endangered Fish Recovery Program; $800,000 for construction 
activities for the San Juan River Basin Recovery Implementation 
Program; and $400,000 for Fish and Wildlife Management and Development 
activities to avoid jeopardy. This funding is authorized by Public Law 
106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    We appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
          Prepared Statement of the Wyoming Water Association
    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
  Prepared Statement of The Nature Conservancy and Western Resources 
                               Advocates
    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    We appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
               Prepared Statement of PNM Resources, Inc.
    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
       Prepares Statement of the Orchard Mesa Irrigation District
    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
               Prepared Statement of the State of Wyoming
    Dear Chairman Dorgan and Senator Bennett: I am Requesting your 
support for the appropriation of $8,354,000 to the Bureau of 
Reclamation included in the Presidents fiscal year 2011 recommended 
budget in the Upper Colorado Region budget line-item entitled 
``Endangered Species Recovery Implementation Program.'' This budget 
line-item designates $800,000 for construction and construction 
management activities for the San Juan River Basin Recovery 
Implementation Program; $7,154,000 for construction and construction 
management activities for the Upper Colorado River Endangered Fish 
Recovery Program; and $400,000 for Fish and Wildlife Management and 
Development activities to avoid jeopardy.
    The Upper Colorado and San Juan recovery programs are highly 
successful collaborative conservation partnerships working to recover 
the four species of endemic Colorado River fish on the Federal 
endangered species list; while at the same time water use and 
development has been able to continue in our growing western 
communities. These programs are unique efforts involving the States of 
New Mexico, Colorado, Utah and Wyoming, Indian tribes, Federal agencies 
and water, power and environmental interests. They are achieving 
Endangered Species Act (ESA) compliance for water projects and fully 
complying with interstate river compacts and the participating States' 
water law.
    Since 1988, the two programs, collectively, have provided ESA 
section 7 compliance (without litigation) for over 1,850 Federal, 
tribal, State and privately managed water projects depleting more than 
3.7 million acre-feet of water per year. The Department of the Interior 
recognized these programs with its nation-wide Cooperative Conservation 
Award in April 2008 as outstanding collaborative partnerships 
accomplishing substantial on-the-ground conservation results. 
Substantial non-Federal cost-sharing funding exceeding 50 percent is 
embodied in both programs.
    As we do each year in support of these two region-wide cooperative 
recovery programs, the State of Wyoming again requests the 
subcommittee's assistance: it is absolutely essential that fiscal year 
2011 funding be provided within the Bureau of Reclamation's budget 
appropriation to assure that agency's continued financial participation 
as directed by Public Law 106-392, as amended.
    The State of Wyoming thanks you for the past support and assistance 
of your subcommittee; it has greatly facilitated the ongoing and 
continued success of these multi-state, multi-agency programs.
                                 ______
                                 
              Prepared Statement of the State of Colorado
    Dear Chairman Dorgan and Senator Bennett: I am Requesting your 
support for the appropriation of $8,354,000 to the Bureau of 
Reclamation included in the Presidents fiscal year 2011 recommended 
budget in the Upper Colorado Region budget line-item entitled 
``Endangered Species Recovery Implementation Program.'' This budget 
line-item designates the following: $800,000 for construction and 
construction management activities for the San Juan River Basin 
Recovery Implementation Program; $7,154,000 for construction and 
construction management activities for the Upper Colorado River 
Endangered Fish Recovery Program; and $400,000 for Fish and Wildlife 
Management and Development activities to avoid jeopardy.
    The Upper Colorado and San Juan recovery programs are highly 
successful collaborative conservation partnerships working to recover 
the four species of endemic Colorado River fish on the Federal 
endangered species list; while at the same time water use and 
development has been able to continue in our growing western 
communities. These programs involve New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, multiple Federal agencies and water, power and 
environmental interests in providing Endangered Species Act (ESA) 
compliance for water projects in the region. They also fully complying 
with interstate river compacts and the participating States' water law.
    Since 1988, the two programs have collectively provided ESA section 
7 compliance (without litigation) for over 1,850 Federal, tribal, State 
and privately managed water projects. The Department of the Interior 
recognized these programs as outstanding collaborative partnerships 
with its nation-wide Cooperative Conservation Award in April 2008 
accomplishing substantial on-the-ground conservation results. 
Substantial non-Federal cost-sharing funding, exceeding 50 percent, is 
embodied in both programs.
    As I have done in the past, I am writing to support these two 
region-wide cooperative recovery programs. On behalf of the State of 
Colorado, I request the subcommittee's assistance. It is essential that 
fiscal year 2011 funding be provided within the Bureau of Reclamation's 
budget appropriation to assure that agency's continued financial 
participation, as directed by Public Law 106-392.
    On behalf of the State of Colorado, I thank you for the continued 
support and assistance of your subcommittee; it has greatly facilitated 
the ongoing and continued success of these multi-state and multi-agency 
programs.
                                 ______
                                 
             Prepared Statement of the State of New Mexico
    Dear Chairman Dorgan and Senator Bennett: I am Requesting your 
support for the appropriation of $8,354,000 to the Bureau of 
Reclamation included in the Presidents fiscal year 2011 recommended 
budget in the Upper Colorado Region budget line-item entitled 
``Endangered Species Recovery Implementation Program.'' This budget 
line-item designates $800,000 for construction and construction 
management activities for the San Juan River Basin Recovery 
Implementation Program; $7,154,000 for construction and construction 
management activities for the Upper Colorado River Endangered Fish 
Recovery Program; and $400,000 for Fish and Wildlife Management and 
Development activities to avoid jeopardy.
    The Upper Colorado and San Juan recovery programs are highly 
successful collaborative conservation partnerships working to recover 
the four species of endemic Colorado River fish on the Federal 
endangered species list. These programs are unique efforts involving 
the States of New Mexico, Colorado, Utah and Wyoming, Indian tribes, 
Federal agencies and water, power and environmental interests. The 
programs provide Endangered Species Act (ESA) compliance for historic 
and developing water projects throughout the Upper Colorado River and 
San Juan River basins, and respect State water laws and interstate 
compacts. The requested fiscal year 2011 appropriation for the San Juan 
River recovery program includes funding to construct a fish screen to 
prevent entrainment of endangered fish by diversions for historic 
Navajo tribal water uses in New Mexico.
    Since 1988, the two programs, collectively, have provided ESA 
section 7 compliance (without litigation) for over 1,850 Federal, 
tribal, State and privately managed water projects depleting more than 
3.7 million acre-feet of water per year. The Department of the Interior 
recognized these programs with its nation-wide Cooperative Conservation 
Award in April 2008 as outstanding collaborative partnerships 
accomplishing substantial on-the-ground conservation results. 
Substantial non-Federal cost-sharing funding exceeding 50 percent is 
embodied in both programs.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-state, multi-agency programs. 
The State of New Mexico gratefully thanks you for that support. We 
again request the subcommittee's assistance for fiscal year 2011 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these two region-wide cooperative recovery programs as 
authorized and directed by Public Law 106-392, as amended.
                                 ______
                                 
          Prepared Statement of the San Juan Water Commission
    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Pulic Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
   Prepared Statement of the Central Utah Water Conservancy District
    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
           Prepared Statement of the Colorado Water Congress
    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
          Prepared Statement of the Southern Ute Indian Tribe
    Dear Chairman Dorgan and Senator Bennett: On behalf of the Southern 
Ute Indian Tribe, I am requesting your support for an appropriation in 
the President's recommended budget for fiscal year 2011 of $8,354,000 
to the Bureau of Reclamation (``Reclamation'') within the budget line 
item entitled ``Endangered Species Recovery Implementation Program'' 
for the Upper Colorado Region. The funding designation the tribe seeks 
on behalf of Reclamation is as follows: $7,154,000 for construction 
activities for the Upper Colorado River Endangered Fish Recovery 
Program; $800,000 for construction activities for the San Juan River 
Basin Recovery Implementation Program; and $400,000 for Fish and 
Wildlife Management and Development activities to avoid jeopardy. This 
funding is authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, the Southern Ute Indian Tribe, the Ute Mountain Ute Indian 
Tribe, the Navajo Nation, and the Jicarilla Apache Nation, Federal 
agencies and water, power and environmental interests. The programs' 
objectives are to recover endangered fish species while water use and 
development proceeds in compliance with the Endangered Species Act.
    The tribe appreciates the subcommittee's past support and requests 
the subcommittee's assistance for fiscal year 2011 funding to ensure 
Reclamation's continuing financial participation in these vitally 
important programs.
                                 ______
                                 
                   Prepared Statement of Denver Water
    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
     Prepared Statement of the Colorado River Energy Distributors 
                          Association (CREDA)
    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    CREDA is a non-profit organization representing the majority of the 
firm electric service customers of the Colorado River Storage Project. 
CREDA has participated in these programs since inception, and power 
revenues have been a key funding source of the programs. These ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests are intended to recover endangered fish species 
while water use and development proceeds in compliance with the 
Endangered Species Act.
    We appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
           Prepared Statement of The Jicarilla Apache Nation
    Dear Chairman Dorgan and Senator Bennett: On behalf of the 
Jicarilla Apache Nation, I am requesting your support for an 
appropriation in the President's recommended budget for fiscal year 
2011 of $8,354,000 to the Bureau of Reclamation within the budget line 
item entitled ``Endangered Species Recovery Implementation Program'' 
for the Upper Colorado Region. The funding designation is as follows: 
$7,154,000 for construction activities for the Upper Colorado River 
Endangered Fish Recovery Program; $800,000 for construction activities 
for the San Juan River Basin Recovery Implementation Program; and 
$400,000 for Fish and Wildlife Management and Development activities to 
avoid jeopardy. This funding is authorized by Public Law 106-392, as 
amended.
    The Nation has been a voluntary participant in the highly 
successful and widely supported program to recover endangered fish 
species in the San Juan River basin since 1992 and fully supports the 
same effort underway in the Upper Colorado River. More than 1,800 
Federal, tribal and non-Federal water projects are involved in the 
recovery efforts, these actions have resulted in compliance with the 
Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
   Prepared Statement of The Southwestern Water Conservation District
    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
  Prepared Statement of the Uncompahgre Valley Water Users Association
    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
 Prepared Statement of the Northern Colorado Water Conservancy District
    Dear Chairman Dorgan and Senator Bennett: On behalf of the Board of 
Directors of the Northern Colorado Water Conservancy District (Northern 
Water), I am requesting your support for an appropriation in the 
President's recommended budget for fiscal year 2011 of $8,354,000 to 
the U.S. Bureau of Reclamation within the budget line item entitled 
``Endangered Species Recovery Implementation Program'' for the Upper 
Colorado Region. The funding designation we seek is as follows: 
$7,154,000 for construction activities for the Upper Colorado River 
Endangered Fish Recovery Program; $800,000 for construction activities 
for the San Juan River Basin Recovery Implementation Program; and 
$400,000 for Fish and Wildlife Management and Development activities to 
avoid jeopardy. This funding is authorized by Public Law 106-392, as 
amended.
    These highly successful, cooperative programs are ongoing 
partnerships among: the States of New Mexico, Colorado, Utah and 
Wyoming; Indian tribes; Federal agencies; and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water usage and development continue in 
compliance with the Endangered Species Act.
    Northern Water appreciates the subcommittee's past support and 
requests the subcommittee's assistance for fiscal year 2011 funding to 
ensure the U.S. Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 
                   Prepared Statement of Aurora Water
    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California
    This testimony is in support of fiscal year 2011 funding for the 
Department of the Interior for the title II Colorado River Basin 
Salinity Control Program (Public Law 93-320). By statute, Congress 
designated the Department of the Interior, Bureau of Reclamation 
(Reclamation) to be the lead agency for salinity control in the 
Colorado River Basin. This successful and cost effective program is 
carried out pursuant to the Colorado River Basin Salinity Control Act 
and the Clean Water Act (Public Law 92-500). California's Colorado 
River water users are presently suffering economic damages in the 
hundreds of million of dollars per year due to the River's salinity.
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River system. 
In this capacity, California and the other six basin States through the 
Colorado River Basin Salinity Control Forum (Forum), the interstate 
organization responsible for coordinating the basin States' salinity 
control efforts, established numeric criteria in June 1975 for salinity 
concentrations in the River. These criteria were established to lessen 
the future damages in the Lower Basin States, as well as, assist the 
United States in delivering water of adequate quality to Mexico in 
accordance with Minute 242 of the International Boundary and Water 
Commission.
    To date, Reclamation has been successful in implementing projects 
for preventing salt from entering the River system; however, many more 
potential projects for salt reduction have been identified that could 
be implemented through Reclamation's Basin-wide Salinity Control 
Program. In the past, the Forum has presented testimony to Congress in 
which it has stated that the rate of implementation of the program 
beyond that which has been funded in the past is essential. This is 
still the case, and California urges the Congress to fully fund 
Reclamation's continuing implementation of this critical program.
    In 2000, Congress reviewed the salinity control program as 
authorized in 1995. Following hearings, and with the administration's 
support, the Congress passed legislation (Public Law 106-459) that 
increased the ceiling authorization for this program from $75 million 
to $175 million. Reclamation has received proposals to move the program 
ahead and the seven basin States have agreed to up-front cost sharing 
on an annual basis, which adds 43 cents for every Federal dollar 
appropriated.
    In recent years, the Bureau of Reclamation's Basin-wide Salinity 
Control Program funding has dropped to below $10 million. In the 
judgment of the Forum, this amount is inappropriately low. Water 
quality commitments to downstream U.S. and Mexican water users must be 
honored while the basin States continue to develop their Compact 
apportioned waters from the Colorado River. Concentrations of salts in 
the River cause about $376 million in quantified damage in the United 
States. However significant un-quantified damages also, occur. For 
example, damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling and reuse of the 
        water due to groundwater quality deterioration; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    For every 30 milligram per liter increase in salinity 
concentrations, there are $75 million in additional damages in the 
United States. The Forum, therefore, believes implementation of the 
program needs to be accelerated to a level beyond that which has been 
requested by the administration for the past recent years.
    Some of the most cost-effective salinity control opportunities 
occur when Reclamation can improve irrigation delivery systems in a 
coordinated fashion with the activities of the U.S. Department of 
Agriculture's (USDA) program through working with landowners 
(irrigators) to improve on-farm irrigation systems. With the USDA's 
Environmental Quality Incentive Program, more on-farm funds are 
available and adequate funds for Reclamation are needed to maximize 
Reclamation's effectiveness in addressing water delivery system 
improvements. The Advisory Council, at its meeting in October 2009, in 
Phoenix, Arizona, recommended a funding level of $17,500,000 for 
Reclamation's Basin-wide Salinity Control Program to continue 
implementation of needed projects.
    In addition, the Colorado River Board recognizes that the Federal 
Government has made significant commitments to the Republic of Mexico 
and to the seven Colorado River Basin States with regard to the 
delivery of quality water to Mexico. In order for those commitments to 
be honored, it is essential that in fiscal year 2011, and in future 
fiscal years, that Congress provide funds to the Bureau of Reclamation 
for the continued operation of completed projects.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the 18 million residents of southern California, 
including municipal, industrial, and agricultural water users in 
Ventura, Los Angeles, San Bernardino, Orange, Riverside, San Diego, and 
Imperial counties. Preservation and improvement of Colorado River water 
quality through an effective salinity control program will avoid the 
additional economic damages to users in California and the other States 
that rely on the Colorado River.
                                 ______
                                 
     Prepared Statement of the Irrigation and Electrical Districts 
                         Association of Arizona
    The Irrigation and Electrical Districts Association of Arizona 
(IEDA) is pleased to present written testimony regarding the fiscal 
year 2011 proposed budgets for the Bureau of Reclamation (Reclamation) 
and the Western Area Power Administration (Western).
    IEDA is an Arizona nonprofit association whose 26 members and 
associate members receive water from the Colorado River directly or 
through the facilities of the Central Arizona Project (CAP) and 
purchase hydropower from Federal facilities on the Colorado River 
either directly from Western or, in the case of the Boulder Canyon 
Project, from the Arizona Power Authority, the State agency that 
markets Arizona's share of power from Hoover Dam. IEDA was founded in 
1962 and continues to represent water and power interests of Arizona 
political subdivisions and other public power providers and their 
consumers.
                         bureau of reclamation
    IEDA has reviewed the Reclamation budget and found, not 
unexpectedly, that it does not address the enormous backlog of needs of 
the agency's aging infrastructure. We are aware, for example, that the 
Imperial Dam Electrification Project needs $5 million, money that will 
be repaid to the Treasury with interest. However, we do support 
important projects and programs that are included in the proposed 
budget. We are especially mindful that the Yuma Desalting Plant is 
undergoing a pilot project, which is an essential element of the 
problem solving mechanisms being put in place for the Colorado River 
and especially the Lower Colorado River. Problem solving on the Lower 
Colorado River will be substantially improved by using the plant as a 
management element.
    We also wish to call to the subcommittee's attention the issue 
concerning increased security costs at Reclamation facilities post-9/
11. Legislation has passed Congress addressing that issue and a budget 
approved for Reclamation for fiscal year 2011 should reflect that this 
legislation became law and affects Reclamation operations. We believe 
security costs under that legislation should be reduced because of a 
declining Consumer Price Index.
                   western area power administration
    IEDA has reviewed the testimony submitted by Western's 
administrator, Tim Meeks. We note that both this subcommittee and the 
Senate Energy and Natural Resources Committee Water and Power 
Subcommittee have a concern over the limited appropriation for 
construction funding proposed for fiscal year 2011. We believe this 
shortfall is irresponsible. Western has over 15,000 miles of 
transmission line for which it is responsible. It has on the order of 
14,000 megawatts of generation being considered for construction that 
would depend on that Federal network. The existing transmission 
facilities cannot handle all of these proposals. Moreover, the region 
is projected, by all utilities operating in the region, to be short of 
available generation in the 10-year planning window that utilities and 
Western use.
    The appropriation proposed in this category cannot come even close 
to keeping existing transmission construction going. Repairs and 
replacements will have to be postponed and considerable hardships to 
local utilities that depend on the Federal network are bound to occur. 
In Western's Desert Southwest Region, our region, work necessary just 
to maintain system reliability will have to be postponed.
    We would be the first to support additional customer financing of 
Federal facilities and expenses through the Contributed Funds Act 
authority under Reclamation law that is available to Western. However, 
programs utilizing non-Federal capital formation require years to 
develop. One such program proposed by the Arizona Power Authority in a 
partnership with Western died because it was enmeshed in bureaucratic 
red tape at the Department of Energy. There is no way that Western 
customers can develop contracts, have them reviewed, gain approval of 
these contracts from Western and their own governing bodies, find 
financing on Wall Street and have monies available for the next fiscal 
year. It is just impossible, especially in this economy.
    There are impediments to using existing Federal laws to facilitate 
non-Federal financing for construction of Federal electric transmission 
facilities and Congress should eliminate them. In the meantime, 
artificially designating customer funding for construction, in lieu of 
real solutions, is bad public policy and should not be countenanced. We 
urge the subcommittee to restore a reasonable amount of additional 
construction funding to Western so it can continue to do its job in 
keeping its transmission systems functioning and completing the tasks 
that it has in the pipeline that are critical to its customers 
throughout the West.
                               conclusion
    Thank you for the opportunity to submit this written testimony. If 
we can provide any additional information or be of any other service to 
the subcommittee, please do not hesitate to get in touch with us.
                                 ______
                                 
                       Prepared Statement of APS
    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
      Prepared Statement of the Dolores Water Conservancy District
    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
            Prepared Statement of Colorado Springs Utilities
    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
Prepared Statement of the Oglala Sioux Rural Water Supply System, West 
 River/Lyman Jones Rural Water System, Rosebud Rural Water System, and 
                   the Lower Brule Rural Water System
                        fiscal year 2011 request
    The Mni Wiconi Project beneficiaries respectfully request $37.222 
million in appropriations for construction and $11.093 million for 
operation and maintenance (OMR) activities for fiscal year 2011, a 
total request of $48.315 million:

                     FISCAL YEAR 2011 TOTAL REQUEST
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Construction............................................     $37,222,000
OMR.....................................................      11,093,000
                                                         ---------------
      Total.............................................      48,315,000
------------------------------------------------------------------------

    The construction request includes $1.0 million for Bureau of 
Reclamation oversight, and the OMR request includes $1.447 million for 
Bureau of Reclamation oversight.
                           construction funds
    Construction funds would be utilized as follows:

------------------------------------------------------------------------
                                                           Construction
                      Project Area                        Request Fiscal
                                                             Year 2011
------------------------------------------------------------------------
Oglala Sioux Rural Water Supply System:
    Core................................................         ( \1\ )
    Distribution........................................     $22,069,000
Wesr River/Lyman-Jones RWS..............................       3,719,000
Rosebud RWS.............................................      11,434,000
                                                         ---------------
      Total.............................................      37,222,000
------------------------------------------------------------------------
Complete.

    As shown in the table below, the project will be 88 percent 
complete at the end of fiscal year 2010. Construction funds remaining 
to be spent after fiscal year 2010 will total $54.518 million within 
the current authorization (in October 2009 dollars). Additional 
administrative and overhead costs of extending the project, additional 
construction costs, and inflation at 3.7 percent over the next 3 years 
are expected to increase remaining project costs to $111.667 million 
after fiscal year 2010.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Total Federal Construction Funding (Oct 2009 dollars)...    $460,014,364
Estinated Federal Spent Through Fiscal Year 2010........    $405,496,000
Percent Spent Through Fiscal Year 2010..................           88.15
Amount Remaining after 2010:
    Total Authorized (Oct 2009 dollars).................     $54,518,364
    Adjusted for Extension to Fiscal Year 2013 and Other    $103,958,000
     Cost...............................................
    Adjusted for Annual Inflation.......................    $111,667,000
Completion Fiscal Year (Statutory Fiscal Year 2013;                 2013
 Public Law 111-161)....................................
Year to Complete........................................               3
Average Annual Required for Finish in Fiscal Year 2013..     $37,222,000
------------------------------------------------------------------------

    Cost indexing over the last 5 years has averaged 3.66 percent for 
pipelines, primarily due to a 7.7 percent reduction last year during 
recession. Pipelines are the principal components yet to be completed 
(see chart below). Assuming average 3.66 percent inflation in 
construction costs over the remaining 3 years, average funding of 
$37.222 million is required.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This is an increase in the annual rate of appropriations needed to 
complete the project since last year's estimate of $31.4 million. 
Appropriations were limited to $22 million last year, which increases 
the average annual rate of funding needed to complete in 2013 on the 
statutory schedule.
    The request will create an estimated 298 full-time equivalent (FTE) 
construction jobs and 89 OMR jobs in an area of the Nation with the 
lowest per capita income and deepest poverty.
            oglala sioux rural water supply system (osrwss)
Core System
    The Oglala Sioux Tribe has completed the core system. The 
completion of the OSRWSS core system was an historic milestone and 
permits greater focus in remaining years of the Project on completion 
of the distribution systems.
Distribution System
    The Pine Ridge Indian Reservation will receive significantly more 
water from the OSRWSS core system in fiscal year 2010. This is another 
historic year, but considerable work remains to distribute the water 
supply throughout the reservation. Over 40 percent of the project's 
population resides on the Pine Ridge Indian Reservation, and only 52 
percent of the distribution system is complete. The reservation public 
received its first Missouri River supply in small amounts in 2009 after 
waiting 15 years for construction of core facilities to the 
reservation.
    Project funds in fiscal year 2011 will continue building the on-
reservation transmission system between the community of Wounded Knee 
and Pine Ridge Village. The latter community is the largest on the 
reservation and the point of greatest demand. Funding will also be used 
for transmission and service line development east of Pine Ridge 
Village toward Wakpamni, Batesland and Allen and south toward the 
Nebraska State line where groundwater is the most feasible water source 
for the future. This area has been deferred in the past due to funding 
constraints.
    Delivery of Missouri River water to Kyle in fiscal year 2010, 
delayed due to funding, will allow distribution to completed OSRWSS 
pipelines that serve the communities of Kyle, Sharps Corner, Rocky 
Ford, Red Shirt, Manderson, Evergreen and Porcupine and the large 
number of rural homes between the communities along these pipelines. 
Fiscal year 2011 funds will be used to extend service south of Wanblee 
to Hisle.
    As set forth above, activity on the Pine Ridge Indian Reservation 
in fiscal year 2011 continues to focus on constructing the transmission 
system that serves as the ``backbone'' of the project on the 
reservation from the White River in the northeast corner of the 
reservation to Pine Ridge Village. The tribe will continue focus on the 
disinfection requirements to blend Missouri River water and high 
quality groundwater without creating harmful contaminants. State-of-
the-art designs are being implemented for water quality control and 
SCADA systems, and the project will serve as a model for other projects 
requiring these facilities.
    The Oglala Sioux Tribe is supportive of the funding request of 
other sponsors.
               west river/lyman-jones rural water system
    West River/Lyman-Jones RWS projects for fiscal year 2011 include 
standby generation facilities, conversion of community water systems, 
storage reservoirs, SCADA, and cold storage additions.
    The Upper Midwest and specifically the Mni Wiconi Project area 
regularly experience power outages as the result of winter weather 
conditions. Regulatory authorities in South Dakota have recommended 
standby generation as the result of statewide power outages experienced 
during the winters of 2005-2006 and 2009-2010. The Bureau of 
Reclamation has concurred in the addition of standby generation to the 
Mni Wiconi plan of work. WR/LJ has outlined a 3 year standby generation 
project schedule.
    The WR/LJ project includes four areas in which area ranchers are 
served by a common well of limited capacity and unacceptable water 
quality. The construction of WR/LJ facilities to serve them as 
individual members of WR/LJ will provide the pipeline capacity and 
water quality meeting Mni Wiconi project design standards.
    Water storage needs include an elevated tower in the Reliance 
service area, a ground storage reservoir in Mellette County and 
supplemental storage in the Elbon service area.
    System Control and Data Acquisition (SCADA) capability provides 
accurate and efficient transmission of data and allows remote control 
of pumping and storage facilities. The WR/LJ SCADA system will be 
completed using the requested funding.
    Storage facilities at the Murdo and Philip operations centers will 
complete the building components of the WR/LJ project.
    Previous Federal appropriations to the Mni Wiconi Project have made 
possible the delivery of much needed quality water to members of the 
West River/Lyman-Jones RWS and to the livestock industry in the project 
area. This would not have been possible with State and Federal 
assistance.
           rosebud sioux rural water system--fiscal year 2011
    In fiscal year 2011 work on the Rosebud Sioux Rural Water System 
(RSRWS or Sicangu Mni Wiconi) focuses on supplying high quality water 
to southern Todd County. It was hoped that this area of the Rosebud 
Reservation would not need to be connected to the Mni Wiconi Project 
because of the presence of the Ogallala aquifer. The estimated demands 
for the area were however included in system planning and it now 
appears this foresight was beneficial because portions of the aquifer 
have high nitrates and other areas are not as high yielding as 
originally thought.
    Because of quality and quantity limitations of the aquifer, high 
quality surface water from the OSRWSS will be conveyed by a 
transmission pipeline to a new elevated storage reservoir at Sicangu 
Village. The elevated reservoir is being constructed in fiscal year 
2010 with ARRA funds. Sicangu Village is an expanding housing area and 
the local wells cannot meet the demands associated with expansion. The 
transmission line and elevated reservoir will provide a reliable supply 
of high quality water to the development corridor centered on Highway 
83 between Mission and Sicangu Village.
    The other major projects will extend service to two schools in 
southern Todd County. The wells that supply water to the schools have 
high nitrates. The Mni Wiconi Project will ensure that future 
generations on the Rosebud Reservation, both Indians and non-Indians 
alike, will be supplied with water that meets safe drinking water 
standards.
    While supply to meet the demands in southern Todd County was 
included as a contingency in the tribe's Needs Assessment and the Mni 
Wiconi Final Engineering Report, costs of infrastructure were not. In 
order to supply these schools, other areas may not be served unless an 
amendment authorizing an increase in the project ceiling and extending 
the sunset date is enacted.
    The ongoing effort to connect rural homes to transmission and 
distribution lines will also continue in 2011. This work is undertaken 
through the tribe's force account program that not only provides a 
reliable source of high quality water to rural homes but also provides 
employment to numerous tribal members and helps circulate dollars on 
the reservation thereby stimulating the local economy.
                                  omr
    The Sponsors will continue to work with Reclamation to ensure that 
their budgets are adequate to properly operate, maintain and replace 
(OMR) respective portions of the core and distribution systems. The 
Sponsors will also continue to manage OMR expenses to ensure that the 
limited funds can best be balanced between Construction and OMR.
    The project is treating and delivering more water each year from 
the OSRWSS Water Treatment Plant near Fort Pierre as construction 
advances in the Rosebud, WRLJ and Oglala service areas. Completion of 
significant core and distribution pipelines has resulted in more 
deliveries to more communities and rural users. The need for sufficient 
funds to properly operate and maintain the functioning system 
throughout the project has grown as the project has now reached 88 
percent completion. The OMR budget must be adequate to keep pace with 
the system that is placed in operation.
    The Lower Brule Rural Water System (LBRWS) is essentially complete 
with all major components such as the water treatment plant, booster 
stations and tanks/reservoirs in full operation. As a result, LBRWS's 
operation and maintenance portion of the budget has reached a baseline 
amount to which only slight adjustments along with inflation should be 
made each year. The portion of the LBRWS OM&R budget that is somewhat 
variable is the Replacement Additions and Extraordinary (RAX) 
maintenance items. LBRWS will continue to work with the Bureau of 
Reclamation and the other sponsors to prioritize their needs and ensure 
that their system is operating to the standards that have been 
established over the past several years. With that in mind, the LBRWS 
request for OMR for fiscal year 2011 is $1,550,000.
    The Mni Wiconi Project tribal beneficiaries (as listed below) 
respectfully request appropriations for OMR in fiscal year 2011 in the 
amount of $11.093 million.

                          FISCAL YEAR 2011 OMR
------------------------------------------------------------------------
                      Project Area                            Request
------------------------------------------------------------------------
Oglala Sioux Rural Water Supply System:
    Core................................................      $2,719,000
    Distribution........................................       3,100,000
Lower Brule.............................................       1,550,000
Rosebud RWS.............................................       2,277,000
Reclamation.............................................       1,447,000
                                                         ---------------
      Total.............................................      11,093,000
------------------------------------------------------------------------

                          trust responsibility
    Public Law 100-516, the Mni Wiconi Project Act, provides that ``. . 
. United States has a trust responsibility to ensure that adequate and 
safe water supplies are available to meet the economic, environmental, 
water supply, and public health needs of the . . .  Indian 
reservation[s] . . .''
    The field staff and the Regional Office of the Bureau of 
Reclamation have been extremely helpful in advancing this project, but 
there is growing concern that Reclamation mid-managers are making 
unilateral decisions that harm the trust relationship. We are also 
concerned with the manner of budgeting. The following are specific 
instances:
  --Reclamation has re-distributed funds allocated to the Oglala Sioux 
        Tribe to West River/Lyman Jones without the urging of West 
        River Lyman Jones to further Reclamation performance 
        objectives. While OSRWSS has consistently carried funds over 
        from one fiscal year to another, there has never been an 
        instance or a threat of an instance of not spending funding 
        appropriated in the same year and the year that follows. The 
        Oglala Sioux Tribe strongly feels that this hampers the ability 
        of the OSRWSS to complete the OSRWSS distribution system 
        prescribed by the statutory completion date.
  --To our complete satisfaction on construction, Reclamation has 
        yielded to the leadership of the Indian and non-Indian sponsors 
        to permit their collaborative development of annual funding 
        allocations and budgets. On the other hand, Reclamation has 
        imposed its structure and budget specifics in lieu of Indian 
        leadership on the formulation of annual OMR allocations and 
        budgets;
  --Reclamation has prioritized total budgeted funds with a separation 
        between Construction and OMR accounts based on its trust 
        responsibility for OMR, which constrains the budgeted funds 
        available to complete construction. OMR budgeting has been held 
        relatively constant with higher percentages of construction 
        completion, and construction budgeting has decreased. The fixed 
        level of OMR funding has constrained the activities needed on 
        the Indian distribution systems. The construction budget is 
        diminishing at a time when acceleration of construction is 
        needed to deliver the benefits of the project to the Indian 
        people. At a minimum, the construction budget should be a 
        priority and should be held at a level needed to complete the 
        project on the statutory schedule in 2013 while providing an 
        adequate OMR budget. The trust responsibility for ensuring 
        adequate and safe water supplies for the reservations involved 
        necessarily includes both the construction and OMR activities;
  --Mid-level managers often view the project as a Reclamation project, 
        rather than as an Indian project as provided by Public Law 100-
        516, and their vision is affected.
                                 ______
                                 
  Prepared Statement of the Colorado River Water Conservation District
    Dear Chairman Dorgan and Senator Bennett: I am requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species in compliance with the Endangered Species Act, 
while maintaining water use and development.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
       Prepared Statement of the San Diego County Water Authority
    Dear Chairman Dorgan: Your support is needed to secure adequate 
fiscal year 2011 funding for the U.S. Bureau of Reclamation's 
participation in the Federal/State Colorado River Basin Salinity 
Control Program. Reclamation is the lead agency for this successful and 
cost-effective program, which mitigates problems caused by excess 
salinity in the Colorado River.
    The Colorado River is the primary source of drinking and irrigation 
water for more than 3 million people in San Diego County. Excess 
salinity causes economic damages in the San Diego region worth millions 
of dollars annually. It also hinders local water agency efforts to 
stretch limited supplies by recycling and reusing water. The local 
impacts of excess salinity include:
  --Reduced crop yields for farmers, who produce more than $1 billion 
        of agricultural products in the San Diego region;
  --Reduced useful life of commercial and residential water pipe 
        systems, water heaters, faucets, garbage disposals, clothes 
        washers, and dishwashers;
  --Increased household use of expensive bottled water and water 
        softeners;
  --Increased water treatment facility costs;
  --Difficulty meeting Federal and California wastewater discharge 
        requirements; and
  --Fewer opportunities for water recycling due to excess salt in the 
        product water, which limits usefulness for commercial and 
        agricultural irrigation.
    Reclamation has been successful in implementing projects that 
prevent salt from entering the river system. Additional projects for 
salt reduction have been identified that could further improve river 
water quality. Some of the most cost-effective salinity control 
opportunities occur when Reclamation can improve irrigation delivery 
systems at the same time that the U.S. Department of Agriculture's 
(USDA) program is working with landowners (irrigators) to improve the 
on-farm irrigation systems. Adequate funding is needed to maximize 
Reclamation's effectiveness.
    The Colorado River Basin Salinity Control Forum, the interstate 
organization responsible for coordinating the seven Colorado River 
Basin States' salinity control efforts, in October 2009 recommended a 
funding level of $17,500,000 for Reclamation's Basin-wide salinity 
control program for fiscal year 2011. This funding would allow 
Reclamation to continue its coordinated efforts to reduce salinity in 
the Colorado River. The Water Authority agrees with the Forum's 
recommendation, and urges your support for these needed funds. The 
seven Colorado River Basin States are sharing costs for salinity 
control, contributing 43 cents for every appropriated Federal dollar.
    The Water Authority appreciates your support of the Colorado River 
Basin Salinity Control Program and asks for your assistance in securing 
adequate funding for fiscal year 2011.
                                 ______
                                 
   Prepared Statement of the Metropolitan Water District of Southern 
                               California
    Dear Senator Dorgan: The Metropolitan Water District of Southern 
California (Metropolitan) has adopted a position supporting funding for 
the Bureau of Reclamation's Colorado River Basin Salinity Control Title 
II Program.
    For 70 years Metropolitan has provided imported water to the 
Southern California region from the Colorado River and the State Water 
Project originating in Northern California. Our mission is to provide 
high quality, reliable drinking water supplies primarily for municipal 
and industrial use. Metropolitan is the Nation's largest provider of 
imported water to an urban area. The population today in our service 
area is 19 million and it is projected to rise to 25 million within the 
next 25 years. Metropolitan is comprised of 26 member public agencies 
that serve an area spanning 5,200 square miles and 6 southern 
California counties.
    Water imported via the Colorado River Aqueduct (CRA) has the 
highest salinity of Metropolitan's imported sources of supply, 
averaging around 630 milligrams per liter since 1976 and causing 
economic damages. For example, damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the cost of water treatment and sewer fees in the 
        industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration;
  --Increased use of imported water for leaching; and
  --Increased cost of desalination and brine disposal for recycled 
        water.
    Concern over salinity levels in the Colorado River has existed for 
many years. To deal with the concern, the International Boundary and 
Water Commission approved Minute No. 242, Permanent and Definitive 
Solution to the International Problem of the Salinity of the Colorado 
River in 1973, and the President approved the Colorado River Basin 
Salinity Control Act in 1974. High total dissolved solids in the 
Colorado River as it entered Mexico and the concerns of the seven 
Colorado River Basin States regarding the quality of Colorado River 
water in the United States drove these initial actions. To foster 
interstate cooperation on this issue and coordinate the Colorado River 
Basin States' efforts on salinity control, the seven basin States 
formed the Colorado River Basin Salinity Control Forum (Forum).
    The salts in the Colorado River system are indigenous and 
pervasive, mostly resulting from saline sediments in the basin that 
were deposited in prehistoric marine environments. They are easily 
eroded, dissolved, and transported into the river system.
    The Colorado River Basin Salinity Control Program reduces salinity 
by preventing salts from dissolving and mixing with the River's flow. 
Irrigation improvements (sprinklers, gated pipe, lined ditches) and 
vegetation management reduce the amount of salt transported to the 
Colorado River. Point sources such as saline springs are also 
controlled. The Federal Government, basin States, and contract 
participants spend close to $50 million annually on salinity control 
programs.
    The Program, as set forth in the act, benefits both the Upper 
Colorado River Basin water users through more efficient water 
management and the Lower Basin water users, hundreds of miles 
downstream from salt sources in the Upper Basin, through reduced 
salinity concentration of Colorado River water. California's Colorado 
River water users are presently suffering economic damages in the 
hundreds of millions of dollars per year due to the river's salinity.
    By some estimates, concentrations of salts in the Colorado River 
cause approximately $350 million in quantified damages in the lower 
Colorado River Basin States each year and significantly more in 
unquantified damages. Salinity control projects have reduced salinity 
concentrations of Colorado River water on average by over 100 
milligrams per liter with an economic benefit of $264 million per year 
(2005 dollars) in avoided damages.
    In recent years, the Bureau of Reclamation Basin-wide Salinity 
Control Program funding has dropped to below $10 million. In the 
judgment of the Forum, this amount is inappropriately low. Water 
quality commitments to downstream U.S. and Mexican water users must be 
honored while the Upper Basin States continue to develop their Compact 
apportioned waters from the Colorado River.
    Metropolitan urges this subcommittee to support funding for the 
Colorado River Basin Salinity Control Program for fiscal year 2011 of 
$17.5 million for the Department of the Interior--Bureau of 
Reclamation's Basin-wide Salinity Control Program for the Colorado 
River Basin Salinity Control Program.
    Over the past years, the Colorado River Basin Salinity Control 
program has proven to be a very cost effective approach to help 
mitigate the impacts of increased salinity in the Colorado River. 
Continued Federal funding of this important basin-wide program is 
essential.
    I would appreciate it if you make this statement a part of the 
formal hearing record concerning fiscal year 2011 appropriations for 
the Bureau of Reclamation. I thank you for your subcommittee's support 
of this program in years past and hope that you will again support 
funding to continue this valuable program.
                                 ______
                                 
Prepared Statement of the New Mexico State Engineer and Secretary, New 
                  Mexico Interstate Stream Commission
                                summary
    This statement is submitted in support of fiscal year 2011 
appropriations for the Colorado River Basin Salinity Control Program of 
the Department of the Interior's Bureau of Reclamation (Reclamation). 
Congress designated Reclamation to be the lead agency for salinity 
control in the Colorado River Basin by the Colorado River Basin 
Salinity Control Act of 1974, and reconfirmed Reclamation's role by 
passage of Public Law 104-20. A total of $17.5 million is requested for 
fiscal year 2011 to implement the authorized salinity control program 
of the Bureau of Reclamation. Recent years have followed a trend of 
inadequate funding for the needs of the program. An appropriation of 
$17.5 million for Reclamation's salinity control program is necessary 
to restore the program to the level needed to protect water quality 
standards for salinity and to prevent unnecessary levels of economic 
damage from increased salinity in water delivered to the Lower Basin 
States of the Colorado River. In addition, funding for operation and 
maintenance of existing projects and sufficient general investigation 
funding is required to identify new salinity control opportunities.
                               statement
    The water quality standards for salinity of the Colorado River must 
be protected while the basin States continue to develop their compact 
apportioned waters of the river. The salinity standards for the 
Colorado River have been adopted by the seven basin States and approved 
by the Environmental Protection Agency. While currently the standards 
have not been exceeded, salinity control projects must be brought on-
line in a timely and cost-effective manner to prevent future effects 
that could result in unnecessary damages from higher levels of salinity 
in the water delivered to the Lower Basin States of the Colorado River.
    The Colorado River Basin Salinity Control Act was authorized by 
Congress and signed into law in 1974. The seven Colorado River Basin 
States, in response to the Clean Water Act of 1972, formed the Colorado 
River Basin Salinity Control Forum (Forum), a body comprised of 
gubernatorial representatives from the seven States. The Forum was 
created to provide for interstate cooperation in response to the Clean 
Water Act and to provide the States with information necessary to 
comply with sections 303(a) and (b) of the act. The Forum has become 
the primary means for the basin States to coordinate with Federal 
agencies and Congress to support the implementation of the salinity 
control program for the Colorado River Basin.
    Bureau of Reclamation studies show that quantified damages from the 
Colorado River to U.S. water users are about $350 million per year. 
Unquantified damages are significantly greater. Damages are estimated 
at $75 million per year for every additional increase of 30 milligrams 
per liter in salinity of the Colorado River. Control of salinity is 
necessary for the States of the Colorado River Basin, including New 
Mexico, to continue to develop their compact-apportioned waters of the 
Colorado River.
    Timely appropriations for the funding of the salinity control 
program are essential to comply with the water quality standards for 
salinity, prevent unnecessary economic damages in the United States, 
and protect the quality of the water that the United States is 
obligated to deliver to Mexico. The basin States and Federal agencies 
agree that increases in the salinity of the Colorado River will result 
in significant increases in damages to water users in the Lower 
Colorado River Basin. Although the United States has always met the 
water quality standard for salinity of water delivered to Mexico under 
Minute No. 242 of the International Boundary and Water Commission, the 
United States through the U.S. section of IBWC is currently addressing 
a request by Mexico for better quality water. Continued strong support 
and adequate funding of the salinity control program is required to 
control salinity-related damages in the United States and Mexico.
    Congress amended the Colorado River Basin Salinity Control Act in 
July 1995 (Public Law 104-20). The salinity control program authorized 
by Congress by the amendment has proven to be very cost-effective, and 
the Basin States are standing ready with up-front cost-sharing. 
Proposals from public and private sector entities in response to 
Reclamation's requests for proposals and funding opportunity 
announcements have far exceeded available funding appropriated in 
recent years. Basin States cost-sharing funds are available for the 
$17.5 million appropriation request for fiscal year 2011. The basin 
States' cost-sharing adds 43 cents for each Federal dollar 
appropriated.
    Public Law 106-459 gave the Bureau of Reclamation additional 
spending authority for the salinity control program. With the 
additional authority in place and significant cost-sharing available 
from the basin States, it is essential that the salinity control 
program be funded at the level requested by the Forum and basin States 
to protect the water quality of the Colorado River. Some of the most 
cost-effective salinity control opportunities occur when Reclamation 
improves irrigation delivery systems concurrently with on-farm 
irrigation improvements undertaken by the U.S. Department of 
Agriculture's Environmental Quality Incentives Program (EQIP). The 
basin States cost-share funding is available for both on-farm and off-
farm improvements. The EQIP funding appears to be adequate to 
accomplish the on-farm work. Adequate funding for Reclamation's off-
farm work is needed to maintain timely implementation and effectiveness 
of salinity control measures.
    Maintenance and operation of Reclamation's salinity control 
projects and general investigations to identify new cost-effective 
salinity control projects are necessary for the continued success of 
the salinity control program. Investigation of new opportunities for 
salinity control is critical while the basin States continue to develop 
and use their compact-apportioned waters of the Colorado River. The 
water quality standards for salinity are dependent on timely 
implementation of salinity control projects, adequate funding to 
maintain and operate existing projects, and sufficient general 
investigation funding to determine new cost-effective opportunities for 
salinity control.
    Continued funding primarily through Reclamation's Facility 
Operation activity to support maintenance and operation the Paradox 
Valley Unit and the Grand Valley Unit is critically needed. General 
Investigation funding through Reclamation's Colorado River Water 
Quality Improvement Program needs to be restored to a level that 
supports the need for identification and study of new salinity control 
opportunities to maintain the levels of salinity control needed to meet 
water quality standards and control economic damages in the Lower 
Colorado River Basin.
    I urge the Congress to appropriate $17.5 million to the Bureau of 
Reclamation for the Colorado River Basin Salinity Control Program, plus 
adequate funding for operation and maintenance of existing projects and 
adequate funding for general investigations to identify new salinity 
control opportunities. Also, I fully support testimony by the Forum's 
Executive Director, Jack Barnett, in request of this appropriation, and 
the recommendation of an appropriation of the same amount by the 
Federal chartered Colorado River Basin Salinity Control Advisory 
Council.
                                 ______
                                 
       Prepared Statement of the Wyoming State Engineer's Office
    Dear Chairman Dorgan and Ranking Member Domenici: This letter is 
sent in support of fiscal year 2011 funding for the Bureau of 
Reclamation's Colorado River Basin Salinity Control Project--Title II 
Program. A total of $17.5 million is requested for Reclamation's fiscal 
year 2011 activities to implement authorized Colorado River Basin 
salinity control program programs. Failure to appropriate these funds 
will directly result in significant economic damages being accrued by 
U.S. and Mexican water users.
    The State of Wyoming also supports funding for Salinity Control 
Program general investigations as requested within the Colorado River 
Water Quality Improvement Program budget line-item. It is important 
that Reclamation have properly funded planning staff in place, so that 
the program's progress can be monitored, necessary coordination among 
Federal and State agencies can be accomplished, and future projects and 
opportunities to control salinity can be properly planned. Maintaining 
the water quality standards for salinity in the Colorado River is 
essential so as to allow the seven Colorado River Basin States to 
continue to develop their compact-apportioned waters of the Colorado 
River.
    In addition to the funding identified above for the implementation 
of the most recently authorized program, the State of Wyoming urges the 
Congress to appropriate funds, as requested by the administration, to 
maintain and operate completed salinity control facilities, including 
the Paradox Valley Unit. At facilities located within the Paradox 
Valley of Colorado subsurface saline brines are collected below the 
Delores River and are injected into a deep aquifer through an injection 
well. The continued operation of this project, and the Grand Valley 
Unit, are funded primarily through the Facility Operations activity.
    The Colorado River provides municipal and industrial water for over 
30 million people and irrigation water to nearly 4 million acres of 
land in the United States. The River is also the water source for some 
2.5 million people and 500,000 acres in Mexico. Limitations on water 
users' abilities to make the greatest use of this critically important 
water supply on account of the River's high concentration of total 
dissolved solids (hereafter referred to as the salinity of the water) 
are a major concern in both the United States and Mexico. Salinity in 
water supplies affects agricultural, municipal, and industrial water 
users.
    While economic detriments and damages in Mexico are unquantified, 
the Bureau of Reclamation presently estimates direct and computable 
salinity-related damages in the United States amount to $376 million 
per year. The River's high salt content is in almost equal part due to 
naturally occurring geologic features that include subsurface salt 
formations and discharging saline springs; and the resultant 
concentrating effects of our users man's storage, use and reuse of the 
waters of the River system. Over-application of irrigation water by 
agriculture is a large contributor of salt to the Colorado River as 
irrigation water moves below the crop root zone, seeps through saline 
soils and then returns to the river system.
    The Environmental Protection Agency's interpretation of the 1972 
amendments to the Clean Water Act required the seven basin States to 
adopt water quality standards for salinity levels in the Colorado 
River. In light of the EPA's regulation to require water quality 
standards for salinity in the basin, the Governors of Arizona, 
California, Colorado, Nevada, New Mexico, Utah and Wyoming created the 
Colorado River Basin Salinity Control Forum as an interstate 
coordination mechanism in 1973. To address these international and 
regionally important salinity problems, the Congress enacted the 
Colorado River Basin Salinity Control Act of 1974. Title I addressed 
U.S. obligations to Mexico to control the River's salinity to ensure 
the U.S.A.'s water deliveries to Mexico are within the specified 
salinity concentration range. Title II of the act authorized control 
measures upstream of Imperial Dam and directed the Secretary of the 
Interior to construct several salinity control projects, most of which 
are located in Colorado, Utah, and Wyoming.
    Title II of the act was again amended in 1995 and 2000 to direct 
the Bureau of Reclamation to conduct a basin-wide salinity control 
program. This program awards grants to non-Federal entities, on a 
competitive-bid basis, which initiate and carry out salinity control 
projects. The basin-wide program has demonstrated significantly 
improved cost-effectiveness, as computed on a dollar per ton of salt 
basis, as compared to the prior Reclamation-initiated projects. The 
Forum was heavily involved in the development of the 1974 Act and its 
subsequent amendments, and continues to actively oversee the Federal 
agencies' salinity control program efforts.
    During the past 37 years, the seven-State Colorado River Basin 
Salinity Control Forum has actively assisted the Federal agencies, 
including the Bureau of Reclamation, in implementing this unique and 
important program. At its October 2009 meeting, the Forum recommended 
that the Bureau of Reclamation seek to have appropriated and should 
expend $17.5 million for Colorado River Basin salinity control in 
fiscal year 2011. We strongly believe the combined efforts of the 
salinity control efforts of the Bureau of Reclamation, Department of 
Agriculture and the Bureau of Land Management constitute one of the 
most successful Federal/State cooperative non-point source pollution 
control programs in the United States.
    The State of Wyoming greatly appreciates the subcommittee's support 
of the Colorado River Salinity Control Program in past years. We 
strongly believe this important basin-wide water quality improvement 
program merits continued funding and support by your subcommittee. 
Thank you in advance for inclusion of this letter in the formal hearing 
record concerning fiscal year 2011 appropriations.
                                 ______
                                 

                          DEPARTMENT OF ENERGY

 Prepared Statement of the State Teachers' Retirement System, State of 
                               California
                                summary
    Acting pursuant to congressional mandate, and in order to maximize 
the revenues for the Federal taxpayer from the sale of the Elk Hills 
Naval Petroleum Reserve by removing the cloud of the State of 
California's claims, the Federal Government reached a settlement with 
the State in advance of the sale. The State waived its rights to the 
Reserve in exchange for fair compensation in installments stretched out 
over an extended period of time. The State respectfully requests an 
appropriation of at least $9.7 million in the subcommittee's bill for 
fiscal year 2011, in order to meet the Federal Government's obligations 
to the State under the Settlement Agreement.
                               background
    Upon admission to the Union, States beginning with Ohio and those 
westward were granted by Congress certain sections of public land 
located within the State's borders. This was done to compensate these 
States having large amounts of public lands within their borders for 
revenues lost from the inability to tax public lands as well as to 
support public education. Two of the tracts of State school lands 
granted by Congress to California at the time of its admission to the 
Union were located in what later became the Elk Hills Naval Petroleum 
Reserve.
    The State of California applies the revenues from its State school 
lands to assist retired teachers whose pensions have been most 
seriously eroded by inflation. California teachers are ineligible for 
Social Security and often must rely on this State pension as the 
principal source of retirement income. Typically the retirees receiving 
these State school lands revenues are single women more than 75 years 
old whose relatively modest pensions have lost as much as half or more 
of their original value to inflation.
            state's claims settled, as congress had directed
    In the National Defense Authorization Act for fiscal year 1996 
(Public Law 104-106) that mandated the sale of the Elk Hills Reserve to 
private industry, Congress reserved 9 percent of the net sales proceeds 
in an escrow fund to provide compensation to California for its claims 
to the State school lands located in the Reserve.
    In addition, in the act Congress directed the Secretary of Energy 
on behalf of the Federal Government to ``offer to settle all claims of 
the State of California . . . in order to provide proper compensation 
for the State's claims.'' (Public Law 104-106, Sec. 3415). The 
Secretary was required by Congress to ``base the amount of the offered 
settlement payment from the contingent fund on the fair value for the 
State's claims, including the mineral estate, not to exceed the amount 
reserved in the contingent fund.'' (Id.)
    Over the year that followed enactment of the Defense Authorization 
Act mandating the sale of Elk Hills, the Federal Government and the 
State engaged in vigorous and extended negotiations over a possible 
settlement. Finally, on October 10, 1996 a settlement was reached, and 
a written Settlement Agreement was entered into between the United 
States and the State, signed by the Secretary of Energy and the 
Governor of California, under which the State would receive 9 percent 
of the sales proceeds in annual installments over an extended period.
    The Settlement Agreement is fair to both sides, providing proper 
compensation to the State and its teachers for their State school lands 
and enabling the Federal Government to maximize the sales revenues 
realized for the Federal taxpayer by removing the threat of the State's 
claims in advance of the sale.
   federal revenues maximized by removing cloud of state's claim in 
                          advance of the sale
    The State entered into a binding waiver of rights against the 
purchaser in advance of the bidding for Elk Hills by private 
purchasers, thereby removing the cloud over title being offered to the 
purchaser, prohibiting the State from enjoining or otherwise 
interfering with the sale, and removing the purchaser's exposure to 
treble damages for conversion under State law. In addition, the State 
waived equitable claims to revenues from production for periods prior 
to the sale. The Reserve thereafter was sold for a winning bid of $3.53 
billion in cash, a sales price that substantially exceeded earlier 
estimates.
   congress should appropriate $9.7 million for the fiscal year 2011 
                 installment of elk hills compensation
    The State's 9 percent share of the adjusted Elk Hills sales price 
of $3.53 billion is $317.70 million. To date, Congress has appropriated 
seven installments of $36 million and one installment of $48 million 
that was reduced to $47.52 million by the 1 percent across-the-board 
rescission under the fiscal year 2006 Defense Appropriations Act, for 
total appropriations to date of $299.52 million of Elk Hills 
compensation owed to the State. Accordingly, the Elk Hills School Lands 
Fund should have a positive balance of at least $18.18 million.
    In the past, Department of Energy personnel have proffered 4 
purported grounds for suspending further payments of Elk Hills 
compensation to the State. Each of these is a ``red herring'':
    Red Herring No. 1.--Finalization of respective equity shares of 
Federal Government and ChevronTexaco as selling co-owners of Elk Hills 
oil field still not completed. The administration's fiscal year 2011 
budget request states that ``the timing and levels of any future budget 
request (for Elk Hills compensation) are dependent on the schedule and 
results of the equity finalization process'' between the Federal 
Government and ChevronTexaco to determine the relative production over 
the years from their respective tracts in the Elk Hills field. (fiscal 
year 2011 budget appendix, at p. 435). But DOE already has held back 
$67 million, including $6.03 million from the State's share, to protect 
the Federal Government's interests in a ``worst case scenario'' for 
this equity process. The State has agreed to a ``hold-back'' of that 
amount to protect the Federal Government's interest. This reduces the 
available balance in the Elk Hills School Lands Fund to $12.15 million. 
In addition, DOE's fiscal year 2011 budget request detail states that 
the equity determination is in its final stages: ``Of the four 
applicable zones (in Elk Hills), the Dry Gas Zone and Carneros Zone are 
finalized. The Office of Hearings and Appeals is asking for additional 
briefs from both parties before rendering their decision on the Stevens 
Zone (the largest in Elk Hills). A final recommendation for the Shallow 
Zone is pending.'' (p. 754). Accordingly, remaining uncertainty in the 
equity process thus provides no basis for withholding further payment 
of the State's Elk Hills compensation.
    Red Herring No. 2.--There is no money left in the Elk Hills School 
Lands Fund right now. The administration's fiscal year 2011 budget 
request states: ``Under the Act (that mandated the sale of Elk Hills), 
9 percent of the net proceeds were reserved in a contingent fund in the 
Treasury for payment to the States. . . . Under the settlement 
agreement, $300 million has been paid to the State of California.'' 
(fiscal year 2011 budget appendix, at p. 435). The fiscal year 1999 
budget request at the time of the sale notes that $324 million was 
deposited into the Elk Hills School Lands Fund. (fiscal year 1999 
budget appendix, at pp. 378-9). A post-sale adjustment to the Elk Hills 
sales price reduced this amount to $317.7 million. Accordingly, after 
deducting the $300 million in payments to the State to date and the $6 
million hold-back to protect the Federal Government's interests in the 
``worst case'' scenario for the equity process, the Elk Hills Fund has 
ample funds available for appropriation of a further payment of 
compensation to the State.
    Red Herring No. 3.--No payment can be made to the State because of 
pending litigation between ChevronTexaco and DOE. DOE has pointed to 
pending litigation brought by ChevronTexaco against DOE in the U.S. 
Court of Federal Claims (Docket No. 04-1365C) as a reason to suspend 
further payments to the State. This litigation alleges DOE personnel 
committed misconduct in the equity finalization process by having 
improper ex parte contacts and having the same DOE staff serve as both 
advocate for DOE's position and advisor preparing the decision 
documents for the decisionmaker. However, the California State Attorney 
General has analyzed this litigation and advised that this litigation 
is a claim for money damages for DOE staff misconduct that has no 
effect on the Federal Government's equity share, and so there is no 
effect on the State's share of compensation. Indeed, under the 
governing agreement between DOE and Chevron, Chevron had waived any 
right to contest the final equity determination in court. In any event, 
the trial in this litigation was completed at the end of 2009, and a 
decision is expected by Spring.
    Hence this litigation provides no basis for withholding the rest of 
the State's compensation.
    Red Herring No. 4.--No payment can be made to the State because the 
State's share must be reduced by the equity finalization costs and 
environmental remediation costs and the final amount of such costs is 
not yet known. The State's share of compensation is properly reduced by 
the ``direct costs of sale'' as required by Congress. Since the sale 
took place over a decade ago, those costs are fixed and known. The 
State has agreed to bear its share of these sales expenses. However, 
DOE is seeking to charge against the State's share two additional 
categories of costs--costs of determining the equity ownership and 
environmental remediation--that constitute ongoing costs of operating 
the oil field, not sales expenses. The California State Attorney 
General advises that these do not properly constitute sales expenses 
chargeable against the State's share.
    More specifically, the Settlement Agreement between the Federal 
Government and the State provides that the Federal Government shall pay 
the State ``9 percent of the proceeds from the sale of the Federal Elk 
Hills Interests that remain after deducting from the sales proceeds the 
costs incurred to conduct such sale.'' This reflects the congressional 
direction that, ``In exchange for relinquishing its claim, the State 
will receive 7 (9 in the final legislation) percent of the gross sales 
proceeds from the sale of the Reserve that remain after the direct 
expenses of the sale are taken into account.'' (House Rept. No. 104-
131, Defense Authorization Act for fiscal year 1996, Public Law 104-
106).
    The State has agreed that the $27.13 million incurred for 
appraisals, accounting expenses, reserves report, and brokers' 
commission are appropriate sales expenses. Accordingly, the State's 9 
percent share of these proper sales expenses reduces the available 
balance of the Elk Hills School Lands Fund by $2.44 million to $9.7 
million.
    Costs of conducting the equity adjustment are properly viewed as 
ongoing costs incurred due to the joint operation of the Elk Hills oil 
field by the Federal Government and ChevronTexaco, since the equity 
adjustment already was required under their joint operating agreement 
and related to pre-sale production revenues. Similarly, costs of 
environmental remediation of the Elk Hills field was a cost 
attributable to the prior operation of the field, which created any 
environmental problems that exist. The ongoing operational nature of 
this cost is underscored by the fact that the Federal Government is 
currently engaged in the phased environmental remediation of a Naval 
Petroleum Reserve that it is not selling--NPR-3 (Teapot Dome), as 
evidenced by the fiscal year 2011 budget request.
    In conclusion, of the current Elk Hills School Lands Fund balance 
of $18.18 million, taking into account the ``hold-back'' for worst case 
scenario under equity finalization and deducting the appropriate direct 
costs of conducting the sale, the State respectfully requests the 
appropriation of at least $9.7 million for Elk Hills compensation in 
the subcommittee's bill for the fiscal year 2011 installment of 
compensation, in order to meet the Federal Government's obligations to 
the State under the Settlement Agreement.
                                 ______
                                 
         Prepared Statement of Precision Custom Components, LLC
    Dear Mr. Chairman and ranking member: Precision Custom Components, 
LLC (PCC), located in York, PA, is a manufacturer of custom fabricated 
pressure vessels, reactors, casks, and heavy walled components for the 
nuclear power industry and U.S. Navy. Since 1876 the company has made 
large industrial turbines, nuclear reactor internals for the first 
commercial nuclear power plant in Shippingport, PA, and spent nuclear 
fuel shipping casks for the Navy and commercial power plants. In sum, 
PCC has been an integral part of the U.S. manufacturing base for well 
over a century.
    The President's request for $38.8 million for research, development 
and demonstration of small, modular nuclear power reactors is a modest 
but well thought out program involving both public and private 
investments. This request for funding is coming at just the right time 
when engineering and design firms have presented credible new reactor 
designs that are well within the capabilities of the U.S. manufacturing 
industry, including PCC. But it is the time consuming and costly 
regulatory review process at the NRC where joint Federal-private 
assistance is needed.
    The benefits of small, modular nuclear reactors are well 
documented; from creating U.S. jobs, to creating new sources of carbon-
free baseload power, to improving the financial risk otherwise 
associated with larger power plants. These innovations will also 
incorporate some of the latest safety features and proliferation 
resistant technologies bringing additional public benefits and export 
opportunities.
    If you could make this correspondence part of the record for 
outside witness testimony PCC would like to be on record as supporting 
the President's budget request for $38.8 million for the Department of 
Energy's small, modular reactor program in fiscal year 2011, including 
and encompassing light water reactor (LWR) based designs and other 
technologies.
                                 ______
                                 
   Prepared Statement of the National Insulation Association and the 
   International Association of Heat and Frost Insulators and Allied 
                                Workers
  federal funding for mechanical insulation will create shovel ready, 
     green energy jobs all while saving energy and protecting the 
                              environment
    Chairman Dorgan, Ranking Member Bennett, and members of the 
Subcommittee on Energy and Water Development, on behalf of the National 
Insulation Association (NIA) and the International Association of Heat 
and Frost Insulators and Allied Workers (International Union), we are 
writing in support of a programmatic increase to $3.5 million in fiscal 
year 2011 for the Department of Energy's Industrial Technologies 
Program specifically for a national mechanical insulation education and 
awareness program.
    NIA represents 95 percent of the products utilized in the 
mechanical insulation industry, with members across the country at 800 
corporate locations, and the International Union represents more than 
25,000 workers and families employed in the mechanical insulation 
sector across the country. Together, our members, of which the vast 
majority are small businesses, have more than a century-long track 
record of providing large- and small-scale, long-term energy 
efficiency, emissions reductions, cost savings, and safety benefits at 
manufacturing facilities, power plants, refineries, hospitals, 
universities, and government buildings across the country.
    We have joined together to advocate for a national comprehensive 
advocacy program for increased use, maintenance, and retrofits of 
mechanical insulation in the commercial and industrial sectors because 
of its potential to create tens of thousands of jobs now, reduce carbon 
emissions, increase energy savings, and provide a safer working 
environment.
    Buildings are responsible for 40 percent of U.S. energy demand and 
40 percent of all greenhouse gas emissions, making efficiency gains in 
this area crucial if we are to markedly reduce America's energy 
consumption and effectively combat climate change. The industrial 
sector is similar in energy efficiency opportunities. At the 
residential level, insulation is well publicized for its efficiency 
benefits. However, the same cannot be said in the commercial and 
industrial sectors, which together consume 2\1/2\ times more energy 
than homes, according to the Energy Information Administration. 
Commercial and industrial insulation--collectively known as mechanical 
insulation--has the potential to slash the energy demand for the 
building and industrial sector.
    Congress has already signaled its support for a mechanical 
education and awareness program through both the appropriations and 
authorization process. Congress directed $500,000 be allocated in the 
Department of Energy's budget for a mechanical insulation education and 
awareness campaign in the fiscal year 2010 Energy and Water 
Appropriations bill (Public Law 111-85). This funding was a critical 
start, and we thank members of the Appropriations Committee for 
recognizing the value of this program, but more is needed to carry out 
a successful campaign. Further evidence of Congress' support for such a 
program is the inclusion of language to authorize a 5-year, $3.5 
million a year national industrial energy efficiency education and 
training initiative focused on mechanical insulation in H.R. 2454, the 
American Clean Energy and Security Act of 2009 (section 275, page 521).
    By increasing awareness and use of this energy-saving technology, 
Congress will both create jobs now and reduce carbon emissions. 
Creating jobs, particularly green jobs, is a top priority for Congress 
and the administration. Using government data, NIA conservatively 
estimates that maintenance of insulation at industrial facilities and 
going beyond minimum levels in new construction can generate $4.8 
billion in energy savings per year, reduce 43 million metric tons of 
carbon dioxide and other greenhouse gas emissions, and create 89,000 
jobs annually.
    Best of all, these jobs don't require additional research and 
development. Mechanical insulation opportunities can be easily 
identified, with potential energy savings and emissions reduction 
determined with proven DOE-utilized software technology, and in many 
applications implemented in weeks, making projects truly shovel-ready.
    For facility owners and operators, the savings are swift and last 
for many years; the return on investment from mechanical insulation is 
typically less than 2 years (and sometimes as little as 6 months). 
Mechanical insulation also improves infrastructure in the public, 
educational, and health-care sectors, among others.
    Fiscal year 2010 funding for mechanical insulation education 
programs is insufficient to make an economic impact in the industrial 
and commercial sector through energy savings, emissions reduction, and 
job creation. Increased funding from Congress in fiscal year 2011 would 
enable Federal agencies and industry partners to gather more data, work 
with engineering schools, and reach out to facility managers and 
owners, engineering and design professionals, and others to educate 
them about the benefits of increasing their focus on the benefits of 
mechanical insulation technology. Congressional funding would also 
ensure the promotion of the most energy-efficient uses of mechanical 
insulation in new construction, increased education about the energy 
savings that can be realized through proper maintenance and a renewed 
focus on retrofitting mechanical insulation in older buildings and 
manufacturing facilities that together will generate substantial carbon 
emissions reductions and sustainable jobs.
    NIA and the International Union have cumulatively contributed $3.0 
million in developing and beginning the implementation of the campaign 
and are committed to matching the fiscal year 2011 funding to a 
$500,000 level. As such, we have outlined program elements for a 
comprehensive, persuasive awareness campaign to engage and motivate 
industrial and commercial decisionmakers to take action.
    Elements of the program would include:
  --Develop curriculum and conduct NIA-led educational sessions
  --Utilize web-based information for educational programs
  --Provide educational programs at industry and government conferences 
        and workshops
  --Implement awareness and educational marketing and advertising 
        campaign
  --Develop needed data and seek media coverage of success stories and 
        the facts
  --Engage NIA and Union members and other allies to actively support 
        the campaign
    NIA, its members, and the International Union are committed to 
working with Congress, the Department of Energy, other Federal 
agencies, and key stakeholder groups on these and other initiatives 
that will lead to greater energy efficiency nationwide. We have formed 
alliances with engineering and other industry trade organizations and 
have offered to work with the Department of Energy to bring together a 
coalition to help develop, implement, and provide educational awareness 
programs established and funded by Congress.
    Thank you for the opportunity to submit testimony in support of a 
program that is critical to job creation, economic growth, energy 
savings, and emissions reductions.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists
    On behalf of the American Society of Plant Biologists (ASPB), we 
submit this statement for the official record to support the requested 
level of $5.12 billion for the Department of Energy's Office of Science 
for fiscal year 2011. The testimony highlights the importance of 
biology, particularly plant biology, as the Nation seeks to address 
vital issues including climate change and energy security. We would 
also like to thank the subcommittee for its consideration of this 
testimony, for its strong support for the basic research mission of the 
Department of Energy's Office of Science, and for recognizing that 
funding for the Office of Science is an investment in America's future.
    ASPB is an organization of more than 5,000 professional plant 
biologists, educators, graduate students, and postdoctoral scientists. 
A strong voice for the global plant science community, our mission--
which is achieved through engagement in the research, education, and 
public policy realms--is to promote the growth and development of plant 
biology and plant biologists and to foster and communicate research in 
plant biology. The Society publishes the highly cited and respected 
journals Plant Physiology and The Plant Cell, and it has produced and 
supported a range of materials intended to demonstrate fundamental 
biological principles that can be easily and inexpensively taught in 
school and university classrooms by using plants.
  food, fuel, climate change, and health--plant biology research and 
                            america's future
    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are almost always the primary 
producers in the Earth's ecosystems. Indeed, plant biology research is 
making many fundamental contributions in the areas of fuel security and 
environmental stewardship; the continued and sustainable development of 
better foods, fabrics, and building materials; and in the understanding 
of basic biological principles that underpin improvements in the health 
and nutrition of all Americans. To go further, plant biology research 
can help the Nation both predict and prepare for the impacts of climate 
change on American agriculture, and it can make major contributions to 
our Nation's efforts to combat global warming.
    In particular, plant biology is at the center of numerous 
scientific breakthroughs in the increasingly interdisciplinary world of 
alternative energy research. For example, interfaces among plant 
biology, engineering, chemistry, and physics represent critical 
frontiers in both basic biofuels research and bioenergy production. 
Similarly, with the increase in plant genome sequencing and functional 
genomics, the interface of plant biology and computer science is 
essential to our understanding of complex biological systems ranging 
from single cells to entire ecosystems.
    Despite the fact that plant biology research--the kind of research 
funded by the DOE--underpins so many vital practical considerations for 
our country, the amount invested in understanding the basic function 
and mechanisms of plants is relatively small when compared with the 
impact it has on multibillion dollar sectors of the economy like energy 
and agriculture.
                            recommendations
    ASPB is in an excellent position to articulate the Nation's plant 
science priorities as they relate to bioenergy and, specifically, with 
regard to recommendations for bioenergy research funding through the 
Department of Energy's Office of Science. Our recommendations, in no 
particular order, are as follows:
  --We commend the DOE Office of Science, through their Divisions of 
        Basic Energy Sciences (BES) and Biological and Environmental 
        Research (BER) for funding the Bioenergy Research Centers (BER) 
        and the Energy Frontier Research Centers (BES). Although these 
        efforts are well designed and a significant step forward, these 
        large centers will not have a monopoly on good ideas. 
        Therefore, ASPB strongly encourages the appropriation of 
        additional funds for the DOE Office of Science that would be 
        specifically targeted to the funding of individual or small 
        group grants for bioenergy research.
  --The DOE Office of Science is the primary funding agency for 
        physical science research. Past experience teaches us that many 
        major scientific and technical breakthroughs occur at the 
        interface between traditional scientific disciplines. Indeed, 
        the importance of disciplinary integration is a central theme 
        of the recent National Research Council report ``A New Biology 
        for the 21st Century: Ensuring the United States Leads the 
        Coming Biology Revolution.'' Therefore, ASPB recommends 
        appropriations that would specifically target the interface 
        between plant biology and the physical sciences to encourage 
        multidisciplinary and cross-disciplinary research that would 
        address significant problems in bioenergy research.
  --Photosynthetic research is one clear example of an interface 
        between the physical sciences and biology. The DOE Office of 
        Science has been the major source of funds for fundamental 
        studies of photosynthesis, which is the primary source of 
        chemical energy on the planet. After all, fossil fuels are just 
        photosynthetic energy that was trapped eons ago and converted 
        through natural processes into the forms in which we use it 
        today. However, the current funding available for 
        photosynthetic research is not commensurate with the central 
        role that photosynthesis plays in energy capture and carbon 
        sequestration. Hence, ASPB calls for an increase in 
        appropriations to the Office of Science to expand its research 
        portfolio in the area of photosynthesis and carbon capture.
  --There are significant questions that must be answered as to how 
        climate change will impact food production and the environment. 
        There are also clear opportunities to use biological systems to 
        ameliorate climate change, such as through carbon sequestration 
        or modification of plants to resist environmental stress. 
        Therefore, ASPB calls for additional funding focused on studies 
        of the effect of climate change on agricultural cropping 
        systems, basic studies of effects on plant growth and 
        development, and targeted research focused on modification of 
        plants to resist climate change and for use in carbon 
        sequestration.
  --Current estimates predict a significant shortfall in the needed 
        scientific and engineering workforce in the energy area. Given 
        the expected need for additional scientists and engineers who 
        are well-grounded in interdisciplinary research and development 
        activities, ASPB applauds DOE's Early Career Research Program 
        and calls for additional funding of specific programs (e.g., 
        training grants) that are targeted to provide this needed 
        workforce over the next 10 years and to adequately prepare them 
        for careers in the interdisciplinary energy research of the 
        future. It should be noted that this recommendation is also 
        directly in-line with the above mentioned ``New Biology'' 
        report from the NRC.
  --Computational biology is a relatively new discipline that arose 
        from the interface of computer science and biology. These new 
        technologies and approaches provide the only means by which 
        these large biological datasets can be integrated and mined for 
        new, relevant biological knowledge. Therefore, as discussed in 
        item 2 above, ASPB calls for additional funding that would 
        target this interface between biology and computer science. 
        Specifically, we call for additional funding to develop 
        computational platforms to develop a systems-level view of 
        biology through the integration of data obtained from a variety 
        of functional genomics approaches. This is clearly a ``grand 
        challenge'' that is currently limiting the utility of this 
        information. The above mentioned NRC report reinforces this 
        point through the recommendation that ``priority be given to 
        the development of new information technologies.'' One means to 
        address this need would be to expand the BER KnowledgeBase 
        initiative that is now only a pilot program.
  --Considerable research interest is now being paid to the use of 
        plant biomass for energy production. If biomass crops are to be 
        used to their full potential, however, considerable effort must 
        be expended to improve our understanding of their basic biology 
        and development, as well as their agronomic performance. 
        Therefore, ASPB calls for additional funding that would be 
        targeted to efforts to increase the utility and agronomic 
        performance of bioenergy crops.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists. Please do not hesitate to contact 
the American Society of Plant Biologists if we can be of any assistance 
in the future.
                                 ______
                                 
      Prepared Statement of the National Mining Association (NMA)
    Excess Uranium Sale.--Under current law, the Department of Energy 
(DOE) can sell excess Government uranium inventories only after a 
Secretarial Determination that such sales or transfers (1) will not 
adversely impact the domestic uranium mining, conversion or enrichment 
industries and (2) will obtain fair market value for such sale or 
transfer. In December 2008, after obtaining a consensus agreement from 
the nuclear industry, DOE published a plan to manage the sale or 
transfer of excess Government uranium inventories. Critical to the plan 
were (1) gradually ramped up sales in the early years of the plan (2) 
sales of initial cores for new domestic reactors and (3) the 
establishment of an emergency reserve for current nuclear reactors. In 
July 2009, DOE announced plans to not follow the plan and to use 
uranium barter transactions to fund accelerated cleanup of the 
Portsmouth Ohio Enrichment Plant. Last year, the Energy and Water 
Appropriations members responded to DOE's proposal and directed GAO to 
evaluate the Department's management of the excess uranium inventories. 
The members also increased funding for the Portsmouth cleanup. Over the 
domestic mining industry's objections and USEC's acknowledgment that 
DOE's proposal would adversely impact the uranium market, DOE initiated 
the barter transaction with USEC in the fourth quarter of 2010. The 
current budget request for Portsmouth cleanup will remove the need for 
adverse excess uranium sales, allow DOE to follow its management plan, 
and accelerate cleanup reducing the total amounts required to complete 
cleanup of the site.
    Loan Guarantee Program.--NMA was pleased to see the DOE move 
forward in its request for additional authorizations for the title XVII 
loan guarantee program. We firmly believe that this program, in 
conjunction with other Federal financial incentives, can be used to 
encourage the development of clean energy sources. We are however 
concerned that the additional authorizations did not include all clean 
energy sources such as coal with advanced technologies and carbon 
capture and sequestration. Given the substantial role coal plays in our 
energy mix, we encourage the Department of Energy to include them as 
they continue to advance funding mechanisms for other clean energy 
sources.
Office of Fossil Energy
    Background.--NMA is disappointed that the U.S. Department of Energy 
(DOE) fiscal year 2011 request severely reduced the overall fossil 
energy budget, with steep declines in funding for coal programs. While 
we recognize that the economic stimulus package enacted last year 
included demonstration project and Clean Coal Power Initiative funding, 
we do not believe that such funding justifies the 20 percent cut to all 
fossil energy programs, in the fiscal year 2011 budget request. 
Reductions of this magnitude will compromise advances in clean coal and 
carbon capture and sequestration efforts. Such cuts also jeopardize 
future funding of the projects by forcing them to continually rely on 
supplemental spending bills. We would encourage the administration to 
submit line item requests for these programs through the regular budget 
process. In providing greater budgeting stability these programs will 
be better equipped to achieve their intended goals within a timely 
manner.
  --NMA fully supports and urges maximum funding for carbon capture and 
        storage (CCS) projects that avoid, reduce or store air 
        pollutants and greenhouse gases while contributing long-term 
        economic growth and international competitiveness. Substantial 
        Federal funding for continued research, development and 
        demonstration of CCS technologies will be required before CCS 
        can be applied to large-scale commercial power plants. The 
        construction and operation of near-zero emission and low carbon 
        projects, such as the proposed FutureGen project in Mattoon, 
        Illinois are indispensable to demonstrate that the technology 
        necessary to meet domestic energy demands of the 21st century 
        are available on a commercial scale. NMA strongly supports the 
        recent agreement between the DOE and the FutureGen Alliance to 
        proceed with a reconfigured carbon capture and storage energy 
        facility at Mattoon, Illinois. We support the $1 billion from 
        the American Recovery and Reinvestment Act for use in this 
        endeavor along with the $800 million for the Clean Coal Power 
        Initiative (CCPI). Although CCPI received the necessary funding 
        to complete solicitations for the third round of the program, 
        we believe additional funding is necessary to meet the 
        administration's programmatic goal of wide scale CCS deployment 
        by 2016. The number of large scale commercial demonstration 
        projects that are currently underway is insufficient to meet 
        this deadline. We remain concerned that DOE continues to not 
        request any funding for large scale applications of CCS 
        technology as has been the case in fiscal year 2010 and fiscal 
        year 2011. NMA encourages DOE to provide support for a strong 
        domestic CCS program and to initiate a CCPI Round 4 program.
  --Funding for basic research and development of new, innovative clean 
        coal technologies is necessary to continue the progress made 
        over the last 35 years. Regulated emissions from coal-based 
        electricity generation have decreased by nearly 40 percent 
        since the 1970s, while the use of coal has tripled. Well-funded 
        basic coal research by DOE and clean coal technology 
        demonstrations undertaken by DOE-private sector partnerships 
        will continue this significant progress in energy production 
        and environmental improvement. Technological advancements 
        achieved in the base coal research and demonstration programs 
        such as gasification, advanced turbines and carbon 
        sequestration provide the component technologies that will 
        ultimately be integrated into the FutureGen project as recently 
        reconfigured. NMA supports funding several of these programs at 
        levels higher than the President's request, specifically $80 
        million for IGCC/gasification (DOE's requested amount: $55 
        million), $45 million for advanced combustion (DOE's request 
        does not include direct funding) and $31 million for advanced 
        turbines (DOE's request: $31 million). We are, however, pleased 
        that DOE provides nearly $143 million for the Carbon 
        Sequestration Research & Development program and Carbon 
        Sequestration Injection Tests combined. We hope that DOE will 
        work with industry to identify specific programmatic activities 
        and funding for these programs. The increase in funding for 
        these and other programs will ensure that the FutureGen project 
        meets the intended goals outlined in DOE's 2004 report to 
        Congress, ``FutureGen, Integrated Sequestration and Hydrogen 
        Research Initiative--Energy Independence through Carbon 
        Sequestration and Hydrogen from Coal.''
  --In addition, NMA recommends $3 million of funding for the Center 
        for Advanced Separation Technologies (CAST), which is a 
        consortium of seven universities lead by Virginia Tech. CAST 
        has developed many advanced technologies that are used in 
        industry to produce cleaner fuels in an environmentally 
        acceptable manner, with some having cross-cutting applications 
        in the minerals industry.
Coal Tax Provisions
    NMA objects to the fiscal year 2011 budget singling out coal mining 
for $2.3 billion worth of tax increases. U.S. coal producers play an 
integral role in fostering the Nation's continued economic prosperity 
by meeting much of America's growing energy needs. To maintain 
affordable energy prices and preserve jobs, Congress should reject 
these unwarranted proposals to eliminate longstanding tax rules 
affecting coal mining.
    NMA does not support the administration's proposal to eliminate the 
capital gains treatment of coal and lignite royalties. Under current 
law, royalties received on the disposition of coal or lignite generally 
qualify for treatment as long-term capital gain, and the royalty owner 
does not qualify for percentage depletion with respect to the coal or 
lignite. The fiscal year 2011 budget proposes to repeal the capital 
gain treatment of coal and lignite royalties and to tax those royalties 
as ordinary income. There is no tax policy reason to single out coal 
royalties for changes to the capital gains rules.
    NMA does not support the administration's proposal to eliminate the 
domestic manufacturing deduction. Under current law, a deduction is 
allowed with respect to income attributable to domestic production 
activities (the manufacturing deduction). The fiscal year 2011 budget 
proposes to repeal the manufacturing deduction for gross receipts 
derived from the sale, exchange or other disposition of coal, other 
hard mineral fossil fuels, or a primary product thereof. Present law 
should be retained as Congress enacted an across-the-board domestic 
manufacturing deduction in order to reduce the effective corporate 
income tax rate on domestic manufacturing activities and preserve U.S. 
manufacturing jobs.
    NMA does not support the administration's proposal to eliminate the 
present law tax-expensing of coal exploration costs. Under current law, 
taxpayers may elect to expense (i.e., deduct in the year the costs are 
incurred) mining exploration and development costs with respect to 
domestic ore and mineral deposits. The fiscal year 2011 budget proposes 
to repeal expensing and 60-month amortization of exploration and 
development costs relating to coal and other hard mineral fossil fuels. 
The expensing of coal mining exploration costs is part of the current 
calculation for appropriately measuring taxable income from coal and 
other mining operations. That appropriate measurement of taxable income 
under present law should not be changed as a way of increasing taxes on 
the coal industry.
    NMA does not support the administration's proposal to eliminate the 
percentage depletion tax-deduction for mining activities. Under current 
law, the capital costs of mines are recovered through the depletion tax 
deduction. Under the percentage depletion method, the amount of the 
deduction is a statutory percentage of the gross income from the mining 
property. The fiscal year 2011 budget proposes to repeal percentage 
depletion with respect to coal and other hard mineral fossil fuels. The 
percentage depletion deduction is part of the current calculation for 
appropriately measuring taxable income from coal and other mining 
operations. Coal mining requires significant financial commitments to 
long-term projects to deliver a reasonably priced product. Enormous 
amounts of capital must be expended at the front end of coal mining 
projects to realize future returns. With such sizable capital costs, 
cost recovery through percentage depletion has a significant effect on 
the margins and prices at which coal can be profitably sold.
   u.s. army corps of engineers--regulatory and civil works programs
    Background.--The U.S. Army Corps of Engineers' (Corps) Regulatory 
Branch plays a key role in the U.S. economy through the Corps annual 
authorizations of approximately $200 billion of economic activity 
through its regulatory program. NMA supports the inclusion of language 
directing the Corps to dedicate sufficient personnel and financial 
resources needed to support an efficient permit review process. We 
remain concerned about the backlog of surface coal mining permits and 
encourage the Corps to utilize this increased funding expeditiously to 
address this issue as outlined in their statutory authority.
Regulatory Program
    NMA supports increased funding for administering the Corps' Clean 
Water Act (CWA) section 404 permit program. We encourage the Corps to 
utilize this funding to address the backlog of surface coal mining 
permits and to devise a more efficient permitting program.
Civil Works Programs
    NMA opposes the Corps' proposed concept of a new inland waterways 
``lockage fee/tax,'' which would replace the current diesel fuel tax to 
fund improvements to the Nation's inland waterways system. A lockage 
tax would more than double the taxes paid by the towing industry. The 
coal industry ships approximately 185 million short tons of coal 
annually on the inland waterways systems, therefore the cost of a new 
tax will ultimately be borne by the consumers of coal-fueled 
electricity. NMA opposes such a tax increase and urges Congress to 
reject this proposal.
                                 ______
                                 
                  Prepared Statement of Avalence, LLC
    Dear Senator Dorgan and Senator Bennett: I am writing to request 
that you fund DOE Hydrogen and Fuel Cell program at the level of 
support being requested by the National Hydrogen Association and the 
U.S. Fuel Cell Council:

          INDUSTRY PROPOSED DOE HYDROGEN AND FUEL CELL FUNDING
                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
EERE Programs...........................................           220.0
Fossil Energy Programs..................................           118.8
Nuclear Energy Programs.................................             8.5
Science Programs........................................            38.0
                                                         ---------------
      Total.............................................           390.0
------------------------------------------------------------------------

    Avalence is a producer of high-pressure hydrogen generators that 
use solar, wind and other renewable energy to make local, sustainable, 
and emissions-free hydrogen fuel for fuel cell and other hydrogen 
vehicles. Avalence is manufacturing hydrogen fueling stations, many of 
which are powered by renewable energy to create completely local, zero 
emissions fuel.
    The hydrogen economy is starting to happen. At a recent U.S. Senate 
briefing, representatives from major automotive companies like GM and 
Daimler reaffirmed their companies' commitment to producing commercial 
hydrogen fuel cell vehicles by 2015. Several countries such as Germany 
and Japan have hydrogen infrastructure plans in place. DOE development 
and commercialization funding for hydrogen and fuel cells leverages the 
billions of dollars already invested in FCVs by the global automotive 
industry--at the very moment in time that they are deploying the first 
fleets of vehicles and are seeking the hydrogen infrastructure needed 
to bring their vehicles to market.
    New hydrogen production technologies are a critical part of the 
portfolio of clean energy solutions that are emerging to address the 
decline in global oil reserves. Development of advanced hydrogen 
production technologies is being spearheaded throughout the Nation by 
many pioneering small businesses such as Avalence, LLC--small, high 
tech firms with exciting clean energy solutions. Our national energy 
security and the strength of our economy in the new energy age will 
benefit most from a robust national portfolio of hydrogen generating 
technologies that includes not only hydrogen production from fossil 
fuels, but also distributed generation of hydrogen from grid 
electricity and green hydrogen from solar, wind and other renewable 
energy sources.
                                 ______
                                 
Prepared Statement of Cynthia Ramseur, Member, Gulf Coast Conservation 
                 Coalition and Gulf Restoration Network
    Summary of My Testimony.--As I understand it, the Senate 
subcommittee is receiving comments through April 1 regarding the energy 
budget. I was pleased to learn that the President's proposed budget 
does not include funds for studies, investigations or land acquisitions 
for the DOE's proposed Richton Salt Dome Strategic Petroleum Reserve. I 
am writing to ask that you uphold the President's budget request 
regarding the Richton proposal. I sincerely ask that you disallow any 
last-minute requests to add a budget line item for further expenditures 
regarding the proposed Richton SPR. If I understand correctly, over $80 
million have already been spent to date on investigations and studies 
regarding the project: I do not want the Federal Government to continue 
``throwing good money after bad money''.
    Full Testimony.--I am one of 400 plus people who stood up in a 
public hearing on April 10, 2008 in Pascagoula, Mississippi and opposed 
the development of a strategic petroleum reserve at Richton, 
Mississippi. Since that time, the coalition of individuals and 
organizations opposing the project has grown--yet we can not get 
consistent information about the DOE's continued interest in the 
proposed Richton SPR or information about the status of the NEPA 
process.
                        richton project timeline
    At the April 2008 public hearing DOE announced plans for the 
Richton Strategic Petroleum Reserve 3 days after Hurricane Katrina (Aug 
2005).
    DOE held public hearings for the project in Jackson during the 3-
month period after Katrina.
    DOE presented the plan to Congress in June 2007.
    DOE released EIS in fall of 2007 with construction to begin in 
January 2008.
    At the urging of local concerned citizens, Congressman Gene Taylor 
obtained a pause and public hearings were held in April 2008.
    Supplemental EIS was to be released in June 2008 but was delayed 
until August 2008.
    Supplemental EIS scheduled for release in August was delayed again 
without notice of reschedule.
    Current status?
    I am pleased to learn that funding for the Richton SPR is not 
included in the President's proposed budget; however, I am writing to 
ask that you continue to withhold funding for the proposed SPR at 
Richton disallowing any requests to add in a line item at the last 
minute. If I understand correctly over $80 million have been spent to 
date on investigations and studies regarding the DOE's proposal. I do 
not want the Federal Government to continue ``throwing good money after 
bad money.'' The major problems identified in the initial Environmental 
Impact Statement remain: DOE failed to adequately examine the economic 
and environmental effects of the proposed project. If I understand 
correctly over $80 million have been spent to date on investigations 
and studies regarding the DOE's proposal.
    The proposed SPR expansion at Richton, Mississippi was ill-
conceived, ill-advised and technically flawed. The NEPA process was a 
waste of taxpayer money. Note: The facts and figures presented here 
were collected by a coalition of citizens and organizations led by Gulf 
Coast Conservation Coalition and Gulf Restoration Network; the 
information comes directly from the Department of Energy SPR Web site 
at www.fossil.energy.gov/programs/reserves/.
       the richton spr expansion site--an environmental disaster
    This proposed project is seriously flawed on many levels and DOE 
has refused to honestly evaluate and disclose the dangers. Their 
publications and public statements have misrepresented the facts.
    DOE plans to draw 50 million gallons of fresh water per day from 
the Pascagoula River Merrill, Mississippi every day for 5 to 6 years 
and pipe it to Richton to dissolve underground salt deposits. The loss 
of that water would be harm the fish, animals, and humans that depend 
on the river's abundant flow. The entire Pascagoula River basin would 
suffer as water levels drop and salt water from the Mississippi Sound 
moves further up the river.
    The toxic salty waste would then be pumped 100 miles across 56 
bodies of fresh water to the Gulf of Mexico and dumped near the barrier 
islands. To understand the threat, dissolve 11 pounds of salt in a 5-
gallon bucket of fresh water. Keep stirring until you can dissolve no 
more salt. Now, dump that bucket of salt water onto your garden. Of 
course you wouldn't do this, but that is exactly what DOE wants to do 
to our coastal waters--10 million 5-gallon buckets every day.
    Communities on the coast depend on wells for their drinking water 
supplies. The underground aquifer that feeds our wells is replenished 
by surface water between the coast and Hattiesburg. How would the 
aquifer be affected by removing 50 million gallons of water from the 
Pascagoula River each day?
    DOE predicts a minimum of 56 brine spills from a 100-mile Richton 
brine disposal pipeline. At the existing SPR sites DOE records list 227 
spills in a 20 year period that released 64,014,000 gallons of toxic 
waste. The average spill was 282,000 gallons. Yet, DOE says that salt 
waste spills would not cause damage to the Pascagoula River and the 
adjoining woods and farmland.
    In order to remove oxygen from the brine waste to protect the 
pipelines from rust, DOE would add 360 gallons of ammonium bisulfite 
each day. Ammonium bisulfite is listed as a hazardous chemical by the 
U.S. Occupational Safety and Hazard Administration. The U.S. Coast 
Guard classifies it as a marine pollutant. DOE plans to dump this toxic 
chemical into our coastal waters with the brine waste.
    Currents, tides and ship traffic would allow brine waste into the 
Mississippi Sound, the largest estuary on our coast. Remarkably, DOE 
did not consider tides or winds in the initial Environmental Impact 
Statement and we have yet to get information on the Supplemental EIS.
    Our barrier island passes are key corridors for the larvae and post 
larvae of economically important fish and shellfish to move between the 
gulf and Mississippi Sound. These fragile young organisms may not 
survive the ``brine barrier'' created by the salt waste. Local experts 
in marine life and the seafood industry are deeply alarmed. But DOE has 
not considered the problem. They have not contacted the Gulf Coast 
Research Laboratory (GCRL) or other local experts who volunteered their 
expertise when these and other problems were brought to DOE's attention 
during the public meetings in April 2008.
    The Pascagoula River was listed this year as America's ninth most 
endangered river. The proposed water withdrawal would take place in 
critical habitat for endangered and threatened species.
    To recap the environmental concerns, approximately 80 billion 
gallons of low oxygen, toxic, salt brine waste (roughly 10 times the 
average salinity of the gulf waters) would be dumped into the gulf, 
only 4 miles south of Horn Island Pass and directly in line with the 
Pascagoula Ship Channel. The loss of fresh river water would threaten 
our drinking water supplies and harm the river system. The pipeline 
would leak brine into the Pascagoula River and the woods and farmland. 
The salt waste would create a dead zone in our coastal waters and 
degrade fisheries, destroy critical habitat, and pollute important 
waters necessary for the growth of juvenile fish and shellfish.
           the richton salt dome spr--an economic boondoggle
    Currently, the existing SPR sites are 92 percent full. Oil from the 
SPR has been used only twice during its 20-year history:
  --After Hurricane Katrina shut down 25 percent of the domestic supply 
        of petroleum, the United States used only 1.5 percent of the 
        SPR.
  --During the first gulf war only 2 percent of the SPR was used.
    DOE says that the project would create only 10 to 20 permanent jobs 
on the coast and only 100 in Richton after construction is completed. 
Degrading our river and gulf ecosystems for such a small number of 
permanent jobs is a catastrophe and a disgrace. Worse, DOE failed to 
consider the loss of existing jobs. Apparently, DOE does not value our 
local industrial workers and fishermen. And what about the coast's 
growing tourism industry?
    DOE says that the proposed tank farm site and deep water dock 
required by the project would create only 10 to 20 new jobs while 
consuming up to 49 acres of prime industrial land in the Pascagoula 
Port. Current industrial uses of land in the port provide far more jobs 
per acre. A 49-acre site should produce more than 500 jobs. Do we want 
to lose 450 future jobs on the coast?
    Private landowners who sell their property for the storage site in 
Richton and pipeline rights-of-way are the big beneficiaries of this 
expensive publicly funded project. There is very little public benefit. 
Even DOE acknowledges that their contractors would use ``in-migrating'' 
workers for this work instead of local Mississippi residents.
    Based on the cost of oil at about $70/bbl, the Richton project 
would cost approximately $11 billion for just 18 days worth of oil. 
There are far better ways for America to spend $11 billion. Instead of 
buying a hole in the ground, America should invest in increased 
efficiency and renewable energy systems that would give our children 
cleaner water, better jobs, and a more secure nation.
    The withdrawal of 50 million gallons of water per day for 5 to 6 
years from the Pascagoula River could jeopardize Jackson County's 
ability to supply cooling water to existing and future industries. As a 
recent example, look at the building moratoriums and economic 
disruptions in Georgia as a result of overuse of the Chattahoochee 
River.
    the richton spr expansion site--another example of fat cats and 
                   washington dumping on mississippi
    DOE announced the Richton SPR project 3 days after Katrina struck. 
Within 4 months after Katrina public hearings were completed in 
Jackson. No meetings were held on the coast. Virtually no one from the 
coast knew of the plan; most coast citizens were still concerned with 
immediate recovery needs.
    DOE dodged and ignored public input. Rather than rely on the local 
experts at the Gulf Coast Research Laboratory, they hired a Washington 
contractor to conduct the entire evaluation of the project's effects on 
the coast. None of the project team has ever been on the Pascagoula 
River, the Mississippi or the Gulf of Mexico in Mississippi.
    A citizen outcry in 2008 prompted public meetings finally won coast 
residents an opportunity to participate. More than 400 people attended, 
including businessmen, scientists, and fishermen. They detailed the 
proposed project's many problems, they offered a wealth of information, 
and volunteered their help. Now, a year later, DOE has released the 
supplemental study and still have not bothered to talk to GCRL and 
other local experts who know the river and the coastal waters.
    Again, I urge the Senate Committee on Appropriations Subcommittee 
on Energy and Water Development to keep funding for the proposed 
Richton Salt Dome SPR out of the Federal budget. These are tough 
economic times for everyone and we do not need our Government to spend 
any more resources on DOE's proposed project. Thank you for your 
consideration.
                                 ______
                                 
                   Prepared Statement of Julia O'Neal
  u.s. department of energy strategic petroleum reserves richton salt 
                              dome project
    I strongly support the cancellation of all previous funding for the 
Richton project in the President's fiscal year 2011 budget request for 
the Department of Energy (DOE) and urge the Senate Committee on 
Appropriations Subcommittee on Energy and Water Development and its 
members to support this portion of the proposed budget.
    Along with many others, particularly the Gulf Conservation 
Coalition and the Gulf Restoration Network, I herewith voice my 
objections to the DOE's choosing the most expensive site for the 
expansion of the SPR (the next most expensive, Big Hill, Texas, was 
less about 15 percent of the cost of Richton, largely because of the 
330 miles of pipeline required in Mississippi); the fact that the 
Environmental Impact Statement (EIS) has not been finalized per NEPA 
requirements; and the extensive water pollution and environmental 
destruction the Richton Salt Dome Project would create.
    Others have done an excellent job on the cost and detailed comments 
on the EIS. I would like to highlight the politics of this project. Our 
family farm is about 30 miles north of Biloxi. Katrina was a big 
setback for this area, which has always been poor anyway. The coming of 
the casinos to the Mississippi gulf coast made a big economic change 
there, but the isolated, uneducated culture persists only a few miles 
inland. Because developers never were interested in South Mississippi, 
much of it remains in its natural state--natural, that is, post the 
massive harvest of the longleaf pine at the turn of the last century. 
Most people have no idea what a gem we have in, for instance, the 
largest unregulated river system in the lower 48, the Pascagoula River. 
People are just beginning to tap the potential for ecotourism in an 
area that hosts an annual abundance of neotropical migrating birds, 
clear sandy streams and creeks, and lots of native flora and fauna.
    Mississippi's Governor at the time of Katrina, Haley Barbour, was a 
significant actor in Cheney's Energy Task Force--known to have 
recommended (on behalf of his lobbying client, the Southern Company) 
that George W. Bush renege on his campaign promise to cut emissions 
(http://www.sourcewatch.org/index.php?title=Haley_Barbour). Just weeks 
before Katrina, the Sierra Club released a film connecting the Energy 
Task Force to Barbour's attempt to open up the inner Mississippi gulf 
coast at the barrier islands to oil and gas drilling (http://
www.sierraclub.org/tv/episode-storm.asp, see Episode 6, ``Storm in the 
Gulf ''). Katrina taught us, again, how much we need those undisturbed 
barrier islands.
    Barbour had more Energy Task Force business to conduct. Some 
little-noticed Federal legislation sponsored by then-Representative 
Chip Pickering only allowed DOE to look at previously considered sites, 
or those nominated by a Governor, for expanding the SPR (the Pickering 
Strategic Petroleum Reserve Amendment to the Energy Policy Act of 
2005). Then, on October 18, 2005, just weeks after Katrina, public 
scoping meetings for expansion of the SPR were held in Jackson. Jackson 
oilman Julius Ridgeway, who had contributed $70,000 to the Republican 
Party, testified that his family owned 75 percent of the salt and 
storage rights under the dome (http://www.fossil.energy.gov/programs/
reserves/spr/jackson_meeting_transcript.pdf). Ridgeway announced his 
``cooperation and support'' and Pickering called it ``the largest 
Federal construction project in Mississippi history.'' In 2006, Barbour 
contacted Energy Secretary Samuel Bodman and Deputy Secretary Clay Ball 
offering two sites for the SPR (U.S. Department of Energy Executive 
Secretariat Correspondence Control). In the same year, Bodman's former 
chief of staff, Eric Burgeson, joined Barbour's lobbying firm (http://
www.muckety.com/Eric-Robert-Burgeson/11067.muckety). On February 14, 
2007, Bodman announced Richton would be the site of the new SPR 
facility.
    None of this is illegal of course. But such conflict of interest 
does not serve the American taxpayers' best interests.
    The part of the State that would be most affected by this project 
was otherwise engaged on October 18, 2005. We were looking for water, 
gas, food and shelter, and trying to get out from under massive fallen 
trees. (See the second paragraph of Ronnie Blackwell's 2007 column for 
our confusion about the local SPR site-choice process: http://
ronnieblackwell.com/Wordpress/?p=71).
    The EIS, which cost the DOE $3.7 million, was conducted by ICF 
International, the firm that incompetently conducted the ``Road Home'' 
program in Louisiana after Katrina. I have seen (and can produce on 
request) an e-mail to David Johnson at the DOE from Ian Frost, a 
consultant for ICFI, dated June 6, 2007, that discusses a U.S. Fish and 
Wildlife Service request for an additional U.S. Geological Survey study 
relative to water flow. The e-mail suggests that the consultants are 
more interested in helping DOE get the project built than doing a 
thorough EIS.
    The Richton Salt Dome project aims to pump 50 million gallons of 
water per day out of the Pascagoula and Leaf Rivers. The water will be 
pumped (using lots and lots of fossil fuel) into a land formation 
called the Richton Salt Dome. Instead of mining the salt and selling it 
to the people up north who say they need it for de-icing roads, the 
salt will be mixed with perfectly clean, even potable, water, and 
pumped through the salt dome. Then the highly salted water (``brine'') 
will be pumped into the Gulf of Mexico (using lots more fossil fuel for 
that pump job), where the excess salt in the water will do in marine 
life, including the endangered Gulf Sturgeon. The brine should pretty 
much end oysters, shrimp and fishing in the Mississippi Sound. Any 
aquatic species, plant or fish or mammal, which depends on the brackish 
combination of fresh and salt water will be destroyed. The Salt Dome 
project will deliberately turn pristine water into brine and create a 
Dead Zone in the gulf where it is dumped.
    Meanwhile, about 2 years ago, not-so-far-away Tampa completed a 
$150 million desalination plant. They need fresh water; we apparently 
don't.
    Three years after the rushed meeting in Jackson, about which we 
knew little, the DOE had a final EIS. We on the coast were dumbstruck, 
and our Representative, Gene Taylor, insisted that public hearings be 
conducted in the area that would be affected, which had never taken 
place previously (http://www.gulfcoastnews.com/
GCNnewsRichtonSaltDomeHearingsTaylor012408.htm). So the DOE 
condescendingly scheduled three ``open meetings'' (http://
gulfconservationcoalition.com/docs/USDOE.SUP.EIS.Meeting.Notice.PDF).
    And what do we U.S. citizens get for our $3.5-$4 billion? We will 
have 160 million gallons of unrefined oil, supposedly enough to run the 
United States for 2 weeks. Here's what has to be built just to deliver 
the crude to the Chevron refinery: http://fossil.energy.gov/programs/
reserves/spr/Richton_WebSite_Fact_Sheet.pdf. You can almost hear the 
simple slide presentation, but behind it lie a lot of dead birds and 
fish. And note that one-half the oil goes to a Naval Station, not to 
civilians or businesses.
    What about the environmental consequences? Well, the DOE has 
studied them carefully: http://www.fossil.energy.gov/programs/reserves/
publications/Pubs-SPR/2006_SPR_EIS.html.
    Click on chapter 3, section 3.6, ``Water Resources.'' Richton 
surface water analysis begins on p. 3-130. There are four pages of 
tables describing the impact on creeks and streams--generally the same 
phrase ``Impaired use for aquatic life support.'' Originally, I thought 
``N/A'' in the tables must mean ``not affected.'' Nope: ``not 
available.'' They didn't bother. For most of the surface water in the 
vicinity of Richton, the impact of the salt dome project is 
``impaired'' or ``not available.'' It is hard for me to believe that 
the impairment extends so far upstream into tributaries . . . even to 
Black Creek, a U.S. Fish and Wildlife Service designated ``Wild and 
Scenic River.''
    After 2 weeks, then what? No water, no fish, no birds, and, 
presumably, the emergency oil supply is gone. Why not just spend the 
$3.5 billion this project will cost on solar panels for American homes? 
At least they would last longer than 2 weeks--and a little fan, a 
little light, a few communication devices like TV or radio or Internet, 
all that means a lot in an emergency. We know. We lived through 
Katrina, and everything was not OK after 2 weeks.
    Despite promises, we never saw any revisions to the EIS based on 
our many comments in 2008. To our knowledge, no scientists we 
recommended were consulted. The hearings were meant to placate the 
public, not to listen.
    At a time when no one seriously questions that burning fossil fuels 
is changing our climate far more rapidly than we can control, our 
Government can't seem to get off the teat. First we dig up the oil, 
then we dig another hole and put it back in the ground. It's stupid, 
dirty, and dangerous to the water we need.
                                 ______
                                 
     Prepared Statement of the Coalition of Northeastern Governors
    The Coalition of Northeastern Governors (CONEG) is pleased to 
provide this testimony to the Senate Committee on Appropriations 
Subcommittee on Energy and Water Development regarding fiscal year 2011 
appropriations for the U.S. Department of Energy (DOE). The CONEG 
Governors request funding for the following Energy Efficiency and 
Renewable Energy Programs: $300 million for the Weatherization 
Assistance Program and $30 million for the Innovation in Weatherization 
Program, at least $75 million in the base appropriations for the State 
Energy Program, and $230 million for the Building Technologies Program. 
In addition, the Governors request at least $129 million for the Energy 
Information Administration, and sufficient funding for maintenance and 
operation of the Northeast Home Heating Oil Reserve. The Governors 
support the President's request for increased funding of solar energy, 
wind energy and electricity reliability programs; and also urge the 
committee to ensure that, through the U.S. Department of Energy, $7.5 
million is provided to maintain the critical networks and market 
development work of the National Biomass Partnership (previously known 
as the Regional Biomass Energy Program).
    The Governors recognize the daunting fiscal challenges facing the 
subcommittee this year, and thank you for your past support for these 
vital programs. Continued investment in these very successful energy 
programs is a crucial step toward achieving the Nation's energy 
security, economic and environmental goals.
          weatherization assistance and state energy programs
    The Nation's current economic situation has placed a new emphasis 
on the benefits of the Weatherization Assistance Program (WAP) and the 
State Energy Program (SEP). Working with all 50 States, the District of 
Columbia and U.S. Territories, these successful programs allow States 
to quickly and efficiently implement energy saving technologies and 
practices, creating green jobs and achieving real savings for families 
struggling with unaffordable home energy costs. The Governors thank the 
subcommittee for providing substantial funding for these crucial 
programs in the American Recovery and Reinvestment Act (ARRA). While 
there have been some challenges at the State and Federal level in 
ramping-up these programs and meeting new ARRA program requirements, 
States and the Federal Government have worked together to find 
effective solutions. More than one-half of the SEP funds (over $1.8 
billion) are committed, and spending of WAP funds is accelerating 
rapidly and on target to reach the goal of weatherizing 600,000 homes 
by March 2012. Continued base funding is needed in fiscal year 2011 to 
help sustain valuable green jobs and to realize and effectively assess 
the continuing energy and environmental benefits of these programs.
    Weatherization Assistance Program.--The CONEG Governors request 
$300 million in fiscal year 2011 for the WAP, plus $30 million for 
continuation of the Innovation in Weatherization program. 
Weatherization is an immediate and effective tool to manage the energy 
use of low-income households. The need continues to be great. Forty-
nine percent of these households are occupied by the elderly or 
disabled; and these households can spend as much as 20 percent of their 
annual income on home energy bills compared to just 3 percent by other 
households. Since its inception in 1976, WAP has weatherized more than 
6.25 million low-income residences across the county. In addition to 
the stimulus funds, the program uses nearly $1 billion in Federal, 
State, local, utility, and private funds to reach more than 150,000 
homes each year.
    Through a State-managed network of more than 900 local 
weatherization providers, WAP increases residential energy efficiency. 
The program, which provides specialized training and career 
development, creates a workforce trained in the most advanced 
assessment and installation techniques. Weatherization service 
providers perform comprehensive computerized energy audits of each 
home, and provide a package of efficiency measures tailored to the 
individual needs of each household.
    Many of these weatherization measures include inexpensive, yet 
effective upgrades such as installing insulation; sealing ducts; and 
tuning and repairing heating and cooling systems. In addition, the 
program uses a ``whole house'' approach, incorporating advanced 
technologies to address comprehensive energy usage in low-income homes, 
as well as related health and safety improvements. DOE estimates that 
the program returns $1.67 in energy-related benefits for every $1 
invested.
    This successful public-private partnership creates considerable 
investments in local economies across the country; provides continued 
professional development for workers; and contributes to increased home 
values, and the health and safety of the Nation's most vulnerable 
citizens. The program yields benefits that are far-reaching and long-
lasting.
    The goal of the complementary Innovation in Weatherization program 
is to demonstrate new ways to weatherize low-income homes while 
lowering the Federal cost for residential energy retrofits. Through 
partnerships with organizations such as non-profits, labor unions, and 
private contractors, the program strives to obtain $3 in non-Federal 
contributions for every $1 invested by DOE.
    State Energy Program.--The CONEG Governors request at least $75 
million in the base appropriations for the SEP in fiscal year 2011. 
Ensuring this base funding level is critical for the SEP to continue as 
the nationwide cornerstone of the State-Federal-private partnership for 
many energy efficiency and conservation programs. Especially for the 
smaller States, the base SEP program allows them to dramatically expand 
program delivery and leverage non-Federal resources with Federal funds. 
SEP is vital to achieving energy efficiency and conservation in energy 
end-use sectors such as buildings, industrial, agriculture, 
transportation, and power generation. The program, which has a proven 
track record of effectiveness, assists States' initiatives that help 
realize national goals of greater energy efficiency; reduced energy 
costs; development of alternative and renewable energy resources; and 
reduced reliance on imported sources of energy. The SEP also helps 
States in their critical emergency preparedness activities, improving 
the security and reliability of energy infrastructure, and preparing 
for natural disasters.
    SEP funding provides States with the flexibility to tailor their 
renewable energy and energy efficiency programs to maximize the 
effectiveness of the program's resources. The Northeast States have 
used SEP funds to support projects to update emergency plans to 
anticipate and respond to potential shortages of electric power, 
natural gas and deliverable fuels. SEP funds have also been used by 
State agencies to assist in reducing energy use in commercial and 
institutional buildings, fleets, and equipment; perform small business 
energy audits; and provide public information and education to local 
residents, small businesses, farmers, and others to make them aware of 
opportunities to reduce energy consumption and energy bills.
    The modest (non-ARRA) Federal funds provided to the SEP are an 
efficient and effective Federal investment, yielding substantial and 
extensive energy and economic benefits. States can ensure that the 
energy improvements are delivered, since most SEP work is undertaken 
through leveraged agreements and reimbursable contracts. According to 
the most recent Oak Ridge National Laboratory study, $1 in SEP funding 
yields: $7.22 in annual energy cost savings; $10.71 in leveraged 
funding; annual energy savings of 47,593,409 million source BTUs; and 
annual cost savings of more than $333 million. The environmental 
benefits are equally as impressive resulting in an annual reduction of 
carbon emissions of 826 million metric tons--the same amount produced 
by 582,000 automobiles in a single year.
                         building technologies
    The CONEG Governors request $230 million in fiscal year 2011 for 
the Building Technologies Program (BTP). The program has created unique 
and effective partnerships with States, industry, national 
laboratories, universities and manufacturers to improve the energy 
efficiency of new and existing buildings, and the equipment and systems 
within them.
    According to the Department of Energy, buildings account for more 
than 70 percent of the electric energy consumed in the United States 
and are responsible for 38 percent of total U.S. carbon dioxide 
emissions. With roughly 15 million new buildings projected to be built 
by 2015, a tremendous opportunity exists for the development and 
deployment of energy efficient technologies and building practices. The 
potential environmental benefits and energy and cost savings are 
significant.
    BTP develops and promotes deployment of technologies to make new 
and existing homes and buildings less energy intensive. One of the 
strategic goals of BTP is to create net zero energy buildings that, 
through a combination of on-site renewable energy and increased 
efficiency, can generate an equal or greater amount of energy than they 
consume from the grid. The program pursues this goal through 
complementary activities that include R&D; development and improvement 
of equipment standards and analysis; and introduction of new advanced 
technologies and the widespread use of highly efficient technologies 
already in the market.
    BTP also collaborates with other DOE programs as well as partners 
of the highly successful ENERGY STAR program to increase awareness, 
availability and purchase of energy efficient appliances, lighting and 
windows. According to DOE, in 2006, ENERGY STAR saved 170 billion 
kilowatt hours--or almost 5 percent of the total 2006 electricity 
demand--and helped avoid greenhouse gas emissions equivalent to those 
from 25 million automobiles.
                   energy information administration
    The Governors support fiscal year 2011 funding for the Energy 
Information Administration (EIA) at least at the level of $129 million. 
EIA is the Nation's foremost source of reliable independent 
information, analyses and forecasts on the energy produced, imported 
and consumed in the United States. As Congress and the administration 
continue to develop and debate critical energy and environmental 
strategies, EIA is increasingly and consistently called upon to provide 
unbiased, timely and reliable information. In addition, States rely on 
EIA data as the core of their information for energy emergency 
planning. New requirements included in the Energy Independence and 
Security Act of 2007, as well as the evaluation of an increasingly more 
complex and interdependent energy industry has created a vastly 
increased workload for EIA and the need for more rigorous data 
collection and analysis.
    A modest increase in funding in fiscal year 2011 will help ensure 
that EIA can continue to provide the most accurate and reliable 
information on the energy markets and industry.
                   northeast home heating oil reserve
    The CONEG Governors request sufficient fiscal year 2011 funding for 
maintenance and operation of the Northeast Home Heating Oil Reserve. 
The Nation's heightened emphasis on energy reliability and security 
places renewed importance on the Reserve.
    Almost 70 percent of the 7.7 million households heating primarily 
with home heating oil are in the Northeast, making the region 
particularly vulnerable to the effects of supply disruptions and price 
volatility. The Northeast region is literally at the end of the energy 
product pipeline. Any disruption along the delivery infrastructure 
anywhere in the country negatively impacts the Northeast. The Reserve 
is strategically placed in ports along the northeast coast to respond 
rapidly and efficiently to any emergency supply interruption. The 
Reserve is designed to provide an emergency supplemental supply over a 
10 day delivery period--the time required for ships to carry heating 
oil from the Gulf of Mexico to New York Harbor--in the event of a 
supply disruption or shortage in the Northeast. Adequate funding will 
ensure the Reserve is maintained in a high state of readiness and 
capable of completing an immediate drawdown if needed.
                     renewable and reliable energy
    Renewable, reliable energy contributes to the achievement of 
multiple regional and national goals, including lowering greenhouse gas 
emissions, increasing and diversifying domestic energy supply, creating 
new jobs, and enhancing the Nation's energy security. A strong Federal 
partner and consistent and sustained funding for solar energy, wind 
energy and electricity reliability programs are essential. Therefore, 
the Governors support the President's request for increased funding for 
these important programs.
    The Governors also request that the subcommittee ensure that, 
through the U.S. Department of Energy, $7.5 million is provided to 
maintain the critical networks and market development work of the 
National Biomass Partnership (previously known as the Regional Biomass 
Energy Program). The Partnership, a collaboration of five regional 
biomass energy programs created by Congress, is a critical link in the 
chain of research, resource production and technology commercialization 
that is essential to bringing bioenergy technologies successfully into 
the marketplace.
    The States contribute significant resources to support the 
development of biomass fuels, technology, and infrastructure. The 
Partnership has demonstrated its ability to expedite deployment of the 
biomass fuels, technology, and infrastructure that is necessary to 
reach common goals of States and the Federal Government. In the 
Northeast alone, the Northeast Regional Biomass Program (NRBP) directly 
influenced $24 million in biomass investments--69 percent of the 
overall biomass investment made in the region in 2003. Working with 
State, Federal and private sector officials, the NRBP has provided 
bioenergy education and training to nearly 3,000 people in the region 
and contributed to State-developed bioenergy policies and programs. 
However, the absence of a strong Federal partner threatens this State-
private sector effort to better coordinate the institutional and 
physical infrastructure for deployment of sustainable biomass fuels and 
bioenergy technologies.
    In conclusion, the Coalition of Northeastern Governors (CONEG) 
request that you provide $300 million for the Weatherization Assistance 
Program and $30 million for the Innovation in Weatherization Program, 
at least $75 million in the base appropriations for the State Energy 
Program, $230 million for the Building Technologies Program, at least 
$129 million for the Energy Information Administration, and $7.5 
million for the work of the National Biomass Partnership. In addition, 
the Governors support the President's request for increased funding of 
solar energy, wind energy and electricity reliability programs, and 
sufficient funding for maintenance and operation of the Northeast Home 
Heating Oil Reserve.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2011 appropriation for the 
Department of Energy (DOE) science programs. The ASM is the largest 
single life science organization in the world with more than 40,000 
members. The ASM mission is to enhance the science of microbiology, to 
gain a better understanding of life processes, and to promote the 
application of this knowledge for improved health and environmental 
well being.
    The ASM supports the administration's fiscal year 2011 budget of 
$5.1 billion for the DOE Office of Science, a 4.4 percent increase from 
fiscal year 2010. The ASM endorses the administration's pledge to 
double funding for the DOE Office of Science by fiscal year 2017. The 
Office of Science funds intramural and extramural research that might 
not be undertaken otherwise due to its complexity or cutting edge and 
theoretical nature. However, such research leads to the technological 
innovations needed to enhance our economy, our workforce, and our 
environment.
    The DOE's Office of Science is the largest sponsor of basic 
research for the physical sciences in the United States, and also 
supports substantial life sciences research. It supports more than 
7,000 individual research projects at more than 300 academic 
institutions, and 10 DOE national laboratories. It also provides access 
to leading edge research facilities for extramural investigators, 
including an estimated 26,000 that will use these facilities in fiscal 
year 2011.
              biological and environmental research (ber)
    The Office of Biological and Environmental Research, within the DOE 
Office of Science, oversees research and facilities that support DOE's 
energy, environment, and basic research missions. BER sponsored 
research provides the foundational science underpinning DOE's goals for 
development of clean bioenergy sources, remediation and long term 
stewardship of legacy environmental contamination and understanding the 
impacts of climate change on Earth's ecosystems.
    BER programs enable solutions for some of the Nation's most 
difficult energy related and environmental challenges by advancing our 
basic understanding of climate change, biofuels, carbon sequestration, 
remediation of subsurface contaminants, and interactions of biological 
and physical systems. Wide ranging studies of microbes are central to 
all of these efforts and include pioneering studies of the genetic 
potential of individual organisms and microbial communities in complex 
environments, as well development of new bioinformatics tools for 
effectively managing and utilizing large datasets to advance genome 
enabled scientific research.
                            genomic science
    The BER Genomic Science program (formerly Genomics: GTL) 
accelerates the development of practical solutions to energy and 
environmental problems by understanding the integrated biological 
systems of microbes and plants that govern their structure and 
function. This program uses high throughput genome sequencing and 
cutting-edge systems biology research techniques to understand key 
biological processes, ranging from molecular-scale networks of single 
cells to community scale interactions of ecosystems. In addition to 
directly supporting DOE mission driven research efforts at academic 
institutions and DOE national laboratories, publicly accessible genomic 
and metagenomic sequence data produced by DOE facilities encourage and 
support innovation while helping to solve environmental problems and 
energize commercial biotechnology in the United States. Addressing 
complex environmental and energy problems requires innovative, cross 
cutting research. The Genomic Science program supports a wide range of 
interdisciplinary research efforts with a strong microbiological 
component. For example, a recent program, ``Biological Systems Research 
on the Role of Microbial Communities in Carbon Cycling'' seeks to 
develop new integrated research efforts in genome enabled systems 
biology, environmental microbiology, and modeling of biogeochemical 
processes aimed at understanding how shifts in environmental variables 
impact microbially mediated carbon cycling. Gaining better quantitative 
knowledge of these processes is critical for predicting the storage or 
release of carbon from ecosystems and potential levels of 
CO<INF>2</INF>, methane, and other atmospheric greenhouse gases.
                      joint genome institute (jgi)
    BER funding supports the DOE Joint Genome Institute (JGI), which 
has sequenced over 450 microbial genomes, more than 200 ``metagenomes'' 
of microbial communities, and 25 plant genomes with energy and 
environmental significance. The JGI provides access for external 
researchers to its state of the art sequencing and bioinformatic 
capabilities. Current sequencing capacity (about four tera-base pairs 
per year) is continually expanding with advances in sequencing 
technology and computing. JGI researchers generate results that push 
the boundaries of genomics, sequencing organisms that degrade 
cellulose, capture carbon, and transform environmental contaminants. 
Their discoveries help stakeholders make decisions about the selection 
of new bioenergy crops and cost effective bioenergy production.
                       bioenergy research centers
    BER supports three DOE Bioenergy Research Centers (BRCs, 
established in 2007) tasked with developing innovative strategies for 
biofuels production. When created, the multidisciplinary Centers 
brought together teams of researchers from 18 of the Nation's leading 
universities, 7 DOE national laboratories, 1 nonprofit organization, 
and a range of private companies. Their mission is to perform 
fundamental research addressing barriers to economic production of 
energy from cellulosic biomass, and drastically to reduce the Nation's 
consumption of fossil fuels. Goals include identification of next 
generation bioenergy crops, discovery of enzymes and microbes that 
degrade biomass, and creation of microbe-mediated models of fuel 
production of bioethanol and other biofuels. Each center applies 
cutting edge technologies and research methods for a wide range of 
biomass sources while managing massive data sets in the search for 
tomorrow's clean energy.
    Headquartered at DOE's Oak Ridge National Laboratory, the 
University of Wisconsin-Madison, and DOE's Lawrence Berkeley National 
Laboratory, the three BRCs are investigating microbial processes that 
can convert diverse crops, such as switchgrass and poplar, into usable 
fuels. Specific examples include the BioEnergy Science Center's 
approaches for screening samples from natural thermal springs to 
identify enzymes and microbes that effectively transform biomass at 
high temperatures, and to genetically engineer a lignocellulose 
degrading microbe for ethanol production. Researchers at the Great 
Lakes Bioenergy Research Center are developing more refined metabolic 
models of in microbes to enable design of metabolic engineering 
strategies for enhanced biofuel production. The Joint BioEnergy 
Institute is pursuing synthetic biology research on microbial synthesis 
of a variety of hydrocarbon compounds with higher energy content than 
ethanol and better compatibility with existing fuel distribution 
infrastructure.
                      basic energy sciences (bes)
    The Office of BES, administered within the Office of Science, 
supports fundamental research to understand, predict, and control 
matter and energy at electronic, atomic, and molecular levels, thus 
providing the foundations for new energy technologies and supporting 
DOE missions in energy, environment, and national security. The 
portfolio supports work in the natural sciences, emphasizing 
fundamental research in materials sciences, chemistry, geosciences, and 
aspects of biosciences. BES also operates sophisticated state of the 
art equipment and facilities open to investigators from private 
institutions, universities, and national laboratories. Research 
highlights include determination of the structure and organization of 
the highly efficient light harvesting complex in green sulfur bacteria, 
elucidation of protein synthesis mechanisms by methane producing 
bacteria, characterization of critical components of algal light 
harvesting complexes, and determination of the biosynthetic pathway for 
methane production from CO<INF>2</INF> and hydrogen.
    In 2009, BES Energy Biosciences evolved into two complementary and 
synergistic programs, Photosynthetic Systems and Physical Biosciences. 
Both programs support unique areas of fundamental research on plant and 
non-medical microbial systems.
                         photosynthetic systems
    The BES Photosynthetic Systems program supports fundamental 
research on the biological conversion of solar energy to chemically 
stored forms of energy, bringing together biology, biochemistry, 
chemistry, and biophysics approaches to study natural photosynthesis 
and related processes. Advances in genomics technologies such as 
metabolomics along with increased availability of plant genomic 
sequences are also providing new opportunities to leverage the 
strengths of the Photosynthetic Systems program in molecular biology 
and biochemistry with powerful capabilities in imaging and computation. 
Example topics include light harvesting, exciton transfer, charge 
separation, transfer of reductant to carbon dioxide, and the 
biochemistry of carbon fixation and carbon storage. Emphasized areas 
are those involving strong intersections between biological sciences 
and energy-relevant chemical sciences and physics, such as in self 
assembly of nanoscale components, efficient photon capture and charge 
separation, predictive design of catalysts, and self-regulating/
repairing systems. The program aims to provide a critical scientific 
knowledge base that can inspire the roadmap for artificial 
photosynthesis and enable new strategies and technologies for more 
efficient generation of biomass as a renewal energy source.
                          physical biosciences
    The BES Physical Biosciences program combines experimental and 
computational tools from the physical sciences with biochemistry and 
molecular biology. The goal is increased fundamental understanding of 
the complex processes that convert and store energy in plants and non 
medical microbes, including archaea. Examples of research supported by 
this program include studies that investigate the mechanisms by which 
energy transduction systems are assembled and maintained, the processes 
that regulate energy relevant chemical reactions within the cell, the 
underlying biochemical and biophysical principles determining the 
architecture of biopolymers and the plant cell wall, and active site 
protein chemistry that provides a basis for highly selective and 
efficient bioinspired catalysts. Combined with efforts in molecular 
biology and biochemistry, increased use of physical science and 
computational tools (ultrafast laser spectroscopy, current and future 
x-ray light sources, quantum chemistry) to probe spatial and temporal 
properties will give us an unprecedented architectural and mechanistic 
understanding of biological systems and allow the incorporation of 
identified principles into the design of bio-inspired synthetic or 
semi-synthetic energy systems.
                                 epscor
    The BES administered Experimental Program to Stimulate Competitive 
Research (EPSCoR) also supports a significant sector of the Nation's 
energy research, distributing university grants in a number of States 
across the country. EPSCoR's interdisciplinary program areas include, 
among many others: biological and environmental science, advanced 
computer science, renewable energy science, climate change, genomics, 
and science education. EPSCoR has traditionally provided academic 
incubators for innovation and economic recovery.
           research infrastructure and the nation's workforce
    More than 30,000 scientists and engineers work at DOE laboratories 
and technology centers, but many more are supported through grants and 
fellowships, or the use of cutting edge facilities and equipment that 
often are one of a kind. An example was last September's announcement 
of up to $12.5 million in Recovery Act funding for at least 80 graduate 
fellowships to U.S. students pursuing advanced STEM-related degrees, 
through the Office of Science's new Graduate Fellowship program.
    DOE's Office of Science has also initiated an Early Career Research 
Program, designed to bolster the Nation's scientific workforce by 
providing support to exceptional researchers during the crucial early 
career years when many scientists do their most formative work.
    Another Office of Science program, Workforce Development for 
Teachers and Scientists, specifically targets workforce shortages and 
provides college undergraduates and K-12 teachers with DOE laboratory 
experiences, designed to attract more young Americans into the STEM 
workforce.
    The Office oversees 10 world class facilities: the Ames, Argonne, 
Brookhaven, Lawrence Berkeley, Oak Ridge, Pacific Northwest, and 
Princeton Plasma Physics national laboratories, plus the Fermi, Thomas 
Jefferson, and SLAC accelerator facilities. These institutions 
encourage use by outside researchers and students, typically without 
cost, if results are posted for public knowledge. Each SC facility is 
an invaluable resource of unique research tools for scientific 
specialists. The Environmental Molecular Sciences Laboratory at the 
Pacific Northwest National Laboratory has hosted more than 10,000 
scientists from all 50 States and more than 60 countries since its 
opening in 1997. This year, the DOE will permit extramural use of 
roughly 1.3 billion supercomputer processor hours at its Argonne and 
Oak Ridge facilities, awarded to researchers whose projects would be 
impossible without petascale (quadrillion calculations per second) 
computing.
                               conclusion
    The ASM supports increased funding for the DOE Office of Science in 
fiscal year 2011 and urges Congress to fund the Office of Science with 
at least $5.1 billion. The diverse Office of Science programs and their 
successes advance the DOE's strategic mission to sustain the pace of 
scientific discovery and to educate and train a vital scientific 
workforce. Global climate change, clean energy, and pristine 
environments are challenges that demand sustained responses from the 
United States' science and technology sectors. DOE funded science and 
engineering are integral to our Nation's search for solutions. The 
Office of Science leads this effort with notable basic and applied 
energy research, which often is unique in its complexity, technical 
requirements, or high risk, high impact design.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the subcommittee as it considers the 
fiscal year 2011 appropriation for the DOE.
                                 ______
                                 
  Prepared Statement of the Electric Drive Transportation Association
    The Electric Drive Transportation Association (EDTA) is the cross-
industry trade association promoting the advancement of electric drive 
technology and electrified transportation and we are writing regarding 
the fiscal year 2011 request for the Department of Energy's Vehicle 
Technologies and other electric drive programs.
    Our members include vehicle manufacturers, battery and component 
manufacturers, utilities and energy companies, and smart grid and 
charging infrastructure developers. We are committed to realizing the 
economic, security, and environmental benefits of displacing oil with 
battery electric, hybrid, plug-in hybrid and fuel cell vehicles.
    The Nation is moving toward an electrified fleet and the electric 
drive industry is advancing into the marketplace as rapidly as 
possible. Electric drive is already in use in passenger cars, 
commercial trucks, neighborhood electric vehicles, public transport 
buses, tractors and ground support equipment. As the industry invests 
in research and development, advanced manufacturing and coordinated 
deployment initiatives, the Department of Energy's continued commitment 
to fast-tracking electrified transportation is critical to our success.
    We support the fiscal year 2011 budget's focus on advancing 
electric drive vehicle technologies that will reduce petroleum 
consumption and air pollutants while increasing energy security and 
global competitiveness. Like the electric drive industry itself, the 
Department of Energy is undertaking crosscutting efforts to move 
electric drive vehicles and infrastructure forward.
    In particular, we believe that the requested increases for 
batteries and electric drive research and development (in a separate 
Vehicle Technologies program in the fiscal year 2011 request) can 
accelerate critical cost reduction and performance advancements. The 
additional efforts funded in the Technology Integration account's Clean 
Cities program will support the industry's own efforts to expand 
deployment of electric drive vehicles and recharging infrastructure. 
Establishment of a batteries and energy storage ``innovation hub'' in 
the Office of Science ensure that we continue pushing for the next 
breakthroughs even as we are moving electric drive vehicles into the 
market and the mainstream.
    In addition to these essential investments, we also see areas in 
which the budget request misses key opportunities to advance a diverse 
portfolio of electric drive vehicles. Specifically, the Department of 
Energy has established a program and a pathway for building U.S. 
manufacturing capacity for advanced vehicles in the Advanced Technology 
Vehicle Manufacturing (ATVM) program. Although the program had more 
applicants establish electric drive manufacturing in the United States 
than funds, the fiscal year 2011 budget does not request any additional 
new award resources for the program. Additional funds for the ATVM 
program will promote industry investment in U.S. manufacturing, speed 
the vehicles to market and help build the foundation of the green jobs 
economy.
    Another area in which the request is missing an opportunity is in 
the hydrogen and fuel cell programs, specifically as it relates to 
development of fuel cell electric vehicles and hydrogen refueling 
infrastructure. Fuel cell electric vehicles are important electric 
vehicle options because of their performance in diverse vehicle 
applications. The industry, working with the Department, has met 
critical program milestones in reducing cost, enhancing performance and 
deploying fuel cell electric vehicles for real world use. Looking 
beyond today's fleet, the National Academy of Science has also 
emphasized that achieving U.S. energy security and environmental goals 
will require a portfolio of advanced technology vehicles, which needs 
to include zero-emission fuel cell options.
    The fiscal year 2011 budget request maintains the Department's 
commitment to hydrogen and fuel cell research, which we appreciate and 
support. However, at $37 million below last year's funded level--a 21 
percent cut in funding--the commitment is a tepid one. The request 
would eliminate all fuel cell electric vehicle deployment activities in 
Technology Validation and ``defer'' funding for early market 
development. This short-sighted approach undercuts the industry's own 
investments, slows momentum to commercialization and will hurt consumer 
confidence in emerging markets.
    We urge you to extend the Technology Validation demonstration for 
an additional year to provide technology insertion and to ensure that 
funding for vehicle and infrastructure deployment, market 
transformation, as well as education and other enabling activities, is 
sufficient to enable the industry to build on technology and market 
achievements.
    As a partner in the effort to establish a secure and sustainable 
transportation sector, the Department of Energy is accelerating 
technology breakthroughs, promoting investment in manufacturing 
capacity and speeding deployment of vehicles and infrastructure. We are 
pleased that Department's fiscal year 2011 budget builds on its 
commitment to transportation electrification with increases for 
vehicles and recharging infrastructure development and deployment. We 
also respectfully ask that you improve on that effort by supporting 
advances in the full electric drive portfolio: battery electric, hybrid 
and fuel cell electric vehicles.
    We thank you for your consideration.
                                 ______
                                 
           Prepared Statement of the Nuclear Energy Institute
    The Nuclear Energy Institute \1\ (NEI) supports fiscal year 2011 
funding for the following Department of Energy programs and the Nuclear 
Regulatory Commission:
---------------------------------------------------------------------------
    \1\ The Nuclear Energy Institute is the industry's policy 
organization, whose broad mission is to foster the beneficial uses of 
nuclear technology in its many commercial forms. Its membership, more 
than 350 corporate members in 17 countries, includes every U.S. utility 
that operates a nuclear power plant as well as international utilities, 
plant designers, architect and engineering firms, uranium mining and 
milling companies, nuclear service providers, universities, 
manufacturers of radiopharmaceuticals, universities, labor unions and 
law firms.
---------------------------------------------------------------------------
  --Innovative Technology Loan Guarantee Program Office--$38 million 
        for administrative expenses and $36 billion in new loan 
        guarantee authority for nuclear power projects
  --Fuel Cycle Research and Development--$201 million
  --Reactor Concepts Research, Development and Demonstration--$195 
        million
  --Nuclear Energy Enabling Technologies--$99.3 million
  --Integrated University Program--$45 million
  --Advanced Test Reactor User Facility--$20 million
  --Idaho Facilities Management--$177.5 million
  --Radiological Facilities Management--$66.8 million
  --Environmental cleanup at DOE sites--$6 billion
  --Nuclear Regulatory Commission budget--$1 billion
    America's nuclear energy facilities in 2009 continued a decade of 
exemplary performance. Nuclear energy continues to surpass all other 
electricity sources with an industry average capacity factor of 90.5 
percent. This reliability enabled the Nation's 104 reactors to produce 
approximately 800 billion kilowatt-hours of electricity--enough for 
about 80 million homes--at production costs lower than coal and natural 
gas-fired power plants. Nuclear power plants in 31 States generate more 
than 70 percent of the U.S. electricity that comes from carbon-free 
sources. NEI believes the budget proposed for DOE's Office of Nuclear 
Energy is indicative of the administration's belief that nuclear energy 
is essential to America's future electricity supply, energy security 
and greenhouse gas emission reduction goals.
   uranium enrichment d&d fund tax undue burden on utility ratepayers
    NEI opposes the proposed $200 million annual tax on utilities to 
pay yet again for the decommissioning and decontamination fund at DOE 
uranium enrichment facilities.
    The Obama administration is seeking reinstatement of the uranium 
enrichment decontamination and decommissioning fund, with a proposed 
tax on electric utilities of $200 million a year through 2026. Electric 
utilities have already paid twice for decommissioning and 
decontamination at uranium enrichment plants that originally were 
operated by DOE--first as part of the price for uranium enrichment 
services from the facilities and again under provisions of the Energy 
Policy Act of 1992. Under the 1992 law, the tax on utilities generated 
$2.25 billion, adjusted for inflation. The President's fiscal year 2011 
budget would impose the tax yet a third time for cleanup at these 
sites, representing a new tax on all Americans. This proposal is 
unnecessary given the Federal fund for this cleanup program has a 
balance of $4.6 billion. A proposal to reinstate the fund in the fiscal 
year 2010 budget was defeated by Congress.
    industry supports $36 billion for innovative technologies loan 
                           guarantee program
    The nuclear industry appreciates the support provided by the 
subcommittee for the DOE loan guarantee program for nuclear energy 
plants and uranium fuel cycle facilities. NEI urges the subcommittee to 
approve the administration's proposal to add $36 billion in loan volume 
for nuclear energy plants. The industry has demonstrated the need for 
this new authority: 10 nuclear power projects reportedly submitted Part 
II loan guarantee applications representing $93.2 billion in loan 
volume. Two uranium enrichment projects submitted applications seeking 
$4.8 billion, more than double the available amount.
    The loan guarantee program for nuclear energy is self-financing, 
with project sponsors responsible for underwriting the cost of 
providing the credit support to the Federal Government. Properly 
implemented, there will be no cost to the taxpayer. In addition, 
reducing the cost of capital will reduce project costs and lower 
electricity prices for all consumers. Southern Co. projects that its 
$3.4 billion share of the $8.3 billion loan guarantee for two reactors 
at the Vogtle plant in Georgia is expected to save consumers $15 
million to $20 million in interest costs annually over the life of the 
loan. The nuclear industry is confident that new nuclear generating 
capacity will be competitive and is not aware of any credible 
mainstream analysis that shows otherwise. In last year's National 
Academies' report, America's Energy Future, new nuclear capacity 
competes well against all other baseload options in a carbon-
constrained world.
    NEI believes the loan guarantee program's credibility and integrity 
rest on demonstrable proof that the lender's interest is well-
protected. NEI supports rigorous due diligence being conducted by the 
DOE loan guarantee program office. In addition to legal, financial and 
market analysis of proposed projects, DOE will use an independent 
engineer to monitor construction progress and certify that construction 
is proceeding according to plan before authorizing each month's draw 
against the guaranteed loan. DOE's due diligence process, together with 
the fact that new nuclear power plants will be competitive, should 
ensure that the probability of default--and thus risk to the taxpayer--
is extremely low. NEI urges Congress to support DOE's request to fully 
cover the program's administrative costs in fiscal year 2011, which 
will result in a net zero appropriation given offsetting collections 
from loan applicants for nuclear energy projects.
    ensuring adequate funding for the nuclear regulatory commission
    The industry supports fiscal year 2011 funding at the NRC's 
requested level. However, the industry recommends that NRC 
appropriately, and more expeditiously, resolve long-standing regulatory 
issues. The industry applauds the continued oversight of the NRC by 
Congress to prioritize agency actions. The agency should be more 
transparent in its budgeting to reveal planned staffing and resource 
needs by individual divisions. This would demonstrate to Congress, the 
public and the industry, which pays 90 percent of the NRC's budget, 
that the budget fairly reflects those activities that should be 
allocated toward licensee-specific charges rather than general license 
fees. NEI supports continuation of the Integrated University Program, 
which includes support for universities and community colleges.
                integrated used fuel management program
    The administration's decision to withdraw the construction license 
application for a Federal repository at Yucca Mountain, Nevada is not a 
repudiation of the Government's obligation under the Nuclear Waste 
Policy Act to dispose of used nuclear fuel from commercial reactors and 
defense applications. NEI does not support the termination of the Yucca 
Mountain repository project. Any effort to shut down the site and 
remediate it is premature. Numerous State and local governments and the 
National Association of Regulatory Utility Commissioners are seeking 
admission to the NRC licensing proceeding to oppose DOE's withdrawal of 
the application. Several opponents also have brought suit to stop this 
action. The project should proceed and be funded so that the technical 
review of the license application is completed. If the NRC licensing 
proceeding for the project is terminated, it should be done in a manner 
that would permit it to be restarted. Project records, tests, samples, 
etc. should be preserved so that they can be used should the project be 
resumed.
    If the Yucca Mountain project is terminated, consumer payments into 
the Federal Nuclear Waste Fund should be suspended for the period of 
time for which there is no waste management program against which to 
assess costs. Termination of the Yucca Mountain project does not affect 
the NRC's pending revision to its ``waste confidence'' findings nor 
affect the standard contract for used reactor fuel management between 
DOE and utilities.
    NEI supports the work of the Blue Ribbon Commission on America's 
Nuclear Future, but recommends that the NRC continue technical review 
of the Yucca Mountain license application to completion (with the 
adjudicatory proceeding held in abeyance) to inform the deliberations 
of the commission. The industry supports a three-part integrated used 
fuel management strategy that includes: (1) On-site storage at reactor 
sites and development of centralized storage at volunteer locations; 
(2) Research, development and demonstration of advanced fuel cycle 
technologies; and (3) Development of a permanent repository.
    The nuclear industry consistently has supported research and 
development of the advanced fuel cycle technologies proposed in the 
Fuel Cycle Research and Development program ($201 million). DOE's plans 
should be brought into compliance with any recommendations of the blue 
ribbon commission that Congress ultimately accepts.
              development of advanced reactor technologies
    The administration has proposed several new initiatives for the 
Office of Nuclear Energy for fiscal year 2011. NEI is encouraged by 
DOE's development of a road map on milestones and annual funding so 
that Congress and the public will support these new program 
initiatives. NEI supports $195 million in funding for the Reactor 
Concepts Research, Development and Deployment program in fiscal year 
2011. Within this program, $103 million in funding would be allocated 
for the Next Generation Nuclear Plant (NGNP) program. Westinghouse 
Electric Co. and General Atomics will begin work on next generation 
reactor designs after being awarded $40 million last month by the 
Department of Energy. Advanced reactor technology can displace the use 
of fuels such as natural gas for producing process heat, thus enhancing 
U.S. energy security, stabilizing energy prices and improving the use 
of finite natural resources.
    NEI also recommends $25.7 million in fiscal year 2011 for the Light 
Water Reactor Sustainability program, focusing on materials science and 
materials performance in reactor operations; $38.8 million for the 
Small Modular Reactors program with the possibility of additional funds 
if justified; and $21.8 million for the continuation of the Generation 
IV program on advanced reactor concepts. NEI supports $99.3 million for 
the new Nuclear Enabling Technologies program, including the Modeling 
and Simulation Hub as suggested by the administration but recommends 
DOE seek industry input for program plans as the hub focuses on 
materials science and improving reactor component manufacturing.
           maintain funding for workforce and infrastructure
    Congress in the last 2 years has approved $45 million for an 
Integrated University Program. NEI requests the committee maintain DOE 
and NRC funding for this program to effectively educate technicians and 
professionals for careers in all sectors of nuclear science and 
technology. Additionally, NEI recommends that the subcommittee support 
$5 million for the DOE Research Reactor Infrastructure program for new 
fuel and shipping containers, reactor instrumentation and upgrades, and 
used fuel services. Industry also supports $20 million for the Advanced 
Test Reactor (ATR) National Scientific User Facility at Idaho National 
Lab as part of the lab's $177.5 million facilities management budget in 
fiscal year 2011. This funding supports a vital facility needed to 
evaluate and improve nuclear fuel and materials behavior and 
performance for DOE, university and industry projects.
                         environmental clean up
    NEI supports the budget request of $6 billion for DOE's 
Environmental Management Office.
                                 ______
                                 
          Prepared Statement of the Energy Sciences Coalition
    The Energy Sciences Coalition (ESC) strongly supports the 
administration's goal to double funding for the Department of Energy's 
(DOE) Office of Science between fiscal year 2007 to fiscal year 2017, a 
goal that is consistent with the bipartisan American COMPETES Act and 
the recommendations in the National Academies' 2005 report ``Rising 
Above the Gathering Storm.'' To that end, the ESC supports funding of 
at least $5.121 billion for the Office of Science in fiscal year 2011--
an amount equal to the level requested by the administration for fiscal 
year 2011 and a 4.4 percent increase over fiscal year 2010.
    The ESC is aware of the significant fiscal constraints facing the 
administration and Congress this year. Weighing the economic 
competitiveness and national security value of investments in Office of 
Science programs and facilities, however, we believe that funding for 
the Office of Science of at least the amount included in the budget 
request can easily be justified. The Office of Science is the Nation's 
primary sponsor of basic research in the physical sciences, and the 
facilities and research it supports are vital to ensuring our energy 
security and national competitiveness, meeting our environmental 
challenges, and producing new jobs and innovative technological 
breakthroughs that will fuel our economy.
    Specifically, this funding will:
  --Allow the Office of Science to maintain and strengthen DOE's core 
        research programs at both the DOE national laboratories and at 
        universities;
  --Support investigators at more than 300 academic institutions and 
        from all DOE national laboratories;
  --Enable support for 27,000 PhDs, postdoctoral associates, and 
        graduate students in fiscal year 2011--approximately 2,000 more 
        than were supported in fiscal year 2010;
  --Ensure maximum utilization of DOE research facilities by 26,000 
        researchers from universities, national laboratories, industry, 
        and international partners; and
  --Allow the Office of Science to develop and construct the next-
        generation facilities necessary to maintain U.S. preeminence in 
        research and development in the physical and biological 
        sciences, computing, and many other critical scientific fields.
    The ESC therefore urges Congress to support the administration's 
fiscal year 2011 budget request and invest at least $5.121 billion in 
the DOE Office of Science.
                        endorsing organizations
American Chemical Society
American Institute for Medical and Biological Engineering
American Institute of Physics
American Mathematical Society
American Physical Society
American Society for Engineering Education
American Society for Microbiology
American Society of Plant Biologists
Arizona State University
ASME
Association of American Universities
Association of Public and Land-grant
Universities--APLU
ASTRA, The Alliance for Science &
Technology Research in America
Battelle
Biophysical Society
California Institute of Technology
Council of Energy Research and Education
Leaders
Duke University
Florida International University
Georgia Institute of Technology
Harvard University
Indiana University
Jefferson Science Associates, LLC
Krell Institute
Massachusetts Institute of Technology
Materials Research Society
Michigan State University
North Carolina State University
The Ohio State University
The Optical Society
Oregon State University
Princeton University
Rutgers, The State University of New Jersey
Semiconductor Industry Association
Semiconductor Research Corporation
Society for Industrial and Applied Mathematics
Southeastern Universities Research Association
Stanford University
Stony Brook University
Texas A&M University
Tulane University
The University of California
University of California, Berkeley
University of California, Davis
University of California, Irvine
University of California, Los Angeles
University of California, Merced
University of California, Riverside
University of California, San Diego
University of California, San Francisco
University of California, Santa Barbara
University of California, Santa Cruz
University of Central Florida
University of Chicago
University of Hawaii System
University of Illinois
University of Maryland
University of Massachusetts
University of Michigan
University of Minnesota
University of New Mexico
University of Pittsburgh
University of Southern California
University of Washington
University of Wisconsin-Madison
Vanderbilt University
Washington State University
Washington University in St. Louis
                                 ______
                                 
                   Prepared Statement of IBACOS, Inc.
    IBACOS (Integrated Building and Construction Solutions) urges the 
Subcommittee on Energy and Water Development to provide $46 million for 
the Building America Program at the Department of Energy's (DOE) Office 
of Building Technologies in fiscal year 2011 Appropriations under the 
Office of Building Technologies, Residential Building Integration, 
Energy Efficiency and Renewable Energy. We further urge that the 
following language is included to ensure that the competitively 
selected Building America teams are funded at a percentage comparable 
to their historic funding: Of these funds, $35 million shall be 
provided for the research activities of the competitively selected 
Building America research teams, the Building America lead research 
laboratory, and other national laboratories conducting research to 
achieve Building America's specified energy performance targets.
                           executive summary
    Residential Buildings currently account for over 20 percent of the 
primary energy consumed by the United States. Since 2000, over 12 
million new homes have been constructed, and each year over a million 
homes are remodeled. Significant energy savings can be achieved at 
minimal increases in construction costs provided that a long term and 
consistent commitment is made to work in partnership with the housing 
industry. DOE's Building America Program has developed an industry-
driven research approach to develop solutions that can reduce the 
average energy use in new housing by 50 percent by 2015, providing 
significant benefits to homeowners in terms of reduced utility bills 
and significant benefits to the U.S. economy by maintaining housing as 
a major source of jobs and economic growth. If building in significant 
energy savings isn't done now, the Nation risks using an extravagant 
amount of energy in the future. In order to reduce reliance on foreign 
energy supplies and to support the stabilization of greenhouse gas 
emissions, we must invest appropriately in research in the areas of 
technology, systems integration, and building and renovating processes 
to upgrade the performance of our housing stock, otherwise, we are 
mortgaging our future.
    Research, development, and outreach activities performed by the 
competitively selected industry Teams in the Building America Program 
are the key element in the DOE strategy to reduce energy consumption in 
residential buildings. The Teams' activities focus on increasing the 
performance of new and existing homes by developing advanced energy 
systems that can be implemented on a production basis, while meeting 
consumer and building performance requirements.
    The Teams have been working on improving efficiency in housing 
since 1992, with successes being embodied in EPA's Energy Star Home 
program and DOE's Builders Challenge, and they are now focused on the 
more difficult task of meeting DOE's goals to create strategies to 
achieve 50 percent whole house savings by 2015, and ultimately Zero 
Energy Homes (ZEH)--homes that produce as much energy as they use on an 
annual basis--broad spread in the market by 2025.
             a new frontier in research--zero energy homes
    The research needed to develop systems and strategies to achieve 
DOE's short and longer term goals is not simply applying lessons 
learned; rather, fundamental research is still required. This R&D, 
performed by the Building America Teams, is truly high-need, high-risk, 
high-payoff research.
    The research required to meet the goals of 50 percent savings and 
ZEH is costly and high risk:
  --Significant basic research is required to develop and integrate new 
        technologies into homes before they are proven effective enough 
        to be applied in the field.
  --This research is costly and risky, and will never be undertaken by 
        the industry alone.
  --The life cycle of this research is significantly longer than that 
        of comparable industries.
  --The homebuilding industry is extremely fragmented, with 
        homebuilders having little ability to drive research, and a 
        significantly lower than average financial commitment to 
        investing in research.
  --Builders need successful business models to apply related to 
        effectively and profitably integrating new technologies and 
        strategies.
    The research required to meet the goals of 50 percent savings and 
ZEH is also high-payoff for the following reasons:
  --Once constructed, homes have a long lifespan, providing the 
        opportunity for a durable long term reduction in energy use.
  --Effective strategies to reduce energy use will positively impact 
        consumers, as well as the Nation's energy demand.
  --Successful research into integration strategies will allow new, 
        high-risk technologies to be adopted more quickly and 
        effectively, and can identify code barriers that might prevent 
        energy efficiency and market adoption.
    building america competitive teams: successes in the real world
    The work of the Teams allows industry leadership to drive cost 
effective solutions that move us toward Zero Energy Homes. Building 
America Builder partners have shown that homes with energy savings up 
to 40 percent can be cost competitive and valued by consumers in 
today's marketplace. These homes have lower energy bills and operating 
costs, and increased building durability as well as occupant safety, 
health, and comfort. The teams have been instrumental developing cost 
effective solutions at the 30 percent and 40 percent energy saving 
levels currently used by regional builders and divisions of national 
builders such as Pulte Homes, David Weekly Homes, K Hovnanian Homes, 
Beazer Homes, Centex Homes, Imagine Homes, Ideal Homes, Veridian Homes, 
Tommy Williams, to name a few. The more than 500 private sector 
partners who work with the Teams are experts in home construction, 
building products and supply, architecture, engineering, community 
planning, and mortgage lending. All construction material and labor 
costs for homes and communities constructed by Building America Teams' 
builders are provided by DOE's private sector partners.
    In addition to performing the fundamental research needed to 
advance the energy efficiency of our Nation's housing stock, the 
Building America Teams also provide recommendations to a broad range of 
residential deployment partners including the EPA's Energy Star Homes 
Program, HUD's Partnership for Advancing Technologies in Housing 
Program, DOE's Builders Challenge, and many industry associations and 
universities.
    DOE's Role in the Residential Buildings Research Partnerships:
  --Catalyzing research in residential construction necessary to 
        increase the energy performance, and bringing together industry 
        partners to leverage research dollars and expertise.
  --Matching advanced product research programs to the system 
        integration efforts of the Building America Teams to ensure 
        realistic approaches to increasing energy performance.
  --Reducing risk and increasing reliability of emerging technologies.
  --Providing scientific expertise through the involvement of the 
        National Renewable Energy Laboratory (NREL) and other national 
        laboratories.
  --Sharing critical information about research with several thousand 
        associated building industry professionals and leveraging 
        information through EPA, HUD, and private sector energy 
        efficiency programs.
    Program Goals:
  --Reduce energy use in America's housing stock by 50 percent by 2015 
        and provide ZEH broad spread in the market by the year 2025, 
        integrating renewable energy when and where practical.
  --Research and develop the systems and strategies necessary to allow 
        our Nation to deliver high performance houses in order to 
        increase our national energy security.
    Program Status:
    Through the competitively selected Teams, Building America works 
closely with America's lead production builders, who produce 
approximately 50 percent of the Nation's new housing stock. More than 
30,000 homes have been constructed in 34 States with energy savings up 
to 40 percent. While potentially up to 30 percent of the Nation's 
builders could reasonably achieve a 30 percent energy saving target, it 
is estimated that less than 1 percent of the builders can achieve 50 
percent. To develop solution sets to help builders move forward to the 
50 percent level, all areas of energy use in the house must be 
addressed. This means increased complexity on the part of the builder 
and all associated trade partners, suppliers, and manufacturers, which 
translates to significantly more effort on the part of each Building 
America Team lead. Increased funding is needed to address DOE's energy 
efficiency goals, and provide the increased need for technical support 
to lead builders, contractors, and suppliers for effective research and 
participation in the program. The Building America research to date has 
shown that to achieve the 50 percent and ZEH goals, every energy 
related system in the house must be analyzed and strategies for energy 
savings developed. This level of effort is significantly greater than 
for the 30 percent or 40 percent goals, where only major energy end 
uses in the house needed to be addressed. On a forward moving basis, 
the stated DOE goals of the program are unreachable without significant 
Team funding.
    Recommendation for Fiscal Year 2011 Funding:
    Provide $46 million, for the Building America Program at the DOE's 
Office of Building Technologies in fiscal year 2011 appropriations 
(under the Office of Building Technologies, Residential Building 
Integration). This does not include new funding to initiate a retrofit 
research and development program. Additionally, include language as 
follows to ensure that the competitive teams are funded at a percentage 
comparable to their historic funding:

    ``Of these funds, $35 million shall be provided for the research 
activities of the competitively selected Building America research 
teams, the Building America lead research laboratory, and other 
national laboratories conducting research to achieve Building America's 
specified energy performance targets''
                                 ______
                                 
       Prepared Statement of the National Hydropower Association
    The National Hydropower Association (NHA) \1\ appreciates the 
opportunity to submit this statement regarding hydropower Research and 
Development funding priorities for the fiscal year 2011 appropriations 
budget cycle.
---------------------------------------------------------------------------
    \1\ NHA is a non-profit, national trade association dedicated to 
promoting the Nation's largest renewable resource and advancing the 
interests of the hydropower and new ocean, tidal, conduit and instream 
hydrokinetic industries and the consumers they serve.
---------------------------------------------------------------------------
    NHA requests a minimum of $100 million in fiscal year 2011 Energy 
and Water Appropriations for the Department of Energy's Waterpower 
Program to support initiatives across all hydropower technology 
sectors. The types of technologies covered are conventional hydropower 
including pumped storage and emerging technologies that access the 
energy in ocean waves, and the flowing water in rivers, man-made 
channels and those caused by tides.
    A $100 million funding level will go far to support a national goal 
to double U.S. capacity of renewable hydropower, the research needed to 
increase production and create 700,000 new industry sector jobs across 
every State of the country.
    Investment in hydropower R&D will drive innovation across the 
economy and maintain American competitiveness and create jobs. In 
addition, the Nation's largest and most reliable renewable electricity 
resource will be positioned to address the multiple challenges of 
global climate change, increasing demand for clean energy, U.S. energy 
security and national economic recovery.
            hydropower's current and potential contribution
    The goal of the National Hydropower Association and its members is 
to provide clean, climate-friendly, reliable baseload electricity today 
and in the future through the responsible development and expanded use 
of conventional hydropower, pumped storage and new technologies, such 
as ocean and tidal energy and small irrigation power.
    As the largest source of renewable electricity in the United 
States, currently providing 7 percent of U.S. generation and avoiding 
225 million metric tons of carbon emissions a year, hydropower is 
poised to do more. Recent studies demonstrate that the Nation's 
hydropower capacity could double by 2025 mostly by maximizing existing 
infrastructure and without the need to build new impoundments.\2\
---------------------------------------------------------------------------
    \2\ In fact, of the approximately 80,000 dams in the U.S. only 
about 3 percent have hydropower facilities associated with them.
---------------------------------------------------------------------------
    The evidence supporting these projections is credible, current and 
prolific. For example, more than 50,000 MW of new hydropower capacity 
is in the Federal Energy Regulatory Commission (FERC) pipeline awaiting 
review and approval for development, with additional projects on the 
drawing board for consideration.
    Second, applications for DOE Waterpower program funding 
opportunities last year far outnumbered available funds--both for new 
and conventional technologies. For example, in the most recent funding 
announcement on November 4, 2009, the Department of Energy awarded $32 
million to 7 projects to pursue upgrades to existing hydropower 
facilities, although dozens more projects submitted applications.
    Finally, new studies project the doubling (or even tripling) of 
hydropower's capacity by 2025. According to an October 2009 report 
conducted by Navigant Consulting, approximately 60,000 MW of new 
hydropower is possible by 2025. This represents enough electricity to 
power every household in Los Angeles, New York and Chicago. In addition 
to providing affordable and clean power, the report found that 60,000 
MW of new hydropower capacity also will result in 700,000 cumulative 
direct and indirect American jobs, with an additional 700,000 induced 
jobs.\3\
---------------------------------------------------------------------------
    \3\ http://hydro.org/Jobs%20Study/
NHA_JobsStudy_Final%20Report_Final_Sept%2020.pdf.
---------------------------------------------------------------------------
    However, development of some of this capacity requires necessary 
and needed R&D investment (both short and long term) in order to 
advance the state of the technology, study potential impacts, 
understand the extent of the developable resource, and more. In 
particular, Government funding is needed at the front end when private 
investments would not recoup the full value of the resulting social 
good. This is especially true in the case of basic research and 
development investments, where the private sector tends to under-
invest.
  hydropower's r&d needs span all industry sectors--conventional, new 
              hydrokinetic technologies and pumped storage
    Although conventional hydropower is one of America's longest 
serving electric generation resources, the industry is on the vanguard 
of new technology development and project expansion.
    Technology advancements in the industry will allow facilities to 
add capacity and increase generation reduce impacts on environmental 
resources, and maximize water use efficiency in a time of increasing 
and competing needs for water from both power and non-power users.
    Maximizing the existing hydropower system, as well as building on 
existing non-powered dams, are some of the lowest cost options per 
kilowatt hour for increasing renewable energy generation. However, 
these projects are also larger, more capital intensive up-front, 
experience longer development timelines due to licensing, manufacturing 
and construction, and require Government R&D support to prove out 
technology advancements to Federal and State resource managers as well 
as other stakeholders.
    For the ocean and tidal energy and instream hydrokinetic 
industries, the potential resources are tremendous with marine projects 
that could be sited close to load centers in the Northwest, California, 
Florida, and the Northeast as well as inland waterway projects that 
could be sited throughout the country. In addition, hydrokinetics may 
serve pressing power needs in remote communities as a distributed power 
resource, such as in Alaska.
    The wave, tidal, and instream hydrokinetic industry is making great 
strides toward commercialization, but still requires significant R&D 
support to move beyond pilot projects to larger scale deployment, 
refine the technologies, answer potential environmental impact 
questions, and reduce higher project costs.
    Research and development is also needed to maximize the full 
potential of hydropower pumped storage projects for use as transmission 
system tools to provide energy storage, grid reliability and other 
ancillary services. Pumped storage has the proven ability to provide 
the firming benefits needed to support the growth of other variable 
renewable technologies, such as wind and solar.
    Federal research, development and deployment programs are critical 
to bringing these technologies and new projects to fruition and to 
build the human and technological capital needed to perform 
breakthrough research and transfer those innovations to the market. As 
we have testified in the past, NHA analyzed the 2007 EPRI report \4\ 
and has concluded that it provided a useful model and roadmap from 
which to guide activities under the DOE Waterpower R&D program. As 
such, this statement recommends, and incorporates by reference, the 
suite of initiatives identified in NHA's fiscal year 2010 statement to 
the House and Senate Appropriations Committees. These directives are 
intended to address the needs left unfunded by the previous DOE R&D 
program for hydropower and would expand the Department's efforts.
---------------------------------------------------------------------------
    \4\ Assessment of Waterpower Potential and Development Needs, 
Number 1014762, EPRI, March 2007, http://my.epri.com/portal/
server.pt?Abstract_id=000000000001014762.
---------------------------------------------------------------------------
    NHA also encourages Congress and the Department to pursue new 
horizon initiatives, like climate forecasting and modeling and 
additional energy/water nexus issues that may affect energy production 
in the coming years.
    Congress has recognized the need for research, development and 
deployment of new advanced technologies, both for conventional 
hydropower and the ocean, tidal and instream hydrokinetic industries. 
NHA directs attention to title IX, section 931 in the Energy Policy Act 
of 2005 as well as the Energy Independence and Security Act of 2007.
              the importance of the doe waterpower program
    The Obama administration and the Congress are setting ambitious and 
aggressive goals for renewable energy development in the United States. 
Such aggressive goals require aggressive funding for research into 
renewable energy technology development and assistance in technology 
deployment.
    The Department of Energy is the Government agency charged with 
meeting these goals and ensuring that cost-effective technologies are 
brought to market and add to a diversified energy portfolio and NHA 
strongly supports their work particularly that of the Waterpower 
program.
    At this critical time when we are relying on our innovate 
industries to deliver power from renewable resources in an efficient 
and economical way, we cannot allow initiatives to fall victim to 
funding setbacks. Throughout the years, the hydropower R&D program has 
been severely underfunded. This was felt most acutely during the middle 
of the last decade when the program was zeroed out--the only renewable 
resource to receive such treatment.
    Looking forward, we see the mission of the Waterpower program as 
one that conducts R&D to improve the technical, societal, and 
environmental benefits of hydropower and hydrokinetic resources, and 
that also coordinates with other Federal agencies and industry, 
including both private and public entities involved with development, 
is also critical.
    One example of the important areas of growth for the hydropower 
industry is increasing capacity at existing projects operated by the 
Army Corps of Engineers and the Bureau of Reclamation.
    Project developers are reporting a need for better coordination, 
more resources and process improvements for working with the Federal 
system. Toward that end, DOE's ability to facilitate communication 
across the various Government agencies--from the Federal hydropower 
operators to the Federal Energy Regulatory Commission to the resource 
protection agencies--is crucial and funding should be directed to 
support its work in providing information and technical support to 
assist project development.
                               conclusion
    While funding levels for DOE's Waterpower research and development 
program have increased from zero funding in fiscal year 2006 to $50 
million in fiscal year 2010, more is required to fully support this 
important resource.
    Under a comprehensive R&D program funded at $100 million for fiscal 
year 2011, hydropower will be positioned to offer economic, 
environmental, and energy benefits simultaneously through 
comprehensive, well-designed initiatives. Funds are needed to support 
all technologies through important on-going and new work on resource 
assessments, advanced hydropower turbine designs, technology testing 
for new ocean, tidal, and instream hydrokinetic applications, 
environmental impact studies, climate and hydrology modeling, grid 
integration and the role of hydro in firming variable energy resources.
    By accelerating the funding for the DOE Waterpower R&D program, the 
United States could soon realize the tremendous energy and 
environmental benefits of maximizing our existing hydropower projects 
and infrastructure as well as the suite of emerging wave, tidal, and 
hydrokinetic technologies.
                                 ______
                                 
       Prepared Statement of the American Wind Energy Association
                              introduction
    America's wind energy industry experienced a record year of growth 
in 2009. Industry deployed more than 10,000 megawatts (MW) nationwide, 
amounting to approximately 40 percent of the country's new electrical 
capacity and enough to power 2.4 million homes. Although wind systems 
are commercially deployable today, keeping America's domestic wind 
industry competitive with other generation sources requires increased 
research, development, and deployment (RD&D) funding to reduce costs 
and improve reliability.
    Therefore, the American Wind Energy Association (AWEA) requests a 
funding level of $186.5 million for fiscal year 2011, which is an 
increase of $63.5 million above the President's Congressional budget 
request for the Department of Energy (DOE) Wind Energy Program. Of this 
amount, AWEA requests that $16 million be designated for power system 
integration and transmission development for ``variable generation'' 
sources like wind and solar energy. The $16 million could be 
appropriated to either the Wind Energy Program within the Office of 
Energy Efficiency and Renewable Energy (EERE) or to the Office of 
Electricity Delivery and Energy Reliability (OE).
    DOE provides important technical support, guidance, information, 
and limited cost-shared funding for efforts to explore and develop wind 
energy resources. AWEA commends the DOE Wind Energy Program for 
successfully developing programs that are consistent with the wind 
industry's long-term needs. Regardless of whether OE or EERE receives 
grid integration and transmission development funds, it is crucial that 
both entities work together and with experts at DOE national 
laboratories--particularly the National Renewable Energy Laboratory--to 
help utilities resolve variability-related issues related to grid 
integration.
    AWEA's funding request of $63.5 million above the President's 
Congressional budget request of $123 million is a significant increase, 
but was carefully determined via a months-long process involving more 
than 80 wind industry stakeholders through the AWEA Research and 
Development Committee. Expert stakeholders identified the funds needed 
to overcome constraints to meeting the DOE's scenario of wind energy 
providing 20 percent of our Nation's electricity by 2030 (20 percent 
Wind Energy by 2030. July 2008).\1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Energy, ``20 percent Wind Energy by 2030'' 
(July 2008), http://www.20percentwind.org/20p.aspx?page=Report.
---------------------------------------------------------------------------
                                overview
    For years, the DOE Wind Energy Program has provided essential help 
to the wind industry by supporting technology advancements and 
identifying and addressing other hurdles to wind energy development. 
However, more work is necessary. Wind power is still constrained by 
difficulties in market acceptance and the need for improvements in 
cost, performance, and reliability. The DOE's 20 percent Wind Energy by 
2030 report assumes that capital costs must be reduced by 10 percent 
and that turbine efficiency must increase by 15 percent to reach the 
goal of providing 20 percent of our Nation's electricity from wind by 
2030. The DOE report clearly identifies a need for continued Federal 
investment in wind RD&D by stating, ``In a functional sense, wind 
turbines now stand roughly where the U.S. automotive fleet stood in 
1940. \2\ '' As our Nation turns to wind power to meet more of its 
energy needs, it is crucial for DOE to increase funding to improve wind 
turbine reliability and reduce costs.
---------------------------------------------------------------------------
    \2\ ibid.
---------------------------------------------------------------------------
    Achieving 20 percent of U.S. electric power from wind, with the 
critical help of RD&D, would:
  --Create 500,000 jobs, generating over $1 trillion in economic impact 
        by 2030;
  --Reduce natural gas demand by approximately 7 billion cubic feet/
        day--nearly one-half of the current consumption in the electric 
        sector;
  --Decrease natural gas prices by approximately 12 percent, saving 
        consumers approximately $128 billion;
  --Avoid 825 million tons of carbon dioxide emissions in the electric 
        sector in 2030, equivalent to 25 percent of expected electric 
        sector emissions; and
  --Reduce cumulative water consumption in the electric sector by 17 
        percent in 2030 (one-third of which would come from the arid 
        West).
    The DOE Wind Energy Program currently receives approximately $84 
million annually. In comparison, the RD&D budgets for many other 
traditional and emerging energy sources are much higher. For fiscal 
year 2010, non-defense nuclear RD&D energy programs will receive at 
least $787 million, coal programs will receive $404 million, and solar 
and biomass energy will receive $247 million and $220 million, 
respectively. A higher Federal funding level for wind energy RD&D will 
help ensure that wind energy remains competitive with other forms of 
energy.
                importance of doe's wind energy program
    The DOE Wind Energy Program has a strong history of success, and 
the cost-shared industry/Government research and development activities 
at DOE and NREL have played an important role in keeping the cost of 
wind energy competitive with other energy sources. AWEA strongly 
believes that a funding amount of $186.5 million, provided by the 
subcommittee, would reflect the importance and impact of the Wind 
Program's work. OE and EERE should work closely with other national 
laboratories and organizations, such as NREL and the Utility Wind 
Integration Group (UWIG), to resolve grid integration challenges 
associated with wind energy development.
                   specific wind industry priorities
    A team of more than 80 members of AWEA and advisors from industry 
and academic institutions identified a $63.5 million deficit in annual 
DOE funding necessary to support the RD&D and related programs needed 
to realize the vision of providing 20 percent of America's electricity 
from wind by 2030. We respectfully urge that Federal funding be 
provided for four specific areas as follows:
  --Systems Integration and Transmission Expansion ($16 million)
  --Wind Turbine Technology and Reliability ($38 million)
  --Small Wind Turbines--100kW and Smaller ($5.5 million)
  --Community Wind ($4 million)
Systems Integration and Transmission Expansion
    The systems integration program area focuses on the power system 
operations issues of integrating variable, non-dispatchable power 
sources, like wind energy, into the power system. Wind generators in 
some regions, especially those with small control areas located outside 
Regional Transmission Organizations, are already being denied 
interconnection because operational limits for the integration of 
variable generation have been reached. Yet, numerous studies from the 
United States and Europe (with significant involvement from DOE-funded 
experts) have shown that even minor changes to operations can 
accommodate much greater amounts of wind. Areas of special focus 
include developing and analyzing additional sources of system 
flexibility, expanding and implementing power system operation tools, 
and supporting interconnection-wide integration studies and plans.
    Transmission expansion is a key area of focus for meeting the 20 
percent by 2030 wind energy goal. This area of funding should focus on 
issues related to expanding the transmission grid to increase access to 
areas with rich wind resources. Emphasis should also be placed on 
making the grid more robust, efficient, and reliable. This will help 
power to flow across regions, which will be critical to integrating 
large amounts of wind energy into the system.
Wind Turbine Technology and Reliability
    Aiding improvements in wind system technology and reliability is a 
key component of the AWEA R&D Committee Action Plan. This area focuses 
on the development of turbine components to reduce capital costs, 
improve performance, and enhance equipment reliability to achieve the 
20 percent vision by 2030. This includes developing lower-cost towers, 
more reliable gearboxes and generators, advanced blade sensors and 
controls, and streamlined manufacturing processes. AWEA also recognizes 
the need to reduce the cost of offshore wind energy technology in order 
for offshore sources to provide the estimated 54 gigawatts (GW) of the 
300 GW needed to meet the 20 percent goal by 2030.
Small Wind Turbines (100 kilowatts and Smaller)
    Greater Federal funding for small wind systems, those with 
capacities of 100 kilowatts (kW) or less, would help the small wind 
industry provide homes, farms, and small businesses with their own 
domestic, on-site wind generators. Increased funding for the small wind 
industry should be used to establish market deployment programs, 
streamline installation techniques, advance technological components, 
and improve tools to assess wind resources.
Community Wind
    Community-scale wind projects, generally those whose economic 
benefits flow directly into the communities that host them, face 
greater commercialization challenges than do traditional wind power 
projects. Currently, very few Federal programs support community wind 
development. Many developers lack technical or financial resources, and 
the limited size of community wind projects often make them less 
attractive to experienced developers. Funding is needed to create and 
support a two-part Department of Energy Community Wind Initiative. The 
first part would create a technical assistance center to provide 
developers with wind resource data; technical, economic, and financial 
modeling of potential projects; permitting and brokerage assistance; 
outreach support, and other essential resources. The second part would 
fund multi-million dollar competitive DOE grants, over several years, 
to qualified community wind organizations to support permitting 
applications, interconnection and transmission agreements, 
environmental studies, view-shed acceptance, equipment procurement, and 
other essential aspects of development.
                               conclusion
    The President and Congress have called for a bolder commitment to 
the development of domestic renewable energy resources, particularly 
wind energy, to meet our Nation's growing energy demand. Continued 
investments in wind energy RD&D are delivering value for taxpayers by 
fostering the development of a domestic energy source that strengthens 
our national security, provides rural economic development, spurs new 
high-tech jobs, and protects the environment.
    While the wind industry continues adding new generation capacity, 
challenges still exist. Continued support for DOE's Wind Energy Program 
is vital to helping wind become a more prominent energy source, which 
will benefit the economy and environment. To ensure that funding levels 
are commensurate with the President's call for more renewable energy, 
AWEA urges the subcommittee to provide $186.5 million for the Wind 
Energy Program and OE in fiscal year 2011. Along with other key Federal 
policies, both new and sustained, greater RD&D funding through DOE will 
help transform the 20 percent wind vision into reality.
    AWEA appreciates this opportunity to provide testimony on DOE's 
fiscal year 2011 Wind Energy Program budget before the House 
Appropriations Subcommittee on Energy and Water Development. We thank 
the subcommittee for its time and attention to our request.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology
    On behalf of the Federation of American Societies for Experimental 
Biology (FASEB), I respectfully request an appropriation of $5.24 
billion for the Department of Energy, Office of Science in fiscal year 
2011. This figure is in keeping with President Obama's vision for 
doubling the DOE SC budget. Further, it will enable the Office of 
Science to continue supporting essential research programs that enhance 
human health and quality of life, invigorate the economy, bring the 
Nation closer to energy independence, and drive scientific innovation.
    FASEB is composed of 23 societies representing more than 90,000 
members, making it the largest coalition of biomedical research 
associations in the United States. Our mission is to improve human 
health and welfare by promoting progress and education in biological 
and biomedical sciences.
    The Office of Science is dedicated to investing in ``the most 
exciting and daring research that human kind has ever conceived.'' The 
programs and facilities of the DOE SC enable important discoveries in 
computational sciences, environmental and biological sciences, and 
energy sciences. For example, DOE scientists are developing tools such 
as hollow glass microspheres, tiny glass capsules that are one-half the 
width of a human hair, which have applications ranging from targeted 
drug delivery to hydrogen storage for batteries. Additionally, work at 
the DOE national laboratories is increasing the capabilities of 
supercomputers, allowing for more efficient access to data and faster 
processing speeds. This and other research funded by the DOE SC drives 
cutting-edge science and technological innovations that ensure our 
Nation's safety, bolster our Nation's economy, and improve the day-to-
day lives of the American people.
    More than 25,000 researchers from various Government agencies, 
academic institutions, and private industry use the DOE SC's state-of-
the-art laboratories and research facilities every year. The national 
laboratory system is the most advanced of its kind and permits the 
agency to support vital research in a variety of fields, as well as 
interdisciplinary research that extends the basic research of many 
other Federal agencies. In fact, much of the research funded by non-DOE 
science agencies would not be possible without the DOE's dedicated 
research infrastructure. At the Brookhaven National Laboratory the 
synchrotron particle accelerator, with its ability to produce intense 
light at a variety of wavelengths, is being used by medical scientists 
from the National Institutes of Health. In research funded by the 
National Institute of General Medical Sciences, X-rays from the 
synchrotron are being used to study the structure of proteins involved 
in Alzheimer's disease. The Office of Science also provides support to 
many graduate students and early-career postdoctoral researchers. 
Almost one-half of the DOE SC's research funding supports projects at 
over 300 academic institutions nationwide.
             discoveries that improve health and well-being
    DOE-supported scientists are making remarkable contributions to 
human health.
  --Restoring Sight to Patients With Vision Loss.--In conjunction with 
        the National Science Foundation and the National Eye Institute, 
        the DOE Office of Science helped to fund a team of 
        ophthalmologists, engineers, and neuroscientists to create the 
        first ever artificial retina. The groundwork for this 
        development was laid by more than a century's worth of basic 
        research into the structure and function of the eye. By drawing 
        on the work of anatomists, biochemists, electrophysiologists 
        and others, scientists were able to create a device delicate 
        enough not to damage the eye yet complex enough to provide 
        visual input to the human brain. The resulting artificial 
        retina has been shown to restore some level of sight to those 
        who have lost vision due to retinal disease. By 2011, the 
        research team expects to start clinical testing on a version 
        that will allow reading and facial recognition. These studies 
        are bringing new hope to patients who have gone decades without 
        sight.
  --Improving Bone Regeneration.--Following a fracture, the process of 
        bone proliferation and healing takes several weeks, even 
        months. A research team funded by the DOE SC is currently 
        developing safe, effective, and inexpensive implant materials 
        to improve this process and shorten healing time. They have 
        identified a growth factor known as lysophosphatidic acid (LPA) 
        that promotes bone regeneration with no detectable toxicity. 
        What's more, LPA can be manufactured at the fraction of the 
        cost of the other bone healing stimulators that are currently 
        available. The next step is for researchers to combine LPA with 
        a hydrogel that, when injected around a damaged bone, will 
        release the growth factor in a controlled manner. This research 
        has the potential to significantly reduce recovery time for the 
        8 million Americans who suffer bone fractures every year.
  --Mitigating the Impact of Low Dose Radiation.--The DOE Low Dose 
        Radiation Research Program funds basic research to determine 
        the effects of exposure to low doses of radiation. Researchers 
        long ago established that ionizing radiation, which is present 
        in a wide range of occupational settings, can lead to breast 
        cancer by causing genetic mutations. Recent research DOE has 
        funded, however, has revealed that exposure to ionizing 
        radiation also acts as a carcinogen by affecting the cell 
        proteins responsible for cell-to-cell communication and 
        cellular structure. Thus exposure may result in breast or other 
        types of cancer, even where genetic mutations are not 
        detectible, and the damage can amplify by translating to 
        subsequent generations of cells. Understanding the fundamental 
        cell biology of radiation exposure paves the way for the 
        development of treatments for and protections against low-dose 
        radiation.
                 cleaner and more secure energy future
    Discoveries in fundamental energy sciences funded by DOE SC are 
already changing the way we use energy and paving the way for the next 
generation of environmentally-friendly, sustainable energy sources. 
Specifically, the Department's newly-formed Advanced Research Projects 
Agency-Energy (ARPA-E) is working on technologies to meet our most 
pressing energy needs.
  --Hydrogen Technologies.--Hydrogen is one of the most abundant 
        elements on the planet, making it an appealing clean energy 
        alternative. However, almost all hydrogen is locked up in water 
        and other compounds. Researchers at the Savannah River National 
        Laboratory are working to advance the most promising method of 
        extracting hydrogen from water--the Hybrid Sulfur Process. This 
        two-step reaction is driven by electricity and heat, both of 
        which can be generated by a nuclear reactor. This simple, 
        efficient process is slated to be used in conjunction with 
        next-generation nuclear plants and has the potential to produce 
        enough hydrogen to power more than 1 million fuel cell cars.
  --Carbon Capture Technologies.--Natural systems use an enzyme known 
        as carbonic anhydrase (CA) to convert carbon dioxide to 
        bicarbonate, which can then be transported out of tissue. A 
        program funded through ARPA-E is working to apply this process 
        to make the use of fossil fuels less environmentally damaging. 
        The program will develop membrane technology for separating 
        carbon dioxide from flue gas streams, using synthetic forms of 
        CA. The synthetic analogue was created to be more robust than 
        naturally-occurring CA, and thus able to function in harsh 
        environments. This membrane technology developed by the DOE SC 
        is one of many ways currently being explored to increase the 
        efficiency of and reduce the cost involved in carbon capture.
               recognizing the importance of doe research
    In 2007, the passage of the America COMPETES Act demonstrated 
Congress' commitment to U.S. science and technology. Now, Congress has 
the opportunity to reassert this commitment by both reauthorizing 
America COMPETES and supporting the goal of doubling the budgets of DOE 
SC, NSF and NIST. Funding DOE SC based on the plan outlined in the 
President's budget will allow DOE to greatly enhance its groundbreaking 
research portfolio and permit it to confront current and future energy 
and health challenges. In keeping with this vision for doubling DOE SC 
budget, FASEB recommends an appropriation of $5.24 billion for the 
Department of Energy, Office of Science in fiscal year 2011.
                                 ______
                                 
        Prepared Statement of the National Carbon Capture Center
    Mr. Chairman and members of the subcommittee: Southern Company 
operates the U.S. Department of Energy's (DOE's) National Carbon 
Capture Center (NCCC) (http://nationalcarboncapturecenter.com) at the 
Power Systems Development Facility (PSDF) in Wilsonville, AL for DOE's 
National Energy Technology Laboratory (NETL) and several industrial 
participants.\1\ The PSDF was conceived as the premier advanced coal 
power generation research and development (R&D) facility in the world 
and has fulfilled this expectation. NETL responded to the need for 
cost-effective carbon dioxide (CO<INF>2</INF>) capture technologies by 
establishing the NCCC with a focus on conducting R&D to advance 
emerging CO<INF>2</INF> control technologies to commercial scale for 
effective integration into either combustion or Integrated Gasification 
Combined Cycle (IGCC) processes. The NCCC will accomplish this goal by 
providing a test-bed for Government, industrial, and university 
projects to conduct meaningful tests in an industrial setting. I would 
like to thank the Senate for its past support of the NCCC and request 
the subcommittee's continued support as the NCCC responds to the need 
for developing cost-effective CO<INF>2</INF> capture technology for 
coal-fueled power generation. This statement supports the 
administration's budget request for DOE coal R&D which includes about 
$39.6 million for work at the NCCC. These funds are necessary to 
conduct the future test program developed in collaboration with DOE 
which includes wide-ranging support of the DOE Carbon Sequestration 
Technology Roadmap.
---------------------------------------------------------------------------
    \1\ Current NCCC participants include Southern Company, the 
Electric Power Research Institute (EPRI), American Electric Power, 
Luminant, NRG, Peabody Energy, Arch Coal, Inc., and Rio Tinto.
---------------------------------------------------------------------------
    A key feature of the NCCC is its ability to test new carbon capture 
technologies for coal-based power generation systems at an integrated, 
semi-commercial scale. Integrated operation allows the effects of 
system interactions, typically missed in un-integrated pilot-scale 
testing, to be understood. The semi-commercial scale allows the 
maintenance, safety, and reliability issues of a technology to be 
investigated at a cost that is far lower than the cost of commercial-
scale testing. Capable of operating at pilot to near-demonstration 
scales, the NCCC is large enough to produce data to support commercial 
plant designs, yet small enough to be cost-effective and adaptable to a 
variety of technology research needs.
    In addition to semi-commercial scale testing, the NCCC will serve 
as a test bed for cost-effective technology screening by providing 
slipstreams of actual syngas from coal gasification and flue gas from 
coal combustion. Future test work at the NCCC will include the scale-up 
and continued development of several CO<INF>2</INF> capture 
technologies being developed either at DOE's NETL facility, at private 
R&D laboratories or at the NCCC. The DOE program for CO<INF>2</INF> 
capture in coal-fueled power plants is divided into three areas: post-
combustion capture for conventional pulverized coal plants, pre-
combustion capture for coal gasification power plants, and oxy-
combustion processes which produce a more CO<INF>2</INF>-rich flue gas 
than conventional combustion for easier CO<INF>2</INF> capture. The 
NCCC's CO<INF>2</INF> capture efforts would address all three areas.
    Southern Company also supports the goals of the Clean Coal 
Technology Roadmaps developed by DOE, EPRI, and the Coal Utilization 
Research Council (CURC). These Roadmaps identify the technical, 
economic, and environmental performance that advanced clean coal 
technologies can achieve over the next 20 years. Over this time period 
coal-fired power generation efficiency can be increased to over 50 
percent (compared to the current fleet average of 32 percent) while 
producing de minimis emissions and developing cost-effective 
technologies for CO<INF>2</INF> management.
                                summary
    The United States has historically been a leader in energy 
research. Adequate funding for fossil energy research and development 
programs, including environmental and climate change technologies will 
provide our country with secure and reliable energy from domestic 
resources while protecting our environment. Current DOE fossil energy 
research and development programs for coal, if adequately funded, will 
assure that a wide range of electric generation options are available 
for future needs. Congress faces difficult choices when examining near-
term effects on the Federal budget of funding energy research. However, 
continued support for advanced coal-based energy research is essential 
to the long-term environmental and economic well being of the U.S. 
Prior DOE clean coal technology research has already provided the basis 
for $100 billion in consumer benefits at a cost of less than $4 
billion. Funding the administration's budget request for DOE coal R&D 
and long-term support of the Clean Coal Technology Roadmap can lead to 
additional consumer benefits of between $360 billion and $1.38 
trillion.\2\ But, for benefits to be realized, the critically important 
R&D program in the Clean Coal Technology Roadmap must be conducted.
---------------------------------------------------------------------------
    \2\ EPRI Report No. 1006954, ``Market-Based Valuation of Coal 
Generation and Coal R&D in the U.S. Electric Sector'', May 2002.
---------------------------------------------------------------------------
    One of the key national assets for achieving these benefits is the 
NCCC. The fiscal year 2011 funding for the NCCC needs to be about $39.6 
million to complete the construction and begin operation of new 
facilities to test technologies that are critical to the goals of the 
DOE Carbon Sequestration Technology Roadmap and to the success of the 
development of cost-effective climate change technologies that will 
enable the continued use of coal to supply the Nation's energy needs. 
The major accomplishments at the NCCC to date and the future test 
program planned by DOE and the NCCC's industrial participants are 
summarized below.
                nccc (formerly the psdf) accomplishments
    The NCCC test-bed has operated successfully for many years in 
support of U.S.-DOE's advanced coal program. Skilled staff from 
disciplines essential for a successful research program has gained 
experience by designing and operating the test equipment and by working 
with vendors to develop and improve their technologies. The NCCC has 
developed testing and technology transfer relationships with over 50 
vendors to ensure that test results and improvements developed at the 
NCCC are incorporated into future plants. In some instances, testing 
has eliminated technologies from further consideration. Such screening 
is valuable in that it concentrates R&D effort on those technologies 
most likely to succeed and is an essential part of managing the U.S.-
DOE's financial resources. Major subsystems tested and some highlights 
of the test program at the NCCC include:
    Transport Reactor.--The Transport Reactor has been operated 
successfully on sub-bituminous, bituminous, and lignite coals as a 
pressurized combustor and as a gasifier in both oxygen- and air-blown 
modes and has exceeded its primary purpose of generating gases for 
downstream testing. Since modifications were made in 2006, subsequent 
testing with air-blown gasifier operations has indicated substantial 
improvements in syngas heating value and carbon conversion. This 
transport technology is projected to be the lowest capital cost coal-
based power generation option, while providing the lowest cost of 
electricity and excellent environmental performance.
    Advanced Particulate Control.--Two advanced particulate removal 
devices and 28 different filter elements types have been tested to 
clean the product gases, and material property testing is routinely 
conducted to assess their suitability under long-term operation. The 
material requirements have been shared with vendors to aid their filter 
development programs.
    Filter Safe-Guard Device.--To enhance reliability and protect 
downstream components, ``safe-guard'' devices that reliably seal off 
failed filter elements have been successfully developed.
    Coal Feed and Ash Removal Subsystems.--A key to successful 
pressurized gasifier operation is reliable operation of the coal feed 
system and ash removal systems. Developmental work on the pressurized 
coal feed systems has increased the understanding and optimization of 
their performance. Modifications developed at the NCCC and shared with 
equipment suppliers allow current coal feed equipment to perform in a 
commercially acceptable manner. An innovative, continuous process has 
also been designed and successfully tested that reduces capital and 
maintenance costs and improves the reliability of fine and coarse ash 
removal.
    Syngas Cooler.--Syngas cooling is of considerable importance to the 
gasification industry. Devices to inhibit erosion, made from several 
different materials, were tested at the inlet of the gas cooler and one 
ceramic material has been shown to perform well in this application.
    Advanced Syngas Cleanup.--A slipstream unit has provided 
flexibility in testing numerous syngas contaminant removal technologies 
to improve emissions and reduce costs in IGCC gas clean-up.
    Sensors and Automation.--Significant progress with sensor 
development and process automation has been achieved. More than 20 
instrumentation vendors have worked with the NCCC to develop and test 
their instruments under realistic conditions. Development of reliable 
and accurate sensors for the gasification process has concentrated on 
coal feed, Transport Gasifier, and filter systems. Automatic 
temperature control of the Transport Reactor has been successfully 
implemented.
    Fuel Cell.--Two test campaigns were successfully completed on 0.5 
kW solid oxide fuel cells manufactured by Delphi on syngas from the 
Transport Gasifier marking the first time that a solid oxide fuel cell 
(SOFC) has been operated on coal-derived syngas. Also, a NETL-erected 
SOFC multi-cell array test skid was successfully tested at NCCC 
directly on coal syngas.
    CO2 Capture.--Slipstream CO<INF>2</INF> capture testing has been 
completed on both simulated and actual syngas and results have been 
used to design larger test equipment.
                        nccc future test program
    Developing technology options that will reduce CO<INF>2</INF> 
emissions is a primary goal for future work at NCCC. These technologies 
will be screened in close collaboration with NETL for selection for 
testing at the NCCC. This facility will serve as a productive test-bed 
for developing advanced technology and is capable of operating from 
bench- and pilot-scale to near demonstration scales allowing results to 
be scaled to commercial application. The NCCC will concentrate on 
developing cost-effective, commercially viable carbon capture 
technology for coal-fueled power plants through scale-up and continued 
development of several technologies (including for example those being 
developed either at DOE's facilities or by third party technology 
developers).
    For both new and existing power plants, post-combustion capture 
technology must be made more efficient and cost-effective. In post-
combustion capture, CO<INF>2</INF> is separated from the flue gas in a 
conventional coal-combustion power plant downstream of the pulverized 
coal boiler. Many post-combustion capture technologies need to be 
proven and integrated in an industrial power plant setting. Activities 
at the NCCC for post-combustion capture technology will include:
    Pilot-Scale Test Modules.--Pilot-scale test modules of advanced 
post-combustion technologies will be designed, installed, and operated 
in an existing pulverized coal plant adjacent to the NCCC. The test 
modules' flexible design will allow the testing of a wide range of 
technologies on actual flue gas.
    Technology Screening.--Available solvents developed by NETL, third 
party developers and the NCCC will be screened to assess readiness for 
testing at the site using improved contacting devices that are now 
under development.
    Alternative Solvent Processes.--Alternative solvents with lower 
heats of regeneration and more compact, lower cost gas-liquid 
contacting equipment will be developed and tested.
    Advanced Technology.--Compact membrane contactors and solid phase 
CO<INF>2</INF> sorbents, currently being investigated by DOE-NETL and 
private companies, will be assessed and installed. NCCC will provide 
such technologies a scaled-up testing platform as development progress 
warrants.
    In pre-combustion capture, CO<INF>2</INF> is separated from the 
syngas in a coal gasification power plant upstream of combustion in the 
gas turbine. Research and development activities at NCCC for pre-
combustion capture technology for application to gasification-based 
power generation include:
    Advanced CO2 Capture Systems.--New solvents and gas-liquid 
contacting devices will be assessed on air-blown and oxygen-blown 
syngas. New CO<INF>2</INF> separation technologies (sorbents or 
membranes) will be scaled-up and tested based on fundamental R&D 
progress by third party developers.
    Water Gas Shift Enhancements.--New water gas shift reactor 
configurations and sizes are planned for testing at the NCCC. The 
operation of shift catalysts when exposed to syngas at the NCCC will be 
optimized and their technical and economic performance will be 
evaluated.
    Advanced Syngas Cleanup.--New advanced syngas cleanup systems will 
be tested for reducing hydrogen sulfide, hydrochloric acid, ammonia, 
and mercury to near-zero levels.
    Regarding oxy-combustion, system studies will be used to evaluate 
the commercial feasibility of operating the Transport Reactor in oxy-
combustion mode. Based on study results, oxy-combustion test priority 
will be determined in collaboration with NETL.
    In developing a cost-effective advanced coal power plant with 
CO<INF>2</INF> capture, all process blocks within the power plant must 
be optimized in addition to the capture block. Including CO<INF>2</INF> 
capture in an advanced coal power plant will increase the plant cost of 
electricity, so opportunities to reduce cost in every part of the 
process will be explored. With highest priority being given to low-cost 
CO<INF>2</INF> capture process development, projects that reduce 
overall capital and operating costs will also be included in the NCCC 
test plan to partially offset incremental cost increases from 
CO<INF>2</INF> capture addition. These cost reduction projects include 
technology development for syngas cleanup, particulate control, fuel 
cells, sensors and controls, materials, and feeders.
                                 ______
                                 
           Prepared Statement of the Gulf Restoration Network
    I am writing on behalf of Gulf Restoration Network (GRN), a network 
of over 50 local, regional and national environmental, environmental 
justice, social justice, and public interest groups dedicated to 
uniting and empowering people to protect and restore the natural 
resources of the Gulf of Mexico region. The President's fiscal year 
2011 budget request for the Department of Energy proposes the 
cancellation of $71 million in balances from prior year appropriations 
for an expansion of the Strategic Petroleum Reserve (SPR) at a site 
near Richton, Mississippi and assumes the use of these balances to 
partially fund the regular operations and management activities of the 
SPR.\1\ The SPR program is part of the Office of Petroleum Reserves, 
which in turn is part of the Office of Fossil Energy in the Department 
of Energy. GRN commends this decision, and strongly urges the Senate 
Committee on Appropriations Subcommittee on Energy and Water 
Development to support this portion of the budget request. The 
cancellation of this funding for the proposed expansion of the SPR near 
Richton (hereinafter referred to as the Richton project) is a good 
fiscal, environmental and policy decision.
---------------------------------------------------------------------------
    \1\ ``Appendix, President's Budget of the United States 
Government,'' (fiscal year 2011):430.
---------------------------------------------------------------------------
    The proposed Richton project is a poor choice for a number of 
reasons: (1) it is estimated to cost at least $16.8 billion,\2\ a price 
tag that will likely only continue to grow; (2) the Richton site would 
require at least 330 miles of pipeline, increasing the likelihood of 
oil or brine spills into the environment; \3\ and (3) this project 
would be the first time that DOE has ever relied upon an inland 
freshwater source to mine the salt, an experimental proposal that 
worries many scientists familiar with the variable water flows of the 
Pascagoula River.
---------------------------------------------------------------------------
    \2\ Construction cost estimates from ''Strategic Petroleum 
Reserve's New Richton Mississippi Site,'' United States Department of 
Energy: http://www.fossil.energy.gov/programs/reserves/spr/
Richton_Fact_Sheet-Rev2_12-7-07.pdf. Petroleum price estimates based on 
``Short-Term Energy Outlook,'' United States Energy Information 
Administration (March 2010): http://www.eia.doe.gov/emeu/steo/pub/
mar10.pdf.
    \3\ ``Strategic Petroleum Reserve's New Richton Mississippi Site,'' 
United States Department of Energy: http://www.fossil.energy.gov/
programs/reserves/spr/Richton_Fact_Sheet-Rev2_12-7-07.pdf.
---------------------------------------------------------------------------
                           costs and funding
    The Richton project should not be receiving large Federal 
investments because the Department of Energy has not completed the 
Federal mandated National Environmental Policy Act (NEPA) process and 
released its Record of Decision (ROD). As this Federal mandated process 
could ultimately lead to a decision to not move forward with the 
Richton project, any large-scale Federal funding should wait for the 
completion of the NEPA process. Also, a recent public statement 
indicates that ``DOE believes funds for expansion could better be 
utilized to ensure ongoing operational readiness of the existing SPR.'' 
\4\ The Senate should respect the DOE's priorities and cancel past 
funding for this project.
---------------------------------------------------------------------------
    \4\ Kirgan, Harlan. ``Salt Dome put on hold,'' Mississippi Press, 
March 24, 2010: http://blog.gulflive.com/mississippi-press-news/2010/
03/richton_salt_dome_expansion_project_funds_redirected.html.
---------------------------------------------------------------------------
    Furthermore, the construction costs for the Richton project are 
estimated to be $4 billion, and while estimates for the cost of filling 
the storage area depend on variations in oil prices, the initial fill 
of the site, based on projected 2010 crude prices, could range between 
$12.8-$13.6 billion.\5\ Using a conservative estimate, this represents 
an expense of $16.8 billion or well over one-half of the DOE's proposed 
budget for this year. Although this expense would likely be spread out 
over multiple years, it still would involve a significant outlay of 
Federal funds for questionable benefits to taxpayers.
---------------------------------------------------------------------------
    \5\ Construction cost estimates from ''Strategic Petroleum 
Reserve's New Richton Mississippi Site,'' United States Department of 
Energy: http://www.fossil.energy.gov/programs/reserves/spr/
Richton_Fact_Sheet-Rev2_12-7-07.pdf. Petroleum price estimates based on 
predicated crude prices in 2011 ``Short-Term Energy Outlook,'' United 
States Energy Information Administration (March 2010): http://
www.eia.doe.gov/emeu/steo/pub/mar10.pdf.
---------------------------------------------------------------------------
    The Department of Energy considered several different sites as 
potential locations for an expansion of the SPR, and the Richton site 
was the most expensive project, and arguably the most environmentally 
harmful. Halting this destructive and costly project is a great way to 
begin shifting away from yesterday's problems and start addressing the 
daunting issues of tomorrow.
                   environmental and economic impacts
    Coastal Mississippi relies on its water resources and wetlands to 
maintain a thriving commercial and recreational fishing industry, 
promote tourism, and provide industry with their freshwater and 
transportation needs. Nationally significant water resources like the 
Pascagoula River, the Mississippi Sound, and the Gulf of Mexico are 
integral to the coastal economy and environment. Unfortunately, the 
plan for the Richton project could threaten these same resources. In 
fact, this plan to hollow out a series of underground salt caverns 
requires the withdrawal of 50 million gallons of water per day from the 
Pascagoula River for 5-6 years.\6\ This water would be used to dissolve 
underground salt, and then the polluted and extremely salty byproduct 
would be pumped off the coast of one of Mississippi's barrier islands. 
These actions could have significant impacts on the area's environment, 
including reduction in water flows in the Pascagoula River that could 
impact coastal estuaries, and a large, salty Dead Zone where the 
polluted water is released.
---------------------------------------------------------------------------
    \6\ ``Final Environmental Impact Statement for Site Selection for 
the Expansion of the Nation's Strategic Petroleum Reserve,'' United 
States Department of Energy (2006).
---------------------------------------------------------------------------
    Furthermore, according to Department of Energy estimates, the 330 
miles of pipelines necessary to complete this project will harm or 
destroy over 1,500 acres of wetlands and lead to at least 56 brine 
spills and 19 oil spills during the construction and initial fill of 
the site.\7\
---------------------------------------------------------------------------
    \7\ ``Final Environmental Impact Statement for Site Selection for 
the Expansion of the Nation's Strategic Petroleum Reserve,'' United 
Department of Energy (2006).
---------------------------------------------------------------------------
                               conclusion
    The Richton project is bad policy for the Nation, and bad policy 
for the people of coastal Mississippi. For years, citizens in 
Mississippi and throughout the country have been working to stop this 
expensive and destructive project from moving forward. In fact, 
thousands of people have contacted Secretary of Energy Steven Chu, as 
well as their congressional representatives, over the last year to 
voice their opposition to this boondoggle. Congressman Gene Taylor, who 
represents Mississippi's 4th, the district that will be most impacted, 
and Senator Roger Wicker of Mississippi have also expressed significant 
reservations with the project as currently conceived. It is heartening 
to see that this proposed budget takes into account the public's input.
    GRN strongly supports the cancellation of all previous funding for 
the Richton project in the President's fiscal year 2011 budget request 
for the Department of Energy and we urge the Senate Committee on 
Appropriations Subcommittee on Energy and Water Development and its 
members to support this portion of the proposed budget.
                                 ______
                                 
    Prepared Statement of the US Fuel Cell Council and the National 
                          Hydrogen Association
    On behalf of the members of the fuel cell and hydrogen industries, 
we thank you for consistently funding the Department of Energy's (DOE) 
hydrogen and fuel cell technology programs. Fuel cell and hydrogen 
technologies are a crucial part of the portfolio of advanced energy 
technologies that will help achieve the Nation's oil and greenhouse gas 
reduction goals. DOE and other supporting estimates show that domestic 
hydrogen fuel cells in light duty vehicles, for instance, could reduce 
oil imports by as much as 3.5 billion barrels per year within 40 years, 
reduce greenhouse gas emissions by 1.1 billion tons per year, and save 
consumers $25 trillion over the succeeding 50 years. These are key 
public investments, and DOE's programs continue to advance the pace of 
technology and bring down costs.
    As the subcommittee develops the fiscal year 2011 Energy and Water 
Appropriations recommendations, we urge you to provide $390 million for 
the Fuel Cell and Hydrogen Technologies Programs managed by the Energy 
Efficiency and Renewable Energy (EERE), Science, Fossil Energy (FE) and 
Nuclear Energy (NE) organizations at the Department of Energy--a 23 
percent increase vs. $316 million appropriated for 2010. This amount 
would fully fund the critical research, development, demonstration and 
deployment (RDD&D) of these advanced technologies in order to make them 
competitive with the conventional ones they need to replace in cost, 
reliability and performance, and respond to our industry's main 
priority: deployment of early commercial systems and an advanced fuel 
cell vehicle demonstration. A detailed list of our program priorities 
and funding requirements are included in this testimony.
    The fiscal year 2011 DOE request for EERE is $137 million, down $43 
million (-24 percent) from the current 2010 Appropriation of $180.1 
million (including last year's funded earmarks). These cuts propose 
eliminating funding for market transformation for fuel cells in early 
markets; education activities; and Federal purchase initiatives, while 
curtailing all new vehicle deployments under the Technology Validation 
program. DOE also chose to reduce the Fossil Energy coal to hydrogen 
program by $5.8 million. Similarly, at a time when funding for the 
Solid State Energy Conversion Alliance (SECA) program should be 
increased to support the megawatt-class demonstration effort, the DOE 
request is flat. This budget sends a damaging message to our industry, 
our Nation and the world, threatens to weaken U.S. leadership and 
unbalances the Nation's energy portfolio.
    More importantly, by making cuts to fuel cell and hydrogen 
technology programs, especially early market deployment, hydrogen 
infrastructure and fuel cell vehicles, and FE fuel cell research and 
development, DOE is sending negative signals to investors, 
manufacturers, auto makers, hydrogen gas suppliers, supply chain 
partners, potential customers, and other Federal agencies, local, State 
and foreign governments. The lead U.S. energy agency should fully 
embrace fuel cells and hydrogen infrastructure as an integral component 
of a comprehensive clean energy package to meet our national greenhouse 
gas reduction targets. Even worse, hydrogen and fuel cell industries 
could move offshore and the United States could lose as many as an 
estimated 675,000 potential net, new jobs.
    A robust public-private partnership, exemplified by DOE Technology 
Validation programs focused on cost reduction and early deployment, 
will accelerate commercialization and the benefits that accrue with 
marketplace success.
         strengthening federal hydrogen and fuel cell programs
    Proposal.--Fund DOE Fuel Cell and Hydrogen programs at enhanced 
historical levels; revise to reflect program success and current 
priorities. Restore reductions proposed by the Obama administration for 
fiscal year 2011.
EERE Programs--$220 Million
    The hydrogen and fuel cell programs in the Department of Energy's 
Hydrogen, Fuel Cell and Infrastructure Technologies Program support the 
development of fuel cells, their fuels and supporting infrastructure. 
The program has made exceptional progress in a few short years, helping 
dramatically reduce the volume production cost of fuel cells and the 
consumer cost of hydrogen fuel, testing and evaluating more than 125 
fuel cell vehicles in real world operation (U.S.-wide, over 300 
vehicles have driven 3 million miles), and helping deploy more than a 
thousand fuel cell systems to Federal agencies and early private sector 
adopters to improve energy efficiency and security of supply with low 
or zero emissions.
    Hydrogen and fuel cells have been a largely domestic suite of 
technologies, and, over the past two decades, the United States has 
continued to be the recognized leader in their development. 
Indifference to encouraging commercialization allows other nations, 
particularly Germany, South Korea, Japan, and China, to capture the 
lead in establishing and commercializing these technologies, reaping 
the economic benefits of associated job growth and export revenue. DOE 
analysis projects that transitioning to a hydrogen economy would yield 
a net increase in U.S. employment of 58,010 to 182,840 by 2020 and 
184,560 to 677,070 by 2035.
    Fuel cell technologies are a crucial part of the portfolio of 
advanced energy technologies that will achieve the Nation's energy 
policy and greenhouse gas reduction goals. DOE and other supporting 
estimates show that domestic hydrogen fuel cells in light duty 
vehicles, for instance, could reduce oil imports by as much as 3.5 
billion barrels per year within 40 years, reduce greenhouse gas 
emissions by 1.1 billion tons per year, and save consumers $25 trillion 
over the succeeding 50 years.
    Robust public-private partnerships focused on cost reduction and 
early deployment will accelerate commercialization and the benefits 
that accrue with marketplace success.
    Vehicle and Infrastructure Market Deployment: $45 Million.--Support 
for initial sales, backed by a real-world vehicle and fuel testing and 
evaluation program, is essential to accelerating the transition to 
commercial market. DOE should extend the Technology Validation program 
for an additional year with technology insertion ($15 million), and 
initiate a Vehicle and Infrastructure Market Deployment program. As 
their Technology Validation program is winding down, DOE now needs to 
evolve to support early market volumes of FCVs and related 
infrastructure consistent with a commercial transition. DOE Proposal: 
$11.0 million
    Market Transformation: $45 Million.--The Market Transformation 
Program provides technical and financial support for purchase or lease 
of fuel cell systems entering the marketplace. The program creates U.S. 
jobs, improves security of air travel and communications, and enables a 
commercial transition in early markets. DOE supports the program but 
has deferred funding--and thus deferred job creation--to 2012. DOE 
should continue Market Transformation activities in all market sectors. 
Congress should expand the program to include State agencies and 
private sector customers and clarify that all fuel cell technologies 
are eligible. DOE Proposal: $0.0
    Fuel Cell R&D: $67 Million.--DOE's robust program of cost reduction 
via research into materials, catalysts and components should continue. 
Distributed fuel cells systems provide energy efficiency and security 
benefits; DOE's program should continue. DOE Proposal: $67.0 million
    Hydrogen Fuels R&D: $40 Million.--Hydrogen is one of a portfolio of 
fuels that together will achieve U.S. energy security while meeting 
greenhouse gas reduction goals. Improved hydrogen storage will reduce 
vehicle cost and improve capability, and will enable efficient use of 
hydrogen as a storage strategy for intermittent renewable resources, 
such as wind and solar power. Hydrogen from biomass uses a renewable 
domestic energy source and provides greater greenhouse gas reductions 
than biofuel combustion. DOE Proposal: $40.0 million
    Enabling Activities: $18 Million.--These programs prepare local 
communities for fuel cell installations, fueling stations and fuel cell 
vehicles, and help DOE evaluate program options.
  --Systems Analysis gives DOE tools to evaluate the program and 
        calculate public benefits. ($5 million)
  --Safety, Codes and Standards development sets safety rules and 
        product standardization guidelines, and trains local 
        enforcement officials and first responders. ($9 million)
  --Education informs the public and potential customers about these 
        technologies to break down awareness barriers. ($2 million) DOE 
        Proposal: $14.0 million.
    Manufacturing Research: $10 Million.--Improvements in manufacturing 
are a critical component in cost reduction; DOE's program should 
continue and expand. DOE Proposal: $5.0 million
  --Paying for These Enhancements Within the EERE Program.--Program 
        Direction (+43 percent) and Program Support (+94 percent) enjoy 
        large gains that go far beyond any associated subprogram level 
        of effort increases--totaling +55 percent over fiscal year 
        2010, at $287.3 million (vs +5 percent for EERE generally). 
        These funds are generally rather loosely programmed, leaving 
        generous margins for unnamed discretionary spending. They have 
        not been as carefully explained as other program elements. Some 
        of their expected functions might be more explicitly included 
        within definite program areas--for example, technology 
        advancement, commercialization and market development. We also 
        believe that the next stage of the H-Prize should see modest 
        funding from these allocations.
Fossil Energy Programs: $118.8 Million
    SECA Program: $70 Million.--The Solid State Energy Conversion 
Alliance (SECA) is a cost shared public-private partnership developing 
high temperature Solid Oxide fuel cells for power generation. SECA's 
development targets to date have been met ahead of schedule, but 
continued support is needed to move to the megawatt scale demonstration 
phase. Commercial Solid Oxide fuel cells will make possible a 60 
percent efficient coal fired power plant and kilowatt-scale solid oxide 
fuel cell modules for grid-independent distributed generation. 
Additionally, it will make it easier and cheaper to sequester 
CO<INF>2</INF> from coal. Fully funding the SECA program at $70 million 
would assure continued progress and save jobs threatened by the 
administration's proposal. DOE Proposal: $50.0 million
    Fuels--Hydrogen from Coal Research: $17.8 Million.--The Fuels 
activity helps reduce technological market barriers for the reliable, 
efficient and environmentally friendly conversion of coal to hydrogen. 
This specifically focuses on developing technologies that reduce costs 
and facilitate the production of ultra high-purity hydrogen from coal. 
Research for both stationary and transportation applications should 
continue. DOE Proposal: $12.0 million
    Hydrogen Turbines: $31.0 Million.--Hydrogen turbine development 
efforts implement projects that will enable efficient, clean, and cost 
effective hydrogen fueled turbines for coal-based integrated 
gasification combined cycle power systems that capture and store 
CO<INF>2</INF>. DOE program should continue. DOE Proposal: $31.0 
million
Nuclear Energy Programs: $8.5 Million
    Advanced Reactor Concepts: $8.5 Million.--The Advanced Reactor 
Concepts program, an expanded version of the Generation IV research and 
development (R&D) program, sponsors research and development for 
further safety, technical, economical, and environmental advancements 
of innovative nuclear energy technologies. Specific guidance 
encouraging DOE to continue R&D on High Temperature Electrolysis and 
thermochemical cycles from the former Nuclear Hydrogen Initiative 
should be included. DOE Proposal: $0.0
Science Programs: $38 Million
    The Office of Science includes funding for a variety of important 
materials activities with applications for hydrogen and fuel cell 
technologies, and which is spread between a number of Science program 
areas. DOE Proposal: $38 million

Total fiscal year 2011 Proposed: $390 million
Total fiscal year 2011 DOE Request: $268 million
Total fiscal year 2010 appropriation: $316 million

    Further Background.--The national German industry agreements across 
manufacturers, energy suppliers and utilities have set the stage for 
wide public-private cooperation that could be readily adopted by the 
United States, and clearly illustrates the pace of how fuel cell 
vehicle and fueling infrastructure rollout can be solved. Similar 
efforts are underway in Japan and Korea, and will soon evolve in China. 
Moreover, the South Korean Government, through the adoption of targeted 
sliding subsidies, has jumped to the lead in the deployment of 
stationary CHP and residential fuel cells, which will decrease costs 
while drastically increasing fuel efficiency and reducing greenhouse 
gas emissions. A link to a government and industry webinar from 
February 17, 2010 is http://www.hydrogenassociation.org/webinar/
17feb10.asp
    A Senate briefing from March 5, 2010 also included a review from 
GM, Daimler and Linde, all participants in the German agreements. 
Presentations can be found at http://www.hydrogenassociation.org/
policy/briefing_5mar10.asp.
                                 ______
                                 
               Prepared Statement of NuScale Power, Inc.
    Dear Mr. Chairman and ranking member: On behalf of NuScale Power of 
Corvallis, Oregon we request that the subcommittee approve the 
President's budget request of $38.8 million for small, modular reactors 
within the Office of Advanced Reactor Research Development and 
Demonstration. Our request is directed at both the research portion for 
advanced SMR's and especially the commercialization cost-share portion 
for up to two light water reactor SMR's designs.
    It is also our request that language be included to clarify that 
Government-industry cost-sharing include but not be limited to NRC fees 
and other related work activities leading to the submission of a Design 
Certification Document to the NRC. This later clarification is 
consistent with other previous Government-industry cost shared 
programs. We would be happy to discuss ways to control the taxpayer's 
long-term financial commitment to such a program for SMR's.
    The President has recognized the need for nuclear power as part of 
a comprehensive energy, environment and employment strategy for this 
country, including new financial incentives. The specific request for 
funding of small, modular reactors reflects the opportunity these new, 
innovative plant designs offer to strengthen our ability to achieve 
those goals. Small, modular reactor technologies build on a rich 
history of American innovation and world class nuclear design and 
operations. In particular, they will expand the potential market for 
new nuclear plants by reaching smaller markets, and they would do so 
while minimizing the magnitude of the financial challenge posed by 
larger nuclear plant designs.
    The NuScale design was originally developed by Oregon State 
University, working with Idaho National Laboratory and Nexant-Bechtel, 
as part of a Department of Energy funded research program and validates 
the effectiveness of such programs in bringing new technologies to the 
market. In addition to developing the design, this program funded the 
development of a one-third scale ``test facility'' at Oregon State 
University, uniquely positioning the NuScale technology for licensing. 
NuScale Power is a privately funded company which was formed in 2007 
for the sole purpose of commercializing this design under a Technology 
Transfer Agreement with Oregon State University.
    Much has been accomplished already in this ambitious undertaking:
  --Some 30 highly-skilled engineers and contractors now work for 
        NuScale and as many more work for the company under contract 
        with U.S. companies. We expect to triple that number in the 
        next 12-18 months.
  --Two separate panels of independent experts have evaluated the 
        safety of the NuScale plant and their conclusions have been 
        confirmed by a Level 1 Probabilistic Risk Assessment. These 
        results were presented to the NRC in September 2009 and showed 
        NuScale has achieved a safety margin that is exponentially 
        greater than the already large margins of existing nuclear 
        power plants.
  --In 2008, NuScale organized a Customer Advisory Board with senior 
        executives representing five major utilities in the United 
        States. In February 2009, one of those companies, Energy 
        Northwest, entered a Memorandum of Understanding with NuScale 
        to explore the siting of a NuScale plant in their system.
  --In a report prepared by the Electric Power Research Institute, 
        NuScale was identified as the first small, modular reactor 
        vendor to fully vet a Customer Requirements Document with its 
        potential customers. In NRC parlance this means NuScale is 
        already working with customers to make its plant ``market 
        ready.''
    All these efforts to date have been funded by private investments. 
Notwithstanding these encouraging developments, significant financial 
barriers remain before this technology can reach the market. The costs 
to prepare and submit an application for design certification and the 
subsequent costs for NRC review can be daunting and pose financial 
challenges that are increasingly difficult in the current economic 
climate. Customers too are concerned about the incremental costs of 
first of a kind investment. We are encouraged that the independent 
Nuclear Regulatory Commission staff--with the support of all three 
newly appointed Commissioners--is preparing for the submission of new 
SMR designs in the coming years in order to conduct the proper public 
safety evaluation, design and operating licensing certification. But if 
America is to maintain its place in the global market, and if the full 
potential of this new technology is to impact the domestic market in 
support of the President's energy goals, the cost-sharing proposal in 
the current budget request would make a vital difference.
    Yes, much has been accomplished. And yes, there is much work yet to 
be done. We ask for your support in these efforts.
                                 ______
                                 
 Prepared Statement of the Coalition for the Commercial Application of 
                         Superconductors (CCAS)
    CCAS respectfully requests that $45 million be included as a line 
item for High Temperature Superconductivity R&D in the fiscal year 2011 
budget for the Department of Energy, Office of Electricity Delivery and 
Energy Reliability.
    The President's proposed fiscal year 2011 budget for the DOE Office 
of Electricity Delivery and Energy Reliability (OEDER) contains a 
greatly reduced budget for High Temperature Superconductivity (HTS) of 
$4,860,000 under the label Advanced Cables and Conductors. Further, the 
intent is to eliminate all spending on HTS R&D and demonstrations in 
fiscal year 2012.
    Since its inception in 1988, the HTS program has enjoyed the 
strong, bipartisan support of Congress. Substantial progress toward 
commercialization has been achieved. Over this period, American 
taxpayers have made a major investment, alongside private capital, to 
ensure that the dramatic HTS materials discoveries made in the United 
States in the late 1980s are translated into beneficial products for 
United States consumers. We have also supported this investment to 
ensure a strong U.S. position in an emerging, very large, globally 
competitive field involving multiple applications and the concomitant 
high quality research and manufacturing jobs that will be realized.
    HTS is a game changing development for energy generation, 
transmission and distribution for the 21st century and many thousands 
of high quality research and manufacturing jobs hang in the balance. 
While the United States still leads the world in HTS R&D and pre-
commercial demonstrations, the leadership position in this critical 
technology has eroded substantially over the past 5 years as many 
foreign governments, particularly Korea, China, Japan, and Europe are 
increasing their support for HTS R&D as they realize the large number 
of jobs and the export value of the high tech products that potential 
leadership will bring.
    HTS R&D has brought the technology from a laboratory materials 
discovery in Houston in 1987 to pre-commercial demonstration insertions 
in the U.S. electric power grid. Benefits are a 60-70 percent reduction 
in resistive power losses versus any other conductor; substantial 
reduction in right-of-way requirements; extremely high power 
transmission capability at reduced voltages; improved aesthetics and 
security from underground cable location; and a major reduction in 
carbon footprint from greatly improved power transmission and 
distribution efficiency. HTS R&D is also bringing major size and weight 
benefits to transformers and generators and creating unique 
opportunities to limit the spread of fault currents and attendant grid 
system blackouts thereby enabling a smarter transmission and 
distribution grid. These developmental products are at the prototype 
demonstration stage. The HTS R&D conducted in OEDER has also 
underpinned advances in superconductor wire development that are being 
used in other applications. Examples are a degaussing system for the 
Navy, now being tested at sea as a means to reduce or eliminate the 
magnetic signature of ships making them invisible to mines; and a full 
size HTS electric ship drive motor also under evaluation by the Navy at 
the Philadelphia shipyard. Both of these products effect a 50 percent 
reduction in both size and weight versus conventional approaches, gains 
typical of superconductor based products. In science, HTS is the only 
way in which to achieve higher magnetic field strength essential to 
advance today's accelerator and collider technology. This high magnetic 
field capability is equally applicable to advances in NMR and MRI for 
scientific and medical research. For more information: www.ccas-
web.org.
    The United States is in an international race to commercialize HTS 
wire and cable applications for the power grid. Now is not the time to 
cut HTS R&D funding when the technology is just a few years from large 
scale commercialization. The fledgling industry cannot afford to bear 
the total cost of development at this time, which makes U.S. Government 
support essential. The $45 million annually over the next few years is 
needed to ensure an internationally competitive position for the United 
States in a technology, invented and largely developed here, that will 
be a major commercial jobs creator with attendant benefits for national 
security. Funding of demonstration projects within DOE has typically 
been allocated on a competitively bid, cost share basis.
    CCAS is a U.S. non-profit organization and members are involved in 
the end-use, manufacture, development and research of superconductor 
based systems, products and related technologies. Members comprise 
large and small corporations, research institutions, National 
Laboratories and universities with operations in most States.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials
    Mr. Chairman and members of the subcommittee, I am Phil Giudice of 
Massachusetts and chair of the National Association of State Energy 
Officials (NASEO). NASEO is submitting this testimony in support of 
funding for a variety of U.S. Department of Energy programs. 
Specifically, we are testifying in support of no less than $125 million 
for the State Energy Program (SEP), which is equal to the 
authorization. SEP is the most successful program operated by DOE in 
this area. This should be base program funding, with no competitive 
portion. SEP is focused on direct energy project development, where 
most of the resources are expended. SEP has set a standard for State-
Federal cooperation and matching funds to achieve critical Federal and 
State energy goals. We also support $300 million for the Weatherization 
Assistance Program (WAP). These programs are successful and have a 
strong record of delivering savings to low-income Americans, 
homeowners, businesses, and industry. We also support an increase in 
the budget for the Energy Information Administration (EIA) to $145 
million, including an increase for EIA's State Heating Oil and Propane 
Program, in order to cover the added costs of increasing the frequency 
of information collection, the addition of natural gas, and increasing 
the number of State participants. EIA's state-by-state data is very 
helpful. EIA funding is a critical piece of energy emergency 
preparedness and response, and there are significant new EIA 
responsibilities under the Energy Independence Security Act of 2007 
(``EISA''). EIA conducted a study of their capabilities and resources 
under section 805 of EISA, and this study supports increased funding. 
NASEO continues to support funding for a variety of critical buildings 
programs, including Building Codes Training and Assistance, Energy 
Star, the commercial buildings initiative, residential energy 
efficiency and Building America, at a level of $257 million in fiscal 
year 2011. NASEO also supports base funding (in addition to any 
congressionally-directed projects) for the Office of Electricity 
Delivery and Energy Reliability (``OE''), at least at the fiscal year 
2011 request of $186 million. Specific funding should be provided for 
the Division of Infrastructure Security and Energy Restoration of no 
less than $18 million, which funds critical energy assurance 
activities. We also strongly support the R&D function and Operations 
and Analysis function within OE. The industries program should be 
funded at a $150 million level to promote efficiency efforts and to 
maintain U.S. manufacturing jobs, especially in light of the loss of 
millions of these jobs in recent years. Additionally funding should be 
provided to support sections 451 and 453 of EISA, relating to combined 
heat and power and other waste heat recovery programs.
    Formula SEP funding provides a basis for States to share best 
practices among themselves. These best practices (even without stimulus 
funds) allow States to get a great deal accomplished. These types of 
activities include revolving loans, utility-based programs, energy 
service performance contracts, etc.
    In January 2003, Oak Ridge National Laboratory (ORNL) completed a 
study and concluded, ``The impressive savings and emissions reductions 
numbers, ratios of savings to funding, and payback periods . . . 
indicate that the State Energy Program is operating effectively and is 
having a substantial positive impact on the Nation's energy 
situation.'' ORNL updated that study and found that $1 in SEP funding 
yields: (1) $7.22 in annual energy cost savings; (2) $10.71 in 
leveraged funding from the States and private sector in 18 types of 
project areas; (3) annual energy savings of 47,593,409 million source 
BTUs; and (4) annual cost savings of $333,623,619. The annual cost-
effective emissions reductions associated with the energy savings are 
equally significant: (1) Carbon--826,049 metric tons; (2) VOCs--135.8 
metric tons; (3) NO<INF>X</INF>--6,211 metric tons; (4) fine 
particulate matter (PM10)--160 metric tons; (5) SO2--8,491 metric tons; 
and (6) CO--1,000 metric tons. The energy cost savings is much higher 
today, in light of higher prices.
                    stimulus funding implementation
    We want to thank the subcommittee for the tremendous support 
provided in the stimulus package for a variety of State and local 
funding initiatives, including $3.1 billion for the State Energy 
Program, $5 billion for the Weatherization Program, $3.2 billion for 
the Energy Efficiency and Conservation Block Grant and $300 million for 
the Energy Star appliance rebate program, etc.
    This is a major task. We are working closely with the Department of 
Energy's, Energy Efficiency Renewable Energy Division (Cathy Zoi), the 
Office of Weatherization and Intergovernmental Programs (Claire 
Johnson), Matt Rogers in the DOE Secretary's office, NETL and Golden, 
the DOE General Counsel (Scott Harris), to implement these programs as 
quickly as possible. We have had regular calls with all the State 
energy officials to address implementation questions. We have also had 
a series of regional conference calls among the States, and we have 
seven regional coordinators helping to share ``best practices'' among 
the States. NASEO is cooperating with the other State and local 
organizations to share best practices and provide information to 
officials at all levels of government in order to more effectively 
coordinate this effort. We are convinced that these funds are helping 
to engineer major positive changes in the U.S. economy and as the 
economy rebounds this will help create ``Green Jobs'' and major energy 
improvements that will improve all sectors of the economy.
    NASEO believes it is important to maintain base levels of 
appropriations for critical programs, such as SEP and Weatherization, 
in order to avoid a huge decrease in funding after a rapid stimulus 
increase.
    With respect to ARRA spending for SEP, of the $3.1 billion 
appropriated, over $1 billion is now under contract and work is being 
implemented. Another $1 billion has been committed to projects, 
including awards. We expect the remainder to move quickly. We and DOE 
are working through the barriers that slowed spending, including NEPA 
compliance, Davis-Bacon wage rates, Buy-American clauses, historic 
preservation, lead paint requirements and general procurement issues. 
It is important to stress that the key figures are the ``commitment'' 
and ``contracted'' amounts, because that is when people get hired and 
work commences. States generally do not pay until projects are actually 
completed and milestones are met. We do not pay-up front in most cases. 
In economics jargon, the Federal spending figure is actually a lagging 
indicator.
    Industrial Energy Program.--A funding increase to a level of $150 
million for the Industrial Technologies Program (ITP) is warranted. 
This is a public-private partnership in which industry and the States 
work with DOE to jointly fund cutting-edge research in the energy area. 
The results have been reduced energy consumption, reduced environmental 
impacts and increased competitive advantage of manufacturers (which is 
more than one-third of U.S. energy use). The States play a major role 
working with industry and DOE in the program to ensure economic 
development in our States and to try to ensure that domestic jobs are 
preserved. State energy offices are working effectively with DOE on the 
``Save Energy Now'' campaign. Funding for distributed generation and 
specific funding for sections 451 (including the Clean Energy 
Applications Centers) and 453 of EISA is critical and should be 
included above the $150 million proposal.
    Examples of Successful State Energy Program Activities.--The States 
have implemented thousands of projects. We have previously supplied to 
subcommittee staff examples of programs implemented under ARRA. Here 
are a few representative examples.
    Alabama.--The State has dedicated $25 million for an energy 
revolving loan fund for business and industry, and has dedicated $5 
million for energy efficient school retrofit grants.
    California.--The State has committed to a comprehensive residential 
building retrofit program, retrofits for municipal and commercial 
buildings, a finance program for municipalities, State building 
retrofits through revolving loans ($25 million), clean energy business 
financing, low-interest loans for local governments and ``Green Jobs'' 
workforce training ($20 million), etc.
    Hawaii.--This State is focused on energy efficiency and renewable 
energy projects intending to supplement existing efforts. For example, 
promotion of Energy Star upgrades for hotels, technical assistance to 
develop green buildings and other energy efficient buildings, have been 
two major projects. Funds have supplemented the public benefits 
program, the county energy efficiency efforts and alternative fuel 
efforts.
    Iowa.--This State has committed substantial funding to municipal 
energy efficiency projects and green jobs initiatives. They have also 
instituted an energy loan program. Funding has supplemented programs 
and projects conducted under the $100 million Iowa Power Fund.
    Kentucky.--$14 million has been dedicated to the Green Bank of 
Kentucky for energy efficiency financing for public buildings by 
utilizing revolving loans. In addition, funds were provided for an 
advanced energy efficient battery initiative, commercial office 
building energy efficiency retrofits, industrial facility energy 
efficiency retrofits, Home Performance with Energy Star, utility smart 
grid activities and $10 million for energy efficiency in K-12 schools.
    Louisiana.--$25.7 million has been committed to energy efficiency 
retrofits in higher education buildings, $15.7 million is dedicated to 
retrofits of commercial buildings and energy efficiency for new and 
existing homes, and $10 million has been committed to renewable energy 
development.
    Mississippi.--$17 million was dedicated for energy efficient public 
buildings, including retrofits, performance contracting and building 
energy codes and $10 million was allocated for renewable energy 
projects, smart meters on public facilities and support for community 
college workforce training. An additional $10 million was slated for 
businesses to implement energy efficiency or renewable energy upgrades.
    Missouri.--This State's extensive residential energy efficiency 
program is providing loans, grants and rebates to homeowners to install 
energy efficiency measures. Funding has also been provided to train 
residential energy auditors. They have also initiated an industrial and 
manufacturing energy efficiency initiative, as well as an agricultural 
energy program.
    Montana.--$22.3 million has been allocated to State universities, 
community colleges and other State facilities for energy efficiency 
projects; 87 projects are underway. A revolving loan program has been 
set up for homeowners and small businesses to install alternative 
energy systems. Additional funds have been dedicated to renewable 
energy demonstration projects.
    New Jersey.--$7 million has been committed to fund solar 
installations on multi-family buildings, $4 million for residential 
energy efficiency financing, $4 million for multi-family energy 
efficiency loans, $17 million for municipal energy efficiency 
incentives, $6 million for State building energy efficiency and an 
additional $15 million for grants and loans for energy efficiency and 
renewable energy applications.
    North Dakota.--The State instituted a high efficiency furnace 
rebate program to help victims of the 2009 spring floods. The State 
also instituted a statewide energy efficiency and renewable energy 
rebate program in partnership with rural electric cooperatives, 
municipally-owned utilities and the investor-owned utilities. Projects 
have included blender pumps for retailers (e.g. West Fargo, Minot, 
Grand Forks, Edgeley, Wyndmere and Bowman) and flare gas electricity 
generation (Williams County).
    Ohio.--$42.6 million has been allocated for a variety of renewable 
energy activities, including manufacturing, waste-to-energy and 
biofuels, $8 million has been dedicated to energy efficiency and 
geothermal for new and existing buildings, $30 million is capitalizing 
a revolving loan program for all sectors, and $15 million is committed 
to energy efficiency for industry.
    Rhode Island.--Funds have been provided for a green building 
initiative in State facilities, a commercial/industrial energy 
efficiency initiative, building code upgrades and energy efficient 
transportation, $8.4 million has been allocated for renewable energy 
loans, $2.3 million has been allocated for a residential energy 
efficiency initiative with approximately $7.5 million in leveraged 
funds projected. Larger (utility scale) renewable projects received $5 
million.
    South Dakota.--$20.5 million has been dedicated to a State 
revolving loan for public buildings, with $3 million for a limited 
number of grants. Activities include energy efficiency retrofits, LEED 
ratings, on site generation, etc.
    Tennessee.--This State has committed its resources to three major 
solar initiatives including a solar and economic development program, 
creating a Tennessee Solar Institute at ORNL and creating a large solar 
farm.
    Texas.--$137.8 million has been allocated for public sector 
building energy efficiency, including revolving loans for schools, 
hospitals, municipalities, public colleges, etc. and $52 million has 
been allocated for a competitive renewable energy grant program. Energy 
sector training projects have been granted to junior colleges and 
technical institutes. Transportation efficiency programs have also been 
funded.
    Utah.--Funds have been allocated for residential and commercial 
energy training, advanced energy efficiency for buildings, whole home 
audit programs, builder rebates for high performance home building, 
direct installation for insulation, energy efficiency in State 
buildings, grants for energy efficiency in public schools, revolving 
loans for public schools and competitive grants for highly innovative 
energy efficiency projects. Renewable energy projects for State-owned 
buildings and public schools have also been funded. The $10 million in 
loans for State agencies is projected to leverage $60 million in other 
funds.
    Washington.--Approximately $20 million was allocated for a energy 
efficiency and renewable energy loan and grant program. Over 10 times 
the amount of available funds was requested by potential recipients. 
Additional funding of $5 million was provided for energy efficiency 
credit enhancements (supporting $50 million in total project 
expenditures). Funding was also allocated for energy efficiency in 
agricultural uses and community wide residential and commercial energy 
efficiency pilots received $14 million in grants.
    West Virginia.--Almost $13 million has been dedicated to energy 
efficiency projects in higher education buildings and K-12 schools. 
State buildings also received funds for energy efficiency projects. A 
green collar jobs training program was also initiated.
                                 ______
                                 
                       Prepared Statement of ASME
    Mr. Chairman, ranking member and members of the subcommittee: The 
ASME Energy Committee is pleased to provide this testimony on the 
fiscal year 2011 budget request for research and development (R&D) 
programs in the Department of Energy (DOE).
           introduction to asme and the asme energy committee
    The 127,000-member ASME is a nonprofit, worldwide educational and 
technical Society. It conducts one of the world's largest technical 
publishing operations, holds more than 30 technical conferences and 200 
professional development courses each year, and sets some 600 
industrial and manufacturing standards, some of which have become de 
facto global technical standards. The Energy Committee of ASME's 
Technical Communities comprises 40 members from 17 Divisions of ASME, 
representing approximately 40,000 of ASME's members.
    ASME has long advocated a balanced mix of energy supplies to meet 
the Nation's energy needs, including advanced clean coal, petroleum, 
nuclear, natural gas, waste to energy, biomass, solar, wind and 
hydroelectric power. ASME also supports energy efficient building and 
transportation technologies, as well as transmission and distribution 
infrastructure sufficient to satisfy demand under reasonably 
foreseeable contingencies. Only such a portfolio will allow the United 
States to maintain its quality of life while addressing future 
environmental and security challenges. Sustained growth in the energy 
systems on which the United States depends will also require stability 
in licensing and permitting processes not only for power generating 
stations but also for transmission and transportation systems.
    A forward-looking energy policy will require enhanced and sustained 
levels of funding for R&D, as well as Government policies that 
encourage deployment and commercialization. While the Energy Committee 
supports much of the fiscal year 2011 budget request, especially the 
increases in funding for fundamental scientific research. The Energy 
Committee also wishes to emphasize that a balanced approach to our 
energy needs is critical and that we remain concerned about the 
decrease in funding for fossil energy, which is essential to meeting 
our national energy needs now and in the future.
                            critical issues
    The Energy Committee would like to point out some critical energy 
issues:
  --Additional investment guarantees for construction of new electrical 
        capacity, especially nuclear facilities, must be enacted in 
        future legislation. These guarantees will enable lower 
        financing costs for a variety of energy technologies and fuel 
        sources that will be available for the American public. 
        Extending these programs further into the future will allow a 
        reasoned rate of increase in construction and application of 
        these technologies for electric generation. It is critical that 
        non-biased, critical analysis of known potential energy/
        environmental/technical benefits and impacts drive allocation. 
        These must consider capacity value (reliable contribution to 
        load trends) of resources as well as capacity factor, and also 
        losses from proximity or remoteness from load. These additions 
        translate to much more efficient use of subsidy dollars.
  --There is a critical shortage of trained personnel in the workforce 
        at all levels. This includes scientists and engineers who will 
        conduct research, those who will operate and maintain the 
        systems, as well as people in building trades that will be 
        essential for the construction of our energy systems and in 
        industry that will manufacture the components. ``Regaining our 
        ENERGY Science and Engineering Edge'' or ``RE-ENERGYSE,'' a 
        program being conducted jointly by the DOE EERE and the 
        National Science Foundation (NSF) and geared to young 
        scientists and engineers, is a positive step toward addressing 
        this chronic issue. We would like to see this program honored 
        in fiscal year 2011.
                             fossil energy
    The fiscal year 2010 budget request of $760 million for fossil 
energy represents a $190 million decrease over the fiscal year 2010 
appropriation; a 20 percent decrease over the fiscal year 2010 budget 
request. Fossil Energy Research and Development would be reduced by $85 
million to $586 million; however, much of this is covered by stimulus 
funding in the near term. Funding for Natural Gas Technologies and for 
Unconventional Fossil Energy Technologies would be eliminated. The 
budget for the Strategic Petroleum Reserve would be suspended. The 
Energy Committee encourages funding for coal research programs and 
urges a restoration to at least the levels appropriated for fiscal year 
2010 in future years when the stimulus funding has been expended. The 
effective use of coal in today's environment demands an increase in 
efficiency and a decrease in release of environmentally harmful waste 
streams. Coal remains a critical resource for our Nation and its 
economy; however, and we must continue to invest in technological 
advancements that will reduce emissions for this energy. The use of 
more efficient processes for coal combustion, such as advanced 
integrated gasification combined cycle (IGCC) technology, combined with 
carbon sequestration will allow the United States to utilize its coal 
resources in a more environmentally sound and cost effective manner. We 
encourage strong and consistent funding for these programs now and in 
future years.
           advanced research projects agency-energy (arpa-e)
    The Energy Committee supports the $300 million budget request for 
the Advanced Research Projects Agency-Energy (ARPA-E). This is a 
worthwhile endeavor for the DOE as we seek to accomplish technological 
breakthroughs in energy technology.
                             nuclear energy
    The Energy Committee is pleased to see an overall increase in the 
DOE Nuclear Energy budget to $912 million in fiscal year 2011, a $42 
million increase over the fiscal year 2010 appropriated amount. 
However, the Energy Committee is discouraged at the discontinuation of 
the Generation IV Nuclear Energy Systems program. The Energy Committee 
is curious to see how the proposed Reactor Concepts RD&D program 
distinguishes itself from the traditional R&D program under the Office 
of Nuclear Energy. Nuclear energy, as a low-carbon, non-greenhouse gas-
emitting resource, is a critical component of a diverse U.S. power 
generation mix and should play a larger role in the Nation's base power 
supply. Sustained increases in nuclear power research are justified by 
the imperative of reliable, low cost, low emissions electricity.
    Before its cessation in the fiscal year 2009 Omnibus Appropriations 
bill, the Global Nuclear Energy Partnership (GNEP) program was a vital 
means to enhancing the future of safe, reliable, nuclear power through 
the establishment of international centers for nuclear fuel cycle 
services for nations both large and small. Although no funding is 
provided for GNEP, the Advanced Fuel Cycle Initiative, now called Fuel 
Cycle R&D, would receive $201 million in funding in fiscal year 2011, a 
$65 million increase. The ASME Energy Committee remains hopeful that 
the administration, with the aid of Congress, will eventually 
reconsider the discontinuation of GNEP, which continues to exist as an 
international collaborative effort, but minus U.S. participation.
                 energy efficiency and renewable energy
    The Office of Energy Efficiency and Renewable Energy (EERE) manages 
America's investment in research, development and deployment of DOE's 
diverse energy efficiency and renewable energy applied science 
portfolio. The fiscal year 2011 request of $2.35 billion, $112 million 
above the fiscal year 2010 appropriated amount, provides a broad and 
balanced set of approaches to address the urgent energy and 
environmental challenges currently facing our Nation. Most of the key 
EERE programs, including Biomass, Solar, Wind, Geothermal, Building 
Technologies, Vehicle Technologies, and Industrial technologies, have 
received sizable increases in funding to support the growth of 
renewable energy. The Energy Committee encourages Congress to include 
waste-to-energy as an important component of the Country's Renewable 
Energy portfolio to provide it with the same benefits as energy from 
biomass.
    The RE-ENERGYSE program is slated to receive $50 million as part of 
the fiscal year 2011 request. Facing a deficit of engineers in the 
United States, the Energy Committee believes that this could be an 
effective step toward replenishing our Nation's workforce by 
encouraging young people to pursue science and engineering. Therefore, 
the Energy Committee strongly supports full funding for the RE-ENERGYSE 
program, something that did not receive funding for the fiscal year 
2010 appropriation.
    The Energy Committee believes that the development of 
transportation fuel systems that are not petroleum based is a critical 
part of our future national energy policy. The fiscal year 2011 budget 
for biomass and bio-refinery systems R&D is slated to receive no 
increase at $220 million for fiscal year 2011, identical to the fiscal 
year 2010 appropriated amount. It should be noted that this program did 
receive $777 million as part of the American Recovery and Reinvestment 
Act (Public Law 111-5). Therefore, the Energy Committee supports the 
current appropriation and encourages Congress to ensure that these 
research programs continue to receive adequate funding. We are also 
pleased to see the $325 million increase in the effort related to 
vehicle technologies emphasizing plug-in hybrid electric vehicles.
    The integration of all cost effective electric generating 
technologies into the operation of the electricity distribution system 
is critical to economic operation of the national electric grid. The 
Energy Committee believes that R&D related to the integration of the 
electric grid and its control as a truly national system is imperative 
for the growth of effective and economic energy generation technologies 
and we encourage full funding for such research.
             science and advanced energy research programs
    The Energy Committee is pleased by the increased request for the 
Office of Science (OS) which restores the funding trajectory mandated 
in the America Competes Act of 2007 (Public Law 109-69). The fiscal 
year 2011 budget proposal of $5.12 billion is an increase of $217 
million over the fiscal year 2010 appropriation. OS programs in high 
energy physics, fusion energy sciences, biological and environmental 
research, basic energy sciences, and advanced scientific computing, 
serve, in some small way, every student in the country. These funds 
support not only research at the DOE Laboratories, but also the work at 
a large number of universities and colleges. We believe that basic 
energy research will also improve U.S. energy security over the long 
term, through its support for R&D on cellulosic ethanol and other next-
generation biofuels, advanced battery and energy storage systems, and 
fusion. The Energy Committee strongly supports the budget request for 
the Office of Science, as well as the proposed doubling track for the 
office by fiscal year 2017.
                           other doe programs
    DOE is also very active in areas outside of R&D. The environmental 
remediation program that funds the decommissioning and decontamination 
of old DOE facilities is one such research area. The Energy Committee 
questions the advisability of flat funding for the Environmental 
Management program. The Yucca Mountain Waste Repository is a critical 
part of the environmental cleanup activity. Termination of this project 
will only extend and increase the final cost of the environmental 
management program. The energy committee does not support this backward 
step. The coming resurgence in the commercial nuclear arena is likely 
to deplete the trained professionals available for this program as 
engineers choose to move to the more stable commercial environment. 
Congress should appropriate the funds to ensure that this work is 
accomplished in an expeditious manner.
                               conclusion
    Members of the ASME Energy Committee consider the issues related to 
energy to be one of the most important issues facing our Nation. The 
need for a strong and coherent energy policy is apparent. We applaud 
the Administration and Congress for their understanding of the 
important role that scientific and engineering breakthroughs will play 
in meeting our energy challenges. In order to promote such innovation, 
strong support for energy research will be necessary across a broad 
range of technology options. DOE research can play a critical role in 
allowing the United States to use our current resources more 
effectively and to create more advanced energy technologies.
    Thank you for the opportunity to offer testimony regarding both the 
R&D and other parts of the proposed budget for the DOE. The ASME Energy 
Committee is pleased to respond to requests for additional information 
or perspectives on other aspects of our Nation's energy programs.
                                 ______
                                 
        Prepared Statement of the Gulf Coast Research Laboratory
    I am writing to you as a marine biologist with over 40 years of 
experience in fisheries science. I would like to share my concerns with 
you about the proposed plans to construct an expansion site for the 
Strategic Petroleum Reserve (SPR) at Richton in Perry County, 
Mississippi.
    The Richton Site differs from DOE's four existing Strategic 
Petroleum Reserve (SPR) sites located in other States and these 
differences were not adequately addressed in the original Environmental 
Impact statement. The Richton project is the first SPR to place the 
brine diffuser in a marine environment near a barrier island pass and 
the use of diffusion models designed for other locations to explain 
circulation processes in Mississippi waters is totally inappropriate 
and not based on ``sound science''. The physiography of the Mississippi 
Bight and circulation patterns within this region are unique. There are 
serious concerns that the Pascagoula River Basin will suffer as a 
result of the project's withdrawal of 50 million gallons of water per 
day for a period of 5 to 6 years concurrent with the daily diffusion of 
42 million gallons of toxic salt brine (236 ppt) waste at a discharge 
site south of Horn Island Pass. This site is directly in line with the 
Pascagoula Ship Channel and may serve as a conduit for movement of 
brine northward. Based on the best available oceanographic models for 
the area, there is the probability that the brine will not diffuse as 
it does in other areas, but will actually enter the Mississippi Sound 
with a component of the discharge moving westward along the south side 
of the barrier islands toward the Chandeleur Islands in Louisiana. This 
would create a ``brine pool'' within the Sound and would establish a 
``brine barrier'' across the island passes. Mississippi's barrier 
island passes are key corridors for the transport of larvae and 
postlarvae of economically important fish and shellfish to and from the 
Mississippi Sound and the effect of a ``brine barrier'' on these 
fragile life stages may be catastrophic.
    The Pascagoula River is the largest unaltered, undammed river 
system in the United States and is considered a ``Natural Treasure''. 
There is concern that salt water intrusion resulting from the vast 
discharge of brine south of Horn Island Pass coupled with decreased 
freshwater flow may alter coastal ecosystems and impact rare, 
threatened, and endangered species (14 listed by the Mississippi 
Department of Marine Resources). Mississippi is dependent on its water 
resources and wetlands to maintain commercial and recreational 
fisheries and protection of these natural resources is a priority for 
the people of Mississippi.
                                 ______
                                 
                 Prepared Statement of Energy Northwest
    Energy Northwest is writing to express its support for the 
President's fiscal year 2011 budget request of $38.9 million for the 
Department of Energy's small, modular nuclear reactor (SMR) program. 
This funding will help avoid delays in the Federal licensing by the 
Nuclear Regulatory Commission for such projects.
    The President's budget request would support public/private 
partnerships to advance mature SMR designs, and research, development 
and demonstration of innovative SMR technologies and concepts.
    Energy Northwest is a joint operating agency headquartered in 
Richland, Washington and comprised of 28 publicly owned utilities from 
across Washington State. The agency owns and operates four electric 
generating plants: Columbia Generating Station (nuclear power plant), 
Packwood Lake Hydroelectric Project, Nine Canyon Wind Project and White 
Bluffs Solar Station. As part of Energy Northwest's evaluation of 
options for meeting future wholesale power supply needs of its members, 
the concept of building a small reactor that could be grouped with 
other modules to meet future load group is currently being studied.
    At a time when the United States is charting an energy course to 
increase national energy security and promote greater development of 
low- or no-carbon emission resources, SMRs hold great promise. 
Potential benefits of SMRs include providing utilities greater 
flexibility in terms of capital investment, financing, siting and 
sizing.
    Thank you for the opportunity to submit these views.
                                 ______
                                 
      Prepared Statement of the American Public Power Association
    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other State and locally owned utilities throughout the United 
States (all but Hawaii). Collectively, public power utilities deliver 
electricity to 1 of every 7 electric consumers (approximately 45 
million people). We appreciate the opportunity to submit this statement 
outlining our fiscal year 2011 funding priorities within the Energy and 
Water Development Subcommittee's jurisdiction.
    Renewable Energy Production Incentive (REPI).--APPA requests $5 
million for the Renewable Energy Production Incentive (REPI). The 
Department of Energy's REPI program was created in 1992's Energy Policy 
Act (EPAct) as a counterpart to the renewable energy production tax 
credits made available to for-profit utilities, and was reauthorized 
through 2016 in the Energy Policy Act of 2005 (EPAct05). EPAct05 
authorizes DOE to make direct payments to not-for-profit public power 
systems and rural electric cooperatives at the rate of 1.5 cents per 
kWh (1.9 cents when adjusted for inflation) from electricity generated 
from a variety of renewable projects. While the program had been zeroed 
out in recent years by the Bush and Obama administrations, Congress has 
consistently restored funding at $5 million until last year. In fiscal 
year 2010, the REPI program received no funding. As Congress works 
toward adopting a Federal renewable portfolio standard and a climate 
change mitigation program, REPI becomes increasingly more important to 
not-for-profit utilities. Several non-profit utilities that have been 
relying on the program to help fund renewable programs, have been 
abandoned by the lack of funding. While the demand for the program is 
truly $25 million, $5 million would restore funding.
                power marketing administrations (pma's)
    Power Marketing Administration Proposals.--In past years, various 
measures have been proposed for all four PMAs that would have had the 
effect of raising the rates for PMA customers. We appreciate that the 
fiscal year 2011 request does not include these types of proposals.
    Purchase Power and Wheeling.--We urge the subcommittee to authorize 
appropriate levels for use of receipts so that the Western Area Power 
Administration (WAPA), the Southeastern Power Administration (SEPA) and 
the Southwestern Power Administration (SWPA) can continue to purchase 
and wheel electric power to their municipal and rural electric 
cooperative customers. Although appropriations are no longer needed to 
initiate the purchase power and wheeling (PP&W) process, the 
subcommittee continues to establish ceilings on the use of receipts for 
this important function. The PP&W arrangement is effective, has no 
impact on the Federal budget, and is supported by the PMA customers who 
pay the costs. We support an increase over the funding levels of the 
administration's budget for fiscal year 2011, which are as follows: 
$553.6 million for Western Area Power Administration (WAPA); $88.6 
million for Southeastern Power Administration (SEPA); and $49 million 
for Southwestern Power Administration (SWPA).
    Storage for High-level Nuclear Waste.--APPA is disappointed in the 
administration's lack of support for the Department of Energy used 
nuclear fuel management program. However, we support efforts by the 
administration to study alternatives to Yucca Mountain and request a 
funding level of $340 million for the Office of Radioactive Waste 
Management at the Department of Energy.
    Nuclear Loan Guarantees.--APPA is pleased with the administration's 
request of $54.5 billion for DOE Loan Guarantees for Innovative Energy 
Technology and encourages the subcommittee to maintain this level of 
funding.
    Department of Energy Waterpower Program.--APPA requests $100 
million for fiscal year 2011 for the DOE's Waterpower Program. At a 
time when utilities around our country must focus on finding carbon-
free sources of energy, the importance of hydropower research and 
development is more important than ever before. Not only is hydropower 
a renewable resource, but it can be used as baseload generation to back 
up more intermittent renewables such as wind and solar power.
    Energy Conservation.--APPA appreciates the funding increases for 
energy efficiency programs provided in the President's budget. The 
budget funding levels for fiscal year 2011 are as follows: Building 
Technologies--$231 million; Industrial Technologies--$100 million; 
Federal Energy Management Program--$42 million; and Vehicle 
Technologies--$325 million. We urge the subcommittee to maintain these 
funding levels. We however encourage the subcommittee to increase 
funding for the EPA ENERGY STAR program over the requested amount of 
$55.4 million.
    Weatherization and Intergovernmental Activities.--We are pleased 
that the administration has requested $385 million for the 
Weatherization program in fiscal year 2011, a 30 percent increase from 
fiscal year 2010 and we encourage the subcommittee to maintain that 
level of funding.
    Clean Coal Power Initiative (CCPI) and FutureGen.--APPA is 
disappointed that the budget did not include funding for large scale 
commercial applications of carbon capture and sequestration technology. 
The American Recovery and Reinvestment Act (ARRA) included $800 million 
for the CCPI Round 3 program and we encourage the subcommittee to 
include funding for a CCPI round 4 program. Funding for FutureGen was 
made available in the ARRA. APPA strongly believes as concerns grow 
over climate change and the effects of man-made emissions from 
combustion of fossil fuels, the FutureGen project will be critical in 
nearing us to the goal of the world's first near-zero-emissions coal 
fired plant. We urge the subcommittee and the Congress to work with the 
administration on finding an appropriate role and funding level for the 
FutureGen project.
    Fuel Cells.--APPA was disappointed with the funding request of $50 
million for fiscal year 2011 for fuel cell related research and 
development. This is a 7 percent decrease from fiscal year 2010 levels. 
We urge the subcommittee to allocate additional funding for this 
program for fiscal year 2011.
    Fuels and Power Systems.--We recommend these funding levels for the 
following programs: Innovations for Existing Plants--increase from $65 
million to $84 million; Advanced Integrated Gasification Combined 
Cycle--increase from $55 million to $80 million; Turbines--increase 
from $31 million to $45 million; Carbon Sequestration--increased from 
$143 million to $150 million; Fuels--support the President's request; 
Advanced Research--support President's request of $48 million.
    Navajo Electrification Demonstration Program.--APPA supports full 
funding for the Navajo Electrification Demonstration Program at its 
full authorized funding level of $15 million. The purpose of the 
program is to provide electric power to the estimated 18,000 occupied 
structures in the Navajo Nation that lack electric power. This program 
has been consistently underfunded.
    Federal Energy Regulatory Commission (FERC).--The fiscal year 2011 
budget requests $315 million for FERC, an increase over fiscal year 
2010 levels. APPA supports this increase.
                                 ______
                                 
 Prepared Statement of the American Society of Agronomy, Crop Science 
       Society of America and the Soil Science Society of America
    The American Society of Agronomy, Crop Science Society of America, 
and Soil Science Society of America (ASA-CSSA-SSSA) are pleased to 
submit the following funding recommendations for the Department of 
Energy for fiscal year 2011. For the Office of Science, ASA, CSSA, and 
SSSA recommend a funding level of $4.9 billion, a 10 percent increase 
over fiscal year 2010 ($4.47 billion). For the Office of Energy 
Efficiency and Renewable Energy, we recommend a funding level of $2.4 
billion, a 7 percent increase over fiscal year 2010. Specifics for each 
of these and other budget areas follow below.
    With more than 25,000 members and practicing professionals, ASA-
CSSA-SSSA are the largest life science professional societies in the 
United States dedicated to the agronomic, crop and soil sciences. ASA-
CSSA-SSSA play a major role in promoting progress in these sciences 
through the publication of quality journals and books, convening 
meetings and workshops, developing educational, training, and public 
information programs, providing scientific advice to inform public 
policy, and promoting ethical conduct among practitioners of agronomy 
and crop and soil sciences.
                 department of energy office of science
    ASA-CSSA-SSSA understand the challenges the Senate Energy and Water 
Appropriations Subcommittee faces with the tight budget for fiscal year 
2011. We also recognize that the Energy and Water Appropriations bill 
has many valuable and necessary components, and we applaud the 
subcommittee for funding the DOE Office of Science in the fiscal year 
2010 Omnibus Appropriations bill at $4.470 billion. For fiscal year 
2011, ASA, CSSA, and SSSA recommend a funding level of $4.9 billion, a 
10 percent increase over fiscal year 2010. Congress approved the 
America COMPETES Act of 2007 (Public Law 110-69), recognizing that an 
investment in basic (discovery) scientific research is essential to 
providing America the brainpower necessary to maintain a competitive 
advantage in the global economy and keep U.S. jobs from being shipped 
overseas. Such an investment is needed to keep U.S. science and 
engineering at the forefront of global research and development in the 
biological sciences and geosciences, computing and many other critical 
scientific fields. The Office of Science supports graduate students and 
postdoctoral researchers early in their careers. Nearly one-third of 
its research funding goes to support research at more than 300 colleges 
and universities nationwide. Moreover, approximately one-half of the 
users at Office of Science user facilities are from colleges and 
universities, providing further support to their researchers. The 
Office of Science also reaches out to America's youth in grades K-12 
and their teachers to help improve students' knowledge of science and 
mathematics and their understanding of global energy and environmental 
challenges. This recommended funding level of $4.9 billion is critical 
to ensuring our future energy self-sufficiency and as a means to 
address major environmental challenges including global climate change. 
Finally, a funding level of $4.9 billion will allow the Office of 
Science to: maintain and strengthen DOE's core research programs at 
both the DOE national laboratories and at universities; provide support 
for 1,000 PhDs, postdoctoral associates, and graduate students in 
fiscal year 2011; ensure maximum utilization of DOE research 
facilities; allow the Office of Science to develop and construct the 
next generation facilities necessary to maintain U.S. preeminence in 
scientific research; and enable DOE to continue to pursue the 
tremendous scientific opportunities outlined in the Office of Science 
Strategic Plan and in its 20 Year Scientific Facilities Plan.
                         basic energy sciences
    Within the Office of Science, the Basic Energy Sciences (BES) 
Program is a multipurpose, scientific research effort that fosters and 
supports fundamental research to expand the scientific foundations for 
new and improved energy technologies and for understanding and 
mitigating the environmental impacts of energy use. ASA, CSSA, and SSSA 
support a fiscal year 2011 funding level of $1.75 billion, a 7 percent 
increase over fiscal year 2010, for BES. The portfolio of programs at 
BES supports research in the natural sciences by focusing basic 
(discovery) research on, among other disciplines, biosciences, 
chemistry and geosciences. Practically every element of energy 
resources, production, conversion and waste mitigation is addressed in 
basic research supported by BES programs. Research in chemistry has 
lead to the development of new solar photoconversion processes and new 
tools for environmental remediation and waste management. Research in 
geosciences leads to advanced monitoring and measurement techniques for 
reservoir definition. Research in the molecular and biochemical nature 
of photosynthesis aids the development of solar photo-energy 
conversion.
    Within the Basic Energy Sciences Program, the Chemical Sciences, 
Geosciences, and Energy Biosciences subprogram supports fundamental 
research in geochemistry, geophysics and biosciences. For Chemical 
Sciences, Geosciences, and Energy Biosciences subprogram ASA-CSSA-SSSA 
recommend $341.5 million for fiscal year 2011, a 15 percent increase 
over the fiscal year 2010 funding level. The Geosciences Research 
Program supports research focused at developing an understanding of 
fundamental Earth processes that can be used as a foundation for 
efficient, effective, and environmentally sound use of energy 
resources, and provide an improved scientific basis for advanced energy 
and environmental technologies. The Biosciences Research Program 
supports basic research in molecular level studies on solar energy 
capture through natural photosynthesis; the mechanisms and regulation 
of carbon fixation and carbon energy storage; the synthesis, 
degradation, and molecular interconversions of complex hydrocarbons and 
carbohydrates; and the study of novel biosystems and their potential 
for materials synthesis, chemical catalysis, and materials synthesized 
at the nanoscale.
                 biological and environmental research
    Within the Office of Science, the Biological and Environmental 
Research (BER) Program, for more than five decades, has advanced 
environmental and biological knowledge that supports national security 
through improved energy production, development, and use; international 
scientific leadership that underpins our Nation's technological 
advances; and research that improves the quality of life for all 
Americans. BER supports these vital national missions through 
competitive and peer-reviewed research at national laboratories, 
universities, and private institutions. In addition, BER develops and 
delivers the knowledge needed to support the President's plan to make 
America energy independent. ASA-CSSA-SSSA support a 10 percent increase 
for BER which would bring the funding level to $664.6 million for 
fiscal year 2011. ASA, CSSA, and SSSA support a variety of programs 
within BER including the Life Sciences subprogram which supports 
Terrestrial Ecosystem Science (which we recommend funding for at $29.9 
million for fiscal year 2011), Terrestrial Carbon Sequestration 
Research (we recommend $5.1 million for this program) and the Genomes 
to Life (GTL) program. Within Genomes to Life (GTL) are programs 
supportive of bioenergy development including GTL Foundation Research, 
GTL Sequencing, GTL Bioethanol Research, and GTL Bioenergy Research 
Centers, all playing an important role in achieving energy independence 
for America. We recommend a 12 percent increase over fiscal year 2010 
for the Subsurface Biogeochemical Research program, with suggested 
funding for the program totaling $55.9 million in fiscal year 2011. 
Also within BER is the Environmental Remediation subprogram and its 
Environmental Remediation Sciences Research program, both critical 
programs to advancing tools needed to clean up contaminated sites.
    ASA, CSSA, and SSSA recommend a funding level of $305.7 million, a 
7 percent increase over fiscal year 2010 for BER Climate and Earth 
System Modeling. Within this subprogram the Climate Change Research 
Division supports important areas of climate change research including 
the Ameriflux and a network of research sites.
 department of energy office of energy efficiency and renewable energy
    Biomass is currently the only clean, renewable energy source that 
can help to significantly diversify transportation fuels in the U.S. 
DOE's Energy Efficiency and Renewable Energy Biomass Program is helping 
transform the Nation's renewable and abundant biomass resources into 
cost competitive, high performance biofuels, bioproducts, and biopower. 
The Office of Energy Efficiency and Renewable Energy (EERE) manages 
America's investment in the research and development (R&D) of DOE's 
diverse energy efficiency and renewable energy applied science 
portfolio. For the Office of Energy Efficiency and Renewable Energy, we 
recommend a funding level of $2.4 billion, a 7 percent increase over 
fiscal year 2010. The fiscal year 2011 EERE budget should continue to 
maintain focus on key components of the AEI and Twenty in Ten including 
the Biofuels Initiative to develop affordable, bio-based transportation 
fuels from a wider variety of feedstocks and agricultural waste 
products. Note: ASA-CSSA-SSSA strongly oppose the use by the Department 
of the term ``agricultural wastes''. Crop residues, e.g., corn stover, 
play a very important role in nutrient cycling, erosion control and 
organic matter development. Recent studies have shown that excessive 
removal of crop residues from agricultural lands can lead to a decline 
in soil quality. By no means should they ever be referred to as 
``wastes''.
                    biomass and biorefinery systems
    Within EERE, the Biomass and Biorefinery Systems R&D program plays 
an important role providing support for Regional Biomass Feedstock 
Development Partnerships and Infastructure Core R&D programs, both 
within Feedstock Infrastructure. For the Biomass and Biorefinery 
Systems R&D program, we recommend a 7 percent increase for fiscal year 
2011 which would bring funding to $235 million. Activities included 
within this program are resource assessment, education, sustainable 
agronomic systems development, and biomass crop development. The 
mission of the Biomass Program is to develop and transform our 
domestic, renewable, and abundant biomass resources into cost-
competitive, high performance biofuels, bioproducts and biopower 
through targeted RD&D leveraged by public and private partnerships. 
ASA, CSSA, and SSSA support $39.58 million in funding for the Feedstock 
program (formerly the Feedstock Infrastructure program).
                        climate change research
    ASA, CSSA, and SSSA urge the subcommittee to continue to provide 
strong support for Climate Change Research to the following programs as 
follows: U.S. Global Change Research Program (USGCRP), DOE allocation 
of $176.9 million. This program will increase our understanding of the 
impacts of global climate change and also develop tools and 
technologies to mitigate these impacts.
                   basic and applied r&d coordination
    The Office of Science continues to coordinate basic research 
efforts in many areas with the Department's applied technology offices. 
Within this area is Carbon Dioxide Capture and Storage R&D for which we 
recommend $20,055,000.
                         national laboratories
    The Office of Science manages 10 world-class laboratories, which 
often are called the ``crown jewels'' of our national research 
infrastructure. The national laboratory system, created over a half-
century ago, is the most comprehensive research system of its kind in 
the world. Five are multi-program facilities including the Oak Ridge 
National Laboratory.
              national energy technology laboratory (netl)
    NETL's Carbon Sequestration Program is helping to develop 
technologies to capture, purify, and store carbon dioxide 
(CO<INF>2</INF>) in order to reduce greenhouse gas emissions without 
adversely influencing energy use or hindering economic growth. 
Terrestrial sequestration requires the development of technologies to 
quantify with a high degree of precision and reliability the amount of 
carbon stored in a given ecosystem. Program efforts in this area are 
focused on increasing carbon uptake on mined lands and evaluation of 
no-till agriculture, reforestation, rangeland improvement, wetlands 
recovery, and riparian restoration. ASA, CSSA, and SSSA urge the 
subcommittee to direct the Department to increase funding for its 
terrestrial carbon sequestration program, specifically The Regional 
Carbon Sequestration Partnerships, which are collaborations between 
Government, industry, universities, and international organizations 
funded by DOE to determine the most suitable technologies, regulations, 
and infrastructure needs for carbon capture and sequestration.
                  oak ridge national laboratory (ornl)
    ORNL is one of the world's premier centers for R&D on energy 
production, distribution, and use and on the effects of energy 
technologies and decisions on society. Clean, efficient, safe 
production and use of energy have long been our goals in research and 
development. At ORNL, unique facilities for energy-related R&D are used 
both for technology development and for fundamental investigations in 
the basic energy sciences that underpin the technology work.
    Thank you for your thoughtful consideration of our requests.
                                 ______
                                 
   Prepared Statement of the Coal Utilization Research Council (CURC)
                              introduction
    This statement is submitted on behalf of the membership of the Coal 
Utilization Research Council (CURC), an organization of coal-using 
utilities, coal producers, equipment suppliers, universities and 
institutions of higher learning, and several State government entities 
interested and involved in the use of coal resources and the 
development of coal-based technologies.\1\
---------------------------------------------------------------------------
    \1\ Several members of CURC are not-for-profit organizations 
designated as such for Federal tax law purposes. Such organizations are 
prohibited in whole or in part from undertaking advocacy activities 
with respect to Federal Government appropriations. This written 
statement could be construed as such an activity. Membership 
contributions made to CURC by these organizations are not used for 
these advocacy purposes; rather such contributions are utilized to 
undertake analyses and other educational activities as provided by 
CURC.
---------------------------------------------------------------------------
               the importance of the doe/fe rd&d program
    CURC believes there is a serious disconnect in public policies 
regarding CCS technology. On one hand, we observe general agreement 
among policy makers that large reductions in GHG emissions in the 2030-
2050 timeframe are essential to meet climate goals under discussion; 
that improved technologies are key to meeting those goals; that CCS is 
a crucial technology; and that public sector-private sector 
collaboration is necessary to launch CCS technology. On the other hand, 
based on budgets requested and enacted for the past several years and 
proposed for fiscal year 2011, we observe an unwillingness to provide 
the public share of resources necessary to develop and enable 
deployment of CCS within the timeframe set forth by those defining 
emission reduction targets. Insufficient public resources means we are 
falling farther and further behind and there is less expectation each 
passing year that CCS will be ready for widespread commercial use by 
2020.
    With the advent of a greenhouse gas regulatory program in this 
country, it is vitally important that affordable and reliable carbon 
capture and storage (CCS) technologies be available to minimize the 
economic impacts upon the American consumer while continuing to allow 
the Nation to reap the economic and energy security benefits associated 
with using our most abundant domestic fossil fuel resource. Recent 
analyses by both the EPA and the DOE/EIA have concluded that successful 
development and deployment of CCS technology can reduce the cost of 
compliance with GHG legislation by one-half. Hence, an effective coal-
CCS RD&D program is essential for meeting environmental goals, 
enhancing our country's energy security, insuring adequate supplies of 
energy at affordable prices, as well as preserving American industrial 
competitiveness and growing American jobs in domestic and global 
markets.
                        specific recommendations
    CURC offers the following recommendations for fiscal year 2011 
funding for the Coal RD&D program.
    Clean Coal Power Initiative.--DOE did not request any funding in 
fiscal year 2010 or fiscal year 2011 for large scale commercial 
applications of CCS technology, noting that $800 million was provided 
in the American Recovery and Reinvestment Act (ARRA) for the CCPI Round 
3 program. The number of CCS-related projects that are underway is 
insufficient to meet the programmatic goal of establishing CCS 
technologies ready for commercial deployment by 2020. CURC believes 
that an expanded CCPI program is integral to the commercialization of 
CCS technologies, and therefore, in the strongest terms possible, CURC 
recommends that the fiscal year 2011 budget include funding to initiate 
a CCPI Round 4 program. Congress is encouraged to appropriate at least 
$50 million in fiscal year 2011 to be augmented in fiscal year 2012 
with funds sufficient to then conduct a CCPI 4 solicitation.
    FutureGen.--Funding for FutureGen has been made available through 
the ARRA. CURC reiterates its support for this project as an important 
and necessary step in the demonstration of an integrated CCS system. 
This integration of electricity generation with CCS is fundamental to 
the learning necessary to make CCS a commercial reality.
                         fuels & power systems
  --Innovations for Existing Plants (and Advanced Combustion).--The 
        administration's request for fiscal year 2011 includes an 
        increase in this line item to $65 million, compared to $52 
        million enacted in fiscal year 2010. CURC recommends a budget 
        of $84 million that should be used to support technologies that 
        increase the efficiency of coal conversion to energy and that 
        contribute to reducing the costs of carbon capture from 
        combustion-based power generation--for both new and existing 
        steam power plants. To achieve these goals funds should be 
        allocated to address specific needs for advanced combustion, 
        including oxy-combustion and next generation oxy-combustion 
        process cycles, advanced solvents for post combustion capture, 
        the high temperature materials program for ultrasupercritical 
        cycles, as well as emphasis on other new power plant 
        efficiency-improving techniques which do not depend on steam 
        temperature and pressure leaving the boiler. Finally, the 
        implementation of post-combustion carbon capture will place 
        increased demands on what are already scarce supplies of 
        cooling water, and, as a result, research on water management 
        technologies for coal-fired power plants need to be an 
        important component of the IEP program; recommend $4 to $6 
        million for water management programs.
  --Advanced Integrated Gasification Combined Cycle.\2\--Funding 
        provided for IGCC technology has consistently fallen short of 
        the amounts deemed necessary to launch the next generation of 
        this technology as defined in the CURC-EPRI Technology Roadmap. 
        The administration's request for fiscal year 2011 is a further 
        decrease from these already insufficient funding levels. CURC 
        recommends that the funding for this line item be increased 
        from the requested $55 million to at least $80 million. This 
        increased budget is important to achieve:
---------------------------------------------------------------------------
    \2\ It is also important to note that advances in this area not 
only support advanced IGCC but support all gasification programs in 
general, including industrial gasification, hydrogen and fertilizer 
production, SNG, and coal-to-liquids programs and to these ends this 
program should encompass the concept of advanced gasification 
technology.
---------------------------------------------------------------------------
    --Advances in coal feed systems;
    --Low-cost oxygen production (such as ITM oxygen); \3\
---------------------------------------------------------------------------
    \3\ This program should include sufficient funding to insure that 
the 100-ton per day ITM Intermediate Scale Test Unit will be completed 
and operations commenced.
---------------------------------------------------------------------------
    --Advanced gasifier designs (including the gasifier itself; its 
            major components such as feed injection/pumping and 
            refractory materials, as well as gasifier modifications to 
            achieve less costly air separation);
    --Warm syngas cleanup for sulfur and other coal-based syngas 
            contaminants (such as mercury and arsenic);
    --Hydrogen/CO<INF>2</INF> separation and recovery (including 
            advanced membrane systems);
    --CO<INF>2</INF> capture at elevated pressure (to reduce 
            CO<INF>2</INF> compression costs); and
    --Studies and RD&D aimed at the integration of these advanced 
            gasification technologies to significantly reduce overall 
            gasification capital costs and improve overall 
            efficiencies.
  --Turbines.--The latest generation of advanced gas turbines (the 
        ``G'' and ``H'' class of turbines) is not ready to meet the 
        demands of IGCC plants with high levels of CO<INF>2</INF> 
        capture. Reduced funding in the last few years has delayed 
        progress and jeopardized DOE's 2012 goal of developing advanced 
        turbines capable of operating on 100 percent hydrogen. The 
        Turbines program needs an additional $14 million, for a total 
        of $45 million in fiscal year 2011. Technical focus areas for 
        this funding should include:
    --Promising material systems (base alloys, bond coats and thermal 
            barrier coatings) for hot gas path parts including rotating 
            and stationary airfoils;
    --Technology for enhanced cooling effectiveness of hot gas path 
            parts;
    --Methods for containing by-pass flows in the combustor-expander 
            transition piece and the airfoil tip-casing interface; and
    --Continuation of work with the NETL in-house research group, other 
            national laboratories and U.S. universities to assess 
            combustor designs and the fundamentals associated with 
            hydrogen combustion and turbine subsystems.
    It is important to note that all carbon fuels, including natural 
gas, will need to capture CO<INF>2</INF> in order to achieve the levels 
of reduced CO<INF>2</INF> concentrations being proposed in various 
climate change legislation now under consideration by Congress.
  --Carbon Sequestration.--Funding under this program offers the 
        appearance of being slightly below the $160 million level 
        recommended by CURC. However, this DOE program includes 
        approximately $50 million for CO<INF>2</INF> capture, whereas 
        the CURC roadmap places capture activity with the IGCC and IEP 
        programs. The result is that CURC believes the fiscal year 2011 
        Carbon Sequestration request falls significantly short of 
        needs, and this shortfall will result, for example, in the 
        slow-down of some of the Regional Carbon Sequestration 
        Partnership projects. Ultimately, the vast majority of 
        CO<INF>2</INF> sequestration will likely take place in saline 
        formations and even under the seabed. As a consequence the 
        majority of funding for this program should be focused on 
        sequestration into saline formations rather than for 
        CO<INF>2</INF> hydrocarbon recovery or other CO<INF>2</INF> re-
        use projects. Moreover, some ongoing tests are with non-
        anthropogenic CO<INF>2</INF>, or non-power system 
        CO<INF>2</INF>, whereas experience integrating commercial scale 
        capture at power systems with injection into saline formations 
        is the foundation for broad deployment of CCS. At a minimum the 
        funding level for this program should be increased to $150 
        million versus the $143 million requested.
  --Fuels.--CURC supports the President's budget recommendation for 
        hydrogen from coal, research for hydrogen separation membranes 
        for power production, and developing components for process 
        intensification to reduce the capital cost of power systems. 
        CURC believes that coal-to-substitute natural gas (C-SNG) 
        systems are commercial and that these systems may provide a 
        relatively low cost mechanism to provide the large volume of 
        CO<INF>2</INF> needed to simulate commercial power plant 
        CO<INF>2</INF> injection processes. Also, gasification of coal 
        and biomass (zeroed out in the fiscal year 2011 Request) 
        combined with CCS may be a useful pathway to provide 
        transportation fuels with a lower CO<INF>2</INF> footprint than 
        conventional sources of these fuels.
  --Advanced Research.--The budget request for Advanced Research 
        focuses on sensors and controls, advanced materials, and new 
        computer simulation activities for capture and storage of 
        CO<INF>2</INF>. The new computer simulation activities would 
        boost overall Advanced Research funding by $20 million from $28 
        million (fiscal year 2010) to $48 million (fiscal year 2011). 
        CURC supports a balanced advanced research program at DOE or 
        through the newly created ARPA-E program where use of a portion 
        of the funds is tightly integrated with the overall coal R&D 
        program with clear deliverables which will address barriers or 
        any technology ``gaps'' to meeting DOE's objective of 
        commercial deployment of CCS by 2020. To achieve this end this 
        program directly supports externally funded applied research 
        programs carried out by university and industry-based 
        organizations that are seeking research results which are 
        responsive to the current marketplace. The AR program or an 
        ARPA-E program also should vigorously support new initiatives 
        that promise ways to cost-effectively prevent or capture 
        CO<INF>2</INF> from the use of carbon-based fuels. This type of 
        basic research looks beyond today's technologies to the next 
        generation and private sector funds may not be readily 
        available. Again, we believe a strong relationship between 
        industry, academia and DOE is vital.
  --University and Workforce Training and Education.--CURC additionally 
        recommends that the DOE budget be available to support academic 
        or university based programs to build up the expertise that is 
        declining in coal technology research and development 
        activities. A well funded advanced research program, as well as 
        university based programs, can help replenish the scientists 
        and engineers needed to create the coal utilization systems and 
        carbon management systems of the future. Also, appropriations 
        should be made to reinstate programs to train the skilled 
        trades workforce needed to construct and operate the energy 
        industry of tomorrow including the utilization of CCS 
        technologies.
  --Fuel Cells.--The DOE Solid State Energy Conversion Alliance (SECA) 
        program is ready to move into MW-scale demonstrations. A 
        primary objective of the program is the development of high 
        temperature solid oxide fuel cells (SOFC) for integration with 
        advanced coal gasification systems. Fuel cells offer the 
        promise of a step change in the way electricity is generated in 
        the future and, if successful, could provide highly efficient, 
        cost-competitive systems capable of capturing nearly all of the 
        CO<INF>2</INF> from the conversion process, minimizing water 
        requirements for the system and greatly reducing emissions of 
        other criteria pollutants.
Title XVII Loan Guarantee Program
    Consistent with the loan guarantee capacity already provided or 
sought for other energy sources ($65.5 billion for renewables and 
energy efficiency and $56.5 billion for nuclear power) and given the 
potential impact of widely deployed CCS technology upon CO<INF>2</INF> 
reductions globally, it is recommended that loan guarantee authority 
for fossil energy and CCS projects be increased by $20 billion. There 
appears to be very significant interest among CCS-related fossil fuel 
projects for use of loan guarantees if made available.
 summary and comments on significant issues related to the fiscal year 
                          2011 budget request
    The programs administered and supported through the Department's 
Fossil Energy office have been distinguished by efforts to foster 
collaboration with industry research, development and demonstration 
efforts, as well as a broad spectrum of university research 
organizations. These programs between industry, Government and the 
academic community have enabled participants to actively engage in each 
part of the technology development chain from basic research to applied 
research and development and then demonstration and early commercial 
deployment. Implementing a restructuring of the FE budget into four new 
cross-cutting program areas could facilitate even greater partnering 
opportunities, focus programs upon the critical issues surrounding CCS 
development, quickly identify and address technology gaps, and create 
greater transparency in defining and exhibiting program goals and 
accomplishments. During this restructuring, the benefits of 
collaboration should be an important consideration if it is 
contemplated that there will be any new and significant involvement of 
other Federal laboratories that have little or no historical ties to 
the industries that rely upon coal and benefit from collaboration 
through the FE program.
    CURC supports the request to increase the Department's advanced 
research budget so long as increases are inclusive and extend funding 
support to research efforts at universities and industry participants 
in all regions of the country wherever the competency and excellence 
exists. CURC also supports the request to increase the computationally 
based research (subject to the comments below) budget. The new emphasis 
upon computational modeling is conceptually attractive as a means to 
reduce the amount of time and funding required in fully developing, 
demonstrating and deploying technology. This funding should be 
implemented through existing structural models already established by 
NETL for industry--university collaborative research--and we recommend 
such an approach which will use structures in place and further support 
already successful collaboration. Finally, if these new programs are to 
be accepted by industry as a tool to create substitutes for ``steel in 
the ground'' then it is essential that industry be involved in the 
development of the computer models to insure that practical 
considerations in the construction and operation of power plants or 
industrial facilities are taken into account. Therefore, industry 
should be consulted to determine if computer models are an appropriate 
surrogate for actual plants being constructed and if yes, and funding 
is to be provided, then direct industry input is recommended when 
constructing the models themselves.
    Beyond basic research CURC is expressly concerned that no funding 
is requested to initiate a next CCPI solicitation for advanced coal and 
CCS demonstrations. If we are to successfully develop a portfolio of 
advanced technologies to utilize coal efficiently and with minimal 
environmental impact then we must continue support for demonstration 
projects.
                                 ______
                                 
            Prepared Statement of the University of Chicago
    My name is Donald Levy and I am Vice President for Research and 
National Laboratories at the University of Chicago. The University of 
Chicago manages, supports, and engages with two major Federal research 
centers: Argonne National Laboratory and the Fermi National Accelerator 
Laboratory (Fermilab). The University's management and operations 
responsibility for Argonne dates back to its founding in 1946 as the 
Nation's first national laboratory, and is a direct descendant of the 
University of Chicago's Metallurgical Laboratory, part of the World War 
II Manhattan Project. In partnership with Universities Research 
Association, the University of Chicago was awarded the M&O contract by 
the Department of Energy for Fermilab in 2007. Argonne and Fermilab are 
leaders in ensuring U.S. competitiveness in the global economy, and 
providing unmatched science talent and capacity for the Midwest and the 
Nation. The fundamental science and applied research that takes place 
in them, often in collaboration with the University of Chicago and 
numerous other universities across the country, continues to push the 
frontiers of scientific discovery, energy security, environmental 
sustainability and national security. I am pleased to testify in strong 
support for the administration's proposed fiscal year 2011 budget 
request of $5.1 billion for the Office of Science.
              the department of energy's office of science
    The Department of Energy's Office of Science (SC) is the steward of 
10 national laboratories--including the Argonne National Laboratory and 
Fermi National Accelerator Laboratory. This system of national 
laboratories provides direct and vital support for the mission of the 
Department's science programs and represents the most comprehensive 
research infrastructure system of its kind in the world. A high level 
of collaboration among all of the national laboratories with the 
university community and industry in the use of world-class scientific 
equipment and supercomputers, facilities, and multidisciplinary teams 
of scientists increases their collective contribution to DOE and the 
Nation. The national laboratories sponsored by the SC enables the 
United States to remain at the forefront of discovery science. They 
ensure that facilities and projects of great scale are part of the 
Nation's scientific infrastructure and provide the foundation for 
translating the results of discovery science into technological 
applications.
    SC is also one of the Nation's largest supporters of peer-reviewed 
basic research, providing 40 percent of Federal support in the physical 
sciences while supporting approximately 25,000 Ph.D.s, graduate 
students, undergraduates, engineers, and support staff at more than 300 
universities and at all 17 DOE laboratories. In fiscal year 2010, the 
Office of Workforce Development for Teachers and Scientists expects to 
support over 1,100 undergraduates in research internships at the DOE 
laboratories and nearly 300 K-16 educators. SC is proposing to increase 
the Graduate Fellowship Program to support approximately 400 graduate 
students in the out-years.
    The subcommittee is faced with very tight fiscal constraints and a 
difficult set of choices. Given that situation, the fiscal year 2011 
DOE budget for SC deserves the subcommittee's strong support for the 
following reasons: It invests in science for national needs in clean 
energy, the environment and materials research; it provides vital 
support for national scientific user facilities relied on by 
universities and industry working on research that can't be performed 
anywhere else in the United States; and it supports scientific and 
technological education and related workforce development.
    The fiscal year 2011 budget request makes much needed investments 
to harness the power of American ingenuity. This request will help 
create clean energy jobs, expand the frontiers of science, reduce 
dependence on foreign oil, and help curb the carbon pollution that 
threatens our planet. If one advance could transform America's 
prospects, it would be having a range of clean, efficient and renewable 
energy technologies, ready to power our cars, our buildings and our 
industries, at scale, while creating jobs and protecting the planet. If 
we want to own those future technologies, there is only one path: 
sustained support for research.
    We should not count on private industry alone to make the necessary 
investments. Since 1980, research investment by U.S. energy companies 
paralleled the drop in public research. By 2004, corporate energy R&D 
stood at just $1.2 billion in today's dollars. This level might suit a 
cost-efficient and technologically mature fossil-fuel-based energy 
sector. However, it is very much out of step with any industry that 
depends on innovation.
    The lesson is that while industry must support development and 
commercialization, only Government can prime the pump of research. 
Congress funded the basic research that spawned the information 
technology revolution and the biotechnology revolution. Today, to spark 
an energy revolution, Congress--and this subcommittee in particular--
must lead again.
    The potential, from the economy to global security to climate, is 
boundless. Yet we are not the only ones who have noticed. If we fail to 
make major strategic investments in energy research now, we will find 
ourselves overtaken by our competitors, from China and India to Germany 
and Japan. Other countries have the money and motivation, and they are 
chasing the technology almost as fast as we are. We must make sure that 
in the energy technology markets of the future, we have the power to 
invent, produce and sell, not the obligation to buy.
    The handwriting is clearly on the wall--the Great Wall.
                argonne and fermi national laboratories
    In the coming years, the Argonne National Laboratory will pursue 
major initiatives that support the Department of Energy's research 
goals to create innovative and transformational solutions to the 
Nation's grand scientific challenges. These initiatives have 
inspirational goals that will keep Argonne at the very forefront of 
scientific discovery and engineering excellence. Three of the major 
initiatives: Hard X-ray Sciences, Leadership Computing, and Materials 
and Molecular Design and Discovery, emphasize the development of next 
generation scientific tools and materials. Five other major 
initiatives: Energy Storage, Alternative Energy and Efficiency, Nuclear 
Energy, Biological and Environmental Systems, and National Security, 
directly address practical energy, environment and security challenges. 
A number of these initiatives, in areas such as computational sciences, 
molecular design and biological and environmental systems are being 
conducted in close collaboration with the University of Chicago's core 
research capabilities.
    Fermilab's world-class scientific research facility allows 
qualified researchers from around the world to conduct fundamental 
research at the frontiers of high-energy physics and related 
disciplines. Thousands of scientists have used Fermilab's particle 
accelerators and experiments to study the universe at the smallest and 
largest scales. The extraordinary technology developed for particle 
physics has often led to real-life applications--from accelerators for 
cancer treatment to the World Wide Web. Fermilab's broad scientific 
program pushes forward on the three interrelated frontiers of particle 
physics. Each uses a unique approach to making discoveries, and all 
three are essential to answering key questions about the laws of nature 
and the cosmos.
    Among the initiatives proposed by the Office of Science of 
particular importance to the University of Chicago, Argonne and 
Fermilab are:
  --Basic Energy Sciences program support for upgrades to Argonne's 
        Advanced Photon Source (APS). The high-brilliance x-rays 
        produced at the APS--the brightest in the Western Hemisphere--
        has been instrumental in developing new and improved energy 
        sources, bettering the environment, battling diseases, 
        improving technologies, unlocking the secrets of our planet and 
        universe, and furthering the education of today's and 
        tomorrow's scientists. We urge the subcommittee to provide 
        strong encouragement to DOE to support vital future performance 
        enhancements in the APS;
  --Advanced Scientific Computing Research program support for 
        Argonne's Leadership Computing Facility. The application of 
        state-of-the-art supercomputers to modeling and simulation can 
        play breakthrough roles linked to our energy security, climate 
        change and sharpen America's competitive edge. The applications 
        also provide benefits to program offices and their external 
        users throughout the Department of Energy. We urge the 
        subcommittee to support the fiscal year 2011 budget request and 
        remain committed to a robust funding path in future years in 
        order to fully achieve the next level of computational power 
        needed to address the next series of important large-scale 
        challenges;
  --The High Energy Physics Program, including continued support for 
        Tevatron Collider research, enhancements for the neutrino 
        physics program and complex wide infrastructure improvements;
  --The newly proposed Energy Innovation Hub for Batteries and Energy 
        Storage--which will focus on integrating from fundamental 
        research through potential commercialization of electrical 
        energy storage relevant to transportation and the electric 
        grid; and
  --Vital support for individual investigator, small group, and Energy 
        Frontier Research Centers (EFRCs) in areas complementing the 
        initial suite of 46 EFRCs awarded in fiscal year 2009.
                               conclusion
    As President Obama made clear in his remarks to the National 
Academy of Sciences in April 2009, the public sector must invest in 
research and innovation not only because the private sector is 
sometimes reluctant to take large risks, but because the rewards will 
be broadly shared across the economy. Leading requires assembling a 
critical mass of the best scientists and engineers to engage in 
mission-oriented, cross-disciplinary approaches to addressing current 
and future energy challenges. To develop clean energy solutions and 
maintain the U.S. leadership role in science and innovation, the 
Department must cultivate the science, technology, engineering, and 
mathematics workforce of the next generation. The University of Chicago 
strongly supports the administration's goal to double funding for the 
DOE's Office of Science between fiscal year 2007 to fiscal year 2017, a 
goal that is consistent with the recommendations in the National 
Academies' 2005 report Rising Above the Gathering Storm. To that end, 
the University of Chicago strongly supports funding of at least $5.1 
billion for SC in fiscal year 2011--the amount requested by the 
administration.
    The subcommittee is faced with a difficult and probably thankless 
job--the allocation of too few resources among a wide variety of worthy 
and compelling public policy objectives. Some of these objectives are 
near term and funding provided for them can lead to tangible benefits 
such as the cleanup of nuclear waste sites or water and flood 
protection projects funded through the Corps of Engineers. The benefits 
of investing in research are less visible in the near term. However, 
they are essential to the long term health and economic vitality of the 
Nation. Appreciating the difficult budget environment the subcommittee 
must confront, the University of Chicago respectfully requests the 
maximum support possible for the important research programs of DOE in 
the context of the fiscal year 2011 appropriations process.
    Thank you for the opportunity to provide these views.
                                 ______
                                 
     Prepared Statement of the Society for Industrial and Applied 
                           Mathematics (SIAM)
    Summary.--This written testimony is submitted on behalf of the 
Society for Industrial and Applied Mathematics (SIAM) to ask you to 
continue your support of the Department of Energy (DOE) Office of 
Science by providing $5.121 billion in fiscal year 2011. In particular, 
we urge you to provide significant support for the Applied Mathematics 
Program within the Office of Science. We also emphasize the importance 
of support for graduate students, post-doctoral fellows, and early 
career researchers.
    My name is Douglas Arnold and I am the President of the Society for 
Industrial and Applied Mathematics (SIAM). Today I am submitting this 
written testimony for the record to the Subcommittee on Energy and 
Water Development of the Committee on Appropriations of the U.S. 
Senate.
    SIAM has approximately 13,000 members, including applied and 
computational mathematicians, computer scientists, numerical analysts, 
engineers, statisticians, and mathematics educators. They work in 
industrial and service organizations, universities, colleges, and 
government agencies and laboratories all over the world. In addition, 
SIAM has over 400 institutional members--colleges, universities, 
corporations, and research organizations.
    First, I would like to emphasize how much SIAM appreciates your 
subcommittee's continued leadership on and recognition of the critical 
role of the Department of Energy (DOE) Office of Science and its 
support for mathematics, science, and engineering in enabling a strong 
U.S. economy, workforce, and society. In particular, we thank you and 
your colleagues for the significant increases in funding provided for 
the Office of Science's mathematical and computing programs in the 
fiscal year 2010 Consolidated Appropriations bill.
    Today, I submit this testimony to ask you to continue your support 
of the DOE Office of Science in fiscal year 2011 and beyond. In 
particular, we request that you provide the Office of Science with 
$5.121 billion, the level requested by the President for this agency in 
his fiscal year 2011 budget. This represents a 4.4 percent increase 
over the Office's fiscal year 2010 appropriated level and would 
continue the effort to double funding for the Office of Science, as 
endorsed by Congress in the America COMPETES Act and by the President 
in his fiscal year 2011 budget request.
    The Nation faces critical challenges in energy, including in energy 
efficiency, renewable energy, improved use of fossil fuels and nuclear 
energy, future energy sources, and reduced environmental impacts of 
energy production and use. As DOE and the research community design a 
long-term strategy to tackle these issues, the tools of mathematics and 
computational science (theory, modeling, and simulation) have emerged 
as a central element in designing new materials, predicting the impact 
of new systems and technologies, and better managing existing 
resources. Already, mathematical and computing researchers in 
universities, national laboratories, and industry are providing 
insights that propel advances in such fields as climate modeling, 
nanotechnology, biofuels, genomics, and materials fabrication.
          the role of mathematics in meeting energy challenges
    SIAM members come from many different disciplines, but have a 
common interest in applying mathematics in partnership with 
computational science toward solving real-world problems. DOE was one 
of the first Federal agencies to champion computational science as one 
of the three pillars of science, along with theory and experiment, and 
SIAM deeply appreciates and values DOE activities.
    In August 2007, an independent panel of mathematicians reviewed the 
challenges and strategic plans of all units of DOE in order to better 
define the goals for the DOE Applied Mathematics Program, which is 
located within the Office of Advanced Scientific Computing Research 
(ASCR) in the Office of Science.\1\ The panel considered a broad and 
varied array of questions that the DOE must answer in the coming years. 
A representative subset of such questions includes:
---------------------------------------------------------------------------
    \1\ Applied Mathematics at the U.S. Department of Energy: Past, 
Present and a View to the Future. A Report by an Independent Panel from 
the Applied Mathematics Research Community, May 2008. Available on line 
at http://brownreport.siam.org/Document%20Library/
Brown_Report_May_08.pdf.
---------------------------------------------------------------------------
  --Can we predict the operating characteristics of a clean coal power 
        plant?
  --How stable is the plasma containment in a Tokamak?
  --How quickly is climate change occurring and what are the 
        uncertainties in the predicted time scales?
  --How quickly can an introduced bio-weapon contaminate the 
        agricultural environment in the United States?
  --How do we modify models of the atmosphere and clouds to incorporate 
        newly collected data of possibly new types?
  --How quickly can the United States recover if part of the power grid 
        became inoperable?
    In these and many other cases, the answer is dependent on improved 
understanding of complex systems. (These are systems that have high 
levels of uncertainty, lack master plans, and are susceptible to 
breakdowns that could have catastrophic consequences. Understanding 
complex systems helps mitigate these risks and facilitate the 
development of controls and strategies to make systems more efficient.) 
In light of this broad need, the panel recommended that DOE focus on 
three strategies for addressing the gaps in our understanding.
  --Predictive modeling and simulation of complex systems.
  --Mathematical analysis of the behavior of complex systems.
  --Using models of complex systems to inform policy makers. (This 
        includes advancing the mathematics that supports risk analysis 
        techniques for policy-making involving complex systems that 
        include natural and engineered components, and economic, 
        security, and policy consequences.)
                 department of energy office of science
    Activities within ASCR play a key role in supporting research that 
begins to fulfill the needs described above. Particularly critical 
programs include: the Applied Mathematics program, the Scientific 
Discovery through Advanced Computing (SciDAC) program, and programs to 
maintain the pipeline of the mathematical workforce. SIAM supports the 
$426 million requested for ASCR for fiscal year 2011, while urging that 
the increase in funding be more balanced among ASCR programs and not 
entirely directed to investments in computing hardware. Without 
investments in algorithm research, software development, and 
partnerships between mathematicians, disciplinary researchers, and 
computer and computational scientists, we cannot realize the full 
benefit of new high performance computers or effectively develop the 
next generation of such computers.
    The applied mathematics and computational science and engineering 
work supported by the Applied Mathematics Program is a necessary 
element for many of the flagship efforts of the Office of Science and 
other units of DOE. Therefore, partnerships within the Department are 
critical for applying mathematics to key challenges in effective 
creation and use of a variety of energy sources. SIAM supports ASCR 
plans to initiate new partnerships with other DOE offices such as the 
Office of Electricity Delivery and Energy Reliability, the Office of 
Nuclear Energy, and the Office of Environmental Management. SIAM also 
supports the proposed activity on uncertainty and climate change within 
the Biological and Environmental Research Office, and the proposed 
activity on Computational Design of Advanced Engines within the Basic 
Energy Sciences Office.
        supporting the pipeline of mathematicians and scientists
    Investing in the education and development of young scientists and 
engineers is a major step that the Federal Government can take to 
ensure the future prosperity and welfare of the United States. 
Currently, the economic situation is negatively affecting the job 
opportunities for young mathematicians--at universities, companies, and 
other research organizations. It is not only the young mathematicians 
who are not being hired who will suffer from these cutbacks. The 
research community at large will suffer from the loss of ideas and 
energy that these graduate students, postdoctoral fellows, and early 
career researchers bring to the field, and the country will suffer from 
the lost innovation.
    Maintaining the pipeline of the mathematical workforce with 
programs that fund research and students is especially important 
because of the foundational and cross-cutting role that mathematics and 
computational science play in sustaining the Nation's economic 
competitiveness and national security, and in making substantial 
advances on societal challenges such as energy and the environment. DOE 
programs support the educational and professional development of the 
researchers who will, at universities, companies, and the national 
laboratories, tackle the research problems (such as the complex system 
modeling described above) needed to change energy usage in this 
country. These young mathematicians and computational scientists are 
the drivers and employees of the clean energy economy.
    Within the Office of Advanced Scientific Computing Research, the 
Computational Science Graduate Fellowship program is a highly 
successful and model program that enables students to receive robust 
training in mathematics and also learn to interface with a wide variety 
of other fields. We request that strong support for this program 
continue, as well as ongoing support for post-doctoral fellows at DOE 
national laboratories and universities. In addition, we endorse DOE's 
proposed continuation in fiscal year 2011 of the Office of Science 
Early Career Research Awards and Graduate Fellowships programs begun 
with funding from the American Recovery and Reinvestment Act.
    We are also supportive of the proposed DOE education initiative, 
RE-ENERGYSE (REgaining our ENERGY Science and Engineering Edge). We too 
believe in the core goal of raising the number of students studying in 
areas that contribute to the fundamental understanding of energy 
science and engineering systems. In particular, we support graduate 
research fellowships in relevant fields, such as applied mathematics, 
and programs that encourage universities to establish multidisciplinary 
research and education programs, such as in computational science, 
which is a key element in projects studying and creating clean energy 
capabilities.
                               conclusion
    The programs in the Office of Science, particularly those discussed 
above, are important elements of DOE's efforts to fulfill its mission. 
They contribute to the goals of dramatically transforming our current 
capabilities to develop new sources for renewable and low-carbon energy 
supplies and improve energy efficiency, positioning the United States 
to lead on climate change policy, technology, and science, and 
facilitating DOE's effort to increase U.S. competitiveness by training 
and attracting the best scientific talent into DOE headquarters and 
laboratories, the American research enterprise, and the clean energy 
economy.
    SIAM is aware of the significant fiscal constraints facing the 
administration and Congress this year, but we note that, in the face of 
economic peril, Federal investments in mathematics, science, and 
engineering create and preserve good jobs; stimulate economic activity; 
and help to maintain U.S. pre-eminence in innovation, upon which our 
economy depends.
    I would like to conclude by thanking you again for your ongoing 
support of the DOE Office of Science and the actions you have already 
taken to enable DOE and the research and education communities it 
supports, including thousands of SIAM members, to undertake the 
activities that contribute to the health, security, and economic 
strength of the United States. The DOE Office of Science needs 
sustained annual funding increases to maintain our competitive edge in 
science and technology, and therefore we respectfully ask that you 
continue your robust support of these critical programs into the 
future.
    I appreciate the opportunity to provide testimony to the 
subcommittee on behalf of SIAM and look forward to providing any 
additional information or assistance you may ask of us during the 
fiscal year 2011 appropriations process.
                                 ______
                                 
                    Prepared Statement of GE Energy
    Overview.--The following testimony is submitted on behalf of GE 
Energy (GE) for the consideration of the subcommittee during its 
deliberations regarding the fiscal year 2011 budget requests for the 
Department of Energy (DOE). In particular, GE recommends: (1) in the 
Renewable Energy budget, support for the new Offshore Wind Technology 
program; (2) in the Fossil Energy program, greater focus on carbon 
capture technologies for new plants and increased investment in 
integrated gasification combined cycle technology; (3) in Nuclear 
Energy, support for additional nuclear loan guarantee authority; and 
(4) funding in Electricity Delivery and Energy Reliability to 
accelerate smart grid deployment.
    Renewable Energy.--GE supports the request for $49 million in 
funding for the new Offshore Wind Technology Program. Investment in 
pilot projects will enhance learning, improve infrastructure, and pave 
the way for commercial scale offshore wind to become a reality in the 
United States.
    For emerging offshore as well as maturing onshore applications, 
blades and drive trains are the most critical wind turbine components. 
Research and development into advanced materials, advanced 
manufacturing, design for logistics, advanced power conversion, and 
drive train systems can increase energy production, increase 
reliability, reduce material cost, and lower the overall cost of 
energy. New power generation technologies, such as higher torque 
density generators, can be adapted to wind. As penetration of wind 
energy increases, significant advances are needed to develop solutions 
for grid integration of this variable resource. Government investment 
in these areas, when combined with industry cost share, can 
significantly accelerate technology advancements beyond what industry 
can accomplish on its own.
    Fossil Energy.--In Coal R&D, within the Fuels and Power Systems 
line item, an $8 million reduction is being proposed for the Advanced 
Integrated Gasification Combined Cycle program while funding for the 
Innovations for Existing Plants program would be increased by $13 
million. GE is concerned that these funding changes indicate a 
fundamental and troubling shift in DOE's emphasis. The increased 
funding for Existing Plants will be focused on small-scale pilots--
essentially returning to the bench. This is a flawed strategy. It 
implies DOE's acceptance of the long time span--over a decade or more--
from bench to commercial deployment. Over this timeframe, while the 
creation of jobs associated with commercializing CCS is delayed, 
existing plants that would benefit will be moving closer to retirement, 
and therefore unlikely to warrant investment in new technology to 
extend their lives.
    Rather than focusing taxpayer dollars in numerous small pilot scale 
cleaner coal experiments, the time has come to invest in technology 
enhancements applicable to new cleaner coal plants and proven 
technologies for carbon capture such as gasification within integrated 
gasification combined cycle (IGCC). In contrast to combustion 
technology, gasification is well suited for carbon capture and proven 
in commercial chemical applications. IGCC with carbon capture is 
commercially available to the utility industry today. However the 
higher initial capital cost of IGCC combined with the additional cost 
and parasitic loads from carbon capture currently place it at a 
disadvantage relative to power generation from natural gas. If coal 
with its economic, jobs and infrastructure benefits is to continue in 
our energy mix, improvements in IGCC cost and performance are needed to 
reach cost-parity with natural gas. While we believe much of the cost 
gap can be closed through deployment of IGCC with carbon capture, 
further technology improvements in IGCC have the highest chance of 
making their way to commercial deployment and reducing the ultimate 
costs of CCS.
    We therefore recommend that the fiscal year 2011 budget for IGCC be 
increased by $25 million for total funding of $80 million, with the 
increase focused on the development of key cost and performance 
enhancements consisting of (1) IGCC construction optimization ($6 
million); (2) syngas cooler fouling prevention ($4 million); (3) 
fundamental gasification modeling ($4 million); (4) startup and 
shutdown optimization ($2 million); (5) HAPS characterization ($2 
million); (6) advanced instrumentation and controls ($4 million); and 
(7) trace metals balance and detection ($3 million).
    Water Management (Innovations for Existing Plants).--Large amounts 
of water are needed to produce or extract energy, and large amounts of 
energy are needed to treat or transport water. What is more, 
CO<INF>2</INF> capture increases raw water usage by up to 125 percent, 
depending on the underlying technology. In order to achieve DOE's 
aggressive goals of reducing freshwater withdrawals and consumption 50 
percent by 2015 and 70 percent by 2020, water-related R&D funding is 
needed. Yet DOE requested no new funding for the water management 
subprogram under the Innovations for Existing Plants program in fiscal 
year 2011. GE believes that funding for water R&D should be provided in 
the amount of $40 million for innovative water reuse technologies and 
demonstration projects including: cooling tower blowdown reuse, Flue 
Gas Desulphurization (FGD) wastewater reuse and recovery, ash pond 
solids reduction, and treatment and reuse of produced water from 
unconventional oil and natural gas production to further reduce 
environmental impacts and operational costs of upstream energy 
processes. Support also is needed to advance reuse/treatment 
technologies for the conversion of impaired wastewater streams into 
sources of renewable water in areas of water scarcity, reducing the 
need to use energy to transport water over long distances and to 
support electricity generation.
    Clean Coal Power Initiative (CCPI).--The CCPI plays a vital role in 
validating and testing advanced technology. The significant number of 
applications in response to the CCPI-3 solicitation demonstrates 
industry's interest in undertaking CCS-related coal projects. DOE 
should move forward with a new CCPI-4 solicitation. Any future CCPI 
solicitations must acknowledge current economic realities, including 
constriction in the capital markets and the difficulty that utilities 
have in justifying rate recovery for any non-compulsory additional 
capital or operating cost. DOE should (1) increase emphasis and 
evaluation weighting on the financial viability of projects; (2) tailor 
technical requirements so that they do not compromise financial 
viability; and (3) structure the program so that sufficient time and 
funding are available to complete front-end engineering designs (FEEDs) 
and sequestration site characterizations and access evaluations. The 
latter will allow a utility to provide accurate cost data to its 
regulators and demonstrate that it has a sequestration resource with 
sufficient capacity for the life of its plant.
    Advanced Turbines.--GE recommends funding of $45 million in fiscal 
year 2011 to maintain needed progress in the Advanced Turbines program 
for the development of enabling technologies for high efficiency 
hydrogen turbines for advanced gasification systems with carbon 
capture. The program is on target to enable future advanced coal-fueled 
IGCC power plants to offset much of the performance penalties 
associated with carbon capture while also achieving very low 
NO<INF>X</INF> emissions.
    In addition, in view of the significant role that natural gas fired 
generation will play in a low carbon energy future, Congress should 
support efforts to develop technologies to drive efficiency in new 
turbines and the Nation's existing gas turbine fleet, as proposed in 
H.R. 3029 and S. 2900. GE urges the subcommittee to consider an annual 
investment of $85 million as envisioned in this legislation. Efficiency 
improvements from implementing technology on new advanced turbines or 
retrofitting existing gas turbines will result in reduced emissions and 
reduced CO<INF>2</INF> for the same power output.
    Nuclear Energy: New Plant Activities and Loan Guarantees.--Although 
there has been significant interest in new plant development, only a 
fraction of the utilities that applied for Combined Operating Licenses 
(COLs) in the United States are proceeding with new plant projects on 
their original timelines. GE Hitachi Nuclear Energy (GEH) commends DOE 
for the highly successful NP2010 program to license and assist in the 
development of standardized advanced plant designs, but more needs to 
be done. In particular, GEH supports the President's call to 
significantly grow the nuclear loan guarantee program, as it 
underscores the benefits of nuclear power while addressing the capital-
intensive nature of nuclear plant deployment. Congress should provide 
the requested $36 billion in loan guarantee authority for nuclear power 
projects in fiscal year 2011, and should also recognize that providing 
loan guarantees for other advanced nuclear technologies is critical to 
ensuring a competitive landscape in the United States. GEH recommends 
that the new Nuclear Energy Enabling Technologies (NEET) program be 
expanded to address near term challenges such as domestic nuclear 
manufacturing capabilities, simulation and training programs to support 
near term deployment of generation III+ reactor designs, and the 
application of advanced modularization and construction techniques to 
help reduce new plant capital costs. The Reactor Concepts RD&D and Fuel 
Cycle R&D requests are both critical for the deployment of new 
technologies such as PRISM and Global Laser Enrichment (GLE), and GEH 
believes that the programs should be provided sufficient funding.
    Non-proliferation and Spent Fuel Minimization.--GEH supports used 
nuclear fuel recycling as a means to fully close the nuclear fuel 
cycle, minimize nuclear proliferation risks and provide an alternative 
to a large permanent repository. It is in the best interest of national 
security that U.S. technology be used to close the fuel cycle in a 
manner that does not result in separated plutonium. GEH looks forward 
to working with the Blue Ribbon Commission on America's Nuclear Future 
and the Congress to discuss ways to address fuel cycle challenges and 
to support the further development of advanced small modular reactors 
like GEH's PRISM reactor.
    International Nuclear Energy Cooperation.--As interest in civil 
nuclear power grows around the world, it is critical that the United 
States lead in efforts to insure that the industry grows in a 
responsible manner. DOE must have resources to support President 
Obama's call for a new framework for civil nuclear cooperation. GEH 
supports the funding request to initiate this new program.
    RE-ENERGYSE/Workforce Development.--GEH applauds the recognition 
that the Government can be a partner in encouraging students to pursue 
careers in clean energy. GEH is a strong supporter of the industry 
program for a uniform nuclear curriculum and also has a Nuclear 
Maintenance Technicians Program with the local community college. These 
kinds of programs are critical to our continued development of the next 
generation of nuclear workers.
    Electricity Delivery and Energy Reliability: Clean Energy 
Transmission and Reliability.--GE strongly supports the inclusion of 
funding for R&D on the dynamic analysis capability of a phasor 
measurement unit (PMU)-based network in the Transmission Reliability 
and Renewables Integration subprogram. When coupled with power 
electronic devices, phasor data can provide grid operators with the 
capability to rapidly respond to and correct power quality problems. 
Government investment in PMU-based networks can significantly improve 
the ability of grid operators to maintain reliability, particularly as 
operators face the need to integrate increasing amounts of intermittent 
generation.
    GE commends DOE for establishing the new Advanced Modeling Grid 
Research subprogram. Advanced modeling capabilities will serve as a 
critical tool in the modernization of the electric grid by assisting 
grid operators in identifying the technical limits of conventional grid 
technologies, and facilitating development of new technologies and 
solutions to respond to a changing energy mix and an increasingly 
responsive consumer base. In addition, advanced modeling capabilities 
can enable grid operators and power systems planners to aggregate, 
analyze, and act upon the vast quantities of data collected by smart 
grid technologies, thereby unlocking the full potential of the smart 
grid. DOE should expand industry participation in this program to fully 
leverage work already underway.
    Smart Grid Research and Development.--The smart grid can 
fundamentally change the way electricity is generated, transmitted, and 
consumed, thereby delivering substantial improvements in the efficiency 
and reliability of our Nation's electric grid. Additional research is 
needed in areas such as the integration of plug-in hybrid electric 
vehicles and advanced management of distribution voltage. In addition, 
GE views as essential DOE's continued support for ongoing efforts to 
establish smart grid standards through the National Institute of 
Standards and Technology.
    GE is concerned that the Power Electronics subprogram emphasizes 
basic science over technology application. GE recommends that Congress 
provide support for DOE to conduct research into applications of power 
electronics to support smart grid technologies.
    Energy Storage.--While GE supports further research into energy 
storage technologies, we are concerned that this program places 
disproportionate emphasis on lithium-ion battery technology. Industry 
has conducted a great deal of research and development into a range of 
advanced battery technologies, including sodium-metal-halide, zinc 
bromide, and vanadium redox. To foster further innovation in this 
promising field, GE recommends that the focus of the energy storage 
program be broadened to encompass a range of battery storage 
chemistries and technologies. The program should cover all potential 
storage modalities, including flywheel technology.
    Cyber Security for Energy Delivery Systems.--GE recommends that 
Congress restore funding to the fiscal year 2010 level, and that DOE, 
to support smart grid deployment, determine the most appropriate next-
generation communications and control system technologies, as well as 
the cyber security requirements for each.
                                 ______
                                 
     Prepared Statement of the Biomass Energy Research Association
                                summary
    This testimony pertains to fiscal year 2011 appropriations for 
biomass energy research, development, and demonstration (RD&D) 
conducted by the Department of Energy (DOE) Office of Energy Efficiency 
and Renewable Energy (EERE), Biomass Program (OBP). This RD&D is funded 
by the Energy and Water Development bill, under Energy Supply and 
Conservation, Energy Efficiency and Renewable Energy. BERA recommends a 
total appropriation of $360 million in fiscal year 2011 for Biomass and 
Biorefinery Systems R&D. This is an increase of $140 million over the 
U.S. Department of Energy request for fiscal year 2011 for this 
programmatic area. Specific lines items are summarized below (also see 
Table 1).
  --$30 million for Feedstocks (regional partnerships, high yield 
        feedstocks, simpler/cheaper algae routes).
  --$130 million for Conversion Technologies, distributed as follows:
    --$50 million for Biochemical Conversion (emphasis on low cost 
            sugars, advanced fuels, traditional plus non-traditional 
            conversion routes, e.g., aqueous processing, chemical 
            catalysis).
    --$80 million for Thermochemical Conversion (conversion to oils, 
            long chain hydrocarbons, or other fuels/intermediates via 
            pyrolysis, gasification, and non-traditional routes; low 
            cost reactive intermediates such as CO and hydrogen).
  --$100 million for Integrated Biorefineries. (Systems integration, 
        risk reduction through technology demonstrations, sustained 
        support for first-of-a-kind projects).
  --$20 million for Sustainability and Analysis to assess life cycle 
        impacts.
  --$80 million for Biopower for pilot scale RD&D on decentralized 
        applications; studies to assess cost, environmental impacts, 
        and permitting issues; RD&D to address performance and other 
        issues for larger scale boiler repowering.
                               background
    On behalf of BERA's members, we would like to thank you, Mr. 
Chairman, for the opportunity to present the recommendations of BERA's 
Board of Directors for the high-priority programs that we strongly urge 
be continued or started. BERA is a non-profit association based in the 
Washington, DC area. It was founded in 1982 by researchers and private 
organizations conducting biomass research. Our objectives are to 
promote education and research on the economic production of energy and 
fuels from biomass, and to serve as a source of information on biomass 
RD&D policies and programs. BERA does not solicit or accept Federal 
funding.

  TABLE 1.--FISCAL YEAR 2011 BIOMASS & BIOREFINERY SYSTEMS R&D, ENERGY
             SUPPLY & CONSERVATION, DOE/EERE BIOMASS PROGRAM
                        [In millions of dollars]
------------------------------------------------------------------------
            Program Area                 Description of RD&D      Total
------------------------------------------------------------------------
Feedstocks.........................  Regional feedstock             30.0
                                      partnerships.
                                     Research to improve energy
                                      crops, including super
                                      high yields: achieve 10
                                      to 25 dry tons/acre/year
                                      via R&D compared with the
                                      2 to 7 dry tons/acre/year
                                      possible today.
                                     Plants species amenable to
                                      thermochemical (e.g.,
                                      high lignin) and
                                      biochemical (e.g., more
                                      easily processed lignin)
                                      processes.
                                     Simpler, less expensive
                                      algae production.
Conversion Technologies:             Conversion to next             50.0
 Biochemical.                         generation biofuels/
                                      processes (broader range
                                      of liquid fuels beyond
                                      ethanol).
                                     Reduction of sugar costs
                                      through cheaper enzymes
                                      and other routes.
                                     Non-traditional
                                      technologies such as
                                      aqueous phase processing,
                                      chemical catalysis.
Conversion Technologies:             Next generation biofuels       80.0
 Thermochemical.                      and processes that can
                                      use a range of feedstocks
                                      (pyrolysis, gasification,
                                      other routes).
                                     Low cost reactive
                                      intermediates such as CO
                                      and hydrogen.
                                     Synthetic routes to expand
                                      beyond Fischer-Tropsch
                                      fuels.
Integrated Biorefineries...........  Risk reduction through        100.0
                                      demonstrations of
                                      biochemical and
                                      thermochemical conversion
                                      technologies in
                                      biorefineries, sustained
                                      support for first-of-a-
                                      kind projects, and
                                      underwriting of loan
                                      guarantees.
Analysis and Sustainability........  Life cycle analysis of new     20.0
                                      technology pathways.
                                     Land use issues.
Large Scale Biopower...............  RD&D at pilot scale for        80.0
                                      decentralized biopower
                                      applications.
                                     Studies to analyze cost,
                                      permitting, and
                                      environmental issues.
                                                                --------
      TOTAL........................  ..........................    360.0
------------------------------------------------------------------------

    There is a growing urgency to diversify our energy supply, develop 
technologies to utilize indigenous and renewable resources, reduce U.S. 
reliance on imported oil, and mitigate the impacts of energy on climate 
and the environment. The benefits are many--economic growth, new 
American jobs, enhanced environmental quality, and fewer contributions 
to climate change. Economic growth is fueled and sustained in large 
part by the availability of reliable, cost-effective energy supplies. A 
diversified, sustainable energy supply is critical to meeting our 
energy challenges and maintaining a healthy economy with a competitive 
edge in global markets. Biomass can diversify U.S. energy supply in 
several ways:
  --Biomass is the single renewable resource with the ability to 
        directly replace liquid transportation fuels.
  --Biomass can be used as a feedstock to supplement the production of 
        chemicals, plastics, and materials now produced from crude oil.
  --Gasification of biomass produces a syngas that can be utilized to 
        supplement the natural gas supply, generate electricity, or 
        produce fuels and chemicals.
  --Biomass can be used directly or in combination with coal to 
        diversify our electricity supply.
    While biomass will not solve all our energy challenges, it can 
certainly contribute to the diversity of our supply, and do so in a 
sustainable way, while minimizing impacts to the environment or 
climate. Goals could be to reach at least the 10 percent to 15 percent 
levels in both the electricity generation and motor vehicle 
transportation sectors by the 2020 to 2030 decade, up from on the 1 
percent to 25 percent levels today in these two sectors. Unlike solar 
and perhaps wind, biomass will be constrained to far below 100 percent, 
due to land use and water availability concerns. However, biomass can 
be developed from a minor role to a major role in a diversified, 
domestic and renewable energy supply for the United States, based on an 
expansion of our Nation's agriculture and forest products industries. 
The Energy Independence and Security Act (EISA) of 2007 mandates 
increased use of alternative fuels, with a substantial portion to come 
from cellulosic biomass. A Federal Renewable Portfolio Standard (RPS) 
is now under consideration (many States have already passed such 
legislation) which would increase the use of renewables for 
electricity, including biopower. To meet the EISA goals and potentially 
a Federal RPS will require aggressive support for RD&D to move 
technology forward and reduce technical and economic risk.
       overall bera recommendations for us doe/eere biomass rd&d
  --Pursue a Balanced Approach to Biomass R&D [All R&D Areas].--It is 
        important for DOE to pursue a balanced approach to biomass R&D. 
        This means striking a balance between the involvement of 
        national labs, academia, and industry to take advantage of 
        their distinctive strengths, rather than relying heavily on 
        national laboratories, as in the past. The DOE should also 
        pursue a balance between understanding fundamentals, advancing 
        the technology, applying the technology, and integrating the 
        technology. There has been a particular neglect of 
        understanding fundamentals to provide a technology platform 
        that would catalyze development of better technologies and 
        enhance commercial success. Technology breakthroughs are needed 
        because the scale (large) and the costs (too high) are barriers 
        for the technology development pathways needed to meet today's 
        energy and climate challenges. Mechanisms are needed to ensure 
        that fundamental research and new processes and science get 
        into the hands of the companies most likely to deploy the 
        breakthroughs.
  --Make Investments to Bring Down the Cost of Sugars From Biomass 
        [Biochemical and Thermochemical Conversion R&D].--One key to 
        competiveness is reducing the cost of producing reactive 
        intermediates from biomass. For biological systems, this means 
        getting low cost sugars, as expensive sugars result in 
        expensive products whether the product is ethanol or an 
        advanced, infrastructure-compatible (drop-in) fuel. Making a 
        drop-in fuel from expensive sugars is a pathway for failure. 
        Similarly, for thermochemical approaches, the key is getting 
        low cost reactive intermediates such as CO and hydrogen. The 
        balance advocated in Item 1 can help reduce the cost of making 
        such intermediates. Include advanced biological routes that 
        better integrate simplified combined biological methods with 
        pretreatment to reduce enzyme costs dramatically, as enzymes 
        followed by pretreatment are the major cost items that are 
        susceptible to change.
  --Provide Support for Both Traditional and Non-traditional Conversion 
        Routes [Conversion Technologies].--We recommend that while both 
        biological and thermochemical processes be funded, greater 
        emphasis should be given to thermochemical conversion for 
        transportation fuels and substitutes for other petroleum-
        derived products to mitigate our dependency on imported oil. 
        Thermochemical technology has been historically under-funded 
        despite its potential to produce more infrastructure-compatible 
        fuels. Biofuels R&D should be expanded beyond just ethanol and 
        Fischer-Tropsch products. We advocate funding for chemical 
        catalysis (rather than just fermentation) to broaden the 
        spectrum for products from sugars; new catalysts and synthetic 
        routes are needed. In addition to the traditional focus of 
        biological and thermochemical routes, it is important to 
        support new emerging technologies such as aqueous phase 
        processing of biomass to diesel and jet fuel substitutes.
  --Reduce the Risk of New Fuel Production Technology Via 
        Demonstrations, Loan Guarantees, and Sustained Support for 
        First-of-a-kind Projects [Integrated Biorefineries].--It is 
        important that DOE and the Congress understand the substantial 
        challenges of introducing new fuel production technology, 
        particularly in a market with large swings in prices. A fortune 
        can be made when oil prices are high--and twice as many 
        fortunes lost when they drop. A key approach is for DOE to 
        ``buy down'' risk in a meaningful way to compensate for the 
        huge fluctuations, and enable a few first-of-a-kind projects to 
        succeed. DOE must also provide sustained support and avoid 
        dropping projects prematurely. Technology demonstrations reduce 
        technical and economic risk and accelerate the potential for 
        private investment. A high level of guarantee is vital--as 
        introducing any new fuel in today's petroleum-heavy market is 
        extremely challenging. The capital costs for petroleum 
        processing are paid off, making it a cash producer, while a 
        biofuels facility must cover not only cash costs but make a 
        high return on capital to compensate for first time risk. This 
        is a heavy lift for first-of-a-kind technology.
  --Pursue Simpler and Less Expensive Systems for Utilizing Algae 
        [Feedstocks].--Much simpler and less expensive systems are 
        needed, especially to harvest algae. This technology 
        advancement should be pursued before other any new large scale 
        projects are initiated.
  --Increase Support for High Yield Feedstocks.--The cost efficient 
        production and handling of energy crops--which is necessary for 
        any significant impact on our national needs--continues to be a 
        major cost and issue. However, it historically has been given a 
        disproportionally small portion of funding.
  --Conduct RD&D to Enable Greater Use of Decentralized Biopower.--A 
        substantial increase over the requested $50 million should be 
        made to support hands-on, applied RD&D to accelerate use of 
        biopower. The bulk of these funds should go to RD&D rather than 
        paper studies. Research activities of at least a pilot scale 
        are a priority. While expensive, these are where the real path 
        to commercialization happens. Biopower RD&D activities should 
        emphasize decentralized generation (5-50 MW), which plays to 
        biomass's strengths (flexibility in delivery, broad 
        applicability, localized/sustainable power) and environmental 
        benefits (less transmission lines, less fuel hauling, less 
        intrusiveness, more efficient/CHP). Biomass can also be pursued 
        for centralized generation (large power) as a strategy for 
        reducing greenhouse gases, and may be more attractive than 
        other renewables as it is readily available and can be 
        combusted much like coal. Large power uses may have a role for 
        building biomass fuel supply infrastructure via fuel supplies 
        developed locally with low capital cost because the coal plant 
        is already built. RD&D could potentially focus on performance 
        issues related to re-powering boilers with biomass.
  --Conduct Studies Needed to Assess Cost, Permitting, and 
        Environmental Issues Related to Biopower.--Studies are needed 
        to inform industry, Congress, and the general public, but 
        should not be the primary focus of biopower efforts. The cost 
        and time for permitting of plants is already a significant 
        factor in biomass industrial use and is growing. Permitting 
        processes should be reviewed with a goal of facilitating 
        industry growth by making permitting as simple, quick, and 
        reasonable as possible. Regulators and companies need to be 
        confident that they can obtain permits for biomass power or 
        fuel plants. A scoping study of potential technologies meeting 
        near-term scale-up potential or useable in retrofitting 
        existing facilities could be useful, if it facilitates 
        permitting or building of plants or retrofits. Detailed cost 
        estimates for potential power generation and biomass conversion 
        facilities could stimulate serious consideration from the 
        business community raise awareness of successful DOE projects. 
        Assessment of potential GHG emission reductions is needed to 
        clarify the impacts on fossil energy and fossil CO<INF>2</INF> 
        that result from biomass crops, harvesting, energy from 
        forests, etc., and moving to power plants. The goal is a fair 
        net CO<INF>2</INF> and net energy reduction value compared to 
        fossil alternatives.
  --Leverage Results From Existing/Ongoing Work on Biomass to Support 
        Biopower Efforts.--Cost-benefit analysis on feedstock type and 
        delivery systems, for example, is not entirely unique to power 
        and similar studies conducted for biomass feedstocks and 
        biofuels can be leveraged to understand the biopower landscape.
                                 ______
                                 
        Prepared Statement of The University of Texas at Austin
   continue funding for u.s. department of energy (doe) oil and gas 
         research programs, including rpsea (epact section 999)
    I appreciate your leadership efforts and support for oil and 
natural gas research. I urge you to continue to support and grow 
important fossil energy research and development (R&D) in the fiscal 
year 2011 Energy and Water Appropriations bill.
    The President's fiscal year 2011 budget request to Congress 
recommends repeal of section 999 of the Energy Policy Act of 2005 
(EPACT), which funds RPSEA, the industry-led research consortium. The 
President's budget also recommends elimination of the (already paltry) 
DOE Office of Fossil Energy budget for oil and gas R&D.
    Although I can, perhaps, understand the political underpinnings of 
these administrative recommendations, I find the recommendations to be 
short-sighted and hard to reconcile with the stated and real needs of 
our Nation. These needs include, but are not limited to: (1) access to 
vital energy as we try to recover from a recession and the largest 
increase in deficit spending ever; (2) energy to get the U.S. economy 
back on its feet; (3) access to increased domestic energy for national 
security; (4) keeping and adding (non-government) American jobs, such 
as those the domestic energy industry provides; and (5) science and 
technology innovation in fossil energy in U.S. universities.
    I have been engaged in energy production and research for nearly 
three decades. In the past 2 years, I have visited many of the premier 
energy locations and facilities:
  --Hydro in Norway
  --Wind in Denmark and West Texas
  --Geothermal in Iceland
  --Solar in Spain and California
  --Biofuel in the United States
  --Carbon sequestration in the United States
  --Liquefied natural gas (LNG) in Qatar and shale gas in the United 
        States
  --Oil in the Middle East and the United States
  --Nuclear in France and the United States
    During these visits I have met one-on-one with industry, 
government, and academic leaders, including:
  --CEO of BP, London
  --CEO of Statoil, Norway
  --CEO of Chesapeake, Oklahoma
  --CEO of BP Capital, Dallas
  --CEO of RasGas, Qatar
  --CEO of Kuwait Energy
  --CEO of Abengoa Solar, Spain
  --CEO of Renewable Energy Corporation, California
  --Deputy CEOs of Kuwait Oil and Bahrain Petroleum
  --President of Denbury, Texas
  --Vice President of Shell Offshore, Louisiana
  --Director of MIT Energy Initiative and former U.S. Under Secretary 
        of Energy
  --Director of U Texas Energy Institute and former U.S. Under 
        Secretary of Energy
  --Director of Energy Institute at Stanford
  --President of Iceland
  --U.S. Under Secretary of Energy
  --Minister of Oil, Bahrain
  --Director of the OECD Nuclear Energy Agency, Paris
  --Deputy Director of the IEA, Paris
  --Leading scientists and engineers across several energy sectors
    Perhaps most important from these visits, I have learned that there 
are no silver bullets in energy. We cannot turn off coal and switch on 
solar. We cannot turn off natural gas and turn on wind. To imply 
otherwise is disingenuous. Innovation in renewable energy is exciting 
and as the decades unfold these sources of energy will improve, address 
the intermittency, storage, cost, energy density, storage and 
transmission challenges, and become more prevalent! Meanwhile, nations 
have and will continue to use ``the energy they have, where they have 
it,'' and thus the transition to a non-fossil-fuel future will take 
many decades and will be unevenly distributed among developed, 
developing, and undeveloped nations. It is not a matter of political 
will but rather a matter of economics, scale, infrastructure, access, 
thermodynamics, and kinetics.
    Many large and developing nations continue to ramp up their 
acquisition and use of fossil fuels. This is a reality. Philosophical 
hope notwithstanding, the United States is getting its tail whipped as 
the National Oil Companies (e.g., PetroChina, Petrobras, Petronas, 
Total, Statoil, ARAMCO, and others) build on their own national 
resource base and strong government support to become major 
international players. At the same time, the few surviving 
International Oil Companies (ExxonMobil, Shell, BP, Chevron, and 
ConocoPhillips) struggle to compete, as evidenced by layoffs in the 
past year and continued mergers and acquisitions. Combined, the public 
companies of the world control less than 10 percent of world oil 
reserves. Read and digest that line again, and then think about U.S. 
security and the health of the economy as we attempt to transition into 
the future.
    Energy research is vital to stay competitive and meet the energy 
needs of our Nation. That includes research in fossil energy, which 
together supply 85 percent of our energy demand. Research is needed in 
areas such as unconventional oil, unconventional gas, carbon 
sequestration, extreme environment (Arctic, deep water, subsalt, 
subvolcanic, etc.) conventional oil and gas, and nanotechnology 
applications in oil and gas, to name just a few.
    Policy makers need to get past the notion that research support of 
fossil energy should only be supported privately. That notion is 
politically motivated, and to continue to promulgate it is hurting our 
Nation. Federal-private partnerships are everywhere and just as 
important in fossil energy as they are in renewable energy, biotech, 
pharmaceuticals, agriculture, or high tech. U.S. universities are 
woefully under funded with regard to Federal support for fossil energy. 
We are naively and idealistically giving away the U.S. science and 
engineering advantage in fossil energy research. To what end?
    I strongly support increasing DOE oil and gas research funding. 
This includes the RPSEA program, which has been instrumental in 
providing Federal support of crucial research in unconventional onshore 
natural gas and ultra-deepwater oil and gas, both of which are critical 
to U.S. energy security (affordable, available, reliable, and clean). 
RPSEA provides competitive grant monies to universities, which in turn 
leverage those monies significantly by partnering with industry. DOE 
fossil energy used to have a similar program--when they had a budget. I 
cannot say it emphatically enough: A real budget needs to be 
reinstated! Students and faculty benefit directly from research funding 
and from the insight they each can gain from working on these research 
projects. Unfortunately, this kind of research is not supported by NSF 
or other blue-sky programs.
    Both DOE fossil programs and RPSEA provide tremendous value to our 
country, creating and supporting jobs and increasing technology 
development for small and independent companies. Independent companies 
are the drivers behind the dramatic increase in natural gas reserves 
that the United States is enjoying today. Although they lack research 
facilities and staff, they are voracious fast-adapters of useful 
technology. Thus, the Federal investments we make in research funding 
are paid back many times over.
    A few final thoughts as you consider this important decision:
  --Developing nations (China, India) are aggressively pursuing and 
        acquiring energy and other resources around the globe. Ignoring 
        our huge domestic fossil energy resource base is tantamount to 
        capitulation on an international scale.
  --The United States should be conducting resource assessments of all 
        of its continental shelf areas, and we should encourage energy 
        companies to pursue these resources. Companies are willing to 
        make the huge capital outlays required to explore and develop 
        resources safely and cleanly, if they are allowed to do so. The 
        consumer and the Nation will reap the benefits, and the 
        environmental track record in the offshore is impressive and 
        well established.
  --Hydraulic fracturing has been the key to the resurgence of gas 
        production and reserves in the United States in recent years. 
        This technology is not new--it has been in use for over 50 
        years in hundreds of thousands of wells--but it has recently 
        been refined for maximum impact in unconventional gas systems, 
        particularly in horizontal wellbores. Hydraulic fracturing has 
        a safe and environmentally clean track record. Claims to the 
        contrary are unsubstantiated or fabricated and should be 
        challenged at every opportunity.
    I understand Congress' budget constraints, but it is essential to 
maintain a robust fossil energy R&D program aimed at maximizing our 
domestic fossil-energy resources. Natural gas development should be at 
or near the top of the list of the Nation's priorities. New and 
promising areas of natural gas development, such as the Barnett, 
Bakken, Marcellus, Haynesville, and Fayetteville shale, have been made 
possible through advances in technology, many of which were funded 
through DOE's research efforts and are now augmented by Roseau's 
efforts.
    Your support of fossil energy oil and natural gas R&D programs, as 
evidenced by continuing funding for RPSEA (EPACT section 999), provides 
the resources to power America's economic recovery, the new workforce 
to do it, and a solid energy foundation for the future.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                            Research (UCAR)
    On behalf of the University Corporation for Atmospheric Research 
(UCAR) and the larger university community involved in Earth sciences 
research and education, I submit this written testimony for the record 
of the Senate Committee on Appropriations, Subcommittee on Energy and 
Water Development, and Related Agencies. DOE's programs and initiatives 
in science and education directly support university and laboratory 
communities. They are also key to building a broad-based national 
resiliency to handle the great challenges of the future, including 
climate change. DOE is on the frontlines building the capacity needed 
to address these challenges, maintain a competitive advantage for the 
United States internationally, and secure an economically and 
environmentally sustainable future.
    For these reasons, I urge the subcommittee to fund the President's 
full fiscal year 2011 budget request for the DOE Office of Science at 
$5.121 billion and the Office of Energy Efficiency and Renewable Energy 
(EERE) at $2.355 billion. Furthermore, it is critical that the 
subcommittee take every step to ensure that the DOE's Science budget 
stays on track to double this decade, as authorized by the America 
COMPETES Act of 2007.
    UCAR is a consortium of 75 universities that manages and operates 
the National Center for Atmospheric Research (NCAR) on behalf of the 
National Science Foundation and the university community. UCAR and NCAR 
serve as national hubs for research and education for the atmospheric 
and Earth system sciences community. UCAR also houses community 
programs that bring geosciences communities together to address large-
scale, integrated research and education challenges. Our mission is to 
better understand the behavior of the atmosphere and related global 
systems and to help communities, States, and nations use this 
information to sustain and improve life on Earth.
    I applaud the DOE's ongoing leadership in the management of 
programs to develop clean, alternative sources of energy, enhance 
national security and independence from foreign oil, address climate 
change, and educate the workforce for the emerging global clean energy 
economy. With the following, I specifically want to highlight several 
science research and education programs that represent the DOE's 
critical investments toward a more resilient and adaptable society.
                   climate and earth system research
    The Office of Biological and Environmental Research (BER) within 
the DOE Office of Science makes fundamental contributions to the 
Nation's premier climate and Earth system models. Such models provide 
the scientific foundation for national and international decisionmaking 
on climate change--how we should respond to climate change, whether we 
should adapt or mitigate, etc.
    In particular, BER provides indispensible support to the Community 
Climate System Model (CCSM), which is being released this year in its 
fourth major iteration for use in the U.N. Intergovernmental Panel on 
Climate Change's (IPCC) Fifth Assessment Report, expected for release 
in 2014. A comprehensive and sophisticated model for analyzing Earth's 
past, present, and future, CCSM contributed the most simulated data of 
any global model to the IPCC's 2007 Fourth Assessment Report. It is 
providing decisionmakers around the world with a clearer picture of 
what the impact of sustained climate change will be on a global scale.
    CCSM is also laying the scientific foundation for higher-
resolution, downscaled models which will provide regional and local 
predictions about the impacts of climate change. This regional, 
downscaled approach is BER's stated focus for climate and Earth system 
modeling research in fiscal year 2011. Regional and local predictions 
will help States, communities, businesses, and individuals develop 
effective long-term strategies to minimize damages of climate change 
impacts, by either adapting or mitigating.
    Thanks in part to BER support, the Nation's climate models are 
becoming more realistic, incorporating more precise and complex natural 
and now human processes that are shaping the global climate. While 
uncertainties will always persist, these new capabilities will allow 
the climate science community to address the new class of societally 
relevant questions in a way that has never been done in the past. CCSM 
4, for example, will for the first time feature fully interactive 
carbon and sulfur cycles, as well as dynamic vegetation, aerosol 
effects on clouds, carbon chemistry, natural carbon sequestration via 
land surface and oceans, and interactions between the carbon cycle and 
climate.
    Frontiers for climate modeling in fiscal year 2011 include 
understanding more fully how aerosols affect cloud formation, and in 
turn radiative forcing, and how modes of natural climate variability 
(e.g., the El Nino Southern Oscillation, Pacific Decadal Oscillation, 
and Northern Annular Mode) will change as atmospheric greenhouse gas 
concentrations continue to increase. Feedback cycles such as high 
latitude ocean-ice interaction and methane release from Arctic 
permafrost are also areas of study where scientists still have much to 
learn and models still need improvement.
    Understanding and responding to climate change extends far beyond 
the capabilities of any one laboratory or agency. This is a broad, 
interagency effort, in which DOE is a key partner. New contributions to 
the design and scientific content of CCSM will not come from NCAR 
alone. While CCSM is housed and managed at NCAR, it is an open source 
climate model, which means that scientists across the Nation and the 
world make contributions and improvements.
    In order to develop more accurate, increasingly realistic, and 
higher resolution climate models, with better predictive capabilities 
for individuals, businesses, and communities, I urge you to fund the 
Office of Biological and Environmental Research (BER) within the DOE 
Office of Science at the President's full fiscal year 2011 budget 
request of $627.0 million. BER support is critical to the university 
community's most important and recognized climate modeling work.
                 advanced scientific computing research
    Also within the DOE's Office of Science, Advanced Scientific 
Computing Research (ASCR) delivers leading edge computational and 
networking capabilities to scientists nationwide, enabling advances in 
computer science and the development of specialized software tools 
necessary to research the major scientific questions being addressed by 
the Office of Science and the larger university community.
    ASCR's continued progress is of particular importance to 
atmospheric scientists involved with climate model development, because 
an enormous amount of computing power is required to address the 
interaction of the Earth's systems and global climate change. The 
complex nature of the climate processes being simulated in climate 
models requires very advanced software engineering to compute 
efficiently at the petascale. For this reason, ASCR played a critical 
role in developing the computing and networking resources for the U.S. 
contributions to the IPCC Fourth Assessment Report, and ASCR is one of 
the most important resources supporting the next generation of state-
of-the-science climate simulation tools for this country.
    Because the complex and high-resolution climate scenarios produced 
using the CCSM are too processor intensive to be run at NCAR alone, 
they are outsourced to the DOE's Leadership Computing Facilities, 
located at Oak Ridge National Laboratory (OLCF), where a 2.33 petaflop 
system is openly available to the scientific community, and also at 
Lawrence Berkeley National Laboratory/NERSC, Argonne National 
Laboratory, and Lawrence Livermore National Laboratory. Last year, 
scientists at NCAR and the University of Wisconsin used Oak Ridge's 
OLCF to simulate abrupt climate change and shed new light on an 
enigmatic period of natural global warming in Earth's relatively recent 
history. The work was featured in the July 17, 2009 issue of the 
journal Science and provides valuable new data about the causes and 
effects of global climate change. The scientists used nearly a million 
processor hours in 2008 to run one-third of their simulation. With 4 
million processor hours allocated for 2009-2011, they will complete the 
simulation, capturing climate from 14,000 years ago to the present and 
projecting it 200 years into the future.
    The results of this research and other research like this are 
brought to the broader scientific communities through another ASCR 
program, the Scientific Discovery through Advanced Computing (SciDAC) 
program. SciDAC facilitates the transfer of basic research efforts into 
computational science applications through direct partnerships between 
ASCR-supported applied mathematicians and computer scientists. In the 
case of climate change, there is a growing demand for the development 
of tools that will help inform decisionmakers about the options for 
addressing and adapting to climate change. With computation and 
simulation, scientists can model what is known about the Earth's 
systems, identify uncertainties of the models, and determine the 
observational data and experiments needed to further refine and improve 
the models.
    I urge you to fund the Advanced Scientific Computing Research 
(ASCR) within the DOE Office of Science at the President's full fiscal 
year 2011 budget request of $426.0 million. ASCR provides critical 
processor capacity and computational tools like SciDAC that are 
essential to predictive climate change research at high resolutions and 
over large time scales.
           workforce development for teachers and scientists
    The DOE Office of Science's education programs, like the Workforce 
Development for Teachers and Scientists (WDTS) Program, are also 
essential to strengthening our Nation's resilience to modern challenges 
like climate change. DOE is taking a leadership role in educating and 
training the Nation's science, technology, engineering, and mathematics 
(STEM) workforce and facilitating the development of the knowledge and 
expertise that will prepare us to address energy and environmental 
challenges.
    WDTS aims to recruit and train a pipeline of highly skilled and 
diverse STEM workers to meet our Nation's innovation and 
competitiveness challenges. To this end, WDTS sponsors workforce 
training and education programs, often based at DOE's national 
laboratories, that motivate students and educators to pursue careers 
that will contribute to both basic and applied science.
    WDTS has also launched the DOE Office of Science Graduate 
Fellowship Program to support U.S. graduate students pursuing degrees 
in areas of basic science and engineering, for up to 3 years of study. 
The goal of the Fellowship is to encourage talented students to pursue 
research-focused graduate studies in physics, chemistry, biology, 
mathematics, computer science, engineering, and environmental science.
    Programs like WDTS have produced tens of thousands of leading 
scientists, engineers, and technicians who have dedicated their careers 
to working on the great challenges of the day, including climate 
change, while pursuing answers to many of the most important scientific 
questions in physics, chemistry, biology, environmental and atmospheric 
science, and other areas of basic science. Their work will be critical 
to our Nation's success in the 21st century.
    I urge you to fund the Workforce Development for Teachers and 
Scientists (WDTS) program within the DOE Office of Science at the 
President's full fiscal year 2011 budget request of $35.6 million. We 
must ensure that the next generation workforce is better prepared to 
address growing energy and environmental challenges.
                          renewable energy r&d
    Federal investment in the scientific research and technology 
development involved with renewable energy is one of the most important 
investments we can make in our Nation's future and our ability to build 
resilience to economic and environmental challenges. Renewable energy 
conveys numerous cross-cutting benefits to society, including reducing 
our dependence on foreign oil, transforming the clean energy economy, 
decentralizing the energy market, providing new high-tech jobs, 
reducing the human toll on the environment, and mitigating global 
climate change.
    Our national research universities, along with DOE laboratories and 
an emerging private sector, are driving the country's growth in 
renewable energy and increasing the efficiency of new technologies. One 
example of such collaboration includes an NCAR partnership with DOE's 
National Renewable Energy Laboratory (NREL) and the regional utility 
company, Xcel Energy, to develop sophisticated wind forecasts for 
operational use. These provide critical information to select the most 
productive locations for new wind turbine farms, better integrate wind-
generated electricity into the power grid, and make critical decisions 
about powering down traditional coal- and natural gas-fired plants when 
sufficient winds are predicted.
    Given the critical importance to the Nation of developing 
economically and environmentally sustainable technologies for producing 
energy, I recommend that the subcommittee fully fund the President's 
fiscal year 2011 budget request for the Office of Energy Efficiency and 
Renewable Energy at $2.355 billion.
    re-energyse (regaining our energy science and engineering edge)
    Within the Office of Energy Efficiency and Renewable Energy (EERE), 
RE-ENERGYSE is a broad educational effort designed to inspire students 
and workers to study and pursue careers in science, engineering, and 
entrepreneurship related to clean energy. Today at U.S. universities, 
opportunities to pursue clean energy education are far and few in 
between. RE-ENERGYSE will help universities and community colleges 
develop cutting edge programs, with redesigned and new curricula to 
produce tens of thousands of highly skilled U.S. workers who can 
sustain American excellence in clean energy in industry, trades, 
academia, the Federal Government, and national laboratories.
    RE-ENERGYSE will also benefit from plans to partner with the 
National Science Foundation for program evaluation. This partnership 
will build on the scientific and engineering expertise of both agencies 
in the energy field and benefit from NSF's successful track record of 
integrating research with education in programs it has developed and 
administered over the past two decades.
    I urge the subcommittee to fund RE-ENERGYSE at the President's 
fiscal year 2011 request of $50.0 million.
    I want to thank the members of the subcommittee for their continued 
leadership in supporting basic and cutting-edge scientific research and 
in promoting education and workforce development in the environmental 
and other Earth sciences.

 
       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Allied Workers, Prepared Statement of............................   301
American Public Power Association, Prepared Statement of the.....   348
American Shore & Beach Preservation Association, Prepared 
  Statement of the...............................................   240
American Society for Microbiology, Prepared Statement of the.....   314
American Society of Agronomy, Prepared Statement of the..........   349
American Society of Plant Biologists, Prepared Statement of the..   302
American Wind Energy Association, Prepared Statement of the......   327
APS, Prepared Statement of.......................................   287
ASME, Prepared Statement of......................................   344
Association of State Floodplain Managers, Prepared Statement of 
  the............................................................   257
Aurora Water, Prepared Statement of..............................   285
Avalence, LLC, Prepared Statement of.............................   306

Bennett, Senator Robert F., U.S. Senator From Utah:
    Opening Statements of....................................3, 85, 158
    Questions Submitted by............................66, 145, 220, 233
Big Bear Municipal Water District, Prepared Statement of the.....   244
Biomass Energy Research Association, Prepared Statement of the...   363
Black, Steven, Chief Operating Officer, Office of Defense Nuclear 
  Nonproliferation, National Nuclear Security Administration, 
  Department of Energy...........................................    83
Board of Levee Commissioners for the Yazoo-Mississippi Delta, 
  Prepared Statement of the......................................   243
Bond, Christopher S., U.S. Senator From Missouri, Letter From....    40
Brazos River Harbor Navigation District--Freeport, Texas, 
  Prepared Statement of the......................................   249
Byrd, Senator Robert C., U.S. Senator From West Virginia, 
  Questions Submitted by........................................56, 210

Castle, Anne, Assistant Secretary for Water and Science, Bureau 
  of Reclamation, Department of the Interior.....................   171
    Prepared Statement of........................................   172
Central Utah Water Conservancy District, Prepared Statement of 
  the............................................................   282
Chambers County-Cedar Bayou Navigation District, Texas, Prepared 
  Statement of the...............................................   252
Chu, Hon. Steven, Secretary, Department of Energy................     1
    Prepared Statement of........................................     7
    Statement of.................................................     6
City of Flagstaff, Arizona, Prepared Statement of the............   247
City of Maricopa (Arizona), Prepared Statement of the............   256
City of Santa Barbara, California, Prepared Statement of the.....   273
Coal Utilization Research Council (CURC), Prepared Statement of 
  the............................................................   352
Coalition for the Commercial Application of Superconductors 
  (CCAS), Prepared Statement of the..............................   340
Coalition of Northeastern Governors, Prepared Statement of the...   311
Cochran, Senator Thad, U.S. Senator From Mississippi, Questions 
  Submitted by...................................................    77
Colorada River Commission of Nevada, Prepared Statement of the...   277
Colorado River Basin Salinity Control Forum, Prepared Statement 
  of the.........................................................   275
Colorado River Board of California, Prepared Statement of the....   285
Colorado River Energy Distributors Association (CREDA), Prepared 
  Statement of the...............................................   283
Colorado River Water Conservation District, Prepared Statement of 
  the............................................................   293
Colorado Springs Utilities, Prepared Statement of................   288
Colorado Water Congress, Prepared Statement of the...............   282
Connor, Hon. Michael L., Commissioner, Bureau of Reclamation, 
  Department of the Interior.....................................   175
    Prepared Statement of........................................   176
    Questions Submitted to.......................................   226
Crop Science Society of America, Prepared Statement of the.......   349

D'Agostino, Hon. Thomas P., Administrator, National Nuclear 
  Security Administration, Department of Energy..................    83
    Prepared Statement of........................................    90
    Statement of.................................................    87
Darcy, Hon. Jo-Ellen, Assistant Secretary, Corps of Engineers--
  Civil, Department of the Army, Department of Defense--Civil....   151
    Prepared Statement of........................................   163
    Questions Submitted to.......................................
    Statement of.................................................   161
Denver Water, Prepared Statement of..............................   283
Dolores Water Conservancy District, Prepared Statement of the....   288
Donald, Admiral Kirkland H., Deputy Administrator of Nuclear 
  Reactors, National Nuclear Security Administration, Department 
  of Energy......................................................    83
Dorgan, Senator Byron L., U.S. Senator From North Dakota:
    Opening Statements of....................................1, 83, 151
    Questions Submitted by.......................47, 134, 153, 202, 226

Electric Drive Transportation Association, Prepared Statement of 
  the............................................................   318
Energy Northwest, Prepared Statement of..........................   347
Energy Sciences Coalition, Prepared Statement of the.............   321

Federation of American Societies for Experimental Biology, 
  Prepared Statement of the......................................   330
Feinstein, Senator Dianne, U.S., Senator From California:
    Prepared Statement of........................................    86
    Questions Submitted by................................140, 211, 229
Fifth Louisiana Levee District, Prepared Statement of the........   243

GE Energy, Prepared Statement of.................................   361
Grand Valley Water Users Association, Prepared Statement of the..   278
Gulf Coast Research Laboratory, Prepared Statement of the........   347
Gulf Restoration Network, Prepared Statement of the..............   334

Harencak, Brigadier General Garrett, Principal Assistant Deputy 
  Administrator for Military Applications, National Nuclear 
  Security Administration, Department of Energy..................    83
Harkin, Senator Tom, U.S. Senator From Iowa, Questions Submitted 
  by.............................................................    65

IBACOS, Inc., Prepared Statement of..............................   322
International Association of Heat and Frost Insulators, Prepared 
  Statement of the...............................................   301
Irrigation and Electrical Districts Association of Arizona, 
  Prepared Statement of the......................................   286

Little River Drainage District, Prepared Statement of the........   245
Louisiana Department of Transportation and Development, Prepared 
  Statement of the...............................................   265
Lower Brule Rural Water System, Prepared Statement of the........   288

McConnell, Senator Mitch, U.S. Senator From Kentucky, Questions 
  Submitted by...................................................   224
Metropolitan Water District of Southern California, Prepared 
  Statement of the...............................................   294
Mississippi Valley Flood Control Association, Prepared Statement 
  of the.........................................................   268
Missouri River Association of States and Tribes, Prepared 
  Statement of the...............................................   263
Murray, Senator Patty, U.S. Senator From Washington, Questions 
  Submitted by...................................................    63

National Association of State Energy Officials, Prepared 
  Statement of the...............................................   341
National Carbon Capture Center, Prepared Statement of the........   331
National Hydrogen Association, Prepared Statement of the.........   336
National Hydropower Association, Prepared Statement of the.......   325
National Insulation Association, Prepared Statement of the.......   301
National Mining Association (NMA), Prepared Statement of the.....   304
New Mexico State Engineer, Prepared Statement of the.............   295
Northern Colorado Water Conservancy District, Prepared Statement 
  of the.........................................................   284
Nuclear Energy Institute, Prepared Statement of the..............   319
NuScale Power, Inc., Prepared Statement of.......................   339

O'Neal, Julia, Prepared Statement of.............................   310
Oglala Sioux Rural Water Supply System, Prepared Statement of the   288
Orchard Mesa Irrigation District, Prepares Statement of the......   279

Perkins County Rural Water System, Inc., Prepared Statement of 
  the............................................................   274
PNM Resources, Inc., Prepared Statement of.......................   279
Port of Harlingen--Harlingen, Texas, Prepared Statement of the...   248
Precision Custom Components, LLC, Prepared Statement of..........   300

Ramseur, Cynthia, Member, Gulf Coast Conservation Coalition and 
  Gulf Restoration Network, Prepared Statement of................   307
Red River Valley Association, Prepared Statement of the..........   259
Rosebud Rural Water System, Prepared Statement of the............   288

San Diego County Water Authority, Prepared Statement of the......   293
San Juan Water Commission, Prepared Statement of the.............   281
San Mateo County Harbor District, Prepared Statement of the......   239
Secretary, New Mexico Interstate Stream Commission, Prepared 
  Statement of the...............................................   295
Shelby, Senator Richard C., U.S. Senator From Alabama, Questions 
  Submitted by...................................................   224
Society for Industrial and Applied Mathematics (SIAM), Prepared 
  Statement of the...............................................   358
Soil Science Society of America, Prepared Statement of the.......   349
Southern Ute Indian Tribe, Prepared Statement of the.............   282
State of Colorado, Prepared Statement of the.....................   280
State of New Mexico, Prepared Statement of the...................   281
State of New York, Empire State Development Corporation, Prepared 
  Statement of...................................................   253
State of Wyoming, Prepared Statement of the......................   280
State Teachers' Retirement System, State of California, Prepared 
  Statement of the...............................................   298
Stockton Port District, CA, Prepared Statement of the............   258

Tester, Senator Jon, U.S. Senator From Montana, Statement of.....   160
The Jicarilla Apache Nation, Prepared Statement of...............   283
The Nature Conservancy, Prepared Statement of..................269, 279
The Port Authority of New York and New Jersey; State of New 
  Jersey, Department of Transportation, Prepared Statement of....   253
The Southwestern Water Conservation District, Prepared Statement 
  of.............................................................   284
The University of Texas at Austin, Prepared Statement of.........   367
Tri-County Water Conservancy District, Prepared Statement of the.   278

Uncompahgre Valley Water Users Association, Prepared Statement of 
  the............................................................   284
University Corporation for Atmospheric Research (UCAR), Prepared 
  Statement of the...............................................   369
University of Chicago, Prepared Statement of the.................   355
US Fuel Cell Council, Prepared Statement of the..................   336

Van Antwerp, Lieutenant General Robert L., Chief of Engineers, 
  Corps of Engineers--Civil, Department of the Army, Department 
  of Defense--Civil..............................................   166
    Prepared Statement of........................................   167
    Questions Submitted to.......................................   202
Ventura Port District of California, Prepared Statement of the...   272
Voinovich, Senator George V., U.S. Senator From Ohio:
    Questions Submitted by......................................79, 225
    Statement of.................................................   157

West River/Lyman Jones Rural Water System, Prepared Statement of 
  the............................................................   288
Western Resources Advocates, Prepared Statement of...............   279
Wyoming State Engineer's Office, Prepared Statement of the.......   296
Wyoming Water Association, Prepared Statement of the.............   278

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page

Additional Committee Questions...................................
  202............................................................
American Recovery and Reinvestment Act...........................   165
Aquatic Ecosystem Restoration....................................   164
Construction Program.............................................   168
Fiscal Year 2011 Discretionary Funding Level.....................   163
Inland Waterways User Fee Proposal...............................   164
Investigations Program...........................................   168
New Investments in Fiscal Year 2011..............................   164
Ongoing Priorities in the O&M Account............................   165
Operation and Maintenance Program................................   169
Overview.........................................................   163
Planning Improvements and Performance-based Budgeting............   165
Summary of Fiscal Year 2011 Program Budget.......................   168
Value of the Civil Works Program to the Nation's Economy and 
  Defense........................................................   169

                          DEPARTMENT OF ENERGY

Additional Committee Questions...................................    47
Advanced Technology Vehicles Manufacturing Loan Program..........    35
American Recovery and Reinvestment Act...........................     8
Biofuel Blends...................................................    23
Biomass and Biorefineries Research and Development...............    46
Carbon Capture...................................................    46
Contractor Pensions..............................................    43
Cost of Green Jobs...............................................    38
Department of Energy Fiscal Year 2011 Program Office Highlights..    14
Electric Vehicles................................................    22
Energy...........................................................     8
    Independence.................................................    30
    Transmission Modernization...................................    45
Fiscal Year 2011 Budget Supports Strategic Priorities............     8
Foreign Production of Energy Generation Equipment................    44
FutureGen........................................................    21
Highlights of the Fiscal Year 2011 Department of Energy Budget...    10
Hydrogen and Fuel Cell Technologies..............................    23
Hydropower.......................................................    29
Innovation.......................................................     8
International Wind Power Technology..............................    28
Legacy Management................................................    33
Loan Guarantees..................................................26, 37
Management.......................................................     9
Natural Gas......................................................    34
Nuclear:
    Power........................................................    47
    Waste........................................................    37
Offshore Wind Power..............................................    27
Project Application Process......................................    43
Security.........................................................     9
Weatherization Grants............................................    24
Yucca Mountain...................................................    30

                National Nuclear Security Administration

Additional Committee Questions...................................   134
B61 Life Extension Program.......................................   135
Defense Nuclear Nonproliferation.................................   148
Ensuring Contract Competition....................................   117
FIRP.............................................................   145
5 Year Budget Estimate Details...................................   115
Human Capital....................................................   149
Independent Cost Estimates.......................................   119
Jason's Report...................................................   118
Lifetime Extension Program (LEP)--Executive Summary..............   125
LLNL STUDY.......................................................   144
Managing Life Extension Programs...............................132, 135
National:
    Ignition Facility.....................................128, 137, 143
    Laboratory Personnel.........................................   127
    Nuclear Security Administration:
        Appropriation and Program Summary Tables--Out-year 
          Appropriation Summary Table--Fiscal year 2011 Budget 
          Tables.................................................    97
        Budget Overview..........................................    92
        Program Summaries........................................    93
Nonproliferation.................................................   137
Nuclear:
    Nonproliferation...........................................124, 131
        Efforts..................................................   142
    Surveillance.................................................   136
    Weapons......................................................   140
        Design Changes...........................................   134
1 Executive Summary..............................................   125
Physical Security Budget.........................................   146
Pit Disassembly and Conversion Facility..........................   121
Plutonium Sustainment............................................   145
Proposed Budget Allocations......................................   122
Second Line of Defense...........................................   138
Surveillance.....................................................   145
Tritium Readiness................................................   146
U.S. and Russian Plutonium Disposition...........................   139
Weapons:
    Activities...................................................   145
    Dismantlement and Disposition................................   137

                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

Additional Committee Questions...................................   202
Aging Infrastructure.............................................   227
Allocations of Fiscal Year 2011--$15 Million.....................   206
ARRA.............................................................   203
Bayou Meto, AR&LA................................................   209
Budget Policy of the Bureau of Reclamation.......................   191
CalFed...........................................................   229
California Bay-Delta Restoration Fund............................   180
Cedar Rapids Flooding............................................   181
Central Utah Project Completion Act............................185, 237
Central Valley Project Restoration Fund..........................   179
Certification Costs..............................................   199
Climate Change Adaptation......................................174, 175
Colorado River Basin.............................................   186
Columbia River...................................................   198
Desalination Research and Development............................   235
Devils Lake Levee Raise..........................................   209
Drought..........................................................   226
Effect of Proposed Budget on Authorized But Unfunded Projects....   182
Expediting Projects for Job Creation.............................   189
Fargo-Moorhead...................................................   208
Fiscal Year 2011 Planned Activities..............................   180
Fort Peck........................................................   201
General Budget Questions.......................................202, 221
Grand Prairie, AR................................................   209
Highlights of the Fiscal Year 2011 Request for Water and Related 
  Re- 
  sources........................................................   177
Howard Hanson Dam................................................   197
Infrastructure Rehabilitation....................................   183
Inland Waterway Management.......................................   193
Lake Powell......................................................   186
Levee Certification.......................................188, 195, 222
Louisiana:
    Coastal:
        Area (LCA)...............................................   220
        Restoration..............................................   187
    Hurricane Protection System..................................   204
Miscellaneous....................................................   236
National Levee Inventory.........................................   206
New Orleans Technical Report on Category 5 protection............   204
North Dakota Floods..............................................   207
Northern Plains Flooding.........................................   192
Odessa Subarea Special Study.....................................   199
Overview of the Fiscal Year 2011 Budget..........................   173
Ozark-Jeta Taylor Project, AR....................................   210
Policy and Administration........................................   179
Quagga:
    And Zebra Mussels Costs/Budgets..............................   235
    Mussel R&D Program...........................................   185
    Mussels......................................................   233
Red Bluff Diversion Dam..........................................   229
Rural Water......................................................   226
    Authority....................................................   237
    Project Backlog..............................................   200
    Projects.....................................................   183
Sacramento.......................................................   216
San Joaquin River Restoration....................................   229
    Fund.........................................................   180
Specific California Projects.....................................   212
St. Mary's Rehabilitation Project................................   200
Supporting Tribal Nations......................................174, 176
The First Year...................................................   173
Title XVI Recycled Water.........................................   227
Treasured Landscapes.............................................   174
    And Restoring Rivers.........................................   176
2011 Drought Outlook.............................................   186
Water and Related Resources......................................   177
WaterSMART.......................................................   174
Yazoo Backwater..................................................   221

                                   - 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
